<html>
<title> - CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA ANNUAL REPORT 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA
 
                             ANNUAL REPORT 2007

=======================================================================

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

 Printed for the use of the Congressional-Executive Commission on China












         Available via the World Wide Web: http://www.cecc.gov







                     U.S. GOVERNMENT PRINTING OFFICE

38-026 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


















              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House                                Senate


SANDER M. LEVIN, Michigan, Chairman  BYRON DORGAN, North Dakota, Co-Chairman
MARCY KAPTUR, Ohio                   MAX BAUCUS, Montana
TOM UDALL, New Mexico                CARL LEVIN, Michigan
MICHAEL M. HONDA, California         DIANNE FEINSTEIN, California
TIM WALZ, Minnesota                  SHERROD BROWN, Ohio
CHRISTOPHER H. SMITH, New Jersey     CHUCK HAGEL, Nebraska
EDWARD R. ROYCE, California          SAM BROWNBACK, Kansas
DONALD A. MANZULLO, Illinois         GORDON H. SMITH, Oregon
JOSEPH R. PITTS, Pennsylvania         MEL MARTINEZ, Florida
                                    

                     EXECUTIVE BRANCH COMMISSIONERS

                 PAULA DOBRIANSKY, Department of State
                CHRISTOPHER R. HILL, Department of State
                 HOWARD M. RADZELY, Department of Labor

                      Douglas Grob, Staff Director
               Murray Scot Tanner, Deputy Staff Director

                                  (ii)












                            C O N T E N T S

                              ----------                              
                                                                   Page
Preface..........................................................     1

General Overview.................................................     2

I. Executive Summary and Recommendations.........................     5

    Findings and Recommendations by Substantive Area.............     5
    Political Prisoner Database..................................    31

II. Human Rights.................................................    33

    Rights of Criminal Suspects and Defendants...................    33
    Worker Rights................................................    56
    Freedom of Expression........................................    73
    Freedom of Religion..........................................    90
    Ethnic Minority Rights.......................................   105
    Population Planning..........................................   108
    Freedom of Residence and Travel..............................   111
    Status of Women..............................................   115
    Human Trafficking............................................   120
    North Korean Refugees in China...............................   124
    Health.......................................................   126
    Environment..................................................   134

III. Development of the Rule of Law..............................   141

    Civil Society................................................   141
    Institutions of Democratic Governance........................   143
    Access to Justice............................................   148
    Commercial Rule of Law.......................................   153
    Impact of Emergencies: Food Safety, Product Quality, and 
      Climate Change.............................................   168

IV. Tibet: Special Focus for 2007................................   182

V. Developments in Hong Kong.....................................   212

VI. Endnotes.....................................................   215
























          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                       2007 ANNUAL REPORT

                                Preface

    As this report goes to press, Beijing is putting the 
finishing touches on preparations for the opening of the 
Chinese Communist Party's 17th Party Congress on October 15, 
2007. The event will mark the completion of Hu Jintao's first 
five-year term as Party General Secretary. China in the last 
year also passed another important marker--the fifth year in 
the implementation of its World Trade Organization (WTO) 
commitments. The Commission passed a marker of its own, having 
issued five previous Annual Reports on human rights and the 
development of the rule of law in China.
    This confluence of five-year markers provides a useful 
opportunity to understand the course of human rights and the 
rule of law in China. Hu Jintao ascended to the Party's top 
leadership post five years ago advocating greater government 
transparency, respect for law, protection of the environment, 
and a more creative response to rising citizen activism. Over 
the last five years, however, a different reality has unfolded. 
China's human rights practices in the last year reflected 
Chinese leaders' intolerance of citizen activism; suppression 
of information on urgent matters of public concern (including 
food safety, public health, and environmental emergencies); the 
instrumental use of law for political purposes; and the 
localization of dispute resolution as a method of insulating 
the central government and Party from the backlash of national 
policy failures. Whether or not the Chinese Communist Party's 
17th Party Congress ultimately will be associated with change 
instead of continuity on these issues remains to be seen.
    The commitments that China made five years ago when 
entering the WTO were not only important to its commercial 
development in the international marketplace, but to the 
development of the rule of law at home. These commitments 
require that China ensure nondiscrimination in the 
administration of trade-related measures and prompt publication 
of all laws, regulations, judicial decisions, and 
administrative rulings relating to trade. The required 
improvements to China's domestic rule of law should have 
assisted Chinese citizens in a wide range of areas from 
property rights, environmental protection, government 
transparency, and access to justice. Unfortunately, China has 
not lived up to its international commitments, and the unfair 
manner in which it competes in the global marketplace is 
causing alarm in the United States and around the world. Its 
instrumental use of legal reform for political purposes 
threatens its domestic rule of law.
    This report summarizes, with the detailed findings of each 
section, previous Commission recommendations in order to 
provide readers a sense of the challenges that remain in 
leveraging improvements in China's human rights and rule of law 
practices. In addition, this report demonstrates the importance 
of the Commission's Political Prisoner Database, a unique and 
powerful resource on which the Commission relies for its 
advocacy and research work, including the preparation of this 
Annual Report.
    The next year will be an important one for China, as the 
2008 Summer Olympic Games place Beijing front and center on the 
world stage. Foreign correspondents and international 
organizations are already concerned that China has not lived up 
to its promises in important areas of human rights. The 
Commission will focus attention on these issues in the coming 
year, both before and after the Olympics.

                            General Overview

    The Commission observed ongoing human rights abuses and 
stalled development of the rule of law in China during 2006-
2007. The Commission also observed increased repression in the 
Xinjiang Uighur Autonomous Region (XUAR) and Tibetan autonomous 
areas of China, stepped-up harassment of legal advocates, and 
increased restrictions on Chinese reporters. In addition, 
across the areas the Commission monitors, the following general 
themes emerged: (1) Chinese leaders' increasing intolerance of 
citizen activism and greater suppression of information on 
urgent matters of public concern (including food safety, public 
health, and environmental emergencies); (2) the instrumental 
use of law for political purposes; (3) the localization of 
dispute resolution in order to insulate the center from the 
backlash of national policy failures; and (4) the influence 
that China's linkages with the rest of the world have had on 
some aspects of its domestic rule of law and human rights 
development.


                    intolerance of citizen activism


    Chinese officials have paid particularly close attention in 
the last year to civil society organizations. Central and local 
officials not only tightened existing controls over many 
citizen organizations, but also engaged in selective use of 
rarely enforced laws to provide a legal justification for 
shutting these organizations down. The influential China 
Development Brief was closed down in 2007 after one of its 
editors was accused of violating China's Statistics Law. As a 
vice minister of the State Environmental Protection 
Administration publicly criticized a dangerous algae bloom that 
had fouled China's Lake Tai, Wu Lihong, an environmental 
activist who was among the first to bring the lake's pollution 
problems to the public's attention, languished in prison. 
Official harassment of the family members of human rights 
activists (including Rebiya Kadeer, Gao Zhisheng, Chen 
Guangcheng, and Hua Huiqi) has continued. Chinese citizens who 
have attempted to organize workers outside of the Party-
controlled All-China Federation of Trade Unions risk 
imprisonment, and particularly high-profile labor activists 
such as He Chaohui, Yao Fuxin, Wang Sen, and Hu Shigen remained 
in prison in 2007, serving out sentences that ranged from 7 to 
nearly 20 years. China's leaders rely on the disunity of 
workers to drive the economic growth on which the Party has 
staked its claim to supremacy. Notwithstanding the new Labor 
Contract Law's collective contracting provisions (which do not, 
in fact, provide for true collective bargaining, nor do they 
grant workers the right to organize or to select their own 
representatives), the Party views organized labor as it does 
citizen activism on most matters of public concern: as a threat 
to the Party's hold on power.


             instrumental use of law for political purposes


    An increasing number of provisions concerning national 
unity, internal security, social order, and the promotion of a 
``harmonious society'' crept into laws and regulations during 
2006-2007, carving out for public officials an ever-widening 
realm for official discretion. China's laws place a burden of 
undefined risk on citizens. Unbounded legal discretion is 
manifest in many ways, including the deliberate omission of 
fundamental procedural protections (such as access to a lawyer 
or a public trial) for those accused of state security crimes, 
and the use of overbroad terms (such as ``endangering state 
security,'' ``subversion,'' ``splittism,'' and ``disturbance of 
public order,'' or the arbitrary criteria used to distinguish 
between ``normal religious activities'' and illegal religious 
practices). The Commission also noted several cases in the past 
year in which the state criminalized political activists not by 
charging them with state security and disturbance of public 
order crimes, but by indicting them on offenses such as fraud, 
extortion, tax evasion, or illegal border crossing. Most 
Chinese citizens--those who refrain from unapproved political 
and religious activities--enjoyed increased room to maneuver in 
many aspects of daily life. The system provides for an 
increasing number of legal protections across many areas, but 
enforces them selectively. Against persons the Party deems to 
pose a threat to its supremacy, officials wield the legal 
system as a harsh, and deliberately unpredictable, weapon.
    It is now less obvious than before that the rapid pace with 
which China produces new legislation should be seen as a sign 
of progress. China has permitted the efficiency of legislative 
processes to become increasingly divorced from consistent and 
effective implementation. As a result, the distinction between 
the promulgation of law and the making of propaganda has become 
blurred in some instances, placing the credibility of China's 
legal and regulatory reforms at risk.


   insulation of the central leadership from the backlash of policy 
                                failure


    Throughout 2007, China's top leaders increasingly have 
encouraged the resolution of disputes through nonjudicial 
channels at the grassroots level wherever possible, insulating 
the central government from the backlash of national policy 
failures. In a March 29 speech, Supreme People's Court 
President Xiao Yang expressed concern over cases involving 
``hot button problems that can give rise to mass group 
administrative disputes.'' Xiao's call to resolve lawsuits 
involving rural land confiscations and urban home evictions 
through mediation rather than through administrative litigation 
came less than a month after China's passage of its new 
Property Law, one stated goal of which was to provide stronger 
legal protections for property rights holders. Xiao also 
spotlighted cases concerning ``enterprise restructuring, labor 
and social security, and resource and environmental 
protection.'' Party directives and State Council regulations 
concerning the petitioning system (``letters and visits,'' or 
xinfang) and administrative reconsideration system echoed the 
emphasis on dispute resolution through nonjudicial channels, at 
local levels wherever possible. A draft labor dispute 
resolution law, if adopted, would shift the focus of Chinese 
labor law to the nonjudicial, in-house resolution of labor 
disputes. This across-the-board trend appears intended, at 
least in part, to ensure that sensitive disputes do not enter 
legal channels which lead to Beijing.
    Billed as a policy of local empowerment and part of a 
measured long-term strategy to induce grassroots legal 
development, the localization of disputes actually insulates 
the center from the backlash of national policy failures. 
China's leaders remain suspicious of efforts to undo this 
insulation. In February 2007, Luo Gan, a member of the Party 
Politburo Standing Committee, warned legal officials not to be 
swayed by ``enemy forces'' trying to use the legal system to 
Westernize and divide China, and by internal forces that denied 
the Party's leadership on legal matters. He reminded them that 
the ``correct political position'' is to be consistent with the 
Party.


                 rising stakes of legal reform in china


    Among the most important developments of the last year is 
the growing impact outside of China of its domestic problems of 
implementation. China's increased engagement with the world 
economy means that events within China have an increasing 
influence on China's neighbors and trading partners. Weak or 
ineffective implementation of law and policy directly impacted 
China's international relations during 2007. A series of unsafe 
exports underscored the ways a lack of government transparency 
and weak legal institutions can have sudden and serious 
consequences on distant shores. It became more evident than 
ever during 2007 that the rest of the world has a stake in 
improved governance in China.
    Chinese and Western experts have taken note of China's use 
of diplomatic leverage and, in particular, of the way Chinese 
diplomacy in recent years has promoted a notion of national 
sovereignty that supplies China's leaders with a theoretical 
basis and rhetoric with which to resist international calls for 
improvement in its domestic human rights.\1\ Even if they may 
not all fall within the mandated scope of this Commission's 
work as understood in keeping with past precedent, these 
linkages form the backdrop against which some readers are 
likely to engage this report. Policymakers in the United States 
and elsewhere have found China's international actions 
troubling--especially when they have included China's 
opposition to, or withholding of support for, global efforts to 
combat human rights atrocities or humanitarian abuses in other 
parts of the world. China's new-found global reach affords it 
an expanded array of levers through which to reward those 
overseas who support or remain silent on its domestic human 
rights abuses, while punishing those critical of these 
practices. China's role in the UN's new Human Rights Council, 
Uzbekistan's extradition of Canadian citizen Huseyin Celil to 
China rather than allowing him to return home, some of China's 
actions related to Sudan and Darfur, and China's campaign of 
pre-Olympics surveillance and intimidation of nongovernmental 
organization activists overseas may be understood, at least in 
part, in this context.
    Even as the Commission highlights these areas of concern, 
China over the past year has issued a number of laws and 
regulations which have the potential to produce positive 
results if central and local government departments and Party 
officials prove their ability and willingness to implement them 
faithfully. Faced with popular anger over rampant corruption 
and abuse of power, China's procuracy has issued broad-ranging 
provisions, including, among others, July 2006 Provisions on 
the Criteria for Filing Criminal Cases of Dereliction of Duty 
Infringing Upon Rights, which directs procurators to prosecute 
a lengthy list of crimes of official abuse, including cases of 
torture and retaliation against petitioners. China in 2007 
passed a long-awaited Labor Contract Law which, if fully 
implemented, could provide greater regularity and procedural 
protections in hiring, firing, workplace benefits, and safety. 
The Labor Contract Law was passed amid widespread worker anger 
over cases of unpaid wages. In April 2007, the State Council 
issued the Regulation on the Public Disclosure of Government 
Information, dubbed by some observers as China's first national 
``freedom of information'' regulation. In order for this 
regulation to play an effective role, however, the government 
will have to clarify and limit the sphere of information 
considered ``state secrets.'' Finally, in preparation for the 
2008 Olympic Games, Chinese authorities adopted looser 
restrictions on foreign journalists, and issued regulations on 
the protection of the mentally ill, which could represent an 
important first step away from the almost entirely arbitrary 
police detention of the past.

                I. Executive Summary and Recommendations

                               2006-2007

            Findings and Recommendations by Substantive Area

    A summary of findings for 2006-2007 follows below for each 
area that the Commission monitors. The order of topics roughly 
follows that set forth in the Commission's mandate. In each 
area, the Commission has identified a set of specific issues 
that merit attention over the next year, and submits 
recommendations of proposed action to address each set of 
issues to Members of the U.S. Congress and Administration 
officials.


               rights of criminal suspects and defendants


    Chinese prisons in 2007 continue to hold individuals who 
were sentenced for counterrevolutionary and other crimes that 
no longer exist under the current Criminal Law. Shortly 
preceding the annual session of the former UN Human Rights 
Commission in 2005, Chinese central government officials 
pledged to ``provide relief'' to those imprisoned for political 
acts that were no longer crimes under the law. The reality is 
that Chinese citizens remain susceptible to detention and 
incarceration as punishment for political opposition to the 
government, as well as for exercising or advocating human 
rights.
    Chinese law enforcement officers routinely detain 
individuals without formal charge or judicial review. In some 
instances, police hold individuals in custody for a few days 
before ultimately releasing them, without any justification 
other than a general desire to avoid protests and other 
instances of ``social unrest'' that might undermine Party 
governance. Citizens from localities all throughout China 
travel to Beijing to voice their complaints before central 
government offices, often congregating together in 
``petitioners' villages'' on the city's outskirts. NGO and 
media sources have reported that police officers conduct night 
raids of these villages, sending petitioners to a special 
holding location called ``Majialou'' pending their forced 
repatriation home. According to Human Rights Watch, the 
detentions of more than 700 individuals in advance of the 
National People's Congress in March 2007 were ``widely seen as 
a grand rehearsal in public order tactics for two even more 
important upcoming events: the Communist Party's 17th Congress 
in October 2007 and the Olympic Games in 2008.''
    Since releasing China's Third Report on the Implementation 
of the Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment (CAT) in 2000, central 
government leaders have repeatedly emphasized their ongoing 
efforts to pass new laws and administrative regulations 
preventing, punishing, and compensating cases of torture by 
government officials. Despite international safeguards and 
recent domestic reforms designed to help guard against torture 
in China, ``persons acting in an official capacity who torture 
and ill-treat others in violation of the [CAT] generally do so 
with impunity.'' In November 2006, two senior officials from 
the Supreme People's Procuratorate called on local 
procuratorates to strengthen their supervision over criminal 
investigations, and to bring into line police who extract 
confessions through torture or who illegally gather evidence.
    Chinese defendants remain vulnerable to official abuses and 
faced mounting challenges to the defense of their legally 
protected rights during the past two years, as lawyers in 
general were increasingly called upon to contribute to the 
Party's efforts to build a ``harmonious society.'' This new 
role was first clarified in a 2006 guiding opinion by the All 
China Lawyers Association (ACLA), which the Commission analyzed 
as an effort to restrict and punish lawyers who choose to 
handle collective cases without authorization. ACLA's guiding 
opinion effectively calls on China's legal profession to 
function in the interests of the Party and state, a demand that 
conflicts with a lawyer's duty to his or her client in criminal 
cases. It also calls into question ACLA's ability to operate as 
a self-governing professional association that works in the 
interests of Chinese lawyers, without external interference.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge China's leaders in written correspondence 
        and meetings that they ensure the prompt review of 
        cases in which an individual was charged with 
        counterrevolutionary crimes, including the cases of 
        political prisoners such as labor and democracy 
        activist Hu Shigen (originally sentenced to 20 years 
        for helping to establish an unauthorized political 
        party and trade union), and former Tibetan monk Jigme 
        Gyatso (now serving an extended 18-year sentence for 
        printing leaflets, distributing posters, and later 
        shouting pro-Dalai Lama slogans in prison). 
        Commissioners should urge the immediate release of 
        these and other prisoners who continue to be deprived 
        of their liberty for non-existent crimes.
        <bullet> Request in correspondence with the Chinese 
        Embassy that when arranging trips to China, the Embassy 
        should provide information about, and access to, 
        petitioners who travel to Beijing to voice their 
        grievances, to the ``petitioners' villages'' in which 
        many previously congregated, and to the special holding 
        location called ``Majialou'' where many are detained 
        pending forced repatriation home. It is advisable to 
        reiterate the desire to visit these places upon arrival 
        in China. Commissioners should also request in pre-trip 
        correspondence and in communicating with hosts on the 
        ground that there be meetings with officials from the 
        Ministries of Public Security and State Security to 
        discuss their concrete plans for maintaining order in 
        advance of the 2008 Beijing Summer Olympic Games.
        <bullet> Urge in written correspondence and meetings 
        with China's leaders that they revise the Lawyers Law 
        and Criminal Procedure Law to provide greater rights 
        and protections to lawyers. Support international 
        educational exchanges and training that seek to bring 
        public security, procuratorate, and court officials 
        together with Chinese legal professionals to discuss 
        the relationship between lawyers and law enforcement. 
        Commissioners should also request meetings with 
        officials from the Supreme People's Procuratorate and 
        local procuratorates. Such meetings provide a unique 
        opportunity to inquire about the number of reported 
        cases of ``tortured confession'' and the number of 
        officials actually prosecuted for this crime in recent 
        years.


                             worker rights


    In 2006-2007, several high-profile incidents underscored 
the inhumane conditions and weak protections for workers in 
certain sectors of the Chinese economy. The discovery in 2007 
of a massive network of small-scale brick kilns in Shanxi and 
Hunan provinces employing kidnapped slave labor vividly 
illustrated China's inability to consistently enforce 
internationally recognized worker rights and to guarantee 
workplace safety.
    Against this backdrop, a major legislative development in 
the area of worker rights occurred with passage on June 29, 
2007, of a new Labor Contract Law, set to take effect January 
1, 2008. The law outlines a set of nationwide minimum standards 
for employment contracts. On its face, the law provides for 
collective contracts, but it does not provide for true 
collective bargaining, nor does it grant workers the right to 
organize or the right to select their own representatives. 
Among its stated aims are the promotion of longer-term 
employment relationships, increased leverage for workers vis-a-
vis employers, and an expanded role for the Party-controlled 
All-China Federation of Trade Unions, China's only recognized 
union.
    The law appears to trigger the creation of rights by 
default in certain circumstances. If an employer fails to enter 
into a written labor contract with an employee within one year 
of starting employment, an open-ended employment contract is 
deemed to exist by default. The law increases the range of 
conditions under which severance pay to workers is required, 
but it also specifies severance pay caps for high-wage workers, 
apparently in order not to burden firms that depend on such 
workers.
    A principal cause for concern with the law is uncertainty--
the statutory text leaves much to interpretation and 
clarification during implementation. Even on a point as 
fundamental as its retroactive effect, the law is unclear. 
While the law does not explicitly require employers and 
employees to enter into new contracts when it takes effect on 
January 1, 2008, neither does it say whether it will apply to 
existing employment contracts that do not comply with the new 
law.
    The law requires ``consultation'' between employers and 
trade unions on firm work rules, but says nothing about work 
rules that apply by default during the period of consultation. 
Employers must give the trade union prior notice before 
initiating terminations, but no rules govern the union's 
notification of workers. The law does not specify whether it 
will apply to employees (whether local or expatriate) of 
foreign company representative offices. Because so much has 
been left to be fleshed out through the issuance of 
supplemental regulations and interpretations during 
implementation, the law's full impact will remain unclear for 
some time.
    Promulgation of the new Labor Contract Law does not imply 
that labor disputes are now more likely than before to be 
channeled into China's courts. Current law specifies that labor 
disputes are to be handled by ``mediation, arbitration, and 
trial,'' but a new draft Law on Labor Dispute Mediation and 
Arbitration placed before the National People's Congress 
Standing Committee (NPCSC) on August 26, 2007, if passed, would 
change that by encouraging nonjudicial mediation. The draft 
entitles companies to establish labor mediation committees in-
house ``so as to solve disputes at the grassroots level,'' 
according to the Vice Chair of the NPCSC's Legislative Affairs 
Commission.
    Taken as a whole, China's emerging national labor law 
regime, billed as both strengthening worker rights and 
grassroots dispute resolution, appears more intended to make 
sure that disputes do not enter legal channels that lead to 
Beijing. Whether this represents deliberate local empowerment 
as part of a measured long-term strategy to induce grassroots 
legal development, or a strategy of crisis localization and 
insulation from the center, or some combination of both, 
remains an open question.
    The Chinese government has shown a willingness to engage in 
technical exchanges and cooperative activities with the United 
States, and to consider suggestions and recommendations on 
labor law reform from U.S. experts and scholars. Cooperation 
between the two countries is potentially significant with 
respect to China's need for progress in the area of coal mine 
safety and occupational safety. The Chinese government 
participated in a U.S. Department of Labor-supported pilot 
project on enterprise-based dispute resolution programs, 
creating labor relations committees with elected worker 
representatives.
    The Commission notes that two Chinese government agencies, 
the Ministry of Labor and Social Security (MOLSS) and the State 
Administration of Work Safety (SAWS), have undertaken 
cooperative projects and exchanges with the United States since 
2002. The cooperation between the two countries has focused on 
work safety, labor law reform, legal aid for workers, pension, 
and dispute resolution in the workplace. This year, MOLSS and 
SAWS signed or renewed six Letters of Understanding with the 
U.S. Department of Labor to continue bilateral exchange and 
cooperation.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge in meetings with Chinese officials that 
        China fully implement and strictly enforce its new 
        Labor Contract Law and, in forthcoming implementing 
        regulations and judicial interpretations, that it 
        provide all workers with an effective mechanism for 
        true collective bargaining and free union organizing.
        <bullet> Call upon the Chinese government to make 
        public the results of its investigation on the origins 
        and scale of the recent brick kiln slave labor scandal, 
        including information about the involvement of public 
        officials in protecting those kilns.
        <bullet> Press Chinese officials for answers about 
        working conditions, wage rates, overtime pay, and 
        underage labor at all enterprises throughout China, and 
        press for information on major violations to be 
        published openly.


                         freedom of expression


    Recent international concern over the global health impacts 
of food, drugs, consumer products, disease outbreaks, and 
pollution originating from China underscore the importance of 
the free flow of information in China. Public access to 
government information, at least on paper, has improved, but 
major obstacles to government transparency remain, reflecting 
the Party's overarching concern that it maintain control over 
the flow of information. In April 2007, China passed its first 
national regulation requiring all government agencies to 
release important information to the public in a timely manner, 
but the regulation's impact may be limited by the presence of a 
``state secrets'' exception that gives the government broad 
latitude to withhold information from the public.
    Perhaps the biggest obstacle, however, is the Party and 
government's control over the press, which leads to incomplete 
reporting on issues of public concern and increases 
opportunities for public officials to hide or manipulate 
information when they find it advantageous to do so. In June 
2007, Chinese media initially reported in graphic detail on a 
scandal involving the discovery of more than 1,000 forced 
laborers, including scores of teenagers and the mentally ill, 
working at brick kilns in the provinces of Shanxi and Hunan. 
But authorities later instructed journalists to limit their 
coverage and applaud the Party's rescue efforts, and warned 
parents and lawyers for victims not to speak to the media.
    Developments during 2007 suggest that the prospects for a 
free press in China remain dim. While foreign reporters in 
theory were granted some increased press freedom in accordance 
with promises China made in 2001, as part of its successful bid 
to host the 2008 Olympic Games, China continues to justify 
increased restrictions on domestic media by asserting a public 
interest in preserving order, stability, and control in the 
period around the Party's 17th Congress in October 2007, and by 
alleging corruption among Chinese reporters. Furthermore, 
foreign journalists continue to report harassment by public 
officials in China. Central government officials have urged 
local officials to cooperate more with the media, but this 
development should not be interpreted as a sign of increased 
press freedom or openness.
    The growing availability of the Internet and cell phones in 
China has given citizens unprecedented opportunities to shape 
public opinion and influence policy. In 2007, citizens used the 
Internet and other communication technologies such as cell 
phones with increasing success to raise public awareness, drive 
the reporting agendas of the state-controlled press, and force 
governments to respond to important social problems.
    Their success, however, has not been the result of any 
government policy of liberalization. Instead, the Party has 
responded to this perceived threat to its supremacy over the 
last five years by continuing to adapt regulations and 
technical measures to maintain control over the Internet, 
including requiring Web sites to be licensed, blocking access 
to politically sensitive information on the Internet, and 
detaining citizens who criticize the government online. This 
past year, at least five writers and Internet essayists were 
punished under the Article 105 ``subversion'' clause of the 
Criminal Law for posting their criticism of the government and 
Party on foreign Web sites.
    Finally, the government continues to impose prior 
restraints on publishing, preventing citizens from freely 
expressing ideas and opinions in books and magazines. In 
preparation for the Party's 17th Congress, publication and 
propaganda officials announced a crackdown on ``illegal 
publications'' and banned a number of books.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge Chinese officials at all levels that they 
        must stop blocking foreign news broadcasts and Web 
        sites, such as Voice of America, Radio Free Asia, and 
        the Commission's Web site. Formulate and promote 
        proposals that discourage China's Internet and media 
        censorship and favor online freedom. Chinese officials 
        must be made aware that the United States does not 
        block Chinese government broadcasts, news, or Web 
        sites.
        <bullet> Impress upon Chinese officials that their 
        interpretation of ``state secrets'' under Chinese law 
        does not meet international human rights standards 
        because it gives administrative officials unbounded 
        discretion to withhold information. Chinese officials 
        must be reminded that such discretion, which enables 
        officials to hide information about important events 
        such as health and environmental emergencies, threatens 
        the welfare of not only Chinese citizens but 
        individuals around the world.
        <bullet> Impress upon Chinese officials the urgency of 
        the need for them to live up to their commitment to 
        grant foreign journalists complete freedom to report in 
        China before and during the 2008 Olympic Games. To 
        date, China's fulfillment of this commitment has been 
        incomplete at best. Remind Chinese officials that their 
        continued failure to fulfill this commitment, by 
        allowing harassment and intimidation of foreign 
        journalists and the Chinese citizens they work with and 
        interview, violates both the promise they made in 
        connection with the Olympics and international human 
        rights standards for freedom of expression. Members of 
        the Congress and Administration officials are also 
        urged to press their Chinese counterparts to remove the 
        October 2008 expiration of this commitment and to grant 
        similar protections to domestic journalists, for which 
        this commitment does not apply.
        <bullet> Call on the Chinese government to release 
        political prisoners mentioned in this report who have 
        been punished for peaceful expression, along with other 
        prisoners included in the Commission's Political 
        Prisoner Database. Representative cases include: 
        freelance writer Yang Tongyan, who uses the pen name 
        Yang Tianshui (serving a 12-year sentence for 
        criticizing China's government online and attempting to 
        form a branch of the China Democracy Party); journalist 
        Shi Tao (serving a 10-year sentence for forwarding to 
        an overseas Web site instructions from propaganda 
        officials to the media); and writer Zhang Jianhong 
        (serving a 6-year sentence for criticizing China's 
        government online).


                          freedom of religion


    In both law and practice, China failed in 2007 to provide 
freedom of religion in accordance with international human 
rights standards. China's Constitution, laws, and regulations 
do not guarantee ``freedom of religion'' but only ``freedom of 
religious belief.'' China's laws and regulations protect only 
``normal religious activities'' and do not define this term in 
a manner to provide citizens with meaningful protection for all 
aspects of religious practice.
    Religious communities must register with the government by 
affiliating with one of five recognized religions, and they 
must receive government approval to establish sites of worship. 
The state tightly regulates the publication of religious texts 
and forbids individuals from printing religious materials. 
State-controlled religious associations hinder citizens' 
interaction with foreign co-religionists, including their 
ability to follow foreign religious leaders. The government 
imposes additional restrictions on children's freedom of 
religion. Chinese citizens who practice their faith outside of 
officially sanctioned parameters risk harassment, detention, 
and other abuses. In its 2007 report on religious freedom in 
China, the U.S. Department of State noted past reports of abuse 
and deaths of Falun Gong practitioners in custody.\2\
    Party leaders manipulate religion for political ends. Like 
his predecessor, President Hu Jintao has responded to an 
increase in the number of religious followers through the use 
of legal initiatives to cloak campaigns that tighten control 
over religious communities. Despite official claims in 2004 
that the Regulation on Religious Affairs (RRA) adopted that 
year represented a ``paradigm shift'' in limiting state 
intervention in citizens' religious practice, it codified at 
the national level ongoing restrictions over officially 
recognized religious communities and discriminatory barriers 
against other groups.
    Government harassment, repression, and persecution of 
religious and spiritual adherents has increased during the 
five-year period covered by this report. In 2004, the 
Commission reported that repression of religious belief and 
practice grew in severity. The Party strengthened its campaign 
against organizations it designated as cults, targeting Falun 
Gong in particular, but also unregistered Buddhist and 
Christian groups, among other unregistered communities. The 
Commission noted a more visible trend in harassment and 
repression of unregistered Protestants for alleged cult 
involvement, starting in mid-2006. The Commission reported an 
increase in harassment against unregistered Catholics starting 
in 2004 and an increase in pressure on registered clerics 
beginning in 2005. The government's crackdown on religious 
activity in the Xinjiang Uighur Autonomous Region (XUAR) has 
increased in intensity since 2001. New central government legal 
provisions and local measures from the Tibet Autonomous Region 
government intensify an already repressive environment for the 
practice of Tibetan Buddhism. Daoist and Buddhist communities 
have been subject to ongoing efforts to close temples and 
eliminate religious practices deemed superstitious, and have 
also been made subject to tight regulation of temple finances. 
Members of religious and spiritual communities outside the five 
groups recognized by the government continue to operate without 
legal protections and remain at risk of government harassment, 
abuse, and in some cases, persecution.
    Government harassment, repression, and persecution of 
religious and spiritual adherents continued in the past year, 
and worsened for some communities. In the past year, the 
government continued its campaign of persecution against the 
Falun Gong spiritual movement; issued measures that increase 
repression of Tibetan Buddhism; maintained repressive policies 
against Islamic practice in the XUAR; closed unregistered 
Protestant house church gatherings and detained house church 
leaders; continued to dictate the terms upon which Chinese 
Catholics could recognize the authority of Catholic religious 
institutions outside China and continued to detain, sequester, 
and otherwise coerce clergy into complying with official 
policies; and enforced campaigns to close unregistered Buddhist 
and Daoist temples and purge both religions of practices deemed 
as ``feudal superstitions.''
    The government has continued harassment of legal advocates 
who defend religious and spiritual practitioners. Authorities 
also have continued campaigns to restrict ``illegal'' religious 
publications, and continue to imprison religious adherents who 
publish or distribute religious materials without permission.
    Chinese officials have increased oversight of citizens' 
contacts with foreign religious practitioners within China in 
the run-up to the 2008 Olympic Games. In March 2007, Minister 
of Public Security Zhou Yongkang said the government would 
``strike hard'' against hostile forces inside and outside the 
country, including religious and spiritual groups, to ensure a 
``good social environment'' for the Olympics and 17th Communist 
Party Congress.
    The Commission has recommended in the past that the 
President and Congress urge the Chinese government to allow 
visits by the U.S. Commission on International Religious 
Freedom (USCIRF) and the UN Special Rapporteur on Religious 
Intolerance. The Commission notes that China has since hosted 
USCIRF, and that discussions about a visit by the UN Special 
Rapporteur on Religious Intolerance are reportedly in progress. 
It commends the Chinese government for providing access to 
international monitors, but it notes monitors have so far 
encountered some restrictions on their activities within China.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge in direct meetings and written 
        communications with Chinese officials that they 
        guarantee, in both law and practice, freedom of 
        religion to all Chinese citizens, in accordance with 
        Article 18 of the Universal Declaration of Human 
        Rights. Stress that this freedom extends to Tibetan 
        Buddhists' right to express devotion to the Dalai Lama; 
        Catholics' right to recognize the religious authority 
        of the Holy See, free from Chinese government 
        interference; Muslims' right to make overseas 
        pilgrimages outside state-controlled channels that 
        dictate Party loyalty; Protestants' right to congregate 
        in house churches; Falun Gong practitioners' right to 
        exercise spiritual beliefs; and all citizens' right to 
        manifest their religious and spiritual beliefs free 
        from government control and threat of harassment and 
        other abuses. Also underscore the importance of 
        protecting children's right to practice religion and 
        receive religious education.
        <bullet> Use talks and written correspondence at all 
        levels to call on the Chinese government to release 
        religious prisoners (including followers of spiritual 
        movements) mentioned in this report, along with other 
        prisoners included in the Commission's Political 
        Prisoner Database. Cases of religious prisoners include 
        Tibetan monk Choeying Khedrub (sentenced to life 
        imprisonment for printing leaflets); Bishop Jia Zhiguo 
        (detained repeatedly over the course of decades, and 
        most recently in August 2007, for involvement in the 
        unregistered Catholic Church); Pastor Wang Zaiqing 
        (imprisoned for printing and distributing religious 
        materials); and Li Chang (imprisoned for demonstrating 
        in support of Falun Gong). Spotlight religious 
        prisoners in speeches, on Web sites, and in other 
        forums. Support funding for organizations that promote 
        legal defense efforts for Chinese citizens detained and 
        imprisoned for exercising their right to freedom of 
        religion.
        <bullet> Promote opportunities, both in the United 
        States and China, for dialogue between Chinese 
        officials and overseas religious leaders, including 
        members of religious communities not officially 
        recognized within China, to underscore to Chinese 
        officials the importance of religious tolerance. 
        Opportunities for dialogue include exchange programs 
        supported by the U.S. Department of State's 
        International Visitor Leadership Program and programs 
        sponsored by nongovernmental organizations. Urge China 
        to accept training programs that inform public 
        officials of ways to bring China's own laws and 
        policies into compliance with the Chinese government's 
        domestic and international obligations. Urge the 
        Chinese government to continue access to international 
        monitors without imposing restrictions on their ability 
        to fully investigate conditions for religious freedom 
        in China.


                         ethnic minority rights


    The Chinese government recognizes and supports some aspects 
of ethnic minority identity, but represses aspects of ethnic 
minority rights deemed to challenge state authority, especially 
in the Xinjiang Uighur Autonomous Region (XUAR), Inner Mongolia 
Autonomous Region, and Tibet Autonomous Region and other 
Tibetan autonomous areas. Overall conditions vary for members 
of the 55 groups the Chinese government designates as minority 
``nationalities'' or ``ethnicities'' (minzu), but all 
communities face state controls in such spheres as governance, 
language use, culture, and religion. The government provides 
some protections in law and in practice for ethnic minority 
rights, and allows for autonomous governments in regions with 
ethnic minority populations.
    The narrow parameters of the ethnic autonomy system and the 
overriding dominance of the Communist Party, however, prevent 
ethnic minorities from enjoying their rights in line with 
international human rights standards. The central government 
has increased support for development projects in ethnic 
minority regions, but benefits to ethnic minority communities 
have been limited. Although one new development program sets 
concrete targets for improving economic and social conditions 
among ethnic minorities, it couples potentially beneficial 
reforms with measures designed to monitor and report on ethnic 
relations and perceived threats to stability.
    The Chinese government uses counterterrorism and other 
policies as a pretext for suppressing ethnic minorities' 
peaceful aspirations to exercise their rights. The government 
has characterized some expressions of ethnic minority rights as 
separatism or a threat to state security, and levied prison 
sentences on some ethnic minority rights advocates.
    The Chinese government has increased repression in the XUAR 
since 2001, building off campaigns started in the 1990s to 
squelch political viewpoints and expressions of ethnic identity 
deemed threatening to state power. Rights abuses in the region 
are far reaching and target multiple dimensions of Uighur 
identity. In addition to ``strike hard'' measures, officials 
also have enforced ``softer'' policies aimed at diluting 
expressions of Uighur identity. In recent years, local 
governments have intensified measures to reduce education in 
ethnic minority languages and have instituted language 
requirements that disadvantage ethnic minority teachers. 
Authorities in the XUAR continue to imprison Uighurs engaged in 
peaceful expressions of dissent and other nonviolent 
activities.
    Although the Chinese government granted political prisoner 
Rebiya Kadeer early release on medical parole to the United 
States in 2005, it has since launched a campaign of harassment 
and abuse against her family members in the XUAR, in an 
apparent strategy to punish Kadeer for her activism in exile. 
In 2007, a XUAR court sentenced Kadeer's son, Ablikim 
Abdureyim, to nine years in prison for ``instigating and 
engaging in secessionist activities.'' A court imposed a seven-
year prison sentence and fine in 2006 on Kadeer's son, Alim.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Provide support for U.S. organizations that 
        can provide technical assistance to the Chinese 
        government in its efforts to draft and revise 
        legislation on ethnic minority rights. Such 
        organizations might include groups already engaged in 
        legal reform projects in China. A new Chinese 
        government program for ethnic minority development, 
        issued in 2007, promotes drafting legislation to 
        protect some aspects of ethnic minority rights, 
        providing one possible opportunity for increased 
        engagement in this area.
        <bullet> Urge the Chinese government to end the 
        practice of repressing the constitutionally protected 
        right to the freedom of speech by ethnic minorities in 
        China, such as Tibetans, Uighurs, and Mongols, and of 
        punishing or imprisoning individuals of such ethnic 
        minority groups by characterizing peaceful expression 
        and nonviolent action as ``splitting the country'' or 
        ``endangering state security.'' Urge China's National 
        People's Congress and State Council to clarify within 
        their laws and regulations on state security the 
        distinction between violent terrorist behavior, and 
        nonviolent policy research and advocacy of ideas aimed 
        at expanding ethnic autonomy and rights, and provide 
        explicit legal protection for such research and 
        advocacy. Support funding for organizations that can 
        assist China in such legislative projects. Support 
        funding for organizations that promote human rights in 
        the XUAR. Because of restrictions on civil society 
        groups within the region, recipients of such funding 
        should include organizations that carry out their work 
        outside the region.
        <bullet> In talks and written correspondence, call on 
        China to release Chinese citizens imprisoned for 
        advocating ethnic minority rights, including prisoners 
        mentioned in this report and included in the 
        Commission's Political Prisoner Database. Such 
        prisoners include Uighur writer Nurmemet Yasin (serving 
        a 10-year sentence for writing a short story about a 
        caged pigeon); Mongol bookstore owner Hada (serving a 
        15-year sentence for peacefully advocating for ethnic 
        minority rights); and Tibetan schoolteacher Drolma Kyab 
        (serving a sentence of 10 years and 6 months for 
        authoring unpublished manuscripts on subjects such as 
        Tibetan history and People's Liberation Army forces in 
        Tibetan areas).
        <bullet> Express concern about the continued abuse and 
        imprisonment of Rebiya Kadeer's family members in the 
        XUAR, and call for the release of all political 
        prisoners in the region. Couple efforts to promote 
        Uighur rights within China with measures to protect 
        Uighur culture in diaspora. In particular, in light of 
        recent measures that reduce Uighur language instruction 
        within the XUAR, encourage and provide financial 
        support for organizations and projects that seek to 
        preserve Uighur language and literature in diaspora. 
        Such funding targets could include community language 
        schools that promote training in the Uighur language, 
        especially among Uighur children; literary journals 
        that publish works in Uighur; and library programs to 
        collect Uighur books published inside and outside China 
        and catalogue them by their Uighur-language titles, 
        rather than by the Mandarin-Chinese titles imposed on 
        Uighur books published within China.


                          population planning


    China continues to implement population planning policies 
that violate international human rights standards. These 
policies impose government control over women's reproductive 
lives, result in punitive actions against citizens not in 
compliance with the population planning policies, and engender 
additional abuses by officials who implement the policies at 
local levels. In 2007, the Party and government leadership 
reaffirmed its commitment to its population planning policies, 
and continues to implement such actions as charging large 
``social compensation fees'' to families that bear children 
``out of plan.''
    Violent abuses continue to be widespread, particularly when 
local officials--whose promotions and incomes are connected to 
performance on these policies--come under pressure from higher 
level officials for failing to meet family planning targets. In 
the spring of 2007, local officials in the Guangxi Zhuang 
Autonomous Region sparked large-scale protests and riots in 
response to violent and heavy-handed tactics that they used to 
enforce population planning policies, an incident which 
underscored the continued tendency of citizens to resist such 
abuses. Throughout 2006-2007, public officials continued to 
suppress citizen activists who used legal measures to spotlight 
or fight illegal and coercive population planning enforcement.
    The government has taken limited steps to address social 
problems exacerbated by population planning policies, such as 
imbalanced sex ratios and decreasing social support for China's 
aging population. In 2006, the government announced that the 
following year it would extend across China a pilot project to 
provide financial support to rural parents with only one child 
or two girls, once the parents have reached 60 years of age. At 
the same time, according to some observers, imbalanced sex 
ratios and a resulting shortage of marriage partners have 
already contributed to, or will exacerbate in the future, the 
problem of human trafficking. Sex ratios stand at roughly 118 
male births to 100 female births, with higher rates in some 
parts of the country and for second births. Demographers and 
population experts consider a normal male-female birth ratio to 
be between 103 to 107:100.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge Chinese officials promptly to release 
        Chen Guangcheng, imprisoned in Linyi city, Shandong 
        province, after exposing forced sterilizations, forced 
        abortions, beatings, and other abuses carried out by 
        Linyi population planning officials. Yinan county and 
        Linyi public security, procuratorate, and court 
        officials convicted and imprisoned Mr. Chen through a 
        process that deprived him of many of the procedural 
        protections afforded to him under Chinese law.
        <bullet> Impress upon China's leaders the importance of 
        promoting legal aid and training programs that help 
        citizens pursue compensation and other remedies against 
        the state for injury suffered as a result of official 
        abuse related to China's population planning policies. 
        Provisions in China's Law on State Compensation provide 
        for such remedies for citizens subject to abuse and 
        personal injury by administrative officials, including 
        population planning officials. Provide funding and 
        support for the development of programs and 
        international cooperation in this area.
        <bullet> Urge the Chinese government to dismantle its 
        system of population controls, while funding programs 
        that inform Chinese officials of the importance of 
        respecting citizens' diverse beliefs.


                    freedom of residence and travel


    The Chinese government still restricts freedom of residence 
through the household registration (hukou) system it first 
enacted in the 1950s. This system limits the right of Chinese 
citizens to determine their permanent place of residence. 
Regulations and policies that condition legal rights and access 
to social services on residency status have resulted in 
discrimination against rural hukou holders who migrate for work 
to urban areas. The hukou system exacerbates barriers that 
migrant workers and their families face in areas such as 
employment, healthcare, property rights, legal compensation, 
and schooling. The government's restrictions on residence, and 
discrimination in equal treatment, contravene international 
human rights standards.
    Under President Hu Jintao and Premier Wen Jiabao, the 
government has attempted to adapt this system to challenges 
created by the massive job-seeking migrant population spawned 
by economic reforms. In 2007, the Ministry of Public Security 
formulated a series of proposals to submit to the State Council 
for approval. Major reforms in the proposal include improving 
the temporary residence permit system, improving the ability of 
migrants' spouses and parents to transfer hukou to urban areas, 
and using the existence of a fixed and legal place of residence 
as the primary basis for obtaining registration in a city of 
residence. Uneven implementation of hukou reform at the local 
level has dulled the impact of national calls for change.
    The Chinese government continues to enforce restrictions on 
citizens' right to travel, in violation of international human 
rights standards. The Chinese government uses restrictions on 
international travel to punish activists and control religious 
communities. In addition, Western academics, NGOs, and even 
Commission staff and Members have been restricted in their 
ability to travel to China. The Passport Law, effective January 
2007, articulates some beneficial features for passport 
applicants, but permits officials to refuse a passport where 
``the competent organs of the State Council believe that [the 
applicant's] leaving China will do harm to the state security 
or result in serious losses to the benefits of the state.'' In 
August, Shanghai authorities denied the passport applications 
of rights defense lawyer and former political prisoner Zheng 
Enchong and his spouse, Jiang Meili. The same month, 
authorities in Beijing prevented Yuan Weijing, spouse of 
imprisoned rights activist Chen Guangcheng, from traveling 
overseas to accept an award on behalf of her husband. House 
church leader Zhang Rongliang, who resorted to obtaining 
illegal travel documents after the government refused to issue 
him a passport, was sentenced to seven and one half years' 
imprisonment in 2006 on charges of illegally crossing the 
border and fraudulently obtaining a passport. Also in 2006, 
authorities detained two leaders of the unregistered Wenzhou 
diocese, Peter Shao Zhumin and Paul Jiang Surang (who is also 
known by the name Jiang Sunian), after they returned from a 
pilgrimage to Rome. Authorities later handed down prison 
sentences of 9 and 11 months, respectively, alleging they had 
falsified passports and charging them with illegal exit from 
the country.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Raise the issue of restrictions on travel, and 
        the cases of Zhang Rongliang, Zheng Enchong, Jiang 
        Meili, and Yuan Weijing (mentioned above) in all levels 
        of talks with Chinese officials. Such dialogue might be 
        integrated into broader discussions on the promotion of 
        citizen activism and of religious freedom.
        <bullet> Urge the Chinese government to undertake the 
        following measures, in line with recommendations the 
        Commission made to the Chinese government in its 2005 
        Issue Paper titled ``China's Household Registration 
        System:'' eliminate hukou restrictions that contravene 
        domestic and international law and institute measures 
        to equalize citizens' ability to change their 
        residence; eliminate outstanding rules that link hukou 
        status to access to public services like healthcare and 
        education; support private efforts to provide social 
        services to migrants; and engage in international 
        dialogue on migration and hukou reform to develop 
        effective models for China's reform efforts.
        <bullet> Provide funding for organizations that can 
        lend legal training and support for the reform efforts 
        outlined above.


                            status of women


    Discrimination against women remains widespread in Chinese 
society, as equal access to justice has been slow to develop, 
and coercive population planning policies remain in place in 
violation of internationally recognized human rights. There is 
a lack of awareness among Chinese women of legal options when 
their rights are violated, in spite of efforts by Chinese 
officials and women's organizations to build protections for 
women into law. This is especially true of migrant women, women 
in impoverished rural areas, and women who are members of 
ethnic minorities. Moreover, a lack of reliable, publicly 
available statistical information and other data that are 
disaggregated by sex and region hinder efforts by Chinese 
women's rights activists and women's organizations to more 
accurately assess the current problems women face and 
accurately gauge how effectively laws and Party and government 
policies are being implemented.
    Within the past year, provincial and municipal governments 
continued to pass regulations to strengthen the implementation 
of the Law on the Protection of Women's Rights and Interests 
(LPWRI), which the National People's Congress Standing 
Committee amended in August 2005. The LPWRI prohibited sexual 
harassment and domestic violence, and required government 
entities at all levels to give women assistance to assert their 
rights in court. In addition, the Ministry of Public Security 
and All-China Women's Federation, among others, issued 
guidelines in 2007 that will legally obligate police officers 
to respond immediately to domestic violence calls and to assist 
domestic violence survivors, or face punishment.
    Women's organizations have been particularly active in the 
last few years, although these groups advocate on behalf of 
women's rights within the confines of government and Party 
policy. In the past year, these women's organizations, lawyers 
associations, and universities organized seminars and workshops 
to raise awareness of women's issues among lawyers, judges, 
public officials, and academics.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> In talks and in correspondence at all levels 
        call on Chinese officials to encourage further creation 
        of comprehensive social services for women, including 
        literacy programs that focus on combating illiteracy 
        among women, longer-term options for sheltering 
        domestic violence survivors, and psychological 
        counseling and suicide prevention programs, especially 
        in rural areas. Urge Chinese counterparts to support 
        initiatives that help raise public awareness of women's 
        issues and rights, especially as they affect migrant 
        women, women from rural communities, and ethnic 
        minority women.
        <bullet> Fund nongovernmental organizations that 
        provide training to independent Chinese organizations 
        that train legal officials and social service providers 
        in women's issues and rights, and that strengthen 
        collection and publication of data on issues affecting 
        women.
        <bullet> Encourage bilateral education and exchange 
        programs, such as exchanges between sister-city police 
        officers, judges, and other social service providers 
        that work on cases of domestic violence and other 
        issues affecting women.


                           human trafficking


    The National People's Congress Standing Committee revised 
the Law on the Protection of Minors on December 29, 2006, which 
took effect on June 1, 2007. Article 41 of the revised law 
contains new provisions that prohibit the trafficking, 
kidnapping, and maltreatment, including sexual exploitation, of 
minors. In July 2007, the All-China Women's Federation (ACWF) 
and the Ministry of Public Security (MPS) held the first 
National Anti-Trafficking Children's Forum, in which an MPS 
spokesperson noted the increase in the number of cases of 
forced labor trafficking and trafficking for commercial sexual 
exploitation, and an annual decrease in the number of cases 
that the MPS handled that relate to the trafficking of women 
and children for marriage and adoption. According to the MPS 
spokesperson, ``In trafficking and abduction aspects, China's 
legal protection is underdeveloped, and it needs to be further 
strengthened.'' Domestic rather than cross-border trafficking 
remains the most significant part of the problem in China. 
Women and children, who make up most cases, are trafficked from 
poorer provinces to more prosperous provinces. Metrics used to 
assess the extent of the problem in cross-border contexts may 
not adequately capture the full extent of human trafficking in 
China.

                            Recommendations

    To address this issue, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Under the Trafficking Victims Protection 
        Reauthorization Act of 2005 (Public Law 109-164), 
        authorize and appropriate funding to staff the Office 
        to Monitor and Combat Trafficking within the U.S. 
        Department of State with additional personnel who 
        possess appropriate expertise in China's unique 
        situation, in which the majority of trafficking in 
        persons remains domestic. Strengthen bilateral 
        exchanges, such as the China-U.S. Global Issues Forum, 
        and fund programs through the Department of State and 
        other U.S. government agencies that promote 
        international cooperation and address incidences of 
        domestic and cross-border trafficking of persons in 
        China, as provided for under the 2005 Act. Fund public 
        education and exchange programs in China, such as the 
        training of judges and court personnel, and assistance 
        in the investigation and prosecution of traffickers, as 
        provided for under the 2005 Act.
        <bullet> Urge the Chinese government to ratify the 
        Trafficking in Persons Protocol under the UN Convention 
        Against Transnational Organized Crime, and to adopt and 
        implement its anti-trafficking National Plan of Action. 
        Use meetings with Chinese officials to encourage the 
        implementation of best practices in investigation and 
        prosecution, such as more comprehensive victim 
        rehabilitation services and greater cross-
        jurisdictional cooperation among legal and 
        administrative departments to combat forced labor 
        trafficking and to share information about victims and 
        prosecution efforts, including systematic 
        identification of Chinese citizens that distinguishes 
        victims of international trafficking from those who 
        traveled abroad illegally. Urge Chinese officials to 
        use the media to raise citizen awareness of issues 
        related to human trafficking, such as the role that 
        corruption plays in facilitating trafficking, efforts 
        by law enforcement officials to prosecute trafficking 
        cases, how courts handle trafficking and forced labor 
        cases, and the plight of trafficking victims and 
        survivors.
        <bullet> It has been reported that the severe imbalance 
        in the male-female sex ratio created by China's 
        population planning policies has the potential to 
        severely exacerbate the trafficking of women from 
        countries such as Laos, Vietnam, and North Korea, and 
        the internal trafficking of Chinese women, for sale as 
        brides. Members of the Congress and Administration 
        officials are encouraged to fund needed research on 
        this extremely serious set of problems, especially as 
        they pertain to the trafficking of women and children 
        for marriage, adoption, and commercial sexual 
        exploitation.


                     north korean refugees in china


    The Chinese government forcibly repatriates North Korean 
refugees found on Chinese soil. Because China does not classify 
North Korean migrants as refugees, the Chinese government 
denies the UN High Commissioner for Refugees (UNHCR) access to 
this vulnerable population. North Korean refugees deported from 
China to the Democratic People's Republic of Korea face 
punishment ranging from detention in labor camps to long 
imprisonment to execution. Women are among the most vulnerable 
of the North Korean refugees in China, at risk of exploitation 
and abuse at the hands of human traffickers. The Commission 
notes numerous reports by international humanitarian workers in 
the region that during the past one to two years, the Chinese 
government has intensified its efforts to forcibly repatriate 
North Korean refugees, in part as a security preparation for 
the 2008 Olympic Games.

                            Recommendations

    To address this issue, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Use meetings and communications with Chinese 
        officials to urge them to honor their obligations under 
        the 1951 UN Convention Relating to the Status of 
        Refugees and its 1967 Protocol by halting the forced 
        repatriation of refugees, and terminating the practice 
        of automatically classifying all undocumented North 
        Korean border crossers as illegal economic migrants.
        <bullet> Press these officials to allow the UNHCR 
        unfettered access to this vulnerable refugee 
        population. Encourage them, as part of China's ongoing 
        effort to draft national refugee regulations, to 
        include provisions that establish formal and 
        transparent procedures for the review of North Korean 
        claims to refugee status.


                                 health


    During 2007, healthcare system reform focused on systems to 
reduce risks and irregularities in healthcare delivery. In July 
2007, Premier Wen Jiabao announced plans to provide a national 
health insurance plan for all urban residents, including 
children, the elderly, and the uninsured, with the aim of 
increasing the number of insured urban residents by 200 
million. The central government has selected 79 cities to 
launch pilot programs by the end of September 2007.
    While central government officials have emphasized the 
importance of combating HIV/AIDS, implementation remains highly 
problematic. A government advisor on AIDS policy has expressed 
concern that China's efforts to combat the disease have stalled 
and that funding, which in 2006 was 3 billion yuan (US$388 
million), remains inadequate. At the local level, an 
overburdened, underfunded healthcare system makes it difficult 
for governments to provide the necessary prevention and 
treatment programs. It is not uncommon for persons living with 
HIV/AIDS and their advocates to report harassment by local 
officials. In 2007, the government announced plans to spend 960 
million yuan (US$127 million) on pharmaceuticals, education, 
and efforts to reach out to the nation's homosexual community. 
The Commission will monitor the implementation and results of 
these plans in the coming months.
    Discrimination against carriers of the hepatitis B virus 
(HBV) remains widespread. Employer screening for HBV remains 
common, especially in cities. Roughly half of a general 
population sample surveyed said that they were not willing to 
work with an HBV carrier, and over half said that they would 
not hire one. State control of information relating to 
infectious diseases hampers effective public health policy and 
management. Regulations categorize as ``state secrets'' 
information on large-scale epidemics. A new Beijing municipal 
regulation contains procedural protections for mentally ill 
patients hospitalized involuntarily, but concerns about forced 
commitment of the mentally ill in the period leading up to the 
2008 Olympic Games remain.

                             Recommendation

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Call for an end to the harassment of HIV/AIDS 
        activists listed in the Commission's Political Prisoner 
        Database, such as Gao Yaojie, Wan Yanhai, and Hu Jia. 
        Call on China to ease restrictions on civil society 
        groups and provide more support to organizations that 
        address HIV/AIDS issues. Encourage Chinese officials to 
        make prevention and sensitivity training a requirement 
        for local officials. Encourage Chinese officials to 
        focus attention on the effective implementation of 
        prohibitions on discrimination against persons living 
        with HIV/AIDS and HBV in hiring and in the workplace. 
        Urge public officials to develop and fund training 
        programs to raise awareness among social service 
        providers, public officials, and educators of HBV and 
        other infectious disease-related discrimination in the 
        workplace, schools, and other community organizations.


                              environment


    China's leaders acknowledge the severity of their country's 
environmental problems, and the Chinese government has taken 
steps to curb pollution and environmental degradation. For 
example, the central government has developed an expansive 
framework of environmental laws and regulations to combat 
environmental problems. Nonetheless, effective implementation 
remains systemically hampered by noncompliance at the local 
level and administrative structures that prioritize the 
suppression of ``social unrest'' and the generation of revenue 
over environmental protection.
    Just as China's environmental policies have not kept pace 
with the country's severe environmental degradation, neither 
have they kept pace with citizens' aspirations for a vigorous 
expression of concern over environmental health and human 
rights. During 2007, China's citizens confronted environmental 
public policy with an increasing propensity not only to voice 
intense dismay with government and industry, but also to turn 
to petitions and mass protests, and to some extent the courts, 
in order to pressure public officials for greater environmental 
accountability, enforcement, and protection.
    Rural residents and middle-class urban residents have 
increased their participation in environmental activism in the 
last two to three years. Official responses to environment-
related citizen activism have included crackdowns on the free 
flow of information, and the suppression of citizen complaints 
and protest. In part because these crackdowns and suppressions 
target potential social allies instead of engaging them, 
further environmental degradation may impel China's leaders to 
acknowledge that these strategies can diminish their capacity 
to exercise effective environmental leadership over the long 
run.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Impress upon Chinese officials the urgency 
        with which they must combat the lure of revenue 
        generation over environmental protection, especially at 
        the local level, by urging China to endorse an 
        incentives system for local-level officials to adhere 
        to and enforce environmental laws and regulations. 
        Emphasize in speeches, on Member Web sites, and in 
        other fora the importance of effective local-level 
        implementation of environmental protection measures in 
        China.
        <bullet> Request meetings with officials from China's 
        State Environmental Protection Administration, 
        provincial environmental protection bureaus, and 
        experts from government, academic, and nongovernmental 
        environmental think tanks when arranging travel to 
        China. Endorse the efforts of officials who seek to 
        implement sound environmental policy by advocating for 
        improved disclosure and dissemination of pollution 
        data. Support programs that provide training for 
        Chinese officials in the conduct of environmental 
        impact hearings open to the public. Support training 
        programs in China aimed at increasing the integrity and 
        precision of environmental data collection methods, and 
        improving administration of public information 
        disclosure and dissemination concerning environmental 
        hazards and emergencies. Encourage constituents with 
        expertise and experience in successful public-private 
        environmental partnerships to build relationships with 
        provincial and city-level counterparts in China.
        <bullet> Call attention to China's practice of 
        censoring and penalizing citizens who request access 
        to, and disseminate, information relating to 
        environmental hazards and emergencies. Call on Chinese 
        officials to release and end harassment of 
        environmental activists mentioned in this report, such 
        as Wu Lihong and Tan Kai, and other environmental 
        activists included in the Commission's Political 
        Prisoner Database.


                             civil society


    Chinese officials have expressed particular concern in the 
last year over the influence that civil society organizations 
have on the course of political development in China. Central 
and local officials not only tightened existing controls over 
many of these organizations, but also engaged in the selective 
use of laws to provide a legal pretext for shutting them down. 
In a widely publicized example, the influential nongovernmental 
organization (NGO) publication, China Development Brief, was 
closed down in 2007 in part because it was accused of violating 
China's Statistics Law.
    In March, the Ministry of Civil Affairs announced that 
revisions to the key 1998 regulations on managing social 
organizations were under consideration. The revisions 
reportedly would for the first time permit international 
organizations operating in China to register with the 
government. At the same time, however, they would also retain 
one of the government's key mechanisms for political control 
over civil society organizations--the requirement that each 
organization obtain the formal sponsorship of a Party or 
government organization.
    The government recently has initiated potentially 
beneficial reforms affecting two types of civil society 
organizations: rural farmers' cooperatives and charitable 
groups. The Chinese government has created space for NGO 
participation in delivering certain services, such as poverty 
relief.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Use contacts with Chinese officials to call 
        for concrete measures that can help ease conditions for 
        civil society, including removal of the legal 
        requirement that all civil society organizations obtain 
        a Party or government sponsor organization and the 
        easing of restrictions on contact between Chinese and 
        foreign NGOs.
        <bullet> In talks and written correspondence at all 
        levels, call on the Chinese government to release 
        Chinese citizens imprisoned for forming and 
        participating in independent civil society 
        organizations, including prisoners mentioned in this 
        report and included in the Commission's Political 
        Prisoner Database. Such prisoners include Yang Tongyan 
        (also known as Yang Tianshui, sentenced to 12 years in 
        prison on subversion charges, for criticizing the 
        government online and attempting to form a branch of 
        the China Democracy Party).


                           access to justice


    The Party continues to use the courts and the legal system 
instrumentally to further its political objectives. In January 
2007, the Supreme People's Court issued several opinions 
calling on courts to insist on the Party's leadership. These 
opinions outlined in detail how lower courts should handle 
cases in order to promote the Party's ``harmonious society.'' 
In February 2007, Luo Gan, a member of the Party Politburo 
Standing Committee, warned legal officials not to be swayed by 
``enemy forces'' trying to use the legal system to Westernize 
and divide China, and internal forces that denied the Party's 
leadership on legal matters.
    In March 2007, the President of China's Supreme People's 
Court urged local judicial officials to make greater use of 
mediation and other alternative methods of dispute resolution 
in dealing with cases that touch on issues that could spark 
public protest. ``(R)ural land seizures, urban home evictions 
and demolitions, enterprise restructuring, labor and social 
security, and resource and environmental protection'' cases 
were among the issues singled out. Courts have been urged to 
increase the proportion of cases handled through mediation. 
Officials continued to implement the State Council's January 
2005 regulation on the proper handling of citizen petitions, 
which forces dispute resolution at local levels, implicitly 
making it more difficult for citizens to take appeals to 
provincial and central levels.
    In early 2006, the All China Lawyers Association (ACLA) 
issued a ``guiding opinion'' restricting the ability of lawyers 
to handle cases involving representative or joint litigation by 
10 or more litigants, or cases involving both litigation and 
non-litigation efforts. The guiding opinion further instructed 
law firms to assign only ``politically qualified'' lawyers to 
conduct the initial intake of these cases, and lawyers handling 
collective cases to attempt to mitigate conflict and propose 
mediation as the method for conflict resolution. Renowned 
lawyer Zhang Sizhi, former ACLA president, criticized the 
guiding opinion as retrogressive and warned that it would set 
the country's legal profession back several decades to the 
1980s.

                             Recommendation

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge China to examine and take steps to ensure 
        that the finality of the formal judicial process is not 
        undermined by alternative channels for dispute 
        resolution. Use meetings with Chinese officials to 
        inquire about China's steps to reform its judicial 
        personnel and budgetary systems, in order to make local 
        courts and judges less beholden to local Communist 
        Party committees and governments.


                 institutions of democratic governance


    The Ministry of Civil Affairs reported in July 2007 that 
villages in all of China's 31 provincial-level jurisdictions 
had held at least two rounds of elections since 1998, when the 
Organic Law of the Village Committees took effect. In 2006-
2007, official Chinese reports suggested that ``corrupt'' and 
``illegal'' election practices, including ``vote-rigging'' and 
``rampant'' bribery, remain widespread, and that there is 
reason to infer they are getting worse, despite numerous Party 
and government directives calling for a cleanup.
    In 2006-2007, citizens took to the streets in some areas to 
protest vote-rigging and other electoral abuses. International 
nongovernmental organization (NGO) monitors, who have been 
involved in promoting and monitoring these village elections 
since their inception, have reported that in the past two 
years, Chinese officials in many localities have increasingly 
resisted permitting either Chinese or foreign observers to 
monitor the quality, procedural integrity, and fairness of 
village elections. The powers of village committees and their 
elected leaders by law are highly circumscribed by appointed 
village Party secretaries.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Call on Chinese officials to make elections 
        more transparent by directing each province and 
        locality to openly publish on Web sites and other media 
        outlets detailed electoral information on all village 
        committee and residents committee elections, including 
        advance information on candidate nomination meetings, 
        candidate names, election dates and locations, plus the 
        total number and percentage of the vote each candidate 
        received.
        <bullet> Strongly urge Chinese officials to revive and 
        expand engagement with international NGOs specializing 
        in election monitoring.


                         commercial rule of law


    Deficiencies in legal institutions and systems of policy 
implementation have prompted a number of World Trade 
Organization (WTO) challenges, including challenges to China's 
intellectual property rights (IPR) enforcement regime and its 
provision of subsidies to domestic industry in direct 
contravention of its WTO obligations. China has shown little 
progress in correcting deficiencies that have prompted these 
cases and continues to engage in practices that deviate from 
WTO national treatment principles.
    China's long-protected banking and oil sectors were opened 
in accordance with WTO commitments that came due on December 
11, 2006. The opening of oil markets ends a longstanding state 
monopoly, but concerns about national treatment remain. New 
measures establish licensing schemes that may maintain some 
barriers to entry by new market participants without further 
regulatory loosening or relaxation of licensing requirements.
    New banking sector regulations impose stringent compliance 
and risk management duties on both corporate Boards of 
Directors and Boards of Supervisors. It is unclear how the 
rules will be implemented and enforced with respect to 
institutions, such as many foreign banks, that do not have both 
a Board of Directors and a Board of Supervisors. A new Anti-
Money Laundering Law, as well as new Bankruptcy, Anti-Monopoly, 
and Enterprise Tax Laws will have broad impact in and beyond 
the banking sector.
    In the area of transparency, developments include China's 
solicitation of comments on landmark legislation and 
regulations that came into effect in 2007 (including the new 
Labor Contract Law and Tax Law Implementation Regulations). 
Comment procedures afford interested parties some limited 
opportunities to offer input during legislative and regulatory 
development. The State Council's issuance of a landmark 
Regulation on the Public Disclosure of Government Information 
in April 2007, to take effect in May 2008, is potentially 
significant. Also potentially significant is the issuance by 
the Supreme People's Court (SPC) and Supreme People's 
Procuratorate (SPP) of measures concerning the publication of 
judicial decisions and other documents.
    The SPC issued an interpretation in 2007 concerning China's 
Law Against Unfair Competition, an important development for 
judicial reform generally speaking, with possible implications 
for IPR. China ratified World Intellectual Property 
Organization (WIPO) Copyright and WIPO Performances and 
Phonograms Treaties in June 2007. The SPC and SPP jointly 
issued an interpretation in April 2007 to clarify the 
application of several criminal law provisions in IPR cases. 
Thresholds for applying Criminal Law provisions in IPR cases 
contained in the interpretation, though higher than before, 
still permit some commercial-scale infringement to elude 
criminal sanctions.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Urge Chinese officials to close the remaining 
        loopholes contained in its April 2007 SPC-SPP joint 
        interpretation on criminal sanctions and thresholds in 
        IPR cases.
        <bullet> As a general matter, express concern to 
        Chinese counterparts about China's implementation of 
        new laws and regulations. While some new laws and 
        regulations may be welcome, they should not be seen as 
        a sign of progress unless coupled with consistent, 
        transparent, and effective implementation that meets 
        international standards. Failure to do so risks 
        reducing even good law with the best intentions to mere 
        propaganda, and diminishes the credibility of China's 
        commitment to reform and the integrity of China's legal 
        and regulatory institutions.


                         impact of emergencies


    The context of China's domestic rule of law development 
changed during 2006-2007, with a sharp rise in domestic and 
international concerns over food safety, product quality, and 
climate change. These concerns, and China's response to them, 
will both shape and be shaped by China's rule of law reforms. 
Because their impact on the course of rule of law in China is 
expected to be large, these developments are covered in added 
detail in the main body of this report.

                    Food Safety and Product Quality

    The central government has taken steps to address recent 
concerns, but inadequate and inconsistent implementation, 
corruption, and the lack of regulatory incentives hinder 
effective regulation. The lack of strong national consumer 
laws, consumer associations, and other civil society groups, 
and public officials' ongoing harassment of individuals who 
report issues relating to consumer safety, represent additional 
challenges in ensuring consumer safety.
    The State Council publicly released its national 11th Five-
Year Plan on Food and Drug Safety (2006-2010) on June 5, 2007. 
The plan calls for the implementation of strict controls to 
prevent farmers and producers from overusing pesticides and 
additives, to publish online lists of blacklisted food 
exporters and restrict their ability to export, to strengthen 
investigations of major food safety incidents, to upgrade 
standards, and to severely punish offenders. In addition, the 
General Administration on Quality Supervision, Inspection and 
Quarantine announced plans to implement the first national 
recall system by the end of 2007.

                             Recommendation

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Use meetings and written communications with 
        Chinese officials to underscore how strongly American 
        consumers desire that China reform and strengthen its 
        enforcement system for drug, food, and consumer product 
        safety. Stress the indispensability of organized 
        citizen involvement in making drug and product safety 
        effective, and continue developing and funding Sino-
        U.S. exchanges aimed at strengthening quality and 
        safety programs. Emphasize the importance of the free 
        flow of information and citizen participation in an 
        effective response to emergencies. Urge an end to the 
        suppression of information during emergencies, and to 
        the practice of penalizing those who wish to access 
        information. Take additional, concrete steps, which 
        might include adding product safety criteria to local 
        officials' performance evaluations, enhancing the 
        capacity and independence of enforcement personnel, and 
        including enhanced whistleblower protection in new 
        legislation and legislation currently under revision.

                             Climate Change

    Government publications in 2007 indicate central government 
concern with the issue of climate change, but the effectiveness 
of central government policies to address climate change 
remains to be seen. China issued its first National Assessment 
Report on Climate Change in December 2006, and a five-year 
General Work Plan for Energy Conservation and Pollutant 
Discharge Reduction on June 4, 2007. The latter establishes 
regional climate change administrations for coordinating 
interagency work on climate change, energy efficiency, and 
renewable energy. The Chinese government does not appear likely 
to accept a mandatory reduction in its greenhouse gas 
emissions.

                             Recommendation

    To address this issue, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Use contacts with Chinese officials to 
        continue promoting new areas of cooperation and new 
        opportunities for pollution-control and environmental 
        protection technology transfer, and the promotion of 
        renewable energy use. Continue developing and funding 
        educational exchanges with China regarding 
        environmental governance and climate change.


                                 tibet


    No progress in the dialogue between China and the Dalai 
Lama or his representatives is evident. After the Dalai Lama's 
Special Envoy returned to India after the sixth round of 
dialogue, he issued the briefest and least optimistic statement 
to date. Chinese officials showed no sign that they recognize 
the potential benefits of inviting the Dalai Lama to visit 
China so that they can meet with him directly.
    Chinese government enforcement of Party policy on religion 
resulted in an increased level of repression of the freedom of 
religion for Tibetan Buddhists during the past year. The 
Communist Party intensified its long-running anti-Dalai Lama 
campaign. Tibetan Buddhism in the Tibet Autonomous Region (TAR) 
is coming under increased pressure as recent legal measures 
expand and deepen government control over Buddhist monasteries, 
nunneries, monks, nuns, and reincarnated lamas. The Chinese 
government issued legal measures that, if fully implemented, 
will establish government control over the process of 
identifying and educating reincarnated Tibetan Buddhist 
teachers throughout China.
    Chinese authorities continue to detain and imprison 
Tibetans for peaceful expression and nonviolent action, 
charging them with crimes such as ``splittism,'' and claiming 
that their behavior ``endangers state security.'' The 
Commission's Political Prisoner Database listed 100 known cases 
of current Tibetan political detention or imprisonment as of 
September 2007, a figure that is likely to be lower than the 
actual number of Tibetan political prisoners. Based on sentence 
information available for 64 of the current prisoners, the 
average sentence length is 11 years and 2 months. Tibetan 
Buddhist monks and nuns make up a separate set of 64 of the 
known currently detained or imprisoned Tibetan political 
prisoners as of September 2007, according to data available in 
the Commission's Political Prisoner Database. Based on data 
available for 42 currently imprisoned Tibetan monks and nuns, 
their average sentence length is 10 years and 4 months. (It is 
a coincidence that the number of monks and nuns, and the number 
of prisoners for whom the Commission has sentence information 
available, are both 64).
    In its first year of operation, the Qinghai-Tibet railway 
carried 1.5 million passengers into the TAR, of whom hundreds 
of thousands are likely to be ethnic Han and other non-Tibetans 
seeking jobs and economic opportunities. The government is 
establishing greater control over the Tibetan rural population 
by implementing programs that will bring to an end the 
traditional lifestyle of the Tibetan nomadic herder by settling 
them in fixed communities, and reconstructing or relocating 
farm villages.

                            Recommendations

    To address these issues, Members of the Congress and 
Administration officials are encouraged to:

        <bullet> Continue to convey to the Chinese government 
        the importance and urgency of moving forward in 
        dialogue with the Dalai Lama or his representatives. 
        The most effective way for the dialogue to move forward 
        is for Chinese government officials to invite the Dalai 
        Lama to visit China and meet with him face-to-face so 
        that the Chinese and Tibetans can begin to overcome 
        obstacles to progress in the dialogue, and seek an 
        understanding that will contribute to the protection 
        and preservation of the Tibetan culture and heritage, 
        and improve China's stability, prosperity, and harmony.
        <bullet> Convey to the Chinese government the 
        importance of respecting the Tibetan people's right to 
        freedom of religion, and of not using the law as an 
        instrument to deprive Tibetans and other Chinese 
        citizens of that right. Freedom of religion includes 
        the right of Tibetan Buddhists to identify and educate 
        their religious teachers in a manner consistent with 
        their preferences and traditions, without regulation 
        and supervision by the Chinese government. Continue to 
        urge the Chinese government to allow international 
        observers to visit Gedun Choekyi Nyima, the Panchen 
        Lama as recognized by the Dalai Lama, and his parents.
        <bullet> Increase funding for U.S. nongovernmental 
        organizations to develop programs that can assist 
        Tibetans to increase their capacity to protect and 
        develop their culture, language, and heritage; that can 
        help to improve education, economic, and health 
        conditions of ethnic Tibetans living in Tibetan areas 
        of China; and that create sustainable benefits without 
        encouraging an influx of non-Tibetans into these areas. 
        Such assistance to Tibetans is of increased importance 
        following the start of operation of the Qinghai-Tibet 
        railway.
        <bullet> Raise in meetings and correspondence with 
        Chinese officials the cases of Tibetans who are 
        imprisoned as punishment for the peaceful exercise of 
        human rights. Representative cases include: monk 
        Choeying Khedrub (sentenced to life imprisonment for 
        printing leaflets); and reincarnated lama Bangri 
        Chogtrul (serving a sentence of 18 years commuted from 
        life imprisonment for ``inciting splittism'').

    The Commission's Executive Branch members have participated 
in and supported the work of the Commission, including the 
preparation of this report. The views and recommendations 
expressed in this report, however, do not necessarily reflect 
the views of individual Executive Branch members or the 
Administration.
    This report was adopted by a vote of 20 to 1.<dagger>

                      Political Prisoner Database


                    a powerful resource for advocacy


    Most of the Annual Report's sections provide information 
about Chinese political and religious prisoners\3\ in the 
context of specific human rights and rule of law abuses, and as 
the result of the Chinese Communist Party and government's 
application of policies and laws. The Commission relies on the 
Political Prisoner Database (PPD) for its own advocacy and 
research work, including the preparation of the Annual Report, 
and routinely uses the database to prepare summaries of 
information about political and religious prisoners for Members 
of Congress and senior Administration officials.
    The Commission invites the public to read about issue-
specific Chinese political imprisonment in sections of this 
Annual Report, and to access and make use of the PPD at http://
ppd.cecc.gov. 
    The PPD has served, since its launch in November 2004, as a 
unique and powerful resource for governments, nongovernmental 
organizations (NGOs), educational institutions, and individuals 
who research political and religious imprisonment in China, or 
that advocate on behalf of such prisoners. The most important 
feature of the PPD is that it is structured as a genuine 
database and uses a powerful query engine. Though completely 
Web-based, it is not an archive that uses a simple or advanced 
search tool, nor is it a library of Web pages and files. The 
PPD received approximately 28,000 online requests for prisoner 
information during the 12-month period ending July 31, 2007. 
About one-quarter of the requests for prisoner information 
originated from government Internet domains (.gov).


                          political prisoners


    The PPD seeks to provide users with prisoner information 
that is reliable and up-to-date. Commission staff members work 
to maintain and update political prisoner records based on 
their areas of expertise. Staff seek to provide objective 
analysis of information about individual prisoners, and about 
events and trends that drive political and religious 
imprisonment in China.
    The PPD contained approximately 4,060 individual case 
records of political imprisonment in China as of September 
2007. The Dui Hua Foundation, based in San Francisco, and the 
Tibet Information Network, based in London, shared their 
extensive experience and data on political and religious 
prisoners in China with the Commission to help establish the 
database.\4\ The Dui Hua Foundation continues to do so. The 
Commission also relies on its own staff research for prisoner 
information, as well as on information provided by NGOs and 
other groups that specialize in promoting human rights and 
opposing political and religious imprisonment.


                          database technology


    The PPD aims to provide a technology with sufficient power 
to cope with the scope and complexity of political imprisonment 
in China. Upgrades to the database should be in operation 
before publication of the Commission's 2008 Annual Report, and 
will increase the number of types of information available and 
allow the PPD to function in an interactive manner with other 
Commission resources and reports. The upgrade will leverage the 
capacity of these Commission resources to support research, 
reporting, and advocacy by the U.S. Congress and 
Administration, and by the public, on behalf of political and 
religious prisoners in China.

     Providing Information to Users While Respecting Their Privacy

    The design of the PPD allows anyone with Internet access to 
query the database and download prisoner data without providing 
personal information to the Commission, and without the PPD 
downloading any software or Web cookies to a user's computer. 
Users have the option to create a user account, which allows 
them to save, edit, and reuse queries, but the PPD does not 
require a user to provide any personal information to set up 
such an account. The PPD does not download software or a Web 
cookie to a user's computer as the result of setting up such an 
account. Saved queries are not stored on a user's computer. A 
user-specified ID (which can be a nickname) and password are 
the only information required to set up a user account.

               Powerful Queries Provide Useful Responses

    Each prisoner's record describes the type of human rights 
violation by Chinese authorities that led to his or her 
detention. These include violations of the right to peaceful 
assembly, freedom of religion, freedom of association, and free 
expression, including the freedom to advocate peaceful social 
or political change and to criticize government policy or 
government officials. Since inception, the PPD has allowed 
users to conduct queries on 19 categories of prisoner 
information. Users may search for prisoners by name, using 
either the Latin alphabet or Chinese characters. Users may 
construct queries to include one or more types of data, 
including personal information (ethnic group, sex, age, 
occupation, religion), or information about imprisonment 
(current status of detention, place of detention, prison name, 
length of sentence, legal process).
    Many records contain a short summary of the case that 
includes basic details about the political or religious 
imprisonment and the legal process leading to imprisonment. 
Users may download and save the results of queries as Adobe 
Acrobat files or Microsoft Excel spreadsheets.

               Upgrading the Database To Leverage Impact

    The Commission expects to begin work to upgrade the PPD 
soon after publication of the 2007 Annual Report. When 
completed, the upgrade will approximately double the number of 
types of information available, making it possible for users to 
query for and retrieve information such as the names and 
locations of the courts that convicted political and religious 
prisoners, and the dates of key events in the legal process 
such as sentencing and decision upon appeal. The upgrade will 
double the length of the short summary about a prisoner. Users 
will be able to download PPD information more easily, whether 
for a single prisoner record, a group of records that satisfies 
a user's query, or all of the records available in the 
database.
    The upgrade will also enable the PPD to provide Web links 
in a record's short summary that can open reports, articles, 
and texts of laws that are available on the Commission's Web 
site or on other Web sites. In the same way, Web links in 
Commission reports and articles will be able to open a 
prisoner's PPD record. The Commission intends that streamlining 
and enhancing a user's browsing and research experience will 
leverage the impact of Commission resources and contribute in a 
tangible manner to a user's research and advocacy efforts on 
behalf of political and religious prisoners in China.

                            Recommendations

    When composing correspondence advocating on behalf of a 
political or religious prisoner, or preparing for official 
travel to China, Members of the Congress and Administration 
officials are encouraged to:

        <bullet> Check the database (http://ppd.cecc.gov) for 
        reliable, up-to-date information on one prisoner, or on 
        groups of prisoners.
        <bullet> Check a prisoner's database record for 
        available information on the public and state security 
        issues, laws, and legal processes that may apply to the 
        prisoner's case.
        <bullet> Advise official and private delegations 
        traveling to China to present Chinese officials with 
        lists of political and religious prisoners compiled 
        from database records.
        <bullet> Urge U.S. state and local officials and 
        private citizens involved in sister-state and sister-
        city relationships with China to explore the database, 
        and to build new advocacy efforts for the release of 
        political and religious prisoners in China.

                            II. Human Rights

               Rights of Criminal Suspects and Defendants


                              introduction


    Since 2001, the Commission has been monitoring the 
development of human rights and the rule of law in China. The 
Commission's legislative mandate calls for scrutiny of Chinese 
government actions that either comply with or violate the 
fundamental human rights enjoyed by all individuals, including 
those individuals accused of a crime under China's domestic 
laws. The mandate calls specifically for the monitoring of 
criminal defendants' rights, 
including the right to be tried in one's own presence; to 
defend oneself in person or through legal assistance; to be 
informed of the 
opportunity for trial and criminal defense; to receive legal 
aid services where necessary; to be afforded a fair and public 
hearing by a competent, independent, and impartial tribunal; to 
be presumed innocent until proven guilty; and to be tried 
without undue delay.\1\ In addition, the mandate requires that 
the Commission focus continuing attention on those individuals 
believed to be imprisoned, detained, placed under house arrest, 
tortured, or otherwise persecuted by Chinese government 
officials in retaliation for the mere pursuit of their 
rights.\2\
    The Commission's annual report recommendations over the 
past five years have focused on the gap between mere legal 
ideals and actual law enforcement practice. In 2002, 2004, and 
2006, the Commission underscored the continuing need to help 
fund and strengthen the work of criminal defense lawyers in 
China. In 2003, and again in 2006, the Commission emphasized 
that the detention and imprisonment of activists and rights 
defenders only serve to undermine the legitimacy of China's 
developing legal system. It thus called for the need to press 
for release of targeted individuals. Between 2002 and 2004, the 
Commission underscored the significance of multilateral and 
diplomatic efforts in encouraging the Chinese government to 
grant unconditional visits to the UN Working Group on Arbitrary 
Detention and the UN Special Rapporteur on Torture.\3\ Based on 
the findings of those UN bodies, the Commission focused in 2006 
on the urgency of reforming China's administrative detention 
system, abolishing forced labor practices, and 
ensuring that the procuracy exercise greater oversight over 
police abuses.
    Domestic and international developments in 2006 have helped 
to highlight the Chinese leadership's desire to increase 
China's profile among the international community of rule of 
law nations. China was elected to serve for a three-year term 
on the newly established UN Human Rights Council, noting in its 
application that it had acceded to 22 international human 
rights accords, including 5 of the 7 core conventions.\4\ The 
Chinese government promised that it would amend its Criminal, 
Civil, and Administrative Procedure Laws, as well as reform its 
judiciary, in preparation for ratification of the International 
Covenant on Civil and Political Rights.\5\ In addition, Chinese 
citizens were appointed to lead international bodies such as 
the International Association of Anti-Corruption Authorities 
and the World Health Organization.\6\
    While the Commission recognizes the progress that China has 
made in bringing its own practices into compliance with 
international standards, it also notes that significant gaps 
remain within Chinese laws and regulations, and between law on 
the books and law in action. The ideals embodied in recent 
legal and regulatory reforms are positive first steps, but 
nonetheless incomplete, and have not necessarily translated 
into the everyday practice of local law enforcement officers. 
For example, international human rights standards require that 
due process of law be accorded to all criminal suspects and 
defendants, and that they be free from torture, arbitrary 
detention, and prosecution on the basis of their political 
opinions or exercise of human rights.\7\ Nonetheless, China's 
Criminal Law, Criminal Procedure Law, and accompanying 
regulations leave too much room for discretion and abuse. As a 
result, NGO and media reports indicate that criminal defense 
efforts have been hampered, numerous Chinese citizens continue 
to be arbitrarily detained and convicted, and torture remains 
widespread.
    The Commission's findings in this section have been placed 
in the context of five years of monitoring and reporting on 
criminal justice reform, and take into account some of the 
systemic problems that have persisted throughout China during 
that timeframe. In many areas of criminal procedure, reforms 
that were initiated several years ago have stalled in the past 
year, and failed to achieve the goals of better protecting 
human rights and guarding against official abuse. The problems 
that persist, and the reforms designed to confront those 
problems, are analyzed in greater detail throughout the 
remainder of this section. The first part of the section 
discusses continuing abuses of criminal law and procedure, 
while the second part turns to institutional failings that make 
these abuses possible.


          law in action: abuses of criminal law and procedure


                          Arbitrary Detention

    The UN Working Group on Arbitrary Detention (UNWGAD) 
defines the deprivation of personal liberty to be ``arbitrary'' 
if it meets one of the following criteria:

        <bullet>  there is clearly no legal basis for the 
        deprivation of liberty;
        <bullet>  an individual is deprived of his liberty 
        because he has exercised rights and freedoms guaranteed 
        under the Universal Declaration of Human Rights (UDHR) 
        or International Covenant on Civil and Political Rights 
        (ICCPR); or
        <bullet>  non-compliance with the standards for a fair 
        trial set out in the UDHR and other relevant 
        international instruments is sufficiently grave to make 
        the detention arbitrary.\8\

    The ICCPR provides that the deprivation of an individual's 
liberty is permissible only ``on such grounds and in accordance 
with such procedure as are established by law,'' and that an 
individual must be promptly informed of the reasons for his 
detention and any charges against him.\9\
    Arbitrary detention in China takes several different forms, 
including detention and incarceration for the peaceful 
expression of civil and political rights, detention and 
incarceration in circumvention of criminal procedure 
protections, and illegal extended detention in violation of 
China's own Criminal Procedure Law.
Political Crimes
    China's Criminal Law was revised by the National People's 
Congress in 1997 to eliminate mention of the socialist 
revolution and counterrevolutionary crimes, but to otherwise 
preserve the political and economic orientation of the Chinese 
criminal justice system:

        The aim of the Criminal Law of the People's Republic of 
        China is to use criminal punishments to fight against 
        all criminal acts in order to safeguard security of the 
        State, to defend the State power of the people's 
        democratic dictatorship and the socialist system, to 
        protect property owned by the State, and property 
        collectively owned by the working people and property 
        privately owned by citizens, to protect citizens' 
        rights of the person and their democratic and other 
        rights, to maintain public and economic order, and to 
        ensure the smooth progress of socialist 
        construction.\10\

    Nonetheless, Chinese prisons continue to hold individuals 
who were sentenced for counterrevolutionary and other crimes 
that no longer exist under the current Criminal Law.\11\ 
Shortly preceding the annual session of the UN Human Rights 
Commission in 2005,\12\ Chinese central government officials 
pledged to ``provide relief'' to those imprisoned for political 
acts that were no longer crimes under the law.\13\ The U.S. 
State Department reported that in 2006, despite the urging of 
foreign governments, the Chinese government had yet to conduct 
a national review of such cases and continued to hold 
approximately 500 individuals in prison for 
counterrevolutionary crimes alone.\14\
    Developments over the last year have breathed new life into 
this issue. The Dui Hua Foundation, which researches and seeks 
to curb political imprisonment, recently confirmed that on 
November 11, 2007, Chinese authorities will release one of the 
last known prisoners serving a sentence for the former crime of 
``hooliganism.'' \15\ Authorities originally detained Li 
Weihong, a manufacturing worker in Changsha city, Hunan 
province, in April 1989 for helping to organize protests that 
subsequently turned 
violent. In February 2006, authorities released journalist Yu 
Dongyue, who was detained for throwing paint during the 
Tiananmen democracy protests of 1989 and later convicted of 
``counterrevolutionary propaganda'' and ``counterrevolutionary 
sabotage and incitement.'' \16\ Numerous others remain in 
prison for counterrevolutionary crimes, including: Hu Shigen, 
who helped to establish the China Free Trade Union Preparatory 
Committee and China Freedom and Democracy Party, and was later 
convicted of ``organizing and leading a counterrevolutionary 
group'' and ``engaging in counterrevolutionary propaganda and 
incitement'' \17\ [see Section II--Worker Rights for additional 
information about his case]; and former Tibetan monk Jigme 
Gyatso, who was detained for distributing pro-independence 
leaflets and putting up posters and later convicted of 
``forming a counterrevolutionary organization'' \18\ [see 
Section IV--Tibet for additional information about his case].
    The Chinese central government officially maintains that 
there are no ``political prisoners'' in China, but ample 
evidence suggests that the Criminal Law is routinely abused to 
target and imprison individuals for their political opinions or 
the exercise of their fundamental human rights. China's 
official position on this issue has remained the same since 
1991, when the State Council Information Office issued its 
first white paper on human rights: ``In China, ideas alone, in 
the absence of action which violates the criminal law, do not 
constitute a crime; nobody will be sentenced to punishment 
merely because he holds dissenting political views.'' \19\ 
However, since 2002, the Commission has reported on the 
repeated 
harassment, detention, and imprisonment of political 
dissidents, journalists, writers, lawyers, human rights 
defenders, Protestants, Catholics, Falun Gong practitioners, 
Tibetans, and Uighurs, among other groups. Many of these 
individuals continue to serve long prison or reeducation 
through labor sentences as a result of their peaceful exercise 
of fundamental rights guaranteed under China's Constitution, 
the UDHR, and the ICCPR.\20\
    The ability of local law enforcement officers to target and 
punish these individuals is made possible, in large part, by 
the existence of vague criminal and administrative provisions, 
which allow for the punishment of activists for crimes of 
``disturbing public order'' and ``endangering state security.'' 
\21\ Over the past five years, the Commission has reported on 
numerous instances in which these two categories of crimes have 
been used to charge and convict individuals for their politics, 
beliefs, and affiliations.\22\ After a 2004 visit to China, the 
UN Working Group on Arbitrary Detention (UNWGAD) recommended 
that the Chinese government define these crimes in precise 
terms and create exceptions under the Criminal Law for peaceful 
activity in the exercise of fundamental rights guaranteed by 
the UDHR.\23\ In his March 2006 report to the UN, Special 
Rapporteur on Torture Manfred Nowak noted that to date, 
UNWGAD's recommendation has not been implemented.\24\ He 
further concluded: ``The vague definition of these crimes 
leaves their application open to abuse particularly of the 
rights to freedom of religion, speech, and assembly.'' \25\ In 
its 2006 Annual Report, the Commission echoed these 
international calls for greater clarity in the definition of 
such crimes under Chinese law. No progress has been made on 
this front.
    The reality is that Chinese citizens remain susceptible to 
detention and incarceration as punishment for political 
opposition to the government, as well as for exercising or 
advocating human rights. China's leaders say that they are 
committed to building a fair and just society based on the rule 
of law, with adequate guarantee of civil and political rights. 
In order to demonstrate true commitment to these claims, 
China's leaders need to ensure the prompt review of cases in 
which an individual was charged with counterrevolutionary 
crimes. They have already set a precedent for doing so, by 
resolving and releasing one of the last known prisoners serving 
a sentence for hooliganism, another crime eliminated by the 
1997 revision to the Criminal Law. Logical next steps would 
include taking prompt action to clarify the Criminal Law's 
vague definitions of crimes that ``disturb public order'' or 
``endanger state security,'' and providing for the parole or 
immediate release of all political prisoners.
Detention Outside the Criminal Process
    Chinese law enforcement officers routinely detain 
individuals without formal charge or judicial review, in 
contravention of international human rights standards and 
Chinese law. Both the UDHR and ICCPR provide that everyone is 
entitled to a ``fair and public hearing'' by an ``independent 
and impartial tribunal,'' and that the accused shall enjoy 
``the right to be presumed innocent until proved guilty 
according to law.'' \26\ These guarantees have been 
incorporated into China's Criminal Procedure Law (CPL) and 
related regulations. Nevertheless, public and state security 
officials regularly authorize mass security sweeps and take 
advantage of law 
enforcement tools that include incommunicado detention, 
surveillance, house arrest, and administrative detention 
measures such as reeducation through labor, to harass and 
control Chinese citizens.
    In some instances, police hold individuals in custody for a 
few days before ultimately releasing them, without any 
justification other than a general desire to avoid protests and 
other instances of social unrest that might undermine Party 
governance. The CPL permits detention without arrest or charge, 
but generally requires notification of family members or the 
detainee's workplace within 24 hours of custody.\27\ Public 
security officials have been known to conduct mass security 
sweeps during politically sensitive periods in China, including 
the approach of significant public anniversaries, the annual 
sessions of Party or central government officials, and the 
duration of visits by foreign dignitaries.\28\ Citizens from 
localities throughout China travel to Beijing to voice their 
complaints before central government offices, often 
congregating together in ``petitioners' villages'' on the 
city's outskirts. [See Section III--Access to Justice for a 
discussion of petitioning]. NGO and media sources have reported 
that police officers conduct night raids of these villages, 
sending petitioners to a special holding location called 
``Majialou'' pending their forced repatriation home.\29\ In 
2006, a senior official from the Ministry of Public Security 
justified such security sweeps on the basis of the government's 
need to ``manage public order'' and to ``reduce some of the 
factors threatening social stability.'' \30\
    In March 2007, officials launched ``the largest `clean-up' 
operation by the police in recent years'' and detained over 700 
individuals.\31\ According to Human Rights Watch (HRW), the 
detentions of more than 700 individuals in advance of this 
year's session of the National People's Congress were ``widely 
seen as a grand rehearsal in public order tactics for two even 
more important upcoming events: the Communist Party's 17th 
Congress in October 2007 and the Olympics Games in 2008.'' On 
August 30, officials posted notice of imminent plans to 
demolish an area bordering the southern railway station in 
Beijing, where an estimated 3,000 to 4,000 petitioners 
congregate.\32\ The notice provides a three-week deadline for 
relocation and attributes the timing of the demolition to 
planned road construction, but HRW asserts that it may also be 
the result of the ``clean-up'' in advance of the Party 
Congress.\33\
    In other instances, Chinese law enforcement officers have 
relied on measures such as surveillance and house arrest\34\ to 
punish and control political activists, despite the lack of any 
legal basis for such deprivations of liberty. Brad Adams, 
Director of HRW's Asia Division, has commented that house 
arrest is becoming ``the weapon of choice for the authorities 
in silencing and repressing civil rights activists.'' \35\ He 
added, ``It is imposed at the entire discretion of the police 
and takes place outside of any legal procedure--you can't get 
more arbitrary than that.'' The case of Chen Guangcheng, a 
legal advocate who exposed and challenged the abuses of local 
population planning officials in Linyi city, Shandong province, 
provides one concrete example to support HRW's analysis. Public 
security officials at the county level placed Chen under house 
arrest in September 2005, one year before authorities 
ultimately charged and convicted him.\36\ A network of Chinese 
human rights activists and groups worked with Chen's defense 
lawyers to submit information about his case to the UNWGAD, the 
UN Special Rapporteur on the Independence of Judges and 
Lawyers, and the Special Representative of the Secretary 
General for Human Rights Defenders.\37\ Around the time of 
Chen's retrial on November 27, 2006, the same public security 
officials issued a formal decision to place Chen's wife, Yuan 
Weijing, under house arrest from November 28, 2006 until May 
27, 2007.\38\ Despite the expiration date made explicit in this 
order, security officers reportedly obstructed Yuan's attempts 
to meet with U.S. Embassy officials in July 2007 and prevented 
her from exiting the country in August to receive an award on 
behalf of her husband.\39\
    In cases where there is insufficient evidence to proceed 
with formal prosecution,\40\ or it is expedient for the local 
government to keep watch over an activist for up to several 
years,\41\ public security officials have taken advantage of 
their power to punish Chinese citizens through administrative 
sanction. Chinese law allows for punishment that includes 
``administrative,'' rather than criminal, detention of 
individuals who have been accused of ``public security'' 
offenses such as public order disturbances, traffic offenses, 
prostitution, and other ``minor crimes'' under the Criminal 
Law.\42\ Pursuant to the Public Security Administration 
Punishment Law (PSAPL), effective March 1, 2006, public 
security officials can impose sanctions ranging from a warning 
or fine, to a maximum of 20 days in administrative 
detention.\43\ A total of 165 offenses, including ``taking on 
the name of religion or qigong to carry out activities 
disturbing public order,'' \44\ are subject to sanctions under 
the PSAPL. In November 2006, three house church Christians in 
Wendeng city, Shandong province, succeeded in forcing the local 
public security bureau (PSB) to rescind its decision to hold 
them in administrative detention for 10 days for allegedly 
committing this particular offense under the PSAPL.\45\ Their 
success was attributable to the PSB's willingness to reach an 
out-of-court settlement and therefore avoid the issue of 
whether the detention had violated their constitutional and 
legal rights.\46\ [See Section II--Freedom of Religion--
Religious Freedom for China's Protestants for a more detailed 
analysis of efforts to defend religious rights.] Li Baiguang, 
who represented the three, agreed to drop the administrative 
complaint that he had filed on October 12 against the PSB in 
exchange for its promise to rescind the decision.\47\
    China's system of ``reeducation through labor'' (RTL) has 
long drawn fire from various members of the international 
community as the most egregious abuse of administrative 
detention measures. Under the RTL system, public security 
officials can investigate a case and propose that an individual 
be confined to a RTL center for up to three years, with the 
possibility of a one-year extension.\48\ The list of offenses 
subject to RTL is broad and vaguely defined,\49\ lending itself 
to abuse by public security officials in order to silence 
Chinese citizens who attempt to express their political 
opinions or assert their fundamental rights.\50\ Moreover, the 
RTL administrative committees that are responsible for making 
the final decision consist of representatives from each of the 
local public security, civil affairs, and labor bureaus,\51\ 
but in practice, are dominated by public security 
officials.\52\ Despite being harsher than some criminal 
punishments,\53\ a RTL decision is typically imposed in the 
absence of judicial review by an independent and impartial 
tribunal.\54\ The Chinese government has argued that 
administrative detention decisions are subject to judicial 
review under the Administrative Litigation Law (ALL), but the 
UNWGAD found ALL review ``of very little value'' and maintained 
that ``no real judicial control has been created over the 
procedure to commit someone to [reeducation] through labor.'' 
\55\ In practice, the decision to confine someone to a RTL 
center is rarely successfully challenged.\56\ Between 1999 and 
2002, the number of individuals held in RTL centers was 
estimated to range from 260,000 to 300,000.\57\ According to 
the U.S. State Department, official statistics released in 2005 
reflect the rapid growth of these numbers over the past few 
years, to a new total of approximately 500,000.\58\
    Chinese authorities use RTL and other forms of 
administrative detention to circumvent the criminal process in 
a manner which disregards the procedural protections guaranteed 
under domestic and international law.\59\ China's Legislation 
Law requires that all deprivations of personal liberty be 
authorized by national law, and not just by administrative 
regulation.\60\ Under the criminal justice system, a Chinese 
citizen cannot be found guilty of any crime, even a ``minor 
crime,'' without being judged guilty by a people's court.\61\ 
The Constitution makes explicit the inviolable nature of a 
person's liberty and further dictates:

        No citizen may be arrested except with the approval or 
        by decision of a people's procuratorate or by decision 
        of a people's court, and arrests must be made by a 
        public security organ. Unlawful deprivation or 
        restriction of citizens' freedom of person by detention 
        or other means is prohibited. . . .\62\

    While the Chinese government consistently emphasizes the 
beneficial ``reeducation'' function of administrative detention 
measures,\63\ Manfred Nowak, UN Special Rapporteur on Torture, 
found after visiting China that ``some of these measures of 
[reeducation] through coercion, humiliation and punishment aim 
at altering the personality of detainees up to the point of 
even breaking their will.'' \64\ In his March 2006 report, 
Nowak concluded that RTL and other forms of administrative 
detention ``go beyond legitimate rehabilitation measures 
provided for in [A]rticle 10 of the ICCPR.'' \65\ During the 
seven years between visiting China in 1997 and again in 2004, 
the UNWGAD found that the Chinese government had made no 
significant progress in reforming the administrative 
detention system to ensure judicial review and to conform to 
international law.\66\
    Domestic pressure has been building to reform the RTL 
system,\67\ but efforts have focused on better codification, 
rather than outright elimination, of the practice. Since March 
2005, the National People's Congress (NPC) has been considering 
a new Law on the Correction of Unlawful Acts that would 
reportedly enhance the rights of RTL detainees by setting a 
maximum sentence of 18 months, and by permitting detainees to 
hire a lawyer, request a hearing, and appeal decisions imposed 
by public security officials in RTL cases.\68\ The draft law 
does not currently provide the accused with an opportunity to 
dispute accusations of guilt before an independent adjudicatory 
body.\69\ According to one drafter, the Ministry of Public 
Security and the Supreme People's Court continue to disagree 
about whether courts should get involved in the decision making 
process prior to administrative enforcement of a RTL 
decision.\70\ In an attempt to enhance the transparency of the 
process,\71\ Chongqing municipality recently issued Interim 
Provisions on Legal Representation in RTL Cases, which went 
into effect on April 1, 2007, and provide that a suspect may 
retain a lawyer to contest the legality of the process, access 
the files relevant to his case, and present proof of his 
innocence.\72\ The Interim Provisions mirror some of the 
criminal procedure protections contained in the CPL,\73\ and 
could potentially be incorporated into the draft law now 
pending before the NPC.\74\ While greater access to legal 
representation is a positive sign, some in China maintain that 
the RTL system as a whole still contradicts provisions in the 
Chinese Constitution, CPL, and ICCPR.\75\
Illegal Extended Detention in the Criminal Process
    In cases that enter the formal criminal process in China, 
public security, procuratorate, and court (collectively 
referred to as gongjianfa) officials continue to illegally 
detain Chinese citizens for long periods of time before 
determining the outcome of their cases. The National People's 
Congress (NPC) revised the Criminal Procedure Law (CPL) in 1996 
to impose fixed deadlines for the resolution of each stage of 
the criminal process.\76\ In 2003, the Supreme People's Court 
(SPC) took the lead by additionally issuing a notice to set 
time limits for the resolution of cases of extended detention 
in violation of the CPL.\77\ The Supreme People's Procuratorate 
(SPP) soon followed by passing regulations to prohibit the 
abuse of legal procedures in order to disguise extended 
detention.\78\ The SPC and SPP then worked together with the 
Ministry of Public Security (MPS) to issue a joint Notice on 
the Strict Enforcement of the Criminal Procedure Law, and on 
the Conscientious Correction and Prevention of Extended 
Detention.\79\ The launch of such a major public campaign to 
eliminate illegal extended detention tacitly signaled 
acknowledgment by the central government of law enforcement 
abuses throughout the country.
    Extended detention contravenes international standards for 
the prompt judicial review of a criminal detention or arrest. 
The ICCPR provides that ``[a]nyone arrested or detained on a 
criminal charge shall be brought promptly before a judge or 
other officer authorized by law to exercise judicial power,'' 
and that ``[a]nyone who is deprived of his liberty by arrest or 
detention shall be entitled to take proceedings before a court, 
in order that the court may decide without delay on the 
lawfulness of his detention and order his release if the 
detention is not lawful.'' \80\ In December 2004, the UNWGAD 
found that the CPL and related regulations on pretrial 
detention fail to meet these basic standards because: (1) 
Chinese suspects continue to be held for too long without 
judicial review; (2) procurators, who review arrest decisions, 
only examine case files and do not hold hearings; and (3) a 
procurator cannot be considered an independent adjudicator 
under applicable international standards.\81\
    International scrutiny of this problem over the last few 
years has led to a dramatic decrease in the number of extended 
detention cases reported by the Chinese government. In 1998, 
Chinese procuratorates identified and called for the resolution 
of extended detention cases involving 70,992 individuals.\82\ A 
white paper on the status of human rights in 2003 noted that 
extended detention cases involving 25,736 individuals had been 
resolved that year, accounting for a nationwide effort that was 
``the most extensive in scope, the biggest in scale and the 
largest in number of people 
involved in the nation's judicial experience.'' \83\ By 2004, 
central government officials reported that there were no cases 
of extended detention among public security bureaus or 
procuratorates, and that Chinese courts had cleared extended 
detention cases involving just 2,432 individuals.\84\ In 
January 2006, the Chinese government told Manfred Nowak, UN 
Special Rapporteur on Torture, that serious cases of extended 
detention lasting more than three years had been eliminated, 
and that the number of individuals held beyond time limits was 
at an all-time low.\85\ This claim was repeated again in March 
2007, when the SPP identified in its work report to the NPC an 
all-time low of just 233 individuals cleared from extended 
detention.\86\
    The continued decrease in cases of extended detention 
depends heavily on continued central government efforts to 
increase transparency and hold local law enforcement officials 
strictly accountable to the CPL. In May 2006, the SPP 
explicitly acknowledged that illegal extended detentions remain 
problematic, and that Chinese authorities misuse provisions in 
the CPL to disguise this problem.\87\ Several months later, SPC 
President Xiao Yang echoed this acknowledgement and stated in 
an interview with the People's Daily that ``delayed justice is 
a form of injustice.'' \88\ In March 2007, the Standing 
Committee of the National People's Congress (NPCSC) commented 
on the significance of oversight mechanisms in helping to 
tackle the problem of extended detention.\89\ SPP spokesman 
Dong Jianming has attributed the decrease in cases of extended 
detention to the NPCSC's push--and the resulting joint effort 
among gongjianfa officials nationwide.\90\ Gongjianfa officials 
have continued to work together to finalize new regulations 
seeking to further address the problem.\91\ In addition, 
China's unique system of ordinary citizens who function as 
``people's supervisors'' 
expanded its oversight powers in the last year, to guard 
against illegal extended detentions by all three 
institutions.\92\ This move holds great potential for enhanced 
public supervision of law enforcement agencies during the 
criminal process.

                      Torture and Abuse in Custody

    Although illegal in China, torture and abuse by law 
enforcement officers remain widespread.\93\ In March 2006, 
Manfred Nowak, UN Special Rapporteur on Torture, reported that 
Falun Gong practitioners make up the overwhelming majority of 
victims of alleged torture, and that other targeted groups 
include Uighurs, Tibetans, human rights defenders, and 
political activists.\94\ Over three-quarters of all alleged 
acts of torture take place in venues where public security 
officials have chosen to confine criminal suspects.\95\ Forty-
seven percent of alleged perpetrators are police or other 
public 
security officials, while 53 percent are either staff members 
at correctional facilities or fellow prisoners acting at the 
instigation or acquiescence of staff members.\96\ Forms of 
torture and abuse cited in Nowak's report include beating, 
electric shock, painful shackling of the limbs, denial of 
medical treatment and medication, and hard labor.\97\
    Chinese media reports in 2005 about the wrongful conviction 
of She Xianglin, and in 2006 about the wrongful detentions and 
torture of four teenagers in Chaohu city, Anhui province, help 
to shed light on numerous institutional and legal factors that 
are to blame for the continuing problem of torture in 
China.\98\ In both cases, authorities relied heavily on 
confessions obtained during interrogation as evidence of 
alleged crimes. She Xianglin, who was originally convicted of 
murder after the disappearance of his wife in 1994, was 
ultimately released in April 2005 after 11 years in prison and 
his wife's unexpected return to their village in Hubei 
province.\99\ The Chaohu teenagers, who ranged in age from 16 
to 18, were released in January 2006 after more than three 
months in police custody and further investigative efforts 
leading to the arrests of four other suspects.\100\ Both cases 
reflect a number of institutional hurdles at the heart of the 
torture issue, including pressure on public security bureaus to 
meet quotas for cracking down on crime, inadequate training and 
investigative tools, and the lack of independence and oversight 
exercised by the procuracy and judiciary.\101\ They also 
spotlight continuing legal challenges, including a strong 
presumption of guilt in criminal cases, the abuse of 
administrative detention measures, the absence of lawyers at 
interrogations, the lack of a rule requiring the exclusion of 
illegally acquired evidence, failure by procuratorates to 
prosecute torture cases, and inadequate complaint mechanisms.
    Since releasing China's Third Report on the Implementation 
of the Convention against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment (CAT) in 2000,\102\ central 
government leaders have repeatedly emphasized their ongoing 
efforts to pass new laws and administrative regulations 
preventing, punishing, and compensating cases of torture by law 
enforcement 
officers.\103\ For example, China's Criminal Law provides for 
the punishment of judicial officers who coerce confessions 
under torture or acquire evidence through the use of force, and 
also imposes liability in particularly ``serious'' cases where 
police or other corrections officers have beaten or otherwise 
mistreated prisoners.\104\ In 2003, the Ministry of Public 
Security (MPS) issued a new regulation to also prohibit the use 
of torture as an investigative tool in administrative 
cases.\105\ The following year, the Party,\106\ MPS,\107\ and 
Supreme People's Procuratorate (SPP)\108\ each passed 
regulations to provide for Party or administrative sanction 
(including demerits, demotions, and dismissals) of officials 
who employ torture as an investigative tool to coerce 
confessions. The Ministry of Justice (MOJ) issued similar 
regulations in 2006 to provide for both administrative sanction 
and criminal investigation of prison and reeducation through 
labor (RTL) police who beat, or instigate others to beat, 
detainees.\109\ SPP regulations that went into effect on July 
26, 2006, provide detailed criteria for the criminal 
prosecution of police who abuse their power to hold individuals 
in custody beyond legal limits, coerce confessions under 
torture, acquire evidence through the use of force, mistreat 
prisoners, or retaliate against those who petition to, or file 
complaints against, the government.\110\
    Despite international safeguards and recent domestic 
reforms designed to help guard against torture in China, one 
China scholar has noted that ``persons acting in an official 
capacity who torture and ill-treat others in violation of the 
[CAT] generally do so with impunity.'' \111\ Two months after 
Xinhua and Southern Metropolitan Daily reports revealed the 
extent to which the Chaohu teenagers had been tortured while in 
custody,\112\ two senior SPP officials called on local 
procuratorates to strengthen their supervision over criminal 
investigations, and to bring into line police who extract 
confessions through torture or who illegally gather evidence. 
Deputy Procurator-General Wang Zhenchuan acknowledged that 
almost all wrongful convictions in China involve police abuses 
during the investigative stage,\113\ and Chen Lianfu, head of 
the SPP office that investigates official misconduct and rights 
infringement, reported that systemic reforms still had to be 
implemented.\114\ Neither provided statistics to detail the 
number of officials who had been prosecuted for torture in 
recent years, but SPP work reports submitted to the National 
People's Congress indicate that the number of officials 
investigated for civil rights abuses, including torture, 
totaled 1,983 in 2001, 1,408 in 2003, and 1,595 in 2004.\115\ 
This number dropped to 930 in 2006, the same year that the SPP 
released its regulations on filing rights abuse cases for 
prosecution.\116\ It is difficult to analyze how many Chinese 
officials go unpunished in any given year, particularly when 
the central government does not recognize the competence of the 
Committee against Torture to investigate allegations of 
systematic torture.\117\ According to Nowak, SPP figures ``are 
clearly the tip of the iceberg in a country the size of China 
and demonstrate that most victims and their families are 
reluctant to file complaints for fear of reprisal or lack of 
confidence that their complaints will be addressed 
effectively.'' \118\
    Law enforcement practices in China further provide for 
official impunity by failing to adequately criminalize non-
state actors who commit torture and abuse at the behest of 
state actors. Nowak pointed out that this omission is one 
reason that the Chinese 
definition of torture fails to correspond fully to the 
international standard as outlined in Article 1 of the 
CAT.\119\ The MOJ's 2006 regulations are illustrative of this 
point, and punish only prison and RTL police for beating, or 
instigating others to beat, detainees. They do not take into 
account the existing practice of ``fanren guanli fanren,'' 
whereby ``cell bosses'' take part in correctional facility 
administration by helping officials control and punish 
recalcitrants.\120\ Human Rights in China has noted that 
inmates who are assigned to supervise others ``are widely known 
in the system as `second-rank cadres,' or `the second 
government,' indicating their power in the system.'' \121\ 
Imprisoned legal advocate Chen Guangcheng told his wife that on 
June 16, 2007, six other inmates at Linyi Prison pushed him to 
the floor, and hit and kicked him hard, at the instigation of 
prison guards after he refused to have his head shaved.\122\ 
There is no indication that any prison guards have been 
investigated as a result of this incident. In June 2005, when 
fellow detainees beat to death a 15-year-old at the instigation 
of a detention center superintendent in Jingdezhen city, 
Jiangxi province, the local procuratorate indicted the 
superintendent only for ``abuse of power to accept bribes.'' 
\123\ A September 2004 article on the Web site of the Chinese 
People's Political Consultative Conference disclosed that 
between 2003 and 2004, over 20 ``prison bosses'' had been 
investigated in Guangshan county, Henan province, alone. The 
article called for elimination of the practice of ``fanren 
guanli fanren.'' \124\


         law on the books: judicial institutions and challenges


             Social Unrest and Coercive Use of Police Power

    The Chinese government maintains a vast network of people's 
police, who are employed in state security bureaus, public 
security bureaus, prisons, reeducation through labor centers, 
procuratorates, and courts throughout the nation. Public 
security bureaus (PSBs) divide their police into separate 
categories of ``administrative personnel'' responsible for 
public security, transportation, residence and migration, 
border defense, customs and immigration, fire prevention, and 
management of information and Internet safety, and ``criminal 
personnel'' responsible for investigation of crimes. In 
addition, local PSBs employ personnel responsible for domestic 
security and protection (guobao), which sometimes has been used 
to justify the targeting and harassment of democracy activists, 
Falun Gong practitioners, and other dissidents.\125\ Official 
statistics recently disclosed that there were over 490,000 PSB 
police employed as police station personnel, 130,000 as 
community police officers, and 150,000 as criminal 
investigators as of early 2006.\126\
    Communist Party leaders have leaned heavily on the powers 
of the police in order to quell social unrest during the past 
few years, but earlier this year, top Ministry of Public 
Security (MPS) officials acknowledged the risks inherent in 
such a tactic. The MPS reported a rise in ``mass incidents,'' 
defined to include public demonstrations, protests, and riots 
over unresolved claims,\127\ from 58,000 in 2003 to 74,000 in 
2004.\128\ This figure dropped to about 27,500 in 2005, and 
23,000 in 2006, \129\ accompanied by an MPS denial of the 
existence of any inherent conflict between police and 
civilians.\130\ Notwithstanding the decrease in numbers and the 
accompanying MPS statement, there have been news reports of 
increasingly violent clashes between police and protesting 
villagers all over China. In December 2005, public security 
officials in Shanwei city, Guangdong province, brought in 
forces from the paramilitary People's Armed Police (PAP) to 
handle a protest by local villagers.\131\ The PAP opened fire 
onto the crowd, and some estimates placed the resulting death 
count at up to 20 villagers. At a national public security 
meeting convened in April 2007 in Xi'an city, Shaanxi province, 
Vice Minister of Public Security Liu Jinguo emphasized the need 
to avoid police mishandling of demonstrations and protests, and 
warned that such mishandling could ``aggravate the conflict and 
worsen the situation.'' \132\
    A number of Chinese lawyers and former law enforcement 
officers agree that no inherent conflict exists between police 
and civilians, but they also warn that abuse of the coercive 
power of the 
police may create new tensions. One commentator, who formerly 
taught at a public security vocational school in Zhejiang 
province, attributed clashes between police and civilians to 
the fact that ``Chinese police are policemen for the Party, not 
for the state.'' \133\ Another commentator, who served for 18 
years as a former police officer in Jiangsu province, added 
that in carrying out their law enforcement duties, the police 
do not carry out the laws of the state: ``They carry out the 
law neither pursuant to the Police Law, nor pursuant to various 
[other] laws, but instead pursuant to the will of senior Party 
officials.'' \134\ He added that the ability of PSB police to 
simultaneously carry out both police and ``non-police'' 
(namely, administrative) functions has contributed to their 
loss of legitimacy in the eyes of the public.
    Party and central government statements confirm that 
Chinese police forces are in fact required to assist in the 
advancement of Party priorities. A 2003 resolution passed by 
the Communist Party Central Committee (CPCC) establishes that 
``public security work must proceed under the Party's absolute 
leadership.'' \135\ At its sixth plenum in October 2006, the 
CPCC issued a communique to announce that ``the [Communist 
Party of China]'s role as the core leadership must be brought 
fully into play to build a harmonious socialist society.'' 
\136\ At the same plenum, the CPCC also passed a resolution 
calling on police and armed forces to further strengthen public 
security, state security, and national defense construction, in 
furtherance of a ``harmonious society.'' \137\ The resolution 
specifically called on the MPS to reform community police 
affairs so that a ``frontline platform'' could be created to 
service the masses and safeguard stability. Later that month, 
Xinhua identified construction of this ``frontline platform'' 
as a significant part of Public Security Minister Zhou 
Yongkang's 2006 plan to reorganize public 
security agencies and send more police forces out into local 
communities and villages.\138\ At a press conference in 
November, the MPS reported that it had issued a new Resolution 
on Implementing a Strategy for Community and Village Police 
Affairs, and had already set up more than 30,000 new police 
stations and dispatched more than 70,000 police officers to 
watch over villages nationwide.\139\ One senior official 
defined the new strategy for community and village police 
affairs to be one that would allow public security agencies to 
``deeply integrate'' into local communities, families, and 
schools, and ``merge into one with the people,'' \140\ in the 
name of safeguarding public security and order, as mandated by 
the Party.
    Last year's implementation of the Public Security 
Administration Punishment Law (PSAPL)\141\ helps expand the 
legal authority of PSB police to almost every realm of civilian 
life, creating new cause for concern about police abuses and 
domination over the general populace. [See Section II--Freedom 
of Expression for additional discussion of abuse of the PSAPL 
to exercise control over the sharing of information.] One month 
after the law went into effect, police reportedly filed over 
35,000 cases, leading to the investigations of over 40,000 
individuals, warnings or fines issued to over 16,000, and 
administrative detention of over 7,000 in Beijing alone.\142\ 
In a July 2006 article that asks ``Why Some Police Resemble 
Crime Bosses,'' a China Youth Daily journalist comments: ``If 
detention and other criminal investigation measures are used in 
the administration of public security cases, while public 
security aspects of the [police] power are brought into 
criminal investigations, then objectively, this creates a self-
perception among some police that they are boss.'' \143\ The 
article asserts that there is a certain pervasiveness to abuse 
of power by the police, and that it can best be blamed on their 
unchecked legal authority. In March 2007, a Shenzhen delegate 
to the National People's Congress proposed revising the PSAPL 
to further expand the authority of the police to detain 
individuals for disruption of city management.\144\ Under his 
proposal, individuals would be at the mercy of the police for 
such minor offenses as running an unlicensed business or health 
clinic. Within months, the China Media Project, based across 
the border from Shenzhen in Hong Kong, questioned whether 
Chinese police aren't already ``over-reaching'' in their 
application of the PSAPL.\145\
    Supervision over China's police forces has not improved in 
the last year, particularly when taking into account the 
concerns previously expressed by this Commission. The 
Commission noted in last year's annual report: ``The government 
does not encourage external supervision over police affairs or 
prosecution of police abuses by the procuratorate, as mandated 
by law.'' \146\ While the MPS continues to disclose the number 
of police officers who have been disciplined or even dismissed 
for improprieties, their sanctions are still decided and 
administered internally, by Party or MPS superiors.\147\ One 
prominent Beijing law professor argues that the increasingly 
vicious nature of the police is attributable to this lack of 
meaningful constraints either externally or internally.\148\ In 
February 2006, the Procuratorial Daily published an article 
that recognized the lack of power exercised by lawyers and 
courts during the investigative stage of the criminal process, 
and highlighted the urgency of greater procuratorate 
supervision as the only means for reining in the police.\149\

            Access to Counsel and Right to Present a Defense

    Most Chinese defendants go through the criminal process and 
are tried without assistance from an attorney, despite 
guarantees under Article 14(3)(d) of the International Covenant 
on Civil and Political Rights (ICCPR).\150\ In 2006, domestic 
media sources reported the continuing growth of China's legal 
profession to over 150,000 attorneys and 12,000 law firms 
nationwide.\151\ The Chinese government requires that public 
security bureaus and procuratorates notify all criminal 
defendants of their right to apply for legal aid,\152\ and also 
mandates that all practicing attorneys undertake the duty of 
legal aid.\153\ Nonetheless, the number of criminal cases 
handled per lawyer in a city like Beijing, one of China's most 
legally advanced locales, fell from 2.64 in 1994 to 0.78 in 
2004.\154\ The Commission noted in 2003 and 2004 that only one 
in three criminal defendants have access to legal counsel. This 
number fell to about 30 percent in 2005 and 2006, and has 
continued to drop.\155\ China's legal system therefore makes 
possible, but does not guarantee, the fundamental right to 
legal assistance in defending oneself against the state.\156\
    The ability to present a defense is further limited in 
China because of constraints on the role that criminal defense 
lawyers may play. Lawyers have long complained about the 
``three difficulties'' that they face in criminal defense work: 
(1) the difficulty in obtaining permission to meet with a 
client, (2) the difficulty in accessing and reviewing the 
prosecution's evidence, and (3) the difficulty in gathering 
evidence in support of the defense. The Commission has reported 
on multiple cases in which law enforcement officers abused 
their discretion to deny a defendant access to his lawyer, 
noting in particular abuse of the ``state secrets'' 
exception.\157\ [See Section II--Freedom of Expression for more 
information on abuse of ``state secrets'' law.] U.S. permanent 
resident Yang Jianli,\158\ democracy activist Xu Wanping,\159\ 
and freelance writer Yang Tongyan\160\ (who uses the pen name 
Yang Tianshui) were all denied access to their defense lawyers 
on the grounds that their cases involved state secrets. In 
addition, Chinese law authorizes law enforcement officials to 
obtain evidence from concerned parties, but provides that 
evidence involving state secrets ``shall be kept 
confidential.'' \161\ This effectively shields public security 
and procuratorate authorities from having to turn over to the 
defense any evidence they deem to be classified. In 2004, the 
UN Working Group on Arbitrary Detention identified China's use 
of the ``state secrets'' exception as one area of particular 
concern.\162\ In April 2007, the All China Lawyers Association 
(ACLA) released its first draft proposal for a new revision of 
the Criminal Procedure Law, and took special note in its 
executive summary of the need to eliminate these ``three 
difficulties'' in criminal defense work.\163\
    Chinese defendants remain vulnerable to official abuses and 
faced mounting challenges to the defense of their legally 
protected rights during the past two years, as lawyers in 
general were increasingly called upon to contribute to the 
Party's efforts to build a ``harmonious society.'' This new 
role was first clarified in ACLA's 2006 guiding opinion, which 
the Commission analyzed as an effort to restrict and punish 
lawyers who choose to handle collective cases without 
authorization.\164\ In its December 2006 report on the effects 
of this guiding opinion, Human Rights Watch (HRW) asserted that 
the opinion ``fundamentally harm[s] the entire profession by 
limiting its independence and legitimizing the interference of 
local governments in professional processes.'' \165\ HRW 
further noted, ``It is not the role of lawyers to protect 
social and political stability,'' but that instead, ``[t]heir 
duty is to represent their clients in an ethical and 
professional manner.'' \166\ ACLA's guiding opinion effectively 
calls on China's legal profession to function in the interests 
of the Party and state, a demand that conflicts with a lawyer's 
duty to his client in criminal cases. The opinion calls into 
question ACLA's ability to operate as a self-governing 
professional association that works in the interests of Chinese 
lawyers, without external interference. In the wake of its 
issuance, a group of Beijing law professors and practicing 
lawyers held a seminar to voice their concerns. Renowned lawyer 
Zhang Sizhi, former ACLA president, criticized the guiding 
opinion as retrogressive and warned that it would set the 
country's legal profession back several decades to the 
1980s.\167\
    The foregoing problems are made worse by the fact that it 
is increasingly dangerous for Chinese defense lawyers to carry 
out their work, especially in high-profile or politically 
sensitive cases. Law enforcement officials sometimes resort to 
intimidating lawyers who defend these cases, charging or 
threatening to charge them with crimes such as ``evidence 
fabrication'' under Article 306 of the Criminal Law.\168\ 
Despite official recognition of the chilling effect that such 
tactics have had on criminal defense work,\169\ as well as 
indications that Article 306 would be repealed,\170\ this 
problem persists and has become more damaging to China's legal 
system in the face of unchecked police power.\171\
    In May 2007, the Network of Chinese Human Rights Defenders 
(CRD) published a report on ``The Perils of Defending Rights'' 
and included information on 20 ``endangered defense lawyers.'' 
\172\ This list included all of the defense lawyers that the 
Commission reported on in 2006.\173\ The Hong Kong-based China 
Human Rights Lawyers Concern Group issued an open letter to 
President Hu Jintao and Premier Wen Jiabao, dated June 22, 
2007, to demand an end to the crackdown on defense lawyers and 
human rights activists.\174\ The letter points to the ongoing 
harassment, targeting, and criminal cases of Gao Zhisheng, Chen 
Guangcheng, Yang Maodong (who uses the pen name Guo Feixiong), 
and Zheng Enchong as representative of that crackdown. In the 
weeks preceding publication of this report, authorities stepped 
up their campaign against those lawyers not already in official 
custody. Gao, who has been living on the outside since his 
three-year prison sentence was suspended in December 2006 for a 
period of five years,\175\ went missing immediately after an 
open letter that he sent to the U.S. Congress was made public 
at a Capitol Hill press conference on September 20, 2007.\176\ 
Zheng, who was released from prison in June 2006 and had his 
political rights reinstated in June 2007,\177\ was taken into 
custody for interrogation as recently as September 29, 2007, 
for his potential involvement in sending an open letter to the 
United Nations.\178\ Chen Guangcheng remains in prison, serving 
out his sentence of four years and three months for destruction 
of property and gathering crowds to disturb traffic order. As 
of the date of this report, Yang Maodong has been in detention 
for one year without any resolution to his criminal case.


------------------------------------------------------------------------
                 Continued Crackdown on Rights Defenders
-------------------------------------------------------------------------
The UN High Commissioner for Human Rights defines a ``human rights
 defender'' as someone who acts on behalf of individuals or groups to
 promote and protect civil and political rights, and to promote,
 protect, and realize economic, social, and cultural rights. This
 definition includes those who focus on good governance and advocate
 peacefully for an end to government abuses of power.
In 2006-2007, local government officials in China continued to target
 for repression human rights defenders and others who turned to the law
 to defend their constitutionally protected rights. Harassment of the
 following high-profile lawyers and legal advocates intensified:

Chen Guangcheng
Current location: Linyi Prison.
Current status: Serving a sentence of four years and three months in
 prison for ``intentional destruction of property'' and ``gathering
 people to disturb traffic order.'' Reportedly beaten in June 2007 by
 fellow inmates, at the behest of prison guards.
Profession and/or activity: Drew international attention in 2005 to
 population planning abuses in Linyi city, Shandong province. Issued a
 report that documented the extensive use of violence by local officials
 in order to implement population planning policies, and assisted in a
 lawsuit that sought to challenge those abuses.
Associations:
  <bullet> Yuan Weijing (Chen's wife and the mother of their two small
   children): Under house arrest from November 28, 2006 to May 27, 2007.
   Prevented from meeting with U.S. Embassy officials in July, and from
   leaving the country to receive an award on her husband's behalf in
   August.
  <bullet> Hu Jia, Zeng Jinyan (activist couple who have befriended and
   spoken out on behalf of Chen and his wife): Prevented from leaving
   the country for travels in May 2007. Reportedly under house arrest,
   under suspicion of endangering state security.

Gao Zhisheng
Current location: Unknown.
Current status: Released from official custody on December 22, 2006 to
 serve a three-year prison sentence, suspended for five years, for the
 crime of ``inciting subversion of state power.'' Went missing
 immediately after his open letter to the U.S. Congress was made public
 at a press conference on Capitol Hill on September 20, 2007.
Profession and/or activity: Founder of the Beijing Shengzhi Law Firm and
 criminal defense lawyer who has represented numerous activists,
 religious leaders, and writers. Law firm was shut down in November
 2005, several weeks after he issued an open letter to President Hu
 Jintao and Premier Wen Jiabao to expose reports of widespread torture
 against Falun Gong practitioners.
Associations:
  Geng He (Gao's wife and the mother of their two children): Under
   constant police surveillance since August 2006, and reportedly beaten
   by plainclothes police officers in late-November.
   Li Heping (Gao's friend and fellow Beijing lawyer and rights
   defender): Reportedly beaten on September 29, 2007 and told to leave
   Beijing immediately. Returned home to discover that some of his legal
   files and his license to practice law were missing.
  Guo Feixiong (Gao's colleague at the Beijing Shengzhi Law Firm): See
   below.Yang Maodong (pen name: Guo Feixiong)
Current location: Guangzhou No. 3 Detention Center.
Current status: In official custody since September 14, 2006,
 transferred back and forth between Shenyang city, in Liaoning province,
 and Guangzhou city, in Guangdong province. Reportedly tortured while in
 detention in Shenyang. Ultimately put on trial on July 9, 2007 for
 ``illegal operation of a business,'' in connection with a book that he
 edited about a political scandal in Shenyang. Still awaiting final
 judgment on his case.
Profession and/or activity: Previously detained for three months in late
 2005, after he advised villagers in Taishi, Guangdong, on their recall
 campaign against an allegedly corrupt village committee head.Zheng Enchong
Current location: Shanghai.
Current status: Released from Tilanqiao Prison in Shanghai municipality
 on June 5, 2006, upon expiration of a three-year prison sentence for
 ``illegally providing state secrets to entities outside of China.''
 Passport application denied; prevented from visiting Hong Kong in
 August 2007. Taken into custody for interrogation as recently as
 September 29, 2007, for alleged involvement in putting together an open
 letter to the United Nations.
Profession and/or activity: Criminal defense lawyer whose license to
 practice law was revoked in 2001, after he advised more than 500
 households displaced by Shanghai's urban redevelopment projects.
Associations:
  Guo Guoting (one of Zheng's criminal defense lawyers): License to
   practice law revoked in early 2005. Placed under house arrest for
   ``adopting positions and making statements contrary to the law and
   the Constitution.'' Ultimately forced into exile.
------------------------------------------------------------------------

                      Fairness of Criminal Trials

    Over the past few years, Chinese courts have maintained a 
consistent conviction rate above 99 percent,\179\ due in part 
to the lack of fairness of criminal trials and the routine 
failure to comply with standards set forth under Article 14(1) 
of the International Covenant on Civil and Political Rights 
(ICCPR).\180\ China's criminal justice system is strongly 
biased toward a presumption of guilt, particularly in cases 
that are high-profile or politically sensitive.\181\ Trial 
courts are required by law to conduct their proceedings in 
public, but can also resort to the ``state secrets'' exception 
and conduct politically charged trials as they see fit,\182\ 
behind closed doors and thus shielded from public scrutiny. 
Court officials have in the past also denied requests by U.S. 
embassy and consular officers to attend the criminal trials of 
certain political, legal, and religious activists, including 
the August 2003 trial of U.S. permanent resident Yang Jianli 
and the November 2005 trial of Protestant house church leader 
Cai Zhuohua. Yang was released on April 27, 2007, after serving 
a five-year prison sentence for alleged espionage and illegal 
border crossing.\183\ Cai was released on September 10, 2007, 
upon the completion of his three-year prison sentence for 
printing and giving away Bibles and other religious literature 
without government permission.\184\ In June 2007, the Supreme 
People's Court (SPC) issued several opinions aimed at improving 
trial adjudication throughout China, and called on local courts 
to carry out trial proceedings lawfully, promptly, and 
transparently.\185\ Nonetheless, the opinions keep intact the 
``state secrets'' exception.
    Chinese courts rely heavily on the defendant's confession 
and on pretrial witness statements to judge guilt or innocence, 
even though provisions in the Criminal Procedure Law (CPL) 
explicitly prohibit this.\186\ In 2005 and 2006, the Commission 
reported on several wrongful convictions that had been decided 
on the basis of confessions and pretrial statements only, and 
were later reversed.\187\ In the wake of She Xianglin's 
wrongful conviction, a Xinhua article provided the following 
quote from his lawyer: ``Throughout the case, with the 
exception of She Xianglin's own confession, there was neither 
any evidence nor witnesses to prove that [Mr.] She had killed 
someone.'' \188\ Illegally obtained evidence, such as a 
confession coerced under torture, is not currently excludable 
under the CPL, and about 95 percent of witnesses fail to 
appear in court to corroborate their pretrial statements. In 
the executive summary to its draft proposal for a new CPL, the 
All China Lawyers Association (ACLA) emphasized the adversarial 
nature of the criminal justice system, and urged a greater 
balance between what the prosecution and defense are allowed to 
present as evidence in support of their case.\189\ ACLA's 
proposal insists that the CPL be revised to clarify the 
procedures for excluding illegally obtained evidence. In 
addition, it urges that courts be granted the legal authority 
to subpoena witnesses, noting that without this authority, a 
criminal defendant is deprived of his ability to confront 
witnesses and therefore present a proper defense.
    The SPC made criminal justice reform one of its top 
priorities for the 2004 to 2008 period, but court reforms must 
proceed in the larger context of a biased judiciary in China. 
The SPC's most recent five-year court reform program provides 
that greater procedural protections be afforded to criminal 
defendants facing the death penalty, and that officials reject 
the use of illegally obtained evidence and adopt the principle 
of a presumption of innocence.\190\ The program also addresses 
some of the institutional problems facing the judiciary 
generally, but it does not change basic Party control over the 
courts. In fact, the program makes clear that courts are also 
expected to strive toward the Party's ultimate goal of building 
a ``harmonious society.'' Numerous structural constraints and 
internal practices therefore continue to limit the independence 
of Chinese courts and judges. In the Xinhua article on She 
Xianglin's case, one judge commented that the court 
responsibility system for wrongly decided cases, which has been 
used to discipline judges for cases overturned or altered on 
appeal, in fact increases the pressure felt by judges and 
causes them to decide cases in a way that takes into account 
various external factors.\191\ Moreover, senior court officials 
and Party political-legal committees continue to influence 
judicial decisionmaking, particularly in sensitive or important 
criminal cases.\192\ At present, the Chinese judiciary is 
therefore restricted in its ability to function as a 
transparent, impartial, and independent part of the legal 
system, and therefore, as a body capable of ensuring the full 
protection of defendants' rights.

     Death Penalty Review and Regulations Against Organ Harvesting

    Chinese criminal law includes 68 capital offenses, over 
half of which are nonviolent crimes such as tax evasion, 
bribery, and embezzlement.\193\ In recent years, China's 
central government leadership has adopted an ``execute fewer, 
execute cautiously'' policy, but the government publishes no 
official statistics on the number of executions and reportedly 
considers this figure a state secret.\194\ Some Chinese sources 
estimate that the annual number of executions in China ranges 
from 8,000 to 10,000.\195\ The Dui Hua Foundation, which 
researches and seeks to curb political imprisonment, estimates 
that China executed about 100,000 individuals during the past 
decade, accounting for more than 95 percent of all executions 
worldwide.\196\ According to Dui Hua, since the late 1990s 
there has been a significant rise in the executions of those 
found guilty of membership in ``splittist, terrorist 
organizations'' in the Xinjiang Uighur Autonomous Region.\197\ 
In addition, since the 1980s, numerous credible foreign media 
sources have reported on the practice of state-sanctioned 
removal and sale of the internal organs of executed 
prisoners.\198\ One Chinese magazine disclosed in late-2005 
that over 95 percent of organs transplanted in China comes from 
executed prisoners, and cited to Vice Minister of Health Huang 
Jiefu as the first official to publicly acknowledge that the 
majority of those organs originate from such prisoners.\199\
    The leaders of China's highest court have reasserted their 
legal authority to review all death penalty cases in an effort 
to limit the use of death sentences, and to prevent 
miscarriages of justice that undermine China's criminal justice 
system. Xinhua reported earlier this year: ``On Jan. 1, 2007, 
the Supreme People's Court (SPC) retrieved the right to review 
all death penalty decisions made by lower courts, ending its 
24-year absence in approving China's execution verdicts.'' 
\200\ Since January, SPC officials have heralded death penalty 
reform as a success, citing to the fact that the number of 
death penalty sentences imposed in 2006 reached a decade-long 
record low,\201\ and that during the first five months of 2007, 
the number of death sentences imposed by courts in Beijing 
dropped 10 percent from the same period last year.\202\ In 
early September, the China Daily reported that the downward 
trend had continued, and quoted one SPC vice president as 
saying that ``[the SPC] is handing down a very small number of 
death sentences for economic crimes now, just a few a year. And 
much fewer for crimes of bribery.'' \203\ A week later, 
domestic news media reported that the SPC had issued a new 
decision on adjudication of criminal cases, which called for 
``strict control and cautious application of the death 
penalty'' \204\ (code words for the government's continuing 
promise to limit the use of death penalty to only the most 
serious criminal cases).
    The SPC first began considering death penalty reform in 
1996, when the Criminal Procedure Law was revised, but pressure 
to accelerate reforms increased only after 2000, in response to 
domestic media coverage about a number of wrongful convictions 
that had led to unjustified executions.\205\ For example: In 
early 2005, a rape and murder suspect arrested by police 
confessed that he had committed the crime that had resulted in 
the 1995 execution of Hebei farmer Nie Shubin.\206\ In January 
2007, the Hunan provincial high court acknowledged that the 
1999 execution of local farmer Teng Xingshan was for the 
alleged murder of a woman who was in fact still alive.\207\ 
Over the past few years, the SPC has convened a number of 
seminars and training sessions to help lower-level courts draw 
lessons from judgments made in error.\208\ Last year, the 
Commission reported that the Chinese judiciary made reform of 
the death penalty review process a top priority in 2006, 
introducing new appellate court procedures for hearing death 
penalty cases.\209\ At the same time, the Commission also 
noticed that the SPC had not yet issued a judicial 
interpretation to help settle unresolved issues in the death 
penalty review process and further clarify its own procedures.
    SPC reform efforts during the past year have helped to 
clarify a new review process by which errors will better be 
detected, but reforms do not address continuing concerns about 
the use of illegally obtained evidence or the lack of judicial 
independence generally.\210\ The SPC's five-year court reform 
program effectively creates a three-step process in death 
penalty cases that is not available in ordinary criminal 
cases.\211\ Beginning in 2006, provincial-level high courts are 
to focus solely on appeals from lower-level courts.\212\ As of 
January 1, 2007, pursuant to an amendment to the Organic Law of 
the People's Courts, death penalty sentences are then submitted 
to the SPC for review and approval.\213\ This extra step is 
designed to provide an extra guarantee of impartiality, but an 
SPC decision issued in December 2006 indicates that death 
sentences subject to immediate execution (sometimes imposed 
because the case has been accelerated due to intense external 
pressures) still remain within the jurisdiction of provincial-
level high courts only.\214\ The SPC has more recently taken 
the lead in issuing, together with the Supreme People's 
Procuratorate, Ministry of Public Security, and Ministry of 
Justice, a joint opinion on the entire process for handling 
death penalty cases.\215\ While this may be a positive step 
toward providing greater clarity and transparency throughout 
the criminal process, the joint opinion still does not provide 
for the excludability of illegally obtained evidence and 
repeats the standard practice that such evidence cannot form 
the basis for a verdict.\216\ Furthermore, the joint opinion 
emphasizes the relevance and ultimate decisionmaking power of 
adjudication committees at the trial and appellate court 
levels, and provides for 
active participation by the procuratorate, but not by defense 
counsel, throughout all stages of the case.\217\
    Interestingly, the new joint opinion also grants a criminal 
defendant the opportunity to meet with his family prior to 
execution,\218\ and prohibits ``humiliation'' of a corpse,\219\ 
provisions that hint at the need for greater respect for the 
sanctity of the deceased. In 2006, reports from overseas 
medical and legal experts condemned the government's continuing 
practice of harvesting organs from executed prisoners without 
their consent.\220\ In January 2007, David Kilgour, a member of 
the Canadian parliament, and David Matas, a Canadian lawyer, 
released a revised version of their 2006 report and explained 
that the revised report ``presents, we believe, an even more 
compelling case for our conclusions than the first version 
did.'' \221\
    Although Vice Minister Huang Jiefu and spokesmen for both 
the Ministry of Health and the Ministry of Foreign Affairs have 
said that organ transplants are strictly regulated, and that 
donations must be accompanied by the written consent of the 
donor or donor's family members,\222\ 1984 provisions governing 
the use of corpses or organs from executed prisoners say that a 
corpse or organ belonging to an executed prisoner may also be 
used if no one has retrieved the prisoner's corpse for 
burial.\223\ According to Caijing Magazine, ``in several cases, 
local courts have sold organs from prisoners' cadavers without 
informing their families.'' \224\ In March 2007, the State 
Council passed new Regulations on Human Organ Transplants that 
prohibit the purchase and sale of human organs and explain what 
type of consent is needed for the donation of organs.\225\ The 
new regulations specifically omit any mention of the use of 
executed prisoners' organs and leave intact the 1984 
provisions. After several years of discussions between the 
World Medical Association andthe Chinese Medical Association, 
Chinese medical authorities agreed in theory at an October 5, 
2007, meeting in Copenhagen that they would not transplant 
organs from prisoners or others in official custody, except 
into members of the prisoner's immediate family.\226\
------------------------------------------------------------------------
  Significant Death Penalty Procedural Reforms (in chronological order,
                           since October 2005)
-------------------------------------------------------------------------
Second Five-Year Reform Program for the People's Courts (2004-2008)
 [Renmin fayuan di er ge wu nian gaige gangyao (2004-2008)]
  <bullet> Issued on October 26, 2005 by the Supreme People's Court.
  <bullet> Establishes criminal law reform, including reform of the
   death penalty review process, as one of the top priorities for
   judicial authorities during the 2004-2008 period.Circular on Further Improving Court Hearing Work in Death Penalty Appeal
 Cases [Guanyu jinyibu zuo hao sixing ershen anjian kaiting shenli
 gongzuo de tongzhi]
  <bullet> Issued on December 7, 2005 by the Supreme People's Court.
  <bullet> Calls on provincial-level high courts to act as appellate
   bodies in death penalty cases, and establishes guidelines for how
   they should change their current practices.Trial Provisions on Several Issues Regarding Court Hearing Procedures in
 Death Penalty Appeal Cases [Guanyu sixing di er shen anjian kaiting
 shenli chengxu ruogan wenti de guiding]
  <bullet> Jointly issued on September 21, 2006 by the Supreme People's
   Court and Supreme People's Procuratorate.
  <bullet> Establishes concrete guidelines for the handling of death
   penalty appeals by procuratorates and provincial-level high courts.Decision on Amending the ``Organic Law of the People's Courts'' [Guanyu
 xiugai ``Zhonghua Renmin Gongheguo renmin fayuan zuzhifa'' de jueding]
  <bullet> Passed on October 31, 2006 by the National People's Congress
   Standing Committee.
  <bullet> Codifies into law the requirement that all death penalty
   sentences must be reviewed and approved by the Supreme People's
   Court.Decision on Issues Relating to Consolidated Review of Death Penalty
 Cases [Guanyu tongyi xingshi sixing anjian hezhun quan youguan wenti de
 jueding]
  <bullet> Issued on December 28, 2006 by the Supreme People's Court.
  <bullet> Provides guidance on which death penalty cases will continue
   to be reviewed by provincial-level high courts, and which cases
   should be submitted to the Supreme People's Court for review.Provisions on Some Issues Regarding Review of Death Penalty Cases
 [Guanyu fuhe sixing anjian ruogan wenti de guiding]
  <bullet> Issued on January 22, 2007 by the Supreme People's Court.
  <bullet> Provides guidance to all courts on when and how to review and
   approve a death sentence.Decision on Further Strengthening Criminal Adjudication Work [Guanyu
 jinyibu jiaqiang xingshi shenpan gongzuo de jueding]
  <bullet> Issued in September 2007 by the Supreme People's Court.
  <bullet> Retains the death penalty, but calls for limiting its use to
   only the most serious criminal cases.
------------------------------------------------------------------------

                             Worker Rights


                              INTRODUCTION

    The Chinese government does not fully respect 
internationally recognized worker rights. Chinese citizens are 
not guaranteed either in law or in practice full worker rights 
in accordance with international standards. In the five-year 
period the Commission has reported on worker rights in China, 
the government has made progress in enacting more legal 
protections for workers, but has continued to deny workers the 
fundamental right to organize into independent unions and 
strike to achieve meaningful change. In addition to these 
restrictions, factors such as poor implementation of labor 
protections on the books and collusion between local officials 
and employers create obstacles for workers who attempt to 
protect their rights. Although market liberalizations have 
brought Chinese citizens more freedom to choose their 
employment, along with prosperity and better jobs for some 
workers, social and economic changes also have engendered 
abuses from forced labor and child labor to flagrant violations 
of health and safety standards, wage arrearages, and loss of 
job benefits. Residency restrictions present hardships for 
workers who migrate for jobs in urban areas. In addition, tight 
controls over civil society organizations hinder the ability of 
citizen groups to champion for worker rights.
    In the last five years, local and central governments have 
enacted a series of rules, regulations, and laws on labor, but 
have not created the administrative structure to ensure 
adequate enforcement. A new Labor Contract Law, passed in June 
2007 and to take effect in January 2008, attempts to codify a 
series of protections for worker rights but does not include 
adequate provisions to guarantee equal bargaining power between 
workers and employers, and entrenches the role of China's only 
legal union, the Communist Party-controlled All-China 
Federation of Trade Unions (ACFTU) in contract negotiations.\1\ 
The law's imprecision leaves interpretation and clarification 
to the discretion of implementing officials, further limiting 
the impact of potentially beneficial provisions within the law. 
As the number of labor disputes rise,\2\ the government may aim 
for the law to remedy this source of perceived social unrest, 
but systemic weaknesses in implementing the law challenge the 
law's capacity to protect workers and reduce conflict.
    In 2006-2007, several high profile incidents underscored 
the 
inhumane conditions and weak protections under which many 
Chinese work. The discovery in 2007 that a massive network of 
small-scale brick kilns in Shanxi and Hunan provinces were 
employing forced labor evidenced China's weakness in 
effectively enforcing even its own labor and workplace safety 
laws. The discovery and admission that child labor was being 
used in the manufacturing of Olympic souvenirs further 
illustrated the state's failure to enforce worker rights.
    China's labor practices contravene its obligations as a 
member of the International Labor Organization (ILO) to respect 
a basic set of internationally recognized labor rights for 
workers, including freedom of association and the ``effective 
recognition'' of the right to collective bargaining.\3\ China 
is also a permanent member of the ILO's governing body.\4\ The 
ILO's Declaration on the Fundamental Principles and Rights at 
Work (1998 Declaration) commits ILO members ``to respect, to 
promote and to realize'' these fundamental rights based on 
``the very fact of [ILO] membership.'' \5\ The ILO's eight core 
conventions articulate the scope of worker rights and 
principles enumerated in the 1998 Declaration. Each member is 
committed to respect the fundamental right or principle 
addressed in each core convention, even if that member state 
has not ratified the convention. China has ratified four of the 
eight ILO core conventions, including two core conventions on 
the abolition of child labor (No. 138 and No. 182) and two on 
non-discrimination in employment and occupation (No. 100 and 
No. 111).\6\ The ILO has reported that the Chinese government 
is preparing to ratify the two core conventions on forced labor 
(No. 29 and No. 105).\7\ Chinese labor law generally 
incorporates the basic obligations of the ILO's eight core 
conventions, with the exception of the provisions relating to 
the freedom of association and the right to collective 
bargaining,\8\ but many of these obligations remain unrealized 
in practice.
    The Chinese government is a state party to the 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR), which guarantees the right of workers to strike, the 
right of workers to organize independent unions, the right of 
trade unions to function freely, the right of trade unions to 
establish national federations or confederations, and the right 
of the latter to form or join international trade union 
organizations.\9\ In ratifying the ICESCR, the Chinese 
government made a reservation to Article 8(1)(a), which 
guarantees workers the right to form free trade unions. The 
government asserts that application of the article should be 
consistent with Chinese law, which does not allow for the 
creation of independent trade unions.\10\ The Chinese 
government is a signatory to the International Covenant on 
Civil and Political Rights, which guarantees the right to 
freedom of association, ``including the right to form and join 
trade unions[.]'' \11\
    Workers in China have no choice as to their representation 
in the workplace. The ACFTU is China's only official trade 
union and is required by the Trade Union Law to ``uphold the 
leadership of the Communist Party.'' \12\ While the ACFTU has 
made progress in unionizing more workplaces in China, and has 
promoted pro-worker programs where they do not conflict with 
Party policy, the basic structure of the union system in China 
is at odds with meaningful representation of workers' rights 
and interests. Surveys of local ACFTU branches have indicated 
that a majority of union leaders hold concurrent positions 
within Party committees, government, or enterprise. Union 
leaders have represented enterprises, rather than workers, in 
labor dispute arbitration.\13\
    Workers who try to establish independent associations or 
organize demonstrations risk arrest and imprisonment. 
Independent labor organizers continue to serve long jail terms. 
For example, He Chaohui, a former railway worker at the 
Chenzhou Railway 
Bureau and vice-chairperson of the Hunan Workers Autonomous 
Federation during the May 1989 pro-democracy movement, has 
faced multiple detentions, including a current nine-year 
sentence, since taking part in labor strikes and 
demonstrations, and giving information on the protests to 
overseas human rights groups. 
Another long-term prisoner, Hu Shigen (Hu Shenglun), received a 
20-year sentence in 1994 for ``organizing and leading a 
counterrevolutionary group'' and ``engaging in 
counterrevolutionary propaganda and incitement'' after helping 
to establish the China Freedom and Democracy Party and the 
China Free Trade Union Preparatory Committee.\14\

                           LABOR CONTRACT LAW

                                Overview

    The Standing Committee of the National People's Congress 
(NPC) passed a new Labor Contract Law in June 2007, after 
considering multiple draft versions and soliciting public 
comments on the law.\15\ In addition to seeking public 
comments, the Ministry of Labor and Social Security also sought 
technical assistance from U.S. experts in drafting the law. In 
2005 and 2006, a U.S. Department of Labor-funded technical 
cooperation project sponsored a series of workshops and a study 
tour for Chinese officials who requested to be briefed on U.S. 
best practices in employment relationships, termination of 
contracts, part-time employment, regulation of labor 
recruitment, U.S. Wage and Hour regulations, the means of 
protecting worker rights, the means of enhancing compliance, 
and training for investigation.\16\
    The new law, effective January 2008, governs the 
contractual relationship between workers and employers from 
enterprises, individual economic organizations, and private 
non-enterprise units.\17\ The law expands requirements in 
China's 1994 Labor Law that mandate the signing of labor 
contracts.\18\ It requires workers and employers to establish a 
written contract in order to begin a labor relation\19\ and 
creates the presumption of an open-ended contract if the 
parties have not concluded a written contract within one year 
from the start of employment.\20\ The law also includes 
provisions that allow certain workers with existing fixed-term 
contracts to transition to open-ended employment.\21\ The law 
mandates that contracts specify matters including working 
hours, compensation, social insurance, and protections against 
occupational hazards. In addition, the employer and worker may 
add contractual provisions for probationary periods, training, 
supplementary benefits, and insurance.\22\ The basic provisions 
on establishing contracts accompany a series of other 
stipulations within the law that attempt to regularize the 
status of workers employed through staffing agencies; 
strengthen protections in the event of job dismissals; and 
establish a framework for penalizing non-compliance with the 
law.\23\
    Despite strengthening formal legal protections for workers, 
the ultimate extent of the law's effectiveness, especially 
without an independent union system to monitor enforcement, 
remains untested until the law takes effect. China's track 
record for implementing existing labor protections is poor at 
best. One government official has described weak implementation 
as the root cause of China's labor problems.\24\ A series of 
surveys on the enforcement of existing requirements to sign 
labor contracts found that many enterprises fail to use 
contracts, and that workers lacked knowledge of their right to 
sign a contract.\25\ Even if the Labor Contract Law promotes 
the creation of more formal contracts, however, the benefits of 
such a development may have limited impact without adequate 
measures to ensure that employers adhere to the terms of the 
contracts.\26\
    Ambiguities in the law amplify the challenges of 
implementation. While the law does not explicitly require 
employers and employees to enter into new contracts on January 
1, 2008, neither does it say whether it will apply to existing 
employment contracts that do not comply with the new law.\27\ 
The law requires workplaces that receive workers through 
staffing agencies to provide ``benefits suited for the job'' 
but does not elaborate on this provision.\28\ The law allows 
employers to cover their costs for employees' ``professional 
technical training'' by requiring employees first to agree to a 
set service period in exchange, but it provides no definition 
of ``professional technical training'' or a method of valuing 
service.\29\ Finally, the law does not specify whether it will 
apply to employees (whether local or expatriate) of foreign 
company representative offices. Because the law leaves many 
details to be fleshed out through the issuance of supplemental 
regulations and interpretations during implementation, its full 
impact will remain unclear for some time. In the interim, media 
reports indicate that some employers are dismissing workers now 
in order to avoid increased safeguards against terminations 
once the law enters into force.\30\

                          Non-Standard Workers

    The new law attempts to address a gap in legal protection 
for workers employed through staffing agencies, who have 
labored without explicit legal guidelines governing various 
aspects of their relationships with both staffing agencies and 
worksites that hire through the agencies. The Labor Contract 
Law provides that staffing firms fulfill the same function as 
other employers under the law by signing contracts with workers 
that detail the terms of employment. Compliance with the law 
requires staffing firms to agree to fixed-term contracts of at 
least two years and to pay each worker on a monthly basis 
including for periods where the worker has not been dispatched 
to an outside employer.\31\ Compliance also requires workplaces 
that receive workers through staffing agencies to provide the 
same wages as directly hired employees.\32\ The law also 
stipulates that these workplaces provide overtime, benefits, 
and incremental wage increases, though the law lacks details on 
these requirements.\33\ In addition, workers may join a union 
affiliated with either the staffing firm or the workplace to 
which they are dispatched.\34\ Finally, the law mandates that 
neither staffing firms nor workplaces that receive workers may 
levy placement fees from workers, nor can the staffing firm 
keep part of the worker's wages.\35\ The provisions expand on 
more limited stipulations for staffing firms specified in the 
law's draft form.\36\
    The Labor Contract Law attempts to extend a modest new 
protection for part-time employees by mandating that these 
workers (defined as those who work no more than 4 hours a day 
or 24 hours a week) not receive less than the local minimum 
hourly wage.\37\ Under the 1994 Labor Law, part-time employees 
had no such 
protection, and in 2007, news sources in China reported that 
fast food restaurants in Guangzhou paid part-timers 40 percent 
less than the minimum wage.\38\ In addition, the law mandates 
that part-time employees be paid no later than every 15 
days.\39\ However, the Labor Contract Law does not require 
employers to sign written contracts with part-time workers, and 
allows employers to terminate part-time workers without notice 
or termination compensation.\40\ The law's prospects for 
improving conditions for non-standard workers, therefore, are 
diminished not only by problems with implementation, but also 
by certain weaknesses in the law itself.

                              Terminations

    The Labor Contract Law stipulates a series of guidelines 
governing workforce reductions. Where employers reduce their 
workforce by 20 or more employees--a reduction from the 50 or 
more workers earlier specified in the drafting process\41\--or 
if they terminate employment for fewer than 20 workers but by 
an amount that comprises 10 percent or more of the workforce, 
the union or all employees must receive 30 days' advance 
notice. In addition, in order to comply with the law, the 
employer must explain the staff reduction and ``listen to the 
opinions of the trade union or the employees.'' \42\ Such 
provisions reinforce the tendency that runs throughout the new 
law requiring notification to workers and the union, rather 
than negotiations, over major issues such as mass layoffs. In 
the event of layoffs, the law stipulates giving priority to 
retaining workers with open-ended contracts or long periods of 
employment under fixed-term contracts, as well as workers who 
are the sole wage earner in the family and must support 
children or elderly family members.\43\ The law also forbids 
laying off several categories of workers, including workers 
near retirement, pregnant and postpartum workers, and workers 
who have sustained on-the-job injuries or occupational 
diseases, or are in the process of having such a disease 
diagnosed.\44\ Where employers end a contract unilaterally, 
they must notify the union and allow the union to intervene 
where the termination violates the law or contractual 
terms.\45\
    The law also specifies conditions under which employers 
must give severance pay to employees. Severance provisions 
apply to categories of workers including those laid off and 
workers who terminate their contracts because of illegal 
practices on the part of the employer.\46\ The law specifies a 
formula for determining severance based on one month of wages 
for each year worked; workers employed for fewer than six 
months receive half of the monthly wage.\47\ It also specifies 
severance pay caps for high-wage workers.\48\

               Enforcement Mechanisms and Legal Liability

    The Labor Contract Law includes a series of provisions to 
monitor enforcement of the law and penalize non-compliance. It 
assigns local labor officials at the county level and above 
with responsibility for overseeing implementation, including 
the enforcement of specific contractual terms.\49\ The law also 
empowers authorities from other offices, such as construction 
and health officials, to monitor aspects of the law within the 
scope of their jurisdiction.\50\ A report from the State 
Council Research Office issued in 2006 noted, however, a 
``serious shortage'' of supervisors to enforce implementation 
of labor laws, drawing into question the effectiveness of 
provisions in the Labor Contract Law.\51\
    Workers who allege an infringement of their rights may 
appeal to government authorities to address the matter, apply 
for arbitration, or initiate a lawsuit.\52\ A section on legal 
liability requires employers who fail to sign a contract after 
one month of employing a worker to pay double wages.\53\ It 
also articulates a series of other remedies for workers and 
stipulates additional penalties for employers, staffing firms, 
and labor officials who violate the law.\54\ One provision 
holds workers responsible for damages where they cause loss to 
an employer for ending a labor contract in violation of the law 
or breaching confidentiality and competition agreements.\55\

                         Collective Bargaining

    The Labor Contract Law includes six articles that specify 
guidelines for negotiating ``collective contracts,'' \56\ but 
it does not provide for collective bargaining. Collective 
contracting provisions have appeared in Chinese law for many 
years.\57\ The limited scope of the collective contracting 
process in the new law, including the lack of independent union 
participation, however, prevents it from translating into a 
meaningful mechanism for collective bargaining. Some leading 
Chinese experts argue that the meaning of the phrase 
``collective agreements'' is rendered meaningless due to the 
ACFTU's historic record of never having negotiated genuine 
collective bargaining agreements.\58\ Many provisions in the 
Labor Contract Law appear to be based on the presumption that 
workers will negotiate individual contracts. The final draft of 
the Labor Contract Law includes a provision that permits 
workers representatives to negotiate collective contracts where 
no ACFTU branch exists in the workplace, but such negotiations 
are ``under the guidance of the ACFTU at the next higher 
level.'' \59\ As three labor experts have noted, however, ``the 
idea of [ACFTU officials] representing and protecting the 
legitimate rights and interests of their members in opposition 
to those of the employer is something unfamiliar, if not 
totally alien.'' \60\ To date, the terms of collective 
contracts have been limited. One study of collective contracts 
observed that a typical contract lacks ``detailed specification 
of the terms and conditions of labour, and often does not 
include reference to many of the benefits that are in fact 
provided by the enterprise.'' \61\ In addition, workers' input 
in the process is limited, and employers have concluded 
collective contracts through model agreements rather than 
through a process of negotiation with employees.\62\ At the 
same time, use of the mechanism is widespread. According to the 
ACFTU, as of September 2006, 862,000 collective contracts 
covering 110 million workers had been signed, representing a 
14.3 percent 
increase since 2005 in the number of contracts signed and an 
8.3 percent increase in number of workers covered.\63\

                             Labor Disputes

    The Labor Contract Law includes default provisions designed 
to function in the event of dispute over contractual terms. 
Workers and employers may renegotiate a contract in the event 
specific terms are not clearly specified in a contract, and 
where negotiations fail, the terms of the collective contract 
or ``pertinent regulations of the state'' apply.\64\ The law 
also provides for the role of a labor arbitration board or 
people's court in the event the validity of a contract is 
disputed.\65\ In addition, the labor union may apply for 
arbitration or initiate a lawsuit in the event of dispute over 
a collective contract.\66\ Individual workers may do the same 
where their rights have been violated, and the law mandates 
that the labor union supply ``support and help'' in such 
cases.\67\ The union's divided loyalties in practice, however, 
call into questions the efficacy of these provisions. In 
addition, the high cost of arbitration fees has the practical 
effect of discouraging workers from pursuing this avenue of 
dispute resolution.\68\ Moreover, the law does not specify 
whether workers must first enter mediation before pursuing 
arbitration or legal suits, the first stage of labor dispute 
resolution listed in the 1994 Labor Law.\69\ Unlike the 1994 
Labor Law, it does not specify that workers must first exhaust 
arbitration options 
before pursuing a legal suit.\70\
    In addition, broader legislative developments may 
ultimately deny workers a full range of options for resolving 
labor disputes. A new draft Law on Labor Dispute Mediation and 
Arbitration placed before the NPC Standing Committee on August 
26, 2007, if passed, would limit the role of courts in labor 
dispute resolution. According to a vice-chair of the 
Legislative Affairs Commission of the NPC Standing Committee, 
as cited in a Xinhua article, ``The draft bill is for 
strengthening mediation and improving arbitration so as to help 
fairly solve labor disputes without going to court and thus 
safeguard employee's legitimate rights and promote social 
harmony'' [emphasis added].\71\ The draft allows companies to 
establish labor mediation committees in-house ``so as to solve 
disputes at [the] grassroots level,'' according to the Xinhua 
article, and specifies that the mediation committees may 
consist only of management and employees.\72\ Taken as a whole, 
China's emerging national labor law regime, billed as both 
strengthening worker rights and grassroots dispute resolution, 
appears equally intended to make sure that disputes do not 
enter legal channels that lead to the central government. 
Whether this represents deliberate local empowerment as part of 
a measured long-term strategy to induce grassroots legal 
development, a strategy of crisis localization and insulation 
for the center, or some combination, remains an open question.

            Criticism and Support for the Labor Contract Law

    Observers have been divided in their evaluations of the 
Labor Contract Law. While noting limitations for enforcing 
workers rights in practice, some worker rights organizations 
have expressed support for the law's role in strengthening 
protections for workers. For example, the China Labour 
Bulletin, directed by Hong Kong labor activist Han Dongfang, 
describes the new law as ``a laudable attempt to protect the 
rights of individual workers'' in its weekly publication but 
contends that workers need freedom to join unions, not just the 
ACFTU, and to freely elect their own representatives who would 
have the power to negotiate with management for collective 
bargaining agreements. It also expressed concerns about 
protections in earlier drafts omitted from the final 
version.\73\
    Businesses and business associations have had mixed 
reactions to the new law. Some multi-national companies raised 
objections to the law during the drafting process because of 
provisions perceived as impediments to employers, and analysts 
have drawn attention to new requirements and extra costs the 
law may impose on foreign firms.\74\
    U.S. and European multi-national companies and their 
representative associations commented upon or urged revisions 
to the law after publication of a draft version in spring 2006 
and continuing through the next year.\75\ The American Chamber 
of Commerce in the People's Republic of China ``called several 
meetings of its members and formed a team to carefully study 
and discuss the draft'' and prepared a set of comments as part 
of the NPC's formal public process of soliciting opinions.\76\ 
Some foreign corporations and their associations endorsed 
revisions that would weaken some of the formal protections 
written into draft versions of the law, according to business 
association, media, and other sources.\77\ Among the aspects of 
the drafts that concerned these companies were clauses on 
hiring and termination procedures, layoffs, employee 
probationary periods, the status of temporary workers, the 
power of the official trade union, severance pay provisions, 
and employee training repayment.\78\ The U.S.-China Business 
Council contended that limitations on the use of temporary 
employees would prove ``prohibitively expensive'' for 
businesses. \79\ NGO sources report that some business 
organizations threatened to withdraw manufacturing from 
China.\80\
    In its comments on the draft law publicized in March 2006, 
the American Chamber of Commerce in the People's Republic of 
China cautioned against ``impos[ing] additional and unrealistic 
obligations on employers'' against the backdrop of poor 
implementation of existing labor laws, stating that the law 
instead ``should leave enough latitude for local governments to 
make rules according to local needs.'' \81\ The European 
Chamber of Commerce expressed support for the final version of 
the law, after initial criticism, and urged the Chinese 
government to focus on adequate implementation of the law.\82\
    In answer to earlier complaints by foreign investors that 
the new law would have a detrimental effect on foreign 
investment, the director of the law department of the ACFTU 
stated that the Labor Contract Law ``not only protects workers' 
interests and rights, but also equally protects employers.'' 
\83\ According to one Chinese government official, ``If there 
were some bias, it would be in favor of foreign investors 
because local governments have great tolerance for them in 
order to attract and retain investment.'' \84\

                     OTHER LEGISLATIVE DEVELOPMENTS

    In August 2007, the Standing Committee of the National 
People's Congress adopted an Employment Promotion Law, 
effective January 1, 2008, that stipulates measures relating to 
the promotion of employment growth and equal access to 
employment.\85\ In addition to containing provisions aimed at 
prohibiting discrimination based on factors including 
ethnicity, race, sex, and religious belief,\86\ the law 
addresses the equal right to work for women and ethnic 
minorities;\87\ specifies disabled people's right to work;\88\ 
stipulates that rural workers' access to work should ``be equal 
to'' urban workers;\89\ and forbids employers from refusing to 
hire carriers of infectious diseases.\90\ The law also allows 
workers to initiate lawsuits in the event of 
discrimination.\91\ A survey publicized in June 2007 found 
widespread discrimination among job-seekers, especially 
physically disabled people, HIV/AIDS and hepatitis B carriers, 
and migrant workers. Women reported discrimination related to 
their entitlement to maternity benefits.\92\ [See Section II-- 
Status of Women for more information.]
    If properly implemented, the law may offer support for 
legal 
advocates pursuing employment discrimination cases, but other 
aspects of the law raise potential difficulties. One article 
assigns the state to spur workers to develop a ``proper'' 
mentality in job selections.\93\ Another provision carves out a 
role for Party-controlled 
organizations like the Communist Youth League to aid in 
implementation of the law, which may dampen the role of civil 
society groups that promote implementation in ways that 
challenge Party policy.\94\ Potentially beneficial safeguards 
also face barriers due to a lack of clearly defined terms. A 
provision to promote the employment of workers with 
``employment hardship,'' for example, defines this category of 
workers in general terms but leaves precise details to local 
authorities, introducing the possibility of uneven protections 
that reduce the law's overall impact.\95\ In addition, the law 
specifies the establishment of an unemployment insurance 
system, but provides no extensive details on 
implementation.\96\

                     CONDITIONS FOR CHINESE WORKERS

                                 Wages

    The 1994 Labor Law guarantees minimum wages for workers, 
and assigns local governments to set wage standards for each 
region.\97\ The new Labor Contract Law improves formal 
monitoring requirements to verify workers receive minimum 
wages. Article 74 requires local labor bureaus to monitor labor 
practices to ensure rates adhere to minimum wage standards. 
Article 85 imposes legal liability on employers who pay rates 
below minimum wage. In addition, Article 72 guarantees minimum 
hourly wages for part-time workers.\98\
    The government reported progress in 2006 in establishing 
hourly minimum wage standards in most of its provinces. 
According to a report from the Ministry of Labor and Social 
Security (MOLSS) released in October 2006, 29 of China's 31 
provincial-level areas had established hourly minimum wage 
standards, compared to 23 provinces in 2005. In addition, the 
report found that all 31 provincial-level areas maintained 
monthly minimum wage standards. The 
report shows greater local government compliance in 2006 than 
in 2005 with requirements to review monthly minimum wage 
standards every two years.\99\ Local government discretion to 
set minimum wages has resulted in wide variances across 
provinces.\100\ In 2006, the All-China Federation of Trade 
Unions reportedly urged provincial-level governments to 
increase minimum wages.\101\
    Illegal labor practices have undermined minimum wage 
guarantees. In an investigation of working conditions for 
migrant workers in China, Amnesty International noted that 
``wages of internal 
migrant workers are effectively reduced by management through 
inadequate pay for compulsory overtime, fines, unpaid wages, 
and other methods.'' \102\ The investigation found that some 
factories' fines for tardiness--calculated for each minute a 
worker is late--could constitute a major reduction in a 
worker's daily salary.\103\ (See the discussions on ``wage 
arrearages'' and ``working hours,'' below, for additional 
information.)
    China's leaders have expressed concerns over the growing 
income gap between rural and urban workers, and between earners 
at the top of the income ladder and those at the bottom. In 
July 2006, the government announced it would institute reforms 
aimed at cutting the wealth gap to promote a ``harmonious'' 
society and ``improve the socialist market economy,'' with 
focus on increasing the middle class and improving wages of 
low-level government employees.\104\ Party officials and 
commentators have not yet settled on a firm opinion of the 
wealth gap problem. In November 2006, Ministry of Finance 
official Wang Bao'an outlined a new wage plan aimed at limiting 
the rate of wage increases at the high end of the scale; 
standardizing income subsidies; stabilizing the wages of 
middle-income earners; and raising the income of low-wage 
earners.\105\ A commentary reprinted in the China Economic 
Daily, however, argued that ``the existence of a high-income 
group is inevitable in a market economy,'' and argued against 
``robbing the rich to give to the poor.'' \106\ Government 
official Qiu Xiaoping, of the Ministry of Labor and Social 
Security, agreed that the government should not intervene in 
setting wages in a socialist market economy where a ``salary is 
the market price of labor.'' \107\

                            Wage Arrearages

    Wage arrearages remains a serious problem, especially for 
migrant workers. In June 2006, the Ministry of Communications, 
which oversees China's transportation sector, issued a circular 
ordering provincial-level departments to finish resolving 
migrant workers' claims for unpaid wages from work on 
transportation projects by the end of 2006. The Ministry 
circular responds to a 2004 State Council decree to resolve all 
migrant worker wage arrears that have resulted from unpaid debt 
on government projects.\108\ Government efforts have helped 
lower the amount of outstanding unpaid wages, but progress in 
this area remains limited. Employers in the construction sector 
still owe workers a reported 10 billion yuan (US$1.2 
billion).\109\ An inspection in Gansu province found that 
companies owed 130 million yuan (US$16.6 million) in back wages 
to 130,000 migrant workers, mainly in the construction and 
restaurant industries.\110\
    Some local governments have issued legal guidance and taken 
other steps to address wage arrearages. Trial legal measures 
implemented in Qinghai province in 2006 require construction 
companies to set aside and deposit wage funds before projects 
begin, to ensure that workers will be paid when the project is 
completed. The measures punish enterprises that fail to deposit 
sufficient funds, that do not make their deposits in a timely 
manner, or that provide false contract information, and allow 
authorities to bar non-compliant firms from participating in 
the construction market.\111\ In Guangdong province, 
authorities had barred 30 enterprises for failing to pay 
employee wages as of June 2006. Though the government had given 
the companies previous warnings and implemented other punitive 
measures, the companies failed to remedy an outstanding debt of 
over 20 million yuan (US$2.5 million) to over 8,000 
workers.\112\
    Subcontracting practices within industry exacerbate the 
problem of wage arrearages. When investors and developers 
default on their payments to construction companies, workers at 
the end of the chain of labor subcontractors lack the means to 
recover wages from the original defaulters. Subcontractors, 
including companies that operate illegally, neglect their own 
duties to pay laborers and leave workers without any direct 
avenue to demand their salaries. In some cases, subcontractors 
will pay partial wages to force workers to stay on site to 
finish construction projects.\113\
    Wage arrearages have resulted in protests and 
demonstrations by workers, and some Chinese employers have 
responding by hiring thugs or gangsters to drive off the 
protesters. In July 2007, a group of armed gangsters beat up 
300 migrant workers who had gone on strike in Guangdong 
province to collect four months of back pay. The subcontractor 
construction company claimed that it could not pay the workers 
because it had not been paid by the contractor.\114\
    Workers who try to take legal measures to recover lost 
wages face prohibitive expenses and limited possibilities of 
recovering wages, even where adjudicators decide in their 
favor.\115\ Despite these obstacles, there has been a steady 
increase in the number of workers who turn to labor arbitration 
to settle their disputes with employers.\116\ In addition to 
wage arrearages, sources of disputes have included illegal and 
improperly compensated overtime and failure to adhere to labor 
contracts.\117\

                             Working Hours

    China's labor law mandates a maximum 8-hour work day and 
44-hour average work week, but compliance with these standards 
is weak.\118\ One specialist in China's compliance practices 
has estimated that work weeks above 80 hours are common in the 
apparel industry and other export sectors.\119\ A study of 
migrant workers in southern China found that workers were 
subject to forced overtime to upwards of 16 hours a day. The 
report noted that employers dodged paying overtime rates by 
compensating workers on a piece-rate basis with quotas high 
enough to avoid requirements to pay overtime wages. Workers who 
failed to comply with overtime requirements or who were late 
faced fines.\120\
    Suppliers in China avoid exposing themselves to claims of 
requiring illegal, long hours by hiring firms that help them 
set up double booking systems designed to deceive foreign 
importers who aim to adhere to Chinese rules and regulations. A 
detailed account of the practice found that these firms not 
only help suppliers set up fake books for audit, but also coach 
managers and employees on answers to give the auditors. One 
specialist has estimated that only 5 percent of Chinese 
suppliers comply with overtime regulations, and 20 percent 
adhere to wage regulations.\121\

                                Benefits

    The routine denial of legally guaranteed job benefits to 
workers by some employers is a serious problem in China. Gaps 
in social security and labor insurance coverage remain 
widespread. Though the government has reported that 100 million 
workers had unemployment insurance as of November 2006, this 
figure accounted for only one-seventh of the total 760 million 
workers in the country.\122\ An International Labor 
Organization study found that enterprises dodge requirements to 
provide contributions for old-age insurance by misreporting the 
number of employees and wages, as well as by keeping workers in 
irregular employment positions.\123\ In addition to failing to 
secure social security safeguards, employers also have denied 
workers benefits ranging from paid vacations to sick 
leave.\124\ Workers have described being fined for taking sick 
days.\125\
    Women workers face additional obstacles, as employers 
withhold maternity leave and related benefits.\126\ A 2006 
survey of women migrant workers conducted by the All-China 
Women's Federation found that only 6.7 percent of surveyed 
workers had maternity insurance. Of the 36.4 percent who 
reported that they were allowed to take maternity leave, 64.5 
percent said this leave was unpaid.\127\ The survey also found 
that only 23.8 percent have medical insurance and 19.1 percent 
have occupational insurance.\128\ [See Section II--Status of 
Women for more information.]
    Systemic failings of local governance exacerbate 
shortcomings in the provision of social security benefits, as 
local governments bear responsibility for providing coverage 
for retirement, illness or injury, occupational injuries, 
joblessness, and childbirth.\129\ After local mismanagement of 
the pension system in Shanghai, central government departments 
issued a series of legal guidance in 2006 to increase oversight 
of fund management.\130\ Li Jinhua, auditor-general of the 
National Audit Office, pledged in 2007 to stop the misuse of 
pension funds and said local governments would be held 
responsible for repaying misused funds out of their own 
budgets.\131\ Despite these measures, fundamental flaws within 
the system persist. As one overseas media source observed, 
``The party has talked for decades about building a social 
safety net, yet as the working population ages the government 
isn't investing nearly enough to head off looming crises in 
health care, education, and pensions.'' \132\ Chinese officials 
reported in 2006 that only 6 percent of the population 
benefited from the existing social insurance system and pledged 
to enlarge participation by 2020.\133\
    In 2006, the government announced it would take 
``compulsory measures'' to promote employer participation in 
on-the-job injury insurance for migrant workers, expanding 
coverage to over 140 million people by the year 2010. By the 
end of July 2006, 18.71 million migrant workers nationwide were 
covered by the insurance, while 87 million workers overall had 
such insurance as of April 2006.\134\

                             WORKER SAFETY

    Over the last year, the Chinese government enhanced its 
efforts to enforce work safety laws by conducting national 
inspections, promoting accident prevention through safety 
campaigns, enforcing the closure of small, illegal mines, and 
actively seeking international cooperation. According to latest 
statistics provided by the Chinese government, mine fatalities 
decreased by 20.1 percent in 2006 compared to 2005; fatalities 
during the first eight months of 2007 also decreased by 15.7 
percent compared to 2006, according to latest statistics 
provided by the government.\135\

              Industrial Accidents and Occupational Health

    Industrial injuries and deaths remain widespread in China, 
despite reported decreases in the number of workplace deaths 
and accidents.\136\ In February 2006, the State Administration 
for Workplace Safety (SAWS) closed nearly 36,000 businesses 
that had failed to obtain safety licenses by the end of 
2005.\137\ The government amended the Criminal Law in June 2006 
to broaden punishments for work safety violations. The 
amendments included new penalties for ``responsible'' personnel 
who hinder rescue efforts by covering up or failing to report 
accidents, though the amendments do not clarify how 
responsibility for reporting such incidents is determined.\138\ 
In August 2006, the government pledged over US$50 billion to 
lower workplace accidents.\139\
    China has high rates of occupational disease and injuries. 
As of 2006, official statistics indicated that 440,000 workers 
suffered from the respiratory condition pneumonoconiosis, as a 
result of exposure to toxic particles. Unofficial estimates 
place the number as high as 5 million.\140\ In 2006, government 
officials estimated the total number of workers with 
occupational illnesses may be as high as 700 million.\141\ 
Workers have reported that workplaces fail to educate them on 
occupational hazards or provide adequate safety equipment.\142\

                          Coal Mine Accidents

    China's coal mining sector continues to have high accident 
and death rates, and without independent worker organizations, 
coal miners are limited in their ability to promote safer 
working conditions. Though government statistics indicate a 
decline in deaths in coal mine disasters, official statistics 
are unreliable, and the reported death rate remains high 
nonetheless. In 2006, officials indicated that 4,746 workers 
died in coal mine accidents, representing a decline of 20 
percent from 2005.\143\ Unofficial estimates have placed the 
number as high as 20,000, not including the number of workers 
who die from mining-related diseases.\144\ The central 
government issued a series of legal guidance in 2006 aimed at 
addressing coal mine safety. Interim provisions issued in 
November 2006, for example, stipulate penalties for failing to 
correct hidden dangers that result in an accident; concealing, 
misreporting, or providing a delayed report of an accident; and 
allowing mines with 
revoked licenses to continue operations.\145\
    Despite measures to penalize violations of coal mine 
safety, punishment of coal mine officials is limited in 
practice. In a Supreme People's Procuratorate investigation of 
officials charged for their involvement in mining disasters, 
95.6 percent were not given any punishment or were given 
suspended sentences.\146\ In one case, where 56 miners died in 
a flood at a coal mine in the Xinjiang Uighur Autonomous 
Region, public outrage resulted in a retrial of the township 
chief, whose sentence was increased from one year to 12.\147\ 
Officials and mine operators have thwarted efforts to 
reconstruct evidence from coal mine disasters. After a series 
of accidents in April 2007, China's chief safety officer, SAWS 
head Li Yizhong, commented that mine operators ``sabotaged the 
(accident) scenes, destroyed incriminating evidence and removed 
the bodies.'' \148\
    China's coal is the source of its huge economic growth rate 
and some of its worst corruption.\149\ Weak central government 
control over local governments has forced central authorities 
to postpone closing many small mines until 2010. These mines 
are the most dangerous ones, but are highly lucrative for local 
owners. Mine owners raise production levels above the legal 
limit, and if accidents happen, bribe local officials to ignore 
their practices. Overseas media reported that mine owners have 
sent corpses to other provinces to avoid requirements to report 
accidents with more than three deaths.\150\

                            MIGRANT WORKERS

    Chinese migrants face numerous obstacles in the protection 
of their labor rights, and employers have exploited migrant 
workers' uprooted status to deny them fair working conditions. 
A report from the State Council Research Office found that 
wages for migrant workers are ``universally low;'' workplaces 
lack ``the most basic labor protection[s];'' migrant workers 
``engage in overly intensive labor for excessively long 
hours,'' without a guaranteed right to rest; and migrant 
workers are ``unable to obtain employment rights and public 
employment services'' on a par with permanent urban 
residents.\151\ Migrant workers are reportedly denied a total 
of 100 billion yuan in back pay, with 94 percent of migrant 
workers in the construction sector not paid on time.\152\ The 
central government has enacted a series of decrees to ease 
restrictions for 
migrant workers, but the measures lack sufficient legal force 
and sustainability at the local government level to ensure 
consistent implementation. [See Section II--Freedom of 
Residency and Travel for more information about migrant 
workers.]
    Thirty-one Chinese city governments agreed to a plan in 
2007 to set up a network of legal aid centers among the cities 
to improve legal access for migrant workers and ensure 
accountability among legal aid providers. Called the Chongqing 
Pact, the agreement obliges legal aid centers in the network to 
help migrant workers with issues such as labor disputes and 
work-related injuries, regardless of a worker's residency 
status. It also requires legal aid centers in a migrant 
worker's original place of residency to assist in the 
process.\153\ The program may be designed in part to avoid the 
demonstrations, and sometimes violence, that break out when 
workers are not paid.
    Chinese officials reported in June 2007 on a draft plan to 
change its pension system to address migrant workers' needs. 
Under the proposed plan, those with steady employment would 
join current pension schemes, and those without a permanent 
place of employment would enter a new program designed 
specifically for that population. Under the proposed system, 
employers and employees would make mandatory contributions to 
the fund that would be shifted to accounts in the migrants' 
home towns but that would 
retain portability as migrants change jobs and relocate.\154\ A 
2006 investigation on old-age pensions by the International 
Labor Organization identified an existing lack of portability 
of pension funds as one of the ``major barriers'' to coverage 
for migrants.\155\

                              CHILD LABOR

    Child labor remains a persistent problem within China, 
despite legal measures to prohibit the practice. As a member of 
the International Labor Organization (ILO), China has ratified 
the two core conventions on the elimination of child 
labor.\156\ China's Labor Law and related legislation prohibit 
the employment of minors under 16,\157\ and national legal 
provisions prohibiting child labor stipulate a series of fines 
for employing children.\158\ Under the Criminal Law, employers 
and supervisors face prison sentences of up to seven years for 
forcing children to work under conditions of extreme 
danger.\159\ Systemic problems in enforcement, however, have 
dulled the effects of these legal measures, though the overall 
extent of child labor in China is unclear due to the government 
categorizing data on the matter as ``highly secret.'' \160\ A 
report on child labor in China found that child laborers 
generally work in low-skill service sectors as well as small 
workshops and businesses, including textile, toy, and shoe 
manufacturing enterprises.\161\ It noted that many under-age 
laborers are in their teens, typically ranging from 13 to 15 
years old, a phenomenon exacerbated by problems in the 
education system and labor shortages of adult workers.\162\ 
Children in detention facilities also have been subjected to 
forced labor.\163\
    Events from the past year underscore the government's 
inability to prevent child labor. Underage workers were among 
the forced laborers found working in brick kiln mines in 2007, 
highlighting the existence of what the ILO terms the ``worst 
forms of child labor.'' \164\ [See the subsection on ``Forced 
Labor,'' below, for more information on forced labor in brick 
kilns.] A company that produces Olympics-related products 
admitted in 2007 that children as young as 12 years old had 
worked in the factory.\165\
    Although the Chinese government has condemned the use of 
child labor and pledged to take stronger measures to combat 
it,\166\ it continues to actively endorse other forms of child 
labor under the guise of work-study activities. Under work-
study programs implemented in various parts of China, children 
as young as elementary school students pick crops and engage in 
other physical labor. In the Xinjiang Uighur Autonomous Region 
(XUAR), for example, some 800,000 students began their 2006 
academic year by picking cotton in school-organized work-study 
programs, while elementary school students in some parts of the 
XUAR were forced to pick hops. The XUAR government issued legal 
guidance that year to outline the contours of this labor 
system, stating that priority should be placed on using labor 
revenue to buy accident insurance for students and liability 
insurance for schools. Reports from the region indicated that 
in recent years students had been made to work in 12-hour 
shifts and suffered injuries from dangerous working conditions 
and sexual abuse from adult laborers. [See Section II--Ethnic 
Minority Rights for more information on conditions in the 
XUAR.] Also in 2006, over 10,000 students in the fourth grade 
and higher in a city in Gansu province were made to harvest 
corn.\167\
    Central government legislation allows this form of child 
labor. National provisions prohibiting child labor provide that 
``education practice labor'' and vocational skills training 
labor organized by schools and other educational and vocational 
institutes do not constitute the use of child labor when such 
activities do not adversely affect the safety and health of the 
students.\168\ The Education Law supports schools that 
establish work-study and other programs, provided that the 
programs do not negatively affect normal studies.\169\ A 
nationwide regulation on work-study programs for elementary and 
secondary school students outlines the general terms of such 
programs, which it says are meant to cultivate morals, 
contribute to production outputs, and generate resources for 
improving schools.\170\ These provisions contravene China's 
obligations as a Member State to ILO conventions prohibiting 
child labor.\171\ In 2006, the ILO's Committee of Experts on 
the Applications of Conventions and Recommendations 
``expresse[d] . . . concern at the situation of children under 
18 years performing forced labour not only in the framework of 
re-educational and reformative measures, but also in regular 
work programmes at school.'' \172\
    Beyond the parameters of government-approved work study 
programs, some teachers have used their position of authority 
to induce students into exploitative working conditions in 
factories far from home. In 2006, for example, a teacher in 
Henan province recruited 84 female students from her school to 
work in a can factory in Zhejiang province. Students labored 
under exploitative conditions until some escaped. Authorities 
rescued the remaining students.\173\ The same year, teachers at 
a school in Shaanxi province arranged for approximately 600 
students, including under-age minors, to do ``work-study'' in 
an electronics factory in Guangdong province, where students 
were reported to work up to 14 hours a day without full 
wages.\174\

                              FORCED LABOR

    In May and June 2007, Chinese media and Internet activists 
uncovered a massive network of forced labor in brick kilns in 
Shanxi and Henan provinces. Reports indicated that people 
forced to work in the kilns included children and mentally 
challenged adults kidnapped by human traffickers and sold to 
the kilns, where they were beaten, denied food, and forced to 
work up to 20 hours per day. In other cases, workers were lured 
to the kilns through promises of high salaries.\175\ One father 
described his son's condition when he found him:

        My son was totally dumb, not even knowing how to cry, 
        or to scream or to call out ``father''[ . . .] He was 
        in rags and had wounds all over his body. Within three 
        months he had lost over [22 pounds].\176\

    Chinese officials announced in August 2007 that a 
nationwide campaign led to the rescue of 1,340 enslaved 
workers,\177\ but government reports of the size and scope of 
the problem appeared to conflict with accounts by citizens. 
Parents from Henan province, for example, said that up to 1,000 
children were forced into labor in Shanxi province, but Shanxi 
provincial vice-governor Xue Yanzhong said that authorities had 
inspected 4,861 brick kilns in the province and identified only 
15 child workers. According to Xue, only 17 of the brick kilns 
inspected used forced labor.\178\
    The reports of forced labor reveal a longstanding 
phenomenon, according to an editorial in the Chinese newspaper 
Southern Weekly:

        The dirty slave trade has been thriving for a long time 
        but the local government didn't take any action. It's 
        become an actual accomplice. The scandal is so massive 
        and catastrophic that it poses a serious threat to 
        public security.\179\

    According to a deputy director from the Ministry of Public 
Security, official knowledge of the forced labor system goes 
back as far as 2004. At that time, police discovered child 
labor being used in brick kilns in Henan province after a 
parent asked for help in finding his child. The deputy director 
considered the problem ``solved . . . under the instructions of 
our leaders.'' A kiln contractor reported that many kiln 
operators received advance notice of the 
inspections from local police and hid enslaved laborers during 
inspections. Kilns were only closed if they had no business 
licenses or did not adhere to safety and environmental 
standards, not because they were using forced labor.\180\
    By the middle of July 2007, 29 mine supervisors and owners 
received prison sentences for their involvement in forced 
labor. Of those convicted, a foreman who beat a mentally 
disabled worker to death was given the death penalty. The owner 
of this kiln, a son of a local Communist Party official, 
received a sentence of nine years. Other defendants were given 
prison terms from two years to life in prison.\181\ Critics 
have complained that these few convicted criminals were being 
used to deflect attention from the involvement of Party 
officials.\182\ By August, no senior officials had been 
punished and only 95 low ranking officials had been 
reprimanded.\183\ [For information regarding Chinese officials' 
disclosure of information on the forced labor scandal see 
Section II--Freedom of Expression.]
    In June, the All-China Lawyers Association asked the 
National People's Congress Standing Committee to introduce new 
legislation making slavery a criminal charge. The Association 
noted that current law applies only to legally recognized 
employers and does not apply to individuals or illegal 
workplaces.\184\

                    U.S.-CHINA BILATERAL COOPERATION

    The U.S. Department of Labor and two Chinese government 
agencies continued to conduct cooperative activities during 
2007 on wage and hour laws, occupational safety and health, 
mine safety, and pension oversight. The two countries renewed 
Letters of Understanding related to these areas and pledged to 
continue the 
cooperative activities for four more years. In addition, two 
new cooperative agreements were signed in the areas of 
unemployment insurance program administration and labor 
statistics.\185\

                         Freedom of Expression


                              INTRODUCTION

    The Commission's previous recommendations addressed three 
areas where China's citizens do not enjoy the right to free 
expression. First, the Commission has noted that restrictions 
on the free flow of information threaten the well-being of 
Chinese citizens and, increasingly, citizens around the world. 
In its 2003 Annual Report, the Commission noted that China's 
news media restrictions prevented citizens from being fully 
informed during the 2003 SARS crisis. After China began 
considering a proposal in 2006 to further limit media coverage 
during public emergencies, the Commission recommended in its 
2006 Annual Report that the President and Congress urge China's 
leaders to recognize the importance of complete transparency in 
the administration of public health, and the importance of an 
unimpeded press in providing critical information to the public 
in a timely manner. Recent international concern over the 
global health impacts of food, drugs, consumer products, 
disease outbreaks, and pollution originating from China 
underscore the importance of the free flow of information.
    Over the last five years, public access to government 
information, at least on paper, has improved, but major 
obstacles to government transparency remain, reflecting the 
Communist Party's overarching concern that it maintain control 
over the flow of information. In 2007, the government passed 
China's first national ``freedom of information'' regulation, 
but it remains subject to a ``state secrets'' 
exception that gives the government broad latitude to withhold 
information. The Party and government continue to maintain 
tight control over the press, and the prospects for a free 
press remain dim. While foreign reporters in theory were 
granted some increased press freedom in accordance with 
promises China made in 2001 as part of its successful bid to 
host the 2008 Summer Olympic Games, China continues to use 
upcoming important events such as the Party's 17th Congress in 
October 2007, and corruption among Chinese reporters, as a 
pretext for increased restrictions on domestic media. The lack 
of a free press to monitor the government leaves citizens 
poorly informed about major problems and unable to fully 
investigate the root causes of such problems and the extent to 
which the Party or the government should be held accountable.
    Second, previous Commission reports highlighted China's 
pervasive censorship of the Internet and other electronic 
media. In its Annual Reports from 2002 to 2006, the Commission 
recommended that the President and Congress urge the Chinese 
government to stop blocking access to foreign news broadcasts 
and Web sites, and allow its citizens freer access to 
information on the Internet, particularly information 
concerning the rights of Chinese citizens to free speech and a 
free press. The Commission has also recommended that the 
President and Congress urge China to cease detaining 
journalists and writers, many of whom are punished for posting 
essays critical of the Chinese government on the Internet.
    Over the last five years, the Party and government have 
continued to emphasize management and control over the 
Internet. They have done so by requiring Web sites to be 
licensed, blocking access to politically sensitive information 
on the Internet, and detaining citizens who criticize the 
government online. In 2007, Hu Jintao called for ``purifying'' 
the Internet, saying ``the stability of the state'' depended on 
the Party taking full advantage of and successfully controlling 
the Internet. The Internet poses a daunting challenge for the 
Party. In 2007, citizen activists used the Internet and cell 
phones to raise public awareness about cases involving slave 
labor and the construction of a hazardous chemical plant, 
driving the reporting agendas of the state-controlled press and 
forcing the government to address these problems. Their 
success, however, reflects the creativity of China's citizenry 
in evading censors and the difficulty in trying to monitor 
China's growing online environment, rather than any government 
policy of liberalization. Furthermore, journalists and writers 
who criticize the government online continue to face 
imprisonment for such crimes as ``inciting subversion.''
    Third, the Commission's previous reports have noted China's 
prior restraints on publishing, which prevent citizens from 
freely expressing ideas and opinions. In its Annual Reports 
from 2003 to 2006, the Commission recommended that the 
President and Congress urge the Chinese government to eliminate 
prior restraints on publishing. Over the last five years, 
public officials in China have maintained prior restraints on 
publishing and continue to ban and confiscate books and 
magazines that do not conform to the Party's political 
requirements. This past year, publication and propaganda 
officials stepped up their efforts to clean up the publishing 
industry in preparation for the Party's 17th Congress to be 
held in October 2007.

                        FREE FLOW OF INFORMATION

         Improvements and Obstacles to Government Transparency

    The Commission notes that over the last five years, the 
Chinese government has made progress in increasing public 
access to government sources of information. The Communist 
Party and State Council have directed all levels of government 
to increase transparency.\1\ In its 2003 Annual Report, the 
Commission noted that most provinces and major cities had set 
up detailed government Web sites.\2\ By March 2007, 86 percent 
of all government agencies had official Web sites.\3\ Many of 
the Web sites provide detailed and substantive information.\4\ 
In addition, by the end of 2006, most central government 
institutions and all provinces, autonomous regions, centrally 
administered municipalities, and top-level courts had 
established public spokesperson systems.\5\
    Over the last five years, the government has also sought to 
improve its ability to respond to public emergencies and make 
information available to the public more quickly. The 
government's slow response to the SARS disease outbreak in 2003 
and to the Songhua River chemical spill in 2005 led to passage 
of measures to prevent provincial and local officials from 
covering up such incidents.\6\ The Regulation on the Handling 
of Public Health Emergencies, for example, requires provincial 
governments to report a public health emergency to central 
officials within one hour and requires central officials, or 
provincial governments who have received approval from central 
officials, to release information in a timely manner.\7\ 
However, as the Commission noted in its 2003 and 2006 Annual 
Reports, these reforms were not intended to relax the 
government's control over the media or the free flow of 
information to the general public.\8\ Rather, the goal was to 
increase the flow of information to central authorities in 
Beijing, control how the press reported on the matter, and 
prevent private citizens from publishing opinions regarding the 
government's handling of the crisis.
    In April 2007, the State Council issued the Regulation on 
the Public Disclosure of Government Information (Public 
Disclosure Regulation), the first national ``freedom of 
information'' regulation requiring all government agencies to 
release important information to the public in a timely 
manner.\9\ The new regulation, which takes effect on May 1, 
2008, requires government agencies to timely disclose vital 
information regarding the government's handling of issues that 
have been at the forefront of controversy in recent years, such 
as food, drug, and product safety, public health emergencies, 
environmental protection, land expropriation, the sale of 
state-owned property, and population planning.\10\ The 
regulation also provides citizens, legal persons, and other 
organizations with the right to request information from a 
government agency and to file an administrative lawsuit to 
appeal an agency's decision not to provide information.\11\ The 
State Environmental Protection Administration subsequently 
issued implementing measures in April mandating public 
disclosure of information on China's environment.\12\ [See 
Section II--Environment.]
    The impact of these freedom of information regulations is 
limited, however, by the presence of a ``state secrets'' 
exception that gives the government broad latitude to withhold 
information from the public.\13\ This policy reflects the 
continuing perception by the Party that relinquishing too much 
control over the flow of information will cause ``social 
instability'' and challenge the Party's supremacy. Chinese laws 
and regulations provide lists of what may be deemed a state 
secret, but these lists are broad and vague, encompassing 
essentially all matters of public concern.\14\ For example, 
information about China's environmental pollution that would 
``reflect negatively on China's foreign affairs work'' is 
considered a state secret.\15\ Legal scholars in China have 
noted that the inclusion of a ``state secrets'' exception in 
the Public Disclosure Regulation gives officials too much 
discretion to withhold information.\16\ In addition, the Public 
Disclosure Regulation's heavy penalties for officials who fail 
to protect state secrets may encourage even less 
transparency.\17\ Moreover, citizens and journalists have 
encountered resistance from local officials when requesting 
information under similar administrative rules already in place 
in some Chinese cities. In June 2006, a Shanghai journalist 
sued the Shanghai Municipal Planning Bureau under a similar 
freedom of information regulation, but lost the case and was 
fired from his job as a result.\18\ Some legal experts in China 
have also questioned whether provisions in such regulations, 
granting citizens the right to request information, would apply 
to citizens acting in their role as journalists, an 
interpretation that would severely limit the law's impact.\19\
    The National People's Congress recently issued the 
Emergency Response Law, which requires people's governments to 
publicly disclose accurate and timely information regarding 
emergencies.\20\ The law was issued in August 2007 and will 
take effect on November 1, 2007. The Commission noted in its 
2006 Annual Report that a draft of this law contained a 
provision that would have imposed a heavy fine on domestic or 
foreign media who reported on a public emergency without 
government approval.\21\ The Commission noted that the 
provision would have impeded the efficiency of the Global 
Public Health Intelligence Network, an electronic surveillance 
system used by the World Health Organization to monitor the 
Internet for reports of communicable diseases and communicable 
disease syndromes. In a positive step, the provision was 
removed from the final version of the law.\22\ The law, 
however, now contains a provision prohibiting the fabrication 
and spread of ``false information.'' \23\ Media who violate 
this provision may be shut down.\24\ This provision could have 
a chilling effect on journalists who worry that the government 
retains too much discretion to determine whether information is 
false or not.\25\ In January 2006, for example, public 
officials sentenced journalist Li Changqing to three years in 
prison for violating a Criminal Law provision that prohibits 
the ``intentional dissemination of terrorist information that 
is knowingly fabricated to disturb public order,'' even though 
Li's reporting on a dengue fever outbreak turned out to be 
materially similar to the government's own accounts.\26\
    Public officials have punished citizens for sharing second-
hand information over the Internet or cell phones, threatening 
the free flow of information and forcing citizens to wait for 
the government's official version of the ``truth'' before 
discussing important public events. Commentators in China have 
expressed concern over the government's liberal application of 
Article 25 of the Public Security Administration Punishment 
Law, which provides for the detention of citizens who spread 
rumors with the intent to disturb public order.\27\ [See 
Section II--Rights of Criminal Suspects and Defendants for more 
information about this law.] For example, in July 2007, 
officials in Jinan city, Shandong province, detained a resident 
for noting in an online discussion that she had heard that 
citizens had perished in heavy flooding that hit the city.\28\
    The Supreme People's Court (SPC) has continued its campaign 
to increase public access to court proceedings. As the 
Commission noted in its 2003 Annual Report, the SPC has taken 
steps to improve the quality and availability of judicial 
decisions.\29\ In June 2007, the SPC issued several opinions 
calling on courts to provide public access to all stages of the 
trial process,\30\ and to make more judgments available in 
publications and over the Internet.\31\ The opinions, however, 
contain the ``state secrets'' exception, which courts have 
commonly used to conduct politically charged trials behind 
closed doors.\32\ [See Section II--Rights of Criminal Suspects 
and Defendants for more information about these opinions.] In 
addition, court officials concerned about media threats to 
judicial independence have sought to limit media reporting of 
court activities. In September 2006, top officials at the SPC 
announced a policy prohibiting news media from interviewing 
judges or court officials without government permission and 
directing the media not to issue commentary on pending court 
cases.\33\

                             NO FREE PRESS

    China's restrictions on the press violate the right to 
freedom of expression as provided for under international human 
rights standards and China's Constitution. Both the 
International Covenant on Civil and Political Rights\34\ 
(ICCPR) and the Universal Declaration on Human Rights\35\ 
(UDHR) guarantee the freedom to seek, receive, and impart 
information, through any media, regardless of frontiers. 
Article 35 of China's Constitution provides China's citizens 
freedom of speech and the press.\36\ While this freedom is not 
absolute, the ICCPR and UDHR provide that restrictions may be 
imposed only to protect the following interests: national 
security or public order, public health or morals, or the 
rights or reputations of others. Furthermore, the restriction 
must be prescribed by law and must not exceed the scope 
necessary to protect a compelling interest.\37\ China restricts 
the press for political and ideological reasons. Restrictions 
such as directives from propaganda officials are not prescribed 
by law because they are issued by a Communist Party entity, 
rather than one of the parties authorized to pass legislation 
under China's Legislation Law.

                Party and Government Control Over Media

    China's media could play an important role in helping 
inform the public about important events but, as noted above, 
recent laws and regulations dealing with government disclosure 
and public emergencies limit this potential. A more fundamental 
limitation, however, is the Party's continued control over all 
media in China, 
either directly or through its control over the government 
agencies that regulate China's media. The Party exercises 
direct control over the media through the Central Propaganda 
Department (CPD). The CPD issues directives informing 
publishers and editors what stories can and cannot be covered. 
It works together with lower-level propaganda departments to 
deliver these directives to all media and to appoint media 
managers to monitor each publication.\38\ The CPD also requires 
editors and publishers to attend 
indoctrination sessions. In addition, government agencies 
heavily regulate the media. News publishers must be licensed by 
the General Administration of Press and Publication (GAPP) and 
have a government sponsor.\39\ GAPP requires all journalists to 
be licensed.\40\ The State Administration of Radio, Film, and 
Television (SARFT) controls the content of radio, television, 
satellite, and Internet broadcasts.
    Major media, such as the People's Daily and Xinhua, remain 
closely affiliated with a Party or government entity.\41\ 
Central Party and government officials use journalists to 
gather information so that they can monitor provincial and 
local officials, under a policy called ``public opinion 
supervision.'' \42\ Stories they deem too critical or 
politically sensitive to be published in the media are instead 
forwarded as intelligence reports to relevant officials through 
classified channels.\43\ Commercialization of the industry in 
the 1990s and the ``public opinion supervision'' policy has led 
to the development of media with a reputation for more hard-
hitting journalism, including Southern Metropolitan Daily and 
Caijing.\44\ Yet, even these more independent media remain 
subject to control by propaganda officials and have been 
singled out for punishment in the past.\45\

                  Roles the Media Is Expected to Play

    The media in China is expected to act as the Party's 
mouthpiece.\46\ Just before becoming President and Party 
General Secretary, Hu Jintao, in 2002, reiterated this 
longstanding policy, which has remained firmly in place during 
Hu's first five years in power.\47\ For example, the Party's 
Central Committee issued a resolution at the end of its sixth 
plenum meeting in October 2006, calling on the news media to 
promote Hu's ``harmonious society'' policy.\48\ To create a 
``positive public opinion atmosphere'' for the Party's 17th 
Congress in October 2007, propaganda officials issued 
guidelines restricting media coverage of 20 topics, including 
the 50th anniversary of the anti-Rightist campaign, judicial 
corruption, and campaigns by legal rights defenders.\49\ SARFT 
ordered television stations to air only ``ethically inspired TV 
series'' during prime time in the months leading up to the 
Party Congress.\50\
    The Party also expects the media to paint central Party and 

government officials in a positive light. While media may 
report critically on the activities of provincial and local 
officials, their criticisms must remain at that level and may 
not threaten Party supremacy. The media must emphasize efforts 
by central Party and government officials to remedy the 
situation. For example, after news media and Internet activists 
exposed the widespread use of forced labor in brick kilns in 
May and June 2007, authorities chided local officials for 
trying to hide information from the media, but then instructed 
journalists to limit their coverage and to applaud the rescue 
efforts of central Party and government officials.\51\
    Media that disobey propaganda directives or publish content 

unacceptable to censors continue to risk being disciplined or 
censored by the Party. In November 2006, the CPD ordered senior 
executives at the Beijing-based weekly magazine, Lifeweek, to 
engage in self-criticism and required its journalists to 
undergo political training after the magazine violated a Party 
directive not to highlight politically sensitive events.\52\ 
Staff at a newspaper in Sichuan province were suspended for 
inadvertently running an 
advertisement that included a veiled reference to the Chinese 
government's June 4, 1989 crackdown on the Tiananmen Square 
democracy protests.\53\ In March 2007, Caijing was reportedly 
ordered to withdraw an issue containing an article about a 
contentious draft of the Property Law then under 
consideration.\54\

                Consequences of the Lack of a Free Press

    Over the last five years, events such as the SARS crisis in 
2003 and more recent government scandals show that the Party's 
control over the press denies citizens critical information at 
important times. Chinese citizens and citizens around the world 
cannot effectively monitor the Chinese government because they 
remain dependent on the willingness of one unsupervised source, 
the Party, to provide accurate, timely, and unbiased 
information. Some recent examples include:

        <bullet>  Even after measures implemented following the 
        SARS crisis in 2003 discouraged local officials from 
        hiding information, local officials in the provinces of 
        Jilin and Heilongjiang delayed notifying relevant 
        officials and the general public about a chemical plant 
        explosion in 2005 that released chemicals into the 
        Songhua River, the main water source for the 
        Heilongjiang capital of Harbin.\55\ They imposed a two-
        week press blackout, and the incident led to panic 
        among citizens and a diplomatic incident with Russia.
        <bullet>  When the top Party official in Shanghai was 
        forced to step down in September 2006 amid allegations 
        that he had mismanaged the city's nine billion yuan 
        (US$1.2 billion) pension fund,\56\ propaganda officials 
        ordered local media to publish only official news 
        reports from Xinhua.\57\ During this time, Shanghai's 
        municipal government reportedly did not hold a press 
        conference for almost four months.\58\
        <bullet>  In May 2007, international and Hong Kong 
        officials complained that Chinese officials were tight-
        lipped about a rumored epidemic affecting pigs in a 
        province near Hong Kong, and about contaminated pet 
        food that had reportedly caused large numbers of cats 
        and dogs in the United States to become ill.\59\ 
        China's media had reportedly issued few reports on the 
        incidents.\60\
        <bullet>  In July 2007, the Financial Times reported 
        that officials at the State Environmental Protection 
        Administration and Ministry of Health asked the World 
        Bank to remove from a joint report the figure of 
        750,000 premature deaths every year in China, caused 
        mainly by air pollution.\61\ Officials reportedly said 
        the information was ``too sensitive'' and could cause 
        ``social unrest.'' \62\ A foreign ministry official 
        denied the charge that any information had been 
        censored.\63\
        <bullet>  In July 2007, propaganda officials ordered 
        restrictions on food safety reports after a Beijing 
        reporter issued a false news report alleging that food 
        vendors were filling steamed buns with pieces of 
        cardboard.\64\

                   Limited Prospects for a Free Press

    Central government officials have urged local officials to 
cooperate more with the media, but this development should not 
be interpreted as a shift in government policy to allow for a 
freer press.\65\ For example, in July 2007, a State Council 
Information Office official criticized local officials for 
blocking media coverage of the forced labor scandal at brick 
factories in central China.\66\ This criticism is consistent 
with the central government's ``public opinion supervision'' 
policy of relying on journalists to gather information so that 
they can monitor provincial and local officials. The central 
government's support of this policy has, however, given 
commentators in China justification for calling for broader 
press freedom, 
although they have been careful to do so in the context of 
local initiatives to restrict press freedom and to fashion 
arguments consistent with ``public opinion supervision.'' \67\ 
For example, a deputy editor at Southern Weekend argued in an 
editorial that the purpose of news is not to serve as a 
propaganda tool, and that the central government's ``public 
opinion supervision'' policy is intended for the press to be a 
check on public power.\68\ The editorial was in response to the 
Anhui provincial government's issuance in October 2006 of rules 
requiring journalists to write a minimum number of ``positive'' 
stories about Anhui in order to receive a promotion.\69\
    The Chinese government also allowed foreign journalists 
greater freedom in 2007. To fulfill China's commitment to give 
journalists ``complete freedom'' to report on China when it bid 
for the 2008 Summer Olympic Games in 2001,\70\ Premier Wen 
Jiabao signed into law new regulations in December 2006, which 
eliminate the requirement that foreign journalists must obtain 
government permission before conducting interviews.\71\ The new 
rules, which went into effect on January 1, 2007 and expire on 
October 17, 2008,\72\ have had mixed results. The Foreign 
Correspondents Club of China, an association of Beijing-based 
foreign journalists, and Human Rights Watch both issued reports 
noting that while some journalists have said that China's 
reporting environment has improved, harassment, intimidation, 
and detention of foreign journalists and the Chinese citizens 
they interact with remains commonplace.\73\ Problems have 
included intimidation of citizens who speak to foreign 
journalists,\74\ harassment of journalists in politically 
sensitive areas such as the Tibet Autonomous Region,\75\ 
harassment of citizens who work with foreign journalists,\76\ 
and the refusal of local officials to recognize that the new 
rules extend to non-Olympics related coverage.\77\ It remains 
to be seen whether the rules will be extended beyond the 
Olympics and what effect they will have on domestic 
journalists. For a more detailed and updated analysis on the 
impact of these regulations on freedom of expression in China, 
see the Commission's Web site at www.cecc.gov. 
    One obstacle to press freedom in China is that the state's 
control over the media contributes to corruption in the media. 
According to David Bandurski, a research associate at the China 
Media Project at the University of Hong Kong: ``Media 
corruption is facilitated by the quasi-official status of 
reporters, who are seen by many Chinese as government 
functionaries with special authority. This combination of power 
and profit motive is a key ingredient in many extortion 
attempts.'' \78\ In May 2007, the People's Daily reported that 
a person who had posed as a reporter and top editor at the 
paper had collected 3.79 million yuan (US$500,000) in bribes 
before being caught and sentenced to life in prison.\79\ 
Problems of journalists asking for bribes in return for not 
publishing negative news or writing a positive story are 
reportedly widespread.\80\
    This corruption has provided the state with a pretext to 
restrict China's media even more.\81\ In March 2007, for 
example, the GAPP issued a notice requiring media to take 
greater measures to purge their local offices of unlicensed 
journalists after one was beaten to death by the owner of an 
illegal coal mine who thought the journalist was seeking a 
bribe.\82\ Later in 2007, a Beijing journalist falsified a 
report on food vendors filling steamed buns with cardboard. 
Amid rising international concern over China's food exports, 
China responded with a crackdown on false news and illegal 
publications, including ``illegal political newspapers and 
magazines that fabricate political rumors.'' \83\

                          INTERNET CENSORSHIP

                        China's Internet Policy

    Since the Internet first became popular in the late 1990s, 
China's policy has emphasized management and control over this 
medium. In a January 2007 speech to Politburo officials, 
Communist Party General Secretary Hu Jintao called for 
``purifying'' the Internet environment, saying that ``the 
stability of the state'' depended on the Party taking full 
advantage of and successfully controlling the Internet.\84\ 
China has controlled the Internet through licensing 
requirements for Web sites, shutting down and blocking access 
to Web sites that post political content, and detaining 
citizens who criticize the government online or post 
politically sensitive content. Its efforts have been relatively 
successful. Despite heavy censorship, many citizens consider 
the Internet in China to be quite free, with unprecedented 
access to information about sports, entertainment, and 
business, and in some cases, political content that China fails 
to block. According to a recent survey, more than 80 percent of 
Internet users in China are satisfied with the diversity of 
content.\85\
    Far from simply limiting online information that runs 
counter to the Party's ideology, the Party has sought to use 
the Internet to bolster its monopoly on political power and to 
drive China's economy. According to the World Bank, information 
and communication technologies have led China's economic 
ascent, growing two to three times faster than China's overall 
GDP over the last 10 years.\86\ Internet use has skyrocketed 
from 59 million users in 2002 to 162 million in June 2007.\87\ 
According to Tim Wu, an expert on China and a professor at 
Columbia Law School, ``the Chinese government has seen the 
Internet as an enormous opportunity at igniting public opinion 
in its favor.'' \88\ During his January 2007 speech to 
Politburo officials, President Hu emphasized the central role 
the Internet plays in the Party's efforts to shape public 
opinion.\89\ China views the Internet as a battleground for 
public opinion that is currently monopolized by the West,\90\ 
and has sought to overcome this perceived monopoly by 
increasing Chinese sources for online information. The fact 
that it is easy to communicate with large numbers of people 
over the Internet, and that users rely heavily on the Internet 
for news and information, make the Internet a powerful platform 
for promoting the Party's ideology and policies.

                    Measures To Control the Internet

    China's measures to control the Internet do not conform to 
international standards for freedom of expression. Under the 
ICCPR and UDHR, such restrictions may be imposed only if they 
are provided by law and are necessary to protect national 
security or public order, public health or morals, or the 
rights or reputations of others.\91\ In some cases, China has 
imposed restrictions to address issues of public concern, such 
as privacy protection, false advertisements, spam, online 
pornography, and youth addiction to the Internet.\92\ But 
public officials in China also prohibit citizens from 
accessing or posting online content if they find such content 
to be politically unacceptable without any formal determination 
of necessity based on ICCPR and UDHR standards.

Licensing System

    As noted in the Commission's 2006 Annual Report, the 
government requires all Web sites in China to be either 
licensed by, or registered with, the Ministry of Information 
Industry (MII).\93\ Web sites that fail to register or obtain a 
license may be shut down and their operators fined.\94\ 
Authorities appear to be shutting down more Web sites in 
preparation for the 17th Party Congress, many for being 
unregistered.\95\ Anyone wishing to post or transmit news 
reports or commentary relating to politics and economics, or 
military, foreign, and public affairs, must also have a 
government license.\96\ According to the OpenNet Initiative, 
``In large measure, the registration regulation is designed to 
induce Web site owners to forego potentially sensitive or 
prohibited content, such as political criticism, by linking 
their identities to that content. The regulation operates 
through a chilling effect.'' \97\ China continues to draft 
regulations to bring new forms of online media into the 
registration system. In April 2007, for example, Xinhua 
reported that the General Administration of Press and 
Publication (GAPP) had drafted the Regulation on the 
Supervision of Internet Publishing, which would require online 
magazines to be examined and approved by GAPP prior to 
publication.\98\

Monitoring, Blocking Access, and Filtering Content

    China has continued to block access to foreign Web sites, 
which it is able to do because it controls access at the 
gateway connection between China and the global Internet.\99\ 
Over the past five years, the Commission has noted that at 
various times China has blocked the Web sites of AltaVista, 
Google, and foreign news providers such as the Voice of 
America, Radio Free Asia, and the BBC, and human rights 
advocacy groups such as Human Rights Watch, Human Rights in 
China, Reporters Without Borders, and the Committee to Protect 
Journalists. The Commission has noted in its recommendations on 
the Internet that China's censorship system prevents its 
citizens from accessing information about their rights and 
China's violations of them. Since May 2005, the Chinese 
government has prevented its citizens from accessing the 
Commission's Web site. In June 2007, China reportedly unblocked 
access to the English Wikipedia Web site after it had been 
blocked for most of the last 18 months, but the version of 
Wikipedia designed for Chinese users remained blocked. Bloggers 
reported that certain pages on the English site remained 
blocked as well, such as those relating to Tibet or Tiananmen 
Square.\100\ In July, Yahoo!'s photo sharing Web site, Flickr, 
reported that China had blocked its site, after ruling out the 
possibility of a technical problem.\101\
    China employs a large number of public security officials 
to monitor the Internet and is improving its monitoring 
capabilities as Internet usage grows. In April 2007, Xinhua 
reported that by the end of June, all major portals and online 
forums would be monitored by ``virtual cops'' of the Ministry 
of Public Security.\102\ In May, the MII announced that by 
October the ministry would complete a database of registered 
Web sites that would make it easier for law enforcement 
officials to keep track of the rapidly growing number of Web 
sites.\103\ Xinhua reported that more than 2,000 Web sites are 
registered each day.\104\
    China compels Internet companies to assist in censorship by 
requiring them to filter search results and to monitor the 
Internet activities of its customers to ensure that ``harmful 
information'' does not come online. Chinese search engines such 
as Baidu, and the China-based search engines of Yahoo!, MSN, 
and Google filter search results, including those relating to 
the Voice of America, Radio Free Asia, and human rights.\105\ 
Providers of Internet access and services must monitor 
customers' online activity, maintain records of such activity, 
provide such information to officials as part of a ``legal 
investigation,'' and remove any ``harmful'' information.\106\ 
In February 2007, Radio Free Asia reported that Sohu.com, a 
major Chinese Internet portal, had shut down two of the blogs 
of Pu Zhiqiang, a prominent lawyer who has promoted citizens' 
legal rights.\107\ Internet cafes, where many Chinese access 
the Internet, are also required to record the identities of 
their customers, monitor their online activity, and maintain 
records of both for not less than 60 days.\108\
    Internet companies have also repeatedly pledged publicly to 
support China's censorship policies over the last five years, 
although they have shown a willingness to resist some 
proposals. This past year, the Internet Society of China (ISC), 
a think tank affiliated with the MII, sought to implement a 
policy requiring all bloggers to register under their real 
names. Real name systems may be useful for encouraging civil 
discourse and accountability, but in the context of China's 
tightly censored Internet it threatens what has become a haven 
for expression, as bloggers had come to rely on a veneer of 
anonymity\109\ that had emboldened many to publicly express 
opinions they otherwise would not have. Real name systems that 
have already been implemented have reportedly led to dramatic 
drops in participation.\110\ In May 2007, the ISC decided 
against making the proposal mandatory following industry 
resistance.\111\ Instead, major Internet companies such as Sina 
Corporation, NetEase.com, Inc., TOM Online, Inc., Yahoo! China, 
which Yahoo! retains a minority stake in but reportedly does 
not have day-to-day operational control over,\112\ and MSN's 
China service, signed a self-discipline pledge in August to 
encourage Internet users to use their real name when posting 
blogs or essays online.\113\ Yahoo! and MSN, however, both 
indicated that there were no current plans to require customers 
to use their real names to register for blogging services.\114\

Imprisoning Online Critics

    Over the last five years, public officials in China have 
frequently used Article 105 of the Criminal Law to detain 
citizens for criticizing the government and the Party online, 
especially on Web sites outside of China.\115\ Article 105 
outlaws ``subversion'' or ``incitement of subversion.'' The UN 
Working Group on Arbitrary Detention has criticized China's use 
of such ``vague, imprecise, and sweeping'' provisions to punish 
peaceful expression of rights guaranteed in the UDHR and 
ICCPR.\116\
    Over the past year, public officials in China have punished 
numerous online critics in the run-up to the 17th Party 
Congress and the 2008 Beijing Summer Olympic Games.

        <bullet>  In October 2006, a court in Hebei province 
        sentenced Internet essayist Guo Qizhen to four years in 
        prison for inciting subversion in connection with 30 
        essays he posted on a U.S.-based Web site.\117\
        <bullet>  In October 2006, a court in Shandong province 
        sentenced Internet essayist Li Jianping to two years in 
        prison for inciting subversion in connection with 
        essays he posted on foreign Web sites.\118\
        <bullet>  In March 2007, a court in Zhejiang province 
        sentenced writer Zhang Jianhong (whose pen name is Li 
        Hong) to six years in prison for inciting subversion by 
        ``slandering'' the government and China's social system 
        in 60 essays he posted on foreign Web sites.\119\
        <bullet>  In April 2007, a Zhejiang court sentenced 
        painter and writer Yan Zhengxue to three years in 
        prison for inciting subversion by ``attacking the 
        Party's leaders'' on foreign Web sites.\120\
        <bullet>  In August 2007, a Zhejiang court sentenced 
        writer Chen Shuqing to four years in prison for 
        inciting subversion after he criticized the government 
        online.\121\

    The above individuals in Zhejiang were reportedly members 
of the China Democracy Party (CDP) or charged with being a CDP 
member,\122\ and joined other reported CDP members in Zhejiang 
who were punished this past year, including Chi Jianwei and Lu 
Gengsong. Chi was sentenced to three years in prison in March 
for ``using a cult to undermine implementation of the law'' 
\123\ and Lu was detained in August on charges of inciting 
subversion.\124\ [See Section III--Civil Society for more 
information on the CDP.] 
Authorities also refused to renew the license of Li Jianqiang, 
the lawyer who represented Chen, Zhang, Yan, and Guo.\125\ Li 
has represented numerous writers and activists, including 
freelance writer Yang Tongyan (whose pen name is Yang 
Tianshui), sentenced in May 2006 to 12 years in prison on 
``subversion'' charges for criticizing the government online 
and attempting to form a branch of the CDP.\126\
    Public officials in China have also used Article 105 to 
punish citizens who criticize China's human rights record in 
the context of the 2008 Olympic Games. In August 2007, public 
security officials in Jiamusi city, Heilongjiang province, 
arrested Yang Chunlin and charged him with inciting subversion 
after he organized an open letter titled ``We Want Human 
Rights, Not the Olympics,'' and gathered more than 10,000 
signatures from farmers who had reportedly lost their 
land.\127\
    Additional information on these cases and others is 
available on the Commission's Political Prisoner Database [See 
Section I--Political Prisoner Database].
    Both the UDHR and ICCPR allow for restrictions on free 
speech only to the extent necessary to protect national 
security. Available opinions from these cases, however, provide 
no examples of any subversive language and make no attempt to 
show that the actions in question caused or were likely to 
cause a threat to China's national security.\128\ Moreover, the 
courts did not place any constitutional limitations on the 
authority of the government to criminalize certain types of 
speech, or balance the need to protect national security with 
the right to freedom of expression. Chinese officials have also 
begun to punish citizens for simply looking up and viewing Web 
sites deemed to be reactionary or a threat to its power. Zhang 
Jianping was barred from using the Internet for six months 
after he allegedly accessed the Web site for the Epoch Times, a 
New York-based newspaper linked to Falun Gong and known for its 
critical coverage of China.\129\

                         Challenges to Control

    The Internet presents a daunting challenge for the Party. 
Its decentralized nature and the ability to send information to 
large numbers of people quickly makes it increasingly difficult 
to control.\130\ This challenge is expected to increase over 
time as more people use the Internet and rely on it for 
information. With a penetration rate of only 12.3 percent of 
China's population, below the world average of 17.6 percent, 
there is plenty of room to grow.\131\ The average number of 
hours per week spent online rose from 11.5 in 2002 to 18.6 in 
June 2007. Almost all Internet users in China look to the 
Internet first for information and more than three-fourths said 
that they first found out about a major news event from the 
Internet.
    Commentators have noted recently that the Internet and 
blogs in particular are becoming a powerful vehicle for 
citizens to provide one another information that contrasts with 
information in the state-controlled press and Party propaganda. 
The number of blogs, personalized Web pages that citizens use 
to provide running commentary on all kinds of topics, has grown 
to an estimated 20 million in China.\132\ Xiao Qiang, Director 
of the China Internet Project at the University of California 
at Berkeley, testified at the Commission's hearing in September 
2006 that ``[o]nline discussions of current events, especially 
through Internet bulletin board systems (BBS) and Weblogs, or 
`blogs,' are having real agenda-setting power.'' According to 
Ashley Esarey, a Middlebury College professor and expert on 
China's media controls, China's blogs exhibit much higher 
freedom and pluralism than the state-controlled press.\133\ The 
Internet has provided a platform for ``citizen journalists'' 
who operate largely outside of the censorship system for 
traditional media\134\ and citizens are using less regulated 
blogs to break news stories. ``[E]very blogger is a potential 
source of news. The Internet has the power to take any local 
news story and make it national news overnight,'' said Li 
Datong, the ousted former editor of Freezing Point, a weekly 
published by the China Youth Daily, who now writes for the 
current affairs Web site openDemocracy.\135\
    Other information sharing technologies, especially cell 
phones, are posing similar challenges to China's information 
control. Cell phone use is ubiquitous in China and popular 
among broad segments of the population. By July 2007, cell 
phone usage had grown to 500 million, almost 40 percent of the 
population.\136\ Rural residents made up nearly half of China 
Mobile's 53 million new cell phone subscribers in 2006.\137\ 
While cell phones are a less conducive platform for exchanging 
large amounts of information, in China they are a popular tool 
for sending short text messages. Chinese of all ages use the 
``text messaging'' function much more often than in the United 
States, where it has remained largely the province of the 
young.\138\ China also employs censorship technology to filter 
out politically sensitive text messages.\139\
    Citizens have been using the Internet and cell phones with 
increasing success to shape and even drive the reporting 
agendas of mainstream news outlets, and to force governments to 
address problems. Censors have not been able to stop an initial 
tide of information and instead have been left to contain the 
situation after the fact. Several high-profile instances over 
the last year include:

        <bullet>  Officials in the southeastern port city of 
        Xiamen, home to more than 2 million people, planned to 
        build a 300-acre, 10.5 billion yuan (US$1.4 billion) 
        hazardous chemical plant in a heavily populated 
        neighborhood.\140\ In March 2007, central government 
        officials criticized the project's safety,\141\ but 
        officials in Xiamen kept local residents in the dark 
        about the concerns and made sure local media touted the 
        project's economic benefits.\142\ A local resident who 
        became aware of the concerns began to use his blog to 
        organize opposition to the plant, telling readers the 
        plant would hurt the local property market and tourism 
        industry.\143\ Word quickly spread over the Internet. 
        Meanwhile, residents began to circulate cell phone text 
        messages comparing the plant to an ``atomic bomb.'' 
        \144\ Xinhua 
        reported that citizens sent nearly one million text 
        messages opposing the project, leading local officials 
        to suspend construction in May 2007.\145\ Despite local 
        officials' efforts to censor the Internet and cell 
        phones, area residents used both to organize and 
        document protest marches in early June that attracted 
        thousands.\146\
        <bullet>  The Internet also helped bring nationwide and 
        international attention to the kidnapping of migrant 
        workers forced into labor in brick factories in central 
        China. In early June 2007, the relative of a rescued 
        child posted a plea on the Internet on behalf of 
        hundreds of parents still looking for missing 
        children.\147\ The post was rejected by a Xinhua forum 
        for containing ``sensitive content,'' but was 
        successfully posted on 
        another forum. Her original post and a re-posting were 
        each viewed hundreds of thousands of times. Following 
        the postings, China's traditional media outlets gave 
        the story extensive coverage, exposing in graphic 
        detail the large numbers of migrant workers, including 
        many children and mentally ill, who were forced under 
        heavy guard to work for no pay and little food.\148\ In 
        response, the government launched raids involving a 
        reported 35,000 policemen, ordered media to highlight 
        the Party's rescue efforts, sought to discredit the 
        Internet activist who helped uncover the scandal, and 
        warned parents and lawyers for victims not to speak to 
        journalists.\149\ [See Section II--Worker Rights for 
        more information on the labor issues relating to this 
        case.]
        <bullet>  In March 2007, Chinese bloggers made a 
        national news sensation of a couple in Chongqing city 
        in western China who resisted pressure to sell their 
        home to developers, leaving their house protruding in 
        the air like a nail after the land around it had been 
        excavated.\150\ Bloggers posted photos of the ``awesome 
        nail house'' and traveled to the scene to conduct their 
        own reporting of the story, which hit the headlines 
        shortly after the landmark Property Law had been 
        passed.\151\

    While these technological tools have offered citizens new 
opportunities to express themselves and to elude censors, they 
have not 
increased citizens' freedom of expression per se, as the 
Chinese government has consistently responded to these 
outpourings of discontent with increased restrictions. 
Officials imposed restrictions on media coverage, blocked 
access to or removed offending blogs and cell phone text 
messages, and in some cases warned citizens not to speak with 
the media.\152\ After the Xiamen chemical plant protests, for 
example, local officials drafted legislation that would 
prohibit area Internet users from commenting on blogs and 
discussion forums anonymously and require local Internet 
service providers to improve their capability to filter out 
``harmful and unhealthy'' information.\153\

                 FREEDOM TO PUBLISH IDEAS AND OPINIONS

                  Government Policy Toward Publishing

    The Chinese government's licensing scheme for print 
media\154\ that has remained in place over the last five years 
does not conform to international standards for freedom of the 
press.\155\ An individual who wishes to publish a book, 
newspaper, or magazine may not do so on their own, but must do 
so through a publisher that has been licensed by the General 
Administration of Press and Publication (GAPP).\156\ The GAPP 
requires that to obtain a license, publishers must have a 
government sponsor and meet minimum financial 
requirements.\157\ Every book, newspaper, and magazine must 
have a unique serial number, and the GAPP maintains exclusive 
control over the distribution of these numbers.\158\ GAPP 
officials have explicitly linked the allotment of book numbers 
to the political orientation of publishers.\159\
    While not speaking specifically about this licensing 
scheme, Premier Wen Jiabao acknowledged in March that 
government agencies with too much licensing authority, and 
little restraint or oversight, had bred corruption among 
officials.\160\ In July, popular writer Wang Shuo accused 
television censors of abusing their authority and collecting 
bribes in exchange for a television show's approval, a 
situation that one official acknowledged, but denied being 
widespread.\161\ Concern over corruption has not stopped 
officials from continuing to expand their licensing authority 
over free expression. In April 2007, the Ministry of Culture 
announced that it would begin to require actors, singers, 
directors, and other artists to receive certification in order 
to be hired.\162\
    Publishers and writers must serve the Communist Party's 
interests. Long Xinmin said in October 2006 while he was 
director of GAPP that press and publishing departments must 
``insist on the unwavering guiding position'' of Marxism and 
the Party.\163\ In November, President Hu Jintao told writers 
that the Party hoped that ``each would make their own 
contribution to building a harmonious society.'' \164\ In March 
2007, Long Xinmin said that press and publishing industries 
must ``firmly grasp the correct guidance of public opinion and 
create a good public opinion environment'' for the Party's 17th 
Congress and ``harmonious society'' policy.\165\

             Banning and Confiscating Illegal Publications

    The government continues to target publications that 
contain 
political and religious information and opinions with which the 
government disagrees or for simply not having a license to 
publish. Between 2002 and 2006, public security officials in 
China confiscated 590 million ``illegal publications.'' \166\ 
Many of the publications are targeted for violating 
intellectual property rights or containing pornographic 
content, but in 2004, for example, public officials confiscated 
hundreds of thousands of copies of publications solely 
because of their political content. In 2005, officials seized 
996,000 copies of ``illegal political publications.'' During a 
two-month period in 2006, officials seized 303,000 copies of 
``illegal publications'' deemed to have harmed social 
stability, endangered state security, or incited ethnic 
separatism.\167\ During that same period, officials confiscated 
616,000 unauthorized newspapers and periodicals.\168\ In 
February 2007, a GAPP official explained that a crackdown on 
``illegal political publications,'' including those that 
``attacked the Party's leaders,'' ``slandered the socialist 
system,'' or concerned Falun Gong, would be a major focus of 
the ongoing Sweep Away Pornography and Strike Down Illegal 
Publications campaign in preparation for the Party's 17th 
Congress.\169\ [See Section II--Freedom of Religion--Religious 
Speech for more information on restrictions on religious 
publications.] In the first three months of 2007 alone, 
authorities confiscated 357,000 copies of publications deemed 
to have harmed social stability, endangered state security, or 
incited ethnic separatism.\170\
    China's onerous licensing requirements encourage citizens 
to publish illegally, eroding the rule of law, and subjecting 
them to the risk that they will be caught and their publication 
shut down. One editor of a college magazine in China said in 
June 2007 that he had set up his own campus magazine because he 
had been disappointed with other magazines in China, which he 
described as ``homogeneous, very contrived, and lacking in 
energetic content.'' \171\ A professor commenting on the 
publications, however, said that without a publication number 
the students were engaged in illegal publishing. The professor 
said the licensing system was intended to ensure that 
publications were not ``abused by certain groups.'' \172\

                         Censoring Publications

    Authors who have published through a licensed publisher 
still risk being censored. Propaganda officials decide what to 
censor behind closed doors, making verification difficult and a 
legal challenge impossible. The Hong Kong-based South China 
Morning Post reported that at a meeting in January 2007, GAPP 
said it had banned eight books because propaganda officials 
determined they had ``overstepped the line.'' \173\ The books 
dealt with topics such as China's media, SARS, the Cultural 
Revolution, the Great Leap Forward, and democracy. Officials 
reportedly criticized one of the books for ``romanticizing'' 
Japan's occupation of China in the 1930s and 1940s and others 
for revealing state secrets.\174\
    In response to media attempts to confirm the ban, GAPP 
officials denied its existence.\175\ Publishers, however, 
confirmed the ban.\176\ As punishment, authorities reportedly 
required the editors at one publisher to write self-criticisms 
and forego bonuses, and reduced the publisher's allotment of 
book numbers by 20 percent. Zhang Yihe, the daughter of a 
prominent rightist figure from the 1950s and whose book on the 
repression faced by classical opera stars in 1960s China was 
banned, sought to have a Chinese court overturn the action, but 
two courts in Beijing refused to accept her application.\177\

                Preventing Writers From Traveling Freely

    Chinese officials have also punished critics by restricting 
their travel. In February 2007, local police officials 
prevented 20 writers from attending an International PEN 
conference in Hong Kong by refusing to approve their travel 
documents or warning them not to go.\178\ The writers included 
Zhang Yihe and Zan Aizong, a journalist who was detained in 
2006 after he posted reports on 
foreign Web sites about detentions of Protestants protesting 
the destruction of a church in Zhejiang province.

                    POLITICAL PRISONER DEVELOPMENTS

    The case of Shi Tao, a Chinese journalist currently serving 
a 10-year sentence for ``illegally providing state secrets to a 
foreign organization,'' \179\ gained greater attention outside 
of China in 2007, as new information about his case became 
public. In 2004, Shi Tao reportedly e-mailed notes to a New 
York-based democracy Web site that were from a propaganda 
document restricting media coverage during the 15th anniversary 
of the 1989 Tiananmen democracy protests. Shi Tao's conviction 
in 2005 was based in part on information provided by Yahoo! 
China, then under the control of Yahoo!.\180\ In July 2007, the 
Dui Hua Foundation and Boxun released a copy of the request 
Chinese police made to Yahoo! China seeking information about 
Shi Tao's e-mail account. The release of the request brought to 
light new information about the basis of the request as 
communicated to Yahoo! China because it indicates that the 
request related specifically to a suspected ``illegal provision 
of state secrets'' case.\181\ In addition, Shi Tao's case 
remains significant because he exposed China's censorship of 
its media. As the global impact of events within China has 
grown, China's censorship of the media has become more 
important because the rest of the world relies on China's media 
to better understand such events. The Commission will continue 
to monitor and note future actions by Chinese officials to 
punish citizens for exposing censorship of China's media, in 
violation of these citizens' internationally protected right to 
freedom of expression.
    Another journalist, Zhao Yan, completed his three-year 
sentence for fraud and was released in September 2007.\182\ 
Authorities originally arrested Zhao, a Chinese researcher for 
the New York Times (NYT), for providing state secrets to 
foreigners.\183\ Sources said the ``state secret'' was 
information that former President and Communist Party General 
Secretary Jiang Zemin had offered to resign as Chairman of the 
Central Military Commission. Jiang's resignation was later 
reported in the official press. In August 2006, an intermediate 
court in Beijing sentenced Zhao to three years in prison on an 
unrelated fraud charge dating from 2001, but acquitted him of 
disclosing state secrets. Jerome Cohen, an expert on Chinese 
law and advisor to the NYT on Zhao's case, testified at a 
Commission hearing in September 2006 that Zhao was ``sentenced 
to three years in prison after another trial that can only be 
regarded as a farce, and after highly illegal--according to 
Chinese law--pre-trial detention, interrogation, et cetera.''
    In a positive sign, one journalist was released early while 
another received a sentence reduction. Local officials released 
former Xinhua journalist Gao Qinrong from a prison in Shanxi 
province in December 2006, 4 years before his 12-year sentence 
was to expire.\184\ Gao was sentenced in 1999 after he exposed 
corruption at an irrigation project in Yuncheng district, 
Shanxi province, that implicated top provincial officials. Xu 
Zerong received a nine-month sentence reduction on an unknown 
date and is due for release in September 2012.\185\ Xu, a 
senior research fellow at the Guangdong Academy of Social 
Sciences in Guangzhou city and head of an independent 
publishing company in Hong Kong, was sentenced to 13 years in 
prison in 2001 for revealing state secrets by copying and 
sending historical material dating from the 1950s about the 
Korean War to researchers overseas, and illegally operating a 
business by selling books and periodicals without officially 
issued book numbers.
    Additional information on these cases and others is 
available on the Commission's Political Prisoner Database [see 
Section I--Political Prisoner Database].

                          Freedom of Religion


                              INTRODUCTION

    Government harassment, repression, and persecution of 
religious and spiritual adherents has increased during the 
five-year period covered by this report. In 2004, the 
Congressional-Executive Commission on China reported that 
repression of religious belief and practice grew in severity. 
The Communist Party strengthened its campaign against 
organizations it designated as cults, targeting Falun Gong in 
particular, but also unregistered Buddhist and Christian 
groups, among other unregistered communities.\1\ The Commission 
noted a more visible trend in harassment and repression of 
unregistered Protestants for alleged cult involvement starting 
in mid-2006.\2\ The Commission reported an increase in 
harassment against unregistered Catholics starting in 2004 and 
an increase in pressure on registered clerics beginning in 
2005.\3\ The government's crackdown on religious activity in 
the Xinjiang Uighur Autonomous Region has increased in 
intensity since 2001.\4\ New central government legal 
provisions and local measures from the Tibet Autonomous Region 
government intensify an already repressive environment for the 
practice of Tibetan Buddhism.\5\ Daoist and Buddhist 
communities have been subject to ongoing efforts to close 
temples and eliminate religious practices deemed superstitious, 
as well as made subject to tight regulation of temple 
finances.\6\ Members of religious and spiritual communities 
outside the five groups recognized by the government continue 
to operate without legal protections and remain at risk of 
government harassment, abuse, and in some cases, persecution. 
China has remained a ``Country of Particular Concern'' because 
of its restrictions on religion since the U.S. Department of 
State first gave it this designation in 1999.\7\
    The Chinese government's failure to protect religion and 
its imposition of limits on religion violate international 
human rights standards. The Chinese Constitution, laws, and 
regulations guarantee only ``freedom of religious belief'' 
(zongjiao xinyang ziyou), but they do not guarantee ``freedom 
of religion.'' \8\ As defined by international human rights 
standards, ``freedom of religion'' encompasses not only the 
freedom to hold beliefs but also the freedom to manifest 
them.\9\ Chinese laws and regulations protect only ``normal 
religious activities.'' They do not define this term in a 
manner to provide citizens with meaningful protection for all 
aspects of religious practice.\10\ Religious communities must 
register with the government by affiliating with one of the 
five recognized religions and they must receive government 
approval to establish sites of worship.\11\ The state tightly 
regulates the publication of religious texts and forbids 
individuals from printing religious materials.\12\ State-
controlled religious associations hinder citizens' interaction 
with foreign co-religionists, including their ability to follow 
foreign religious leaders.\13\ The government imposes 
additional restrictions on children's freedom of religion.\14\ 
Chinese citizens who practice their faith outside of officially 
sanctioned parameters risk harassment, detention, and other 
abuses. In 2006, a top religious official in China claimed that 
no religious adherents were punished because of their faith, 
but the Chinese government continues to use a variety of 
methods within and outside its legal system--including 
selective application of criminal penalties--to punish and 
imprison citizens who practice religion in a manner authorities 
deem illegitimate.\15\
    As recognized in international human rights standards,\16\ 
including those in treaties China has signed or ratified,\17\ 
freedom of religion ``is far-reaching and profound.'' \18\ It 
includes the freedom to manifest one's beliefs alone or in 
community with others; the freedom to believe in and practice 
the religion of one's choice, without discrimination; the 
freedom to build places of worship; the freedom to print and 
distribute religious texts; the freedom to recognize religious 
leaders regardless of those leaders' nationality; and the 
freedom of children to practice a religion.\19\
    The Chinese government has failed to guarantee these 
freedoms to its citizens both in law and in practice.
    Party leaders manipulate religion for political ends. Like 
his predecessor, President and Party General Secretary Hu 
Jintao has responded to an increase in the number of religious 
followers through the use of legal initiatives to cloak 
campaigns that tighten control over religious communities.\20\ 
Despite official claims in 2004 that the Regulation on 
Religious Affairs adopted that year represented a ``paradigm 
shift'' in limiting state intervention in citizens' religious 
practice,\21\ it codified at the national level ongoing 
restrictions over officially recognized religious communities 
and discriminatory barriers against other groups. In the area 
of religion, the Party has used legal means as a tool for 
exerting tight control over all aspects of citizens' religious 
practice. Beyond overt measures of control, internal public 
security handbooks call for undercover teams to monitor the 
activities of religious communities.\22\ In an essay on 
maintaining stability in western China, one public security 
analyst called for security officials to gather information on 
religious communities by cultivating ``secret . . . `friends' 
'' from within such communities.\23\
    In recent years, top officials publicly have stated that 
religion may play a positive role in society,\24\ but have 
maneuvered this sentiment to meet Party goals. In its campaign 
to promote a ``harmonious society,'' the Party has emphasized 
``bringing into play the positive role of religion'' through 
greater control of internal religious doctrine.\25\ In July 
2006, Ye Xiaowen, head of the State Administration for 
Religious Affairs, said the government would 
direct religious leaders to provide correct interpretations of 
religious tenets to ``convey positive and beneficial contents 
to worshippers and direct them to practice faiths rightly.'' 
\26\ The announcement builds on earlier policies to manipulate 
doctrine to suit Party policy. For example, the national 
Islamic Association has continued a program to compile sermons 
that reflect the ``correct and authoritative'' view of 
religious doctrine in line with Party policy, making imams' 
confirmation contingent on knowledge of the sermons. The 
official Protestant church continues to promote ``theological 
construction,'' a guiding ideology designed to minimize aspects 
of Christianity deemed incompatible with socialism.\27\ The 
government and Party continue to propagate atheism among 
Chinese citizens. In an August 2006 article, Ye Xiaowen called 
for strengthening propaganda and education on atheism.\28\
    Despite controls over religion, unofficial estimates 
indicate that the number of religious and spiritual adherents 
in China continues to grow. In 2007, Chinese media reported on 
a poll by Chinese scholars that found China has approximately 
300 million religious adherents, a figure three times as high 
as official figures.\29\ The growth of religion in Chinese 
society presents potential challenges to government authority, 
and government concerns over the rise of religion intersect 
with broader apprehensions about perceived social instability 
and ethnic unrest. A summary of religious work issued in 2005 
listed ``stability'' as the ``number one responsibility.'' \30\ 
As long as the government views religion as a potential 
flashpoint for conflict or challenge to Party authority, it is 
unlikely to ease restrictions on religious communities. Broader 
political liberalizations that address how China's own 
restrictive policies exacerbate instability, however, could 
bring improvements in the area of religious freedom, but a 
review of events from the past five years indicates a trend in 
the opposite direction.

                        Legislative Developments

    The central government has taken more steps to codify state 
and Party policy on religion in recent years, particularly 
through the 2004 national Regulation on Religious Affairs (RRA) 
and subsequent provincial regulations. Though the regulations 
guarantee some legal protections to registered religious 
communities, they also condition many religious activities on 
government oversight and approval. Codification of government 
procedures lends more transparency and predictability about 
government actions, but as legal controls over the internal 
activities of religious communities, the regulations reflect 
rule by law rather than rule of law.
    Implementation of the RRA has been uneven, resulting in a 
confusing legal terrain for citizens who aim to understand the 
applicability of legal protections and restrictions imposed by 
the regulation. Though the State Administration for Religious 
Affairs (SARA) and local governments have reported training 
local officials in the RRA,\31\ the complete scope of the 
training and indicators for measuring its progress are unclear. 
The central government has not issued general implementing 
guidelines, but has promulgated a limited number of legal 
measures that expand on specific provisions within the RRA. The 
new measures clarify some ambiguous provisions in the RRA, but 
generally articulate more rigid controls.\32\ Although SARA 
also has promoted a handbook that provides a more detailed 
explanation of each article of the RRA, the book does not 
appear to be widely distributed in training classes.\33\
    The national government has not publicized a clear plan of 
action for ensuring local regulations on religion are 
consistent with national requirements, and inconsistencies 
among regulations persist. Most of the provincial-level 
regulations issued after the RRA entered into force promote 
consistency with the RRA by aligning many key provisions to 
national requirements, but at least one province initially 
retained provisions that conflicted with those in the RRA.\34\ 
Other provinces have yet to amend their regulations, leaving 
intact provisions that conflict with the RRA and, in some 
cases, impose harsher restrictions.\35\
    Though the new provincial regulations have promoted 
uniformity with national regulations, they also contain 
provisions that differ from each other and from the national 
RRA. A new comprehensive regulation from Hunan province, for 
example, is the first comprehensive provincial-level regulation 
on religion to provide limited recognition for venues for folk 
beliefs.\36\ Measures from the Tibet Autonomous Region provide 
detailed stipulations for the designation and supervision of 
reincarnated Buddhist lamas.\37\ Some 
provincial-level regulations recognize only Buddhism, 
Catholicism, Daoism, Islam, and Protestantism. Others are 
silent on this issue.\38\

           Recognized and Unrecognized Religious Communities

    The central government has not made progress in extending 
its limited legal protections for religion to all Chinese 
citizens. The Regulation on Religious Affairs (RRA) did not 
explicitly codify Buddhism, Catholicism, Daoism, Islam, and 
Protestantism as China's only recognized religious communities, 
but the government perpetuates a regulatory system that 
recognizes only these communities, with limited exceptions.\39\ 
Although recognized groups receive limited guarantees to 
practice ``normal religious activities,'' they must submit to 
state-defined interpretations of their faith as well as ongoing 
state control over internal affairs. The RRA and subsequent 
regulations continue to subject recognized communities to 
onerous registration and reporting requirements.\40\
    Party-sponsored religious associations,\41\ with which 
religious communities must affiliate, remain the state's main 
vehicle for ensuring religious practice conforms to Party goals 
and for denying religious communities doctrinal 
independence.\42\ The associations vet religious leaders for 
political reliability, and religious leaders who express 
sensitive political views have faced dismissal from their 
posts. For example, in 2006, the national Buddhist Association, 
in coordination with government officials, expelled a Buddhist 
monk from a temple in Jiangxi province after the monk led 
religious activities to commemorate victims of the 1989 
Tiananmen crackdown and took measures to address corruption 
among government officials and the Buddhist Association.\43\ 
Authorities in the Xinjiang Uighur Autonomous Region have 
enforced an ongoing campaign to monitor imams and decertify 
religious leaders deemed unreliable.\44\
    Unregistered religious and spiritual communities continue 
to practice their faith under the risk of harassment, 
detention, and other abuses. Differences in legislation and 
regional variations in the implementation of religious policy 
have allowed a limited number of unrecognized groups to operate 
openly.\45\ Without the clear guarantee that all citizens have 
a right to openly practice their religion, however, all 
unregistered communities remain vulnerable to official abuses 
and restrictions on their freedom. Religious and spiritual 
communities defined as ``cults'' remain subject to persecution. 
In 2004, the Party increased its campaign against organizations 
it designated as cults, targeting Falun Gong practitioners as 
well as unregistered communities including Buddhist and 
Christian groups.\46\ In July 2007, the central government 
instructed officials to ``strike hard against illegal religions 
and cult activities'' as part of a campaign to address 
perceived instability in rural areas.\47\ The promulgation of 
the RRA may increase pressures on unregistered groups. A 
district in Shanghai, for example, has set targets for carrying 
out work to eliminate ``abnormal religious activity'' in 
accordance with the RRA.\48\

 Freedom To Interact with Foreign Co-religionists and Co-religionists 
                                 Abroad

    The Chinese government restricts Chinese citizens' freedom 
to interact with foreign citizens in China and with citizens 
abroad as part of its policy to promote self-management and 
independence from foreign religious institutions.\49\ Chinese 
officials have increased oversight of citizens' contacts with 
foreign religious practitioners within China in the run-up to 
the 2008 Beijing Summer Olympic Games. In March 2007, Minister 
of Public Security Zhou Yongkang said the government would 
``strike hard'' against hostile forces inside and outside the 
country, including religious and spiritual groups, to ensure a 
``good social environment'' for the Olympics and 17th Party 
Congress.\50\ In 2006, local officials expelled a registered 
church leader in Shanxi province after his church invited an 
American missionary to the church.\51\ According to the 
nongovernmental organization China Aid Association, authorities 
implemented a campaign in 2007 to expel foreigners thought to 
be engaged in Christian missionary activities.\52\ National 
rules governing the religious activities of foreigners forbid 
them from ``cultivating followers from among Chinese 
citizens,'' distributing ``religious propaganda materials,'' 
and carrying out other missionary activities.\53\

                Freedom of Religion for Chinese Children

    The Chinese government failed to secure the rights of 
children to practice religion in its recent codification of 
religious policy. Although a Ministry of Foreign Affairs 
official stated in 2005 that no laws restrict minors from 
holding religious beliefs and that parents may give their 
children a religious education,\54\ recent legislation has not 
articulated a guarantee of these rights. Regulations from some 
provinces penalize acts such as ``instigating'' minors to 
believe in religion or accepting them into a religion.\55\ In 
practice, children in some parts of China participate in 
religious activities at registered and unregistered venues,\56\ 
but in other areas, they have been restricted from 
participating in religious services.\57\
    Ambiguities in the law and variations in implementation 
have created space for children in some parts of China to 
receive a religious education. Some Muslim communities outside 
the Xinjiang Uighur Autonomous Region have established schools 
to provide secular and religious education to children.\58\ In 
some ethnic minority communities, children receive education at 
Buddhist temples.\59\
    Some recent government campaigns against religion have 
targeted children. In 2004, authorities launched campaigns to 
educate children against the evils of government-designated 
cults and to encourage children to expose family members 
engaged in ``illegal religious activities.'' \60\ In 2006, Ye 
Xiaowen called for strengthening education in atheism 
especially among children.\61\

           Social Welfare Activities by Religious Communities

    The government accommodates, and in some cases, sponsors, 
the social welfare activities of recognized religious 
communities where such activities meet Party goals. Article 34 
of the Regulation on Religious Affairs allows registered 
religious communities to organize such undertakings.\62\ In 
some cases, government offices and Party-led religious 
associations initiate and control the scope of social welfare 
activities.\63\ In other cases, religious civil society 
organizations organize their work under other auspices or are 
able to operate without registering with the government.\64\
    Government support for religious charity work is part of a 
broader policy allowing civil society organizations to provide 
welfare services in certain areas. [See Section III--Civil 
Society for more information.] The government also has 
permitted some international 
religious organizations to engage in charity work within 
China.\65\ In recent years, however, the government has 
increased pressures on civil society organizations.\66\ 
Religiously affiliated civil society groups in tightly 
controlled regions such as the Xinjiang Uighur Autonomous 
Region (XUAR) face additional restrictions. For example, local 
authorities in the XUAR have banned meshrep, Islam-centered 
groups that have sought to address social problems.\67\

                RELIGIOUS FREEDOM FOR TIBETAN BUDDHISTS

                                Overview

    The Chinese government creates a repressive environment for 
the practice of Tibetan Buddhism. Two new sets of legal 
measures increase legal bases for repression. Tibetan Buddhist 
monks and nuns remain subject to expulsions from religious 
institutions and imprisonment for refusing to accept government 
policy on issues such as the legitimacy of the Dalai Lama as a 
religious leader, and the identity of the Panchen Lama. For a 
detailed overview of 
current conditions for Tibetan Buddhists in China, see Section 
IV--Tibet.

                RELIGIOUS FREEDOM FOR CHINA'S CATHOLICS

                              Overview\68\

    The Chinese government continues to deny Chinese Catholics 
the freedom to recognize the authority of overseas Catholic 
institutions in a manner of their choosing. Authorities blocked 
Web sites in 2007 to prevent Catholic practitioners from 
viewing an open letter from Pope Benedict XVI urging 
reconciliation between registered and unregistered communities 
in China. Government harassment against Catholic communities 
has escalated since 2004. The government continues to detain 
unregistered bishops and coerce registered bishops to exercise 
their faith according to Party-dictated terms. The return of 
property owned by the Catholic Church in the 1950s and 1960s 
remains a contentious issue. Officials and unidentified 
assailants have beaten people protesting slated demolitions of 
church property.

                Harassment, Detention, and Other Abuses

    Both unregistered Catholics and registered clergy remain 
subject to government harassment, and in some cases, detention. 
The Commission noted an increase in reported detentions of 
unregistered Catholics in 2005, after the Regulation on 
Religious Affairs entered into force.\69\ In June 2007, the 
public security bureau detained Jia Zhiguo, underground bishop 
of the Diocese of Zhending, in Hebei province, for 17 days.\70\ 
Authorities detained him again in August as he prepared to lead 
meetings to discuss a letter Pope Benedict XVI issued to 
Chinese Catholics in June.\71\ Jia previously spent more than 
20 years in prison.\72\ In 2006, the government increased 
pressure on registered bishops and priests to coerce them to 
participate in bishop consecrations without papal approval. 
Authorities detained, sequestered, threatened, or otherwise 
exerted pressure on registered Catholic clerics to obtain 
compliance.\73\ Authorities have pressured both unregistered 
clergy and lay practitioners to join registered churches or 
face repercussions such as restricting children's access to 
school, job dismissal, fines, and detention.\74\

Closures of Religious Structures and Confiscation of Religious Property

    The return of religious property remains a contentious 
issue. In recent years, some registered Catholic groups have 
called on the government to give back church property 
confiscated in the 1950s and 1960s, and in separate incidents, 
officials or unidentified assailants have beaten people 
protesting the slated demolition of such property. For example, 
in 2005, government officials assaulted a group of Catholic 
nuns in a village near the city of Xi'an, in Shaanxi province, 
after the nuns had attempted to prevent the 
authorities from erecting a new building on property that the 
government confiscated from their religious order during the 
1950s. According to overseas sources, the nuns were not 
injured, and the construction work was halted after the 
assault. In another incident in 2005, unidentified assailants 
beat a group of Catholic nuns in Xi'an after the nuns had 
organized a sit-in to prevent the demolition of a school 
formerly belonging to their religious order. In a separate 
incident, unidentified assailants beat a group of Catholic 
priests in Tianjin who had occupied a building formerly 
belonging to their Shanxi dioceses and demanded its return. At 
issue in all three cases was the refusal of local authorities 
to abide by government instructions mandating the return of 
such property.\75\

                        China-Holy See Relations

    The state-controlled Catholic Patriotic Association (CPA) 
does not recognize the authority of the Holy See to appoint 
bishops and has continued to appoint bishops based on its own 
procedures, in some cases coercing clerics to participate in 
consecration ceremonies. While in recent years authorities had 
tolerated discreet involvement by the Holy See in the selection 
of some bishops, in 2006 the CPA moved to appoint more bishops 
without Holy See approval. For example, in November 2006, the 
CPA appointed Wang Renlei as auxiliary bishop of the Xuzhou 
diocese, Jiangsu province, without Holy See approval, and 
authorities reportedly detained two bishops to force their 
participation in the ordination ceremony.\76\
    In September 2007, the CPA ordained Paul Xiao Zejiang as 
coadjutor bishop of the Guizhou diocese. Though the CPA elected 
him according to its own practices, the Holy See expressed 
approval of his election to bishop.\77\ The same month, the CPA 
ordained Li Shan as bishop of Beijing according to its own 
practices. The Holy See expressed approval for the 
ordination.\78\
    The ordinations follow a June 2007 open letter from Pope 
Benedict XVI to Catholic church members in China, urging 
reconciliation between registered and unregistered Catholic 
communities in China and stating that ``the Catholic Church 
which is in China does not have a mission to change the 
structure or administration of the State.'' \79\ After the 
letter was published on the Vatican Web site, Chinese 
authorities blocked Internet access and ordered Catholic Web 
sites within China to remove the letter.\80\ An overseas news 
agency reported that local authorities have since detained at 
least 11 unregistered church priests in an effort to assert 
official authority in the aftermath of the letter's 
publication.\81\
    Government apprehension about Chinese Catholics' 
relationship with foreign religious communities and 
institutions also manifested itself in 2007 in the Xinjiang 
Uighur Autonomous Region (XUAR). In July, the XUAR government 
announced it would strengthen oversight of Catholic and 
Protestant communities to prevent foreign infiltration, a call 
reiterated in August by local authorities in the XUAR's Changji 
Hui Autonomous Prefecture.\82\
    The government has penalized members of the unregistered 
Catholic community for their overseas travel. In 2006, 
authorities detained two leaders of the unregistered Wenzhou 
diocese, Peter Shao Zhumin and Paul Jiang Surang, after they 
returned from a pilgrimage to Rome. Six months after their 
detention, Shao and Jiang received prison sentences of 9 and 11 
months, respectively, after authorities accused them of 
falsifying their passports and charged them with illegally 
exiting the country.\83\

                 RELIGIOUS FREEDOM FOR CHINA'S MUSLIMS

                              Overview\84\

    The government strictly controls the practice of Islam, and 
religious repression in the Xinjiang Uighur Autonomous Region 
(XUAR), especially among the Uighur ethnic group, remains 
severe. In recent years the government has increased control 
over Muslim pilgrimages and continued an ongoing project to 
author sermons that reflect Party values. New confirmation 
rules for religious leaders require knowledge of the sermons. 
Authorities reportedly have tried to restrict the number of 
Muslim students who study religion overseas. Within the XUAR, 
the government restricts access to mosques, imprisons citizens 
for religious activity determined to be ``extremist,'' has 
detained people for possession of unauthorized texts, and most 
recently has confiscated Muslims' passports. The XUAR 
government maintains the harshest legal restrictions in China 
on children's right to practice religion. Religious repression 
in the XUAR accompanies a broader crackdown in the region aimed 
at diluting expressions of Uighur identity. [See Section II--
Ethnic Minority Rights for more information on conditions in 
the XUAR.]

                Harassment, Detention, and Other Abuses

    Authorities in the XUAR have intensified their crackdown on 
religion since 2001. Official records have indicated an 
increase in Uighurs in the XUAR sent to prison or reeducation 
through labor centers because of religious activity since the 
mid-1990s.\85\ XUAR residents reported to overseas human rights 
organizations that police monitoring for illegal activity, 
including systematic door-to-door searches within neighborhoods 
and villages, has increased in recent years.\86\
    In recent years, authorities have detained people for 
having 
unauthorized religious texts. In 2005, authorities in the XUAR 
detained a religion instructor and her students, accusing the 
teacher of ``illegally possessing religious materials and 
subversive historical information.'' \87\ XUAR officials also 
detained a group of people for possessing an unauthorized 
religious book.\88\

     Access to Religious Sites and Closures of Religious Structures

    The government continues to enforce tight restrictions on 
XUAR residents' ability to enter mosques. Overseas media has 
reported on restrictions on mosque entry enforced against 
minors under 18, local government employees, state employees 
and retirees, and women, among other groups. Authorities 
reportedly monitor attendance at mosques and levy fines when 
people violate the bans.\89\
    Authorities in the XUAR continue to enforce earlier 
policies to demolish ``illegal'' religious sites, and they have 
increased oversight since 2001.\90\ Authorities reportedly have 
not allowed Uighurs in the XUAR to build new mosques since 
1999.\91\

        Restrictions on the Freedom To Make Overseas Pilgrimages

    The central government has increased its control over 
Muslims' overseas pilgrimages in recent years, and public 
officials in the XUAR have followed suit with further 
restrictions. The 2004 
national Regulation on Religious Affairs charged the Islamic 
Association of China (IAC) with responsibility for organizing 
Chinese Muslims' overseas pilgrimages, and stipulated 
punishments for the unauthorized organization of such 
trips.\92\ In 2006, the IAC established an office to manage 
pilgrimages to Mecca.\93\ It also signed an agreement with the 
Saudi Ministry of Pilgrimage allowing Chinese Muslim pilgrims 
to receive Hajj visas only at the Saudi Embassy in Beijing and 
restricting visas to pilgrims in official Chinese government-
sponsored travel groups. The government announced its agreement 
with Saudi Arabia after a group of Muslims from the XUAR 
attempted to obtain Saudi visas via a third country. In 
addition, the IAC issued a circular in 2006 that regulates 
secondary pilgrimages (umrah) to Mecca outside the yearly 
Hajj.\94\ Some citizens who have tried to take trips outside 
official channels reportedly have done so to avoid requirements 
to demonstrate political reliability to the government and to 
save money, among other factors.\95\ Authorities also 
reportedly have tried to restrict Muslims' opportunities to 
study religion overseas.\96\
    Local officials in the XUAR have used pilgrimage policy to 
further religious repression in that region. In June 2007, 
after XUAR Party Secretary Wang Lequan announced that the 
government would further increase its oversight of pilgrimages 
in the region, overseas media reported that local authorities 
implemented a policy to confiscate passports from Muslims, and 
Uighurs in particular.\97\ In July, the XUAR government 
announced that the public security bureau would strengthen 
passport controls as part of its campaign to curb unauthorized 
pilgrimages.\98\

                         Religious Publications

    The government continues to exert tight control over the 
publications of religious materials in the XUAR. In 2007, 
authorities in the XUAR city of Urumqi reported destroying over 
25,000 ``illegal'' religious books.\99\ During a month-long 
campaign in 2006 aimed at rooting out ``political and religious 
illegal publications,'' XUAR authorities reported confiscating 
publications about Islam with ``unhealthy content.'' \100\ In 
2005, official news media reported that XUAR authorities had 
confiscated 9,860 illegal publications involving religion, 
``feudal superstitions,'' or Falun Gong.\101\

                                Children

    Restrictions on children's right to practice religion are 
harsher in the XUAR than elsewhere in China. Legal measures 
from the XUAR, unseen elsewhere in China, forbid parents and 
guardians from allowing minors to engage in religious 
activity.\102\ Local governments throughout the XUAR continued 
restrictions on children's right to practice a religion during 
2006. They enforced measures during Ramadan to prevent students 
from fasting and participating in other religious activities. 
Authorities also directed such measures at college students who 
are legal adults under Chinese law.\103\ Also in 2006, a county 
government in the XUAR began a campaign aimed at monitoring and 
reforming the children of religious figures, alongside other 
students including truants and children of those 
released from administrative detention.\104\

               RELIGIOUS FREEDOM FOR CHINA'S PROTESTANTS

                             Overview\105\

    The government and Party control the activities of its 
official Protestant church, and the government continues to 
target unregistered Protestant groups for harassment, 
detention, and other forms of abuse. The targeting of 
Protestant groups deemed to be cults intensified in 2004 and 
again in 2006. Authorities continue to close house churches and 
confiscate property. The government has included in this 
crackdown groups with ties to foreign co-religionists. 
Religious adherents serving prison sentences include clergy who 
printed and distributed religious texts without government 
permission. Members of unregistered house churches have made 
some advances in challenging government actions, but harassment 
and abuses continue.

                Harassment, Detention, and Other Abuses

    Authorities continue to target some unregistered Protestant 
communities for harassment, detention, and other abuses. A July 
2007 report from a district within Shanghai called on 
authorities to strengthen control over grassroots religious 
activity and singled out private Protestant gatherings for 
monitoring and regulation.\106\ The China Aid Association 
(CAA), a U.S.-based nongovernmental organization that monitors 
religious freedom in China, recorded 600 detentions of 
unregistered Protestants in China during 2006. It noted that 
the figure represents a decline from over 2,000 detentions 
recorded in 2005, but attributed the decrease to a new strategy 
of targeting church leaders over practitioners and 
interrogating practitioners on the spot rather than formally 
arresting them.\107\ The CAA found that 18 people were 
sentenced to more than a year of imprisonment in 2006.\108\ In 
2007, seven police officers attacked and wounded Beijing house 
church pastor and farmer advocate Hua Huiqi and his 76-year-old 
mother Shuang Shuying.\109\ Officials charged Hua, who had been 
previously detained by local officials, with obstruction of 
justice and sentenced him to six months in prison. Shuang was 
charged with willfully damaging property and 
sentenced to two years in prison. An overseas report in August 
2007 indicated that police were using Shuang's imprisonment as 
leverage to pressure Hua to become a police informant. In 
September, authorities reportedly denied Shuang medical parole 
despite her poor health.\110\ In October, CAA reported that 
authorities placed Hua under house arrest on October 1 and 
informed him that his mother's imprisonment was intended to 
pressure Hua to stop his activism. CAA reported Shuang had been 
beaten in prison.\111\ Gong Shengliang, founder of the South 
China Church, continues to serve a life sentence for alleged 
assault and rape, and is reported to be in poor health.\112\ 
Authorities released Liu Fenggang from prison in February 2007 
after he served a three-year sentence for reporting on the 
government demolition of house churches.\113\ CAA reported that 
authorities later placed him under house arrest, starting on 
October 1, 2007.\114\

Closures of Religious Structures and Confiscation of Religious Property

    The government states there are no registration 
requirements for religious gatherings within the home,\115\ but 
public officials continue to target unregistered Protestant 
churches for closure and demolition. For example, in July 2007, 
CAA reported that three underground church buildings in 
Wenzhou, Zhejiang province faced imminent demolition by local 
government authorities. The government accused the believers of 
subscribing to an ``evil cult'' and threatened to arrest them 
if they impeded the demolition.\116\ In 2006, a court case 
against religious adherents who had protested the demolition of 
a church building in the Xiaoshan district of Hangzhou, 
Zhejiang province, concluded with the sentencing of eight house 
church leaders for ``inciting violence to resist the law.'' 
\117\ According to the CAA, closures of house churches 
increased between 2005 and 2006.\118\
    The government also exerts control over the property of 
registered Protestant churches. In 2006, approximately 300 
members of a registered Protestant church in Gansu province 
engaged in a peaceful demonstration to demand the return of 
property that had been confiscated by the government in 
1966.\119\

                            Religious Speech

    Chinese authorities continue to punish citizens who publish 
religious materials without permission, including Protestant 
religious leaders who have printed and given away Bibles. In 
separate incidents in 2005 and 2006, pastors Cai Zhuohua and 
Wang Zaiqing received prison sentences of three and two years, 
respectively, after each printed and distributed religious 
materials without government permission. In each case, the 
sentencing court found that the preparation and distribution of 
the materials constituted the ``illegal operation of a 
business,'' a crime under Article 225 of the Criminal Law.\120\ 
Authorities released Cai from prison upon completion of his 
three-year prison sentence on September 10, 2007.\121\ The 
government has also detained people for publicizing abuses 
against house church members. In 2006, Chinese authorities 
detained a documentary filmmaker who was making a film about 
house churches and detained a journalist after he posted 
reports publicizing protests about a church demolition.\122\

                     Challenging Government Actions

    Some members of unregistered churches have used the legal 
system to challenge government actions. In August 2006, a court 
in Henan province rescinded a decision to subject a house 
church pastor to one year of reeducation through labor for 
participating in a house church gathering authorities deemed 
illegal. In November 2006, a group in Shandong province that 
previously had been placed in administrative detention for 
their attendance at a house church service reached a settlement 
with the Public Security Bureau to rescind the administrative 
detention decision against them. [See Section II--Rights of 
Criminal Suspects and Defendants for more information.] In 
neither case did the rescission include recognition of 
practitioners' right to assemble for worship outside of 
registered venues for religious activity.\123\ Not all 
challenges to government actions have been successful. In 2007, 
local governments in Henan province and the Inner Mongolia 
Autonomous Region rejected unregistered church leaders' 
applications for administrative review of their 
detentions.\124\ In addition, rights defenders who have 
advocated on behalf of house church members and other groups 
have faced repercussions.\125\
    Outside of legal channels, international pressure has 
resulted in advances for some house churches. CAA reported that 
international pressure facilitated the release of 33 arrested 
house church leaders and 3 South Korean church leaders who had 
been detained after officials raided a house church study group 
in Henan province in 2007.\126\ Two days after two house church 
pastors appealed for administrative reconsideration regarding a 
2007 raid on their churches, local officials in Jiangsu 
province returned confiscated property, citing concerns about 
negative international repercussions.\127\

 Freedom To Interact with Foreign Co-religionists and Co-religionists 
                                 Abroad

    Authorities have promoted official exchanges with overseas 
Protestant churches, including Chinese participation in a 2005 
World Council of Churches conference,\128\ but have restricted 
citizens from participating in programs outside these official 
channels. For example, authorities prevented house church 
members and legal advocates Fan Yafeng, Gao Zhisheng, and Teng 
Biao from attending a Washington, DC-based forum on religious 
freedom in 2005.\129\
    In July, the Xinjiang Uighur Autonomous Region (XUAR) 
government announced it would strengthen oversight of 
Protestant and Catholic communities to prevent foreign 
infiltration in the names of these religions.\130\ The 
announcement followed church service raids in the XUAR during 
2006 and 2007, including those with foreign worshippers and 
pastors.\131\ According to CAA, more than 60 of over 100 
missionaries expelled from China between April and June 2007 
came from the XUAR.\132\
    The government has punished some house church members for 
traveling overseas. Unregistered Protestant church leader Zhang 
Rongliang, who resorted to obtaining illegal travel documents 
after the government refused to issue him a passport, was 
sentenced to seven and a half years' imprisonment in 2006 on 
charges of illegally crossing the border and fraudulently 
obtaining a passport.\133\ Also in 2006, authorities placed 
house church historian and former political prisoner Zhang 
Yinan and his family under surveillance after he applied for a 
passport to attend a religious function in the United 
States.\134\

                  GOVERNMENT PERSECUTION OF FALUN GONG

    The government has continued its campaign of persecution 
against Falun Gong practitioners, which it began in 1999. In 
its 2007 report on religious freedom in China, the U.S. 
Department of State noted past reports of deaths and abuse of 
Falun Gong practitioners in custody.\135\ Government officials 
have used both the Criminal Law and administrative punishment 
regulations as legal pretexts for penalizing Falun Gong 
activities.\136\ Citizens sentenced to prison terms under the 
Criminal Law include Falun Gong practitioners who demonstrated 
in support of Falun Gong in 1999, as well as practitioners who 
prepared leaflets about Falun Gong, including Wang Xin, Li 
Chang, Wang Zhiwen, and Ji Liewu.\137\ Authorities released Yao 
Jie in 2006 after sentencing her in 1999 to seven years' 
imprisonment for crimes related to organizing and using a cult 
and for illegal acquisition of state secrets. The charges stem 
from accusations that she organized an April 1999 rally of 
Falun Gong practitioners outside the central government's 
leadership compound.\138\
    Falun Gong practitioners and rights defenders who advocate 
on their behalf, as well as on behalf of other communities, 
including house church members, face serious obstacles in 
challenging government abuses. In 2006, authorities intensified 
a campaign of harassment against lawyer Gao Zhisheng, who has 
represented 
numerous activists, religious leaders, and writers, after he 
publicized widespread torture against Falun Gong practitioners. 
A 
Beijing court convicted him in 2006 to a three-year sentence, 
suspended for five years, for ``inciting subversion of state 
power.'' \139\ Gao went missing immediately after an open 
letter that he sent to the U.S. Congress was made public at a 
Capitol Hill press conference on September 20, 2007. 
Authorities also have harassed members of his family.\140\ [For 
additional information, see Section II--Rights of Criminal 
Suspects and Defendants.] Overseas organizations reported that 
on September 29, 2007, unidentified assailants beat rights 
defense lawyer Li Heping, who had advocated on behalf of Falun 
Gong practitioners and house church members, among others.\141\
    In 2006, courts in Shandong province rejected appeals from 
Liu Ruping and his lawyer that challenged Liu's sentence of 15 
months of reeducation through labor for posting Falun Gong 
notices.\142\
    In 2007, the government used possession of Falun Gong 
materials as a pretext for squelching a political activist. In 
March, a court in Zhejiang province gave a three-year sentence 
to Chi Jianwei, a member of the Zhejiang branch of the China 
Democracy Party, for ``using a cult to undermine implementation 
of the law'' after authorities found Falun Gong materials in 
his home.\143\

                OTHER RELIGIOUS AND SPRITUAL COMMUNITIES

    Local governments continue to shut down unauthorized 
Buddhist and Daoist temples. Towns and cities reported in 2006 
on campaigns to address the presence of illegal temples through 
measures that included closure and demolition.\144\ Some local 
governments have targeted temples that include practices deemed 
as superstitious beliefs.\145\ Other temples have registered 
and submitted to official control. At a forum evaluating 
implementation of the Regulation on Religious Affairs in 2007, 
the president of the Daoist Association of China noted that the 
regulation has led to the registration of previously 
unregistered Daoist temples.\146\
    The government has supported some official interactions 
between domestic and foreign Buddhist communities,\147\ but 
also limited some foreign involvement. In 2004, authorities 
closed a Buddhist temple renovated by an American Buddhist 
association and 
detained the temple's designated leader.\148\
    Chinese religious adherents with ties to foreign religious 
communities not recognized within China have had leeway to 
practice their religion in some cases. The U.S. Department of 
State reported in 2006 that some Chinese citizens who joined 
the Church of Jesus Christ of Latter-day Saints (LDS) while 
living abroad met for 
worship in a Beijing location that Chinese authorities 
permitted 
expatriate LDS members to use.\149\ The central government 
continues to deny formal recognition to the LDS church as a 
domestic religious community, however, as it does other 
religious communities outside the five recognized groups, 
including Christian denominations that maintain a distinct 
identity outside the Chinese government-defined Protestant and 
Catholic churches. A few local governments provide legal 
recognition to Orthodox Christian communities, but the central 
government has not recognized Orthodoxy as a religion.\150\ In 
recent years, officials have met with representatives of the 
Russian Orthodox Church to discuss China's Orthodox 
communities.\151\
    Central and local authorities have drawn some aspects of 
folk 
beliefs into official purview. Since at least 2004, the State 
Administration for Religious Affairs has operated an office 
that undertakes research and policy positions on folk beliefs 
and religious communities outside the five recognized 
groups,\152\ but the government has neither extended formal 
legal recognition to any of these groups nor altered its system 
whereby religious communities must receive government 
recognition to operate. In 2006, Hunan province issued the 
first provincial-level regulation on religious affairs to 
provide for the registration of venues for folk beliefs.\153\ 
The Hunan provincial government's decision to channel folk 
religions into the government system of religious regulation 
provides some limited legal protections, but also may subject 
more aspects of folk practice to government control. To date, 
no other provincial regulation has regulated folk beliefs,\154\ 
but a central government official has indicated that the 
government is studying the Hunan model and may formulate 
national legal guidance on the regulation of folk belief 
venues.\155\ Authorities continue, however, to express concern 
over components within recognized religions deemed as folk 
beliefs, and view some aspects of folk practice as 
superstitions subject to official censure, and in some cases, 
legal penalties.\156\

                         Ethnic Minority Rights


                              INTRODUCTION

    The Chinese government recognizes and supports some aspects 
of ethnic minority identity, but represses aspects of ethnic 
minority rights deemed to challenge state authority, especially 
in the Xinjiang Uighur Autonomous Region, Inner Mongolia 
Autonomous Region (IMAR), and Tibet Autonomous Region and other 
Tibetan autonomous areas. Overall conditions vary for members 
of the 55 groups the Chinese government designates as minority 
``nationalities'' or ``ethnicities'' (minzu),\1\ but all 
communities face state controls in such spheres as governance, 
language use, culture, and 
religion. In recent years, the state has further refined its 
legal and economic systems for ethnic minorities, whom official 
statistics place at almost 8.5 percent of China's total 
population.\2\ The government provides some protections in law 
and in practice for ethnic minority rights and allows for 
autonomous governments in regions with ethnic minority 
populations.\3\ The narrow parameters of the ethnic autonomy 
system and the overriding dominance of the Communist Party, 
however, prevent ethnic minorities from enjoying their rights 
in line with international human rights standards.\4\ [See 
Section IV--Tibet for more information on conditions in 
Tibetan areas of China.]
    The government has taken steps to refine the legal 
framework for ethnic minority autonomy, but it has retained the 
fundamental features of the system that deny ethnic minorities 
meaningful control over their own affairs. In 2005, the State 
Council issued legal provisions\5\ for implementing the 1984 
Regional Ethnic Autonomy Law (REAL), which defines the 
framework for autonomous governments. Though the 2005 
provisions include measures beneficial in areas such as local 
economic development, monitoring implementation of regional 
ethnic autonomy legislation, and protection of cultural 
heritage,\6\ some provisions weaken ethnic minority rights. For 
example, the provisions bolster measures to promote migration 
to ethnic minority areas and reduce support for ethnic minority 
language education.\7\ In addition, the basic legal structure 
whereby higher organs of government can reject proposed 
legislation persists.\8\ [See Section IV--Tibet for a 
discussion of the REAL as 
implemented in Tibetan areas of China.] In 2006, the National 
People's Congress Standing Committee (NPCSC) launched a program 
to examine implementation of the REAL in regions throughout 
China and reported positively on its investigation.\9\ An NPCSC 
investigation team that went to the IMAR, for example, 
described the ethnic autonomy system as a success in that 
region.\10\ The conclusion conflicts with other reports that 
authorities there have taken measures that undermine meaningful 
autonomy. In recent years authorities in the IMAR have closed 
Mongolian Web sites,\11\ placed on trial Mongolian medicine 
practitioners Naguunbilig and Daguulaa,\12\ and denied a Mongol 
rights advocate's passport application on the grounds of 
``possible harm to state security and national interests.'' 
\13\ Ethnic Mongol bookstore owner Hada continues to serve a 
15-year prison sentence for the crimes of ``splittism'' and 
``espionage,'' after he organized peaceful protests for ethnic 
minority rights.\14\ Although the IMAR government issued new 
legal measures in 2005 to promote ethnic minority language use 
in schooling, jobs, and broadcasting, its effectiveness remains 
unclear.\15\
    The central government has increased support for 
development projects in ethnic minority regions, with mixed 
results. Aid projects, including the Great Western Development 
program launched in 2000, have increased migration, strained 
local resources, and furthered uneven allocation of resources 
that favors Han Chinese.\16\ In 2007, the central government 
issued a separate five-year development program for ethnic 
minorities and ethnic minority regions.\17\ The program sets 
concrete targets for improving economic and social conditions 
among ethnic minorities, who make up almost half of the Chinese 
population living in extreme poverty,\18\ and calls for 
improved efforts to draft regional ethnic autonomy 
legislation.\19\ The program couples such potentially 
beneficial reforms, however, with measures designed to monitor 
and report on ethnic relations and perceived threats to 
stability.\20\

         RIGHTS ABUSES IN THE XINJIANG UIGHUR AUTONOMOUS REGION

    The Chinese government has increased repression in the 
Xinjiang Uighur Autonomous Region (XUAR) since 2001, building 
off campaigns started in the 1990s to squelch political 
viewpoints and expressions of ethnic identity deemed 
threatening to state power.\21\ The government targets in 
particular the region's ethnic Uighur population, within which 
it alleges the presence of separatist activity. Since the mid-
1990s, the government has carried out ``strike hard'' anti-
crime campaigns that have addressed targets including the 
government-designated ``three forces'' of terrorism, 
separatism, and religious extremism.\22\ In 2007, XUAR 
Communist Party Secretary Wang Lequan called on the XUAR 
government to make stability the ``overriding'' concern in the 
region and to continue to ``strike hard'' against the ``three 
forces.'' \23\ The statement followed a January 5 raid at a 
location in the XUAR that Chinese officials described as a 
terrorist training base.\24\ Authorities provided limited 
information to back up the claim, drawing doubt from outside 
observers.\25\ Broader Chinese government reporting on 
terrorist threats remains questionable in light of government 
actions that conflate the peaceful exercise of rights with 
terrorist or separatist activity.\26\ In July 2007, a 
publication under the national Ministry of Public Security 
called for ``greatly'' strengthening intelligence gathering in 
the region to address perceived sources of 
instability, including ``antagonistic forces within and outside 
the border.'' \27\ In August, Wang Lequan called for ongoing 
measures to fight separatism. He urged vigilance against 
``western hostile forces'' led by the United States that he 
said have used the guise of human rights and ethnic and 
religious issues in plots aimed at overthrowing Communist Party 
leadership.\28\
    Rights abuses in the region are far reaching and target 
multiple dimensions of Uighur identity. Repression of Islam, 
the predominant religion practiced by Uighurs and many other 
ethnic minority groups in the XUAR, remains severe. [See 
Section II--Freedom of Religion for more information.] ``Strike 
hard'' campaigns have resulted in high rates of incarceration 
among Uighurs for state security crimes, including sentences 
stemming from religious activity.\29\ Official records have 
indicated an increase in Uighurs in the XUAR sent to prison or 
reeducation through labor centers because of religious activity 
since the mid-1990s.\30\ Ministry of Justice figures from 2001 
indicated that Uighurs incarcerated for ``state security 
crimes'' made up over 9 percent of those serving prison 
sentences.\31\ XUAR residents reported to overseas human rights 
organizations that police monitoring for illegal activity, 
including systematic door-to-door searches within neighborhoods 
and villages, has increased in recent years.\32\
    In addition to ``strike hard'' measures, officials also 
have enforced ``softer'' policies aimed at diluting expressions 
of Uighur identity. In recent years local governments have 
intensified measures to reduce education in ethnic minority 
languages\33\ and have instituted language requirements that 
disadvantage ethnic minority teachers.\34\ Broader 
discriminatory hiring practices, including in the government 
sector, also hinder ethnic minorities' job prospects. In 2006, 
for example, during job recruiting in the XUAR, the Xinjiang 
Production and Construction Corps (bingtuan) reserved 
approximately 800 of 840 civil servant job openings for Han 
Chinese, leaving 38 positions for members of specified ethnic 
minority groups.\35\ The government provides incentives for 
migration to the region from elsewhere in China, in the name of 
recruiting talent and promoting stability.\36\ Measures to 
address high population growth have targeted impoverished 
ethnic minorities within the region.\37\ At the same time the 
government promotes migration to the XUAR to address perceived 
labor shortages, it also supports programs to send young ethnic 
minorities to work in factories in other parts of China.\38\ In 
2007, overseas media reported on abuses in such a government-
sponsored labor program that sent Uighur women to a factory in 
Shandong province under false pretenses and compelled them to 
work without regular wages.\39\ Central and local authorities 
also have promoted abusive labor practices within the region to 
fulfill state development goals. To meet harvesting demands in 
the XUAR's cotton industry, authorities have compelled children 
in the region to pick crops.\40\ The government issued legal 
guidance in 2006 on supporting the child labor force.\41\
    Authorities in the XUAR continue to imprison Uighurs 
engaged in peaceful expressions of dissent and other non-
violent activities. Such political prisoners include Tohti 
Tunyaz, who received an 11-year prison sentence in 1999 after 
conducting historical research on the XUAR; Abduhelil Zunun, 
who received a 20-year sentence in 2001 after translating the 
Universal Declaration of Human Rights into the Uighur language; 
Abdulghani Memetemin, who received a 9-year prison sentence in 
2003 after sending information on human rights abuses to a 
foreign NGO; Nurmemet Yasin, who received a 10-year prison 
sentence in 2005 after writing a short story authorities deemed 
a criticism of government policy in the XUAR; and Korash 
Huseyin, who received a 3-year prison sentence in 2005 after 
publishing Yasin's work of literature.\42\
    Although the Chinese government granted political prisoner 
Rebiya Kadeer early release on medical parole to the United 
States in 2005, it has since launched a campaign of harassment 
and abuse against her family members in the XUAR in an apparent 
strategy to punish Kadeer for her activism in exile.\43\ In 
2007, a XUAR court sentenced Kadeer's son Ablikim Abdureyim to 
nine years in prison for ``instigating and engaging in 
secessionist activities.'' \44\ A court imposed a seven-year 
prison sentence and fine in 2006 on Kadeer's son Alim, and 
imposed a fine on her son Kahar, for tax evasion.\45\ In 2005 
and 2006, authorities also placed other family members under 
surveillance and house arrest\46\ and held two of Kadeer's 
former business associates in detention without charges for 
seven months.\47\
    The Chinese government's increasing cooperation with 
Central Asian neighbors has placed Uighur activists outside of 
China at risk of extradition. In 2006, Uzbek authorities 
extradited Canadian citizen Huseyin Celil from Uzbekistan to 
China, where he received a life sentence in 2007 for 
``terrorist activities'' and ``plotting to split the country.'' 
A former Chinese citizen originally from the XUAR, Celil had 
gained political asylum in Canada in 2001. Chinese authorities 
do not recognize Celil's Canadian citizenship and have 
denied Celil access to Canadian consular officials.\48\

                          Population Planning


                              INTRODUCTION

    During the past five years, the Chinese government has 
maintained population planning policies that violate 
international human rights standards. As this Commission noted 
in 2006, ``The Chinese government strictly controls the 
reproductive lives of Chinese women. Since the early 1980s, the 
government's population planning policy has limited most women 
in urban areas to bearing one child, while permitting many 
women in rural China to bear a second child if their first 
child is female. Officials have coerced compliance with the 
policy through a system marked by pervasive propaganda, 
mandatory monitoring of women's reproductive cycles, mandatory 
contraception, mandatory birth permits, coercive fines for 
failure to comply, and, in some cases, forced sterilization and 
abortion. The Chinese government's population planning laws and 
regulations contravene international human rights standards by 
limiting the number of children that women may bear, by 
coercing compliance with population targets through heavy 
fines, and by discriminating against `out-of-plan' children.'' 
\1\
    As this Commission reported in 2005 and 2006, China's 
population planning policies in both their nature and 
implementation constitute human rights violations according to 
international standards. During 2007, human rights abuses 
related to China's population planning policies clearly were 
not limited to physically coerced abortions. Local officials 
have violated Chinese law by punishing citizens, such as 
imprisoned legal advocate Chen Guangcheng, who have drawn 
attention to population planning abuses by government 
officials. Moreover, as described below, population planning 
policies have exacerbated imbalanced sex ratios--a male to 
female ratio of 118:100, according to the U.S. Department of 
State, but reportedly higher in some localities and for second 
births.

                    OVERVIEW OF RECENT DEVELOPMENTS

    China's population planning policies exert government 
control over women's reproductive lives, impose punitive 
measures against citizens not in compliance with the population 
planning policies, and engender additional abuses by officials 
who implement the policies at local levels. The government 
states that population planning policies have prevented more 
than 300 million births since implementation, and it justifies 
continuing the policies to maintain controls over population 
growth.\2\ In 2002, when the Chinese government codified its 
population planning policies into national law, an official 
stated that China ``does not yet possess the conditions for a 
relaxation of [the] birth policy, but there is also no need to 
tighten it.'' \3\ A decision issued by the Communist Party 
Central Committee and State Council in December 2006 promoted 
the continuation of basic national policies on population 
planning.\4\ In July 2007, the head of the Population and 
Family Planning Commission reiterated that the policies would 
remain in place.\5\
    China's population planning policies deny Chinese women 
control over their reproductive lives. The Population and 
Family Planning Law and related local regulations permit women 
to bear one child, with limited exceptions.\6\ Women who bear 
``out-of-plan'' children face, along with their family members, 
harsh economic penalties in the form of ``social compensation 
fees'' that can range to multiples of a locality's yearly 
average income.\7\ Authorities also subject citizens who 
violate population planning rules to demotions or loss of jobs 
and other punitive measures.\8\ Authorities have used legal 
action and coercive measures to collect money from poor 
citizens who cannot afford to pay the fees.\9\ The fees 
entrench the disparity between rich and poor, as wealthier 
citizens have come to view paying the fees as a way to buy out 
of population planning restrictions.\10\ Public officials also 
have been able to flaunt restrictions. Official Chinese media 
reported in 2007 that the Hunan province family planning 
commission found that from 2000 to 2005, nearly 2,000 officials 
in the province had violated the Population and Family Planning 
Law.\11\ In September 2007, the government and Party announced 
new measures to monitor public officials' 
adherence to population planning policies and deny promotions 
to officials who violate them.\12\ In recent years, the 
government has introduced more programs to reward citizens' 
compliance with family planning policies, but it has retained 
punitive measures.\13\ In May 2007, the national Population and 
Family Planning Commission adopted a plan to ``rectify'' out-
of-plan births in urban parts of China.\14\ Controls imposed on 
Chinese women and their families, and additional abuses 
engendered by the system, from forced abortion to 
discriminatory policies against ``out-of-plan'' children, 
violate standards in the Convention on the Elimination of All 
Forms of Discrimination Against Women,\15\ Convention on the 
Rights of the Child,\16\ and the International Covenant on 
Economic, Social, and Cultural Rights,\17\ the terms of which 
China is bound to uphold as a state party to these treaties.
    Abuses in the enforcement of population planning policies 
have further eroded citizens' rights. Although the Population 
and Family Planning Law provides for punishment of officials 
who violate citizens' rights in promoting compliance,\18\ 
reports from recent years indicate that abuses continue. Media 
reports in 2005 publicized abuses in Linyi, Shandong province, 
where officials enforced compliance through forced 
sterilizations, forced abortions, beatings, and other 
abuses.\19\ Citizens who challenge government offenses continue 
to face harsh repercussions. After legal advocate Chen 
Guangcheng exposed abuses in Linyi, authorities launched a 
campaign of harassment against him that culminated in a four-
year, three-month prison sentence imposed in 2006 and affirmed 
by a higher court in 2007.\20\ [See also Section II--Rights of 
Criminal Suspects and Defendants for more information.] 
Structural incentives for local officials to coerce compliance 
exacerbate the potential for abuses. In spring 2007, local 
officials in Bobai county, Guangxi Zhuang Autonomous Region 
(GZAR), initiated a wide-scale campaign to control birthrates 
after the GZAR government reprimanded officials for failing to 
meet population targets. Officials reportedly required all 
women to submit to examinations and subjected women to fines, 
forced sterilization, and forced abortions. Authorities looted 
homes and seized possessions of citizens who did not pay the 
fines.\21\ In May, Bobai residents rioted in protest of 
government abuses. Residents of Rong county, also in the GZAR, 
protested population planning policies later the same 
month.\22\ In one potentially positive development, an 
intermediate court in Hebei province agreed in 2007 to hear a 
couple's lawsuit against a local family planning commission for 
a forced abortion seven years ago, reportedly the first time a 
court has taken an appeal in this type of case.\23\
    The government has taken limited steps to address social 
problems exacerbated by population planning policies, such as 
unbalanced sex ratios\24\ and decreasing social support for 
China's aging population. In 2006, the government announced 
that the following year it would extend across China a pilot 
project to provide financial support to rural parents with only 
one child or two girls, once the parents have reached 60 years 
of age.\25\ The Communist Party Central Committee and State 
Council decision issued in 2006 describes the unbalanced sex 
ratio as ``inevitably influencing social stability,'' advocates 
steps to address discrimination against girls and women, and 
promotes measures to stop sex-selective abortion.\26\ Sex 
ratios stand at roughly 118 male births to 100 female births, 
with higher rates in some parts of the country and for second 
births. Demographers and population experts consider a normal 
male-female birth ratio to be between 103 to 107:100.\27\
    In 2006, the National People's Congress Standing Committee 
considered, but decided not to pass, a proposed amendment to 
the Criminal Law that would have criminalized sex-selective 
abortion.\28\ Local governments have instituted prohibitions 
against fetal sex-determination and sex-selective abortion. For 
example, in 2006, Henan province passed a regulation imposing 
financial penalties on these acts where they take place outside 
of limited approved parameters.\29\
    At the same time the government has taken some steps to 
deal with the sex imbalance and discriminatory attitudes toward 
girls, some provincial governments have enforced policies that 
institutionalize biases against girls by permitting families to 
have a 
second child where the first child is a girl.\30\ According to 
some observers, imbalanced sex ratios and a resulting shortage 
of marriage partners have already contributed to, or will 
exacerbate in the future, the problem of human trafficking.\31\ 
[See Section II--Human Trafficking, and Section II--North 
Korean Refugees in China.]
    Within individual provincial-level jurisdictions, a range 
of factors beyond birth rates affect local population growth. 
Internal migration has contributed to demographic shifts within 
ethnic minority autonomous regions, among other areas. In 2006, 
authorities in the Xinjiang Uighur Autonomous Region (XUAR) 
acknowledged that floating and migrant populations would 
continue to contribute to the region's high rate of population 
growth, but also announced the government would carry out its 
population planning policies by continuing measures to control 
birth rates. A series of articles from official media 
specifically indicated that the XUAR government would target 
impoverished ethnic minority areas as the focus of these 
measures.\32\ [See Section II--Ethnic Minority Rights, and 
Section IV--Tibet, for more information on population issues in 
ethnic minority areas.]
    During 2008, the Commission will continue to monitor and 
report on violations of international human rights standards in 
China related to forced abortions, social compensation fees, 
licensing for births, control of women's reproductive cycles, 
and all other issues.

                    Freedom of Residence and Travel


                          FREEDOM OF RESIDENCE

    The Chinese government continues to enforce the household 
registration (hukou) system it first established in the 1950s. 
This system limits the right of Chinese citizens to determine 
their permanent place of residence. Regulations and policies 
that condition legal rights and access to social services on 
residency status have resulted in discrimination against rural 
hukou holders who migrate for work to urban areas. The hukou 
system exacerbates barriers that migrant workers and their 
families face in areas such as employment, healthcare, property 
rights, legal compensation, and schooling. [See Section II--
Worker Rights for more information.] Central and local 
government reforms from the past five years have mitigated some 
obstacles to equal treatment, but provisions that allow people 
to change hukou status have included criteria that advantage 
those with greater economic and educational resources or with 
family connections to urban hukou holders.\1\ The government's 
restrictions on residence and discrimination in equal treatment 
contravene international human rights standards,\2\ including 
those in treaties China has signed or ratified.\3\ In May 2005, 
the UN Committee on Economic, Social, and Cultural Rights 
expressed ``deep concern'' over the discrimination resulting 
from ``inter alia, the restrictive national household 
registration system (hukou) which continues to be in place 
despite official announcements regarding reforms.'' \4\
    Recent reforms have addressed some of the burdens migrants 
face. In 2001, the State Council expanded an earlier program to 
allow rural migrants who meet set requirements to migrate to 
small towns and cities and obtain hukou there, while keeping 
rural land rights.\5\ In 2003, the State Council abolished 
``Measures for the Custody and Repatriation of Vagrant Beggars 
in Cities'' that allowed the police to detain, at will, people 
without identification, residence, or work permits.\6\ The same 
year, the State Council issued a national legal aid regulation 
that does not condition legal aid on residence status.\7\
    Central government directives promulgated in 2003 and 
beyond also have called for reform, though many have had 
limited formal legal force and limited impact.

        <bullet> In 2003, the State Council issued a directive 
        acknowledging migrants' right to work in cities, 
        forbidding discriminatory policies, and calling for 
        improved services for migrants and their families.\8\
        <bullet> Also in 2003, the State Council issued legal 
        guidance ordering urban governments to take 
        responsibility for educating migrant children.\9\
        <bullet> A 2004 State Council directive called for an 
        end to discriminatory work restrictions against 
        migrants.\10\
        <bullet> The Ministry of Labor and Social Services 
        (MOLSS) issued a labor handbook the following year 
        stating that the MOLSS will not require migrants to 
        obtain a work registration card in their place of 
        origin before seeking jobs in urban areas.\11\
        <bullet> A joint opinion on the promotion of a ``new 
        socialist countryside'' issued in 2005 by the Communist 
        Party Central Committee and the State Council called 
        for reforms to the hukou system, including a 
        reiteration of prior reform measures that stalled at 
        the local level.\12\
        <bullet> In 2006, the State Council issued an opinion 
        addressing various issues affecting migrant workers and 
        calling for measures to ease, under certain conditions, 
        migrants' ability to settle in urban areas.\13\
        <bullet> 2006 revisions to the compulsory education law 
        codify a guarantee of equal educational opportunities 
        for children outside the jurisdiction of their hukou 
        registry.\14\
        <bullet> During the 10th session of the National 
        People's Congress (NPC) in March 2007, Chinese 
        legislators approved a resolution creating a delegate 
        quota in the NPC reserved for migrant workers.\15\
        <bullet> In 2007, the Ministry of Public Security 
        formulated a series of proposals to submit to the State 
        Council for approval.\16\ Major reforms in the proposal 
        include improving the temporary residence permit 
        system, improving the ability of migrants' spouses and 
        parents to transfer hukou to urban areas, and using the 
        existence of a fixed and legal place of residence as 
        the primary basis for obtaining registration in a city 
        of residence.\17\

    Uneven implementation of hukou reform at the local level 
has dulled the impact of national calls for change. Fiscal 
burdens placed on local governments have served as 
disincentives for implementing reforms. Fears of population 
pressures and citizen activism, in addition to discriminatory 
attitudes against migrants, also have fueled resistance from 
local governments.\18\ Since 2001, many provinces and large 
cities have implemented measures that allow migrants to obtain 
an urban hukou, but they generally give preference to wealthier 
and more educated migrants by conditioning change in status on 
meeting requirements such as having ``a stable place of 
residence'' and a ``stable source of income,'' as defined in 
local provisions.\19\ New reforms instituted in Chengdu in 2006 
allow some migrants to obtain a hukou where they rent housing 
in the city and reside in it for over a year, but the reforms 
also impose conditions that disadvantage poorer migrants.\20\ 
Other policies also are detrimental to broader reforms of the 
hukou system. In 2005, authorities in Shenzhen implemented 
tighter restrictions against migrants by suspending the 
processing of hukou applications for migrants' dependents. 
Authorities also said they would limit the growth of private 
schools for migrant children and require migrant parents to pay 
additional fees to enroll their children in public schools.\21\ 
In 2006, Shenyang municipal authorities reversed 2003 
relaxations on hukou requirements when they reinstituted 
temporary residence requirements for migrants.\22\
    Some local government measures have been beneficial to 
improving conditions for migrants. After the State Council 
called in 2004 for abolishing employment restrictions for 
migrants, the Beijing municipal government followed suit with 
local reforms in 2005 that eliminated restrictions on migrant 
workers holding certain occupations.\23\ In 2005, Henan 
provincial authorities reported that they would institute 
measures to increase migrant workers' access to healthcare 
while in urban areas.\24\ In 2006, authorities in a district 
within the city of Xi'an reported instituting measures granting 
all residents equal access to social services.\25\ Some local 
governments have removed discriminatory compensation levels for 
rural migrants. In October 2006, the Chongqing High People's 
Court issued an opinion stipulating that rural migrants who 
have resided in Chongqing for over a year and have an 
``appropriate source of 
income'' are entitled to the same compensation as urban hukou 
holders in traffic accident cases.\26\ The Supreme People's 
Court is currently contemplating a new judicial interpretation 
on the role of hukou status in determining death compensation 
rates.\27\
    Central and local governments have accompanied measures to 
address discrimination against migrants with calls to 
strengthen supervision over migrant populations, reflecting 
concerns over 
perceived social unrest. The 2003 directive articulating broad 
protections for migrant workers also supports measures to 
increase control over them, including through ``social order 
management responsibility systems.'' \28\ Although a government 
official called in 2005 for transforming management techniques 
from methods of control to methods of service,\29\ authorities 
have continued to enact measures to exert government control. A 
circular from Henan province issued in 2006 called for 
monitoring migrants by keeping files on their rental 
housing.\30\

                           FREEDOM OF TRAVEL

    The Chinese government continues to enforce restrictions on 
citizens' right to travel, in violation of international human 
rights standards.\31\ The Law on Passports, effective January 
2007, articulates some beneficial features for passport 
applicants, but gives officials the discretion to refuse a 
passport where ``[t]he competent organs of the State Council 
believe that [the applicant's] leaving China will do harm to 
the state security or result in serious losses to the benefits 
of the state.'' \32\ Authorities restrict travel to penalize 
citizens who express views they deem objectionable. The Chinese 
government initially failed to approve democracy activist Yang 
Jianli's passport application,\33\ which he submitted after his 
release from prison in April 2007.\34\ In August, however, 
authorities 
allowed Yang to travel to the United States. Authorities had 
detained Yang in 2002 when he crossed into China on another 
person's passport. Authorities had earlier refused to renew his 
passport and had barred him and other activists from entering 
the country.\35\ Chinese officials have prevented other 
activists from traveling abroad, including rights defender Tang 
Jingling, whose passport was confiscated by Guangdong border 
authorities in September 2006 as he was en route to New York. 
Tang brought an administrative lawsuit against the government 
in December 2006.\36\ In February 2007, the government 
prevented a group of writers from participating in a conference 
in Hong Kong by denying visas to some writers, warning others 
not to attend, and directly preventing some from passing 
through border controls into Hong Kong.\37\ [See Section II--
Freedom of Expression for more information.] In June 2007, 
authorities intercepted human rights defenders Yao Lifa and 
Zeng Jinyan at the airport and prevented them from traveling to 
an overseas human rights conference.\38\ In July, 
authorities rejected Mongol rights advocate Gao Yulian's 
passport application on the grounds of ``possible harm to state 
security and national interests.'' \39\ In August, Shanghai 
authorities denied the passport applications of rights defense 
lawyer and former political prisoner Zheng Enchong and his 
spouse Jiang Meili.\40\ The same month, authorities in Beijing 
prevented Yuan Weijing, spouse of imprisoned rights activist 
Chen Guangcheng, from traveling overseas to accept an award for 
her husband.\41\ In 2007, authorities also denied passport 
applications from the family members of defense lawyer Gao 
Zhisheng.\42\
    The government also uses travel restrictions to control 
religious citizens' overseas travel and to punish religious 
adherents deemed to act outside approved parameters. [See 
Section II--Freedom of Religion for more information.] The 
central government has increased control over Muslims' ability 
to undertake overseas religious pilgrimages, especially since 
2004. In June 2007, overseas media reported that authorities in 
the Xinjiang Uighur Autonomous Region (XUAR) implemented a 
policy to confiscate passports from Muslims, and Uighurs in 
particular, in a reported effort to enforce restrictions on 
overseas pilgrimages.\43\ In July, the XUAR government 
announced the public security bureau would strengthen passport 
controls as part of its campaign to curb unauthorized 
pilgrimages.\44\ House church leader Zhang Rongliang, who 
resorted to obtaining illegal travel documents after the 
government refused to issue him a passport, was sentenced to 
seven and one-half years' imprisonment in 2006 on charges of 
illegally crossing the border and fraudulently obtaining a 
passport.\45\ Also in 2006, authorities detained two leaders of 
the unregistered Wenzhou diocese, Peter Shao Zhumin and Paul 
Jiang Surang, after they returned from a pilgrimage to Rome. 
Six months after their detention, Shao and Jiang received 
prison sentences of 9 and 11 months, respectively, after 
authorities accused them of falsifying their passports and 
charged them with illegal exit from the country.\46\ 
Authorities placed house church historian and former political 
prisoner Zhang Yinan and his family under surveillance in 2006 
after he tried to apply for a passport to attend a religious 
function in the United States.\47\

                            Status of Women


                              INTRODUCTION

    The Commission has noted in the past that the Chinese 
government has been more vigorous in publicizing and condemning 
abuse against women than in other areas concerning human 
rights.\1\ In 2003, 2004, and 2006, the Commission observed 
that, while China had built an expansive legal framework to 
protect women's rights and interests, loopholes and inadequate 
implementation remained that left women vulnerable to 
widespread abuse, discrimination, and harassment at home and in 
the workplace.\2\ The Commission noted in 2004-2006 that 
China's economic reforms have increased opportunities for women 
to build their own businesses, but these reforms still leave 
many women, when compared to men, with fewer employment 
opportunities, less earning power, less access to education, 
especially in rural areas, and increasing risks from HIV/
AIDS.\3\ In its 2004-2006 Annual Reports, the Commission also 
noted the existence of women's organizations that advocate on 
behalf of women's rights within the confines of government and 
Communist Party policy.\4\ In its 2005 Annual Report, the 
Commission observed that China's Constitution and laws provide 
for the equal rights of women, but, as noted in 2006, vague 
language and inadequate implementation continue to hinder the 
effectiveness of legal protections written in the Constitution 
and national laws.\5\

                         LAWS AND INSTITUTIONS

    The Chinese Constitution and laws provide for the equal 
rights of women.\6\ In addition, the Program for the 
Development of Chinese Women seeks to increase women's 
development by 2010 in areas of the economy, decisionmaking and 
management, education, health, law, and the environment.\7\ 
CECC Annual Reports dating from 2003 have noted that the number 
of laws and regulations promoting the equal rights of women has 
expanded, with a noticeable difference after 2004.
    In August 2005, the National People's Congress (NPC) 
Standing Committee passed an amendment to the Law on the 
Protection of Women's Rights and Interests (LPWRI), which 
prohibit sexual harassment and domestic violence, and require 
government entities at all levels to give women assistance to 
assert their rights in court.\8\ At least nine provincial and 
municipal governments have passed regulations to strengthen the 
implementation of the LPWRI.\9\ For example, Shanghai's 
regulations, passed in April 2007, explicitly prohibit five 
types of sexual harassment, namely verbal, written, pictorial, 
electronic transmission of information such as text messaging, 
and physical sexual harassment.\10\ The 2002-2004 Annual 
Reports noted that although there was initially no specific law 
on sexual harassment, people began to file sexual harassment 
cases in court and several women won lawsuits against their 
employers, in part due to greater economic openness and 
government and women's organizations' efforts to build 
awareness.\11\ In addition, at least 15 provincial and 
municipal governments have detailed domestic violence 
regulations, and the Ministry of Public Security and the All-
China Women's Federation (ACWF), among others, issued 
guidelines in 2007 that will legally obligate police officers 
to respond immediately to domestic violence calls and to assist 
domestic violence victims, or face punishment.\12\
    Previous annual reports have noted that the lack of a 
national definition on key terms, such as discrimination 
against women and sexual harassment, hinder effective 
implementation of the amended LPWRI and other policy 
instruments.\13\ In addition, even though the amended Marriage 
Law of 2001 and the amended LPWRI prohibit domestic violence, 
``domestic violence'' is not defined, and case rulings in 
domestic violence cases are inconsistent due to the lack of 
clear standards in laws and judicial explanations.\14\ Other 
hurdles in accessing justice include domestic violence victims 
bearing the burden in bringing complaints, lack of detailed 
provisions on how to implement policy measures, and limited 
public understanding and awareness, among other factors.\15\ 
Recent surveys show that domestic violence and sexual 
harassment remain widespread. For example, 30 percent of 
Chinese families experience 
domestic violence, and 74.8 percent of female migrant workers 
engaged in the service industry in Changsha city report 
experiencing some form of verbal or physical sexual 
harassment.\16\

                           GENDER DISPARITIES

                                Economy

    China's transition to a market economy has had 
contradictory 
influences on the social status of women, who contribute to 
over 40 percent of China's gross domestic product, offering 
them both ``greater freedom and mobility,'' and ``greater 
threats . . . at home and in the workplace.'' \17\ The 
Commission's 2003 Annual Report notes that women workers face 
particular hardships in finding a job, as they are often the 
first to be fired and the last to be hired, and there exists 
weak labor protection measures, inadequate maternity insurance, 
unequal compensation and benefits when compared to men for 
equal work, and fewer opportunities for advancement, among 
other factors.\18\ There are also concerns that women's 
participation in the economy is unevenly distributed between 
rural and urban areas, and that the market transition has 
increased fees in rural areas, impoverishing some families and 
harming girls' access to education.\19\ Young women are 
increasingly migrating to urban areas to find work, leaving 
them vulnerable to trafficking, forced labor, and other 
abuses.\20\
    At the same time, some women are succeeding as 
entrepreneurs in China, in certain measures even in comparison 
to men.\21\ For 
example, most of these women entrepreneurs work in small and 
medium-sized companies, accounting for 20 percent of the total 
number of entrepreneurs in China. Among them, 60 percent have 
become successful in the past decade and 95 percent of the 
companies that they run have been very successful. These 
companies have created more job opportunities for women as 
well, since 60 percent of the staff tends to be women.\22\ [See 
Section II--Worker Rights.]

                     Decisionmaking and Management

    Women account for 40 percent of government positions, yet 
this number may be misleading as very few hold positions with 
decisionmaking power. For example, the Ministry of Civil 
Affairs estimates that less than 1 percent of village 
committees and village-level Communist Party Committees in 
China's 653,000 administrative villages were headed by women in 
2004. In March 2007, the NPC announced that female 
representatives should account for at least 22 percent of the 
seats in the 11th NPC, with representatives to be elected by 
the end of January 2008, and at least 30 
percent of civil servant posts must be held by women.\23\ 
Various provincial and municipal governments have also 
announced gender quotas for positions in their local 
governments and local people's congresses.\24\

                          HIV/AIDS and Health

    Chinese health statistics over the past five years continue 
to reflect women's disadvantaged status, and also reflect 
central and local governments' slow pace in effectively 
addressing health issues that are known to disparately impact 
women, especially women in rural areas. The Commission's 2005 
Annual Report noted that women make up an increasingly larger 
percentage of newly reported HIV/AIDS cases, an observation 
confirmed by official Chinese government news media.\25\ This 
trend has continued in the 2006-2007 reporting period,\26\ 
although the government has taken some steps to increase HIV/
AIDS awareness among women used in prostitution.\27\ Although 
the Commission's 2003 Annual Report observed that China had not 
taken the necessary initiatives to increase awareness among 
this group, these recent steps suggest a possible positive 
development if they are implemented effectively.\28\
    China is the only country in the world where the rate of 
suicide is higher among women than among men.\29\ According to 
the editor of China Women's News, 157,000 women commit suicide 
each year in China, 25 percent more than men. In rural areas, 
the instance of suicide among women is three to four times 
higher than the instance among men, and three to five times 
higher than the instance among women who live in urban areas. 
Domestic violence is the main cause of suicide among women in 
rural areas.\30\ While there has been a decline in maternal 
mortality rates since 1991, there is a widening gap between 
urban and rural areas, with women in rural areas experiencing 
significantly higher mortality rates when compared with 
maternal mortality rates in urban areas and the national 
average.\31\ Moreover, rural women's rates of illnesses are 5 
percent higher when compared with rural men's rates of 
illnesses, most likely as a result of long working hours, poor 
nutrition and care after childbirth, and the collapse of the 
rural cooperative medical system.\32\ [See Section II--Health.]

             Access to Education, Especially in Rural Areas

    Women continue to have less access to education in rural 
areas and lower educational levels when compared to men, 
although women's organizations and the government have 
initiated programs in recent years to reverse this trend by 
providing economic incentives to send girls to school or 
seeking to change traditional rural attitudes that give 
preference to the education of sons. Despite 99 percent 
enrollment rates for girls and boys, only 43 percent of girls 
in rural areas, as compared with 61 percent of boys, complete 
education higher than junior middle school.\33\ Furthermore, 
the National Bureau of Statistics released statistical data in 
2006 showing that more than 70 percent of those who are 
illiterate and 15 years of age and older are women, a figure 
that has increased since 2001.\34\ In an attempt to address 
these issues in part, government and government-affiliated 
organizations have organized local-level ``Spring Bud'' 
programs that aim to help girls stay in school around the 
country.\35\

    Rural Land Reallocation and the Rights of ``Married-Out Women''

    ``Married-out women'' in rural areas continue to experience 
violation of their land and property rights, although judges 
have recently ruled in favor of women in certain types of 
lawsuits, and some provinces are issuing regulations that seek 
to strengthen implementation of existing legal protections. 
Village committees, when determining who should be eligible to 
receive shares of collectively owned land assets, may order 
decisions that legitimize discrimination against ``married-out 
women.'' ``Married-out women'' include women who have either 
married men from other villages, but whose household 
registration (hukou) remains in their birthplace, whose hukou 
is transferred from one place back to their birthplace, or 
whose hukou is transferred to their husbands' village.
    These women are especially vulnerable to violation of their 
rights, including rights to use land, to receive compensation 
for the land, to use the land for residential purposes, and to 
have access to collective welfare resources.\36\ Legal 
protections in the form of the PRC Law on Land Contract in 
Rural Areas, the Marriage Law, and other laws, guarantee women 
the same land rights as men. Judges have ruled in favor of 
women in four lawsuits concerning land rights since August 
2005, and there have been reports of other successful cases 
within the last two years.\37\ Most of these women who have won 
lawsuits, however, have been those who still live in their 
villages after marrying men from other villages.\38\
    There are still tremendous difficulties for ``married-out 
women'' to use legal channels to seek redress for violations of 
their rights. For example, lawyers have noted that the LPWRI 
and relevant regulations in Guangdong province guarantee the 
property rights of women, but they lack detailed articles that 
could be used to protect these rights.\39\ In addition, each 
village also has its own set of laws, which according to the 
PRC Organic Law of Village Committees (Organic Law) should not 
contravene national laws and regulations.\40\ Yet the Organic 
Law does not indicate how to prevent or resolve this 
disconnect, with the consequence that some villages uphold 
their own laws even when they are in conflict with the LPWRI 
and other laws.\41\ In May 2007, Guangdong province passed 
regulations to strengthen its implementation of the LPWRI, with 
the rule that neither organizations, such as the village 
committee, nor individuals can prevent or force rural women to 
change their hukou as a result of marriage, divorce, or 
widowhood.\42\ In addition, the regulations state that village 
rules, laws, and resolutions concerning land rights must not 
violate women's rights on the basis of marriage, divorce, or 
widowhood.\43\

                         WOMEN'S ORGANIZATIONS

    Women's organizations have been particularly active in the 
last few years, although these groups advocate on behalf of 
women's rights within the confines of government and Communist 
Party policy. The All-China Women's Federation (ACWF), a 
Communist Party-led mass organization, plays a supporting role 
in the formation of some of these organizations while others 
operate more independently and sometimes with unregistered 
status.\44\ There were 2,000 active organizations by 1989, and 
the Fourth World Conference on Women in 1995 helped to launch 
other women's organizations, such as the Center for Women's Law 
Studies and Legal Services of Peking University and the Maple 
Women's Psychological Counseling Center. In addition, several 
women leaders jointly founded the advocacy project Women's 
Watch--China in April 2005.
    Within the last year, the China Women's University 
established a legal center for women and children, and there 
have been various seminars and workshops sponsored by 
universities, lawyers' associations, and local women's 
federations to raise awareness of women's issues among lawyers, 
judges, public officials, and academics.\45\ The ACWF works 
with the Chinese government to support women's rights, 
implement programs for disadvantaged women, and provide a 
limited measure of legal counseling and training for women.\46\ 
As a Party organization, however, the ACWF does not promote 
women's interests when such interests conflict with Party 
policies that limit women's rights. For example, in 2005, an 
ACWF representative in Yunnan province refused to allow a 
leading women's rights activist to represent over 500 women in 
Yunnan in seeking redress for lost land, on the grounds that 
such interference could ``influence stability.'' \47\ In 
addition, the ACWF has been silent about the abuses of Chinese 
government population planning policies and remains complicit 
in the coercive enforcement of birth limits.\48\

           NON-DISCRIMINATION IN EMPLOYMENT AND THE WORKPLACE

    Women account for 60 percent of total rural laborers, and 
by the end of 2004, there were 337 million women working in 
cities and rural areas, which accounted for 44.8 percent of the 
total workforce, roughly women's proportion of China's general 
population.\49\ Women still face tremendous challenges in the 
workplace, and women migrant workers face particular hardship. 
For example, more than 70 percent of women in a 2007 survey 
reported worrying about losing their jobs after becoming 
pregnant, and there have been numerous cases of women dismissed 
after they became pregnant.\50\ In addition, a 2006 survey of 
women migrant workers 
conducted by the ACWF found that only 6.7 percent of surveyed 
workers had maternity insurance. Of the 36.4 percent who 
reported that they were allowed to take maternity leave, 64.5 
percent said this leave was unpaid.\51\ Some local governments 
have established programs to provide loans, training, and legal 
aid for woman workers.\52\ For example, the legal aid center in 
Jinan city provides legal services for migrant women 
workers.\53\ The ACWF also has programs such as the Two Million 
Project, launched in 2003, which aims to train 2 million laid-
off women so that they can find reemployment.\54\ [See Section 
II--Worker Rights.]

                 CONTINUING CHALLENGES IN THE WORKPLACE

    The Chinese government has passed a substantial body of 
protective legislation, particularly in the area of labor laws 
and regulations. For example, the 1978 Temporary Measures on 
Providing for Old, Weak, Sick, and Handicapped Cadres 
(Temporary Measures) require women to retire at 55, and men at 
60.\55\ Chinese academics and government officials have noted 
that the Temporary Measures discriminate against women.\56\ In 
addition, requirements for employment based on height, weight, 
gender, age, and beauty are not uncommon. In 2006, a 
transportation company based in Hubei province issued rules 
stipulating that female attendants must stay within certain 
height and weight requirements, and that attendants whose 
weight exceeded 60 kilograms (132 pounds) would be laid 
off.\57\ Despite some legal protections, both urban and rural 
women in China continue to have limited earning power when 
compared to men, and women lag behind men in finding employment 
in higher-wage urban areas.\58\

                           Human Trafficking


                              INTRODUCTION

    The Chinese government has taken some steps to establish a 
national-level anti-trafficking coordinating mechanism, to 
increase public awareness, to expand the availability of some 
social services for victims of trafficking, and to improve 
international cooperation. The Chinese government reports that 
efforts have led to a decline in some forms of trafficking, but 
also notes that there has been an increase in other forms of 
trafficking that have not received as much attention, such as 
using trafficking victims to perform forced labor or engage in 
commercial sex. Within the past five years, for example, there 
has been a rise in cross-border trafficking cases, with 
internal and international traffickers increasingly working 
together. The U.S. State Department also notes that the Chinese 
government ``continued to treat North Korean victims of 
trafficking as economic migrants, routinely deporting them back 
to horrendous conditions in North Korea.'' \1\

                     DEVELOPMENTS IN THE PAST YEAR

    The National People's Congress Standing Committee revised 
the PRC Law on the Protection of Minors on December 29, 2006, 
which became effective June 1, 2007, to explicitly prohibit the 
trafficking of minors.\2\ Article 41 of the revised law 
contains new provisions that prohibit the trafficking, 
kidnapping, and maltreatment, including sexual exploitation, of 
minors, although these terms are not 
defined.\3\ In July 2007, the All-China Women's Federation 
(ACWF) and the Ministry of Public Security (MPS) held the first 
National Anti-Trafficking Children's Forum, in which an MPS 
spokesperson noted the increase in the number of cases of 
forced labor trafficking and trafficking for commercial sexual 
exploitation, and an annual decrease in the number of cases 
handled by the MPS that relate to the trafficking of women and 
children for marriage and adoption.\4\
    Official Chinese case statistics suggest, however, that 
China is either not publishing accurate data on the incidence 
of human trafficking, uses non-standard categories for these 
crimes, or has low prosecution rates in these cases. In 2005, 
the MPS reported that Chinese police departments nationwide 
opened 2,884 cases of ``abducting women and children,'' of 
which they reported ``investigating and handling'' just over 
2,400 cases. In 2006, the total number of cases investigated 
and resolved was just over 2,100. Police press reports portray 
the trends as evidence that such abduction cases have declined 
in society since the 1980s and 1990s, and as proof of the 
``obvious effectiveness'' of their policies.\5\ By contrast, 
the U.S. State Department's 2007 Trafficking in Persons Report 
notes that ``an estimated minimum of 10,000 to 20,000 victims'' 
are trafficked internally each year.\6\ The ACWF-MPS forum also 
touched on legal protections for trafficking victims. According 
to the MPS spokesperson, ``In trafficking and abduction 
aspects, China's legal protection is underdeveloped, and it 
needs to be further strengthened.'' \7\ The forum noted, for 
example, that China's Criminal Law provides punishment for the 
trafficking of women and children, but neglects minors over 14 
and male adults, who are often targeted for forced labor.\8\

                     TRENDS IN THE PAST FIVE YEARS

    China's Ministry of Public Security reports that efforts to 
combat human trafficking have led to a decline in some forms of 
trafficking, but that there has also been an increase in other 
forms of trafficking that have not received as much attention, 
such as using trafficking victims to perform forced labor.\9\ 
As the U.S. State Department reports in its annual review of 
global human trafficking, China ``is a source, transit, and 
destination country'' for human trafficking.\10\ Domestic 
trafficking continues to comprise the majority of trafficking 
cases in China. Women and children, who make up 90 percent of 
the cases, are trafficked from poorer provinces to more 
prosperous provinces on the east coast.\11\ Some experts note 
that the Chinese government's attention to human trafficking 
for commercial sexual exploitation appears to be uneven, with 
far greater concern shown towards the internal trafficking of 
Chinese girls and women and little concern over foreign girls 
and women who are trafficked into China or who enter China 
voluntarily but are subsequently trafficked. Many of these 
women are from Vietnam, North Korea, and Mongolia, among other 
countries, and are treated as immigration violators who are 
detained and subsequently repatriated.\12\
    There have also been increases in the number of cross-
border trafficking cases and, especially between 2004 and 2006, 
an increase in the number of infant trafficking cases.\13\ The 
rising number of infant trafficking cases in China reflects 
many factors, such as China's population planning policies, 
economic disparity, and a lack of awareness among the general 
public [see Section II--Population Planning]. Most of the 
infants who have been rescued were male, but the increased 
demand for children has reportedly driven traffickers to 
traffic females as well.\14\ Some of the cases involved social 
service organizations buying infants that had been abducted, 
and selling them to adoptive families at marked-up prices, as 
well as traffickers buying infants from private medical clinics 
and other social service organizations and selling them to 
buyers elsewhere.\15\ In 2007, the U.S. State Department placed 
China on its Tier Two Watch List for the third consecutive year 
due to the Chinese government's failure to show evidence of 
efforts to improve comprehensive victim protection services and 
to address trafficking of persons for forced labor.\16\

                   INTERNATIONAL LAWS AND OBLIGATIONS

    The Chinese government ratified the UN Convention against 
Transnational Organized Crime on September 23, 2003, but still 
has not ratified its protocol that addresses trafficking in 
persons. The protocol represents the first global legally 
binding definition of trafficking in persons and aims to 
support international cooperation in investigating and 
prosecuting cases and in protecting and assisting victims of 
trafficking.\17\ In addition, China has ratified the Convention 
to Eliminate All Forms of Discrimination against Women and the 
Convention on the Rights of the Child, which further legally 
bind the Chinese government to suppress and prevent the 
abduction and trafficking of women and children.\18\

      DOMESTIC EFFORTS TO COMBAT HUMAN TRAFFICKING AND CHALLENGES

    Central and local governments have taken steps to combat 
trafficking within the past five years, but these initiatives 
remain inadequate to effectively address the root causes of 
human trafficking and forms of trafficking such as forced 
labor. For example, Article 39 of the Law on the Protection of 
Women's Rights and Interests (LPWRI), which was amended in 
2005, expanded the number of organizations responsible for 
preventing trafficking in women and rehabilitating victims, 
including local women's federations and local public security, 
labor, social security, and health bureaus.\19\ The central 
government announced in 2007 that it will establish a national-
level anti-trafficking coordinating mechanism that aims to 
strengthen interagency cooperation, as at least seven agencies 
currently have regulatory responsibilities to combat 
trafficking.\20\
    The 2003 and 2004 Commission Annual Reports noted that the 
central government initiated several short-term ``Strike Hard'' 
campaigns to punish traffickers and rescue victims.\21\ But 
these campaigns have not proven to be effective instruments 
that address the causes of trafficking, nor do they introduce 
administrative and legal mechanisms to combat future 
trafficking operations. ``Strike Hard'' campaigns have also 
been characterized by extensive violations of criminal 
procedure rights.\22\ Some provincial and municipal governments 
have localized efforts to combat trafficking by creating short-
term rehabilitation centers, and increasing public awareness 
efforts that inform people of their legal protections and 
resource options.\23\ For example, Sichuan provincial public 
security officials have created informational fliers, public 
service announcements, and pamphlets that explain legal 
protections, resources, and hotline numbers that are aimed at 
migrant workers and other workers who are most at risk.\24\ In 
addition, within the past year, Yunnan provincial authorities 
held a media outreach seminar to raise awareness among 
journalists of anti-trafficking strategies, victim protection, 
and relevant legislation.\25\
    These preliminary steps are positive, but local governments 
need to expand them to include more comprehensive victim 
rehabilitation services such as psychological counseling and 
long-term care. While there are currently legal prohibitions 
against some types of human trafficking, these protections do 
not prohibit forms of trafficking such as debt bondage or 
commercial sexual exploitation that involves coercion or 
fraud.\26\ Another hurdle is the difficulty central government 
officials face in compelling local law enforcement officials to 
aggressively pursue cases that cross jurisdictional boundaries, 
especially as more trafficking cases take place across 
provincial and national borders.\27\ For example, U.S. experts 
have noted that ``local Party dominance over law enforcement 
creates powerful 
incentives for local police departments to neglect their 
responsibilities to share crime-related data and intelligence 
with other jurisdictions.'' \28\

                       INTERNATIONAL COOPERATION

    Central and local governments have increased cooperation 
with other countries to investigate and prosecute trafficking 
cases involving women and children. In particular, the Chinese 
government has discussed trafficking in persons with the United 
States as part of the bilateral China-U.S. Global Issues Forum, 
and has worked to improve its cross-border prosecution efforts 
with such countries as Vietnam.\29\ China is also actively 
cooperating with international organizations such as the 
International Labor Organization, the International 
Organization for Migration, and the United Nations Interagency 
Project on Human Trafficking in the Greater Mekong Sub-region 
on programs to prevent and combat human trafficking.\30\ The 
Chinese government has prepared a National Plan of Action to 
address the trafficking of women and children, which it still 
has not adopted.\31\ A September 4, 2007, China Daily article 
noted that the government hopes to adopt the national action 
plan by the end of 2007.\32\

                     North Korean Refugees in China

    In 2006-2007, China continued to fail in its obligations to 
the thousands of North Korean refugees who crossed its 
northeastern border to escape North Korea's chronic food 
shortages and political oppression. While an accurate estimate 
of the size of this underground population is probably not 
possible, in recent years the U.S. State Department and several 
NGOs have estimated that 20,000 to 50,000 North Koreans 
currently are hiding in northeastern China. Chinese civilian, 
law enforcement and military experts speaking in 2005-2006 
typically cited an estimate of 30,000 to 50,000.\1\ An October 
2006 report by the International Crisis Group surveyed the 
opinions of many NGO experts and reached an estimate that the 
total number of North Korean refugees residing on Chinese soil 
is approximately 100,000.\2\ As noted by the State Department's 
2007 Trafficking in Persons (TIP) report, these refugees, many 
of whom are women, are unable to work legally in China. Thus, 
many of them are highly vulnerable to being kidnapped by 
traffickers:

        The illegal status of North Koreans in the People's 
        Republic of China (P.R.C.) and other Southeast Asian 
        countries increases their vulnerability to trafficking 
        schemes and sexual and physical abuse. In the most 
        common form of trafficking, North Korean women and 
        children who voluntarily cross the border into P.R.C. 
        are picked up by trafficking rings and sold as brides 
        to P.R.C. nationals, usually of Korean ethnicity, or 
        placed in forced labor. In a less common form of 
        trafficking, North Korean women and girls are lured out 
        of North Korea by the promise of food, jobs, and 
        freedom, only to be forced into prostitution, marriage, 
        or exploitative labor arrangements once in P.R.C.\3\

    The U.S. State Department reports that during 2006 
``several thousand North Koreans were reportedly detained and 
forcibly returned to North Korea.'' \4\ To encourage these 
repatriation efforts, central government authorities assign 
local public security bureaus in northeastern China a target 
number of North Koreans that they must detain in order to 
receive favorable work evaluations.\5\ To persuade civilians in 
these areas not to assist the refugees, the government also 
provides financial rewards to citizens who reveal the 
locations of refugees.\6\ By employing these incentive and 
punishment systems on citizens to turn these refugees in, China 
deliberately undermines its own international legal obligations 
to 
refrain from repatriating North Koreans and further deters its 
citizens from supplying humanitarian assistance. In the past 
several years, the government has reportedly built new 
detention centers along the Chinese-Mongolian border and the 
Chinese-North Korean border in order to accommodate more North 
Koreans before it repatriates them.\7\
    By returning these refugees to the DPRK , China is in 
contravention of its obligations under the 1951 Convention 
relating to the Status of Refugees (1951 Convention) and its 
1967 Protocol (Protocol). Under the 1951 Convention and its 
Protocol, no contracting state may ``expel or return 
(`refouler') a refugee in any manner whatsoever to the 
frontiers of territories where his life or freedom would be 
threatened on account of his race, religion, nationality, 
membership of a particular social group or political opinion.'' 
\8\
    The Chinese government classifies all North Koreans who 
enter China without documents as illegal economic migrants 
without making any effort to determine whether or not they are 
refugees, and claims that it must return them to the DPRK. In a 
June 19, 2007, press conference Ministry of Foreign Affairs 
press spokesperson Qin Gang repeated China's longstanding 
insistence that these migrants ``came to China for economic 
reasons and they are not `refugees' at all.'' \9\ In addition, 
the Chinese government bases its policy of repatriating North 
Koreans on a 1961 treaty with the DPRK and a series of 
protocols on border management signed by the two countries in 
1986 and 1998.\10\ But China is also obligated under Article 3 
of the Convention Against Torture not to forcibly return any 
person to another state where there are substantial grounds for 
believing that he or she would be in danger of torture.\11\ 
Under the general international legal principle of non-
derogation, China's bilateral commitments with the DPRK should 
not supersede China's international obligations under the 1951 
Convention, its Protocol, and the Convention Against 
Torture.\12\
    Moreover, the treatment these refugees receive upon their 
repatriation to the DPRK provides more than ample evidence that 
they satisfy the definition of refugees under international 
law. The 1951 Convention defines a refugee as someone who, 
``owing to well-founded fear of being persecuted for reasons of 
race, religion, 
nationality, membership of a particular social group or 
political opinion, is outside the country of his nationality 
and is unable or, owing to such fear, is unwilling to avail 
himself of the protection of that country.'' \13\ In a 2005 
report, the UN Special Rapporteur on Human Rights in North 
Korea noted that even North Koreans who have crossed into China 
for reasons of livelihood are nevertheless ``refugees sur 
place,'' a designation for those who ``did not leave their 
country of origin for fear of persecution, but who fear 
persecution upon return.'' \14\
    The DPRK government imprisons, tortures, and executes 
repatriated North Koreans, and has increased the punishment for 
border crossers since late 2004. Article 233 of the amended 
North Korean Penal Code provides for up to two years' 
imprisonment for citizens who leave the DPRK without 
permission, and Article 62 provides for no less than five 
years' imprisonment for defectors, and life imprisonment or 
execution for defectors deemed to have committed ``an extremely 
grave offense.'' \15\ According to international NGOs, North 
Koreans are considered to have committed a more serious 
offense, and are punished more harshly, if they have converted 
to Christianity or have met with Christian missionaries, South 
Koreans, or other foreigners while in China.\16\ In late 2004, 
the North Korean government changed its policy toward 
repatriated border crossers to increase prison sentences from 
several months to several years and to detain them in regular 
prisons, which have harsher regimes, rather than labor 
camps.\17\ Defector testimonies document cases of beatings, 
forced labor, lack of food and medicine, degrading treatment, 
torture, and execution.\18\ Pregnant female defectors have 
reportedly been subjected to forced abortions under poor 
medical care. According to a South Korean Bar Association 
study, defectors have also reported witnessing North Korean 
authorities carry out forced abortions.\19\
    The Chinese government blanketly asserts that North Korean 
migrants are not refugees, and does not permit individual 
petitions for asylum. The government also denies the UN High 
Commissioner for Refugees (UNHCR) and other organizations the 
access needed to evaluate their claims. Chinese guards posted 
outside the UNHCR office and foreign embassies in Beijing block 
access to North Koreans who seek to present refugee 
petitions.\20\ The government's failure to allow for a process 
in order to evaluate whether individual North Koreans have 
reason to fear persecution upon return to the DPRK contravenes 
its obligations under the 1951 Convention and its Protocol, as 
identified by the U.S. Committee for Human Rights in North 
Korea: ``Implicit in the Convention--the strict Article 33 
prohibition read together with the multi-pronged Article 1 
refugee definition--is a requirement that states take 
appropriate steps to determine whether an individual is a 
refugee before sending him or her back to possible 
persecution.'' \21\ This refusal of access by the UNHCR also 
contravenes Article 35 of the 1951 Convention.\22\
    The government fines and imprisons Chinese citizens and 
international humanitarian workers who assist North Korean 
refugees, and these penalties have recently been increased. In 
2006, Chinese authorities sentenced Hong Jin-hee, Kim Hong-
kyun, and Lee Soo-cheol, three South Korean citizens and former 
North Korean defectors, to seven, five, and two years' 
imprisonment, respectively, for assisting North Koreans in 
China to seek asylum in a third country. Chinese authorities 
detained Kim and Lee in Beijing in October 2004, and Hong in 
Shenyang in November 2004, and have held the three without 
trial until their sentencing in 2006.\23\ In November 2006, 
authorities in Yantai city, Shandong province, released on 
parole Choi Yong-hoon, a South Korean citizen imprisoned for 
assisting North Koreans in China to seek asylum in South Korea, 
after Choi served 3 years and 11 months of his 5-year 
sentence.\24\
    The Chinese government is reportedly in the final stages of 
drafting a Regulation on the Administration of Refugees.\25\ A 
June 2007 report in the official People's Daily said that ``the 
government draft national refugee regulation [is] now in its 
final phase,'' but that ``[i]t is unclear when the draft will 
be submitted to the State Council for final review and 
approval.'' The report also mentions the UNHCR role in 
``helping . . . [to] draft'' the regulation.\26\ In March 2006, 
the UNHCR said that his office would be involved in insuring 
that the regulation is in compliance with international 
law.\27\ The drafting process for these regulations provides 
Chinese officials with an opportunity to carry out a long 
overdue reassessment of their refugee policies to make them 
accessible and transparent, providing every refugee with a 
chance for a legal hearing and an appeal if necessary.

                                 Health


                             MENTAL HEALTH

    In December 2006, the Beijing Municipal People's Congress 
issued a new Regulation on Mental Health. On its face, the new 
regulation prohibits local police from arbitrarily detaining 
the city's mentally ill as Beijing prepares to host the 2008 
Summer Olympic Games.\1\ Under the new regulation, which went 
into effect in March 2007, public security officials may remove 
a mentally ill person to a mental health center only if that 
person ``harms or poses a serious threat to public safety, a 
person's life, or property.'' \2\ The precise meaning of these 
words and how they are to be interpreted remain unclear.
    The new regulation requires that at least two mental health 

doctors make determinations of medical necessity for 
involuntary hospital admission. It also provides for review of 
involuntary admission by a review body. On these points the 
regulation is not dissimilar from the UN Principles for the 
Protection of Persons with Mental Illness and for the 
Improvement of Mental Health Care.\3\ However, while the UN 
Principles provide that the review body complete its review 
``as soon as possible'' and ``in accordance with expeditious 
procedures,'' the Beijing regulation requires that the review 
be completed ``within three months''--a period of time that 
could accomplish the purpose of removing persons from the 
streets for the duration of the 2008 Olympic Games (August 8-
24, 2008) or longer, without violating the letter of the 
law.\4\

                                HIV/AIDS

    Many international experts concur that over the past five 
years, the Chinese central government's policies to combat the 
spread of HIV/AIDS have, in general, progressively 
strengthened. On this issue of importance to China's leaders, 
however, the government's worries about uncontrolled citizen 
activism and foreign-affiliated nongovernmental organizations 
(NGOs) have limited their policies potential effectiveness. 
During its best periods, the government has developed a set of 
policies and laws and committed funding, and in limited but 
important ways engaged international groups and its own NGO 
community. China's HIV/AIDS policy has also demonstrated 
unusual openness to working with marginalized communities such 
as migrant workers, the homosexual community, women and men 
used in prostitution, and drug users. Due to these efforts and 
the increase in the use of anti-retroviral drugs, the death 
rate has reportedly decreased in recent years.\5\
    China recorded its first AIDS case in 1989,\6\ and by mid-
2002, official Chinese government and UN figures estimated that 
between 1 million to 1.5 million people were infected with 
HIV.\7\ Recent UN figures estimate there are about 650,000 
people living with HIV in China today, but experts believe this 
estimate to be low on account of changes in estimation 
methodology and procedures.\8\ While China is a country with a 
low prevalence of the disease nationwide, health experts say 
the disease is moving into the general population, with most 
new infections being spread sexually, followed by drug use.\9\ 
China reported 18,543 new cases of HIV in the first six months 
of 2007, which is approximately the number of cases for all of 
2006.\10\ Health officials calculate that there were on average 
200 new cases of HIV/AIDS infection in China each day in 
2005.\11\
    In 2007, China announced plans to spend 960 million yuan 
(US$127 million) on anti-retroviral drugs, expand public 
education, and conduct outreach to China's marginalized 
homosexual community.\12\ The government also expanded policies 
to further incorporate foreign governments, international 
companies, grassroots 
organizations, and trade unions in its efforts to combat HIV/
AIDS. In January 2007, the government, along with the 
International Labor Organization and the All-China Federation 
of Trade Unions, initiated a program that made HIV/AIDS 
education available in the workplace.\13\ Privately owned 
Chinese firms are also gradually becoming involved in these 
efforts, often at the request of their foreign business 
affiliates.\14\ In addition, the U.S. Department of Labor 
initiated a $3.5 million grant to support a program that 
focused on migrant workers.\15\
    Nonetheless, while national officials have emphasized the 
importance of combating HIV/AIDS, it is local implementation 
that determines whether national-level commitment and policy 
action produce outcomes of consequence on the ground. 
Implementation remains highly problematic. Fear of the disease 
has led some local officials to harass persons with HIV/AIDS 
and their advocates.\16\ Henan province, where a large number 
of villagers contracted HIV through unsanitary blood collection 
practices in the late 1980s and early 1990s, provides a 
particularly stark example:

        <bullet> In June 2003, public security officials, aided 
        by local residents, raided Xiongqiao village, an ``AIDS 
        village'' in Henan, and destroyed property, assaulted 
        residents, and arrested 13 villagers. Villagers had 
        appealed to local officials to receive previously 
        promised government assistance for AIDS patients.\17\
        <bullet> In May 2004, several people living with HIV/
        AIDS in Henan were detained for more than a week, 
        apparently for seeking 
        assistance from provincial officials to compel local 
        officials to provide promised assistance.\18\
        <bullet> In 2005, a U.S. NGO reported the violent 
        closure of a privately run orphanage for children with 
        AIDS in Henan, and another U.S. group noted that local 
        officials in Henan have organized militias to prevent 
        journalists and NGO observers from visiting AIDS 
        patients.\19\
        <bullet> In November 2005, public security officials 
        detained activist Hu Jia, co-founder of two HIV/AIDS 
        advocacy groups, when he attempted to deliver a 
        petition on behalf of more than 50 AIDS patients to 
        Vice Premier Wu Yi at a November 2005 AIDS 
        conference in Henan. Citing government pressure, Hu 
        subsequently resigned in February 2006 from one of the 
        groups, Loving Source, and is currently under 
        residential surveillance.\20\
        <bullet> In November 2006, public officials detained 
        HIV/AIDS advocacy group leader Wan Yanhai, forcing him 
        to cancel a conference on AIDS, blood-transfusion 
        safety, and legal human rights.\21\
        <bullet> In February 2007, public security officials in 
        Zhengzhou city, Henan, placed AIDS activist and doctor 
        Gao Yaojie under surveillance at her home in an attempt 
        to prevent her from traveling to the United States to 
        accept a human rights award.\22\ Central government 
        officials intervened, and Gao was subsequently granted 
        permission to travel to the United States to receive 
        the 2007 Vital Voices Global Women's Leadership Award 
        for Human Rights on March 14.\23\

    The depth of the crisis is only magnified by official 
corruption. In July 2007, the Ministry of Health (MOH) 
announced the removal of a director of a Guangdong province 
blood center as a result of his involvement in illegal blood 
sales and noted that six other people had received sentences of 
between 6 and 18 months for helping individuals repeatedly sell 
their blood using fake identity cards.\24\ In the hopes of 
reducing illegal blood trade activity, the MOH has announced 
that blood collection centers are required by the end of 
October 2007 to set up equipment to videotape plasma 
collections.\25\
    A government advisor on AIDS policy has expressed concern 
that China's efforts to combat the disease have stalled and 
that funding, which in 2006 was 3 billion yuan (US$388 
million), remains inadequate.\26\ The government's commitment 
to provide care to specific subpopulations, such as children 
orphaned as a result of AIDS and ethnic minorities infected 
with HIV, appears to be wavering.\27\ Sensitive issues, such as 
compensation for rural residents in central provinces who 
contracted HIV from the sale of blood, have hindered broader 
efforts to combat HIV/AIDS.\28\
    At the local level, an overburdened, underfunded healthcare 
system makes it difficult for governments to provide the 
necessary prevention and treatment programs. Many programs lack 
sufficient numbers of qualified doctors to properly administer 
anti-retroviral drugs and to help patients maintain needed 
treatment, with the result that many patients simply drop out 
of the programs. Public education and awareness efforts have 
not fully succeeded: 66 percent of China's population 
reportedly continues to be unaware of how to protect themselves 
against HIV.\29\ AIDS patients have also been discriminated 
against and denied treatment at hospitals.\30\

         WIDESPREAD DISCRIMINATION AGAINST HEPATITIS B CARRIERS

    China has a high rate of hepatitis B virus (HBV) infection, 
with 120 million carriers of the virus, who make up 
approximately 30 percent of the 400 million HBV carriers in the 
world.\31\ Only 70 percent of China's population has been 
vaccinated for the disease. In an attempt to reduce hepatitis B 
infection, the Ministry of Health (MOH) issued the 2006-2010 
National Plan on Hepatitis B Prevention and Control, with the 
top priority of strengthening vaccination programs, especially 
among young children. The goal is to lower the infection rate 
to 1 percent among those five years old and younger, and to 
less than 7 percent nationwide by 2010.\32\
    Until 2004, there were no national laws protecting HBV 
carriers from discrimination in the workplace, and some central 
and local governments prohibited the hiring of people with 
certain varieties of the disease.\33\ In April 2003, when 
university student Zhou Yichao was denied a public service job 
because he was an HBV carrier, he stabbed two officials in 
Zhejiang province, killing one. Zhou was later sentenced to 
death on murder charges.\34\ This incident helped to spark 
discussion over the treatment of HBV carriers. In November 
2003, HBV carrier Zhang Xianzhu of Anhui province successfully 
sued a government personnel office, complaining that his job 
application had been unjustly rejected. A court held in April 
2004 that the personnel office applied the regulation 
incorrectly, but did not invalidate the regulation itself, and 
also denied Zhang's request to be reconsidered for the civil 
service position, noting that the recruitment season had 
already ended.\35\ This was the first partially successful 
administrative lawsuit regarding discrimination against HBV 
carriers in the workplace.
    In 2004, the National People's Congress (NPC) Standing 
Committee amended the Law on the Prevention and Control of 
Infectious Diseases to prohibit discrimination against persons 
with 
infectious diseases, persons carrying a pathogen of an 
infectious disease, and persons suspected of having an 
infectious disease.\36\ In January 2005, the Ministry of 
Personnel and the MOH revised 
national standards to allow HBV carriers who do not exhibit 
symptoms of the disease to apply for employment with the 
government.\37\
    Yet discrimination against HBV carriers remains widespread. 
Even though experts and Chinese officials have publicly stated 
that hepatitis B is not infectious in most work and school 
situations, many people believe that it is and refuse to hire 
HBV carriers or interact with them on those grounds.\38\ A 2005 
China Foundation for Hepatitis Prevention and Control survey, 
covering 583 hepatitis B patients in 18 provinces, found not 
only that a majority of Chinese physicians do not have adequate 
knowledge of hepatitis B or of ways to prevent and treat the 
disease, but also that 52 percent of the respondents had faced 
discrimination in employment and education.\39\ In November 
2005, two universities in the Xinjiang Uighur Autonomous Region 
(XUAR) suspended 156 students, diagnosed as hepatitis B 
positive in their matriculation medical examinations, from 
their studies for a year.\40\ Students formed an action group 
and distributed fliers to protest this decision, and one 
student filed the first hepatitis B discrimination lawsuit in 
the XUAR against her university, Xinjiang Agricultural 
University.\41\ The student eventually withdrew her case as 
university authorities allowed her to resume her studies amid 
widespread media coverage, and support from NGOs and concerned 
individuals.\42\ As of December 2006, the other students were 
reportedly still not able to return to school.\43\
    In September 2006, Urumqi municipal education officials in 
the XUAR expelled 19 high school students who had tested 
positive for hepatitis B.\44\ After first attempting to 
petition local government bureaus, seven families later filed a 
lawsuit against the municipal education bureau, with the hope 
that the students would be allowed to continue their 
education.\45\ The Urumqi Tianshan District People's Court 
postponed the hearing date on several occasions until it 
announced on November 20 that the families had withdrawn their 
case. The families' lawyer and a NGO that works on hepatitis B 
issues believe that the case was dropped due to pressure from 
local officials and employers.\46\ In addition, public security 
officials forced Snow Lotus, an unregistered NGO based in the 
XUAR, to close in October and discontinue its work for 
reportedly drafting open letters on behalf of the students and 
breaking the story to the media.\47\ [See Section III--Civil 
Society for more information on this case.] Local education 
officials maintain that the students were expelled in order to 
protect other pupils, yet central officials and experts have 
condemned the expulsion.\48\ According to Mao Qun'an, a MOH 
representative, ``This is prejudice. All these students can go 
to school unless they are sick enough to be hospitalized.'' 
\49\
    Most recently, a 2007 survey on health discrimination in 
the workplace found that 49 percent of respondents would be 
unwilling to work with HBV carriers, and 55 percent noted that 
they would not hire HBV carriers.\50\ Employer screening for 
HBV remains common, especially in cities.\51\ A Chinese job 
applicant filed a lawsuit against Nokia in March 2007, alleging 
that its China branch denied him employment after he underwent 
a company medical examination and was found to be a HBV 
carrier.\52\ The applicant is claiming 500,000 yuan (US$66,613) 
in emotional damages in what is reportedly the first hepatitis 
B discrimination case against a foreign multinational company 
in China.\53\ The Dongguan People's Court accepted the case in 
May, and court proceedings began on August 15 and concluded 
with a decision by the judge to select a retrial date.\54\ At 
press time, the court has yet to publicly issue a decision or a 
retrial date. In some online forums, there is active discussion 
of this case, as well as other cases of discrimination against 
HBV carriers.\55\
    In May 2007, the MOH and the Ministry of Labor and Social 
Security issued a non-legally binding opinion to protect the 
employment rights of HBV carriers, including a prohibition 
against mandatory HBV screening for job applicants, except for 
those positions that were previously designated as forbidden 
for HBV carriers.\56\ On August 30, 2007, the NPC Standing 
Committee adopted the Employment Promotion Law, which 
stipulates provisions that could benefit HBV carriers seeking 
employment.\57\ For example, Article 30 of the new law 
prohibits employers from refusing to hire applicants on the 
grounds that they carry infectious diseases, except for those 
industries barred to formally certified infectious disease 
carriers because of the possibility that they might spread the 
disease, and Article 62 allows workers to file a lawsuit 
against employers who violate provisions of the new law and 
discriminate against employees.\58\ Without the concurrent 
creation of effective programs to raise public awareness of how 
the disease is spread, incentives for local implementation, and 
a clear and comprehensive definition of discrimination,\59\ the 
impact of these regulatory measures remains to be seen.\60\

      STATE CONTROL OF INFORMATION RELATING TO SARS AND AVIAN FLU

    In July 2007, military officials denied Dr. Jiang Yanyong 
permission to travel to the United States to receive a human 
rights award. Dr. Jiang had previously informed foreign media 
of government attempts to cover up the SARS outbreak in 
2003.\61\ In addition, Chinese laws still require journalists 
to get advance approval before publishing public health 
information about broad categories of diseases classified as 
``state secrets.''
    Chinese public health officials sought to improve their 
ability to prevent and control the spread of avian flu by 
improving the flow of information between lower officials and 
higher officials following the mishandling of the SARS epidemic 
in 2003. The State Council issued regulations in November 2005 
requiring provincial governments to report ``major'' animal 
epidemics to the State Council within four hours of discovering 
them, and county and city governments to report cases to 
provincial authorities within two hours. Officials who are 
found negligent in reporting outbreaks face removal from office 
and potential prosecution.\62\
    Such laws allow for improved internal channels of 
information but do not necessarily guarantee free flow of 
information to the public. The Law on the Protection of State 
Secrets and implementing regulations in the area of public 
health continue to serve as a hindrance to the free flow of 
information on public health matters. For example, the 
Regulation on State Secrets and the Specific Scope of Each 
Level of Secrets in Public Health Work, issued in 1996, 
categorize as state secrets information on large-scale 
epidemics of viral hepatitis and other diseases that has not 
been authorized for public disclosure by the government.\63\ A 
new national Regulation on the Public Disclosure of Government 
Information, issued in April 2007, contains provisions that 
require agencies to disclose information on public health 
supervision and sudden emergencies, but these ``state secret'' 
exceptions remain in place.\64\ [See Section II--Freedom of 
Expression.]

                        HEALTHCARE SYSTEM REFORM

    During the 1980s, the government abolished its previous 
rural healthcare system, which was based on village clinics 
staffed by ``barefoot doctors'' and financed by cooperative 
insurance.\65\ The government did not replace the previous 
system with a new rural cooperative medical system until 
2003.\66\ From 1977 to 2002, the number of doctors in rural 
China decreased from 1.8 million to 800,000, and the number of 
rural healthcare workers decreased from 3.4 million to 
800,000.\67\ Eighty percent of medical resources are now 
concentrated in cities.\68\ The rural-urban disparity is also 
apparent in mortality statistics. Residents of large cities in 
China live 12 years longer than rural residents, and the infant 
mortality rate in some rural areas is nine times higher than in 
large cities.\69\

                            Urban Healthcare

    The government established a public health insurance 
program for employed urban residents in 1998, and by the end of 
2006, 
approximately 160 million out of the country's 500 million 
urban residents received coverage.\70\ In July 2007, Premier 
Wen Jiabao announced plans to establish a national health 
insurance program to cover all urban residents, including 
children, the elderly, and the uninsured, over the next three 
years. The central government has selected 79 cities to launch 
pilot programs by the end of September 2007.\71\ In order to 
improve community-level medical services in urban areas, large 
city hospitals will provide facility and staff support to 
community health clinics, and a data-sharing system will be 
established.\72\

                            Rural Healthcare

    Under China's Rural Cooperative Medical System (RCMS), a 
farmer and each family member that participates in the system 
pays an average premium of 10 yuan (US$1.25) each year into a 
personal medical care account, with governments at all levels 
subsidizing an additional 40 yuan (US$5) on average.\73\ 
Participants may have up to 65 percent of their healthcare 
costs reimbursed, but are required to first pay such costs out 
of pocket.\74\ The scope of the RCMS's coverage, and government 
spending on healthcare, has increased in recent years. The 
government reported that the number of counties covered by the 
RCMS increased from 687 pilot counties in 2005 to 1,451 
counties (50.7 percent of China's rural areas) at the end of 
2006.\75\ Prior to implementation of the RCMS, the percentage 
of rural residents with health insurance coverage reportedly 
reached a low of 7 percent in 2002.\76\ After the RCMS was 
introduced in 2003, the government reported that coverage had 
increased to 51 percent by February 2007.\77\ The amount of 
money the central government has announced it plans to spend on 
rural healthcare also increased from 2.073 billion yuan (US$252 
million) in 2004 to 5.8 billion yuan (US$750 million) in 2006, 
and reportedly to 10.1 billion yuan (US$1.33 billion) in 
2007.\78\ Since the establishment of the RCMS, some areas have 
reported increases in the number of hospitalized patients and 
in the amount of revenue for local clinics.\79\

                       Rising Cost of Healthcare

    Some senior Chinese officials and scholars have questioned 
the fairness and efficiency of the medical and healthcare 
system. The poorest residents in rural areas frequently do not 
enroll in the cooperatives because they cannot afford the 
required fee. As many as 50 percent of farmers who fall ill do 
not seek healthcare for economic reasons, and half of all 
children who die in rural areas had not received medical 
treatment.\80\ For rural participants especially, the 
reimbursement level remains inadequate. The average 
reimbursement rate is 27.5 percent, determined in part by the 
specific disease and the local government's budget.\81\ Many 
counties and townships do not have the financial resources to 
supply their portion of the fund. In addition, rural clinics 
are poorly funded and lack adequate medical personnel and 
equipment.\82\
    High medical costs have become the top concern of Chinese 
citizens, according to a 2006 Chinese Academy of Social 
Sciences survey on ``Problems that Affect Social Harmony and 
Stability,'' with medical expenses comprising 11.8 percent of 
an average family's total annual spending.\83\ There has also 
been an increase in violent attacks on doctors and hospital 
personnel as citizens protest rising costs, medical errors, and 
declining professional ethics.\84\ In 2006, hospitals reported 
9,831 cases of violence, more than 200 million yuan (US$25.6 
million) in damages to hospital facilities, and 5,519 medical 
personnel injuries, an increase from 5,093 cases of violence, 
67 million yuan (US$8.8 million) in damages, and 2,600 medical 
personnel injuries in 2002.\85\
    To address some of these issues, the Ministry of Health 
relocated approximately 5,500 doctors and nurses from urban 
areas to rural areas in 2007 to treat rural patients and train 
local medical personnel.\86\ In addition, the central 
government has set a goal of renovating 22,000 village clinics, 
1,300 county-level general hospitals, 400 county-level 
traditional or ethnic minority hospitals, and 950 county-level 
maternity and childcare institutes by 2010, and has pledged 
more than 20 billion yuan (US$2.5 billion) for the task.\87\

                              Environment


                              INTRODUCTION

    China's leaders acknowledge the severity of their country's 

environmental problems, and the Chinese government has taken 
steps to curb pollution and environmental degradation. For 
example, the central government has developed an expansive 
framework of environmental laws and regulations to combat 
environmental problems. Nonetheless, effective implementation 
remains systemically hampered by noncompliance at the local 
level and administrative structures that prioritize the 
containment of ``social unrest'' and the generation of revenue 
over environmental protection.
    Just as China's environmental policies have not kept pace 
with the country's severe environmental degradation, neither 
have they kept pace with citizens' aspirations for, and 
increasingly vigorous expression of concern over, environmental 
health and human rights. During 2007, China's citizens 
confronted environmental public policy with an increasing 
propensity, not only to voice intense dismay with government 
and industry, but also to turn to petitions and mass protests, 
and to some extent to the courts, in order to pressure public 
officials for greater environmental accountability, 
enforcement, and protection.
    Participation in environmental protests has risen in the 
last two years, particularly among middle-class urban 
residents. Their participation is significant because, until 
recently, public protest related to environmental issues was 
concentrated in rural areas and thought to be a more remote 
concern for urban elites. Official responses to environment-
related activism have included crackdowns on the free flow of 
information, and the suppression of citizen protest. In part 
because these strategies target potential allies instead of 
engaging them, further environmental degradation may require 
China's leaders to confront the ways these strategies diminish 
their capacity to exercise effective environmental leadership 
over the long run.

    ENVIRONMENTAL DEGRADATION AND PUBLIC FRUSTRATION WITH OFFICIAL 
                               RESPONSES

    Rapid economic growth without effective environmental 
safeguards has led to severe environmental degradation, with 
water, air, soil, and other forms of pollution threatening 
public health and quality of life. Poor soil and water 
conservation practices and government inattention to polluting 
industries exacerbate these problems. Many Chinese citizens 
suffer from respiratory diseases, and the State Environmental 
Protection Administration (SEPA) estimated that there are 
approximately 358,000 premature deaths each year due to air 
pollution.\1\ Acid rain affects about one-third of the 
country.\2\ Deforestation and erosion leading to loss of arable 
land, landslides, and sedimentation of waterways are 
widespread.\3\ Water pollution and poor conservation practices 
have led to water shortages in many areas, leaving millions in 
urban areas, and one-third of the rural population without 
access to clean drinking water.\4\
    The Chinese government acknowledges the severity of China's 
environmental problems. The State Council's White Paper on 
``Environmental Protection (1996-2005),'' issued in June 2006, 
notes that ``the contradiction between economic growth and 
environmental protection is particularly prominent'' as the 
``relative shortage of resources, a fragile ecological 
environment, and insufficient environmental capacity are 
becoming critical problems hindering China's development.'' \5\ 
Senior government officials also acknowledge the public protest 
that severe environmental degradation could prompt.\6\ A U.S. 
expert has observed that environmental degradation and 
pollution ``constrain economic growth, contribute to large-
scale migration, harm public health, and engender social 
unrest.'' \7\ According to official Chinese estimates, 
environmental degradation and pollution cost China an estimated 
8 to 12 percent of annual gross domestic product (GDP), and the 
number of mass protests over pollution has increased by 29 
percent per year in recent years.\8\
    China has taken steps to curb pollution and environmental 
degradation. In both its 10th (2001-2005) and 11th (2006-2010) 
Five-Year Plans, the government formulated or revised 
environmental protection laws, administrative regulations, and 
standards, and has worked to strengthen enforcement of anti-
pollution rules.\9\ In addition, SEPA and the Ministry of 
Health (MOH) are working together to facilitate the sharing of 
information resources, and to develop a national action plan 
and implementation measures on environmental health.\10\ As 
described below, for some incidents that have captured public 
attention, central and local governments have imposed 
administrative penalties on polluters and public officials 
responsible for enforcement failures.
    Nonetheless, although the central government has issued 
numerous environmental laws and programs, effective 
implementation has been beset by problems that are fundamental 
and widespread. Local environmental protection bureaus (EPBs) 
depend on local governments for resources and funding, and 
submit to political control by local Party Committees. In part 
because local governments (and some officials) derive income 
from local enterprises, some local EPBs receive pressure to 
engage in weak or selective enforcement. Even without such 
pressure, officials in underfunded EPBs have incentives to 
permit polluting enterprises to continue operating in order to 
preserve revenue used to finance their bureau's operating 
deficits. Shortages of well-trained environmental personnel, 
loopholes in the law, and weak interagency coordination 
contribute to an incentive structure that favors economic 
growth over the rigorous implementation and enforcement of 
environmental protection measures.\11\
    China's serious air, water, and soil pollution problems 
have emerged in recent years as one of the country's most 
rapidly growing sources of citizen activism. For example, 
SEPA's Minister Zhou Shengxian stated in July 2007 that the 
number of citizen petitions received by SEPA in the first five 
months of 2007 grew by 8 percent over the same period in 2006. 
Moreover, the number of pollution-related ``mass incidents'' 
(China's official term for protests) 
increased during a year when officials claimed that overall 
mass incidents decreased significantly.\12\ These numbers 
reflect, in part, Chinese citizens' willingness, prompted by 
rapidly rising frustration with the government's failure to 
rein in environmental degradation, to stand up for the 
environment, and for their rights.\13\
    In its 2006 Annual Report, the Commission reported that 
central government officials delayed some of the proposed 
hydroelectric dams on the Nujiang (Nu River) in response to 
environmental concerns from civil society groups.\14\ As of 
February 2007, some villagers have already been resettled in 
advance of the Liuku dam, one of four approved dams, and there 
have been concerns over inadequate relocation compensation.\15\ 
Local residents around the site of the proposed Lushui dam, 
which has not been approved, have observed laborers engaging in 
survey work on the dam. Other villagers have limited knowledge 
of the proposed dams being built in their vicinity.\16\ This 
continued lack of transparency limits public involvement and 
violates the government's own environmental protection laws and 
policies.\17\
    In a nationwide campaign that inspected 720,000 enterprises 
in 2006, the government reported that 3,176 polluting 
enterprises had been closed, and SEPA reported 161 pollution 
accidents in 2006.\18\ Administrative litigation and 
administrative reconsideration remain avenues for environmental 
dispute resolution and private enforcement, but attention in 
2006-2007 turned to a rise in the form of ``high-impact'' 
litigation, particularly in cases involving compensation for 
the health impacts of environmental pollution. Although the 
government prevails in the majority of cases, experts have 
noted that high-impact cases often prompt an official response, 
typically in the form of new administrative rules and Party 
directives, even when plaintiffs lose.\19\
    Promotion of rural officials for a long time has been tied 
to their record of containing social protest. For example, 
``(L)ocal officials will only be promoted to more senior 
positions if they can minimize social unrest in the 
countryside,'' according to a senior Party official.\20\ These 
officials choose either to confront the underlying 
environmental problem or to suppress activists.\21\ Previously, 
experts have noted that rural residents tended more frequently 
than urban residents to engage in ``large-scale'' protests over 
environmental issues.\22\ Events in 2007, however, suggest that 
this impression may now be outdated, as the urban middle class' 
supposed preference for non-confrontational approaches gave way 
to a rise in urban environmental activism. Mass protests in 
Xiamen over the construction of a chemical plant in June 2007 
and protests shortly thereafter in Beijing over the building of 
a garbage incineration power project signal some of the first 
large-scale protests in urban areas by middle-class citizens 
over environmental pollution. These protests are significant 
because they suggest that middle-class urban residents regard 
alternative methods for pollution prevention and health 
preservation as inadequate.
    Chinese citizens concerned with environmental issues are 
increasingly organized. There are now an estimated 4,000 
registered and unregistered environmental nongovernmental 
organizations (NGOs) nationwide.\23\ In recent years, these 
NGOs have broadened their focus beyond initial efforts at 
public education and awareness to assisting pollution victims 
in pursuing redress through the legal system, and mobilizing 
public participation in and support for environmental 
protection.\24\ SEPA has sought public support for and 
participation in environmental protection work and has, to a 
limited extent, encouraged and supported environmental NGO 
activism. In 2005, SEPA held a public hearing to encourage 
citizen 
interest and NGO activism,\25\ and in February 2006, it 
released two provisional measures on public participation in 
Environmental Impact Assessment (EIA) procedures. These 
measures are the first to contain specific arrangements and 
procedures for public involvement in environmental issues.\26\ 
Since the release of the provisional measures, approximately 43 
projects with a value of 160 billion yuan (US$20.5 billion) in 
investments have been halted for violating EIA procedures.\27\
    In an effort to increase transparency, SEPA issued a 
regulation in April 2007 on environmental information 
disclosure, coinciding with the State Council's issuance of the 
Regulation on the Public Disclosure of Government Information. 
[See Section II--Freedom of Expression.] The SEPA regulation 
lists 17 categories of government information that should be 
made public either through government Web sites, local 
newspapers, or upon request. Firms may voluntarily disclosure 
information in nine categories and are obligated to disclose 
information when they violate standards or cause an 
accident.\28\
    In spite of this apparent support for limited citizen 
activism by SEPA, official efforts to increase control over 
environmental civil society groups during the past two years 
have had a chilling effect on citizen activism. During 2006-
2007, the Commission has observed numerous official actions to 
repress citizen activism and organizers that work on 
environmental or environmental health issues:

        <bullet> Fu Xiancai, who has protested forced 
        resettlement of citizens during the construction of the 
        Three Gorges Dam project, gave an interview with a 
        German television station in May 2006. A public 
        security official interrogated Fu about the interview 
        in June 2006, and shortly thereafter an unidentified 
        assailant attacked Fu. The attack left Fu paralyzed 
        from the shoulders down.\29\ The official investigation 
        into the assault concluded in August 2006 that Fu's 
        injuries were self-inflicted.\30\
        <bullet> Environmental activist Tan Kai was detained in 
        October 2005 for his involvement in the environmental 
        group ``Green Watch'' and was tried in May 2006 on 
        charges of illegally obtaining state secrets. In August 
        2006, Tan was sentenced to 18 months' imprisonment and 
        was reportedly released in April 2007.\31\
        <bullet> After activist Sun Xiaodi was awarded the 
        Nuclear-Free Future Award in December 2006, officials 
        have intensified their harassment efforts. Sun has 
        spent more than a decade petitioning central 
        authorities over radioactive contamination from the No. 
        792 Uranium Mine in the Gannan Tibetan Autonomous 
        Prefecture in Gansu province. Sun has protested illegal 
        mining allegedly carried out by local officials that 
        has resulted in an unusually high rate of cancer and 
        other health problems for residents in the area. In 
        February 2007, Sun traveled to Beijing to seek further 
        medical consultation and treatment of a tumor in his 
        abdominal cavity.\32\ In July 2007, the State 
        Security Bureau in Beijing reportedly ordered Sun to 
        leave Beijing.\33\
------------------------------------------------------------------------
   Case: Human Rights Abuses and Intolerance of Environmental Activism
-------------------------------------------------------------------------
Background
Wu Lihong, a 39-year old sound-proofing equipment salesman turned
 environmental activist, has spent the past 17 years documenting the
 pollution in Taihu (Lake Tai) in his hometown of Yixing city, Zhoutie
 township, Jiangsu province, in the hopes of pressuring local officials
 and factories to stop the pollution and clean up the lake.\34\ Wu
 notes, ``My wish is that the lake will return to the lake of my
 childhood, when the water was safe and we could go swimming in it
 without fear.'' \35\ Wu collects physical evidence of pollution in Lake
 Tai, such as bottles of dirty water illegally discharged from chemical
 enterprises around the area and the local officials whose complicity
 exacerbate the situation, and submits this evidence to provincial- and
 central-level officials through the xinfang (petitioning) system.\36\
In interviews with foreign media in 2006 and early 2007, Wu remarked
 that ``It is shameful that we can't drink from the lake. The chemical
 factories and local government officials should be blamed. I want them
 to admit their responsibility so we will have clean drinking water
 again. . . . The corruption is severe. Some local officials are only
 after profits so they will do anything to protect their interests, even
 if it means flouting environmental standards and allowing polluting
 factories to operate.'' \37\ His strategy of bypassing local officials
 and filing petitions with provincial- and central-level officials
 seemed to have worked in part: more than 200 polluting factories have
 been closed since the mid-1990s. Local officials, such as the director
 of Yixing's EPB, give a different assessment, ``He is only interested
 in filing reports to officials above us. If you want me to commend him
 . . . sorry, I can only say I will not do that.'' \38\
Due to his environmental advocacy efforts, local government officials
 have repeatedly harassed Wu and his family members, even though a panel
 of judges from the People's Political Consultative Conference and the
 National People's Congress named him one of China's top 10
 environmentalists in November 2005.\39\ According to foreign media
 interviews with him and his wife, Xu Jiehua, Wu lost his job after his
 manager was warned by local officials to fire him and in 2003, he was
 beaten on three occasions by local thugs. In addition, his daughter
 reportedly received threats over the phone from anonymous callers, and
 his wife lost her job in 1998, after the chemical factory where she was
 employed closed in response to one of his reports.\40\
Official Mistreatment in 2007
April 13, 2007: Shortly before Wu planned to provide central officials
 in Beijing with new evidence against local officials, Yixing public
 security officials detained Wu, accusing him of blackmail and
 extortion.\41\ Officials at the Yixing Detention Center restricted his
 ability to see his lawyer or family, and his lawyer reported evidence
 of torture when she met with him a month later.\42\
May to June 2007: Outbreaks of green-blue algae in Lake Tai left
 millions of residents in a rush to purchase bottled water. The central
 government's main news agency, Xinhua, largely attributed the outbreaks
 to pollution.\43\ In June, Premier Wen Jiabao ordered a formal
 investigation into the algae growth, noting that despite numerous
 attempts to improve the quality of the water, ``the problem has never
 been tackled at the root.'' \44\ State-controlled media and experts
 criticized local officials for blaming the problem on natural
 conditions, such as a warm climate, and for not taking effective steps
 to control pollution in Lake Tai.\45\
June 2007: The Yixing People's Court charged Wu with blackmail and
 allegedly extorting 55,000 yuan (US$6,875) from enterprises in exchange
 for not exposing them as polluters.\46\ Wu's original trial date was
 scheduled for June 12, but was postponed to allow a medical
 investigation of his wounds in response to a complaint filed by his
 lawyer.\47\
August 10, 2007: The Yixing People's Court sentenced Wu to three years'
 imprisonment for fraud and extortion, and ruled that there was no
 evidence of torture.\48\ Wu was also fined 3,000 yuan (approximately
 US$400) and ordered to return the money he allegedly extorted from
 enterprises.\49\ Xu Jiehua has taken on her husband's cause by suing
 SEPA for naming Yixing a model city. The Yixing People's Court
 reportedly refused to consider the case.\50\
A System of Policy Implementation That Relies on the Abuse of Rights
Even though national leaders have publicly called on China's citizens to
 report misbehavior by members of the Communist Party, Wu Lihong's
 detention and imprisonment underscore the problem that activists are
 not afforded adequate whistleblower protections, but instead are
 singled out for harassment, and left vulnerable to revenge by the
 officials whose malfeasances they bring to light.\51\ Effective
 implementation of China's announced commitment to environmental
 protection requires information, private initiative, and citizen
 leadership.\52\ Wu's imprisonment illustrates the extent to which
 China's leaders have structured political and legal affairs in ways
 that impose risks on citizen activists.
According to Xinhua, the central government demanded that officials
 close several hundred factories near Lake Tai in June 2007. Officials
 also required 20,000 chemical plants in the Lake Tai area to meet
 tougher standards for sulfur dioxide emissions and water pollution.
 Plants that fail to meet the new standards by the June 2008 deadline
 risk suspension or closure. In addition, cities around Lake Tai must
 establish sewage treatment plants and can no longer discharge untreated
 sewage into the lake and rivers in the area. Existing plants must
 install nitrogen and phosphorus removal facilities before the deadline.
 In July 2007, senior provincial officials in Jiangsu instructed local
 officials to make combating pollution in Lake Tai a priority, even if
 it meant a 15 percent decrease in the province's GDP.\53\ At the time
 of this writing, Wu Lihong remains in prison.
------------------------------------------------------------------------

      CHALLENGES OF BUILDING BUREAUCRATIC CAPACITY AND OVERCOMING 
                             OBSTRUCTIONISM

    Local EPBs are frequently unable or unwilling to carry out 
many of the numerous environmental laws and regulations passed 
by the central government. Strengthening local level EPB 
funding and enforcement capacity has been a significant 
challenge. Some local EPB offices rely upon income from fines 
to fund operating budget deficits, which in turn provides 
incentives for lax enforcement of environmental measures.\54\
    China continues to delay publication of its 2005 Green GDP 
report due to bureaucratic wrangling and pressure from local 
governments. The report has already been drafted but has now 
been ``indefinitely postponed.'' The report's release would 
have symbolized growing environmental transparency as it would 
have provided the public and Chinese and international NGOs 
more 
detailed information than the first Green GDP report in 2004. 
The 2004 report sparked controversy by estimating that China's 
economic losses from environmental degradation amounted to 
511.8 billion yuan (US$67.7 billion), or approximately 3.1 
percent of China's entire GDP.\55\ Local governments reportedly 
opposed the 
report's publication because it contained detailed data on 
environmental performance and conditions broken down by 
province.\56\ SEPA and the National Bureau of Statistics also 
reportedly disagreed over what information to include and how 
to disseminate that information.\57\
    The Chinese government reportedly pressured the World Bank 
to remove material from a joint report, including the figure 
that some 750,000 people die prematurely in China each year due 
to air and water pollution.\58\ China's Ministry of Foreign 
Affairs has denied this charge.\59\ Several news accounts 
reported, however, that the Chinese government impugned the 
report's methodology, calling it ``not very reliable,'' and 
voiced concern that it might spark citizen protest if 
released.\60\ SEPA's Vice Minister Zhou Jian noted that ``It's 
a very complex issue to analyze the impact of pollution on 
human health. Without a common scientific methodology in the 
world, any survey on environment and health is not 
persuasive.'' \61\
    In 2007, China finally issued punishments to those found 
responsible for the November 2005 Songhua River benzene spill 
that threatened the Chinese city of Harbin and the Russian city 
of Khabarovsk. As the Commission noted in its 2006 Annual 
Report, the coverup of the Songhua spill demonstrated a lack of 
transparency which, in turn, hampered the government's ability 
to respond to the environmental disaster. In its aftermath, 
despite steps to improve local reporting to higher authorities, 
the central government did not address the larger issue of 
government control over the news media [see Section II--Freedom 
of Expression]. In 
November 2006, the State Council supported administrative 
punishments and Party disciplinary punishments, but no criminal 
prosecutions, for 14 state-owned company and local government 
officials involved in the Songhua incident.\62\ SEPA imposed 
the maximum fine on the state-owned Jilin Petrochemical Company 
as administrative punishment for its role in the incident.\63\ 
Some Chinese experts assert that SEPA's maximum fines are still 
too low to act as an effective deterrent.\64\ A recent draft 
revision of the Water Pollution and Control Law may strengthen 
and increase punishments for unlawful conduct.\65\

                  III. Development of the Rule of Law


                             Civil Society

    Under Hu Jintao, the Chinese government has strengthened 
policies that restrict the growth of an independent civil 
society in an effort to guard against perceived challenges to 
state authority and sources of social unrest. In the past five 
years, and particularly since 2005, the government has enforced 
tighter controls over civil society organizations and has 
articulated increasing concern over ``foreign infiltration'' of 
these groups. Although the government increasingly has 
acknowledged the contributions of civil society networks\1\ and 
eased some formal legal requirements governing the operation of 
certain civil society groups, these developments have not 
translated into greater freedom of association for Chinese 
citizens.
    The government maintains tight legal controls over the 
operation of civil society organizations, though it has taken 
modest steps in recent years to loosen some formal legal 
strictures. Under the 1998 Regulation on the Management of the 
Registration of Social Organizations (Social Organizations 
Regulation), groups must register with a civil affairs office 
after securing sponsorship from a government or Party 
organization.\2\ These restrictive registration requirements 
violate the right to freedom of association as defined by 
international human rights standards.\3\ Stringent registration 
requirements lead some organizations to register as commercial 
organizations, undertaking related fiscal requirements, and 
others to operate without formal legal recognition.\4\
    In March 2007, the Ministry of Civil Affairs (MOCA) 
announced that revisions to the Social Organizations Regulation 
had been completed and submitted to the State Council for 
approval. The revised regulations would allow, for the first 
time, international organizations that operate in China to 
register with the government.\5\ Although officials have 
proposed changing the sponsorship requirement for domestic 
organizations,\6\ the revised regulations retain this 
provision,\7\ and foreign nongovernmental organizations (NGOs) 
that register with the government also would be required to 
have an approved sponsor organization.\8\ The 2004 Regulation 
on the Management of Foundations (Foundations Regulation) also 
retained sponsorship requirements but liberalized some controls 
that are still in place for the registration of other social 
organizations. The Foundations Regulation lacks a prohibition 
on the registration of more than one organization addressing 
the same topic within the same administrative region, and it 
permits foreign foundations to register.\9\
    Despite various restrictions, citizens have been active in 
forming civil society organizations. Citizens have formed 
organizations to address such issues as HIV/AIDS, women's 
rights, worker rights, religious charity work, and the 
environment. [For more information on citizen organizations in 
each of these areas, see Section II--Health, Status of Women, 
Worker Rights, Freedom of Religion, and Environment.] Ministry 
of Civil Affairs statistics from 1999 to 2006 indicate an 
increase in the number of registered social organizations 
starting in 2002. The statistics indicate a total of 354,000 
registered civil society organizations in 2006.\10\ Estimates 
of the total number of organizations, including unregistered 
groups, have ranged as high as eight million.\11\
    Government officials often have tolerated the operation of 
unregistered groups, but lack of legal status makes the 
organizations vulnerable especially where they challenge 
government actions or raise issues deemed politically 
sensitive.\12\ In November 2006, Shenzhen officials shut down 
12 grassroots labor rights organizations that were working 
together to overturn a regulation 
concerning labor arbitration fees.\13\ Chinese authorities also 
have monitored the activities of health activist groups, 
especially HIV/AIDS awareness organizations. In October 2006, 
Xinjiang Uighur Autonomous Region officials shut down the 
Xinjiang Snow Lotus AIDS organization after the group 
publicized the expulsion of 19 middle school students diagnosed 
as hepatitis B carriers.\14\ In addition, some citizens who try 
to establish organizations in politically sensitive areas have 
faced imprisonment. This past year, authorities detained or 
gave prison sentences to a number of citizens in Zhejiang 
province who were reportedly members of the China 
Democracy Party (CDP),\15\ including Zhang Jianhong\16\ 
(inciting subversion), Chen Shuqing\17\ (inciting subversion), 
Lu Gengsong\18\ (inciting subversion), and Chi Jianwei\19\ 
(using a cult to undermine implementation of the law).\20\ In 
addition, in May 2006, a court sentenced Yang Tongyan (whose 
pen name is Yang Tianshui) to 12 years in prison, also on 
subversion charges, for criticizing the government online and 
attempting to form a branch of the CDP.\21\
    Chinese officials have expressed particular concern in the 
last year over the influence that civil society organizations 
have on the course of political development in China. Central 
and local officials not only tightened existing controls over 
many of these organizations, but also engaged in selective use 
of laws to provide a legal pretext for shutting them down. The 
government set up a task force in 2005 to strengthen monitoring 
of NGOs.\22\ A 2005 academic article in a publication linked to 
the State Council called for preventing ``[W]estern countries 
from carrying out infiltration and sabotage of China through 
political NGOs,'' expressing a sentiment about Western NGOs 
echoed elsewhere among officials.\23\ Since 2005, the 
government has been auditing the funding sources of domestic 
NGOs and investigating their personnel. Targeted groups include 
those receiving funding from foreign sources and those with 
influence among migrant workers.\24\ International NGOs have 
reported that Chinese partners have been pressured by the 
government to withdraw from cooperative projects.\25\ In 2007, 
the government closed the foreign NGO publication China 
Development Brief, which had reported on civil society 
developments in China and was preparing to transition to 
Chinese leadership. Authorities cited the 1983 Statistics Law 
to accuse the publication's English-language editor of 
conducting ``unauthorized surveys.'' \26\
    The government recently has initiated potentially 
beneficial reforms to two particular types of civil society 
organizations: rural farmers' cooperatives and charitable 
groups. The new Law on Professional Farmers' Cooperatives, 
effective July 2007, clarifies the previously ambiguous legal 
status of these organizations, which number over 150,000 and 
claim some 35 million members.\27\ The law mandates 
registration with industry and commerce departments and does 
not require the cooperatives to secure sponsorship 
organizations.\28\ If implemented fully, the law will improve 
cooperatives' access to financial resources.\29\ The MOCA has 
been 
preparing a draft charity law, which aims to define charitable 
activities and standardize the operation of charitable 
organizations.\30\ The Ministry of Finance and the State 
Administration of Taxation announced a new tax policy in 
January 2007 that expands the scope of permitted tax deductions 
for charitable giving.\31\
    The Chinese government has created space for NGO 
participation in delivering certain services, such as poverty 
relief, where such activities do not run afoul of government 
and Party policy. In January 2007, the State Council's Leading 
Group of Poverty Alleviation and Development Office in 
conjunction with local officials in Jiangxi province initiated 
the second phase of a two-year pilot 
poverty alleviation project that marks the first time the 
Chinese central government officially has outsourced large-
scale poverty alleviation projects to NGOs.\32\ In Shanghai, 
municipal and district government officials have begun to 
coordinate with NGOs to provide various social services.\33\ 
Authorities also have accommodated the social welfare programs 
of religion-based NGOs where they suit Party goals. [See 
Section II--Freedom of Religion for more information.]

                 Institutions of Democratic Governance

    With more than 70 million members in more than 3.5 million 
grassroots organizations nationwide, the Communist Party of 
China exercises control over government and society through 
networks of Party committees. Party committees are set up at 
all levels in government, legislative, judicial, and security 
organs; major social groups (including unions); enterprises; 
and the People's Liberation Army. Party secretaries chairing 
Party committees simultaneously hold corresponding government 
positions, retaining final decisionmaking authority on most 
issues. Except for a very small number of non-communist 
officials in symbolic positions, most leadership positions in 
China are held by Communist Party members.
    Chinese citizens are formally permitted to directly elect 
just three types of governing institutions, all of which are at 
the local level: villagers committees in rural areas, residents 
committees in urban areas, and local legislatures, called 
People's Congresses, at the township and county levels. But the 
Party maintains control over these elections by controlling the 
lists of candidates, the identity of the electorate, voting 
procedures, ratification and announcement of election results, 
and many other key aspects of the process. China's National 
People's Congress and provincial and municipal people's 
congresses are indirectly elected by legislatures one level 
down.
    The fact that China is a one-party system does not prevent 
Party leaders from disagreeing over many major issues, and 
central Party leaders often face persistent, tacit resistance 
to their policies from ministries and local governments. At the 
same time, some Western analysts believe that under Jiang Zemin 
and Hu Jintao, a common fear that divisive leadership struggles 
could encourage mass uprisings similar to 1989 has increased 
the pressure on Party leaders to avoid the bitter factional 
battles of the past. This relative unity among the leaders, in 
particular their opposition to Western democratization, and has 
become a major obstacle to more open discussions of fundamental 
political reform.\1\
    As the Commission noted in its 2006 Annual Report, 
``China's authoritarian one-party system does not comply with 
international human rights standards contained in the 
International Covenant on Civil and Political Rights (ICCPR). 
Article 25 of the ICCPR 
requires that citizens be allowed to ``take part in the conduct 
of political affairs'' and ``to vote and to be elected at 
genuine periodic elections.'' Under General Comment 25 to the 
ICCPR, this language requires that:

        <bullet> The right of persons to stand for election 
        should not be limited unreasonably by requiring 
        candidates to be members of parties or of specific 
        parties;
        <bullet> Party membership should not be a condition of 
        eligibility to vote;
        <bullet> It is implicit in Article 25 that [elected] 
        representatives do in fact exercise governmental power 
        and that they are accountable through the electoral 
        process for their exercise of that power;
        <bullet> An independent electoral authority should be 
        established to supervise the electoral process and to 
        ensure that it is conducted fairly, impartially, and in 
        accordance with established laws which are compatible 
        with the ICCPR;
        <bullet> Freedom of expression, assembly, and 
        association are essential conditions for the effective 
        exercise of the right to vote and must be fully 
        protected.'' \2\

               VILLAGE AND RESIDENTS COMMITTEE ELECTIONS

    In 2006-2007, China continued gradual expansion of its 
long-running experiment in local-level citizen participation in 
village and urban neighborhood affairs. These local-level rural 
and urban elections have encouraged greater citizen 
participation in local administration, and sometimes result in 
rejections of specific local Party leaders. Although election 
results provide Party officials with information about popular 
attitudes, elections do not represent Communist Party 
acceptance of directly elected or representative government.
    In a September 5, 2006 interview, Premier Wen Jiabao 
rejected further electoral reforms at the township and county 
levels in the countryside, stating:

        [C]onditions are not yet ripe for conducting direct 
        election at a higher level of government . . . 
        Democracy and direct election, in particular, should 
        develop in an orderly way in keeping with the 
        particular condition of a country . . . We are 
        confident that when the people are capable of running a 
        village through direct election, they will later be 
        able to run a township, then a county and a province, 
        true to the principle that our country is run by the 
        people.\3\

    The Ministry of Civil Affairs reported in July 2007 that 
villages in all of China's 31 provincial-level jurisdictions 
had held at least two rounds of elections since 1998, when the 
Organic Law of Village Committees took effect.\4\ More than 500 
million voters in over 624,000 villages have taken part in some 
form of village committee election since election experiments 
began in 1988, and the Ministry claims an average voter turnout 
rate of 80 percent.\5\
    During the 2006-2007 election cycle, the poor 
administration of elections prompted citizens to take to the 
street to protest vote-rigging and other electoral abuses.\6\ 
Despite numerous Party and government directives calling for a 
clean-up, official Chinese reports suggest that ``corrupt'' and 
``illegal'' election practices, including ``vote-rigging'' and 
``rampant'' bribery, remain widespread, and there is reason to 
infer they are getting worse. A senior Ministry of Civil 
Affairs official, speaking in July 2007, reported that ``clan 
forces and gangsters are gaining ground in some elections'' and 
noted cases of ``beating and intimidation of candidates.'' The 
same official criticized the lack of a clear definition of 
``election bribery'' as a major source of abuses.\7\ Official 
Chinese sources have recently suggested that the influence some 
village committee officials have over sales of local land 
rights and mineral resources, coupled with China's long-running 
land and resource price boom, have probably made the incentives 
for electoral corruption even worse.\8\
    In late 2006, for example, two candidates in the Inner 
Mongolia Autonomous Region spent the combined equivalent of 
US$82,500 entertaining voters to win a village committee 
chief's post that only paid about 10,000 yuan per year (around 
US$1,265), according to a Party-owned news magazine. Some 
candidates view election bribes as a business expense.\9\ The 
official China Daily reported in February 2007 that the Central 
Organization Department issued a directive calling for ``severe 
punishment'' of those who commit election-related 
irregularities. But the same report indicates that 
nationwide authorities had prosecuted only 192 officials for 
vote-buying and electoral fraud during the most recent round of 
village elections over the last year.\10\
    Under Hu Jintao, Party officials have been directed to 
strengthen their control over village committees and elections. 
Scholar Li Lianjiang notes that the powers of these village 
committees and their elected leaders have always been ``highly 
constrained because appointed village party secretaries remain 
by law the `leadership core' of the village.'' This has left 
the village committee heads as ``only a lieutenant to the 
village party secretary'' who is actually selected by Party 
officials in the village or township.\11\ Moreover, the 
fairness, competitiveness and openness of these elections have 
always varied significantly from region to region. Since 2005 
and continuing through the past year, Party leaders in many 
areas have endorsed having village Party leaders take ``joint 
membership'' and ``concurrent leadership'' of village 
committees,\12\ a change that would exacerbate some of the 
foregoing problems.
    International nongovernmental organization monitors, who 
have been involved since the inception in promoting and 
monitoring these village elections, have reported that in the 
past two years Chinese officials in many localities have 
increasingly resisted permitting either Chinese or foreign 
observers to monitor the quality, procedural integrity, and 
fairness of village elections. The exclusion of these monitors 
removes a major disincentive for local officials to commit the 
types of irregularities that are already widespread.\13\
    Grassroots citizen participation in cities is even more 
limited. Since 1999, many cities have experimented with using 
elections, rather than direct Party committee appointment, to 
select members of urban residents committees or community 
residents committees, the lowest level of state power in 
China's cities.\14\ Although the percentage of community 
residents committees chosen through election appears to be 
significantly lower than the percentage of village committees 
that are elected, their share is rising. Shenzhen officials, 
for example, announced in July 2007 that they would increase 
the proportion of elected residents committees from 47 
percent to 70 percent during their next term of office.\15\ 
Although initially most of these committees did not control any 
goods or service of value, in the past year, some have asserted 
their influence as forums for debating and approving deals 
offered by city officials in return for eviction and demolition 
of homes in areas slated for renewal.\16\

                INTERFERING WITH INDEPENDENT CANDIDATES

    In addition to interfering with citizens' right to vote, 
local 
authorities continued to interfere with citizens' right to 
stand for election during the 2006-2007 cycle of township and 
county local people's congress (LPC) elections. Official 
statistics noted that 900 million county election voters and 
600 million township election voters were scheduled to elect 
more than 2 million LPC deputies during the July 1, 2006, to 
December 31, 2007, election period.\17\ Beijing lawyer and 
rights defender Teng Biao reported in late 2006 that more than 
20 non-Party, independent LPC candidates were attempting to run 
for election in Beijing alone, but that the Party continued to 
select the vast majority of candidates.\18\ Teng ultimately 
announced his decision to boycott the elections due to Party 
control over the election process and government harassment of 
independent candidates.\19\
    Local authorities reportedly have harassed and taken into 
custody independent candidates and supporters who threaten 
Party control over the electoral process and candidates. In 
some instances, these candidates continue to play an active 
role, despite having been targeted for harassment during 
previous election cycles.\20\ For example, in November 2006, on 
the eve of the current cycle of LPC elections in Qianjiang 
city, Hubei province, public security officials took democracy 
activist Yao Lifa into custody as he was on his way to campaign 
for votes.\21\ Yao had previously been taken into custody in 
July 2006, when he attempted to meet with five other 
independent LPC candidates to discuss their election campaigns, 
and was beaten by unidentified assailants several times in 2005 
while educating villagers on the election process. Lu Banglie, 
an activist running for reelection in Zhijiang city, Hubei, was 
similarly beaten in 2003 for attempting to recall an allegedly 
corrupt leader in his village, again in 2005 for his role in 
another village's recall campaign, and twice during his own 
campaign for reelection in the 2006-2007 election cycle.\22\ 
The former president of Human Rights in China argued in a 
September 2006 article published by the organization that 
although many independent candidates may not be elected in the 
current election cycle, they play a significant role in serving 
as forerunners for civil rights in Chinese society.\23\

                       PARTY LEADERSHIP SELECTION

    Since the late 1990s, the Party has also continued to 
experiment with allowing limited citizen participation in the 
selection of local Party leaders, particularly at the village 
level. Most of these reported experiments involve local Party 
officials allowing non-party member citizens to help nominate 
candidates for Party offices at the village and sometimes the 
township levels, usually followed by an election in which only 
Party members may participate.\24\ Party scholars report that 
in the past three years these experiments continued in some 
areas, but their scale is far narrower than that of either the 
village committee elections or the urban community residents 
committees.\25\ Local Party officials have been urged to 
combine the selection of Party committee leaders with that of 
village elections to try to ensure that Party members dominate 
both organs. But they are also urged to use popular opinion to 
weed out the most unpopular Party officials during the 
process.\26\ In a recent major speech discussing political 
reform and the Party, Hu Jintao endorsed both expanded popular 
participation in government and greater democracy within the 
Party, but did not specifically endorse further expanding these 
experiments in allowing the public to help choose local Party 
leaders.\27\
    During 2006-2007 Hu Jintao continued to voice support for 
experiments in expanded ``inner-Party democracy,'' or 
consultation by Party leaders with lower-level Party 
officials.\28\ The Party's Central Organization Department 
reports that between 2003 and 2006, about 15,000 Party members 
were promoted to leadership positions as a result of elections 
within the Party. Of these, about 3,800 were chosen to county-
level positions (an average of a little over one for each of 
China's counties) and just over 390 were at prefectural-level 
positions. The Party's Central Organization Department 
estimates that about 100,000 Party posts at various levels were 
filled by elections within the Party during 2006-2007.\29\ With 
more than 70 million Party members in more than 3.5 million 
grassroots organizations nationwide, this represents a small 
experiment confined to lower levels.\30\ However, elections for 
delegates to the 17th Party Congress have reportedly been more 
competitive than those for the 16th Congress in 2002, with the 
number of candidates exceeding the number of delegate slots by 
an average of 15 percent across provinces.\31\
    Recent discussion within the Party indicates that efforts 
to make Party affairs more democratic have faced resistance. A 
January 2007 article in the Central Party School's journal 
Study Times stressed that Party elections can only strengthen 
the Party if they are truly ``democratic,'' and ``impartial.'' 
Zhang Xiaoyan endorsed several specific procedural steps to 
perfect Party elections, including opening up the nominating 
process to additional Party members, and having more multi-
candidate elections, including elections with multiple serious 
candidates, well known to the local membership.\32\ Official 
press sources have carried numerous reports of extreme 
corruption in Party leadership selection processes, and even 
reports of violence in Party elections. In a February 2007 
report, the official China Daily stated that ``the buying and 
selling of party and government posts is rampant in China's 
countryside.'' \33\ In June 2007, Chinese police reported they 
were searching for a former village Party leader in Hebei 
province believed to have murdered two new Party committee 
members after losing his seat to them in an election.\34\

                   LOOKING TO THE 17TH PARTY CONGRESS

    The Commission will monitor closely and assess the policies 
on political reform that are widely anticipated to emerge at 
the 17th Party Congress, and notes that the Party Congress may 
constitute Hu Jintao's last real chance to advance a sustained 
program of political reform in what is expected to be his final 
five-year term. As the Party Congress approaches, Party leaders 
have been engaging in public and internal discussions over the 
relative value of ``inner-Party democracy'' versus a more 
``consultative democracy'' that would offer greater 
participation to the Chinese public and to members of its eight 
legally recognized non-Communist parties. An August 2007 
article in the Party-managed national magazine Outlook 
(Liaowang) reported that the consensus among official policy 
analysts was that ``after the 17th Party Congress, China's 
socialist democratic political reforms will move faster.'' \35\ 
But a June 25, 2007, speech by Hu Jintao was more guarded. 
Although he called for ``political structure reform'' and 
greater ``democracy within the Party,'' he also continued to 
endorse ``democratic centralism,'' long the watchword for 
obedience to high-level Party leaders. As for greater 
participation for the Chinese people as a whole, Hu endorsed 
taking ``active but prudent'' steps in this direction, and 
expanding the ``orderly political participation of our 
citizens.'' \36\

                           Access to Justice


                              INTRODUCTION

    Since the early 1950s, the Chinese system has had, at least 
on paper, several formal legal institutions and informal, 
nonjudicial systems through which citizens could seek justice, 
appeal government actions, and exercise oversight of officials. 
The oldest and most widely used of these systems allows 
citizens to present their grievances to Party and government 
offices charged specifically with receiving ``letters and 
visits'' (xinfang). In 2006-2007, Chinese leaders continued 
efforts begun in 2005 to restructure and formalize the xinfang 
system in a manner that they asserted would make it more 
responsive, accessible, and fair. Since the 1989 passage of the 
Administrative Litigation Law (ALL), citizens have also been 
permitted to sue administrative organs of the government 
through the courts. Other dispute resolution institutions 
include local mediation committees, labor arbitration 
committees, and administrative reconsideration organs.
    Petitions and citizen administrative suits rose sharply in 
number during the 1990s and early 2000s. Some citizens who 
avail themselves of these institutions have been successful. 
But for many, the last or only resort is public protest, which 
officials typically are quick to stifle. Surveys reveal that 
many citizens believe it is only the threat of protest that can 
help them get the attention of officials and kick-start formal 
institutions.

        INDIVIDUAL AND GROUP PETITIONS (``LETTERS AND VISITS'')

    By far the most commonly used institution through which 
citizens may seek redress involves filing petitions through the 
``Letters and Visits Offices'' available in nearly all county-
level and higher government offices and in many government and 
judicial departments. Official statistics in recent years 
indicate that government departments nationwide receive more 
than 10 to 13 million such petitions annually, compared with 
between 90,000 and 100,000 administrative lawsuits that China's 
courts have accepted annually in the past five years.\1\ 
``Petitions,'' however, are not lawsuits, and their handling is 
governed by State Council and other government regulations that 
leave citizens with no legal leverage to compel offices to 
respond. Citizen-petitioners more often than not find that 
institutions to which xinfang offices refer their petitions for 
actual resolution of grievances ultimately decline to handle 
complaints. The government forbids petitioners to seek 
``strength in numbers'' by presenting petitions to xinfang 
offices in groups of more than five, although many citizens 
ignore this rule and try to pressure officials by petitioning 
in groups. Although regulations require offices to which 
petitions are referred by the xinfang office to respond within 
a specified period of time, they frequently stall indefinitely. 
As the Commission's 2004 Annual Report noted, ``the 
overwhelming majority of individual petitioners . . . find 
themselves lost in a Kafkaesque shuffle from bureau to bureau 
and city to city, facing years of red tape without any real 
resolution to their problems.'' \2\
    In 2006-2007, Chinese officials continued to implement the 
State Council's January 2005 regulation on the proper handling 
of petitions in a manner aimed to prevent citizens from taking 
appeals to Beijing and provincial capitals. The 2005 Regulation 
on Letters and Visits instead forces citizens to turn to lower-
level xinfang offices to resolve their disputes. The regulation 
does permit citizens who are dissatisfied with the outcome of 
the local petition process to then submit their petition to 
officials at the next level up in the administrative structure 
(for example, allowing a town dweller to submit at the county 
level) and, in some cases, two levels up (the city level). 
However, xinfang offices at higher levels are ordered not to 
accept petitions submitted from more than two levels down the 
administrative structure. Under the regulation, government 
offices were required to establish ``responsibility systems'' 
for handing citizen petitions, which link the performance 
assessments of public officials to their success in resolving 
complaints at their level. The regulation strictly forbids 
petitioners from physically organizing groups outside xinfang 
offices, or from taking other actions to pressure or threaten 
xinfang handlers.\3\
    Since at least 2002, central government officials have 
maintained confidential rankings of which provinces have the 
highest number of petitioners who travel to Beijing or their 
own provincial capitals, and have encouraged provincial Party 
and security officials to compete to ``improve'' (that is, to 
lower) their national ranking. Since at least 2005, Beijing has 
rewarded local officials with ``outstanding records'' of 
handling petitioners locally, while punishing those whose 
disgruntled residents took their cases to Beijing or provincial 
capitals more frequently. Local officials continue to dispatch 
security officials to stop petitioners en route to Beijing, or 
to detain them in the capital and forcibly return them to their 
places of residence.\4\
    In 2006, Chinese officials continued to declare success in 
their efforts to reduce the number of citizen petitions, 
claiming a nationwide decrease of more than 15 percent compared 
to 2005. Based on official statistics, the total number of 
petitions in 2005 was 12.7 million, down from 13.7 million in 
2004.\5\ These figures suggest that the total number of 
petitions for 2006 was less than 10.8 million. The official 
Xinhua news agency has attributed the decline to several 
successful policies, including giving local governments 
numerical targets for lowering petitions, fining or punishing 
local officials with negative performance appraisals if they 
missed their targets, and ordering local police officials to 
meet with, and listen to, petitioners.\6\
    These statistics notwithstanding, throughout 2007, central 
government authorities continued to issue directives suggesting 
that they do not yet regard local officials' handing of 
petitions as satisfactory. In May, a directive on petitions 
from the Supreme People's Procuratorate acknowledged that many 
``major, complicated, or unclear'' petition cases were not 
being handled adequately, and offered citizens the possibility 
of holding an open hearing in the event that cases could not 
otherwise be resolved.\7\ In June, the Party and State Council 
leadership issued another directive suggesting that local 
authorities were still not handling petition cases in a 
satisfactory manner or devoting appropriate resources to keep 
petitioners contained within their local areas. The directive 
called on the top local Party leaders in each area to take 
personal charge and responsibility for handling petitions, to 
provide improved budgets and personnel to petition offices, and 
to resolve citizen complaints while keeping them at the local 
level.\8\ The directive also indicated that the government 
plans to open a national center to maintain information on 
petitioning and help address citizen grievances. The center's 
exact role and functions remained unclear, especially in light 
of the national leadership's directive to keep petition cases 
away from Beijing.\9\
    Major policy documents and regulations issued in 2005-2007 
insist that local authorities should make every effort to 
properly investigate and resolve citizen petitions, and demand 
that officials not employ harsh or coercive tactics except in 
the event that petitioners break the law. Nevertheless, in 
2006-2007, widespread 
reports continued to indicate that many local officials remain 
unwilling or unable to deal with citizen complaints 
effectively, and still resort to coercive tactics to try to 
cover up cases and prevent petitioners from taking cases to 
provincial capitals or to Beijing. Officials in Hubei, for 
example, kept a disabled local resident, Ma Wenjun, under 24-
hour guard by a rotating a group of 13 security officials and 
threatened to cut off his basic living allowance if he 
continued his attempt to take his petition to higher-level 
authorities.\10\ In February 2007, a leading expert on protests 
and petitions from the Chinese Academy of Social Sciences, the 
nation's premier social science research institution, conducted 
a survey on the implementation of the 2005 regulation among 
1,200 petitioners in Beijing to present their grievances to the 
central government. Of those surveyed, 71 percent indicated 
that they had suffered greater retaliation or intimidation as a 
result of their petitioning at the hands of authorities from 
their home region in the past year. Only five percent felt that 
their local officials had taken their grievances more 
seriously.\11\
    Although China's Constitution and Criminal Law in principle 
provide ample protection from this sort of official retaliation 
against citizen petitioners, official press sources note that 
these protections often go unenforced. Article 41 of the 
Constitution grants citizens the right ``to criticize and make 
suggestions to any state organ or functionary.'' The 
Constitution also asserts that ``[N]o one may suppress such 
complaints, charges or exposures, or retaliate against the 
citizen making them.'' Article 254 of the Criminal Law provides 
for imprisonment of any state functionary who abuses his power 
and ``retaliates against or frames up complainants, 
petitioners, critics or persons who report against him.'' But 
legal analysts have criticized many local procurators for 
failing to deal with officials who abuse their power to 
retaliate against petitioners and other citizen critics.\12\ In 
January 2006, the Supreme People's Procuratorate attempted to 
pressure local procurators to file such cases by issuing 
Interpretation Number 2 (2006), which requires procurators to 
file charges in cases in which state personnel retaliate 
against or frame up petitioners, complainants and critics.\13\

                        ADMINISTRATIVE LAWSUITS

    Under the 1989 Administrative Litigation Law (ALL), 
citizens may file administrative lawsuits through local courts. 
A 2004 Chinese Academy of Social Science survey of 632 
petitioners who had taken their cases to Beijing revealed that 
nearly two-thirds (401) had initially submitted their cases to 
local courts. But 43 percent of these reported that the courts 
had declined to hear their cases at all, which spurred them to 
petition administrative officials.\14\ The number of first-
instance administrative suits accepted by courts nationwide, 
which soared from 13,006 cases to 100,921 cases in the 12 years 
after the ALL was passed, tapered off between 2002 and 2005 
(the most recent year for which data is available), fluctuating 
between about 80,000 and 96,000 cases annually.
    The President of China's Supreme People's Court, Chief 
Justice Xiao Yang, urged local judicial officials in March 2007 
to make greater use of mediation and other alternative methods 
of dispute resolution in dealing with cases that touch on 
issues that could spark public protest. Cases involving rural 
land seizures, urban home evictions and demolitions, enterprise 
restructuring, labor and social security, resource disputes and 
environmental protection cases were among issues Xiao singled 
out.\15\
    In June, the State Council issued new regulations to 
clarify the procedures that citizens and officials must follow 
when seeking redress under China's 1999 Administrative 
Reconsideration Law, under which more than 80,000 
administrative disputes per year are resolved, according to 
government statistics. The regulations obligate administrative 
departments to accept for reconsideration applications that 
meet the law's guidelines. The regulations also strengthen the 
authority of higher-level departments to compel lower-level 
departments to accept applications that they previously 
rejected. The regulations also require administrative 
departments to inform citizens of their right to apply for 
reconsideration if the department makes an administrative 
decision that adversely affects the citizen's interests.\16\
    In March, the Supreme People's Court announced the 
nationwide expansion of what it deemed to be a successful pilot 
program aimed at ensuring ``objectivity'' in administrative 
suits, in part by circumventing local Party and government 
control of administrative courts. Under the program, 
administrative suits would not be tried in the plaintiff's home 
jurisdiction, but either in a higher-level court or in a court 
outside of the plaintiff's home area. The SPC reports that in 
areas where tests were conducted, such changes of venue 
resulted in judgments against the defendants--usually a public 
official or agency--about two and one-half times more often 
than when such cases are handled by the plaintiff's local 
court.\17\ As promising as these statistics may be, if the 
improvement in the plaintiff's prospects for winning a case 
against an official depends on moving the case away from the 
official's local judiciary, it underscores the central 
government's failure to overcome local Party and government 
dominance of court procedures and verdicts.
    Throughout 2006-2007, the Party leadership's political 
selectivity and ambivalence toward permitting citizens to use 
the courts and legal system to seek redress continued to be 
manifested in the comments of senior officials. In March 2007, 
for example, Party Politburo Standing Committee member Luo Gan, 
who heads the Party's Central Political-Legal Committee (which 
oversees legal and internal security policies), told a meeting 
of administrative law experts that China's system of 
administrative lawsuits was ``one of the most effective and 
direct legal systems to safeguard the public's rights and 
interests,'' and called for the building of a ``fair, 
effective, and authoritative system to try lawsuits against 
government bodies to guarantee social justice.'' \18\
    Yet during the preceding year, the Party and government 
repeatedly pressured lawyers to refrain from taking politically 
sensitive cases. In early 2006, the All China Lawyers 
Association (ACLA) issued a ``guiding opinion'' restricting the 
ability of lawyers to handle cases involving representative or 
joint litigation by 10 or more litigants, or cases involving 
both litigation and non-litigation efforts. The guiding opinion 
further instructed law firms to assign only ``politically 
qualified'' lawyers to conduct the initial intake of these 
cases, and lawyers handling collective cases to attempt to 
mitigate conflict and propose mediation as the method for 
conflict resolution. Former ACLA president Zhang Sizhi 
criticized the guiding opinion as retrogressive and warned that 
it would set the country's legal profession back several 
decades to the 1980s. In speeches to Party judicial and 
internal security officials, Luo Gan has reaffirmed the 
responsibility of such Party members to defend the Party's 
interests and its leadership over society. He has also attacked 
lawyers who take on politically sensitive suits, calling for 
``forceful measures . . . against those who carry out sabotage 
under the pretext of rights protection . . . so as to protect 
national security and the political stability of society.'' 
\19\

                         Commercial Rule of Law


                              INTRODUCTION

    China has passed the five-year mark in the implementation 
of its World Trade Organization (WTO) commitments. These 
commitments are outlined under both the WTO agreements and 
China's accession documents,\1\ and require that the Chinese 
government ensure nondiscrimination in the administration of 
trade-related measures, as well as prompt publication of all 
laws, regulations, judicial decisions, and administrative 
rulings relating to trade. Over the past year, concerns have 
persisted that China continues to deviate from WTO norms in 
both law and practice.
    Concerns regarding China's uneven implementation of its WTO 
commitments pursuant to its obligations as a member of the WTO 
have led to multiple WTO challenges against China during 
2007.\2\ Weaknesses in China's legal institutions and systems 
of policy implementation detailed by the U.S. Trade 
Representative (USTR) earlier this year formed the basis of the 
United States' August 13, 2007 request that the WTO establish a 
dispute settlement panel, in the U.S. case challenging 
deficiencies in China's intellectual property rights (IPR) 
protection and enforcement regime.\3\ The WTO granted the U.S. 
request and established a panel in September 2007. On August 
31, 2007, the WTO also granted a U.S. request to form a panel 
to review Chinese export and import-substitution subsidies 
prohibited by WTO rules.\4\ The United States and Mexico allege 
that China's revised income tax law and related tax refunds, 
exemptions, and reductions constitute an export subsidy.\5\
    The timely resolution of many of these disputes remains a 
focus of concern and effort. Throughout 2007, the ways in which 
``China's laws, policies, and practices deviate from the WTO's 
national treatment principle'' \6\ remained at center stage. 
The U.S.-China Business Council and other business interests 
kept a coordinated 
spotlight on China's inadequate protection of IPR, its 
insufficiently transparent legal and regulatory processes, and 
its opaque development of technical and product standards that 
inadequately address quality issues and tend to favor local 
companies.\7\ China's long-protected banking and oil sectors 
were opened in accordance with WTO commitments that came due on 
December 11, 2006, but concerns remain.
    In the area of transparency, important developments during 
the Commission's 2006-2007 reporting cycle included China's 
solicitation of comments during legislative and regulatory 
development (including on the new Labor Contract Law and Tax 
Law Implementation Regulations). Comment procedures afford 
interested parties some limited opportunities to offer input 
prior to implementation. Among those who submitted comments on 
the draft Labor Contract Law were U.S. business groups. Some 
comments endorsed revisions that would weaken some of the 
formal protections written into draft versions of the law, 
according to business association, media, and other sources.\8\ 
Among the aspects of the drafts that concerned these companies 
were clauses on hiring and termination procedures, layoffs, 
employee probationary periods, the status of temporary workers, 
the power of the official trade union, severance pay 
provisions, and employee training repayment.\9\ The State 
Council's issuance of a new Regulation on the Public Disclosure 
of Government Information in April 2007, to take effect in May 
2008, is 
potentially significant, and the Commission will monitor its 
implementation going forward. Also potentially significant is 
the issuance by the Supreme People's Court and Supreme People's 
Procuratorate's of measures concerning the publication of 
judicial decisions and other documents. The Commission also 
will be monitoring developments in this area closely. [See 
Section II--Freedom of Expression.]

                  PROTECTION OF INTELLECTUAL PROPERTY

    For several years the Commission has noted the widespread 
counterfeiting and piracy of intellectual property in 
China.\10\ The Commission's 2004 Annual Report concluded that 
``only rhetorical progress has been made toward reducing the 
extremely high level of intellectual property infringement in 
China in the past year and the situation continues to severely 
injure U.S. intellectual property industries.'' \11\ In its 
2006 Annual Report, the Commission characterized IPR 
infringement in China as ``rampant.'' Placing China on its top-
ranked ``Priority Watch'' list, the USTR noted in early 2007 
that ``[a]lthough this year's Special 301 Report shows positive 
progress in many countries, rampant counterfeiting and piracy 
problems have continued to plague China and Russia, indicating 
a need for stronger IPR regimes.'' \12\
    Reasons for China's weak enforcement of IPR protections 
include what some analysts regard as deliberate ``free-riding'' 
on the international system--China's resistance to introducing 
criminal penalties sufficient to deter infringement, and the 
high thresholds that Chinese laws and regulations use to 
determine the existence of infringement, for example. Reasons 
also include structural and local factors that call for 
consistent, long-term policy solutions--weak, politicized legal 
institutions, for example, and the presence of Party, 
government, and military interests that have incentives to 
resist the closure of commercial producers of infringing 
products because they generate revenues and contribute to local 
economies.\13\
    From July through October 2006, central government 
officials launched a highly publicized ``100 Day Anti-Piracy 
Campaign'' sponsored by the Ministry of Culture, the Ministry 
of Public Security, and eight other central government 
departments.\14\ Chinese authorities reported seizing more than 
58 million illegal publications and four pirated DVD production 
lines, investigating more than 10,000 cases of IPR 
infringement, and sentencing at least two individuals to life 
imprisonment.\15\
    The campaign targeted not only IPR infringing publications, 
but also material published without government permission, and 
material containing prohibited political content. Authorities 
reported confiscating some 616,000 unauthorized newspapers and 
periodicals, according to a People's Daily report citing 
information from the Sweep Away Pornography and Strike Down 
Illegal Publications Task Force.\16\ But reflected in these 
figures were 303,000 publications deemed to ``threaten social 
stability,'' ``endanger state security,'' or ``incite ethnic 
separatism,'' according to the report. In other words, the 
enforcement campaign appears to have been motivated only in 
part by the need to address IPR infringements.\17\ Therefore, 
official portrayal of the campaign--both in its intent and 
results--should be understood from more than one 
perspective.\18\
    In March 2007, China officially acceded to the World 
Intellectual Property Organization (WIPO) Copyright and 
Performances and Phonograms Treaties (collectively, the WIPO 
Internet Treaties), with its accession formally taking effect 
on June 9, 2007. The Commission indicated in its 2004 Annual 
Report that China's taking these steps would be interpreted as 
a sign of ``concrete progress.'' \19\
    On April 4 and 5, China's Supreme People's Court and 
Supreme People's Procuratorate issued the Interpretation of the 
Supreme People's Court and the Supreme People's Procuratorate 
on Several Issues of Concrete Application of Law in Handling 
Criminal Cases of Infringing Intellectual Property (II). The 
new interpretation, which built upon an earlier December 2004 
interpretation of the same name, clarified the thresholds for 
prosecution under China's Criminal Law for those who infringe 
copyrighted materials, reproduce and sell them on a large 
scale. The Interpretation directs, for example, that those 
duplicating and distributing 500 or more copies of a piece of 
music, videos, books, and computer software or other 
copyrighted audio-visual products meet the law's standard for 
cases ``involving serious circumstances'' and cases involving 
2,500 copies would meet the law's standard for cases 
``involving other especially serious circumstances.'' \20\
    Notwithstanding these additional measures, China continued 
to show what the USTR termed ``unacceptably high'' rates of 
piracy and counterfeiting. In its annual Special 301 Report, 
issued on April 30, 2007, the USTR noted surveys of copyright 
industries that estimate that between 85 and 93 percent of all 
copyrighted goods sold in China were, in fact, counterfeit--a 
level that constituted no significant improvement over 2005. 
The percentage of all IPR-violating goods confiscated by U.S. 
Customs agents that were shipped from China actually rose from 
2005 to 2006, from 69 to 81 percent.\21\ A 2006 survey of its 
members by the U.S.-China Business Council ranked weak IPR 
protection as the greatest failing in China's WTO 
implementation, and also found that while 33 percent of its 
members felt there had been some improvement in China's 
enforcement of intellectual property protection over the 
previous year, more than half of those polled felt there had 
been no improvement.\22\ On the eve of a June 2007 European 
Union-China joint trade ministerial meeting, EU analysts noted 
that ``China was the source of 80 percent of counterfeit goods 
intercepted at the EU borders in 2006. Some European 
manufacturers estimated in February 2007 that intellectual 
property rights infringement in China cost EU manufacturers 
operating there 20 percent of their revenue.'' \23\
    Moreover, while China's IPR enforcement remains weak 
nationwide, the decentralization of China's legal system means 
that enforcement levels vary significantly across provinces and 
regions. 
Attacks on Internet piracy in Beijing, Xiamen, and Guangdong, 
for example have seen some positive results.\24\ Guangdong 
remains, however, along with Zhejiang, one of the ``provinces 
in which rights holders most consistently encountered all types 
of counterfeiting.'' These two provinces, plus Fujian province, 
are major ports of lading for infringing products shipped to 
the United States.\25\
    On April 10, 2007, the United States initiated the first 
step in the WTO dispute settlement process by requesting 
consultations with China regarding violations of several 
provisions of the WTO's Agreement on Trade-Related Aspects of 
Intellectual Property Rights (TRIPS).\26\ The USTR raised four 
major issues. First, U.S. officials contended that the 
thresholds for criminal prosecution under China's Criminal Law 
and new interpretations remain too high and too vague, still 
allowing commercial scale acts of trademark counterfeiting and 
copyright piracy to avoid being subject to criminal 
prosecution. This is largely because prosecution thresholds are 
defined in terms of ``illegal business volume,'' ``illegal 
gains,'' and number of ``illegal copies.'' ``Illegal business 
volume,'' moreover, is normally calculated based on the lower 
price at which the illegal goods were to be sold, not the 
higher price that the corresponding legitimate goods would have 
fetched, which would permit an infringer to sell more of these 
goods without meeting the threshold for criminal 
prosecution.\27\ Second, Chinese Customs laws and regulations 
regarding intellectual property protection in many cases allow 
confiscated counterfeit goods to have their illegal trademarks 
and other infringing features removed and be resold rather than 
destroyed.\28\ Third, numerous Chinese laws and regulations do 
not appear to protect foreign creative works that must undergo 
censorship or other forms of pre-distribution review during the 
period when they are awaiting clearance by government 
authorities, or provide any protection for them if they are 
denied government clearance.\29\ Fourth, Article 217 of the 
Criminal Law outlaws ``reproducing and distributing'' many 
copyrighted works, but does not explicitly address the case of 
those who reproduce copyrighted materials without distributing 
them, or distribute without reproducing them.\30\ A USTR 
spokesperson reported on August 13, 2007 that after three 
months of formal consultation with Chinese officials, the 
United States felt that the ``dialogue has not generated 
solutions to the issues we have raised'' and the United States 
requested the WTO Dispute Settlement Body establish a dispute 
resolution panel.\31\

                               SUBSIDIES

    China continues to subsidize key export industries, 
including steel and paper, in contravention of its commitments 
under the Word Trade Organization (WTO) Subsidies Agreement, 
and has not demonstrated adequate transparency about these 
subsidies. A U.S. Trade Representative-Commerce Department 
joint report described China's April 2006 subsidies 
notification as ``long overdue,'' noting that ``although 
[China's] notification is lengthy, with over 70 subsidy 
programs reported, it is also notably incomplete. China failed 
to notify any subsidies provided by its state-owned banks or by 
provincial and local government authorities.'' \32\ In October 
2006, the U.S. paper industry filed a petition to the 
Department of Commerce alleging ``injurious subsidized imports 
of coated free sheet . . . paper from China,'' and in November 
the Commerce Department initiated a countervailing duties 
investigation.\33\
    China's steel industry subsidies are motivated in part by 
unemployment and demonstrations by laid-off workers This is 
especially so in China's northeastern rustbelt where Anben 
(formerly Anshan and Benxi) Steel and other major producers are 
based.\34\ In 2000, the Chinese government committed more than 
US$6 billion to transform, expand, and modernize its steel 
industry, with much of this coming in various forms of directed 
support from local governments.\35\ Baosteel has reported 
receiving 25 million yuan in ``subsidies'' in 2005, and another 
21 million in the first six months of 2006.\36\ Many other 
subsidies take the form of support from China's state-owned 
banks, including the extension of preferential loans and 
directed credit,\37\ in addition to inaction on non-performing 
loans, exchanges of unpaid debt for equity, or actual 
forgiveness of debt.\38\
    China's subsidies notification also notes other programs 
under which small- and medium- sized enterprises, a category 
which includes many steel producers, have received funds to 
support technological innovation, exploration of global 
markets, and other forms of development.\39\ The Chinese 
government, and local governments in particular, also subsidize 
energy, raw materials, and land for these firms. In April 2007, 
Premier Wen Jiabao criticized local governments for offering 
deeply discounted or free land to job-creating local 
enterprises, specifically mentioning steel mills.\40\ The 
Chinese government also selectively enforces environmental 
standards that would impose a significant cost on many aging 
factories.\41\ The Chinese government also implements 
investment policies that leverage market access in ways that 
amount to an industry subsidy. China's 2005 ``Policy for the 
Development of Iron and Steel Industry'' encourages domestic 
sourcing and long-term import substitution:

        ``Article 18: The policies of imported technologies and 
        equipment: Enterprises are encouraged to use home-made 
        equipment and technologies and reduce export. For any 
        equipment or technology that cannot be produced 
        domestically or fails to meet the demand and, thus, 
        must be introduced from abroad, the introduced 
        equipment or 
        technology shall be advanced and practical. For the 
        equipment in large amount or big scope, we should 
        organize and implement the localized production thereof 
        from now on.'' \42\

    Elsewhere the policy promises that ``the state shall grant 
policy supports in such aspects as taxation, interest subsidy 
and scientific research funds'' for any ``major iron and steel 
project'' that is ``based on home-made equipment as newly 
developed.'' \43\ This policy contravenes China's WTO 
commitments by requiring use of domestic suppliers as a 
condition for investment.\44\ Finally, exports of steel, like 
all Chinese exports, benefit from China's undervalued 
currency.\45\
    In February 2007, the United States filed a WTO dispute 
settlement proceeding against China alleging prohibited 
subsidies and requesting consultations; later that month Mexico 
also sought consultations for these subsidies. In the initial 
February filing, the United States highlighted nine specific 
sets of tax law articles or regulations that it said 
constituted import substitution subsidies or export 
subsidies.\46\ Seven of these nine sets of regulations were 
aimed at foreign invested enterprises. Three of them 
specifically cited articles in China's Rules for Implementation 
of the Income Tax Law of the People's Republic of China for 
Enterprises with Foreign Investment and Foreign 
Enterprises,\47\ which were read in conjunction with several 
other directives from China's State Council and its financial 
and taxation departments as constituting prohibited 
subsidies.\48\ In July, the Chinese government exercised its 
right under WTO regulations to block the complaint in favor of 
additional consultations, which took place on July 22.\49\ U.S. 
officials, speaking after the second round of consultations, 
noted that the Chinese government had lifted one of the 
subsidies the United States had challenged. In August, the WTO 
Dispute Resolution Body accepted the complaint for 
investigation on second filing by the United States and 
Mexico.\50\ China's Ministry of Commerce contends that the 
complaint is ``politically motivated'' and based on a ``huge 
misunderstanding'' of China's enterprise tax system.\51\

                     OPENING OF CHINA'S OIL MARKETS

    The opening of China's oil sector has replaced a long 
standing state monopoly. New measures, however, establish 
licensing schemes that may continue to maintain barriers to 
entry by new market participants.

                               Crude Oil

    Four state-run players have long controlled China's crude 
oil sale and storage market: China National Petroleum 
Corporation (CNPC), China National Offshore Oil Corporation 
(CNOOC), Sinochem Corporation (SINOCHEM) and China 
Petrochemical Corporation (SINOPEC). China's WTO commitments 
required opening of its crude oil distribution and storage 
market by December 11, 2006.
    On December 4, 2006, the Ministry of Commerce (MOFCOM) 
issued a new Regulation on the Administration of the Crude Oil 
Market (the ``Crude Oil Regulation''), which went into effect 
on January 1, 2007.\52\ Using the term ``crude oil'' to refer 
both to foreign and domestically produced crude, the new 
regulation permits foreign companies to sell foreign crude into 
China's domestic oil market. The regulation sets forth a new 
licensing scheme for crude oil sales and storage.\53\ MOFCOM is 
responsible for implementation and enforcement of the new 
licensing scheme.\54\
    The new licensing scheme under the Crude Oil Regulation 
sets high storage tank capacity requirements that may require 
significant additional investment for foreign applicants. It 
also requires license applicants to demonstrate access to sales 
channels that is ``long-term, stable, and legal'' but does not 
specify the meaning of these terms, leaving subsequent 
clarification to MOFCOM's discretion. At the time of this 
writing, MOFCOM has not provided formal clarification.

                              Oil Products

    Additional measures also provided for new market entrants 
into the wholesale oil product market, which has long been 
controlled by CNPC and SINOPEC. The Regulation on the 
Administration of the Oil Product Market was issued by MOFCOM 
on December 4, 2006, and went into effect on January 1, 2007. 
With this regulation, both foreign and private Chinese 
companies can enter the market. The regulation sets forth a new 
oil product licensing framework\55\ and expands the meaning of 
``oil products'' to include gasoline, kerosene, diesel, and 
renewables including ethanol and biodiesel.\56\
    China's opening of its oil product market is required under 
its WTO commitments and has been long-anticipated. Analysts 
have pointed out however, that, ``while this opening will 
encourage diversification in oil product supply, the road ahead 
for foreign oil 
companies in China remains challenging.'' \57\ Specifically, 
``the fact that separate import and export licenses are still 
required will nevertheless makes it difficult for foreign 
companies to independently operate in the wholesale market 
until such time as the licenses for import and export are 
relaxed.'' \58\

                      BANKING SECTOR DEVELOPMENTS

                 Foreign Participation In Chinese Banks

    Pursuant to its WTO commitments, China issued the 
Regulation on Administration of Foreign Invested Banks and 
Implementing Rules on Foreign Invested Banks, both of which 
came into effect on December 11, 2006.\59\ These measures 
opened China's banking sector to new entrants.
    The Foreign Bank Rules distinguish among four kinds of 
foreign invested banks: wholly foreign owned banks (WFOB),\60\ 
Sino-foreign joint venture banks (JVB),\61\ branch offices of 
foreign banks,\62\ and representative offices of foreign 
banks.\63\ In order to invest in a Chinese bank, foreign 
investors must meet minimum size requirements. These new rules 
prohibit private equity investors, foreign non-banks, and 
investment funds from holding a controlling interest in Chinese 
banks.\64\ They also give the China Banking Regulatory 
Commission (CBRC) a veto over prospective investment by a 
foreign entity.
    WFOBs and JVBs are now permitted to offer services in core 
businesses heretofore reserved as the exclusive domain of 
Chinese banks.\65\ Chinese banks in most sectors therefore face 
the possibility of direct competition from locally incorporated 
WFOBs and JVBs. Branch offices are prohibited under the new 
rules from 
engaging in bank card business, and must comply with new 
restrictions on the receipt of RMB deposits, but otherwise may 
now engage in business similar in scope to WFOBs and JVBs. In 
addition, foreign banks may now convert branch offices to WFOBs 
with the approval, and under the oversight, of the CBRC. 
Representative offices are not permitted to conduct banking 
business, but may engage in market research, liaison and 
consulting activities related to the establishment of a WFOB, 
JVB or branch.

                    Commercial Bank Risk Management

    On October 25, 2006, the CBRC issued the Guidance on 
Compliance Risk Management for Commercial Banks that applies to 
domestic commercial banks, wholly foreign-owned banks, Sino-
foreign equity joint venture banks, and foreign bank branches. 
The guidance requires these entities to implement systems for 
compliance assessment, reporting, and accountability. 
Specifically, it addresses the duties and obligations of boards 
of directors, boards of supervisors, and senior officers. 
Responsibility for the approval and assessment of compliance 
policies and reporting now resides with the board of directors, 
which is required to appoint a risk management committee, 
internal audit committee, and compliance management committee. 
The board of supervisors is responsible for evaluating 
fulfillment by the board of directors and senior management of 
their compliance and risk management duties. It is unclear how 
the guidance will be implemented and enforced with respect to 
institutions that do not have both a board of directors and a 
board of supervisors.\66\

                       Anti-Money Laundering Law

    China's obligations under the UN Convention Against 
Corruption prompted passage in 2006 of a new Anti-Money 
Laundering Law that went into effect in 2007, along with a pair 
of anti-money laundering regulations issued by the People's 
Bank of China (PBOC).\67\ China asserts that the new law also 
meets standards set forth by the Financial Action Task Force on 
Money Laundering (FATF) at the G7 Summit held in Paris in 1989.
    The law applies to commercial banks, credit co-operatives, 
postal savings institutions, trust investment companies, 
securities companies, commodity brokerage firms, insurance 
companies, and other ``financial institutions.'' Discretion to 
expand the definition of a ``financial institution'' resides 
with the State Council Anti-Money Laundering Bureau. The 
Customs Office and the State Council Anti-Money Laundering 
Bureau are the primary state actors under the new system set 
forth in the law, with the State Council Anti-Money Laundering 
Bureau also exercising authority to cooperate with overseas 
entities and international organizations. The PBOC has 
additionally emerged as the financial institution chiefly 
responsible for financial industry anti-money laundering 
matters, with significantly expanded investigative powers. The 
PBOC has authority to monitor both yuan and foreign currency 
transactions, to exchange information with institutions abroad, 
and to cooperate with international law enforcement.\68\
    The law requires financial institutions to establish 
dedicated anti-money laundering units, to maintain adequate 
systems of 
internal controls and to comply with tough new rules on the 
documentation of clients' identities. The law provides for 
specific administrative sanctions in money laundering cases 
that involve the abuse of enforcement authority. Financial 
institutions, and their directors and officers, are liable, 
both monetarily and non-monetarily, for entering into 
transactions with ``suspicious individuals,'' opening accounts 
under false names, failure to maintain proper records, failure 
to report suspicious transactions, and general ``failure to 
fulfill legal obligations under the law.''

                           ANTI-MONOPOLY LAW

    China passed a new Anti-Monopoly Law on August 30, 2007, 
which will take effect on August 1, 2008. The law provides for 
``an anti-monopoly commission to be set up under the State 
Council to deal with anti-monopoly issues.'' \69\ The law 
provides for the investigation and prosecution of monopolistic 
practices, but also carves out exceptions for cases in which 
the proposed anti-monopoly commission determines that 
monopolistic arrangements ``favor innovation and technological 
development.''
    Under the new law, foreign acquisitions of Chinese 
companies will be subject to scrutiny intended to ``protect 
national economic security.'' In addition, ``foreign mergers 
with, or acquisitions of, domestic companies or foreign capital 
investing in domestic companies' operations in other forms 
should go through national security checks according to 
relevant laws and regulations.'' These ``checks'' are ``in 
addition to anti-monopoly checks stipulated by this law.''
    Passage of the new law follows regulations jointly issued 
last year by MOFCOM and five other agencies. Those regulations 
require foreign investors to obtain MOFCOM approval for 
purchases of domestic companies that may impact ``national 
economic security.'' In issuing such approvals, MOFCOM relies 
on a list of strategic sectors issued by the State Council last 
December. Sectors on the list include military, manufacturing, 
power generation, power grids, petroleum, petrochemicals, 
telecommunications, coal, civil aviation, and shipping.

    APPLICATION OF PRC LAWS TO FOREIGN-RELATED CONTRACTUAL DISPUTES

    Business contracts between international parties typically 
specify which nation's laws govern the contract. China's 
courts, however, do not always recognize the choice of law 
provisions in contracts that come before them.
    Most civil and commercial contracts are governed by China's 
Civil Law, General Principles of Civil Procedure, and Contract 
Law. In most cases, parties to a contract involving foreign 
interests are permitted to choose the contract's governing law. 
However, there are exceptions in which the application of PRC 
law is mandated. The most familiar exceptions include Sino-
foreign equity joint venture contracts, Sino-foreign 
cooperative joint venture contracts, and contracts for Sino-
foreign cooperative exploration and development of natural 
resources.
    In the last 12 months, China has expanded the list of 
contract types to which the application of PRC law is mandated, 
leaving parties with no choice of law discretion in a widening 
array of contractual relationships. Regulations on the Merger 
with or Acquisition of Domestic Enterprises by Foreign 
Investors, issued in August 2006, mandated that PRC law shall 
govern the purchase of equity interests or assets, as well as 
contracts in which foreign investors increase capital 
investment in domestic enterprises. In 2007, China further 
expanded the range of contract types over which the application 
of PRC law is mandated. Specifically, on June 11, 2007, the 
Supreme People's Court issued Provisions on Several Issues 
Concerning Application of Laws for Trial of Disputes Arising 
from Foreign-related Civil or Commercial Contracts, which went 
into effect on August 8, 2007. Under the new provisions, courts 
will now apply the ``principle of proximate connections'' in 
determining which nation's law governs a disputed contract 
provision. This principle requires courts to determine which 
country's law has the ``strongest proximate connection'' with 
the ``subject matter'' of the contract.\70\
    Experts have concluded that under these provisions, 
``foreign 
investors doing business in China or engaging in cross-border 
transactions with China, have fewer choices than they once did 
concerning choice of law.'' Foreign investors, however, do 
retain the option to resolve contract disputes through 
arbitration within or outside the PRC. Some investors prefer 
arbitration over litigation in Chinese courts\71\ Whether the 
new Provisions signal a broader attempt to channel contract 
dispute resolution away from courts remains to be seen.

   SUPREME PEOPLE'S COURT INTERPRETATION OF 1992 LAW AGAINST UNFAIR 
                              COMPETITION

    Civil litigation cases in China have more than doubled in 
number and frequency over the last decade and a half. 
Intellectual property cases account for a significant portion 
of that increase. Many such cases stem from the chronic 
ambiguity of statutory language, which prompted the Supreme 
People's Court to issue in January 2007 an Interpretation on 
Several Issues Regarding the Application of Law in Unfair 
Competition Civil Cases. The interpretation adds clarity to key 
statutory terms governing cases involving misleading 
advertising, misuse of brand names and the definition of trade 
secrets. It has been greeted positively by international 
business and legal professionals.\72\
    In the absence of a case law tradition, the Court's 
interpretations are a critical medium through which the Court 
instructs judges on the meaning they are to attach to vague 
statutory text when applying such text to concrete 
circumstances in the context of individual cases. The 
interpretation offers specific, practical guidance to judges on 
statutory interpretation. In specifying the criteria judges may 
use to make complex determinations (such as whether an item is 
or is not ``known to the public''), the interpretation offers 
concrete examples that appear to be drawn from prior cases.\73\ 
The interpretation also refers to and adopts standards from 
China's Law on Trademarks, and is expected to play a 
significant role in guiding future judicial decisionmaking in 
intellectual property cases.

                          BUSINESS ENTERPRISES

                       Enterprise Bankruptcy Law

    Passed by the National People's Congress (NPC) in August 
2006, China's new Enterprise Bankruptcy Law went into effect on 
June 1, 2007.\74\ The new law establishes a court-appointed 
administrator system to replace the state-controlled 
``bankruptcy committee'' model established in 1986, before 
implementation of some of China's more significant economic 
reforms and subsequent economic growth.
    China first passed a trial version of the Enterprise 
Bankruptcy Law in 1986,\75\ which applied only to state-owned 
enterprises (SOEs), many of which the state did not permit to 
fail for fear of the worker protests that might follow large-
scale plant shut downs. The new law applies both to SOEs and to 
private enterprises (both foreign and domestic). It does not 
apply to individuals, but does provide for involuntary 
bankruptcy proceedings initiated by a single creditor. 
Individuals who voluntarily file for bankruptcy may choose 
reorganization (debt restructuring), liquidation or 
conciliation--choices not offered under the old law. Prompted 
in part by the widespread fraud and corruption associated with 
bankruptcies that took place under the old system, the new law 
also specifies conditions under which prior transactions may be 
invalidated.
    The new law's most significant provisions concern the 
validity and prioritization of claims. The law applies to 
foreign firms in China and to Chinese firms abroad, allowing 
for cross-border bankruptcy.\76\ The law provides for 
enforcement of foreign judgments in cases where there is 
reciprocal recognition of the extraterritorial effect of 
Chinese bankruptcy judgments. ``In other words, debtors with 
foreign judgments against a bankrupt Chinese company may be 
able to collect on that judgment in the Chinese bankruptcy.'' 
\77\ Under the old system, state-controlled ``bankruptcy 
committees'' had discretion to prioritize employees' and select 
``local'' creditors' claims over those of secured creditors. 
The new law assigns first priority to secured creditors, 
followed by employees, unpaid taxes, and then unsecured 
creditors.\78\
    Special provisions in the new law address the bankruptcy of 
financial institutions. Government approval is required prior 
to any declaration of bankruptcy by a financial institution. 
Receivership and restructuring provisions in the new law 
authorize the government to intervene in specific cases, if it 
finds the risk to society associated with financial institution 
failure to be too great.

                       Enterprise Income Tax Law

    China's new Enterprise Income Tax Law, passed in March 
2007, will take effect on January 1, 2008. The new law 
consolidates the two tax regimes set forth under the PRC 
Foreign Investment 
Enterprise and Foreign Enterprise Law (1991) and the Interim 
Measures of Enterprise Income Tax (1993). Until now, separate 
tax regimes for domestic and foreign invested enterprises had 
been an important part of China's overall scheme for attracting 
foreign investment. The new Enterprise Income Tax Law's regime 
is more industry focused. Industry-based incentives favor 
companies 
engaged in advanced technology, environmental protection, 
agriculture, utilities, water conservation, high technology, 
forestry, animal husbandry, fisheries and infrastructure 
construction, venture capital and enterprises supporting 
disadvantaged groups.\79\
    The scope and application of the Enterprise Income Tax 
Law's most important provisions will depend on implementing 
rules still only in draft form. The State Tax Administration 
and the Ministry of Finance recently released proposed 
Implementing Rules on the New Tax Law in draft form for public 
comment. Analysts expect the implementing rules to be finalized 
by the end of 2007 and to take effect with the New Tax Law.\80\ 
The law's full impact will become clearer only after a period 
of actual implementation.

                        Enterprise Partnerships

    China's Partnership Enterprise Law, which was amended to 
promote the development of the accounting and other service 
professions, and to facilitate the establishment of venture 
capital investment firms, came into effect on June 1, 2007. The 
law's limited partnership provisions allow partners to enjoy 
limited liability so long as one partner assumes unlimited 
liability. Limited partners may make capital contributions in 
money or in kind, including in intellectual property rights and 
land use rights. In order ``to protect national and public 
interest, and the interests of shareholders,'' the law 
prohibits SOEs and listed companies from becoming general 
partners.\81\

                         Commercial Franchising

    China is number one in the world in terms of its number of 
commercial franchise operations (more than 168,000 outlets 
across over 60 industries).\82\ Franchisors nonetheless find 
China to be a more restrictive operating environment than other 
markets.\83\
    On February 6, 2007, the State Council issued a new 
Regulation on Administration of Commercial Franchises, which 
went into effect on May 1, 2007. Around the same time, MOFCOM 
issued Measures on the Administration of Filing of Commercial 
Franchising and Measures on the Administration of Information 
Disclosure of Commercial Franchising. The new measures 
introduce a ``Two Outlets+One Year'' rule for franchisor 
qualifications. Under old rules issued in 2004, franchisors 
were required to have at least two directly operated outlets in 
operation for more than one year to qualify for a franchise in 
China. Article 7 of the new regulation does not state 
explicitly that the outlets must be within China. Industry 
analysts have greeted this as ``a welcome change for 
international franchisors.'' \84\

                         Value-Added Tax (VAT)

    China continues to use its value-added tax (VAT) system, 
established in 1994, as an economic policy instrument, 
repeatedly adjusting the rates or eliminating them altogether 
to encourage some exports, promote import substitution, or lure 
in direct foreign investment.\85\ In the first six months of 
2007, the State Taxation Administration reported processing 
more than 268 billion yuan (over US$33 billion) in tax rebates 
for exports of steel products, concrete, chemicals, and other 
products.\86\ These differential VAT rates and export rebates 
violate China's national treatment obligations under the WTO, 
and have resulted in formal complaints concerning 
semiconductors and requests for dispute settlement panels 
regarding imported capital equipment and domestic 
equipment.\87\ During 2006-2007, China readjusted export 
rebates for several thousand commodities, in part to ``ease 
frictions between China and its trade partners.'' A September 
2006 directive from the Ministry of Finance and four other 
departments raised the rebates on some biomedical, information 
technology, and other high-tech exports, while lowering them on 
a wide variety of steel, ceramic, wood, non-ferrous metal, and 
other products, and eliminating the rebates entirely for a 
number of low-tech products.\88\ Effective April 15, 2007, the 
Ministry of Finance abolished export rebates for 86 categories 
of steel products. For 76 other categories of steel products, 
including cold-rolling products, the ministry retained the 
export rebates, although it lowered the rebate rate to a 
uniform five percent.\89\ Effective July 1, 2007, the Ministry 
of Finance and the State Taxation Administration lowered VAT 
refund rates for over 2,800 commodities, most of which the 
Finance Ministry spokesman described as ``highly polluting 
products that consume heavy amounts of energy and resources.'' 
Some are low value-added products (including apparel).\90\ The 
readjustment of these VAT rates demonstrates that China is 
focused on VAT-related issues. Although China has increased the 
tax burden on exporters of some goods that have been the 
subject of international trade tensions, its overall approach 
shows continued use of the tax to subsidize favored exports, 
including high-tech and some steel products.

                              PROPERTY LAW

    Property in China heretofore has been governed by a diffuse 
network of legal provisions distributed across several laws 
(primarily the General Principles of Civil Law, the Land 
Administration Law, the Urban Real Estate Administration Law, 
the Law on Rural Land Contracting and the Securities Law). 
China's new Property Law, passed last March and effective 
beginning October 1, 2007, consolidates China's various laws 
affecting both public and private property, and represents 
positive change in a number of important ways. It was passed 
following a particularly extensive process of deliberation by 
the National People's Congress and solicitation of comments 
from the general public.

                               Use Rights

    The National People's Congress first recognized that ``the 
right to use land may be transferred according to law'' when it 
amended the Constitution and revised the Land Management Law in 
1988.\91\ The new Property Law helps to provide more detailed 
clarification of the bundle of property rights in China, and 
sets forth specific provisions to separate out and establish 
guideposts for the determination of ownership rights, use 
rights, security interests, and rights of possession.\92\ The 
clarification of use rights is particularly significant since 
it helps to elevate the legal status of the private sector of 
China's economy. As one analyst notes:

        (U)se rights are property rights that can be purchased 
        and sold, mortgaged, gifted and inherited. Thus, 
        classification of use rights as a form of property is 
        essential to the creation of a market economy. . . . 
        Since all rights concerning land held by private 
        persons in China fall under the classification of use 
        rights, categorization of use rights as property rights 
        has an enormous impact.\93\

    Clarification of use rights thus helps to codify into law a 
promise that was introduced into the 2004 Amendment to the 
Chinese Constitution: the state's protection of the ``lawful 
rights and interests of non-public sectors of the economy such 
as the individual economy and the private economy.'' \94\

                  Uniform National Registration System

    The creation of a uniform, national real property 
registration system is another of the new law's most important 
features.\95\ Under the new law, the creation, change, transfer 
or termination of a property right may be legally unenforceable 
without evidence of registration. Registration is the only 
conclusive evidence of a property right.\96\ That said, the law 
also creates a right to apply for correction in cases of 
alleged mistakes on the registry. In cases of proven loss, the 
law gives injured parties the right to claim damages against 
the registry. In cases where loss results from submission to 
the registry of false documentation, injured parties may file 
claims both against the submitter of false documentation and 
against the registry that accepted it. The new law also imposes 
limits on excessive registration fees, which was a problem 
under the old system.\97\

                     Reapportionment of Rural Land

    The new Property Law makes it illegal for local officials 
to use reapportionment as a means to alter the terms of rural 
land contracts. This is another important development.
    In many rural areas, the terms of land contracts are 
adjusted on an annual basis to account for changes in residence 
patterns and in cropping patterns. This practice was commonly 
used to punish households for disagreeing with local leaders, 
and by the leaders themselves to extract rents.\98\ This 
practice is now prohibited and rural households are given the 
right to defend their land contract rights against these 
improper acts by local authorities.\99\
    In 2004, reports of thousands of cases of illegal land 
activities impacting rural areas prompted the State Council to 
issue a decision to prevent the abuse of reapportionment 
powers. This decision is now codified into law with the passage 
of the Property Law.

                         Partitioned Ownership

    Provisions covering partitioned ownership of buildings have 
received considerable attention. Urbanization increases the 
importance of partitioned ownership of multi-unit structures, 
such as high-rise buildings that house multiple businesses or 
families. The new Property Law distinguishes between exclusive 
rights over individual units, and common rights over common 
spaces. It carves out special exceptions for elevators, green 
space and other areas.\100\ The law also includes provisions 
regarding the allocation of garage and parking spaces, which 
have been the subject of a rising number of disputes in recent 
years.\101\ The law also contains provisions that protect the 
property interests of unit owners in cases where developers 
deviate from previously announced construction plans.

                          Missed Opportunities

    Despite the general progress that is reflected by the 
issuance of a Property Law in China, there remain some 
significant missed opportunities. Government seizure of land 
and buildings, for example, has been a major cause of citizen 
complaints and protest against the government. Chinese law 
explicitly requires that government takings of land must be in 
the ``public interest'' and accompanied by compensation. 
Failure to specify methods for calculating compensation and 
ambiguity in the meaning of ``public interest'' have seriously 
undermined these protections and invited abuse. Provisions 
addressing these problems were included in drafts of the new 
law, but proved so controversial that, by its own public 
admission, the NPC's only alternative to delay was to take them 
off the table. Provisions dealing with the transfer of 
agricultural land to the state for construction, another major 
source of controversy in rural China, also display what seems 
to be intentional ambiguity.\102\

                         Sector-Specific Impact

    All in all, the new Property Law will have a significant 
impact across several industrial sectors, among them the 
following four:

Lending

    By providing for mortgage, pledges and liens, the Property 
Law expands the range of security interests available to 
lenders. All property may be subject to charge or pledge, 
except where otherwise provided by existing law. By 
incorporating elements of common market practice (e.g. a charge 
on contracting rights to uncultivated land, pledges on 
receivables), the law increases the flexibility with which 
lenders may secure transactions.

Agriculture

    Under the new Property Law, investors in agriculture may 
enter into direct arrangements with rural households who in 
turn may contract with farmer's cooperatives for cultivation 
rights over collectively-owned land. Investors also may 
contract directly with the government to cultivate uncultivated 
land. Combined with favorable tax treatment of agricultural 
investment, this would set the stage for increased foreign 
investment in Chinese agriculture, which could lead ultimately 
to the outsourcing of farming to China.

Mining

    Current Chinese law encourages investment, including 
foreign investment, in the exploitation or mining of many of 
China's mineral and natural resources. Exploitation and mining 
rights, including those held by a foreign invested enterprise, 
are transferable under the new law.\101\ The impact of 
transferability on mining sector business may be significant.

Real Estate

    Many aspects of the new law augur well for the real estate 
sector. But news from other quarters of China's bureaucracy 
have dampened enthusiasm. On July 10, 2007, the State 
Administration of Foreign Exchange reportedly issued an 
internal Circular (known to industry insiders as ``Circular 
130'') on the Distribution of the List of the First Group of 
Foreign Invested Real Estate Projects which have Filed with 
MOFCOM. Experts familiar with the document warn that these 
measures place significant restrictions on foreign investors in 
China's Real Estate market:

        . . . Circular 130 is another restrictive measure of 
        the Chinese government to cool down foreign investment 
        in its real estate market, and its implications are 
        very significant. Foreign investors may lose the 
        ability to invest in new projects or claim ahead of 
        other creditors of the onshore company to the extent 
        that loans must now be injected as equity. Investors 
        may also lose an important means for remittance of 
        funds offshore in ways other than as dividends out of 
        earnings and surplus, as any reductions in registered 
        capital now require the consent of MOFCOM.\103\

                           LABOR CONTRACT LAW

    In June 2007, the Standing Committee of the National 
People's Congress passed a new Labor Contract Law that governs 
the 
contractual relationship between workers and employers from 
enterprises, individual economic organizations, and private 
non-enterprise units. The law will take effect in January 2008. 
[See Section II--Worker Rights.]

Impact of Emergencies: Food Safety, Product Quality, and Climate Change

    The context of China's domestic rule of law development 
changed from 2006 to 2007, with a sharp rise in domestic and 
international concerns over food safety, product quality, and 
climate change. These concerns, and China's response to them, 
will both shape and be shaped by China's rule of law reforms. 
Because their impact on the course of rule of law in China is 
expected to be large, these developments are covered here in 
added detail.

                              FOOD SAFETY

    Domestic and international concerns over the safety of 
Chinese food products have increased significantly in the last 
five years due to unsafe food production and insufficient 
government oversight. The Ministry of Health (MOH) reported 
that 31,860 people suffered from food poisoning in 2006.\1\ A 
recent survey found that more than 80 percent of Chinese 
consumers are now willing to pay a premium for food safety, up 
from 57 percent in 2005.\2\ In a particularly notorious case 
from April 2004, 13 babies died and hundreds more suffered from 
serious malnutrition after consuming counterfeit and 
substandard milk powder in Anhui province.\3\ In early 2007, 
pet food produced in China and containing wheat gluten 
contaminated with melamine reportedly caused the deaths of at 
least 16 cats and dogs in the United States, and sickened some 
12,000 pets.\4\ In June 2007, the U.S. Food and Drug 
Administration (U.S. FDA) restricted the import of five types 
of farm-raised fish and shrimp from China because they were 
found to contain unsafe antibiotics.\5\

             Unsafe Food Production: Regulatory Challenges

    With the transition to a market economy, many of China's 
food producers are small landholders or family workshops who 
rely on excessive amounts of fertilizers, pesticides, or 
veterinary drugs to maintain high production rates.\6\ Water 
and soil used for this production may already be contaminated 
with metals from the poor disposal of industrial and electronic 
waste.\7\ For example, up to 10 percent of farmland in China is 
thought to be polluted, and 12 million tons of grain is 
contaminated annually with heavy metals in the soil.\8\ 
Inferior raw materials, the use of production chemicals 
unsuitable for food, and the lack of a safe infrastructure for 
food delivery and storage also contribute to substandard food 
products.\9\

            Insufficient Oversight: Regulatory Fragmentation

    Fragmentation of regulatory authority among 10 major 
government agencies makes it more difficult for the government 
to regulate the smaller family workshops that comprise the 
majority of China's food producers and processing centers.\10\ 
[See Tables 1 and 2 for a list of government agencies involved 
in the oversight of food safety at the national and local 
level.] According to the State Council White Paper on Food 
Quality and Safety released in August 2007, China has 448,000 
food production and processing enterprises, of which 353,000, 
or 78.8 percent, are small businesses or workshops with fewer 
than 10 employees.\11\ Public officials established the State 
Food and Drug Administration (SFDA) in 2003 to consolidate 
oversight of food safety management, but resistance from other 
agencies who fear losing their revenue-generating ability has 
limited the transfer of power and responsibility to the SFDA. 
As a result, the SFDA and its local food and drug bureaus 
remain hampered in their ability to effectively regulate food 
safety and coordinate policy below the provincial level. The 
local bureaus remain beholden to local governments for their 
budgetary and personnel allocations, and approvals in 
promotions for their staff.\12\ The central government has not 
instituted an effective regulatory system in rural areas that 
is in keeping with similar improvements in urban areas, 
including an increase in urban residents' awareness of their 
rights. Only some of the agencies have extended their presence 
down to the township and village level, and this regulatory 
void has led many counterfeiters to distribute their products 
in these areas, much to the worry of villagers.\13\

 Government Response to Domestic and International Food Safety Concerns

    China's international response is to reiterate its status 
as a developing country that had a late start in developing 
foundations for food and drug supervision, and to assert that 
it is the foreign media that exaggerate the extent of safety-
related issues. Official Chinese figures report that 99 percent 
of its exports meet quality standards.\14\ In late July and 
early August 2007, high-level officials from both the European 
Union and the United States met with Chinese public officials 
to discuss the quality and safety of China's exports and ways 
to improve inspections.\15\ Both U.S. and Chinese media have 
reported back-and-forth blocking or banning of products from 
the other country.\16\ While each country annually blocks food 
exports from the other country,\17\ some of the current exports 
are probably being blocked in response to heightened attention 
on China's export safety issues.

                           Domestic Response

    Domestically, central government reform of the food safety 
system has been in progress throughout the last five years, 
though largely in response to domestic food-related incidents. 
China's domestic response is aimed at increasing inspections 
and oversight of food producers; strengthening law enforcement, 
including increasing the punishment for violators; establishing 
a national recall system, national standards, and an emergency 
response mechanism; and strengthening international 
cooperation. To date, China has issued 14 national laws, 16 
administrative regulations, 76 departmental regulations, and a 
five-year plan on food safety.\18\ Within the past year, local 
governments have passed 129 regulations and other policy 
directives relating to food safety.
    Since SFDA's creation in 2003, the central government has 
passed regulations on food quality monitoring and hygiene 
licensing, and strengthened the regulatory framework in local 
and rural areas. There are also periodic national campaigns 
against counterfeit and substandard products. For example, 
between 2006 and June 2007, inspectors from the General 
Administration for Quality Supervision, Inspection and 
Quarantine (AQSIQ) closed 180 food plants and discovered more 
than 23,000 food safety violations.\19\ SFDA has also promoted 
the establishment of local food safety commissions to improve 
interagency coordination and cooperation.\20\ As of August 28, 
2007, food safety commissions have been established in all 
provinces, and in most major cities. In addition to a national 
informational Web site on food safety established by the SFDA, 
many of these provincial and municipal commissions have also 
established active informational Web sites.\21\ In terms of 
rural areas, Zhejiang province, for example, established a 
rural consumer rights protection network to help residents seek 
redress from producers or sellers of counterfeit or substandard 
products.\22\ A municipal bureau in Zhejiang noted several 
shortcomings with this network, however, including its lack of 
financial resources and influence, and the lack of incentives 
to conduct inspections.\23\ By mid-2005, SFDA and the State 
Administration for Industry and Commerce (SAIC) had taken 
measures to boost information gathering in rural areas by 
recruiting volunteer food safety supervisors or coordinators to 
monitor food safety and the food production situation.\24\
    The central government initiated the market access system 
in 2001, whereby food producers will be issued production 
licenses only when they have met the official standards for 
production conditions and facilities and the quality of 
foodstuffs.\25\ This system, however, has undermined the 
government's objective to increase employment by forcing many 
of the smaller food producers to close.\26\ Because 
implementation of this system has forced noncompliant smaller 
food producers to close, and because those producers contribute 
to local economic performance on which local officials are 
evaluated, the system must overcome political constraints that 
are not insignificant. The AQSIQ announced that it hopes to cut 
the number of these workshops in half by the end of 2009.\27\
    After a series of domestic incidents in 2004, most notably 
the Anhui ``fake baby milk powder'' scandal, the State Council 
issued the Decision on Further Strengthening Food Safety 
Supervision in September 2004 to clarify the functions and 
responsibilities of the agencies with food safety oversight. 
Under this decision, the State Council divided food safety 
supervision into four ``monitoring links,'' with each link 
managed by either the Ministry of Agriculture (MOA), AQSIQ, 
SAIC, or MOH. For example, MOA supervises the production of 
primary agricultural products; AQSIQ supervises the quality and 
safety of food processing, as well as imported and exported 
agricultural products and other foodstuffs; SAIC supervises 
food circulation and distribution; while MOH supervises the 
catering and restaurant industry. The SFDA is charged with the 
comprehensive supervision and coordination of food safety, and 
manages the investigation of major incidents and the punishment 
of those responsible for them.\28\
    Even though the State Council has adopted measures to 
clarify the regulatory responsibilities of different agencies, 
recent food safety incidents reveal that there are still 
various regulatory loopholes that food producers and exporters 
can use to evade quality inspections. In terms of the pet food 
incident in 2007, AQSIQ noted that one of the companies who 
used melamine in its product bypassed quality checks by 
labeling its product as exports not subject to inspection.\29\
    The current international spotlight has accelerated the 
issuance and implementation of regulations and other policy 
directives. For example, between June and July 2007, both 
President Hu Jintao and Premier Wen Jiabao pledged to improve 
food safety and product quality, which reflects high-level 
government attention to the issue.\30\ On July 25, 2007, the 
State Council published draft regulations to strengthen the 
food safety oversight responsibilities of local governments, to 
increase the punishment for illegal activity, and to strengthen 
international cooperation efforts.\31\ The meeting, chaired by 
Premier Wen Jiabao, also promised better safety checks and 
greater openness with quality problems.\32\ In addtion, the 
central government has established an emergency response 
mechanism among several ministries and a national food product 
tracking system.\33\ At the local level, the Beijing Municipal 
People's Congress is considering the passage of regulations 
regarding food safety that offer producers and vendors 
incentives to voluntarily recall unsafe food, which is of 
special concern for Beijing during the 2008 Summer 
Olympics.\34\ For example, Article 28 states that producers and 
vendors could receive lenient treatment or be exempted from 
penalties if they took the initiative to promptly recall unsafe 
food. The draft regulations also contain 18 articles regarding 
penalties for violations, including a maximum fine of 500,000 
yuan (US$66,556). Some policymakers, however, believe that 
these penalties are too lenient to act as an effective 
deterrent.\35\
    In terms of policy objectives, the State Council publicly 
released its national Five-Year Plan on Food and Drug Safety 
(2006-2010) on June 5, 2007,\36\ with the aim to implement 
strict controls to prevent farmers and producers from overusing 
pesticides and additives, to publish online lists of 
blacklisted food exporters and 
restrict their ability to export, to strengthen investigations 
of major food safety incidents, to upgrade standards, and to 
severely punish offenders.\37\ The AQSIQ announced plans to 
implement the first national recall system by the end of 2007, 
which would contribute to building a food safety credibility 
system, if implemented effectively, and would fill a regulatory 
void in the national law.\38\ The Standardization 
Administration of China and the AQSIQ also aim to standardize 
processes in the food industry by changing, abolishing, and 
amending standards so that the average duration of food 
standards will be reduced from 12 years to 4\1/2\ years by 
2010.\39\

    Table 1.--Major National Government Departments With Food Safety
                       Oversight Responsibilities
  (Note: Under some circumstances, other national-level departments not
        listed here may perform food safety oversight functions.)
------------------------------------------------------------------------
                                              Main Responsibility With
             Government Agency                  Regard to Food Safety
------------------------------------------------------------------------
State Food and Drug Administration          Established in 2003, the
 (SFDA)\40\                                  SFDA is charged with
                                             comprehensive supervision
                                             over the safety management
                                             of food and health foods.
                                             Within the SFDA, there is a
                                             Department of Food Safety
                                             Coordination and a
                                             Department of Food Safety
                                             Supervision.
------------------------------------------------------------------------
General Administration of Quality           AQSIQ is charged with the
 Supervision, Inspection and Quarantine      supervision, management,
 (AQSIQ)\41\                                 inspection, and quarantine
                                             of import and export
                                             products, including food,
                                             and their producers. AQSIQ
                                             has a few departments that
                                             directly focus on food
                                             safety, including the
                                             Bureau of Import and Export
                                             Food Safety and the
                                             Department of Supervision
                                             on Food Production.
------------------------------------------------------------------------
Ministry of Health (MOH)\42\                MOH is charged with the
                                             supervision of food health,
                                             the formulation of food and
                                             cosmetics quality control
                                             protocols, and
                                             responsibility for its
                                             accreditation, as well as
                                             the supervision of the
                                             catering and restaurant
                                             industry.
------------------------------------------------------------------------
Ministry of Agriculture (MOA)\43\           MOA is charged with the
                                             supervision of the
                                             production of primary
                                             agricultural products.
------------------------------------------------------------------------
Ministry of Commerce (MOFCOM)\44\           MOFCOM is charged with
                                             researching and managing
                                             measures for the regulation
                                             of import and export
                                             commodities and compiling a
                                             catalogue of these
                                             regulations, organizing the
                                             implementation of an import
                                             and export quota plan,
                                             deciding on quota quantity,
                                             issuing licenses, and
                                             drafting and implementing
                                             import and export commodity
                                             quota tendering policies.
                                             In addition, it is charged
                                             with a broader mandate to
                                             formulate development
                                             strategies, guidelines, and
                                             policies that relate to
                                             domestic and international
                                             trade, and economic
                                             cooperation.
------------------------------------------------------------------------
State Administration for Industry and       SAIC is charged with the
 Commerce (SAIC)\45\                         supervision of food
                                             circulation and
                                             distribution.
------------------------------------------------------------------------


   Table 2.--Major Local-Level Government Departments With Food Safety
                       Oversight Responsibilities
       (Based on analysis of Hangzhou City, Zhejiang province)\46\
------------------------------------------------------------------------
                                              Main Responsibility With
             Government Agency                  Regard to Food Safety
------------------------------------------------------------------------
Municipal Food and Drug Supervision Bureau  Responsible for the
                                             comprehensive supervision
                                             and management of food
                                             safety, and the
                                             investigation and
                                             prosecution of major
                                             incidents.
------------------------------------------------------------------------
Municipal Party Committee Propaganda        Responsible for propaganda
 Department                                  work related to food
                                             safety.
------------------------------------------------------------------------
Municipal Party Committee Rural Affairs     Responsible for coordinating
 Office                                      work with the Municipal
                                             Rural Affairs Office's
                                             related system to monitor
                                             food safety.
------------------------------------------------------------------------
Municipal Development and Reform            Responsible for carrying out
 Commission                                  the implementation of
                                             policies relating to the
                                             development of the food
                                             industry.
------------------------------------------------------------------------
Municipal Economic Commission               Responsible for directing
                                             and managing the food
                                             production industry.
------------------------------------------------------------------------
Municipal Education Bureau                  Responsible for school food
                                             safety management and food
                                             safety and health education
                                             work.
------------------------------------------------------------------------
Municipal Science and Technology Bureau     Responsible for the
                                             formulation and
                                             implementation of food
                                             safety science and
                                             technology plans.
------------------------------------------------------------------------
Municipal Public Security Bureau            Responsible for
                                             investigating and
                                             prosecuting suspected
                                             criminals in cases
                                             involving the production or
                                             sale of counterfeit,
                                             poisonous, or harmful food
                                             products.
------------------------------------------------------------------------
Municipal Supervision Bureau                Responsible for
                                             participating in the
                                             investigation, handling,
                                             inspection, supervision,
                                             and disciplining of those
                                             responsible for major food
                                             safety incidents.
------------------------------------------------------------------------
Municipal Finance Bureau                    Responsible for safeguarding
                                             expenses related to food
                                             safety monitoring work and
                                             the supervision of the use
                                             of funds.
------------------------------------------------------------------------
Municipal Agricultural Bureau (Aquatic      Responsible for the
 Product Division)                           monitoring of the
                                             production of primary
                                             agricultural products.\47\
------------------------------------------------------------------------
Municipal Forestry and Water Bureau         Responsible for providing
                                             guidance, coordination,
                                             supervision, and management
                                             on the use of terrestrial
                                             animals and wildlife, and
                                             forest products development
                                             plans.
------------------------------------------------------------------------
Municipal Trade Bureau                      Responsible for the
                                             management of the livestock
                                             slaughtering industry and
                                             the supervision and
                                             management of slaughtering
                                             activities.
------------------------------------------------------------------------
Municipal Grain Bureau                      Responsible for management
                                             work to ensure the quality
                                             of grain that has been
                                             purchased, in storage, and
                                             in transit, and the safety
                                             of unprocessed food grains.
------------------------------------------------------------------------
Municipal Culture, Radio, Television, and   Responsible for monitoring
 News Publishing Bureau\48\                  and discipline work related
                                             to the city's printing
                                             industry of packaging
                                             materials for food
                                             products.
------------------------------------------------------------------------
Municipal Health Bureau                     Responsible for the
                                             supervision of food
                                             consumption in the catering
                                             and restaurant
                                             industry.\49\
------------------------------------------------------------------------
Municipal Environmental Protection Bureau   Responsible for the
                                             monitoring, supervision,
                                             and investigation of
                                             environmental pollution
                                             that affects food.
------------------------------------------------------------------------
Municipal Industry and Commerce Bureau      Responsible for the
                                             supervision of the
                                             circulation and
                                             distribution of food.\50\
------------------------------------------------------------------------
Municipal Quality Supervision Bureau        Responsible for the
                                             supervision of food product
                                             quality and safety during
                                             processing.\51\
------------------------------------------------------------------------
Municipal City Management Law Enforcement   Responsible for the
 Bureau                                      investigation and
                                             prosecution of unlicensed
                                             outdoor sellers and
                                             unlicensed outdoor
                                             breakfast stalls.
------------------------------------------------------------------------
Municipal Legal Affairs Office              Responsible for the
                                             supervision and inspection
                                             of food safety work units
                                             in charge of law
                                             enforcement, and to ensure
                                             that they are administering
                                             their duties according to
                                             law.
------------------------------------------------------------------------
Municipal Supply and Marketing Cooperative  Responsible for the supply
                                             and marketing system of
                                             agricultural products in
                                             wholesale markets, the
                                             production, processing, and
                                             circulation of agricultural
                                             products, and the
                                             management of the
                                             agricultural industry's
                                             means of production.
------------------------------------------------------------------------


  Table 3.--Select Major Events and Government Food Safety Initiatives
                            From 2003 to 2007
------------------------------------------------------------------------
                   Date                              Initiative
------------------------------------------------------------------------
September 2004                              The State Council issued the
                                             Decision on Further
                                             Strengthening Food Safety
                                             Supervision.
------------------------------------------------------------------------
September 23, 2004                          SFDA issued its opinions
                                             regarding the
                                             implementation of the
                                             Decision of the State
                                             Council to Further
                                             Strengthen Food Safety.
------------------------------------------------------------------------
December 2004                               The Standardization
                                             Administration of China,
                                             the National Development
                                             and Reform Commission, MOA,
                                             MOFCOM, MOH, AQSIQ, SFDA,
                                             China National Light
                                             Industry Associations, and
                                             China General Chamber of
                                             Commerce jointly issued the
                                             National Food Standards
                                             Development Plan 2004-2005.
------------------------------------------------------------------------
March 2007                                  Pet food incident: Pet food
                                             companies initiated a
                                             national recall in the
                                             United States after tainted
                                             wheat gluten was found in
                                             cat and dog food. The
                                             tainted wheat gluten was
                                             eventually linked to the
                                             deaths of at least 16 cats
                                             and dogs and the illnesses
                                             of some 12,000 pets.
------------------------------------------------------------------------
May 7, 2007                                 Investigations revealed that
                                             two Chinese corporations,
                                             Xuzhou Anying Biologic
                                             Technology Development Co.
                                             and Binzhou Futian Biology
                                             Technology Co., are linked
                                             to the tainted wheat
                                             gluten.
------------------------------------------------------------------------
May 10, 2007                                The State Council vowed to
                                             crackdown on the food
                                             industry.
------------------------------------------------------------------------
May 24, 2007                                Toothpaste incident: The
                                             U.S. FDA announced that it
                                             would block imports of
                                             toothpaste from China due
                                             to reports elsewhere that
                                             diethylene glycol was found
                                             in toothpaste exported from
                                             China.
------------------------------------------------------------------------
May 30, 2007                                AQSIQ announced plans to
                                             establish a national food
                                             recall system.
------------------------------------------------------------------------
June 5, 2007                                The State Council publicly
                                             released its national 11th
                                             Five-Year Plan on Food and
                                             Drug Safety (2006-2010).
------------------------------------------------------------------------
July 25, 2007                               The State Council released
                                             the Special Regulations of
                                             the State Council on
                                             Intensifying Safety Control
                                             of Food and Other Products
                                             (No. 503 Decree of the
                                             State Council).
------------------------------------------------------------------------
August 17, 2007                             The Information Office of
                                             the State Council released
                                             a White Paper entitled
                                             ``China's Food Quality and
                                             Safety.''
------------------------------------------------------------------------
End of 2007                                 AQSIQ plans to implement the
                                             first national food recall
                                             system.
------------------------------------------------------------------------


Table 4.--Number of Food Safety Laws and Regulations Issued By Month and
                  Level of Government in China in 2007
------------------------------------------------------------------------
                                National and
       Month (in 2007)          Local Total        National       Local
------------------------------------------------------------------------
January                                   17                3        14
------------------------------------------------------------------------
February                                  12                2        10
------------------------------------------------------------------------
March (Note: pet food                     13                2        11
 incident first begins)
------------------------------------------------------------------------
April                                     21                1        20
------------------------------------------------------------------------
May (Note: toothpaste                     10                4         6
 incident, and widespread
 reporting of poisonous
 cough medicine, first
 begins)
------------------------------------------------------------------------
June                                      18                1        17
------------------------------------------------------------------------
July                                       8                0         8
------------------------------------------------------------------------
August                                     3                1         2
========================================================================
  Total (as of August 28,                102               14        88
 2007)
------------------------------------------------------------------------

                        NON-FOOD PRODUCT QUALITY

    Drug and product safety have been a longstanding domestic 
issue of concern in China. Recent incidents involving poisonous 
diethylene glycol in toothpaste and cough medicine, including 
the reported deaths of at least 100 people in Panama, have 
captured international attention.\52\ A survey by the General 
Administration of Quality Supervision, Inspection and 
Quarantine released in 2007 discovered that 23 percent of 
locally made toys failed to meet quality standards,\53\ and at 
least 18 Chinese people died in 2006 when they ingested 
medicine containing diethylene glycol.\54\ Since the 1980s, the 
Chinese central government has passed numerous national laws, 
regulations, and other legislative measures concerning drug and 
product safety.
    Despite the number of laws and regulations in the area of 
drug and product safety,\55\ domestic and international 
consumers continue to face the possibility of being harmed by 
products made in China without a standardized and transparent 
way to seek redress. For example, the Chinese government has 
repeatedly ignored or delayed responses to requests by foreign 
government officials to release the identity of companies that 
manufactured substandard drugs and to investigate these 
companies.\56\ Without this information and greater 
transparency, it is difficult for domestic and international 
consumers to bring cases against these companies and to avoid 
future incidents. Rural consumers and consumers in developing 
countries, who may not have adequate access to resources or 
knowledge of their rights, are particularly hard hit. Scholars 
have noted an influx of counterfeit goods into rural parts of 
China in recent years and a corresponding lack of bureaus at 
the local level who can address this influx.\57\
    Chinese public officials have taken some steps in the past 
year to address concerns over drug and product safety, possibly 
in response to recent incidents and international pressure, 
although these steps are reactive measures that are 
insufficient to address the root causes of safety concerns. For 
example, the Supreme People's Court approved the execution of 
Zheng Xiaoyu, former Commissioner of the State Food and Drug 
Administration (SFDA), in July 2007 after he was charged with 
accepting bribes from pharmaceutical companies in exchange for 
approving drug production licenses.\58\ Commentators have noted 
that Zheng's swift trial and execution were meant to serve as a 
warning to other officials,\59\ but it remains to be seen if 
Zheng's execution will serve as an adequate deterrent and have 
a lasting impact, especially given the lack of mechanisms in 
place to consistently and effectively address official 
corruption and counterfeit products.
    Amid recent incidents, the central government highlighted 
the forthcoming release of a revised drug registration 
regulation and its funding pledge of 8.8 billion yuan (US$1.1 
billion), which was first approved in 2005 as part of the 
government's 11th Five-Year Plan (2006-2010). The regulations 
charge the SFDA with the responsibility to fine companies that 
submit counterfeit drug samples or inaccurate information, to 
establish a panel system to review drug approvals, to raise 
approval standards, and to disclose on the Internet the name of 
the official reviewing a drug application and its stage in the 
submission process.\60\ The SFDA and corresponding bureaus will 
use the 8.8 billion yuan to improve infrastructure, such as the 
renovation or building of inspection and testing facilities. 
The central government will contribute 71 percent of the funds, 
with the remainder coming from local governments.\61\
    Despite these initiatives, serious challenges remain, 
including local government implementation of legislative 
measures, official corruption, and inadequate attempts to 
address the counterfeiting of products. Overall, enforcement 
remains hindered by China's existing regulatory structure, such 
as local food and drug safety bureaus that are beholden to 
local governments for their budgetary and personnel 
allocations, and national agencies providing these bureaus with 
non-binding and often unfunded policy directives for 
implementation.\62\ Local government officials, whose 
promotions are largely based on their ability to promote 
economic growth, have more incentive to allow the 
counterfeiting of products than to effectively regulate drug 
and product safety.\63\ In addition, regulatory loopholes 
hamper the government's oversight ability, with dangerous 
consequences for consumers. For example, in the case involving 
at least 100 reported deaths in Panama due to the use of 
diethylene glycol in cough medicine, the Ministry of Foreign 
Affairs noted that neither the chemical company that made the 
cough medicine, nor the state-owned company that exported it, 
fell under the regulatory supervision of the SFDA.\64\ These 
companies were not classified as pharmaceutical production or 
sales businesses. In the case of the chemical company, it 
classified itself as making chemical industry raw material and 
was not licensed to make pharmaceutical products nor subject to 
inspections under the SFDA.\65\
    Limited civil society activity, as well as continued 
official harassment of whistleblowers, place additional 
limitations on the government's ability to effectively regulate 
the drug and product industries and ensure consumer safety. 
Currently, there is a lack of effective consumer protection 
laws and very few consumer associations or other civil society 
groups to help monitor the quality and safety of consumer 
products.\66\ Instead, public officials continue to punish 
those who try to notify others, via the Internet or through 
other forms of communication, of collusion between food and 
drug agencies and industry, or of unsafe or unconscionable 
industry practices.\67\
    In 2006, law enforcement officials in Haikou city, Hainan 
province, detained Zhang Zhijian for nine months for reposting 
an anonymously written essay on the Internet that detailed 
collusion between high-level officials in the SFDA and a 
pharmaceutical company.\68\ Public security officials detained 
him on ``suspicion of damaging company reputation'' after the 
company filed a complaint. He was finally released after 
investigations revealed that the accusations of collusion and 
corruption were true.\69\ As a result of his detention, Zhang 
lost his job and reported difficulty finding other 
employment.\70\ On March 26, 2007, Zhang filed a lawsuit with a 
Haikou city court seeking state compensation for wrongful 
detention and damage to reputation.\71\ The court awarded Zhang 
24,000 yuan (US$3,190) on July 20, 2007.\72\
    In another case, Zhou Huanxi posted a story online in March 
2007 that described how the company she worked for made 
substandard tonic for pregnant women.\73\ When she initially 
tried to inform public officials in 2002, her employer fired 
her from her job and she was imprisoned for three years and six 
months on charges of extortion.\74\ Zhou was released in 
November 2005.\75\ Although there are provisions in the State 
Compensation Law that allow for individuals to sue the 
government for wrongful punishment, these provisions are not 
traditionally thought of as a whistleblower protection law 
since they only apply after the fact, nor are there other 
whistleblower protection laws currently in place.\76\

                             CLIMATE CHANGE

    Some Chinese government officials reportedly have made 
statements that recognize that human activity worldwide is 
contributing to greenhouse gas (GHG) emissions. For example, 
China's first National Report on Climate Change, released in 
December 2006 by the Ministry of Science and Technology, 
concludes that ``greenhouse gas (GHG) emissions from human 
activity contribute to increasingly serious global climate 
change problem.'' \77\ China's domestic stance regarding 
climate change, however, is quite different from its stance in 
international forums. Internationally, China assumes the 
posture of a developing country, which drives much of its 
behavior with respect to the issue of climate change in the 
international context. Since 2002, China has announced domestic 
goals and initiated reforms that are aimed at energy security 
and China's economic development strategies, but these policies 
can also help to combat climate change if implemented properly 
at the local level. There is, however, no current policy that 
directly addresses China's heavy reliance on coal, and current 
measures are not enough to stop emissions from increasing 
significantly. It is unlikely that China will accept a 
mandatory reduction in its GHG emissions.\78\
    The Chinese government changed its stance on climate change 
in 2002 as China's energy consumption growth surpassed its 
economic growth for the first time in modern history.\79\ China 
could no longer claim that it was not contributing to the 
severity of global GHG emissions as it pursued rapid 
industrialization. President Hu Jintao's administration came 
into power at the same time and pledged to move away from the 
``economic growth at all costs'' stance of his predecessor to a 
policy approach that, in Hu's words, called for ``scientific 
development'' and a ``harmonious society'' with a focus on 
conservation and sustainable development (``circular 
economy'').\80\ These two pledges reflect concerted efforts to 
combat climate change, and public officials have taken some 
steps to mitigate and adapt to climate change by adopting laws 
and other policy initiatives and by establishing a National 
Coordination Committee. Public officials could achieve more, 
but they are hampered by ineffective administrative and market 
incentives that fail to encourage local compliance, and by 
limitations on civil society activity.
    Since 2002, China's annual GHG emissions have also 
increased rapidly due to strong economic growth and an 
increasing demand for energy.\81\ The International Energy 
Agency has projected that China will surpass the United States 
in annual GHG emissions by 2010, and possibly as early as 
2007.\82\ In June 2007, the Netherlands Environmental 
Assessment Agency noted that China's emissions for 2006 
surpassed the emissions from the United States in that 
year.\83\ Although China's per capita GHG emissions and 
cumulative GHG emissions are still comparatively low,\84\ its 
increasing share of global GHG emissions may be a trend that 
cannot be significantly reduced or reversed without 
governmental intervention.

            China's International Response to Climate Change

    China ratified the UN Framework Convention on Climate 
Change in 1993 and the Kyoto Protocol (Protocol) in 2002.\85\ 
As a non-Annex 1 (developing) country, China has no binding 
emissions limits under the Protocol's first commitment period 
from 2008 to 2012. China is, however, an active participant in 
the Clean Development Mechanism established under the Protocol, 
which allows developed countries to use emissions credits for 
reductions in developing countries toward their own Protocol 
targets.\86\ Despite China's increasing share of global GHG 
emissions, its current position as a developing country 
translates into ``common but differentiated'' responsibilities 
that are based more on its level of historical responsibility 
for the problem, its level of economic development, and its 
capability to act on the problem, than on its current annual 
GHG emissions rate.\87\ The Chinese government continues to 
welcome international cooperation, and bilateral and 
multilateral exchanges with the United States and other 
countries in the form of the Asia-Pacific Partnership on Clean 
Development and Climate and the China-EU Partnership, that help 
to promote clean energy production projects and technology 
transfer.\88\

              China's Domestic Response to Climate Change

    Motivated by energy security concerns and its economic 
growth targets, the Chinese government has announced domestic 
goals and initiated numerous reforms which, if effectively 
implemented, could help to combat climate change by conserving 
energy, reducing pollutant emissions, and increasing the use of 
renewable energy. The government has also enacted laws that 
relate to energy conservation, including the Energy 
Conservation Law (1997) and the National Renewable Energy Law 
(2005). There is, however, no policy that directly addresses 
China's heavy reliance on coal, and current measures are not 
enough to stop such emissions from increasing 
significantly.\89\
    In its 11th Five-Year Plan (2006-2010), the central 
government has pledged to ``conserve energy and reduce 
pollution,'' but has failed to meet goals set forth in the 
plan.\90\ In 2006, China's energy consumption per unit of GDP 
decreased by 1.2 percent despite a stated goal of 4 
percent.\91\ Similarly, air and water pollutant levels in 2006 
increased by 1.8 and 1.2 percent, respectively, despite the 
government's stated goal of reducing pollutants by 2 
percent.\92\ The failure to meet such goals may indicate that 
administrative and market-oriented incentives in place at the 
local level are inadequate to persuade local officials to adopt 
more sustainable forms of economic growth.\93\
    Over the past year, the government published reports that 
suggest a high level of government attention to the issue of 
climate change, but it remains to be seen how vigorous local 
implementation will be. The central government released its 
first National Assessment Report on Climate Change in December 
2006,\94\ and a General Work Plan for Energy Conservation and 
Pollutant Discharge Reduction on June 4, 2007, that outlines 
how China intends to address climate change over the next five 
years.\95\ The plan's release was delayed due to reported 
differences in official views at the national and local levels, 
but it was eventually published ahead of the opening of the G8 
summit on June 6, 2007. Specifically, the plan establishes the 
formation of regional administration systems to better 
coordinate interagency work on climate change, energy 
efficiency, and renewable energy.\96\ The plan also establishes 
a ``National Leading Group on Climate Change,'' headed by 
Premier Wen Jiabao. In addition, there have been increases in 
the level of staffing for key agencies such as the statistics 
bureaus, which can strengthen data collection so as to better 
inform policy decisions.\97\

  Effects of Climate Change and Expanding the Debate on Climate Change

    The effects of China's heavy reliance on coal, the 
resultant pollution and GHG emissions, and policies to address 
these issues, have serious implications for domestic and 
international citizens' public health, and the global 
environment and economy. For example, air pollutants from China 
have been detected on the west coast of the United States, and 
sand storms that originate in China have reached its Asian 
neighbors.\98\ Energy conservation and pollution reduction, and 
policies that address these issues, are thus also quality of 
life and public safety issues, exacerbated by official inaction 
or complicity that results in perceived harm. In addition, 
access to energy in rural areas, the contribution that energy 
security can provide in the development of the rule of law and 
government transparency, and the still preliminary level of 
engagement of domestic civil society organizations in work on 
climate change are 
examples of additional issues that are not part of the 
traditional debate on climate change.
    Policy approaches that attempt to control large amounts of 
emissions from a group of sources face greater challenges and 
are not as well-developed in China as they are elsewhere. In 
one such approach the government mandates an overall cap, or 
the maximum amount of emissions per compliance period, and lets 
sources, such as companies, decide how to use their individual 
emissions allowances. Under this system, known as cap and 
trade, a company might decide to use pollution control 
technology or more efficient energy sources in order to not 
exceed its cap, or purchase additional allowances from other 
companies if the company believes it will exceed its cap. 
Companies able to lower their emissions below their allotted 
allowance can have the difference credited for later use or 
sell these credits to another company for a profit.\99\ This 
approach has been used in the United States with regard to 
sulfur dioxide emissions.\100\ In part because some plants 
increase levels of pollutants and receive credits for reducing 
them later, cap and trade systems are not foolproof. There is 
also concern that emissions allowances for certain practices, 
such as agricultural offsets, may be overvalued, without a way 
to properly measure and verify if this is indeed the case.\101\
    Given China's current information collection system, level 
of transparency, and accountability, it is not clear whether a 
system that depends on these factors can be implemented in a 
manner that effectively reduces carbon dioxide and other 
greenhouse gases. Challenges that confront effective 
implementation in China include the government's inability to 
accurately and consistently collect data on emissions, which is 
essential to establishing and maintaining an effective 
program.\102\ In addition, the government must have 
accountability mechanisms in place that allow for the accurate 
reporting of emissions, and the rigorous and consistent 
enforcement of penalties for fraud and noncompliance. 
Transparency in areas such as public access to source-level 
emissions and allowance data are also important.\103\ The 
accuracy and consistency of information, accountability, and 
transparency are all issues associated with persistent 
institutional challenges in China. [See Section II--Freedom of 
Expression and Section II--Rights of Criminal Suspects and 
Defendants.] Other options exist that may help to reduce 
greenhouse gas emissions. Some that are being attempted or 
discussed in other countries as well as in China include: 
implementing a tax on carbon emissions, regulatory measures 
that require industries to use the cleanest available 
technologies, policies that promote research and development 
into clean technologies, and policy changes that favor non-
carbon emitting technologies such as nuclear or wind power 
generation.

                   IV. Tibet: Special Focus for 2007


                                FINDINGS

        <bullet> No progress in the dialogue between China and 
        the Dalai Lama or his representatives is evident. After 
        the Dalai Lama's Special Envoy returned to India after 
        the sixth round of dialogue, he issued the briefest and 
        least optimistic statement to date. Chinese officials 
        showed no sign that they recognize the potential 
        benefits of inviting the Dalai Lama to visit China so 
        that they can meet with him directly.
        <bullet> Chinese government enforcement of Party policy 
        on religion resulted in an increased level of 
        repression of the freedom of religion for Tibetan 
        Buddhists during the past year. The Communist Party 
        intensified its long-running anti-Dalai Lama campaign. 
        Tibetan Buddhism in the Tibet Autonomous Region (TAR) 
        is coming under increased pressure as recent legal 
        measures expand and deepen government control over 
        Buddhist monasteries, nunneries, monks, nuns, and 
        reincarnated lamas. The Chinese government issued legal 
        measures that if fully implemented will establish 
        government control over the process of identifying and 
        educating reincarnated Tibetan Buddhist teachers 
        throughout China.
        <bullet> Chinese authorities continue to detain and 
        imprison Tibetans for peaceful expression and non-
        violent action, charging them with crimes such as 
        ``splittism,'' and claiming that their behavior 
        ``endangers state security.'' The Commission's 
        Political Prisoner Database listed 100 known cases of 
        current Tibetan political detention or imprisonment as 
        of September 2007, a figure that is likely to be lower 
        than the actual number of Tibetan political prisoners. 
        Based on sentence information available for 64 of the 
        current prisoners, the average sentence length is 11 
        years and 2 months. Tibetan Buddhist monks and nuns 
        make up a separate set of 64 of the known currently 
        detained or imprisoned Tibetan political prisoners as 
        of September 2007, according to data available in the 
        Commission's Political Prisoner Database. Based on data 
        available for 42 currently imprisoned Tibetan monks and 
        nuns, their average sentence length is 10 years and 4 
        months. (It is a coincidence that the number of monks 
        and nuns, and the number of prisoners for whom the 
        Commission has sentence information available, are both 
        64).
        <bullet> In its first year of operation, the Qinghai-
        Tibet railway carried 1.5 million passengers into the 
        TAR, of whom hundreds of thousands are likely to be 
        ethnic Han and other non-Tibetans seeking jobs and 
        economic opportunities. The government is establishing 
        greater control over the Tibetan rural population by 
        implementing programs that will bring to an end the 
        traditional lifestyle of the Tibetan nomadic herder by 
        settling them in fixed communities, and reconstructing 
        or relocating farm 
        villages.

                              INTRODUCTION

    The human rights environment that the Communist Party and 
Chinese government enforce in the Tibetan areas of China has 
not improved over the past five years, and has deteriorated 
since 2005. No progress in the dialogue between China and the 
Dalai Lama or his representatives is evident. Implementation of 
China's Regional Ethnic Autonomy Law is weak and prevents 
Tibetans from realizing the law's guarantee that ethnic 
minorities have the ``right to administer their internal 
affairs.'' The Communist Party tolerates religious activity 
only within strict limits imposed by China's constitutional, 
legal, and policy framework. Legal measures issued in 2006 and 
2007 impose unprecedented government control on Tibetan 
Buddhist activity. Party campaigns that seek to discredit the 
Dalai Lama as a religious leader, to portray him and those who 
support him as threats to China's state security, and to 
prevent Tibetans from expressing their religious devotion to 
him have intensified since 2005.
    The government and Party prioritize economic development 
over cultural protection, eroding the Tibetan culture and 
language. Changes in Chinese laws and regulations that address 
ethnic autonomy issues and that have been enacted since 2000, 
when the government implemented the Great Western Development 
program, tend to decrease the protection of ethnic minority 
language and culture. The Qinghai-Tibet railway began service 
in July 2006 and has carried thousands of passengers to Lhasa 
each day, leading to crowded conditions in the city and 
increased pressure on the Tibetan culture. In recent years, 
governments in some Tibetan areas have accelerated the 
implementation of programs that require nomadic Tibetan herders 
to settle in fixed communities. The Chinese government applies 
the Constitution and law in a manner that restricts and 
represses the exercise of human rights by Tibetans, and that 
uses the law to punish peaceful expression and action by 
Tibetans deemed as threats to state security. The government 
made no progress in the past year toward improving the right of 
Tibetans in China to exercise their constitutionally guaranteed 
freedoms of religion, expression, and assembly. Such 
restrictions are inconsistent with the Chinese government's 
obligations under international human rights standards.

         STATUS OF DISCUSSION BETWEEN CHINA AND THE DALAI LAMA

   Commission Recommendations, U.S. Policy, and the Report on Tibet 
                              Negotiations

    Commission Annual Reports in 2002, 2004, 2005, and 2006 
included recommendations in support of the dialogue between the 
Chinese government and the Dalai Lama or his representatives. 
The Commission has observed no evidence of substantive progress 
in that dialogue toward fair and equitable decisions about 
policies that could help to protect Tibetans and their 
religion, language, and culture, even though a session of 
dialogue took place each year beginning in 2002, and even 
though a basis for such protections exists under China's 
Constitution and law.\1\ In response to the lack of progress 
over the years, the Commission strengthened recommendations in 
successive annual reports.\2\ The 2006 Annual Report called for 
efforts to persuade the Chinese government to invite the Dalai 
Lama to visit China so that he could seek to build trust 
through direct contact with the Chinese leadership.\3\ In 2007, 
Chinese officials continued to allow the potential mutual 
benefits of the dialogue process--a more secure future for 
Tibetan culture and heritage, and improved stability and ethnic 
harmony in China--to remain unrealized.
    The U.S. Congress will award the Congressional Gold Medal 
to the Dalai Lama on October 17.\4\ The congressional act 
providing for the award finds that the Dalai Lama ``is the 
unrivaled spiritual and cultural leader of the Tibetan people, 
and has used his leadership to promote democracy, freedom, and 
peace for the Tibetan people through a negotiated settlement of 
the Tibet issue, based on 
autonomy within the People's Republic of China.'' \5\
    U.S. government policy recognizes the Tibet Autonomous 
Region (TAR) and Tibetan autonomous prefectures and counties\6\ 
in other provinces to be a part of China.\7\ The Department of 
State's 2007 Report on Tibet Negotiations articulates U.S. 
Tibet policy:

        Encouraging substantive dialogue between Beijing and 
        the Dalai Lama is an important objective of this 
        Administration. The United States encourages China and 
        the Dalai Lama to hold direct and substantive 
        discussions aimed at resolution of differences at an 
        early date, without preconditions. The Administration 
        believes that dialogue between China and the Dalai Lama 
        or his representatives will alleviate tensions in 
        Tibetan areas and contribute to the overall stability 
        of China.\8\

    The Report on Tibet Negotiations observes that the Dalai 
Lama ``represents the views of the vast majority of Tibetans,'' 
and that ``his moral authority helps to unite the Tibetan 
community inside and outside of China.'' \9\ The report 
cautions that ``the lack of resolution of these problems leads 
to greater tensions inside China and will be a stumbling block 
to fuller political and economic engagement with the United 
States and other nations.'' The report rejects the notion that 
the Dalai Lama is seeking Tibetan independence:

        [T]he Dalai Lama has expressly disclaimed any intention 
        to seek sovereignty or independence for Tibet and has 
        stated that he only seeks for China to preserve Tibetan 
        culture, spirituality, and environment.\10\

    The President and other senior U.S. officials have pressed 
Chinese leaders to move forward in the dialogue process, 
according to the Report on Tibet Negotiations. In April and 
November 2006, President Bush urged President Hu Jintao to 
continue the dialogue and hold direct discussions with the 
Dalai Lama.\11\ Secretary of State Condoleezza Rice called on 
Foreign Minister Li Zhaoxing to engage in direct talks with the 
Dalai Lama when they met at the UN General Assembly in 
September 2006.\12\ When Secretary Rice traveled to China in 
October 2006, she reiterated the request for direct dialogue 
between Chinese officials and the Dalai Lama.\13\ Under 
Secretary of State for Democracy and Global Affairs Paula 
Dobriansky, who has served since 2001 as the Special 
Coordinator for Tibetan Issues and as a CECC Commissioner,\14\ 
traveled to Beijing in August 2006 and raised ``the need for 
concrete progress'' during meetings with officials including 
Executive Vice Foreign Minister Dai Bingguo and Assistant 
Foreign Minister Cui Tiankai, according to the Report on Tibet 
Negotiations.\15\ Deputy Secretary of State John Negroponte 
raised the same issues during a February 2007 visit to 
China.\16\

Dalai Lama's Envoys' Fifth Visit to China; Discussions with the Party's 
                                  UFWD

    The Dalai Lama's envoys visited China for the fifth 
time\17\ from June 29 to July 5, 2007, to engage in their sixth 
round of dialogue with Chinese officials.\18\ The trip 
culminated with the briefest\19\ and least optimistic statement 
issued after any of the previous rounds of dialogue. Special 
Envoy Lodi Gyari\20\ reported that he and Envoy Kelsang 
Gyaltsen engaged in three ``sessions of discussion'' in 
Shanghai and Nanjing, the capital of Zhejiang province, over a 
one and one-half day period.\21\ The statement provided no 
details about the topics the envoys discussed in meetings, or 
about their activities and location during the remainder of 
their visit. Unlike previous statements, the Special Envoy's 
statement did not close with an expression of ``appreciation'' 
to Chinese officials and hosts, perhaps signaling an increased 
level of frustration.
    Gyari's statement acknowledged that the dialogue process 
had reached a ``critical stage,'' and that ``[b]oth sides 
expressed in strong terms their divergent positions and views 
on a number of issues.'' Referring to the lack of progress, 
Gyari said, ``We conveyed our serious concerns in the strongest 
possible manner on the overall Tibetan issue and made some 
concrete proposals for implementation if our dialogue process 
is to go forward.'' \22\ The statement provided no details 
about the proposals that the envoys hope Chinese officials will 
implement.
    In China, the envoys met with the Communist Party's United 
Front Work Department (UFWD) Deputy Head Zhu Weiqun and UFWD 
Seventh Bureau Director Sithar (or Sita).\23\ The UFWD oversees 
the implementation of Party policy toward China's eight 
``democratic'' political parties, ethnic and religious groups, 
intellectuals, and entrepreneurs, among other functions. The 
UFWD established the Seventh Bureau in 2005 and appointed 
Sithar as Director, according to a September 2006 Singtao Daily 
report.\24\ The Tibetan affairs portfolio moved from the Second 
Bureau, which handles ethnic and religious affairs, to the new 
Seventh Bureau. Sithar previously served as a deputy director 
of the Second Bureau.\25\
    The creation of the UFWD Seventh Bureau may signal that the 
Party leadership has attached increased importance to Tibetan 
issues, such as the ongoing dialogue with the Dalai Lama's 
representatives. The mission of the Seventh Bureau, according 
to the Singtao Daily report, is ``to cooperate with relevant 
parties in struggling against secessionism by enemies, both 
local and foreign, such as the Dalai Lama clique, and to liaise 
with overseas Tibetans.'' \26\ The report notes that Party 
leaders are concerned 
principally about the ``development of the Tibet independence 
movement in the `post-Dalai Lama era'.'' \27\
    UFWD officials with whom the Dalai Lama's envoys meet also 
hold additional posts in governmental, advisory, and NGO 
spheres that increase and extend their influence on the future 
of Tibetan culture, religion, and language. Liu Yandong, whom 
the envoys met during trips to China in 2003 and 2004,\28\ is 
head of the UFWD, Vice Chairman of the Chinese People's 
Political Consultative Conference, and the Honorary President 
of China Association for Preservation and Development of 
Tibetan Culture (CAPDTC), a 
Chinese NGO founded in June 2004 that describes its legal 
status as ``independent.'' \29\ Zhu is a member of the CCP 
Central Commission for Discipline Inspection, a senior official 
of the State Council Information Office,\30\ a cabinet-level 
part of the Chinese government, and the Vice President of 
CAPDTC.\31\ Sithar is CAPDTC's Vice Chairman.\32\

  A Tibetan Vision of Autonomy: The Special Envoy Provides More Detail

    In 2006 and 2007, the Dalai Lama, Special Envoy Lodi Gyari, 
and the elected head of the Tibetan government-in-exile, 
Samdhong Rinpoche, increased their efforts to advocate their 
vision of Tibetan autonomy under Chinese sovereignty, and to 
provide more detailed statements about their proposed formula. 
In his annual March 10, 2007, statement,\33\ the Dalai Lama 
asserted, ``The most important reason behind my proposal to 
have genuine national regional 
autonomy for all Tibetans is to achieve genuine equality and 
unity between the Tibetans and Chinese by eliminating big Han 
chauvinism and local nationalism.'' \34\ In testimony before 
the U.S. House of Representatives Foreign Affairs Committee on 
March 13, 2007, Gyari stated, ``In treating the Tibetan people 
with respect and dignity through genuine autonomy, the Chinese 
leadership has the opportunity to create a truly multi-ethnic, 
harmonious nation without a tremendous cost in human 
suffering.'' \35\ Samdhong Rinpoche told a gathering of 
advocacy groups in Brussels in May 2007, ``We are simply asking 
for the sincere implementation of the national regional 
autonomy provisions enshrined in the Constitution of the 
People's Republic of China, which is further spelt out in the 
autonomy law.'' \36\
    The basis of the Tibetan negotiating position continues to 
be the Dalai Lama's Middle Way Approach,\37\ which renounces 
Tibetan independence in exchange for genuine autonomy. An 
outcome of the dialogue process that would fulfill Tibetan 
wishes in a manner consistent with the Middle Way Approach 
would require the Chinese government's agreement to:

        <bullet> The inclusion under the agreement of all the 
        areas in China that many Tibetans regard as ``the three 
        traditional provinces of Tibet,'' or about one-quarter 
        of China;\38\
        <bullet> The unification of that area under one 
        genuinely autonomous administration; and
        <bullet> The empowerment of the residents of the 
        resulting administrative area to elect a government 
        through a democratic process.

    Gyari identified the Chinese response to the Tibetan 
demands that ``the entire Tibetan people need to live under a 
single administrative entity,'' and that Tibetans practice 
``genuine autonomy,'' as the principal area of disagreement in 
a November 2006 address at the Brookings Institution in 
Washington, D.C.\39\ His prepared statement\40\ and responses 
to questions\41\ were more detailed than remarks Gyari made 
after the previous rounds of dialogue. The Dalai Lama 
emphasized his commitment to the same principles in March 2006, 
saying in his March 10 speech, ``I have only one 
demand: self-rule and genuine autonomy for all Tibetans, i.e., 
the Tibetan nationality in its entirety.'' \42\ Samdhong 
Rinpoche underscored the importance Tibetans place on including 
all Tibetans in a reconfigured Tibet when he addressed advocacy 
groups in May: ``[A]ll Tibetans must be administered by a 
single autonomous self-government.'' \43\
    Like many Tibetans, Gyari refers to all of the territory in 
China where Tibetans live as ``Tibet.'' ``[I]t is a reality 
that the landmass inhabited by Tibetans constitutes roughly 
one-fourth\44\ the territory of [China],'' he said in his 
Brookings statement.\45\ The Chinese government ``has already 
designated almost all Tibetan areas as Tibet autonomous 
entities. . . . Thus, our positions on what constitutes Tibet 
are really not so divergent.'' \46\ The land area that Tibetans 
claim as Tibet is about 100,000 square miles larger than the 
total area of the TAR and the Tibetan autonomous prefectures 
and counties designated by China.\47\ Aside from pockets of 
long-term Tibetan settlement in Qinghai province,\48\ most of 
the area that 
Tibetans claim beyond the existing Tibetan autonomous areas is 
made up of autonomous prefectures and counties allocated to 
other ethnic groups.\49\ Ten counties in that area have 
populations that are between 5 and 25 percent Tibetan, 
according to official 2000 census data.\50\ The precise portion 
of the approximately 100,000 square mile area that Tibetans 
claim as Tibet, and where the Tibetan population is less than 5 
percent,\51\ is unknown because a map that indicates the 
boundary of Tibet with respect to current Chinese 
administrative geographic divisions at the prefectural and 
county levels is not available.
    Gyari addressed the critics of proposed administrative 
unification of land where Tibetans live, saying, ``Having the 
Tibetan people under a single administrative entity should not 
be seen as an effort to create a `greater' Tibet, nor is it a 
cover for a separatist plot.'' \52\ Tibetans ``yearn to be 
under one administrative entity so that their way of life, 
tradition, and religion can be more effectively and peacefully 
maintained,'' he said, and pointed out that the Chinese 
government ``has redrawn internal boundaries when it suited its 
needs.'' \53\ Gyari's prepared statement cites as an example 
the abolition in 1955 of Xikang province upon the completion of 
the division of its territory between Sichuan province and what 
later became the TAR.\54\
    Establishing a unified Tibetan autonomous administrative 
area such as the Special Envoy described would involve all of 
the TAR, all or most of Qinghai province, approximately half of 
Sichuan province, parts of Gansu and Yunnan provinces, and 
according to some maps, a small part of Xinjiang Uighur 
Autonomous Region.\55\ Under China's Constitution, establishing 
or changing units of administrative geography would require 
approval by the National People's Congress (NPC) or the State 
Council, or both.\56\
    The Dalai Lama and Lodi Gyari provided more detailed 
statements than previously about their expectations of 
``genuine autonomy,'' which can be compared to the prevailing 
situation under the Regional Ethnic Autonomy Law (REAL).\57\ 
Although the REAL declares in its Preamble that the practice of 
autonomy conveys the state's ``full respect for and guarantee 
of ethnic minorities' right to administer their internal 
affairs,'' \58\ the Dalai Lama explained in his March 10, 2007, 
statement the manner in which he believes the REAL has failed 
ethnic groups like Tibetans:

        The problem is that [regional ethnic autonomy] is not 
        implemented fully, and thus fails to serve its express 
        purpose of preserving and protecting the distinct 
        identity, culture and language of the minority 
        nationalities. What happens on the ground is that large 
        populations from the majority nationalities have spread 
        in these minority regions. Therefore, the minority 
        nationalities, instead of being able to preserve their 
        own identity, culture and language, have no choice but 
        to depend on the language and customs of the majority 
        nationality in their day-to-day lives.\59\

    Gyari's statement to the Brookings Institution implied that 
a solution to the autonomy issue would have to reach beyond the 
REAL's status quo, and perhaps be innovative. He discussed the 
Tibetan need for autonomy in the context of the higher level of 
rights that Hong Kong and Macao enjoy under their status as 
special administrative regions (SARs).\60\ Gyari said that the 
Tibetans have not proposed to their Chinese interlocutors any 
specific autonomy formula or administrative title, such as an 
SAR, and stressed, ``[W]e place more importance on discussing 
the substance than on the label.'' \61\ Samdhong Rinpoche 
maintained that a solution is available within the existing 
constitutional and legal environment: ``The PRC leadership can 
very easily grant whatever we are asking for, if they have the 
political will. They need not have to amend their constitution 
nor make a major shift in their policies.'' \62\

   The Tibetan Vision of Autonomy Versus China's Constitution and Law

    The outlook for what the Tibetans call ``genuine autonomy'' 
under the current implementation of the REAL is poor. Communist 
Party control over China's legislative, governmental, 
policymaking, and implementation process, as well as 
contradictory provisions in Chinese laws and regulations, 
undercut the practice of regional ethnic autonomy in China. As 
a result, the functional level of autonomy that Chinese laws 
and regulations provide to local Tibetan autonomous governments 
to ``administer their internal affairs,'' \63\ to protect their 
culture, language, and religion, and to manage policy 
implementation on issues such as economic development and the 
environment, is negligible.
    Recent laws, regulations, and local implementing measures 
consistently prioritize the central government's interests 
above protecting the right of ethnic autonomous governments to 
exercise self-government.\64\ The same legal issues that 
minimize the level of local autonomy for Tibetans serve to 
diminish the prospects for substantive progress in dialogue 
between Chinese officials and the Dalai Lama and his envoys. 
The following examples of how China's application of law 
adversely affects Tibetan autonomy are indicative, not 
comprehensive. [See Section II--Ethnic Minority Rights for more 
information on the REAL.]

The REAL Provides Subordination, Not Self-government

    Article 7 of the REAL counteracts the Preamble's guarantee 
that ethnic autonomous governments have the right to 
``administer their own affairs'' by directing that, 
``Institutions of self-government in ethnic autonomous areas 
shall place the interests of the state as a whole above all 
else and actively fulfill all tasks assigned by state 
institutions at higher levels.''

The REAL Provides a Basis To Divide Tibetan Areas, Not To Unify Them

    Tibetan leaders, including Lodi Gyari and Samdhong 
Rinpoche, have described their vision in the past year that 
China's Constitution and law, including the REAL, can support 
the unification of Tibetan autonomous areas.\65\ The 
Constitution and REAL do not state explicitly whether or not 
contiguous areas where the same ethnic group lives are entitled 
to be included in the same ethnic autonomous area. In fact, 
Article 12 of the REAL provides the Chinese government a basis 
in law for division by allowing the establishment of ethnic 
autonomous areas to take into consideration factors such as 
``historical background'' and ``the relationship among the 
various nationalities.'' \66\ Because the National People's 
Congress (NPC) and State Council have the constitutional 
authority to approve the establishment of autonomous regions, 
prefectures, and counties, and to alter their geographic 
divisions,\67\ it is Beijing's view of history and ethnic 
relations that guides decisions to apply the REAL in a manner 
that unites--or divides--ethnic groups.

Conflict of Law Limits Rights Provided by the Constitution and REAL

    The Constitution and REAL state that ethnic autonomous 
congresses have the power to enact autonomy or self-governing 
regulations ``in the light of the political, economic, and 
cultural characteristics'' of the relevant ethnic group(s).\68\ 
But the Legislation Law reserves to the State Council the power 
to issue regulations when the NPC specifically authorizes the 
State Council to do so, thereby intruding upon the right of 
ethnic autonomous congresses to issue regulations.\69\ These 
provisions in the Legislation Law explicitly create a conflict 
of law with respect to rights provided by the Constitution and 
the REAL. The Legislation Law authorizes an autonomous people's 
congress to enact an ``autonomous decree or a special decree'' 
that must be approved by the standing committee of the next 
higher level people's congress.\70\

The Legislation Law Bars Autonomous Governments From Altering Laws and 
        Regulations That Concern Autonomy

    The REAL includes a provision allowing an ethnic autonomous 
government to apply to a higher-level state agency to alter or 
cancel the implementation of a ``resolution, decision, order, 
or instruction'' if it does not ``suit the actual conditions in 
an ethnic autonomous area.'' \71\ The Legislation Law, however, 
bars ethnic autonomous governments from enacting any variance 
to any law or regulation that is ``dedicated to matters 
concerning ethnic autonomous areas.'' \72\

Special Administrative Regions Offer More Flexibility

    The Chinese Constitution provides a method to create a 
political and administrative solution to challenges that the 
principal body of Chinese law cannot resolve. Article 31 
empowers the state to establish a ``special administrative 
region'' (SAR) that can satisfy a particular need ``when 
necessary,'' and authorizes the NPC to enact a law that 
institutes a ``system'' (of governance and administration) ``in 
the light of the specific conditions.'' \73\ Hong Kong and 
Macao are the only SARs created by the NPC to date. Chinese 
officials reject the notion that a Tibetan solution could be 
developed by establishing a special administrative region,\74\ 
but their arguments use as proof the dissimilarity of the pre-
reunification political and economic systems of Hong Kong and 
Macao (not reunited with China, democratic government, 
capitalist economy) compared with the current political and 
economic system in the Tibetan autonomous areas of China 
(Chinese administration, non-democratic government, socialist 
economy). The language in Article 31, however, states no 
prerequisites of any kind and allows the state to create the 
solution that it needs.

                RELIGIOUS FREEDOM FOR TIBETAN BUDDHISTS

             Commission Recommendations and China's Record

    Commission Annual Reports from 2002 to 2006 included 
recommendations calling for the Chinese leadership to ``promote 
the concept of religious tolerance,'' \75\ to ``meet with 
religious figures from around the world to discuss the positive 
impact on national development of free religious belief and 
religious tolerance,'' \76\ and to take measures to develop the 
freedom of religion in China including respecting ``the right 
of Tibetan Buddhists to freely express their religious devotion 
to the Dalai Lama.'' \77\
    The Commission cannot report improvement in the overall 
level of freedom of religion for Tibetan Buddhists at any time 
during the past five years, and in the past year the 
environment for Tibetan Buddhism has become significantly more 
repressive. The Party led an intensified anti-Dalai Lama 
campaign\78\ and an expanding program of patriotic 
education,\79\ and two sets of new legal measures imposing 
stricter and more detailed controls on Tibetan Buddhist 
institutions and religious activity took effect.\80\ In the 
Tibet Autonomous Region (TAR), the government began on January 
1, 2007, to implement new legal measures issued in September 
2006 that regulate fundamental aspects of Tibetan Buddhism in a 
stricter and more detailed manner than previous measures.\81\ 
The State Administration for Religious Affairs (SARA) issued 
legal measures in July 2007 that empower the government and 
Party to gradually reshape Tibetan Buddhism by controlling the 
religion's most important and unusual feature--lineages of 
reincarnated Buddhist teachers that Tibetan Buddhists believe 
can span centuries.\82\
    Although the Party tolerates religious activity only within 
the strict limits imposed by China's constitutional, legal, and 
policy framework, and the government further restricts those 
limits at will, Chinese authorities tolerate selected Tibetan 
Buddhist practices and expressions of religious belief,\83\ and 
the intensity of religious repression against Tibetans varies 
across regions.\84\
    [See Section II--Freedom of Religion for more information 
on Party and government control of religion.]

    TAR Party Chief Intensifies Anti-Dalai Lama Campaign, Patriotic 
                               Education

    Tibetan Buddhism is at the core of Tibetan culture and 
self-identity, and for most Tibetans the Dalai Lama is at the 
core of Tibetan Buddhism. Seeking to strengthen control over 
Tibetan Buddhism and to end the Dalai Lama's influence over 
Tibetans, the Communist Party intensified a long-running 
campaign during the past year to discredit the Dalai Lama as a 
religious leader, to portray him and those who support him as 
threats to China's state security, and to prevent Tibetans from 
expressing their religious devotion to him.
    TAR Party Secretary Zhang Qingli took on the role of a 
high-profile representative of the anti-Dalai Lama campaign in 
late 2005, when the Party's Central Committee transferred him 
to the TAR from the Xinjiang Uighur Autonomous Region.\85\ In 
an August 2006 interview with a Western magazine, Zhang 
attacked the Dalai Lama's Buddhist credentials, accusing him of 
being a ``false religious leader'' who has led Tibetans astray 
and done ``many bad things . . . that contradict the role of a 
religious leader'' since he fled into exile in 1959.\86\ Zhang 
urged the Party to ``clearly distinguish between proper 
religious activities and the use of religion to engage in 
separatist activities,'' an expression that can refer to 
peaceful expressions of religious devotion to the Dalai Lama. 
Zhang described the Party's conflict with the Dalai Lama and 
the ``Western hostile forces'' \87\ that support him as ``long 
term, sharp, and complex,'' and ``even quite intense at 
times.'' \88\
    Zhang rallied hundreds of Party members at a May 2007 
meeting in Lhasa, the capital of the TAR, telling them, ``From 
beginning to end . . . we must deepen patriotic education at 
temples, comprehensively expose and denounce the Dalai Lama 
clique's political reactionary nature and religious 
hypocrisy.'' \89\ Patriotic education (``love the country, love 
religion'')\90\ is an open-ended campaign to bring to an end 
the Dalai Lama's religious authority among Tibetans, and that 
requires Tibetan Buddhists to accept patriotism 
toward China as a part of Tibetan Buddhism. Patriotic education 
sessions require monks and nuns to pass examinations on 
political texts, agree that Tibet is historically a part of 
China, accept the legitimacy of the Panchen Lama installed by 
the Chinese government, and denounce the Dalai Lama.'' \91\ 
Monitoring organizations confirmed in 2007 that officials are 
increasing patriotic education activity in monasteries and 
nunneries.\92\ In one case, the abbot of a monastery in Qinghai 
province was forced to step down in May after he refused to 
sign a denunciation of the Dalai Lama.\93\
    In May 2006, Zhang called on TAR Party and government 
officials to intensify restructuring and ``rectification'' of 
Democratic Management Committees (DMCs),\94\ and to ``[e]nsure 
that leadership powers at monasteries are in the hands of 
religious personages who love the country and love religion.'' 
\95\ DMCs,\96\ located within each monastery and nunnery, are 
the Party's direct interface with monks and nuns, and are 
charged by the Party and government to implement policies on 
religion and ensure that monks and nuns obey government 
regulations on religious practice.
    An official poster reportedly displayed in a Tibetan 
Buddhist monastery in Sichuan province listed the DMC's main 
functions, including to ``[u]phold the leadership of the 
Chinese Communist Party, love the county and love religion, and 
progress in unity'' and to ensure that ``[n]o activities may be 
carried out under the direction of forces outside the 
country.'' \97\ The same document instructs the DMC on its 
``professional responsibilities,'' such as, ``To collectively 
educate the monastery's monks and religious believers to abide 
by the country's Constitution, laws, and all policies, to 
ensure the normal progression of religious activities, to 
protect the monastery's legal rights and interests, to 
resolutely oppose splittist activities, and to protect the 
unification of the motherland.'' \98\ The poster specified the 
subordinate relationship of the monastery to external, non-
religious agencies: ``The monastery should accept the 
administrative management of local village-level organizations, 
and accept the leadership of the Buddhist association.'' A 1991 
set of TAR measures regulating religious affairs described a 
Buddhist association as ``a bridge for the Party and government 
to unite and educate personages from religious circles and the 
believing masses.'' \99\

        TAR Measures Extend Party Control Over Tibetan Buddhism

    In January 2007, Zhang Qingli wrote in an issue of Seeking 
Truth that the TAR government must implement the national-level 
Regulation on Religious Affairs (RRA)\100\ in a manner that 
will ``ensure that the Constitution and laws enter the temple 
doors, the management system, and the minds of monks and 
nuns.'' \101\ There are more than 1,700 monasteries and 
nunneries in the TAR, and approximately 46,000 monks and nuns, 
according to official state-run media reports.\102\ As Zhang 
called on the Party to achieve comprehensive implementation of 
its policy on ``freedom of religious 
belief,'' which he said aims to ``actively guide religion to 
adapt to socialist society,'' \103\ the TAR Implementing 
Measures for the Regulation on Religious Affairs (TAR 2006 
Measures) were coming into effect.\104\
    The TAR 2006 Measures state a general formula for the 
relationship between the state and religion: ``All levels of 
the people's government shall actively guide religious 
organizations, venues for 
religious activities, and religious personnel in a love of the 
country and of religion, in protecting the country and 
benefiting the people, in uniting and moving forward, and in 
guiding the mutual adaptation of religion and socialism.'' The 
national-level RRA, effective in March 2005, does not contain 
such language.\105\
    The TAR 2006 Measures impose stricter and more detailed 
controls on TAR religious activity,\106\ which is mainly 
Tibetan Buddhist,\107\ than the RRA or the 1991 TAR Temporary 
Measures on the Management of Religious Affairs\108\ (TAR 1991 
Measures) that the TAR 2006 Measures replaced. The most 
forward-looking area of state intrusion into Tibetan Buddhist 
freedom of religion, and the most consequential to the future 
of the religion, is in the process of identifying, seating, and 
providing religious training to 
reincarnated Tibetan Buddhist lamas. The TAR 2006 measures 
provide five articles on the matter,\109\ compared to one each 
in the RRA\110\ and the TAR 1991 Measures.\111\ The RRA article 
includes language that seeks to compel Tibetan compliance with 
a 17th century Qing dynasty edict directing Tibetan religious 
leaders to identify reincarnations by drawing a name from an 
urn in the presence of an imperial Chinese official.\112\ The 
TAR 1991 Measures ban the involvement in the identification 
process of ``foreign forces,'' a 
reference to the traditional role of the Dalai Lama and other 
high-ranking Tibetan lamas now living in exile. [See the 
following subsection for information on national measures 
regulating Tibetan 
reincarnation issued in July 2007 and effective in September.]
    The TAR 2006 Measures establish additional Party and 
government controls,\113\ beyond those contained in the RRA or 
the TAR 1991 Measures, over the identification and education of 
reincarnated Tibetan Buddhist lamas in the TAR.

        <bullet> No organization or individual in the TAR may 
        attempt to identify a reincarnated lama without 
        approval from the TAR government.\114\
        <bullet> No one from the TAR may travel to another 
        province to attempt to identify a reincarnated lama (or 
        vice versa) until the TAR Buddhist association 
        (``religious organization'') consults with the 
        provincial-level Buddhist association in the other 
        province (or vice versa), and the TAR Buddhist 
        association reports the matter to the TAR 
        government.\115\
        <bullet> DMCs must plan and implement milestones in the 
        institutional advancement of reincarnated lamas, such 
        as the formal seating of a reincarnated lama at a 
        monastery, formally ordaining a reincarnated lama as a 
        monk, and promoting a reincarnated lama to advanced 
        levels of Buddhist study. Local government must 
        supervise such events.\116\
        <bullet> DMCs must draft, and reincarnated lamas must 
        submit to, ``practical measures for strengthening the 
        development, education, and management'' of 
        reincarnated lamas.\117\
        <bullet> DMCs must report to the local government the 
        names of a reincarnated lama's religious and cultural 
        teacher(s) after the DMC has proposed candidates to the 
        local Buddhist association and the association 
        consents.\118\

    The TAR 2006 Measures impose new requirements\119\ that 
eliminate freedom of movement for monks and nuns in the TAR if 
they travel for the purpose of teaching, studying, or 
practicing religion.\120\ Monks and nuns living in TAR 
monasteries and nunneries may not travel anywhere in the TAR 
for the purpose of practicing religion\121\ without carrying 
with them their ``religious personnel identification [card]'' 
and an unspecified form of ``proof'' provided by the county-
level government where they live, and reporting ``for the 
record'' to the county-level government where they wish to 
practice religion.\122\ Monks and nuns in the TAR may not 
travel to another TAR prefecture to study religion without 
first obtaining approval from the local government in the 
destination prefecture, and reporting the approval to the local 
government in the prefecture of origin.\123\ The TAR 1991 
Measures, in comparison, stated no requirements of monks and 
nuns who traveled between monasteries and nunneries in the TAR 
in order to practice or study religion. The TAR 1991 Measures 
contained one article addressing travel that required monks and 
nuns traveling from the TAR to another province for advanced 
Buddhist study or teaching Buddhism (or vice versa) to first 
obtain consent from the governments of the TAR and the other 
province.\124\
    Buddhist associations, monasteries, nunneries, monks, and 
nuns that violate provisions of the TAR 2006 Measures can face 
criminal or civil penalties under Chinese law, or expulsion 
from a monastery or nunnery.\125\ Authorities can, for example, 
initiate punishments for ``illegal activities such as those 
that harm national security or public security,'' a catch-all 
phrase that can include expressions of religious devotion to 
the Dalai Lama, or for sharing, viewing, and listening to any 
type of recorded media about him. The TAR 2006 Measures 
introduce an explicit ban on disseminating and viewing ``books, 
pictures, and materials that disrupt ethnic unity or endanger 
national security,'' and a ban on requests by ``religious 
followers'' for monks and nuns ``to recite from banned 
religious texts.'' \126\ Another punitive measure with 
potentially broad impact empowers local governments to order a 
``religious organization'' to ``disqualify'' as a registered 
religious professional a monk or nun who, in ``serious 
circumstances,'' does not fulfill regulatory requirements on 
travel.\127\
    A local government's use of regulations on religious 
affairs to 
enforce the demolition in May 2007 of a large, nearly completed 
statue of a ninth century Buddhist teacher, Padmasambhava (Guru 
Rinpoche),\128\ at the oldest Tibetan monastery, Samye,\129\ 
shows how the law can control religious practice, rather than 
protect religious freedom. Photographs available in one report 
appear to show that the 30-foot tall statue was constructed 
within the monastery's grounds.\130\ People's Armed Police 
(PAP) arrived at Samye, located in Shannan (Lhoka) prefecture 
in the TAR, and demolished the statue during the Buddhist holy 
month of Saga Dawa, according to an unofficial report.\131\ 
Private donors from Guangzhou city in Guangdong province paid 
800,000 yuan to have the statue constructed.\132\
    The RRA and TAR 2006 Measures introduce provisions 
prohibiting any group or individual not part of a state-
authorized religious organization or venue for religious 
activity from building such a statue.\133\ Both sets of 
provisions mandate the demolition of a religious statue that is 
erected without official approval, but the TAR 2006 Measures 
only address the matter if the statue is built outside 
monastery grounds.\134\ Because the statue was built on Samye's 
grounds by individuals who were not authorized members of an 
officially recognized religious institution, the local 
government could have invoked RRA provisions as a legal pretext 
to destroy the statue. In fact, an official Chinese media 
report provided a rough translation of a Samye DMC notice 
confirming the role of the RRA as well as the Law on Protection 
of Cultural Relics.\135\ The State Administration for Religious 
Affairs, the Ministry of Construction, and the China National 
Tourism Administration jointly issued a ``Notice of Illegally 
Building [an] Open[-air] Statue of Buddha,'' according to the 
DMC notice.\136\ Lodi Gyari, the Dalai Lama's Special Envoy, 
decried the statue's destruction, saying, ``This divisive and 
sacrilegious act by an atheist state has caused deep anguish 
among Tibetans in the region.'' \137\
    The total number of monasteries, nunneries, monks, and nuns 
that the TAR government tolerates could come under increased 
pressure, based on Zhang Qingli's statements in Seeking Truth. 
He described a ``bottom line'' for the number of locations for 
``religious activity'' (monasteries and nunneries) and of 
``full time religious persons'' (monks and nuns), and warned 
that, ``[H]aving satisfied the needs of the believer masses, 
there can be no indiscriminate building and recruiting.'' \138\ 
Zhang's comment could presage government action to assert more 
aggressively its role in limiting the size of the Tibetan 
Buddhist monastic establishment--which the TAR Party newspaper 
said in 1996 exceeded the number that the Party planned in 
1986, and created a negative impact on Tibetan social and 
economic development.\139\

     National Government Measures Take Control of Tibetan Buddhist 
                             Reincarnation

    The State Administration for Religious Affairs (SARA) 
issued a set of national measures in July 2007 (effective on 
September 1) that, if fully implemented, will establish 
government control over the process of identifying and training 
reincarnated Tibetan Buddhist teachers throughout China.\140\ 
Unlike the TAR 2006 Measures, the ``Measures on the Management 
of the Reincarnation of Living Buddhas in Tibetan Buddhism'' 
\141\ (MMR) apply to the significant concentrations of Tibetan 
Buddhists in Qinghai, Gansu, Sichuan, and Yunnan provinces, as 
well as to the TAR. The total number of Tibetan Buddhist 
monasteries and nunneries in the TAR and the four provinces 
probably exceeds 3,300, based on official information, and the 
total number of monks and nuns may exceed 115,000 by several 
thousand.\142\ Each monastery hopes to have a reincarnated 
teacher in residence, although some monasteries have none and 
other monasteries have more than one. Based on official but 
incomplete information, the Commission estimates that the total 
number of reincarnated teachers in the Tibetan areas of China 
probably exceeds 1,000, and could reach or surpass 2,000.\143\
    The MMR will ``institutionalize management on reincarnation 
of living Buddhas,'' according to a SARA statement,\144\ and 
strengthen the subordination of traditional Tibetan Buddhist 
practices to Party policy: ``The selection of reincarnates must 
preserve national unity and solidarity of all ethnic groups and 
the selection process cannot be influenced by any group or 
individual from outside the country.'' The MMR could result in 
greater isolation between Tibetan Buddhist communities living 
in China and important Tibetan Buddhist teachers living in 
exile, especially the Dalai Lama, by using each instance of 
recognizing a reincarnated Tibetan teacher as an opportunity 
for the government to reinforce the barrier between Tibetan 
Buddhism in China and Tibetan Buddhists living in other 
countries.
    As elderly Tibetan Buddhist reincarnated teachers pass 
away, government enforcement of the MMR may prevent Tibetans 
from searching for and recognizing subsequent reincarnations, 
resulting in a decreasing number of reincarnated teachers. 
Article 3 requires that ``[a] majority of local religious 
believers and the monastery [Democratic Management Committee] 
must request the reincarnation'' before the search for a 
reincarnation may take place.\145\ DMCs are less likely to 
pursue a request for a reincarnation if local officials oppose 
it, and local authorities are well-positioned to hinder or 
discourage a majority of ``religious believers'' from 
expressing their desire to maintain a reincarnation in a local 
monastery. Article 4 disallows the recognition and seating of 
reincarnations within urban districts established by higher-
level governments if the urban district government issues a 
local decree banning further reincarnations.\146\ The Chengguan 
district under Lhasa municipality is currently the only urban 
district within the Tibetan autonomous areas of China.\147\ If 
the Chengguan district government issues such a decree, it 
could affect two of the largest and most influential Tibetan 
monasteries, Drepung and Sera,\148\ and the two oldest Tibetan 
Buddhist temples, Jokhang and Ramoche.
    The MMR establishes unprecedented government control\149\ 
over the principal stages of identifying and educating 
reincarnated Tibetan teachers, including:

        <bullet> Determining whether or not a reincarnated 
        teacher who passes away may be reincarnated, and 
        whether a monastery is entitled to seek to have a 
        reincarnated teacher in residence.\150\
        <bullet> Conducting a search for a reincarnation.\151\
        <bullet> Recognizing a reincarnation and obtaining 
        government approval of the recognition.\152\
        <bullet> Seating (installing) a reincarnation in a 
        monastery.\153\
        <bullet> Providing education and religious training for 
        a reincarnation.\154\

    The measures provide for punishment of individuals or 
offices that are responsible for a failure to comply with the 
measures, or that conduct activities pertaining to 
reincarnation without government authorization.\155\
    In August 2007, senior officials, including Liu Yandong, 
Head of the Communist Party United Front Work Department 
(UFWD), and Ye Xiaowen, Director of SARA, convened a national 
seminar in Beijing on ``Tibetan Buddhism work,'' and stressed 
that in the matter of seating Tibetan Buddhist reincarnated 
teachers, ``our own come first,'' according to a Singtao Daily 
report.\156\ The phrase underscores Party resolve to ensure 
that successful candidates for positions as reincarnated 
teachers will from now on fulfill the Party's political 
expectations, and that the Dalai Lama and other senior Tibetan 
Buddhist teachers living in exile will have no influence on the 
process.\157\ Officials at the seminar emphasized that the MMR 
must be implemented fully throughout the Tibetan areas of China 
and in the Inner Mongolia Autonomous Region, where many Mongols 
believe in Tibetan Buddhism. At an August 17-18 UFWD work forum 
in Lhasa, Director of the TAR UFWD, Lobsang Gyaltsen (Luosang 
Jiangcun), relayed the national guidelines to regional 
officials, and Zhang Yijiong, Deputy Secretary of the TAR Party 
Committee, called on attendees to ``thoroughly implement the 
policy of the [Party] on religious work'' and ``energetically 
unite the religious and patriotic forces.'' \158\

Number of Imprisoned Monks and Nuns Declines as Repression of Religion 
                               Increases

    Tibetan Buddhist monks and nuns constituted 11 of the 13 
known political detentions of Tibetans by Chinese authorities 
in 2006, compared to 21 of the 24 known such detentions in 
2005, and 8 of the 15 such detentions in 2004,\159\ based on 
data available in the Commission's Political Prisoner Database 
(PPD)\160\ as of September 2007. The increased proportion of 
monks and nuns that make up the total number of known political 
detentions evident in 2005 has not changed in 2006, and is 
likely to reflect monastic resentment against the intensified 
patriotic education campaign. The total number of known 
detentions of monks and nuns, however, has declined in 
comparison with 2005. The unusual shift of political detention 
of monks and nuns away from Sichuan province in 2005,\161\ when 
none were reported, was short lived. Nine of the 13 known 
political detentions of Tibetan monks and nuns in 2006 took 
place in Sichuan province; the rest occurred in the TAR.
    The extent to which the apparent decline in political 
detention of monks and nuns in 2006 reflects actual 
circumstances, or incomplete information, or both, is unknown. 
It is possible that the Party and government's increased 
repression of Tibetan Buddhism since 2005 (especially of 
aspects of the religion that involve the Dalai Lama) has 
produced the result that the government desires: a more subdued 
monastic community. Fewer monks and nuns may be risking 
behavior that could result in punishments such as imprisonment 
or expulsion from a monastery or nunnery (a prospect that may 
increase under the TAR 2006 Measures). At the same time, it is 
likely that the actual number of detained monks and nuns is 
higher than PPD data indicates.\162\ Reports of detention of 
unnamed persons,\163\ or of persons who are reported as 
missing,\164\ are not listed along with reports of detention 
that include detailed information. Irrespective of the actual 
number of recent detentions, the high proportion of monks and 
nuns among them, and recent statements by monks and nuns 
describing their frustration with government management of 
Tibetan Buddhism,\165\ suggests that the level of monastic 
resentment against Chinese religious policies remains high. 
Repressive policies can result in a decline of behavior that 
triggers punishment, but a high level of frustration suggests 
that the potential for a resurgence of political protest 
exists.
    Tibetan monks and nuns make up about 64 of the 100 known 
currently detained or imprisoned Tibetan political prisoners, 
according to PPD data current in September 2007. Twenty-eight 
of the monks and nuns were detained or imprisoned in the TAR, 
24 in Sichuan province, 7 in Qinghai province, and 4 in Gansu 
province. Based on data available for 42 currently imprisoned 
Tibetan monks and nuns, their average sentence length is 10 
years and 4 months.

       No Progress on Access to (or Freedom for) the Panchen Lama

    The Chinese government continues to refuse to allow access 
by an international organization, such as the International Red 
Cross, to Gedun Choekyi Nyima, the boy the Dalai Lama 
recognized as the Panchen Lama in May 1995.\166\ Chinese 
officials continue to hold him in incommunicado custody along 
with his parents at an unknown location. Gedun Choekyi Nyima 
turned 18 years of age in April 2007, and in May he completed 
his 12th year in custody. Chinese officials claim that Gedun 
Choekyi Nyima is leading a ``normal, happy life and receiving a 
good cultural education.'' \167\ After the Dalai Lama announced 
his recognition of Gedun Choekyi Nyima, Chinese officials took 
the then six-year-old boy and his parents into custody. The 
State Council declared the Dalai Lama's announcement ``illegal 
and invalid'' \168\ and installed Gyaltsen Norbu,\169\ whose 
appointment continues to stir widespread resentment among 
Tibetans. Chinese authorities may punish or imprison Tibetans 
who possess photographs of Gedun Choekyi Nyima or 
information about him.

   Incidents of Repression of Freedom of Religion in Tibetan Secular 
                                Society

    Chinese government repression of freedom of religion is not 
limited to the Tibetan Buddhist monastic community, and 
adversely affects secular Tibetan society. Most Tibetans are 
not monks or nuns--they are farmers, herders, workers, traders, 
business operators, professionals, students, teachers, and 
government staff. In the TAR about 98 percent of Tibetans live 
in secular society.\170\ Official repression of Tibetan 
Buddhist activity by secular Tibetans principally targets the 
Dalai Lama, Tibetan religious devotion to him, and aspects of 
Tibetan Buddhism closely linked to him, especially certain 
ceremonies and observances associated with the Gelug tradition 
of Tibetan Buddhism.\171\ Tibetans who follow other traditions 
of Tibetan Buddhism, such as the Kargyu, Sakya, and Nyingma 
traditions, especially in Tibetan areas outside the TAR, may 
experience less interference from authorities.\172\
    Chinese authorities routinely seek to prevent Tibetans from 
participating in religious observances that they suspect 
signify Tibetan devotion to the Dalai Lama. For example, the 
Lhasa Evening News published a Lhasa Party Committee notice on 
December 12, 2006, that forbids government employees, workers 
in government-run businesses, and school students to 
participate in a Tibetan Buddhist observance, Gaden Ngachoe, 
that would take place three days later.\173\ The notice warned, 
``Everyone must conscientiously respect the government and 
Party committee's demand.'' Tibetans traditionally light butter 
lamps to mark the occasion.
    The Lhasa Party Committee in May 2007 forbade Tibetan 
school children in some Lhasa neighborhoods from participating 
in 
Tibetan Buddhism's most holy day, Saga Dawa,\174\ or wearing 
``amulet threads'' (blessing strings) received at Buddhist 
sites.\175\ Beginning in the late 1980s, when Tibetans staged a 
series of public 
protests against Chinese policies, the Lhasa government has 
attempted to prevent Tibetans employed in the government sector 
and Tibetan students from participating in Saga Dawa.\176\ The 
prohibition continued in 2006, when the government threatened 
to fire government employees who defied the ban, according to a 
U.S. Department of State report.\177\
    Tibetans living in the Lhasa area, as well as throughout 
the TAR and in Tibetan autonomous areas of Qinghai, Gansu, and 
Sichuan provinces, openly celebrated the Dalai Lama's July 6 
birthday in 2007,\178\ despite government characterization of 
such celebration as ``illegal'' \179\ and effective enforcement 
of a ban in previous years.\180\ Some Tibetans reportedly 
believed that the turnout in 2007 represented Tibetan 
celebration of the Dalai Lama's receipt of the Congressional 
Gold Medal, scheduled for October 2007.\181\

     TIBETAN CULTURE UNDER CHINESE DEVELOPMENT POLICY AND PRACTICE

Commission Reports and Recommendations: Tibetan Culture in a Developing 
                                  West

    CECC Annual Reports issued since 2002 document that Chinese 
government development policy and implementation, especially of 
the Great Western Development (GWD) program,\182\ increase 
pressure on the Tibetan language and culture, and erode the 
Tibetan people's ability to preserve their heritage and self-
identity.

        <bullet> The 2002 Annual Report observed that GWD ``has 
        the most profound implications for western China of any 
        official policy formulation to emerge in the post-Deng 
        era.'' \183\ The report identified the Qinghai-Tibet 
        railway, then in its second year of construction,\184\ 
        as the project causing the greatest alarm for Tibetans. 
        An expert told the Commission, ``The new railway to 
        Tibet will only intensify existing migratory trends, 
        exacerbate ethnic income disparities, and further 
        marginalize Tibetans in traditional economic 
        pursuits.'' \185\
        <bullet> In 2003, the Annual Report stated, ``The 
        majority of Tibetans, who live in rural areas, benefit 
        little from central government investment in the 
        Tibetan economy. Most of this investment supports 
        large-scale construction and government-run enterprises 
        in which Han control is predominant.'' \186\ Tibetans 
        must have access to significantly improved educational 
        resources if they are to adapt successfully to their 
        new environment, and if their culture is to survive, 
        then the Tibetan language must play an important role 
        in their education, the report said.\187\
        <bullet> In 2004, the Annual Report noted that 
        ``existing policy initiatives are gaining momentum, 
        especially the Great Western 
        Development program, formulated to accelerate economic 
        development in China's western provinces and speed 
        their integration into the political and social 
        mainstream.'' \188\ The report warned that government 
        policies ``promote strict adherence to a national 
        identity defined in Beijing [and] discourage Tibetan 
        aspirations to maintain their distinctive culture and 
        religion.'' \189\
        <bullet> The 2005 Annual Report showed that Chinese 
        government statistics on educational achievement 
        demonstrate that few Tibetans are prepared to compete 
        for employment and business opportunities in the Han-
        dominated economic environment developing around 
        them.\190\ Urban Tibetans reached senior middle school 
        at 19 times the rate of rural Tibetans, the report 
        said, but rural Tibetans are the largest and least 
        prepared category of Tibetans competing for 
        opportunities created by government economic 
        development programs.\191\
        <bullet> The release of the 2006 Annual Report followed 
        the start of operation of the Qinghai-Tibet railway. 
        The report noted ``increasing Tibetan concerns about 
        the railway's potential effects on the Tibetan culture 
        and environment,'' \192\ and explained why Chinese law, 
        government and Party policies, and official statements 
        increase Tibetan concerns that programs such as GWD and 
        projects such as the Qinghai-Tibet railway will lead to 
        large increases in Han migration.\193\

    The Commission responded to the concerns and needs of 
Tibetans in China by recommending increased funding for U.S. 
NGOs to develop programs that ``improve the health, education, 
and 
economic conditions of ethnic Tibetans.'' A Commission 
recommendation in 2003 stressed that such programs should 
``create direct, sustainable benefits for Tibetans without 
encouraging an influx of non-Tibetans into these areas.'' \194\

  GWD Era Laws and Regulations Tend To Pressure, Not Protect, Tibetan 
                                Culture

    Changes in Chinese laws and regulations that address ethnic 
autonomy issues and that have been enacted during the period of 
GWD tend to decrease the protection of ethnic minority language 
and culture. The stated purpose of GWD is to ``accelerate 
economic and social development of the western region and the 
minority nationality regions in particular.'' \195\ TAR Party 
Secretary Zhang Qingli asserted that as the result of such 
policies, ``Tibet is in [the] best period of development and 
stability in its history.'' \196\ President and Party General 
Secretary Hu Jintao, who served as the TAR Party Secretary from 
1988-1992,\197\ affirmed support for GWD and the importance of 
``the issue of coordinated regional development'' when he met 
TAR delegates to the NPC in March 2007.\198\ Laws and 
regulations such as the following have resulted in a trend of 
increasing cultural, linguistic, and economic pressure on 
ethnic minorities.
    The National People's Congress (NPC) amended the 1984 
Regional Ethnic Autonomy Law (REAL)\199\ in 2001, bringing the 
law into conformity with more recent trends in Party policy. 
Amendments added extensive language guiding issues that include 
economic development, natural resource exploitation, 
infrastructure construction, financial and fiscal management, 
recruiting cadres, professionals, and workers from other parts 
of China to ``Go West,'' establishing cooperative development 
projects between other parts of China and the GWD area, and 
improving the education system for ethnic minorities.\200\ [See 
Section II--Ethnic Minority Rights for more information on the 
REAL.]
    The amended REAL increased state support for ethnic 
minority education but lessened the state's commitment to the 
constitutionally protected task of preserving and using ethnic 
minority languages.\201\ The 1984 REAL required the state to 
set up ``institutes of nationalities and, . . . nationality 
oriented classes and preparatory classes which only enroll 
students from minority nationalities.'' \202\ The amended REAL 
requires such institutes to ``enroll only or mostly students 
from ethnic minorities,'' \203\ potentially reducing the level 
of use of ethnic languages within such institutes. Another 
result is that ethnic minorities must compete academically with 
Han who enroll in ethnic minority institutes, and compete with 
them for jobs after graduation.\204\ The 1984 REAL authorized 
the state to introduce for ethnic minorities ``[p]referred 
enrollment and preferred assignment of jobs,'' \205\ a form of 
assistance that can help Tibetans and other minorities to 
compete for employment in an emerging market economy that 
attracts an increasing number of Han who have better 
educations.\206\ The amended REAL, however, removed the 
language that authorized the preferential treatment for ethnic 
minorities.\207\
    The Provisions of the State Council for Implementing the 
REAL,\208\ issued in May 2005, promote a key GWD strategy:\209\ 
encouraging professionals, experts, and workers in China's 
populous areas to ``Go West'' along with their families to 
``develop and pioneer in ethnic autonomous areas.'' \210\ The 
amended REAL itself provides the basis for establishing 
implementing provisions that provide incentives for population 
movement into autonomous areas where Tibetans and other ethnic 
groups live by authorizing local autonomous governments to 
provide ``preferential treatment and encouragement'' to 
``specialized personnel joining in the various kinds of 
construction in these areas.'' \211\ Minister Li Dezhu of the 
State Ethnic Affairs Commission (SEAC) warned in 2000 that 
implementation of the GWD and the resulting westward population 
flow could cause ``possible trouble'' in ethnic relations. He 
wrote in Seeking Truth that ``some changes in the proportions 
of the nationalities'' would take place and that ``conflicts 
and clashes'' could occur between ethnic groups.\212\
    The State Council Legislative Affairs Office is reportedly 
preparing a draft law for submission to the NPC that ``aims to 
create a favorable legal environment and support for a smooth 
implementation'' of GWD, according to a March 2006 statement by 
Wang Jinxiang, the Vice Minister of the National Development 
and Reform Commission and the Deputy Director of the State 
Council Office of the Leading Group for Western Region 
Development.\213\ Wang said that the Legislative Affairs Office 
was working on the 14th version of the draft and that he 
believed completion of the draft was ``imminent.'' No updated 
information is available about the progress of the bill.
    Protection for the Tibetan language has also decreased 
under autonomy regulations enacted during the GWD period. In 
2002, the TAR People's Congress revised the 1987 TAR 
Regulations on the Study, Use, and Development of the Tibetan 
Language,\214\ ending the precedence of the Tibetan language by 
authorizing the use of ``either or both'' of Mandarin and 
Tibetan languages in most areas of government work.\215\ A 1998 
government White Paper stated, ``Guaranteeing the study and use 
of the Tibetan language is an important aspect of safeguarding 
the Tibetan people's right to autonomy and exercising their 
right to participate in the administration of state and local 
affairs.'' \216\ The then-current regulation ``clearly 
specifies that both Tibetan and Chinese should be used in the 
Tibet Autonomous Region, with precedence given to the Tibetan 
language,'' according to the White Paper.

 Qinghai-Tibet Railway Carries 1.5 Million Passengers Into the TAR in 
                               First Year

    The Qinghai-Tibet railway, officially designated a key GWD 
project,\217\ ``transported 1.5 million passengers into Tibet'' 
during its first year of operation (ending on June 30, 2007), 
according to a July report.\218\ The government issued no 
public reports of major incidents or accidents linked to the 
railway's operation during the year. Advocacy organizations 
have expressed publicly\219\ what Tibetans in China say 
privately, that the railway will facilitate a surge of non-
Tibetans into Tibetan autonomous areas, altering the 
demographic and economic structure of the region, and further 
increasing pressure on Tibetan culture and on Tibetans as they 
compete for jobs and other economic benefits.\220\ Jampa 
Phuntsog (Xiangba Pingcuo), Chairman of the TAR government, 
claimed in June 2007 that such a threat does not exist, and 
that Tibetans in the TAR would not face assimilation into 
Chinese culture (``Han culture'').\221\
    State-run media reports about the Qinghai-Tibet railway 
generally apply the terms ``passenger'' and ``tourist'' 
interchangeably to persons traveling to the TAR, and provide 
little information about how many passengers arrive in the TAR 
for purposes other than tourism. For example, the July report 
of ``1.5 million passengers'' describes them as ``nearly half 
of the total tourist arrivals in the region.'' \222\ At that 
rate of arrival, nearly 4,100 passengers arrived in the TAR 
each day. That figure accords closely with a May 2006 statement 
by the China Tibet Tourism Bureau (before railway operations 
began) that the railway would ``transport an additional 4,000 
tourists to Tibet each day.'' \223\ The July report's portrayal 
of the 1.5 million passengers as ``tourists'' making up nearly 
half the total tourist arrivals is also consistent with 
information in other official reports: there were a total of 
3.6 million tourist arrivals in 2006 and the first six months 
of 2007.\224\
    The Commission is aware of one official Chinese media 
report that less than half of the Lhasa-bound Qinghai-Tibet 
railway passengers were tourists during the height of the 
tourist season after the railway began service. Midway into 
September 2006, the railway's third month of operation, Jin 
Shixun, the Director of the TAR Committee of Development and 
Reform, provided information about the occupational categories 
of passengers--60 percent were business persons, students, 
transient workers, traders, and individuals visiting relatives; 
40 percent were tourists.\225\ Jin's remark was based on 
270,000 passengers over a period of approximately 75 days, or 
about 3,600 passengers per day. If a similar proportion 
prevailed throughout the remainder of the first year of 
operation, then approximately 900,000 of the 1.5 million 
passengers could have been non-tourists, and hundreds of 
thousands of them could have been non-Tibetan business persons, 
workers, and traders who intended to remain for a period in the 
TAR. An October 2005 report by China's state-run media also 
acknowledged that the railway will ``attract tourists, traders, 
and ethnic Chinese settlers'' to the region.\226\
    A Tibetan resident of Lhasa told a radio call-in show in 
July 2007 that ``Tibetans in Lhasa have been overwhelmed by the 
frightful explosion of the Chinese population in the city.'' 
\227\ The caller said that ``wherever you go, you get the 
impression of overcrowding.'' Tibetans ``[witness] Chinese 
tourists becoming permanent residents,'' she said, and reported 
that ``Chinese migrants were moving fast into formerly Tibetan 
neighborhoods and businesses.'' Another Tibetan caller from 
Lhasa said ``there is deep skepticism about the aim and whose 
purpose [the railway] is serving,'' and asserted that ``the 
Tibetans are certainly not the direct beneficiaries.'' The 
first caller acknowledged that Tibetan traders are doing more 
business, but she said those benefits are ``insignificant if 
you take the whole picture of Chinese benefits in terms of 
business and employment into account.'' \228\ An NGO reported 
in early August that Chinese fleeing flooded areas of the 
country were ``pouring into Tibet'' on the Qinghai-Tibet 
railway, and that thousands of unemployed migrants roamed Lhasa 
looking for work.\229\ The ``unprecedented movement of Chinese 
migrants to Lhasa,'' which started in July, ``has put pressure 
on the local Tibetans and their day-to-day livelihood,'' 
according to the report.
    Inadequate information provided by the Chinese government 
about passengers traveling on the Qinghai-Tibet railway hampers 
objective assessment of the railway's alleged role in 
accelerating the influx of non-Tibetan residents into the 
region. Existing examples of the establishment of rail links to 
remote regions in China indicate that significant changes to 
the proportions of ethnic groups occur over time. Rail links 
were built into what is now the Inner Mongolia Autonomous 
Region (IMAR) before the PRC was established;\230\ a railway 
reached Urumqi, the capital of the Xinjiang Uighur Autonomous 
Region (XUAR), in 1962; the railway arrived in Kashgar, in the 
western XUAR, in 1999.\231\ Based on official 2000 census data, 
the ratio of Han to Mongol in the IMAR is 4.6 Han to 1 Mongol. 
In the XUAR the ratio of Han to Uighur is 0.9 Han to 1 Uighur. 
The ratio of Han to Tibetans in the TAR stood at 0.07 Han to 1 
Tibetan in 2000, according to census data.\232\ Tibetans are 
concerned that the Qinghai-Tibet railway will facilitate 
changes in Tibetan areas of China similar to those in the IMAR 
and XUAR.

 Rebuilding the Tibetan Countryside: Allegations of Forced Settlement, 
                               Re-housing

    Another Party-led program linked to GWD and the anti-Dalai 
Lama campaign aims to end a way of life that is iconic among 
Tibetans and that has survived for centuries: nomadic 
herding.\233\ A government program gathered momentum last year 
that aims to build a ``beautiful, new socialist countryside'' 
\234\ and requires nomads to give up their traditional 
lifestyle and grazing lands to live in fixed settlements, or 
find other work. Similar programs affecting herders in Qinghai, 
Gansu, Sichuan, and Yunnan provinces are underway.\235\ A TAR 
government program underway is moving Tibetan farmers into new 
housing in reorganized communities. TAR Party Secretary Zhang 
Qingli said that such steps would result in a ``harmonious 
society.'' \236\ Party General Secretary Hu Jintao\237\ advised 
TAR delegates, including Zhang, attending the NPC in March 2007 
that ``maintaining social harmony and stability is the 
premise'' for economic and social development in the TAR.\238\
    Zhang Qingli said in the January 2007 issue of Seeking 
Truth that the Party's determination to restructure Tibetan 
farming and grazing communities is not only to promote economic 
development, but also to counteract the Dalai Lama's 
influence.\239\ Zhang said that to do so is essential for 
``continuing to carry out major development of west China'' 
(e.g., GWD), and pointed out that 80 percent of the TAR 
population are farmers and herders. ``[Farmers and herders 
`living and working in peace and contentment'] is the 
fundamental condition for us in holding the initiative in the 
struggle against the Dalai clique,'' Zhang said.\240\ He listed 
Party objectives including to construct permanent housing for 
nomadic herders, improve farmers' housing, relocate farmers' 
housing to achieve poverty relief, and ensure that 80 percent 
of TAR farmers and herders are in ``safe and suitable'' housing 
within five years. Zhang called on the Party to support 
measures to ``actively organize'' Tibetan farmers and herders 
to move to towns or urban areas to find employment, set up 
businesses, or seek training in other skills.\241\
    The Chinese government has implemented policies since 2000 
(the year that GWD was implemented) to confiscate herders' 
land, erect fencing, and resettle herders, and has intensified 
the policies in some areas since 2003, Human Rights Watch (HRW) 
reported in June 2007.\242\ Guolou (Golog) and Yushu Tibetan 
Autonomous Prefectures (TAPs) in Qinghai province are the areas 
most severely affected by implementation.\243\ The report 
acknowledges that China faces environmental crises, and that 
Chinese officials have explained that removing herds from 
traditional pastures will benefit the environment,\244\ but the 
report asserts that ``there are grounds for disputing both who 
is responsible for those crises and the consequent actions 
taken by the government in the name of protection in Tibetan 
areas.'' \245\
    The resettlement program has subjected herders to 
compulsory or forced resettlement, compulsory livestock 
reduction, bans on grazing, compulsory change of land use, and 
evictions to make way for public works schemes, the HRW report 
asserts.\246\ Chinese 
authorities failed to consult adequately with the affected 
herders, provide them with adequate compensation, or allow them 
adequate options for complaint, thereby failing to fulfill 
requirements under the Chinese Constitution, according to the 
report.\247\ ``Claims of nonpayment are endemic, and there are 
also allegations of corruption and discrimination in the 
compensation process,'' according to HRW.\248\
    The number of Tibetans affected by forced resettlement is 
unknown but it ``clearly runs into the tens, if not hundreds, 
of thousands,'' according to the HRW report.\249\ The 
Commission's 2006 Annual Report reported that TAR authorities 
relocated 48,000 herders and settled them in fixed communities 
in the period 2001-2004,\250\ that a government program in 
Qinghai province to settle herders (including Tibetans) placed 
about 10,000 families in fixed communities by 2005,\251\ and 
that a Gansu province program started in the late 1990s to 
settle herders in Tibetan autonomous areas settled 7,000 
families by 2004 and is expected to be complete in 2009.\252\
    TAR government Chairman Jampa Phuntsog stated in June 2007 
that ``no forced resettlement has been done'' in the TAR, and 
he provided details about some cases of relocation.\253\ He 
acknowledged that the TAR government had ``displaced some 7,000 
people who lived at the source of the Yangtze River'' in 
Changdu (Chamdo) prefecture and resettled them in Linzhi 
(Kongpo) prefecture. He claimed that the government had 
``respected the will of the people'' in doing so. In addition, 
the TAR was seeking to move dozens of herding families out of 
the Hol Xil Natural Reserve, but not all of them had agreed to 
leave. ``We are still trying to persuade them to move, and they 
will only be relocated when they agree to,'' Jampa Phuntsog 
said.\254\
    The TAR government launched a program in 2006, concurrent 
with the region's 11th Five-Year Plan, to move Tibetan farmers 
and herders into new housing.\255\ In the first year of 
operation, the program moved 56,000 households with 290,000 
members into new houses.\256\ Zhang Qingli personally led the 
effort, according to state-run media, and when the program 
concludes in 2010, it will have moved 220,000 families into new 
homes.\257\ Based on an average household size of 5.2 persons 
(suggested by the preceding data), the total number of Tibetans 
moved into new housing by 2010 could be approximately 1.14 
million--more than half of the total number of Tibetan rural 
residents in the TAR at the time of the 2000 census.\258\
    Reports by advocacy groups and official Chinese media 
organizations on whether or not Tibetan participation in the 
housing program is voluntary, and the consequences of the 
financial burden on Tibetan farmers and herders, differ 
sharply. Zhang Qingli said in March 2007 that county- and 
prefecture-level governments offer each household a subsidy to 
defray 10,000-25,000 yuan (US$1,300-US$3,300) of the estimated 
60,000 yuan (US$8,000) cost of a house, with Tibetan 
householders paying the rest.\259\ Construction is on a 
``strictly volunteer basis,'' Zhang claimed.\260\ HRW reported 
in December 2006 that the program requires villagers, 
``particularly those who live next to main roads,'' to rebuild 
their homes ``in accordance with strict official specifications 
within two to three years.'' \261\ The government does not 
subsidize the cost of the house, according to HRW, but lends 
Tibetans between 20 and 25 percent of the cost to 
householders.\262\
    Tibetan farmers and nomads, whose 2,435 yuan average per 
capita income in 2006 places them among China's poorest 
citizens,\263\ generally do not have savings or other capital 
resources equal to several years of income, so they face 
difficulty in paying for the government-mandated housing. 
``Nearly all must therefore supplement these funds with 
considerable bank loans,'' HRW said. Even relatively wealthy 
households have been ``forced into debt,'' and borrowers who 
default on loans forfeit the right to occupy the house, 
according to the report.\264\ None of the Tibetans interviewed 
by HRW reported that they had a right to challenge the program 
or refuse to participate in it. Some Tibetans described 
incidents in which local authorities demolished Tibetan homes 
after residents refused to participate in the program, or who 
said that they could not participate because they could not 
borrow enough money to pay for a new home. According to a June 
2007 foreign media report, the relocated villages are ``cookie-
cutter'' in style, and even though farmers did not appear to be 
happy, they were ``reluctant to complain.'' \265\
    Local government officials in a village in Dingri county, 
located in Rikaze (Shigatse) prefecture in the TAR, threatened 
to punish households that failed to build a new home, according 
to a May 2007 Tibetan Centre for Human Rights and Democracy 
(TCHRD) report.\266\ Officials told the villagers that they 
should improve their village before the 2008 Olympics so that 
it will be more attractive to tourists. The government offered 
to contribute 10,000 yuan toward houses that must cost a 
minimum of 20,000 yuan, but villagers in the area are so poor 
that only 4 of the 34 households built houses.\267\ Three of 
the four households had to secure a bank loan in order to match 
the government's 10,000 yuan contribution. ``The new houses do 
not reflect the better living standards of Tibetan people, they 
are not happy in the new houses built upon debts, [and] they 
are more worried than ever about how to repay the loans to 
banks,'' TCHRD's source said.\268\

 PUNISHING PEACEFUL TIBETAN EXPRESSION UNDER CHINA'S CONSTITUTION AND 
                                  LAW

          Commission Reports, China's Record on Tibetan Rights

    Commission Annual Reports issued since 2002 document that 
the Chinese government applies the Constitution and law in a 
manner that restricts and represses the exercise of human 
rights by Tibetans, and that uses the law to punish peaceful 
expression and action by Tibetans as threats to state security. 
The Chinese government, and governments in the TAR and other 
provinces where Tibetans live, made no progress in the past 
year toward improving the right of Tibetans in China to 
exercise their constitutionally guaranteed freedoms of 
religion, expression, and assembly. Such restrictions are 
inconsistent with the Chinese government's obligations under 
international human rights standards.\269\ Instead, Communist 
Party political campaigns promote atheism and strengthen 
government efforts to discourage Tibetan aspirations to foster 
their unique culture and heritage. [See Section II--Freedom of 
Religion.]

        <bullet> The 2002 Annual Report observed that the 
        Chinese government seeks to maintain unity and 
        stability\270\ by ``constraining Tibetan political, 
        cultural, educational, and religious life,'' and that 
        human rights and the rule of law in Tibetan areas of 
        China are configured to serve government and Party 
        interests.\271\
        <bullet> In 2003, the Annual Report noted that friction 
        remains between Tibetan aspirations to maintain their 
        distinctive culture and religion and Chinese policies 
        favoring atheism and emphasizing the primacy of 
        national identity. China represses peaceful expression 
        that it considers ``splittist,'' or that it deems to be 
        ``detrimental to the security, honor, and interests of 
        the motherland.'' \272\
        <bullet> The 2004 Annual Report observed that China 
        represses or punishes peaceful expression by Tibetans 
        that authorities deem to ``endanger state security'' 
        even if the expression is non-violent and poses no 
        threat to the state. An official in Beijing told 
        Commission staff in September 2003, ``There is not a 
        distinct line between violent and non-violent. . . . A 
        non-violent action can result in eventual violence.''
        <bullet> The 2005 Annual Report noted the downward 
        trend in the number of known Tibetan political 
        prisoners, and suggested, ``Tibetans are avoiding the 
        risks of direct criticism or protest against Chinese 
        policies and are turning to education, arts, and 
        religion for ways to express and protect their culture 
        and heritage.'' But as incidents of protest declined, 
        Chinese authorities watched for other signs of Tibetan 
        resentment or nationalism.
        <bullet> In 2006, the Annual Report provided additional 
        information on how Tibetans appear to be avoiding the 
        risks of direct 
        protest against government policies and turning to 
        other methods of cultural expression. After the Dalai 
        Lama told Tibetans in India, ``Neither use, sell, or 
        buy wild animals, their products or derivatives,'' 
        Tibetans in China staged public events in which they 
        burned rare furs stripped from traditional Tibetan 
        garments.\273\

Political Imprisonment of Tibetans: Peaceful Expression and Non-Violent 
                  Action as Threats to State Security

    Chinese authorities continue to detain and imprison 
Tibetans for peaceful expression and non-violent action, 
charging them with crimes such as ``splittism,'' \274\ and 
claiming that their behavior ``endangers state security.'' 
\275\ [See Section II--Rights of Criminal Suspect and 
Defendants--Law in Action: Abuses of Criminal Law and 
Procedure.] Expression or action that is linked to the Dalai 
Lama is especially likely to result in such charges. Chinese 
officials have punished Tibetans, such as Jigme Gyatso, a 
former monk imprisoned in 1996 who is serving an 18-year 
sentence\276\ for printing leaflets, distributing posters, and 
later shouting pro-Dalai Lama slogans in prison, and Choeying 
Khedrub, a monk serving a life sentence since 2000 for printing 
leaflets, for peaceful expressions and non-violent actions that 
officials believe could undermine Party rule. Two Tibetans 
sentenced along with Choeying Khedrub, monk Yeshe Tenzin and 
builder Tsering Lhagon, are serving sentences of 10 and 15 
years respectively on the same charges.
    Possessing photographs or copies of religious teachings of 
the Dalai Lama can result in imprisonment for endangering state 
security (by ``inciting splittism'') for up to five years, 
especially if a Tibetan carries such material across the 
international border into the TAR, an official of the Rikaze 
(Shigatse) Prefecture Intermediate People's Court, located in 
the TAR, confirmed in 2005.\277\ ``Any document that relates to 
Tibetan independence, Dalai Lama photos, or any other documents 
or literature containing reactionary themes or subjects are 
punishable,'' he said. In February 2007, the Rikaze court 
sentenced a Tibetan man, Penpa, to three years' imprisonment 
after police searched his home and confiscated audio recordings 
of the Dalai Lama conducting a Buddhist teaching in India.\278\ 
Local authorities became suspicious of Penpa when they learned 
that he was saving sheep from the slaughterhouse as a religious 
offering dedicated to the Dalai Lama's long life.\279\
    Public security officials detained a total of nine Tibetans 
in Ganzi (Kardze) Tibetan Autonomous Prefecture (TAP), Sichuan 
province, none of whom authorities accused of violent activity, 
between March and August 2006, according to reports issued 
between June and September.\280\ Officials detained six of the 
Tibetans for alleged roles in printing and distributing pro-
independence leaflets in late May: Kayo Doga (a layman in his 
late-50s, previously sentenced to three years of reeducation 
through labor in 2002 for his role in arranging a prayer 
ceremony for the Dalai Lama's long life); Yiga (Kayo Doga's 
daughter, a former nun); nuns Sonam Lhamo, Sonam Choezom (or 
Sonam Choetso), and Jampa Yangzom (or Jampa Yangtso); and Yiga, 
a female middle-school student. According to an unofficial 
source, a Ganzi county court issued a notice that all six 
detainees, including the minor, Yiwang, would face trial and 
that formal arrest had taken place.\281\
    In separate incidents reported by unofficial sources 
involving the seventh and eighth Ganzi detentions, officials 
detained monk Namkha Gyaltsen of Gepheling Monastery in March 
2006 for allegedly painting pro-independence slogans on 
government buildings (or putting up pro-independence posters), 
and monk Lobsang Palden, also of Gepheling, on August 15 after 
authorities searched his room and found ``incriminating 
documents'' including photos of the Dalai Lama.\282\ Namkha 
Gyaltsen allegedly confessed and may face a sentence of seven 
to eight years, and officials formally arrested Lobsang Palden 
on September 6 on charges of inciting splittism. In the ninth 
reported Ganzi detention, public security officials searched 
the living quarters of Jinpa, the abbot of Taglung Monastery, 
located in Seda (Serthar) county in Ganzi TAP, in 
August 2006, according to an unofficial report.\283\ The 
officials reportedly found nothing that they considered to be 
illegal, but they detained Jinpa nonetheless, possibly in 
connection with pro-independence posters that appeared in the 
monastery a year earlier.
    Public security officials based at Sera Monastery in Lhasa 
detained monk Gyaltsen Namdrag in May 2006 on suspicion that he 
distributed pro-independence pamphlets, according to an 
unofficial report.\284\ The Lhasa Intermediate People's Court 
sentenced him in October to five years' imprisonment on charges 
of endangering state security (probably ``inciting 
splittism''). Gyaltsen Namdrag is reportedly serving his 
sentence at Qushui Prison, according to the report.
    The Lhasa Intermediate People's Court sentenced tailor 
Sonam Gyalpo to 12 years' imprisonment for espionage on June 9, 
2006,\285\ following a search of his Lhasa home in August 2005 
by state security officials who discovered photos and 
videotapes of the Dalai Lama and printed matter, according to 
an unofficial report.\286\ Sonam Gyalpo allegedly made contact 
with the Tibetan government-in-exile in the 1990s and engaged 
in pro-independence activity in the TAR, according to official 
Chinese information reported by Dui Hua Dialogue in April 
2007.\287\ Sonam Gyalpo was 1 of about 10 Tibetans detained 
before the 40th anniversary of the TAR on September 1, 2005, 
according to another unofficial report.\288\ He was reportedly 
imprisoned twice previously for a total of nearly four years as 
punishment for political activity,\289\ and is serving his 
current sentence in Qushui Prison.\290\
    Official Chinese information confirmed the detention of 
Lhasa school teacher Drolma Kyab in March 2005, his conviction 
on charges of espionage and illegally crossing the border, and 
his sentence of 10 years and 6 months' imprisonment after he 
authored a manuscript touching on sensitive political 
subjects.\291\ The unpublished book contained 57 chapters on 
subjects such as ``democracy, sovereignty of Tibet, Tibet under 
[C]ommunism, colonialism, [and] religion,'' according to an 
unofficial report.\292\ Drolma Kyab had started a second work 
that focused on Tibetan geography and that touched on topics 
including the number and location of military camps in 
``Chinese occupied Tibet.'' \293\ He smuggled a letter 
appealing to the United Nations for help out of Qushui 
Prison,\294\ where he is serving his sentence.\295\ Drolma Kyab 
wrote in the letter, ``They think that what I wrote about 
nature and geography was also connected to Tibetan 
independence. . . . [T]his is the main reason of my conviction, 
but according to Chinese law, the book alone would not justify 
such a sentence. So they announced that I am guilty of the 
crime of espionage.'' \296\
    The Gannan Intermediate People's Court in Gansu province 
sentenced nun Choekyi Drolma to three years' imprisonment in 
December 2005 for ``inciting splittism,'' according to official 
Chinese information that became available in November 
2006.\297\ She is serving her sentence in the Gansu Women's 
Prison. Choekyi Drolma was among five Tibetan monks and nuns 
detained in 2005 in Xiahe (Sangchu), in Gannan (Kanlho) Tibetan 
Autonomous Prefecture (TAP) in Gansu. Public security officials 
detained her along with nuns Tamdrin Tsomo and Yonten Drolma of 
Gedun Tengyeling Nunnery, and monks Dargyal Gyatso and Jamyang 
Samdrub of Labrang Tashikhyil Monastery, on May 22, 2005, on 
suspicion that they circulated and displayed letter-sized 
posters that were critical of the Chinese government. The 
official information mentioned only Choekyi Drolma, but it is 
likely that the court tried and sentenced the five monks and 
nuns together since they allegedly acted together. Dargyal 
Gyatso and Tamdrin Tsomo are believed to be serving 3-year 
sentences; Jamyang Samdrub and Yonten Drolma are believed to 
have been released after completing 18-month sentences.\298\
    Jamphel Gyatso and Tashi Gyaltsen, two of a group of five 
monks of Dragkar Traldzong Monastery reportedly detained in 
Qinghai province in January 2005 and sentenced in February for 
publishing a poem in the monastery newsletter, are reportedly 
serving their three-year sentences at a brick kiln near Xining, 
the capital of Qinghai.\299\ The other three monks, Lobsang 
Dargyal, Tsesum Samten, and Tsultrim Phelgyal, completed two-
year and six-month sentences in July 2007 and are presumed to 
be released. Security officials considered the poem to be 
politically sensitive and ordered the monks to serve terms of 
reeducation through labor.
    No new developments were reported in the past year in the 
cases of prisoners Bangri Chogtrul or Tenzin Deleg, 
reincarnated Tibetan lamas convicted in separate cases. Both 
men had contact with the Dalai Lama in India in the years prior 
to their detentions. Bangri Chogtrul (Jigme Tenzin Nyima), who 
lived as a householder in Lhasa and managed a children's home 
along with his wife, was convicted of inciting splittism and 
sentenced to life imprisonment in a closed court in Lhasa in 
September 2000.\300\ The Lhasa Intermediate People's Court 
commuted his sentence to 19 years of fixed term imprisonment in 
July 2003, and reduced the sentence by 1 year in November 
2005.\301\ Tenzin Deleg (A'an Zhaxi) was convicted in a closed 
court in Sichuan province in November 2002 of conspiring to 
cause explosions and inciting splittism.\302\ Authorities claim 
that the case involves state secrets and refuse to disclose 
details of evidence that establishes a direct link between 
Tenzin Deleg and the alleged criminal acts. The Commission and 
Human Rights Watch have published reports on the case, which 
has stirred international controversy for its procedural 
violations and lack of transparency.\303\ The provincial high 
court commuted Tenzin Deleg's reprieved death sentence to life 
imprisonment in January 2005. Chinese officials acknowledge 
that he suffers from coronary heart disease and high blood 
pressure.\304\
    In an incident linked to a protest against Tenzin Deleg's 
imprisonment, public security officials in Litang county, Ganzi 
TAP, detained Tibetan nomad Ronggyal Adrag (Runggye Adak) on 
August 1, 2007, at a horse-racing festival after he climbed 
onto a stage where officials were scheduled to speak and, 
according to one report,\305\ shouted slogans calling for the 
Dalai Lama's return to Tibet, the release of Gedun Choekyi 
Nyima (the Panchen Lama identified by the Dalai Lama), and 
Tibetan independence. According to other reports,\306\ he 
called for the Dalai Lama's return, freedom of religion, and 
the releases of the Panchen Lama and Tenzin Deleg. Ronggyal 
Adrag's statements may have been provoked by a petition drive 
conducted by Chinese officials who visited local monasteries in 
the weeks before the festival and told monks to sign a petition 
stating that they do not want the Dalai Lama to return to 
Tibet.\307\ In an unusually swift and public response, China's 
state-run media acknowledged on August 3 that police detained 
Ronggyal Adrag for ``inciting separation of the 
nationalities,'' and that more than 200 Tibetans had gathered 
the same day outside the detention center to call for his 
release.\308\ All of the Tibetans left the area of the 
detention center by the following day, according to the 
official report. A week later, on August 8, People's Armed 
Police forces used tear gas and stun grenades to disperse 
Tibetans who gathered peacefully near the horse-racing grounds 
to call for Ronggyal Adrag's release, according to an 
unofficial report.\309\ Authorities detained three of Ronggyal 
Adrag's nephews on August 21, including monk Adrug Lopoe of 
Lithang Monastery, whom police deemed to be a ``splittist'' 
influence behind the public demands for Ronggyal Adrag's 
release.\310\ Officials released Adrug Lopoe's two brothers 
soon after they took him into detention.\311\
    Another incident of Tibetan expression of the wish for the 
Dalai Lama to return to Tibet resulted in the detention of 
seven 14- and 15-year old middle school students in Xiahe 
county, Gannan TAP, according to an NGO report.\312\ On or 
about September 7, 2007, local public security officials 
detained about 40 students from a 
village middle school after some of the students allegedly 
wrote slogans on walls calling for the Dalai Lama's return and 
Tibetan freedom.\313\ Police released all but seven of the 
students within 48 hours, and transferred seven boys to the 
Xiahe county seat, where authorities refused to provide any 
information to the children's families or confirm that they 
were in police custody.\314\ The report named five of the boys: 
Chopa Kyab (age 14), Drolma Kyab (14), Tsekhu (14), and two 15-
year-olds each named Lhamo Tseten.\315\ Police reportedly beat 
one of the seven boys upon detention, resulting in profuse 
bleeding, and refused to allow the boy's family to take him for 
medical care.
    Chinese authorities carried out 13 known detentions of 
Tibetans in 2006, a decrease compared to the 24 such detentions 
in 2005 and 15 such detentions in 2004, according to 
information available in the Commission's Political Prisoner 
Database (PPD) as of September 2007. Of the known political 
detentions in 2006, nine took place in Sichuan province and 
four in the TAR. The PPD listed 100 known cases of current 
Tibetan political detention or imprisonment, a figure that is 
likely to be lower than the actual number of Tibetan political 
prisoners. Reports of Tibetan political imprisonment often do 
not reach monitoring groups until at least one or two years 
after the detentions occur. Forty-nine of the Tibetans are 
believed to be detained or imprisoned in the TAR, 30 in Sichuan 
province, 9 in Qinghai province, and 9 in Gansu province. The 
location where Chinese authorities are holding the Panchen Lama 
and his parents is unknown. Based on sentence information 
available for 61 of the current prisoners, the average sentence 
length is 11 years and 7 months.
    The number of known cases of current Tibetan political 
detention or imprisonment reported in the current Annual Report 
is approximately half the number that the Commission reported 
in the 2002 Annual Report.\316\ The downward trend in the 
number of known Tibetan political prisoners may reflect 
incomplete information, as well as fewer Tibetans risking 
imprisonment as punishment for peaceful expression and non-
violent action in opposition to Chinese policies. Instead, 
Tibetans may be turning to other methods of expressing their 
culture and self-identity.
    Monk Ngawang Phuljung of Drepung Monastery, the longest 
serving Tibetan who remains imprisoned for counterrevolutionary 
crimes, received a 6-month reduction to his 19-year sentence in 
September 2005 and is due for release from Qushui Prison on 
October 18, 2007, according to an October 2006 report based on 
official Chinese information.\317\ After his detention in April 
1989, the Lhasa Intermediate People's Court sentenced him along 
with nine other Drepung monks at a public rally in November. 
Ngawang Phuljung's crimes included ``forming a 
counterrevolutionary organization,'' ``spreading 
counterrevolutionary propaganda,'' ``passing 
information to the enemy,'' and ``crossing the border illegally 
and spying,'' according to a 1994 UN Working Group on Arbitrary 
Detention (UNWGAD) report that quoted an official Chinese 
response about the case.\318\ The UNWGAD report declared 
Ngawang Phuljung's detention arbitrary, and stated that the 
alleged espionage and betrayal of state secrets ``consisted in 
fact in the exposure of cases of violations of human rights 
including their disclosure abroad.''

                      V. Developments in Hong Kong

    The United States supports a stable, autonomous Hong Kong 
under the ``one country, two systems'' formula articulated in 
the Sino-U.K. Joint Declaration and the Basic Law.\1\ The 
people of Hong Kong enjoy the benefits of an independent 
judiciary\2\ and an open society in which the freedoms of 
religion, speech, and assembly are respected. The Commission 
strongly supports the provisions of the Basic Law that provide 
for the election of the Chief Executive and the entire 
Legislative Council through universal suffrage, and highlights 
the importance of the central government's obligation to give 
Hong Kong the ``high degree of autonomy'' promised in the Basic 
Law.

         CONSTITUTIONAL REFORM AND STEPS TO UNIVERSAL SUFFRAGE

    The National People's Congress Standing Committee (NPCSC) 
issued a decision in April 2004 prohibiting the people of Hong 
Kong Special Administrative Region (HKSAR) from electing both 
the Chief Executive in 2007 and the members of the Legislative 
Council (LegCo) in 2008 through universal suffrage.\3\ 
Universal suffrage is described in Articles 45 and 68 of the 
Basic Law as the ``ultimate aim.'' \4\ Currently, the Chief 
Executive is selected by the 800-member Election Committee 
chosen from Hong Kong's 28 functional constituencies, and only 
half of the 60 legislators in the LegCo are chosen by direct 
election.
    In June 2005, following the resignation of former Chief 
Executive Tung Chee-hwa, then-acting Chief Executive Donald 
Tsang was elected unopposed as Chief Executive. In December 
2006, Civic Party legislator Alan Leong successfully competed 
in the Chief Executive Election Committee (CEEC) selection 
process, and ran against Tsang for Chief Executive in March 
2007. Tsang and Leong conducted an open and vigorous election 
campaign. Two televised debates were widely viewed, and 
attracted broad public and media interest. Tsang won a large 
majority of the CEEC votes and will serve a five-year term 
ending in 2012. Under Hong Kong law, he cannot run for another 
term. Tsang has vowed publicly to ``resolve'' the universal 
suffrage issue during his term in office.\5\
    On July 1 2007, Hong Kong's Constitutional Affairs Bureau 
was renamed the Constitutional and Mainland Affairs Bureau ``to 
reflect more clearly the Bureau's key function of coordinating 
and promoting closer ties and cooperation with the Mainland.'' 
\6\ The Bureau is responsible ``for overseeing the full and 
faithful implementation of the Basic Law,'' and ensuring that 
local elections are held fairly, openly, and honestly in 
accordance with the relevant provisions of the Basic Law.\7\ 
The Bureau in 2007 focused on public discussion of the models, 
roadmap, and timetable for implementing universal suffrage for 
the Chief Executive and the LegCo. During the second half of 
2007, the Bureau also has focused on further development of 
Hong Kong's political appointment system. As of July 1, 2007, 
the Bureau also assumed responsibility for matters relating to 
human rights and access to information.\8\
    The Hong Kong Government issued a Green Paper on 
Constitutional Development (``the Green Paper'') in July 2007 
to consult the public on plans for implementing universal 
suffrage.\9\ The Green Paper outline plans to develop a 
``mainstream'' model of reform by the end of 2007.\10\ The 
document offers a number of scenarios and timetables for 
universal suffrage including 2012 and 2016.\11\ The issuance of 
the Green Paper for public comment reflects an attempt to forge 
a basis for consensus on implementation of universal suffrage 
and the future development of the democratic process in Hong 
Kong.\12\ The period of public consultation ends on October 10, 
2007. After summarizing public comments, the HKSAR Government 
will submit a report to Beijing on the views gathered.
    The Basic Law provides for an independent judiciary. Under 
the Basic Law, the courts may interpret those provisions of the 
Basic Law that address matters within the limits of the SAR's 
autonomy. The courts also interpret provisions of the Basic Law 
that touch on Chinese central government responsibilities, or 
on the relationship between the central authorities and the 
SAR. However, before making final judgments on these matters, 
which are not subject to appeal, the courts must seek an 
interpretation of the relevant provisions from the NPCSC.\13\
    Under the Basic Law, the National People's Congress (NPC) 
has the sole power to amend the Basic Law. Placing an amendment 
of the Basic Law on the NPC's agenda requires the approval of 
the Chief Executive, two-thirds of the LegCo, and two thirds of 
Hong Kong's NPC delegates.
    The Basic Law requires the courts to follow the NPCSC's 
interpretation of Basic Law provisions, although judgments 
previously rendered are not affected. As the final interpreter 
of the Basic Law, the NPCSC also has the power to initiate 
interpretations of the Basic Law, as in April 2004 when it 
ruled out universal suffrage in Hong Kong's 2007 and 2008 
elections.\14\ There is concern that this process, which 
circumvents the Court of Final Appeal's power of final 
adjudication, could be used to limit the independence of the 
judiciary.\15\

                              VI. Endotes

    <dagger> Voted to adopt: Representatives Levin, Kaptur, Udall, 
Honda, Walz, Smith, Manzullo, Royce, and Pitts; Senators Dorgan, 
Baucus, Levin, Feinstein, Brown, Hagel, Smith, and Martinez; Under 
Secretary Dobriansky, Assistant Secretary Hill, and Acting Deputy 
Secretary Radzely.
    Voted not to adopt: Senator Brownback.

    Notes to Section I--Executive Summary and Recommendations 2006-2007
    \1\ Jacques deLisle, ``China's Quest for Resources and Influence,'' 
Orbis reposted to AmericanDiplomacy.org, 15 February 07; Qi Zhou, 
``Human Rights Conflicts: China and the United States,'' Human Rights 
Quarterly, Volume 27, Number 1 (February 2005), 105:124; For an example 
of Chinese thinkers' assertion of a strong notion of sovereignty in the 
United Nations as a rejection of U.S. human rights ``interference'' in 
China, see ``Are Human Rights Higher than Sovereignty?'' People's Daily 
Online, 17 March 06.
    \2\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report 2007, China (includes 
Tibet, Hong Kong, and Macau), 14 September 07.
    \3\ The Commission treats as a political prisoner an individual 
detained or imprisoned for exercising his or her human rights under 
international law, such as peaceful assembly, freedom of religion, 
freedom of association, free expression, including the freedom to 
advocate peaceful social or political change, and to criticize 
government policy or government officials. (This list is illustrative, 
not exhaustive.) In most cases, prisoners in the PPD were detained or 
imprisoned for attempting to exercise rights guaranteed to them by 
China's law and Constitution, or by international law, or both.
    \4\ The Tibet Information Network (TIN) ceased operations in 
September 2005.

    Notes to Section II--Rights of Criminal Suspects and Defendants
    \1\ See 22 U.S.C. '6912(a)(5).
    \2\ See 22 U.S.C. '6912(b).
    \3\ The UN Working Group on Arbitrary Detention (UNWGAD) visited 
China from September 18-30, 2004, and the UN Special Rapporteur on 
Torture visited from November 20 to December 2, 2005. For findings from 
those visits, see UN Working Group on Arbitrary Detention, Report of 
the Working Group on Arbitrary Detention, Mission to China, Addendum, 
29 December 04 [hereinafter UNWGAD Report]; Manfred Nowak, Report of 
the Special Rapporteur on Torture and Other Cruel, Inhuman or Degrading 
Treatment or Punishment, Mission to China, Advance Edited Version, 10 
March 06 [hereinafter Nowak Report].
    \4\ These include the International Covenant on Economic, Social 
and Cultural Rights; the Convention on the Elimination of All Forms of 
Racial Discrimination; the Convention on the Elimination of All Forms 
of Discrimination Against Women; the Convention on the Rights of the 
Child; and the Convention Against Torture and Other Cruel, Inhuman or 
Degrading Treatment or Punishment. PRC Aide Memoire, reprinted in 
United Nations (Online), 13 April 06.
    \5\ Ibid.
    \6\ See Wang Xinyou, ``International Association of Anti-Corruption 
Authorities Formally Established; Jia Chunwang Elected First Chair'' 
[Guoji Fantanju Lianhehui zhengshi chengli; Jia Chunwang dangxuan 
shouren zhuxi], Procuratorial Daily (Online), 26 October 06; World 
Health Organization (Online), ``Dr. Margaret Chan to be WHO's next 
Director-General,'' 9 November 06.
    \7\ See, e.g., Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, arts. 5, 9-11, 14 [hereinafter UDHR]; International Covenant on 
Civil and Political Rights, adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 7, 
9, 14 [hereinafter ICCPR].
    \8\ UN Commissioner for Human Rights, Fact Sheet #26, the Working 
Group on Arbitrary Detention. Examples of the first category include 
individuals who are kept in detention after the completion of their 
prison sentences or despite an amnesty law applicable to them, or in 
violation of domestic law or relevant international instruments. The 
rights and freedoms protected under the second category include those 
in Articles 7, 10, 13, 14, 18, 19, and 21 of the UDHR, and in Articles 
12, 18, 19, 21, 22, 25, 26, and 27 of the ICCPR.
    \9\ ICCPR, arts. 9(1) and 9(2).
    \10\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 2.
    \11\ Nowak Report, para. 60.
    \12\ The 61st session of the UN Commission on Human Rights was held 
in Geneva from March 14 to April 22, 2005.
    \13\ See A Global Review of Human Rights: Examining the State 
Department's 2004 Annual Report, Hearing of the Subcommittee on Africa, 
Global Human Rights, and International Operations, House Committee on 
International Relations, 17 March 05, Oral Statement of Michael Kozak, 
Assistant Secretary of State for Democracy, Human Rights, and Labor, US 
Department of State, 40. Kozak, then-Acting Assistant Secretary of 
State for the Bureau of Democracy, Human Rights and Labor, noted in his 
testimony that the Administration's decision on whether it would 
introduce a resolution condemning China's human rights practices in any 
given year depended on what concrete steps the Chinese government had 
taken to improve human rights that year.
    \14\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau), 6 March 07, sec. 1.e. As of 
September 2007, the Commission's Political Prisoner Database contained 
only 87 records of prisoners still believed to be in detention or 
serving sentences connected to counterrevolutionary activity.
    \15\ See Dui Hua Foundation (Online), ``Long-Serving June 4 
Prisoner Set for Release,'' 29 August 07.
    \16\ See Jim Yardley, ``Man Freed After Years in Jail for Mao 
Insult,'' New York Times (Online), 23 February 06; Dui Hua Dialogue, 
``Sentence Reduction for Yu Dongyue,'' Summer 05, 6.
    \17\ See Dui Hua Dialogue, ``Official Responses Reveal Many 
Sentence Adjustments,'' Fall 06, 6.
    \18\ See UN Commission on Human Rights (Online), Opinions adopted 
by the Working Group on Arbitrary Detention, Decision No. 8/2000, 9 
November 00, 70. In the opinion that it adopted, the UNWGAD declared 
Jigme Gyatso's detention to be arbitrary and in contravention of 
articles 19 and 20 of the UDHR and articles 19 and 22 of the UDHR.
    \19\ State Council Information Office, White Paper on Human Rights 
in China, PRC Central Government (Online), November 91.
    \20\ The Commission's Political Prisoner Database contained 
approximately 4,060 individual case records of political and religious 
imprisonment in China, as of September 2007. See supra, ``Political 
Prisoner Database,'' and accompanying notes. Thousands of political 
prisoners are detained in China's reeducation through labor system. See 
infra, ``Detention Outside the Criminal Process,'' and accompanying 
notes.
    \21\ Crimes that ``disturb public order'' are listed in Part 2, 
Chapter 6, Section 1, of the Criminal Law, and include ``assault[ing] a 
State organ, making it impossible for the State organ to conduct its 
work'' (Article 290), gathering people to block traffic (Article 291), 
and the use of heretical sects to undermine implementation of the law 
(Article 300), among others. Although the 1997 revision of the Criminal 
Law eliminated all counterrevolutionary crimes, it added a new category 
of crimes ``endangering state security.'' Crimes that ``endanger state 
security'' are listed in Part 2, Chapter 1, and include ``inciting 
splittism'' or ``splittism'' (Article 103), ``inciting subversion'' or 
``subversion'' (Article 105), and ``illegally providing state secrets 
to entities outside of China'' (Article 111), among others.
    \22\ See, e.g., CECC, 2003 Annual Report, 2 October 03, 15-16; 
CECC, 2004 Annual Report, 5 October 04, 13-14; CECC, 2005 Annual 
Report, 11 October 05, 25-26; CECC, 2006 Annual Report, 20 September 
06, 47-48.
    \23\ UNWGAD Report, para. 23.
    \24\ Nowak Report, para. 35.
    \25\ Ibid., para. 34.
    \26\ UDHR, art. 10 and 11(1); ICCPR, arts. 14(1) and 14(2).
    \27\ PRC Criminal Procedure Law [hereinafter CPL], enacted 1 
January 79, amended 17 March 96, art. 64 (establishing an exception to 
this requirement ``in circumstances where such notification would 
hinder the investigation or there is no way of notifying them''). The 
maximum period of detention prior to approval of a formal arrest is 37 
days after taking into account extensions permitted by law. Ibid., art. 
69.
    \28\ See CECC, 2003 Annual Report, 18; CECC, 2004 Annual Report, 
16; CECC, 2005 Annual Report, 25; CECC, 2006 Annual Report, 47.
    \29\ Human Rights in China (Online), ``News Wrap-up: Crackdowns on 
Petitioners Continue,'' 9 March 07; ``Cat-and-mouse game begins for 
petitioners,'' South China Morning Post (Online), 2 March 07.
    \30\ ``Ministry of Public Security Announces the Status of 
Preventing Major Public Security Disasters and Accidents, Ensuring 
Public Security Supervision'' [Gonganbu tongbao yufang zhongda zhi'an 
zaihai shigu, baozhang gonggong anquan ducha qingkuang], China News Net 
(Online), 2 March 06.
    \31\ Human Rights Watch (Online), ``Largest `Clean-up' of 
Protestors and Rights Activists in Years,'' 14 March 07.
    \32\ See Human Rights Watch (Online), ``China: Beijing Petitioners' 
Village Faces Demolition,'' 6 September 07; Mark Magnier, ``Beijing 
evicting disgruntled citizens from `petitioners village,''' Los Angeles 
Times (Online), 18 September 07.
    \33\ Human Rights Watch, ``China: Beijing Petitioners' Village 
Faces Demolition.''
    \34\ The U.S. State Department characterized house arrest as a 
``nonjudicial punishment and control measure'' that can sometimes 
include ``complete isolation in one's own home or another location 
under lock and guard.'' U.S. Department of State, Country Reports on 
Human Rights Practices--2006, China, sec. 1.d.
    \35\ Human Rights Watch, ``Largest `Clean-up' of Protestors and 
Rights Activists in Years.''
    \36\ ``Population Planning Official Confirms Abuses in Linyi City, 
Shandong Province,'' CECC China Human Rights and Rule of Law Update, 
October 2005, 2; Philip P. Pan, ``Rural Activist Seized in Beijing,'' 
Washington Post (Online), 7 September 05. For a summary and the 
ultimate outcome of Chen's case, see CECC, 2006 Annual Report, 49.
    \37\ Chinese Human Rights Defenders (Online), ``Activist Chen 
Guangcheng's House Arrest Exceeds Legal Limits, with Domestic Remedies 
Ineffective, CRD Submits Case to UN,'' 9 March 06.
    \38\ Hu Jia, ``After Serious Negotiations with Yuan Weijing, Police 
Are Forced to Formally Release Her From House Arrest'' [Zai Yuan 
Weijing yanzheng jiaoshe xia jingfang beipo zhengshi jiechu dui ta de 
``jianshijuzhu''], reprinted in Chinese Human Rights Defenders 
(Online), 29 May 07.
    \39\ Hu Jia, ``Yuan Weijing Barred From Meeting U.S. Embassy Human 
Rights Officer'' [Yuan Weijing huijian Meiguo shiguan renquan guanyuan 
shouzu], reprinted in Chinese Human Rights Defenders (Online), 6 July 
07; Maureen Fan, ``Wife of Chinese Activist Detained at Beijing 
Airport,'' Washington Post (Online), 25 August 07.
    \40\ Wu Yihuo and Hong Jun, ``Too Few Administrative Law 
Enforcement Cases Transferred to Judicial Organs--Relevant Anhui 
Research Reveals Information: Three Major Factors Influence Effective 
Links Between Administrative Law Enforcement and Criminal Law 
Enforcement'' [Xingzheng zhifa anjian yisong sifa jiguan taishao, Anhui 
youguan yanjiuban touchu xinxi: san da yinsu yingxiang xingzheng zhifa 
yu xingshi zhifa youxiao xianjie], Procuratorial Daily (Online), 31 
January 05; Protection of Human Rights in the Context of Punishment of 
Minor Crimes in China, Staff Roundtable of the Congressional-Executive 
Commission on China, 26 July 02, Testimony of Dr. Veron Mei-ying Hung, 
Associate, China Program, Carnegie Endowment for International Peace.
    \41\ Various analysts estimate that between 2 percent and 10 
percent of those sentenced to reeducation through labor are political 
detainees. Veron Mei-Ying Hung, ``Reassessing Reeducation Through 
Labor,'' 2 China Rights Forum 35 (2003); Randall Peerenboom, ``Out of 
the Frying Pan and Into the Fire,'' 98 Northwestern University Law 
Review 991, 1000-01 and accompanying notes (2004); Jim Yardley, ``Issue 
in China: Many in Jails Without Trial,'' New York Times (Online), 9 May 
05.
    \42\ PRC Administrative Punishment Law, enacted 17 March 96, art. 
8(6).
    \43\ For more information about the passage and effect of the 
Public Security Administration Punishment Law, see CECC, 2006 Annual 
Report, 51-52.
    \44\ PRC Public Security Administration Punishment Law, enacted 28 
August 05, art. 27(2).
    \45\ According to attorney Li Baiguang, at least 60 people were 
attending a worship service at a house church in Bukou district, 
Wendeng city, on June 11, 2006, when 50 public security officials from 
several different precincts and departments arrived. These authorities 
blocked the exits and ordered worshippers into police vehicles. Thirty-
one of the worshipers were driven to the Bukou police station for 
interrogation, and all but Tian Yinghua, Wang Qiu, and Jiang Rong were 
released following interrogation. Li noted that officials from the 
Wendeng Religious Affairs Office had been to the house church in April 
2006, and had told worshipers there that any religious gathering that 
exceeded 30 people or included non-family members was an ``illegal 
gathering.'' See Li Baiguang, ``Shandong Wendeng: Threatening to 
Confiscate House Where Christians Gathered'' [Shandong Wendeng: weixie 
yao moshou Jiditu jihui de fangzi], reprinted in China Aid Association 
(Online), 27 July 06; China Aid Association (Online), ``House Church 
Christians Take Legal Action, File Lawsuit Against Local Public 
Security Bureau for Illegal [Administrative] Detention'' [Shandong 
Wendeng jiating jiaohui Jidutu caiqu falu xingdong, qisu dangdi gongan 
jiguan feifa jujin], 25 October 06.
    \46\ According to an application for administrative reconsideration 
filed with the Wendeng city government by Li on June 30, 2006, the 
Wendeng Public Security Bureau's decision to place Tian, Wang, and 
Jiang in administrative detention illegally interfered with their 
constitutionally and legally protected right to freedom of religious 
belief. On September 28, the government rejected this application. On 
October 12, Li proceeded to file with the Wendeng Intermediate People's 
Court an administrative complaint that set forth arguments similar to 
the ones in his earlier application. See Application for Administrative 
Reconsideration Filed by Li Baiguang with the People's Government of 
Wendeng City, Shandong Province, on Behalf of Tian Yinghua, Wang Qiu, 
and Jiang Rong [Xingzheng fuyi shenqingshu], 30 June 06, reprinted in 
China Aid Association (Online), 27 July 06; Administrative Complaint 
Filed by Li Baiguang with the People's Court of Wendeng City, Shandong 
Province, on Behalf of Tian Yinghua [Xingzheng qisu zhuang], 12 October 
06, reprinted in Boxun, 26 October 06.
    \47\ China Aid Association (Online), ``Xinjiang Arrests Another 
Female Christian Preacher; Shandong Christians File Administrative 
Lawsuit Against Public Security Agency'' [Xinjiang you daibu yi ming nu 
jidu tu chuandao ren; Shandong jidu tu dui gongan jiguan tiqi xingzheng 
susong], 15 November 06.
    \48\ Trial Measures on Reeducation Through Labor [Laodong jiaoyang 
shixing banfa], issued 21 January 82, arts. 13, 58(10); Provisions on 
Public Security Agencies' Handling of Reeducation Through Labor Cases 
[Gongan jiguan banli laodong jiaoyang anjian guiding], issued 12 April 
02, art. 44.
    \49\ See Trial Measures on Reeducation Through Labor, art. 10; 
Provisions on Public Security Agencies' Handling of Reeducation Through 
Labor Cases, art. 9; These crimes are not serious enough to warrant 
punishment under the Criminal Law, but are too serious to fall under 
the PSAPL. See Protection of Human Rights in the Context of Punishment 
of Minor Crimes in China, Testimony of Dr. Veron Mei-ying Hung.
    \50\ A recent China Daily article notes that the original purpose 
of the reeducation through labor system was to ``punish dissent.'' Wu 
Jiao, ``New law to abolish laojiao system,'' China Daily (Online), 1 
March 07.
    \51\ Gao Yifei, ``Why NPC Delegates Propose Reforming the 
Reeducation Through Labor System'' [Renmin daibiao weihe tiyi gaige 
laojiao zhidu], Boxun (Online), 29 April 06.
    \52\ Nowak Report, para. 33; Bureau of Democracy, Human Rights, and 
Labor, U.S. Department of State, Country Reports on Human Rights 
Practices--2005, China (includes Tibet, Hong Kong, and Macau), sec. 
1.d.
    \53\ See PRC Criminal Law, ch. 3, sec. 1-3.
    \54\ Wu, ``New law to abolish laojiao system.''
    \55\ UNWGAD Report, paras. 56, 73. Individuals can appeal under the 
ALL for a reduction in, or suspension of, a RTL sentence, but these 
appeals are rarely successful. U.S. Department of State, Country 
Reports on Human Rights Practices--2005, China, sec. 1.d; Hung, 
``Reassessing Reeducation Through Labor,'' 37-38.
    \56\ See Protection of Human Rights in the Context of Punishment of 
Minor Crimes in China, Testimony of Dr. Veron Mei-ying Hung 
(``Unfortunately, the courts' role in reviewing the legality of 
administrative sanctions such as [RTL] has been limited by aggrieved 
parties' fear of suing administrative organs and limited access to 
lawyers as well as administrative organs' interference with the 
process.'')
    \57\ See After the Detention and Death of Sun Zhigang, Staff 
Roundtable of the Congressional-Executive Commission on China, 27 
October 03, Testimony of Dr. James D. Seymour, Senior Research Scholar, 
Weatherhead East Asian Institute, Columbia University; Protection of 
Human Rights in the Context of Punishment of Minor Crimes in China, 
Testimony of Dr. Veron Mei-ying Hung; Peerenboom, ``Out of the Frying 
Pan and into the Fire,'' 999.
    \58\ See U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China, sec. 1.d. This number exceeds Professor James 
Seymour's estimate of 400,000 individuals held in RTL centers 20 years 
ago. After the Detention and Death of Sun Zhigang, Testimony of Dr. 
James D. Seymour.
    \59\ Freedom House (Online), 2005 China Country Report. In its 
December 2004 report, the UNWGAD found:
    ``The operation of the laws governing decisionmaking on placement 
in a [reeducation] through [labor] camp is, however, highly 
problematic. From reliable sources, including interviews with persons 
affected, it is clear that in the overwhelming majority of cases, a 
decision on placement in a [reeducation] center is not taken within a 
formal procedure provided by law. The commission vested with power to 
take this decision in practice never or seldom meets, the person 
affected does not appear before it and is not heard, no public and 
adversarial procedure is conducted, no formal and reasoned decision on 
placement is taken (or issued for the person affected). Thus, the 
decisionmaking process completely lacks transparency. In addition, 
recourse against decisions are [sic] often considered after the term in 
a center has been served.'' UNWGAD Report, para. 58.
    \60\ Under Chinese law, punishments that involve a restriction on 
personal liberty may only be established by national law. PRC 
Legislation Law, enacted 15 March 00, art. 8(v); PRC Administrative 
Punishment Law, arts. 9, 10.
    \61\ CPL, art. 12.
    \62\ PRC Constitution, art. 37.
    \63\ Nowak Report, para. 63; State Council Decision on the Question 
of Reeducation Through Labor [Guowuyuan guanyu laodong jiaoyang wenti 
de jueding], issued 3 Aug 57, para. 2; ``Last year's rate of resettling 
those released from prison or reeducation through labor near 90 
percent'' [Xingshi jiejiao renyuan qunian anzhilujin jiucheng], China 
Legal Publicity (Online), 3 March 06; Yardley, ``Issue in China: Many 
in Jails Without Trial.''
    \64\ Nowak Report, para. 62.
    \65\ Ibid., para. 64. Article 10(3) of the ICCPR provides that, 
``The penitentiary system shall comprise treatment of prisoners the 
essential aim of which shall be their reformation and social 
rehabilitation.'' In response to characterization of forced reeducation 
as a form of inhuman or degrading treatment, Chinese authorities have 
maintained that RTL helps transition detainees back into society.
    \66\ UNWGAD Report, paras. 16, 45; ICCPR, arts. 9, 14.
    \67\ In 2003, 127 NPC delegates raised the issue of reforming RTL. 
At the 2004 NPC plenary session, this number increased to 420, or 
approximately one-tenth of the entire NPC body. NPC delegates at the 
2005 plenary session submitted six motions to expedite RTL reform, and 
in January 2006, the NPCSC added the draft law for reforming RTL to its 
legislative plan for 2006. Gao, ``Why NPC Delegates Propose Reforming 
the Reeducation Through Labor System.''
    \68\ Liao Weihua, ``Reeducation Through Labor System Faces Change; 
Law on Correction of Unlawful Acts To Be Formulated'' [Laojiaozhi 
mianlin biangai jiang zhiding weifa xingwei jiaozhifa], Beijing News, 
reprinted in Xinhua (Online), 2 March 05.
    \69\ ``Reeducation Through Labor `Changes Names''' [Laojiao 
``gengming''], China Business View (Online), 4 March 05.
    \70\ Wu, ``New law to abolish laojiao system'' (summarizing 
comments by Wang Gongyi, Deputy Director of the Institute of Justice 
Research, a research center affiliated with the Ministry of Justice).
    \71\ See Qin Liwen, ``Chongqing Implements `Interim Provisions on 
Legal Representation in Reeducation Through Labor Cases''' [Chongqing 
shishi ``Lushi daili laodong jiaoyang anjian zanxing guiding''], Legal 
Daily, reprinted in Procuratorial Daily (Online), 3 April 07; Irene 
Wang, ``Lawyers win role for people facing labour-camp cases,'' South 
China Morning Post (Online), 4 April 07.
    \72\ See Chongqing Municipal Public Security Bureau, Chongqing 
Municipal Justice Bureau Circular on Issuing Interim Provisions on 
Legal Representation in Reeducation Through Labor Cases [Chongqing shi 
gonganju, Chongqing shi sifaju guanyu yinfa lushi daili laodong 
jiaoyang anjian zanxing guiding de tongzhi], issued 16 March 07, arts. 
2, 9-10.
    \73\ See CPL, arts. 32-41.
    \74\ See Wu, ``New law to abolish laojiao system'' (quoting Wang 
Gongyi as saying that ``[the Chongqing regulation] allows people to 
defend themselves, a right enshrined in the constitution'' and 
therefore ``works as a good example for national legislation''). The 
article notes that the Chongqing Justice Bureau obtained approval for 
its initiative from the Ministry of Justice and the Ministry of Public 
Security. In May, Shandong province adopted measures providing for 
similar procedural protections in RTL cases. See Trial Measures on 
Legal Representation in Reeducation Through Labor Cases [Lushi daili 
laodong jiaoyang anjian shixing banfa], issued 25 May 07.
    \75\ See Wu, ``New law to abolish laojiao system;'' Hai Tao, 
``Chongqing Permits Legal Representation in Reeducation Through Labor 
Cases'' [Zhongguo Chongqing yunxu lushi daili laodong jiaoyang an], 
Voice of America (Online), 4 April 07.
    \76\ See, e.g., CPL, arts. 92 (on interrogation by summons), 64 (on 
notification of the reasons for detention), 69 (on approval of arrest), 
124-128 (on release pending trial), and 168 (on pronouncement of a 
court judgment).
    \77\ See Supreme People's Court Notice on Issues Related to 
Clearing Cases of Extended Detention [Zuigao renmin fayuan guanyu 
qingli chaoqi jiya anjian youguan wenti de tongzhi], issued 29 July 03.
    \78\ See Several Provisions from the Supreme People's Procuratorate 
Regarding the Prevention and Correction of Extended Detention in 
Procuratorial Work [Zuigao renmin jianchayuan guanyu zai jiancha 
gongzuo zhong fangzhi he jiuzheng chaoqi jiya de ruogan guiding], 
issued 24 September 03, para. 1.
    \79\ Supreme People's Court, Supreme People's Procuratorate, and 
Ministry of Public Security Notice on the Strict Enforcement of the 
Criminal Procedure Law, and on the Conscientious Correction and 
Prevention of Extended Detention [Zuigao renmin fayuan, zuigao renmin 
jianchayuan, gonganbu guanyu yange zhixing xingshi susongfa, qieshi 
jiufang chaoqi jiya de tongzhi], issued 11 November 03.
    \80\ ICCPR, arts. 9(3) and 9(4).
    \81\ UNWGAD Report, para. 32.
    \82\ See State Council Information Office, White Paper on Fifty 
Years of Progress in China's Human Rights, PRC Central Government 
(Online), June 00.
    \83\ See State Council Information Office, White Paper on China's 
Progress in Human Rights: 2003, PRC Central Government (Online), March 
04.
    \84\ See State Council Information Office, White Paper on China's 
Progress in Human Rights in 2004, PRC Central Government (Online), 
April 05.
    \85\ Nowak Report, note 34.
    \86\ See Supreme People's Procuratorate Work Report [Zuigao renmin 
jianchayuan gongzuo baogao] [hereinafter SPP Work Report], 13 March 07.
    \87\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year''[Jiuzheng chaoqi jiya gonggu gongzuo 
qunian xin fasheng chaoqi jiya xiajiang 96.2%], Procuratorial Daily 
(Online), 21 May 06; ``Supreme People's Procuratorate Recognizes 
Continuing Problem of Extended Detention,'' CECC China Human Rights and 
Rule of Law Update, July 2006, 11-12.
    \88\ Wu Jing, ``Supreme People's Court President Xiao Yang: Delayed 
Justice Is In Fact Injustice'' [Zuigao renmin fayuan yuanzhang Xiao 
Yang: chidao de gongzheng jiushi bu gongzheng] Defense Lawyer Net, 3 
August 06.
    \89\ See National People's Congress Standing Committee Work Report 
[Quanguo Renmin Daibiao Dahui changwu weiyuanhui gongzuo baogao], 20 
March 07.
    \90\ See Han Jinghong, ``Supreme People's Procuratorate: In 2006, 
Phenomenon of Extended Detention Fell To Historical Low'' [Zuigaojian 
06 nian chaoqi jiya xianxiang yi jiangdao lishi zuididian], China News 
Net, reprinted in China Court Net, 14 March 07.
    \91\ ``Consolidated Work of Correcting Extended Detention Has Been 
Effective; 96.2 Percent Drop in New Cases of Extended Detention 
Throughout the Nation Last Year,'' Procuratorial Daily; ``Supreme 
People's Procuratorate Recognizes Continuing Problem of Extended 
Detention,'' CECC China Human Rights and Rule of Law Update, July 2006, 
11-12. In 2003, the SPP passed regulations that prohibit the abuse of 
legal procedures to disguise the extended detention of a criminal 
suspect. Several Provisions from the Supreme People's Procuratorate 
Regarding the Prevention and Correction of Extended Detention in 
Procuratorial Work, para. 1.
    \92\ In 2003, people's supervisors were given administrative 
authority to challenge only procuratorate actions in violation of 
Chinese law. See Supreme People's Procuratorate Trial Provisions on 
Implementation of the System of People's Supervisors [Guanyu shixing 
renmin jianduyuan zhidu de guiding (shixing)], issued 2 September 03, 
amended 5 July 04. There are some limitations on who may qualify to 
serve as a ``people's supervisor,'' including a minimum age of 23 years 
and formal recommendation and appointment upon evaluation. Ibid., arts. 
5(3) and 8. As of late 2006, 86% of the nation's procuratorates had 
instituted this system. See Nationwide Cases of Extended Detention Fall 
to Historical Low [Quanguo chaoqi jiya an jiangdao lishi zuidi], 
Beijing Youth Daily, reprinted in Xinhua (Online), 25 April 07.
    \93\ Nowak Report, para. 45; UN High Commissioner for Human Rights 
(Online), ``Human Rights Council Discusses Reports on Torture, 
Arbitrary Detention and Independence of Judges and Lawyers,'' 19 
September 06.
    \94\ Nowak Report, para. 42.
    \95\ Ibid., para. 43. These include police stations, pretrial 
detention centers, RTL centers, and ``ankang'' hospitals for the 
psychiatric commitment of criminal offenders.
    \96\ Ibid., para. 44.
    \97\ Ibid., para. 45.
    \98\ See also ibid., paras. 53-57.
    \99\ For more information about his case, see 2005 Annual Report, 
24; CECC, 2006 Annual Report, 57.
    \100\ For more information about their case, see ``Detention, 
Torture of Anhui Teens Reflect Continuing Criminal Procedure 
Violations,'' CECC China Human Rights and Rule of Law Update, October 
2006, 2.
    \101\ For additional discussion of these topics, see ``Law on the 
Books: Judicial Institutions and Challenges,'' infra.
    \102\ See Ministry of Foreign Affairs (Online), ``Third Report on 
the Implementation of the Convention against Torture and Others,'' 15 
November 00. The Chinese government ratified the CAT in 1988. Article 
19 of the CAT requires that state parties report to the Committee 
against Torture within one year of ratification and once every four 
years thereafter. The due date for the Chinese government's latest 
report was November 2, 2005.
    \103\ ``Foreign Ministry Spokesman Qin Gang's Press Conference on 6 
December 2005,'' Ministry of Foreign Affairs (Online), 7 December 05.
    \104\ PRC Criminal Law, arts. 247, 248. A ``judicial officer'' is 
defined as one who ``exercises the functions of investigation, 
prosecution, adjudication, and supervision and control.'' Ibid., art. 
94. The Special Rapporteur on Torture notes that the Supreme People's 
Procuratorate, which directly handles all investigations of torture, 
restricts application of both Articles 247 and 248 so that law 
enforcement officials are prohibited from acting, or punishable for 
abuses, in just a small number of enumerated cases. Nowak Report, para. 
16. New regulations effective July 2006 expand the number of punishable 
scenarios from five to eight (in cases of coercing a confession under 
torture) and from five to seven (in cases of acquiring evidence through 
the use of force and prisoner maltreatment). Supreme People's 
Procuratorate Provisions on the Criteria for Filing Dereliction of Duty 
and Rights Infringement Criminal Cases, sec. II, paras. 3-5.
    \105\ See Provisions on the Procedures for Public Security Agency 
Handling of Administrative Cases, [Gongan jiguan banli xingzheng anjian 
chengxu guiding], issued 26 August 03, art. 26 (stating that illegally 
acquired evidence may not form the basis of a determination in any 
administrative case). New provisions went into effect on August 24, 
2006, and supercede the 2003 provisions. See Ministry of Public 
Security, Provisions on the Procedures for Public Security Agency 
Handling of Administrative Cases [Gongan jiguan banli xingzheng anjian 
chengxu guiding], issued 29 March 06. The Ministry of Public Security 
has explained that the 2006 revision establishes stricter procedural 
rules consistent with the new Public Security Administration Punishment 
Law. See ``MPS Revises Internal Procedures To Conform With Public 
Security Administration Law,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 10-11.
    \106\ Communist Party of the People's Republic of China, 
Regulations on Disciplinary Actions [Zhongguo Gongchandang jilu chufen 
tiaoli], issued 18 February 04.
    \107\ Provisions on Public Security Use of Continuing Interrogation 
[Gongan jiguan shiyong jixu panwen guiding], issued 12 July 04, arts. 
1, 18-19.
    \108\ Trial Regulations on Disciplinary Sanctions Against 
Procuratorate Personnel [Jiancha renyuan jilu chufen tiaoli (shixing)], 
issued 1 June 04, art. 47.
    \109\ ``Ministry of Justice Issues Prohibitions to Restrain Prison 
and RETL Police Abuses,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 4.
    \110\ See Supreme People's Procuratorate Provisions on the Criteria 
for Filing Cases of Dereliction of Duty Infringing Upon Rights [Zuigao 
renmin jianchayuan guanyu duzhi qinquan fanzui anjian li'an biaozhun de 
guiding], issued 29 December 05, sec. 2. For additional information 
about these regulations, see CECC, 2006 Annual Report, 46.
    \111\ Human Rights in China, ``Impunity for Torturers Continues 
Despite Changes in the Law,'' April 00, 3. See also Professor Peter T. 
Burns, ``China and the Convention against Torture,'' The Canada China 
Procuratorate Reform Cooperation Programme Lecture Series I, Xi'an and 
Lanzhou, China (August 2005) (stating that ``[t]he whole premise of the 
Torture Convention is that torturers are not to enjoy impunity'' and 
that ``they must be investigated, arrested and tried for their 
crimes''). The prohibition against torture is also included in Article 
5 of the UDHR.
    \112\ See ``Miscarriage of Justice in Chaohu, Anhui: Three 
Policemen Investigated for Suspected Involvement in Coercing 
Confessions Under Torture'' [Anhui Chaohu yuan'an: san xingjing shexian 
xingxun bigong bei li'an zhencha], Xinhua (Online), 12 September 06; 
``Anhui: Four Students Falsely Accused of Murder, Detained For 3 Months 
During Which They Suffered Extensive Torture in Succession [Anhui: si 
xuesheng beiwu sharen jiya 3 ge yue; qijian zaoshou ``chelunzhan'' 
shoujin zhemo], Southern Metropolitan Daily, reprinted in Southern 
Daily (Online), 12 September 06.
    \113\ ``Symposium on Illegal Evidence Gathering and Wrongful 
Conviction'' Convenes; Procuratorates To Further Standardize Evidence 
Gathering Work'' [``Feifa quzheng yu xingshi cuo'an'' yantaohui 
zhaokai; jiancha jiguan jinyibu guifan quzheng gongzuo], Legal Daily 
(Online), 18 November 06.
    \114\ ``Supreme People's Procuratorate Says It Will Strengthen 
Implementation of the Existing System To Bring Under Control the Use of 
Illegal Evidence Gathering'' [Zuigaojian biaoshi jiang qianghua zhixing 
xian you zhidu zhili feifa quzheng], Xinhua (Online), 19 November 06.
    \115\ See SPP Work Report, 11 March 02; SPP Work Report, 10 March 
04; SPP Work Report, 9 March 05.
    \116\ See SPP Work Report, 13 March 07.
    \117\ Office of the UN High Commissioner for Human Rights (Online), 
Declaration and Reservations to the Convention against Torture and 
Other Cruel, Inhuman or Degrading Treatment or Punishment, 23 April 04. 
By contrast, the United States has declared that it recognizes the 
competence of the Committee against Torture.
    \118\ UN High Commissioner for Human Rights, ``Human Rights Council 
Discusses Reports on Torture, Arbitrary Detention and Independece of 
Judges and Lawyers.''
    \119\ Nowak Report, para. 17.
    \120\ Burns, ``China and the Convention against Torture,'' 8.
    \121\ Human Rights in China, ``Impunity for Torturers,'' 16.
    \122\ See Amnesty International (Online), ``China: Torture/Medical 
concern/Prisoner of conscience, Chen Guangcheng (m),'' 21 June 07.
    \123\ See Li Qing and Huang Hui, ``Jingdezhen No. 2 Detention 
Center Superintendent Prosecuted'' [Jingde zhen di er kanshousuo 
zhidaoyuan bei qisu], China Legal Publicity (Online), 4 June 05.
    \124\ See ``No Tolerance For Further Aggression By Prison Bosses'' 
[Bu rong laotou yuba zai xiaozhang], Chinese People's Political 
Consultative Conference (Online), 13 September 04.
    \125\ See Ya Wei, ``Critique: Malpractice and Reform in China's 
Police System'' [Pingxi: Zhongguo jingcha zhidu de bibing he gaige], 
Voice of America (Online), 1 September 06.
    \126\ See ``Nation Altogether Has 52,000 Police Stations, 490,000 
People's Police'' [Quanguo you paichusuo 5.2 wan minjing 49 wan], Legal 
Daily (Online), 8 February 06; ``Report Concerning Public Security 
Reform (Part 6): Of 770,000 Communities Nationwide, 80 Percent Have 
Constructed Police Affairs Offices'' [Quanguo 7.7 wan ge shiqu bacheng 
jian you jingwushi--guangzhu gongan gaige baodao zhi liu], Legal Daily 
(Online), 10 April 06; ``Report Concerning Public Security Reform (Part 
5): 150,000 Criminal Police Pursue 652 Fugitives Each Day Online [15 
wan xingjing meitian wang shang zhuitao 652 ren--guangzhu gongan gaige 
baodao zhi wu], Legal Daily (Online), 6 April 06.
    \127\ ``Clear Drop in Number of Rural Mass Incidents in 2006, 
Compared With 2005'' [2006 nian he 2005 nian xiangbi nongcun quntixing 
shijian shuliang mingxian xiajiang], PRC Central Government (Online), 
30 January 07.
    \128\ CECC, 2005 Annual Report, 10.
    \129\ Ministry of Public Security (Online), ``Liu Jinguo Calls for 
Strengthening Public Security's Grassroots, Fundamentals Work, and 
Wholeheartedly Safeguarding Social Stability'' [Liu Jinguo zhichu 
jiaqiang gongan jiceng jichu gongzuo, quanli weihu shehui wending], 18 
April 07; Zhao Huanxin, ``Farmers' protests drop 20% last year,'' China 
Daily (Online), 31 January 07.
    \130\ Ministry of Public Security (Online), ``Ministry of Public 
Security Announces First Quarter 2006 Nationwide Public Security 
Situation (Direct Feed Transcript)'' [Gonganbu tongbao 2006 nian di yi 
jidu quanguo shehui zhi'an xingshi (tuwen zhibo)], 11 April 06.
    \131\For more information, see CECC, 2006 Annual Report, 45; 
``Power Plant Construction Continues After Government Suppresses 
Villager Protests in Shanwei,'' CECC China Human Rights and Rule of Law 
Update, January 2006, 4-5.
    \132\ Ministry of Public Security, ``Liu Jinguo Calls for 
Strengthening Public Security's Grassroots, Fundamentals Work, and 
Wholeheartedly Safeguarding Social Stability.''
    \133\ Ya, ``Critique: Malpractice and Reform in China's Police 
System.''
    \134\ Ibid.
    \135\ Communist Party Central Committee Resolution on Further 
Strengthening and Improving Public Security Work [Zhong Gong Zhongyang 
guanyu jinyibu jiaqiang he gaijin gongan gongzuo de jueding], issued 
November 03.
    \136\ Communique of the Sixth Plenum of the Sixteenth Communist 
Party Central Committee [Zhongguo Gongchandang di shiliu jie Zhongyang 
Weiyuanhui di liu ci quanti huiyi gongbao], issued 11 October 06, 
reprinted in Xinhua (Online).
    \137\ Communist Party Central Committee Resolution on Major Issues 
Regarding the Building of a Harmonious Socialist Society [Zhong Gong 
Zhongyang guanyu goujian shehuizhuyi hexie shehui ruogan zhongda wenti 
de jueding], issued 11 October 06, reprinted in Xinhua (Online).
    \138\ Decoding the Resolution of the Sixth Plenum of the Sixteenth 
Communist Party Central Committee: 10 Major Keywords [Jiedu shiliu jie 
liu Zhong quanhui ``jueding'' shi da guanjianci], Xinhua, reprinted in 
People's Daily (Online), 28 October 06.
    \139\ Ministry of Public Security (Online), ``Ministry of Public 
Security Convenes Press Conference To Announce Public Security 
Situation and Status of Implementation of Community and Village Police 
Affairs Strategy'' [Gonganbu zhaokai xinwen fabuhui tongbao shehui 
zhi'an xingshi ji shishi shequ he nongcun jingwu zhanlue qingkuang], 14 
November 06.
    \140\ Wang Doudou, ``Civilians are Most Important Backers of Public 
Security: Decoding Community and Village Police Affairs Strategy'' 
[Baixing shi gongan zuida kaoshan: jiedu shequ he nongcun jingwu 
zhanlue], Legal Daily (Online), 14 November 06.
    \141\ See supra, ``Detention Outside the Criminal Process,'' and 
accompanying notes.
    \142\ ``Beijing Police Will Establish a Public Security Violation 
Blacklist; Those Who Have Been Punished Will Leave Behind a Record'' 
[Beijing jingfang jiang jian zhi'an weifa heimingdan; shou chufa zhe 
jiang liu andi], Legal Evening News, reprinted in Procuratorial Daily 
(Online), 13 April 06.
    \143\ Li Jian, ``Why Some Police Resemble Crime Bosses'' [Weishenme 
youde jingcha xiang ``heilaoda''], China Youth Daily (Online), 13 July 
06.
    \144\ ``Zhang Yuqing: Increase Police Types To Take Over City 
Management and Carry Out Administration of Urban Order'' [Zhang Yuqing: 
zengjia jing zhong jieti chengguan jinxing chengshi zhixu guanli], 
Yancheng Evening Post (Online), 12 March 07.
    \145\ David Bandurski, ``Are police over-reaching in their 
application of China's new law on management of public security?'' 
China Media Project (Online), 27 July 07.
    \146\ CECC, 2006 Annual Report, 46.
    \147\ See, e.g., ``Ministry of Public Security Decides To Implement 
Resident [Police] Inspection Commissioner System; Residence Period 3 
Years'' [Gonganbu jueding shixing paizhu ducha zhuanyuan zhidu; paizhu 
shijian 3 nian], Public Security Daily, reprinted in Xinhua (Online), 
11 May 06; Ministry of Public Security Implements Resident [Police] 
Inspection Commissioner System [Gonganbu shixing paizhu ducha zhuanyuan 
zhidu], Legal Daily (Online), 11 Mary 06.
    \148\ See Dan Shibing, ``Punish Thuggish Airs of Police [Zhizhi 
jingcha piqi],'' Baixing Magazine (Online), 2006.
    \149\ See Wu Junyi, ``My View on the New Restrictive Relationship 
Between Police and Procuratorate'' [Xinxing de jing, jian zhiyue guanxi 
zhi wojian], Procuratorial Daily (Online), 5 February 06.
    \150\ Article 14(3)(d) of the ICCPR states that any individual 
charged with a crime is entitled:
    ``[t]o defend himself in person or through legal assistance of his 
own choosing; to be informed, if he does not have legal assistance, of 
this right; and to have legal assistance assigned to him, in any case 
where the interests of justice so require, and without payment by him 
in any such case if he does not have sufficient means to pay for it.''
    \151\ See, e.g., ``Lawyers Nationwide Total Over 150,000'' [Quanguo 
lushi yi da 15 wan yu ren], Legal Daily (Online), 11 July 06 (noting 
that this number includes over 7,000 part-time lawyers and 31,957 
paralegals).
    \152\ ``Central Government Expands Provision of Legal Aid in 
Criminal Cases,'' CECC China Human Rights and Rule of Law Update, 
December 2005, 5-6; Provisions on Legal Aid Work in Criminal Litigation 
[Guanyu xingshi susong falu yuanzhu gongzuo de guiding], issued 28 
September 05, art. 4.
    \153\ PRC Lawyers Law, enacted 15 May 96, art. 42.
    \154\ See Jian Fa, ``Independence Called for Lawyers,'' Beijing 
Review (Online), 2 April 04 (citing to a report from the Fifth National 
Lawyers Convention).
    \155\ See CECC, 2006 Annual Report, 55.
    \156\ Pro bono legal defense is guaranteed only to certain, limited 
categories of defendants, including minors, those who face a possible 
death sentence, and those who are blind, deaf, or mute. CPL, arts. 33, 
34; Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 16 July 03, 
art. 12.
    \157\ In cases involving ``state secrets,'' a criminal suspect must 
first obtain the approval of the investigating agency before he can 
appoint a lawyer; the lawyer must obtain similar approval before he can 
meet with his client. See CPL, art. 96.
    \158\ See CECC, 2003 Annual Report, 19-20.
    \159\ See CECC, 2006 Annual Report, 55.
    \160\ See ibid., 56.
    \161\ CPL, art. 45.
    \162\ UNWGAD Report.
    \163\ See ``First Issuance of a `Lawyers Proposed Draft and 
Arguments for Another Revision of the Criminal Procedure Law''' 
[``Xingshi Susongfa zai xiugai lushi jianyi gao yu lunzheng'' shoufa], 
Defense Lawyer Net, 20 April 07.
    \164\ See CECC, 2006 Annual Report, 56.
    \165\ Human Rights Watch, ``A Great Danger for Lawyers: New 
Regulatory Curbs on Lawyers Representing Protestors,'' December 06, 7.
    \166\ Ibid.
    \167\ ``Legal Community Denounces All China Lawyers Association For 
Harming the Legal Rights of the Masses'' [Fajie chi luxie qianghai 
dazhong falu quanli], Ming Pao Daily (Online), 15 June 06.
    \168\ UNWGAD Report, para. 38. See also ``Defense Lawyers Turned 
Defendants: Zhang Jianzhong and the Criminal Prosecution of Defense 
Lawyers in China,'' Congressional-Executive Commission on China, 27 May 
03.
    \169\ ``NPC Delegate Zhang Yan Proposes Elimination of Criminal Law 
Article 306'' [Zhang Yan daibiao jianyi feichu xingfa di san bai ling 
liu tiao], Legal Daily (Online), 9 March 06.
    \170\ Xiao Yang, ``Scrapping Article 306 Would Make Law Fairer,'' 
China Daily, 12 April 04; ``Several Problems in the Reform of Judicial 
Administration'' [Sifa xingzheng gaige de ruogan falu wenti], Legal 
Daily, 12 August 04.
    \171\ See supra, ``Social Unrest and Coercive Use of Police 
Power,'' and accompanying notes.
    \172\ See Chinese Human Rights Defenders (Online), ``The Perils of 
Defending Rights: A Report on the Situation of Human Rights Defenders 
in China (2006),'' 4 May 07, pt. I(2)(c).
    \173\ See CECC, 2006 Annual Report, 57.
    \174\ See China Human Rights Lawyers Concern Group, ``Deeply 
Concerned About the Recent Incidents of Beating and Detention of 
Mainland Human Rights Lawyers,'' 22 June 07.
    \175\ Under China's Criminal Law, a court may suspend a prisoner's 
sentence and allow that prisoner to serve the period of suspension on 
the outside, subject to observation and other restrictions imposed by a 
public security organ. See PRC Criminal Law, arts. 72-77.
    \176\ See China Human Rights Lawyers Concern Group (Online), 
``Demand Immediate Release of Beijing Human Rights Lawyer Gao 
Zhisheng,'' 27 September 07. For more information about Gao's open 
letter, which called on the Congress to take action against the Chinese 
government's human rights abuses, see Human Rights Torch Relay 
(Online), ``Gao Zhisheng's letter to the Senate and the Congress of the 
United States,'' 12 September 07; Bill Gertz, ``Chinese dissident urges 
boycott of Olympics,'' Washington Times (Online), 21 September 07.
    \177\ Under China's Criminal Law, a court may impose a 
supplementary punishment of ``deprivation of political rights'' (in 
addition to fixed-term imprisonment). A term of deprivation of 
political rights is typically counted beginning on the date that a 
prisoner has completed his sentence. See PRC Criminal Law, arts. 54-55, 
58.
    \178\ Fang Yuan, ``Status of Shanghai Lawyer Zheng Enchong's 
Summons for Interrogation, Petitioners' House Arrest'' [Shanghai lushi 
Zheng Enchong bei chuanxun ji rangmin bei ruanjin qingkuang], Radio 
Free Asia (Online), 1 October 07.
    \179\ The number of criminal defendants who have been found guilty 
is actually on the rise, while the number found not guilty continues to 
drop. In 2006, Chinese trial courts found 889,042 defendants guilty of 
crimes and 1,713 not guilty. Supreme People's Court Work Report [Zuigao 
renmin fayuan gongzuo baogao][hereinafter SPC Work Report], 21 March 
07. Those numbers were 844,717 guilty, 2,162 not guilty in 2005; and 
767,951 guilty, 2,996 not guilty in 2004. See SPC Work Report, 20 March 
06.
    \180\ Article 14(3)(d) of the ICCPR states that: ``In the 
determination of any criminal charge against him, or of his rights and 
obligations in a suit at law, everyone shall be entitled to a fair and 
public hearing by a competent, independent and impartial tribunal 
established by law.''
    \181\ See supra, ``Political Crimes,'' and accompanying notes.
    \182\ See CPL, art. 152.
    \183\ For more information, see http://www.yangjianli.com.
    \184\ See ``China Frees Protestant Pastor After Three Years,'' 
Agence France-Presse (Online), 17 September 07; China Aid Association 
(Online), ``Renowned Beijing Church Leader Cai Zhuohua Released after 
Three Years Imprisonment for distributing Bibles; Forced Labor for 
Olympics Products Imposed,'' 14 September 07, for confirmation of Cai's 
release. See CECC, 2006 Annual Report, 38; ``Beijing Court Jails House 
Church Minister for Giving Away Bibles,'' CECC Human Rights and Rule of 
Law Update, December 2005, 1-2 for information about Cai's case.
    \185\ Supreme People's Court, Several Opinions on Strengthening the 
Open Adjudication Work of the People's Courts [Guanyu jiaqiang renmin 
fayuan shenpan gongkai gongzuo de ruogan yijian], issued 4 June 07.
    \186\ Responses provided during interrogation may later be used as 
evidence at trial, but a court cannot convict and sentence a defendant 
``if there is only his statement but no evidence.'' CPL, arts. 46, 93.
    \187\ See CECC, 2005 Annual Report, 24 (on the wrongful convictions 
of She Xianglin and Nie Shubin); CECC, 2006 Annual Report, 57-58 (on 
the wrongful conviction of a Chongqing man for robbery).
    \188\ ``Behind the Scenes of a Wrongful Conviction: Judicial 
Games'' [Cuo'an muhou de sifa youxi], Xinhua (Online), 14 April 05.
    \189\ See ``First Issuance of a `Lawyers Proposed Draft and 
Arguments for Another Revision of the Criminal Procedure Law,''' 
Defense Lawyer Net.
    \190\ See ``Supreme People's Court Maps Future Judicial Reforms in 
Five Year Reform Program,'' CECC Human Rights and Rule of Law Update, 
February 2006, 7-9; Supreme People's Court, Second Five-Year Reform 
Program for the People's Courts (2004-2008)[Renmin fayuan di er ge wu 
nian gaige gangyao (2004-2008)], issued 26 October 05.
    \191\ ``Behind the Scenes of a Wrongful Conviction: Judicial 
Games,'' Xinhua.
    \192\ CECC Staff Interviews; Veron Mei-Ying Hung, ``Judicial Reform 
in China: Lessons from Shanghai,'' 58 Carnegie Papers 10-11 (April 
2005).
    \193\ Chinese sources note that the number of crimes punishable by 
death increased from 28 under the 1979 Criminal Law to 68 
(approximately one-quarter of the total number of crimes) under the 
1997 Criminal Law. Xiong Qiuhong, ``Discussing the Defense of Death 
Penalty Cases'' [Lun sixing anjian zhong de bianhu], Justice of China 
(Online), 20 July 04; Lin Tao, ``Study on the Issues in Hearing and 
Reviewing Death Penalty Cases'' [``Sixing'' anjian de shenli yiji fuhe 
zhong de wenti yanjiu], China Legal Publicity (Online), 10 January 06. 
At least one scholar has characterized 44 (approximately 65 percent) of 
the crimes punishable by death as nonviolent crimes. Jiang Anjie, 
``Compilation of Viewpoints from the First Period Forum `Concerning 
Death Penalty Reform''' [``Guanzhu sixing gaige'' shouqi luntan 
guandian huicui], China Legal Publicity (Online), 29 December 05 
(quoting Professor Gao Mingxuan, Renmin University). See also ``Death 
Penalty Developments in 2005,'' Amnesty International (Online), 20 
April 06; ``China to Open More Death Penalty Cases to Public,'' 
Reuters, reprinted in China Daily (Online), 27 February 06.
    \194\ ``PRC Foreign Ministry Spokesman Defends Keeping PRC 
Execution Statistics Secret,'' Agence France-Presse, 5 February 04 
(Open Source Center, 5 February 04).
    \195\ Liu Renwen, a scholar at the Law Institute of the Chinese 
Academy of Social Sciences, estimates that China carried out about 
8,000 executions in 2005. Geoffrey York, ``China's Secret Execution 
Rate Revealed,'' The Globe and Mail (Online), 28 February 06; Antoaneta 
Bezlova, ``China to `Kill Fewer, Kill Carefully,''' Asia Times 
(Online), 31 March 06. In March 2004, an NPC delegate suggested that 
Chinese courts issue death sentences for immediate execution in 
``nearly 10,000 cases per year.'' ``41 Representatives Jointly Sign 
Proposal for the Supreme People's Court to Take Back the Power of Death 
Penalty Approval'' [41 daibiao lianming jianyi, zuigao renmin fayuan 
shouhui sixing hezhun quan], China Youth Daily, reprinted in People's 
Daily (Online), 10 March 04.
    \196\ ``China urged to cut back executions before Olympics (John 
Kamm),'' Agence France-Presse, reprinted in Yahoo (Online), 9 June 07.
    \197\ Dui Hua Foundation (Online), ``Death Penalty Reform Should 
Bring Drop in Chinese Executions,'' Winter 07.
    \198\ See CECC, 2003 Annual Report, 21; CECC, 2004 Annual Report, 
20.
    \199\ ``Organ Transplants: A Zone of Accelerated Regulation'' 
[Qiguan yizhi: jiakuai guizhi de didai], Caijing Magazine (Online), 28 
November 05. In late-2006, Vice Minister Huan reported this 
information, stating: ``Apart from a small portion of traffic victims, 
most of the organs from cadavers are from executed prisoners.'' Qiu 
Quanlin and Zhang Feng, ``In organ donations, charity begins with 
body,'' China Daily (Online), 16 November 06.
    \200\ ``Court hails penalty review a success,'' Xinhua, reprinted 
in China Daily (Online), 10 June 07.
    \201\ ``Least number of death sentences meted out in '07,'' Xinhua 
(Online), 16 March 07.
    \202\ Xie Chuanjiao, ``Fewer executions after legal reform,'' China 
Daily (Online), 8 June 07.
    \203\ Xie Chuanjiao, ``Capital punishment decreases nationwide,'' 
China Daily (Online), 5 September 07.
    \204\ Wu Jing, ``Supreme People's Court Demands Strengthening of 
Criminal Adjudication'' [Zuigao renmin fayuan yaoqiu jiaqiang xingshi 
shenpan], People's Daily (Online), 14 September 07.
    \205\ Feng Jianhua, ``Taking Back the Power,'' Beijing Review 
(Online), 5 February 07.
    \206\ Ibid.
    \207\ Liu Li, ``In matter of life and death, extra caution,'' China 
Daily (Online), 2 November 06.
    \208\ See ``China's Supreme Court to Reclaim Death Penalty Review 
Right from Lower Tribunals,'' Xinhua, reprinted in People's Daily 
(Online), 26 October 05; Song Wei, ``610 Death Penalty Judges 
Congregate in Beijing for Rotational Training, Consolidating the 
Measure of Death Penalty Standards'' [610 ming sixing faguan Beijing 
jizhong lunxun; tongyi sixing biaozhun chidu], Democracy & Law Times 
[Minzhu yu fazhi shibao], reprinted in Defense Lawyer Net, 13 November 
06.
    \209\ CECC, 2006 Annual Report, 58-59.
    \210\ See supra, ``Fairness of Criminal Trials,'' and accompanying 
notes.
    \211\ For additional information on the reform program's specific 
provisions related to death penalty reform, see CECC, 2006 Annual 
Report, 58-59.
    \212\ In September 2006, the SPC and Supreme People's Procuratorate 
jointly issued a judicial interpretation to provide guidance on when 
and how to conduct an appeals hearing in a death penalty case. See 
Supreme People's Court and Supreme People's Procuratorate, Trial 
Provisions on Several Issues Regarding Court Hearing Procedures in 
Death Penalty Appeals Cases [Guanyu sixing di er shen anjian kaiting 
shenli chengxu ruogan wenti de guiding], issued 21 September 06. 
Nonetheless, an SPC Vice President noted in July 2007 that provincial-
level high courts continue to apply uneven standards during such 
hearings. See Xie Chuanjiao, ``Supreme court targets `judicial 
injustice,''' China Daily (Online) 5 July 07.
    \213\ Article 13 of the PRC Organic Law of the People's Courts was 
amended on October 31, 2006, to read: ``Death penalty sentences, with 
the exception of those decided by the Supreme People's Courts, shall be 
submitted to the Supreme People's Court for review and approval.'' 
National People's Congress Standing Committee, Decision on Amending the 
``Organic Law of the People's Courts'' [Guanyu xiugai ``Zhonghua Renmin 
Gongheguo renmin fayuan zuzhifa'' de jueding], issued 31 October 06. In 
January 2007, the SPC issued a judicial interpretation to provide 
guidance on when and how to review and approve a death sentence. See 
Supreme People's Court, Provisions on Some Issues Regarding Review of 
Death Penalty Cases [Zuigao renmin fayuan guanyu fuhe sixing anjian 
ruogan wenti de guiding], issued 22 January 07.
    \214\ Supreme People's Court, Decision on Issues Relating to 
Consolidated Review of Death Penalty Cases [Guanyu tongyi xingshi 
sixing anjian hezhun quan youguan wenti de jueding], issued 28 December 
06.
    \215\ See Supreme People's Court, Supreme People's Procuratorate, 
Ministry of Public Security, Ministry of Justice, Opinion on Further 
Handling Cases in Strict Accordance with Law, to Ensure the Quality of 
Death Penalty Case Handling [Guanyu jinyibu yange yifa ban an quebao 
banli sixing anjian zhiliang de yijian], issued 9 March 07.
    \216\ Ibid., Items 6 and 13.
    \217\ See, e.g., ibid., Item 34.
    \218\ Ibid., Item 45.
    \219\ Ibid., Item 48.
    \220\ ``British Transplantation Society Criticizes the Alleged Use 
of Organs Without Consent from Prisoners Executed in the People's 
Republic of China,'' The British Transplantation Society (Online), 19 
April 06; David Matas and David Kilgour, Report into Allegations of 
Organ Harvesting of Falun Gong Practitioners in China, 6 July 06, 
available at ``Report Into Allegations of Organ Harvesting of Falun 
Gong Practitioners in China,'' Epoch Times (Online), 7 July 06.
    \221\ David Matas and David Kilgour, Revised Report into 
Allegations of Organ Harvesting of Falun Gong Practitioners in China, 
31 January 07, available at http://organharvestinvestigation.net/.
    \222\ See, e.g., Ministry of Foreign Affairs (Online), ``September 
28, 2006, Routine Press Conference Q&A With Foreign Ministry Spokesman 
Qin Gang'' [2006 nian 9 yue 28 ri Waijiaobu fayanren Qin Gang zai 
lixing jizhehui shang da jizhe wen], 28 September 06; Qiu and Zhang, 
``In organ donations, charity begins with body.''
    \223\ Temporary Provisions Regarding the Use of Corpses or Organs 
from Executed Prisoners [Guanyu liyong sixing zuifan shiti qiguan de 
zanxing guiding], issued 9 October 84, para. 3.
    \224\ Ji Minhua and Zhang Yingguang, ``Beijing Mulls New Law on 
Transplants of Deathrow Inmate Organs,'' Caijing Magazine (Online), 28 
November 05.
    \225\ State Council, Regulations on Human Organ Transplants [Renti 
qiguan yizhi tiaoli], issued 21 March 07.
    \226\ ``China Agrees Not To Take Inmates' Organs,'' Associated 
Press (Online), 5 October 07.

    Notes to Section II--Worker Rights
    \1\ See the discussion on the ``Labor Contract Law,'' infra, for 
more information.
    \2\ See, e.g., Guan Xiaofeng, ``Labor Disputes Threaten 
Stability,'' China Daily, 30 January 07 (Open Source Center, 30 January 
07).
    \3\ These other rights are ``the elimination of all forms of forced 
or compulsory labour; the effective abolition of child labour; and the 
elimination of discrimination in respect of employment and 
occupation.'' ILO Declaration on Fundamental Principles and Rights at 
Work, 18 June 98, International Labor Organization (Online), art. 2 
[hereinafter ILO Declaration].
    \4\ See ``ILO Tripartite Constituents in China,'' International 
Labour Organization (Online), last visited 27 September 07.
    \5\ ILO Declaration, art. 2. China has been a member of the ILO 
since its founding in 1919. For more information, see the country 
profile on China in the ILO database of labor, social security and 
human rights legislation (NATLEX) (Online).
    \6\ ``Ratifications of the Fundamental Human Rights Conventions by 
Country,'' International Labor Organization (Online), 11 September 07.
    \7\ ``China: Forced Labor and Trafficking: The Role of Labour 
Institution in Law Enforcement and International Cooperation,'' 
International Labour Organization (Online), August 05.
    \8\ See generally PRC Labor Law, enacted 5 July 94, art. 12.
    \9\ International Covenant on Economic, Social, and Cultural Rights 
adopted by General Assembly resolution 2200A (XXI) of 16 December 66, 
entry into force 3 January 76, art. 8.
    \10\ Declarations and Reservations, United Nations Treaty 
Collection (Online), 5 February 02. Article 10 of China's Trade Union 
Law establishes the All-China Federation of Trade Unions as the 
``unified national trade union federation,'' and Article 11 mandates 
that all unions must be approved by the next higher-level union body, 
giving the ACFTU an absolute veto over the establishment of any local 
union and the legal authority to block independent labor associations. 
PRC Trade Union Law, enacted 3 April 1992, amended 27 October 01, art. 
10, 11.
    \11\ International Covenant on Civil and Political Rights (ICCPR), 
adopted by General Assembly resolution 2200A (XXI) of 16 December 66, 
entry into force 23 March 76, art. 22. The Chinese government has 
committed itself to ratifying, and thus bringing its laws into 
conformity with, the ICCPR and reaffirmed its commitment as recently as 
April 13, 2006, in its application for membership in the UN Human 
Rights Council. China's top leaders have previously stated on three 
separate occasions that they are preparing for ratification of the 
ICCPR, including in a September 6, 2005, statement by Politburo member 
and State Councilor Luo Gan at the 22nd World Congress on Law, in 
statements by Chinese Premier Wen Jiabao during his May 2005 Europe 
tour, and in a January 27, 2004, speech by Chinese President Hu Jintao 
before the French National Assembly. As a signatory to the ICCPR, China 
is required under Article 18 of the Vienna Convention on the Law of 
Treaties, to which it is a party, ``to refrain from acts which would 
defeat the object and purpose of a treaty'' it has signed. Vienna 
Convention on the Law of Treaties, enacted 23 May 69, entry into force 
27 January 80, art. 18.
    \12\ PRC Trade Union Law, art. 2, 4.
    \13\ For an overview of ACFTU programs hat have promoted worker 
rights, see the section on ``ACFTU Role in Protecting Worker Rights'' 
in the CECC 2006 Annual Report, 67. For a summary of surveys of trade 
union leadership in Guangzhou and Shenyang, see ``Is the All China 
Federation of Trade Unions Merely a Front for the Communist Party and 
Enterprise Management?,'' China Labour Bulletin (Online), 1 August 07.
    \14\ See the CECC Political Prisoner Database for more details.
    \15\ According to information from the ACFTU reported by CSR Asia 
Weekly, the government enacted its first comprehensive labor law in 
1994, and officials first proposed supplementing it with a labor 
contract law in 1996. After drafting of the law stalled in 1998, work 
on a new labor contract law began in 2004. ``Labour Contract Law of the 
PRC,'' CSR Asia Weekly (Online), 4 July 07. ``China's Legislature 
Adopts Labor Contract Law,'' Xinhua (Online), 29 June 07. The 
government claimed that more than 65% of the comments were from Chinese 
workers. ``Chinese Public Makes Over 190,000 Suggestions on Draft Labor 
Contract Law,'' Xinhua, 21 April 06 (Open Source Center, 21 April 06).
    \16\ CECC Staff Interviews.
    \17\ PRC Labor Contract Law, adopted 29 June 07, art. 2.
    \18\ PRC Labor Law, art. 16, 19.
    \19\ PRC Labor Contract Law, art. 10. If no contract exists at the 
time the relationship starts, it must be signed within one month.
    \20\ Ibid., art. 14.
    \21\ Ibid., art. 14.
    \22\ Ibid., art. 17.
    \23\ Ibid., art. 36-50 (on terminations generally); 57-67 (on 
workers employed through staffing firms); and 80-95 (on legal 
liability). See also discussion infra.
    \24\ Josephine Ma, ``New Law To Protect Mainland Workers,'' South 
China Morning Post (Online), 30 June 07.
    \25\ For an overview of several surveys on the use of labor 
contracts, see ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International (Online), 1 March 07.
    \26\ As the China Labour Bulletin observes, ``All too often in 
China, employers can disregard the terms and conditions of the 
contracts they have signed with their workers and impose their own 
terms and conditions as and when it suits them.'' ``National People's 
Congress Approves New Labour Contract Law,'' China Labour Bulletin 
(Online), 29 June 07.
    \27\ Article 97 states that written contracts established before 
the law's implementation remain in force, but includes no provisions to 
address existing written contracts that do not abide by the terms of 
the Labor Contract Law. PRC Labor Contract Law, art. 97.
    \28\ Ibid., art.62.
    \29\ Ibid., art.22.
    \30\ ``Employers Sacking Workers Before the Labour Contract Law Is 
Implemented,'' China Labour Bulletin (Online), 14 September 07.
    \31\ PRC Labor Contract Law, art.58.
    \32\ Ibid., art.63.
    \33\ Ibid., art.62(3), 62(5).
    \34\ Ibid., art.64.
    \35\ Ibid., art. 60.
    \36\ See, e.g., PRC Labor Contract Law (Draft) [Zhonghua renmin 
gongheguo laodong hetong fa (cao an)], 20 March 2006, art. 12, 24, 40.
    \37\ PRC Labor Contract Law, art. 72.
    \38\ ``Draft Labour Contract Law Improves Protection of Part-Time 
Workers,'' Xinhua (Online), 24 June 07. The foreign-owned fast food 
restaurants investigated also denied part-time workers benefits and 
failed to abide by overtime regulations, among other violations. ``Fast 
Food and Wages in China,''CSR Asia, (Online), 12 April 07.
    \39\ PRC Labor Contract Law, art. 72.
    \40\ Ibid., art. 71.
    \41\ PRC Labor Contract Law (Draft), art. 33.
    \42\ PRC Labor Contract Law, art. 41.
    \43\ Ibid., art. 41.
    \44\ Ibid., art. 42.
    \45\ Ibid., art. 43.
    \46\ Ibid., art. 46.
    \47\ Ibid., art. 47.
    \48\ Ibid., art. 47.
    \49\ Ibid., arts. 73-74.
    \50\ Ibid., arts. 76.
    \51\ Translated portions of the study, conducted by the State 
Council Research Office Study Group and originally published as the 
book China Peasant Worker Research Report in April 2006, is available 
at ``PRC: Excerpts of State Council Research Report on Migrant 
Workers,'' Open Source Center, 12 September 07.
    \52\ PRC Labor Contract Law, art. 77.
    \53\ Ibid., art. 82.
    \54\ See generally Chapter 7, Legal Liability (articles 80-95) in 
the Labor Contract Law.
    \55\ Ibid., art. 90. Article 86 holds either party liable where an 
invalid contract causes harm to one side.
    \56\ Ibid., arts. 51-56. The draft of the law released in March 
2006 provided for collective bargaining but lacked the consolidated set 
of provisions of the final version. PRC Labor Contract Law (Draft), 
art. 7, 11, 23, 44, 45, 46, 48, 50, 51.
    \57\ PRC Trade Union Law, art. 20; Provisions on Collective 
Contracts [Jiti hetong guiding], issued 20 January 04.
    \58\ CECC Staff Interviews.
    \59\ PRC Labor Contract Law, art. 51. See also ``National People's 
Congress Approves New Labour Contract Law,'' China Labour Bulletin.
    \60\ Simon Clarke, Chang-Hee Lee, and Qi Li, ``Collective 
Consultation and Industrial Relations in China,'' 42 Brit. J. 
Industrial Relations 235, 242 (2004).
    \61\ Ibid., 246-247.
    \62\ Information provided by U.S. Embassy Beijing.
    \63\ ``ACFTU Issues `2006 Blue Book on Chinese Trade Unions 
Safeguarding the Rights and Interests of Workers,''' People's Daily, 
reprinted on China Trade Union News (Online), 15 May 07.
    \64\ PRC Labor Contract Law, art. 18.
    \65\ Ibid., art. 26.
    \66\ Ibid., art. 56.
    \67\ Ibid., art. 77-78.
    \68\ For a description of costs involved, see ``Xinjiang People's 
Congress Representative Appeals for Abolition of Labor Arbitration 
Procedure'' [Xinjiang renda daibiao huyu quxiao laodong zhongcai 
qianzhi de falu chengxu], Xinhua (Online), 20 January 06.
    \69\ PRC Labor Law, art. 77-84.
    \70\ Compare PRC Labor Law, enacted 5 July 94, art. 79 to PRC Labor 
Contract Law, adopted 29 June 07, arts. 26, 56, 77.
    \71\ ``Law To Deal with Rising Number of Labor Disputes To Be 
Enacted,'' Xinhua, 27 August 07, reprinted on the National People's 
Congress Web site.
    \72\ Ibid.
    \73\ ``National People's Congress Approves New Labour Contract 
Law,'' China Labour Bulletin. For additional evaluations, see, e.g., 
Tim Costello, Brendan Smith, and Jeremy Brecher, ``Labor Rights in 
China,'' Foreign Policy in Focus (Online), 21 December 06.
    \74\ See, e.g., Bill Savadove, ``Firms Say New Labour Law is a Step 
Backwards,'' South China Morning Post (Online), 21 March 06; Bill 
Savadove, ``Labour Law Won't Go to NPC in March; But Regulation--Which 
Foreign Firms Say is Too Strict--Still Expected To Pass This Year,'' 
South China Morning Post (Online), 31 January 07; Joe McDonald, ``China 
Due to Enact New Labor Law After Heated Debate,'' Associated Press, 27 
June 07; Joseph Kahn and David Barboza, ``China Passes a Sweeping Labor 
Law,'' New York Times (Online) 30 June 07.
    \75\ CECC Staff Interviews. Comments addressed the draft version 
released in March 2006 and subsequent revisions. See, e.g., American 
Chamber of Commerce in the People's Republic of China, ``Comments on 
the Draft Labor Contract Law of the People's Republic of China,'' 19 
April 06; US-China Business Council, ``Comments on the Draft Labor 
Contract Law of the People's Republic of China (Draft of March 20, 
2006),'' 19 April 06; American Chamber of Commerce in Shanghai, 
``AmCham Shanghai and AmCham China (Beijing) Comments on Draft Two of 
the PRC Labor Contract Law,'' last viewed 7 October 07; US-China 
Business Council, ``Comments on the Draft People's Republic of China 
Law on Employment Contracts (Draft of December 24, 2006),'' last viewed 
7 October 07.
    \76\ American Chamber of Commerce, ``Comments on the Draft Labor 
Contract Law.''
    \77\ CECC Staff Interviews; US-China Business Council, ``Comments 
on the Draft People's Republic of China Law on Employment Contracts 
(Draft of December 24, 2006);'' Sarah Schafer, ``Now They Speak Out,'' 
Newsweek International (Online), 28 May 07; Andrew Batson and Mei Fong, 
``China Toils Over New Labor Law,'' The Wall Street Journal (Online), 7 
May 2007; ``Undue Influence: Corporations Gain Ground in Battle Over 
China's New Labor Law,'' Global Labor Strategies, March 2007; ``The 
Chinese Draft Contract Law--A Global Debate,'' CSR Asia, 25 April 2007; 
``Behind the Great Wall of China: U. S. Corporations Opposing New 
Rights for Chinese Workers,'' Global Labor Strategies (Online), last 
viewed 7 October 07.
    \78\ CECC Staff Interviews; US-China Business Council, ``Comments 
on the Draft People's Republic of China Law on Employment Contracts 
(Draft of December 24, 2006);'' Batson and Fong, ``China Toils Over New 
Labor Law;'' Schafer, ``Now They Speak Out;'' ``The Chinese Draft 
Contract Law,'' CSR Asia; ``Behind the Great Wall of China,'' Global 
Labor Strategies; ``Twenty-Seven Democrats Ask Bush To Support China's 
Proposed Labor Law,'' Daily Labor Report, No. 213, 3 November 2006, A-
8.
    \79\ US-China Business Council, ``Comments on the Draft People's 
Republic of China Law on Employment Contracts (Draft of December 24, 
2006).''
    \80\ ``Behind the Great Wall of China,'' Global Labor Strategies, 
3; ``The Chinese Draft Contract Law,'' CSR Asia.
    \81\ American Chamber of Commerce, ``Comments on the Draft Labor 
Contract Law.'' AmCham disputed reports that it had opposed the draft 
Labor Contract Law. See American Chamber of Commerce in the People's 
Republic of China, ``Re: Press Reports Concerning AmCham-China and the 
PRC Draft Labor Contract Law,'' 18 June 07.
    \82\ ``European Union Chamber of Commerce in China Welcomes the 
Promulgation of the Labour Contract Law,'' European Chamber of Commerce 
Web site (Online), 1 July 07. Joe McDonald, ``China Due To Enact New 
Labor Law After Heated Debate.''
    \83\ Guan Xiaofeng, ``Labor Law `Will Not Hurt Investment 
Environment,''' China Daily, 3 July 07.
    \84\ Quoted in Jude Blanchette, ``Key Issues for China's New Labor 
Law: Enforcement,'' Christian Science Monitor, 2 July 07.
    \85\ PRC Employment Promotion Law, adopted 30 August 07, art. 28.
    \86\ Ibid., art. 3. Other laws have also included this provision. 
See, e.g., PRC Labor Law, art. 12.
    \87\ PRC Employment Promotion Law, art. 27, 28.
    \88\ Ibid., art. 29.
    \89\ Ibid., art. 31.
    \90\ Ibid., art. 30.
    \91\ Ibid., art. 62.
    \92\ ``Survey: Discrimination in Job Market Common,'' Xinhua 
(Online), 27 June 07.
    \93\ PRC Employment Promotion Law, art. 7.
    \94\ Ibid., art. 9.
    \95\ Ibid., art. 52.
    \96\ Ibid., art. 16.
    \97\ PRC Labor Law, art. 48.
    \98\ PRC Labor Contract Law, art. 72, 74, 85.
    \99\ ``Most Provincial-Level Governments Issue Hourly Minimum Wage 
Standards,'' CECC China Human Rights and Rule of Law Update, November 
2006, 7-8. Legal provisions governing minimum wages require provincial-
level governments to formulate the minimum wage standards for their 
area, in consultation with local unions and businesses. The MOLSS has 
two weeks to review draft standards submitted by the local labor and 
social security bureaus. The standards are deemed approved if the MOLSS 
does not raise objections during this period. The provisions set forth 
a number of factors that provincial governments should consider in 
calculating the minimum wage, including the average salary, minimum 
living expenses, unemployment rate, and level of economic development 
in their area. See generally Provisions on Minimum Wages [Zui di gongzi 
guiding], issued 20 January 04.
    \100\ See ``Most Provincial-Level Governments Issue Hourly Minimum 
Wage Standards,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 7-8, noting that the 2006 MOLSS report recorded the 
highest monthly minimum wage in Shenzhen, at 810 yuan (US$101.25), the 
highest hourly minimum wage in Beijing, at 7.9 yuan (US$0.99), and the 
lowest monthly and hourly minimum wages in Jiangxi, at 270 yuan 
(US$33.75) and 2.7 yuan (US$0.34), respectively.
    \101\ ``China's Trade Union Calls for Minimum Wage Boost,'' Xinhua 
(Online), 19 May 07.
    \102\ ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International.
    \103\ Ibid.
    \104\ ``Government To Reduce Income Gap Through Reform,'' China 
Daily, 18 July 06 .
    \105\ ``Ministry of Finance 8-Item Work Deciphered: Wage Revolution 
`Limits High [Wages], Stabilizes Middle [Incomes], Brings Up Low 
[Wages]''' [Caizhengbu ba xiang goingzuo jiedu: gongzi gaige ``xian gao 
wen zhong tuo di''], People's Daily (Online), 7 November 06.
    \106\ `` `Limit High [Wages], Stabilize Middle [Incomes], Bring Up 
Low [Wages],' Reducing Subsidies for High Income Earners Is Not the 
Same as Equal Distribution,'' Yanzhao Metropolitan Newspaper, reprinted 
in China Economic Daily, 9 November 06.
    \107\ Stephen Chen, ``Forced Wages Rises Won't Work; Official 
Labour Officer Says Beijing Can't Set Salaries,'' South China Morning 
Post (Online), 18 July 2007.
    \108\ ``Communications Ministry Orders Push To Resolve Unpaid 
Migrant Wage Claims,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 2-3.
    \109\This number figure represents a decrease from previous years 
in the amount of unpaid wages. ``Internal Migrants: Discrimination and 
Abuse,'' Amnesty International.
    \110\ ``Migrants Frustrated Over Unpaid Wages, Xinhua, reprinted in 
China Daily, 31 December 06.
    \111\ Implementing Measures for the Qinghai Province Construction 
Sector Migrant Worker Wage Payment Deposit System (Trial Measures) 
[Qinghaisheng jianshe lingyu nongmingong gongzi zhifu baozhengjin zhidu 
shishi banfa (shixing)], issued October 06, art. 2, 17.
    \112\ ``30 Firms Blacklisted for Defaulting Wages,'' Xinhua 
(Online), 27 June 06.
    \113\ See, e.g., Chenyan Liu, ``China's Construction Sector: 
Untangling CSR Issues,'' CSR Asia Weekly, Vol. 1 Week 22, 2005. 
``Internal Migrants: Discrimination and Abuse,'' Amnesty International.
    \114\ `More on Migrants Beaten Up in China After Demanding Unpaid 
Wages,'' BBC Monitoring Asia Pacific, citing Xinhua, 2 July 07. Zhuang 
Pinghui, ``Gang Beat Migrants Demanding Wages,'' South China Morning 
Post (Online), 2 July 07.
    \115\ See, e.g., ``Internal Migrants: Discrimination and Abuse,'' 
Amnesty International. See also the CECC 2006 Annual Report, 65-66, for 
more information on financial and other obstacles workers face in 
trying to recover wages and resolve other disputes.
    \116\ See Ministry of Labor and Social Security (Online), ``2006 
Statistical Communique on the Development of Labor and Social Security 
Affairs,'' last visited 10 October 07. For statistics by year, see data 
from the National Bureau of Statistics of China Web site. See also Guan 
Xiaofeng, ``Labor Disputes Threaten Stability,'' China Daily, 30 
January 07 Open Source Center, 30 January 07); ``China To Enact Law To 
Deal With Rising Number of Labor Disputes,'' Xinhua, 26 August 07 (Open 
Source Center, 26 August 07).
    \117\ ``Labour Disputes Threaten China's Stability: Report,'' 
Reuters (Online), 30 January 07.
    \118\ PRC Labor Law, art. 36.
    \119\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops,'' Business Week, 27 November 2006.
    \120\ China Labour Bulletin, ``Falling Through the Floor: Migrant 
Women Workers' Quest for Decent Work in Dongguan, China,'' September 
06, 6, 10, 15.
    \121\ Dexter Roberts and Pete Engardio, ``Secrets, Lies, and 
Sweatshops.''
    \122\ ``Work Injury Insurance Covers 100 Million Chinese,'' 
Corporate Social Responsibility Asia, 29 February 06; ``Loopholes Seen 
To Undermine China's Unemployment Insurance System,'' BBC Asia, 6 
December 2006.
    \123\ ``Extending Old-age Insurance Coverage in the People's 
Republic of China,'' International Labor Organization (Online), January 
06, 6, 19.
    \124\ Working Conditions in China: Just and Favorable, Staff 
Roundtable of the Congressional-Executive Commission on China, 3 
November 05, Testimony of Dan Viederman, Verite.
    \125\ ``Internal Migrants: Discrimination and Abuse,'' Amnesty 
International.
    \126\ Women are entitled to 90 days of leave under the 1994 Labor 
Law. PRC Labor Law, art. 62.
    \127\ The survey data was collected from 6,595 questionnaires 
handed out in 416 villages and four cities. ``Female Migrants Suffering 
at Work,'' China Daily, 30 November 06 (Open Source Center, 30 November 
06).
    \128\ ``No Social Aid, Work Contracts for 50 Per Cent of Women in 
Chinese Cities-Poll'' BBC Asia, 10 December 2006 (Nexis, 10 December 
06).
    \129\ PRC Labor Law, art. 73.
    \130\ See, e.g., ``MOLSS Circular Concerning Implementation of the 
Essence of the State Council Standing Committee on Issues Related To 
Strengthening Social Security Funds Supervision'' [Laodong he shehui 
baozhangbu guanyu guancheluoshi guowuyuan changwu huiyi jingshen 
jiaqiang shehui baoxian jijin jianguan youguan wenti de tongzhi], 
issued 30 November 06; See also Opinion Concerning Strengthening Social 
Security Fund Supervision and Enforcing Fund Rules [Guanyu jin yi bu 
jiaqiang shehui baoxian jijin jianguan yansu jijin jilu de yijian], 
issued 29 September 06. For more information, see, e.g., Mu Tzu, 
``Central Authorities Will Recover Power of Social Security Fund 
Management,'' Hong Kong Commercial Daily, 27 September 06 (Open Source 
Center, 29 September 06).
    \131\ Cary Huang, ```Iron Face' Vows To Stop Forever Misuse of 
Social Security Funds,'' South China Morning Post (Online), 25 June 07.
    \132\ Pete Engardio, Dexter Roberts, Frederik Balfour, and Bruce 
Einhorn, ``Broken China,'' Business Week (Online), 23 July 07.
    \133\ ``2020 Set as Goal for National Insurance Plan,'' South China 
Morning Post (Online), 13 October 06.
    \134\ ``Government Strengthens Enforcement of Requirements on 
Injury Insurance,'' CECC China Human Rights and Rule of Law Update, 
October 2006, 4.
    \135\ CECC Staff Interviews.
    \136\ See, e.g., ``Fatalities Down in Work Accidents, But China's 
Work Safety Still `Grim,''' Xinhua, 28 August 07 (Open Source Center, 
28 August 07); ```Work Safety Situation Still Grim,''' China Daily 
(Online), 3 September 07.
    \137\ ``35,800 Firms Ordered To Close Over Safety Concerns,'' 
Xinhua (Online), 16 February 06.
    \138\ Sixth Amendment to the Criminal Law of the People's Republic 
of China [Zhonghua renmin gonghe guo xingfa xiuzheng an (liu)], issued 
29 June 06. See also PRC Criminal Law, enacted 1 July 79, amended 14 
March 97, 25 December 99, 31 August 01, 29 December 01, 28 December 02, 
28 February 05, 29 June 05, 29 June 06, art. 244.
    \139\ Bureau of Democracy, Human Rights, and Labor, Country Reports 
on Human Rights Practices--2006, China (includes Tibet, Hong Kong, and 
Macau) (Online), 6 March 07.
    \140\ Ibid.
    \141\ ``700 Million People Might Suffer from Occupational 
Illnesses, Government Says,'' China Labour Bulletin (Online), 23 
January 06.
    \142\ China Labour Bulletin, ``Falling Through the Floor: Migrant 
Women Workers' Quest for Decent Work in Dongguan, China.''
    \143\ ``China Sees Coal Mine Deaths Fall, But Outlook Grim,'' 
Reuters (Online), 10 January 07.
    \144\ Simon Elegant and Zhang Jiachang, ``Where the Coal Is Stained 
with Blood,'' Time Magazine, 2 March 07.
    \145\ ``Government Issues New Coal Mine Provisions as Mining 
Fatalities Increase,'' CECC China Human Rights and Rule of Law Update, 
December 06, 7-8.
    \146\ Investigation cited in ``95.6 Per Cent of All Officials in 
Mining Disaster Cases Receive No Punishment or Get a Suspended 
Sentence,'' China Labour Bulletin, May 24, 2006.
    \147\ Ibid.
    \148\ ``China Criticizes Mine Cover-ups,'' Agence France-Presse, 19 
April 07 (Nexis, 19 April 07).
    \149\ Rising prices for coal, which makes up over 70 percent of 
China's energy supply, have fueled the proliferation on small, 
unregulated mines. ``China's Coal Mines Bottoming Out,'' The Economist 
(Online), 23 August 07.
    \150\ Elegant and Zhang, ``Where the Coal Is Stained with Blood.''
    \151\ Translated portions of the study, conducted by the State 
Council Research Office Study Group and originally published as the 
book China Peasant Worker Research Report in April 2006, is available 
at ``PRC: Excerpts of State Council Research Report on Migrant 
Workers,'' Open Source Center, 12 September 07.
    \152\ Vivien Cui and Kevin Huang, ``China's Neglected 
`Untouchables,''' South China Morning Post, 1 May 06.
    \153\ Raymond Li, ``Legal Aid Network To Help Migrants; Pact to 
Tackle Unpaid Wages and Injuries,'' South China Morning Post, 5 July 
2007.
    \154\ Josephine Ma, ``Pension Plan for Migrant Workers,'' South 
China Morning Post, 12 June 07.
    \155\ ``Extending Old-age Insurance Coverage in the People's 
Republic of China,'' International Labor Organization (Online), January 
06, 29.
    \156\ ILO Convention (No. 138) concerning Minimum Age for Admission 
to Employment, 26 June 73; ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, 17 June 99.
    \157\ PRC Labor Law, enacted 5 July 94, art. 15. See also Law on 
the Protection of Minors, issued 4 September 91, art. 28. See generally 
Provisions on Prohibiting the Use of Child Labor [Jinzhi shiyong 
tonggong guiding], issued 1 October 02.
    \158\ Provisions on Prohibiting the Use of Child Labor, art. 6.
    \159\ This provision was added into the fourth amendment to the 
Criminal Law in 2002. Fourth Amendment to the Criminal Law of the 
People's Republic of China [Zhonghua renmin gonghe guo xingfa xiuzheng 
an (si)], issued 28 December 02. See also PRC Criminal Law, enacted 1 
July 79, amended 14 March 97, 25 December 99, 31 August 01, 29 December 
01, 28 December 02, 28 February 05, 29 June 05, 29 June 06, art. 244.
    \160\ ``Small Hands: A Survey Report on Child Labour in China,'' 
China Labour Bulletin (Online), September 07, 3.
    \161\ Ibid., 8.
    \162\ Ibid., 15, 22, 25-32.
    \163\ For more information on this phenomenon, see Report of the 
Committee of Experts on the Application of Conventions and 
Recommendations Worst Forms of Child Labour Convention, 1999 (No. 182) 
China (ratification: 2002) Observation, CEACR 2006/77th Session, 
International Labor Organization (Online), 2006.
    \164\ See, e.g., ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour, art. 3, defining such labor to include forced or 
compulsory labor.
    \165\ See, e.g., ``Olympic Firm Admits Child Labour,'' BBC 
(Online), 13 June 07.
    \166\ For the government response to forced labor in brick kilns, 
including child labor, see, e.g., Zhang Pinghui, ``Crackdown on Slave 
Labour Nationwide--State Council Vows To End Enslavement,'' South China 
Morning Post (Online), 21 June 07.
    \167\ ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11.
    \168\ Provisions on Prohibiting the Use of Child Labor, art. 13.
    \169\ PRC Education Law, issued 18 March 95, art. 58.
    \170\ See generally ``Regulation on Nationwide Temporary Work-Study 
Labor for Secondary and Elementary Schools'' [Quanguo zhong xiaoxue 
qingongjianxue zanxing gongzuo tiaoli], issued 20 February 83.
    \171\ ILO Convention 138 permits vocational education for underage 
minors only where it is an ``integral part'' of a course of study or 
training course. ILO Convention 182 obligates Member States to 
eliminate the ``worst forms of child labor,'' including ``forced or 
compulsory labor.'' ILO Convention (No. 138) concerning Minimum Age for 
Admission to Employment; ILO Convention (No. 182) concerning the 
Prohibition and Immediate Action for the Elimination of the Worst Forms 
of Child Labour.
    \172\ Report of the Committee of Experts on the Application of 
Conventions and Recommendations Worst Forms of Child Labour Convention, 
International Labor Organization.
    \173\ ``Henan Teacher Recruits Underage Students for Work in 
Zhejiang Factory,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 8.
    \174\ ``Teachers Arrange for Underage `Interns' To Work at 
Guangdong Electronics Factory,'' CECC China Human Rights and Rule of 
Law Update, June 2006, 15.
    \175\ Howard W. French, ``Child Slave Labor Revelations Sweeping 
China,'' International Herald Tribune (Online), 15 June 07; He Huifeng, 
``I Thought There Was Nothing He Could Take From Me, So I Went'' South 
China Morning Post (Online), 15 June 07; Josephine Ma, ``Trafficker 
Admits To Selling 3,000 Labourers in Three Years,'' South China Morning 
Post (Online), 20 June 07; Zhang, ``Crackdown on Slave Labour 
Nationwide--State Council Vows To End Enslavement;'' Josephine Ma, 
``Illegal Kilns Used Over 50,000 Laborers,'' South China Morning Post 
(Online), 26 June 2007.
    \176\ Howard W. French, ``Child Slave Labor Revelations Sweeping 
China.''
    \177\ ``1,340 Rescued From Forced Labor,'' Xinhua (Online), 13 
August 07.
    \178\ ``Top Official Plays Down Scale of Kiln Slavery,'' South 
China Morning Post (Online), 14 August 07.
    \179\ Cited in Ting Shi, ``Officials Targeted in Slavery Scandal--
Public Anger Mounting at Coercion of Kiln Workers in Shanxi,'' South 
China Morning Post (Online), 18 June 07.
    \180\ Josephine Ma and Ng Tze-wei, ``Police Admit Failure To Stem 
Slavery--Henan Labour Abuses `Solved' Three Years Ago,'' South China 
Morning Post (Online), 20 June 07.
    \181\ Alice Yan, ``Brick Kiln Foreman Gets Death Penalty; 28 Others 
are Jailed,'' South China Morning Post (Online), 18 July 07; ``Death 
Sentence Over China Slave Scandal,'' Agence France-Presse, reprinted in 
Yahoo news, 17 July 07.
    \182\ ``Death Sentence Over China Slave Scandal,'' Agence France-
Presse.
    \183\ ``Top Official Plays Down Scale of Kiln Slavery,'' South 
China Morning Post.
    \184\ Ng Tze-wei, ``Lawyers' Group Calls for Anti-Slavery Law,'' 
South China Morning Post (Online), 10 July 07.
    \185\ CECC Staff Interviews.

    Notes to Section II--Freedom of Expression
    \1\ CECC, 2005 Annual Report, 11 October 05, 103. According to a 
2005 State Council Information Office White Paper: ``The Chinese 
government requires its subordinate departments at all levels to make 
public their administrative affairs as far as possible, so as to 
enhance the transparency of government work and guarantee the people's 
right to know, participate in and supervise the work of the 
government.'' State Council Information Office, White Paper on 
Political Democracy, 19 October 05.
    \2\ CECC, 2003 Annual Report, 2 October 03, 61-62.
    \3\ ``China Effectively Promotes Administrative Transparency,'' 
People's Daily (Online), 23 March 07.
    \4\ For example, the Web site for the State Environmental 
Protection Administration contains links to relevant policies, laws, 
and regulations, a daily report on air quality in major cities, and 
news stories on the environment. State Environmental Protection 
Administration of China (Online), visited on August 28, 2007.
    \5\ ``China's Media Announcement Work and Construction of Media 
Spokesperson System Makes New Progress'' [Zhongguo xinwen fabu gongzuo 
he xinwen fayanren zhidu jianshe qude xin fazhan], China.com.cn 
(Online), 22 January 07; ``Supreme People's Court and High Courts Have 
Already All Established News Spokespersons'' [Zhongguo zuigaofayuan he 
gaojifayuan yi quanbu jianli xinwen fayanren], Xinhua, reprinted in 
People's Daily (Online), 12 September 06.
    \6\ See, e.g., Regulation on the Handling of Public Health 
Emergencies [Tufa gonggong weisheng shijian yingji tiaoli], issued 9 
May 03, art. 45; Ching-Ching Ni, ``China Toughens Stance on 
Environmental Protection,'' Los Angeles Times (Online), 22 February 06; 
Elaine Kurtenbach, ``Environmental Agency Says Disasters Must Be 
Reported Within One Hour,'' Associated Press, reprinted in South China 
Morning Post (Online), 7 February 06.
    \7\ Regulation on the Handling of Public Health Emergencies, arts. 
19, 25.
    \8\ CECC, 2003 Annual Report, 37; CECC, 2006 Annual Report, 20 
September 06, 102.
    \9\ Regulation of the People's Republic of China on the Public 
Disclosure of Government Information [Zhonghua renmin gongheguo zhengfu 
xinxi gongkai tiaoli], issued 5 April 07, art. 1.
    \10\ Ibid., arts. 10, 11, 12.
    \11\ Ibid., arts. 13, 20, 21, 22, 23, 24.
    \12\ Measures on Environmental Information Disclosure (Trial) 
[Huanjing xinxi gongkai banfa (shixing)], issued 11 April 07.
    \13\ Regulation on Public Disclosure of Government Information, 
art. 14; Measures on Environmental Information Disclosure (Trial), art. 
12.
    \14\ See, e.g., Provisions on the Protection of Secrets in News 
Publishing [Xinwen chuban baomi guiding], issued 13 June 92, art. 14: 
``Anyone wishing to provide a foreign news publishing organization a 
report or publication with contents that relate to the nation's 
government, economy, diplomacy, technology or military shall first 
apply to this agency or their supervising organ or unit for examination 
and approval.'' See also PRC Law on the Protection of State Secrets 
[Zhonghua renmin gongheguo baoshou guojia mimi fa], issued 5 September 
88, art. 8; Measures for the Implementation of the Law on the 
Protection of State Secrets [Zhonghua renmin gongheguo baoshou guojia 
mimi fa shishi banfa], issued 25 April 90, art. 4; and Article 1 of the 
Explanation of Certain Issues Regarding the Specific Laws to be Used in 
Adjudicating Cases of Stealing or Spying to Obtain, or Illegally 
Supplying, State Secrets or Intelligence for Foreigners [Guanyu shenli 
wei jingwai qiequ, citan, shoumai, feifa tigong guojia mimi, qingbao 
anjian juti yingyong falu ruogan wenti de jieshi], issued 20 November 
00, which states: ``The term `intelligence' in Article 111 of the 
Criminal Law refers to items which involve the security and interests 
of the nation, but which are not public or which, according to relevant 
regulations, should not be made public.'' See also ``Secrets Protection 
Knowledge'' [Baomi zhishi], posted on the Administration for the 
Protection of State Secrets of Guangdong province Web site, which 
states: `` `Relating to the security and interests of the nation,' 
means that, if a secret matter were known by people who do not 
currently know it, it would result in various kinds of harm to the 
security and interests of the nation.'' In September 2003, the 
Guangzhou Daily published a warning to readers that everyone from 
Internet users to garbage collectors can run afoul of China's state 
secrets legislation. ``If a Nanny Can Disclose State Secrets, Then 
Average Citizens Should Raise Their Awareness of Preserving Secrets'' 
[Baomu jingran xielou guojia jimi baixing yexu tigao baomi yishi], 
People's Daily (Online), 5 September 03.
    \15\ Regulations on the Specific Scope of State Secrets in 
Environmental Protection Work, issued 28 December 04, art. 2; Human 
Rights in China (Online), ``State Secrets: China's Legal Labyrinth,'' 
June 2007, 174.
    \16\ Ye Doudou and Duan Hongqing, ``How Wide Is the Door to Chinese 
Governments' Information Disclosure,'' Caijing (Online), 2 May 07; 
``China Issues Landmark Decree To Encourage Gov't Transparency,'' 
Xinhua (Online), 24 April 07.
    \17\ Human Rights in China, ``State Secrets: China's Legal 
Labyrinth,'' 51.
    \18\ Committee to Protect Journalists (Online), ``Falling Short, As 
the 2008 Olympics Approach, China Falters on Press Freedom,'' August 
2007, 17; ``Shanghai Journalist Sues Municipal Authorities for Refusing 
Interviews'' [Caifang zao jujue shanghai jizhe qisu shi guihua ju xinxi 
bu gongkai], Xinhua (Online), 2 June 06.
    \19\ Ibid.
    \20\ PRC Emergency Response Law, enacted 30 August 07, art. 53.
    \21\ CECC, 2006 Annual Report, 20.
    \22\ ``China Adopts Emergency Response Law,'' People's Daily 
(Online), 30 August 07.
    \23\ PRC Emergency Response Law, art. 54.
    \24\ Ibid., art. 65.
    \25\ The South China Morning Post quoted one Shanghai journalist as 
saying, ``Who gets to define what false information is? It's still up 
to the government. They can still do whatever they want. As long as the 
system stays the same, I can't imagine any major improvement.'' Ting 
Shi, ``Journalists Welcome Revision of Rules on Reporting 
Emergencies,'' South China Morning Post (Online), 26 June 07.
    \26\ ``Li Changqing Gets Three Years Imprisonment for Reporting 
Disease Outbreak,'' CECC Human Rights and Rule of Law Update, February 
2006, 15-16.
    \27\ PRC Public Security Administration Punishment Law, enacted 28 
August 05, art. 25. See, e.g., Yan Lieshan, ``Xin Yanhua's Luck and the 
Bad Fortune of the Three Xinyi Netizens'' [Xin Yanhua de jiaoxing he 
xinyi sanwangmin de buxing], Southern Metropolitan Daily (Online), 12 
July 07; and Zhan Jiang, ``Selectively Taking Citizens' Text Messages 
Out of Context Violates Freedom of Communication'' [Suiyi jiequ gongmin 
duanxin qinfan tongxin ziyou], Southern Daily (Online), 27 July 07.
    \28\ Yu Wei, ``Accused of Spreading Rumors While Participating in 
Discussion Over Rainstorm, 23 Year Old Female Jinan Internet User Who 
Posted Is Detained'' [Canyu bayou taolun bei zhi sanbu yaoyan jinan 23 
sui nuwangyou gentie bei ju], Southern Metropolitan Daily (Online), 25 
July 07.
    \29\ CECC, 2003 Annual Report, 64.
    \30\ Supreme People's Court Several Opinions on Strengthening Open 
Adjudication Work of the People's Courts [Zui gao renmin fayuan guanyu 
jiaqiang renmin fayuan shenpan gongkai gongzuo de ruogan yijian], 
issued 4 June 07, arts. 5, 15.
    \31\ Ibid., art. 22.
    \32\ Ibid., art. 3.
    \33\ ``Supreme People's Court Clarifies `Restricted Area' for 
People's Court News Publishing Work'' [Zuigaofayuan minque renminfayuan 
xinwen fabu gongzuo ``jinqu''], Xinhua (Online), 13 September 06. For a 
discussion of the competing roles that the media and the courts play 
for the Party, and the media's influence over China's courts and legal 
development, see Benjamin L. Liebman, ``Watchdog or Demagogue? The 
Media in the Chinese Legal System,'' 105 Colum. L. Rev. 1, 7 (2005).
    \34\ International Covenant on Civil and Political Rights, adopted 
by General Assembly resolution 2200A(XXI) of 16 December 66, entry into 
force 23 March 76 [hereinafter ICCPR]. China has signed, but has not 
yet ratified, the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR, 
and reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly.
    Article 19 of the ICCPR states: ``1. Everyone shall have the right 
to hold opinions without interference. 2. Everyone shall have the right 
to freedom of expression; this right shall include freedom to seek, 
receive and impart information and ideas of all kinds, regardless of 
frontiers, either orally, in writing or in print, in the form of art, 
or through any other media of his choice.''
    \35\ Universal Declaration of Human Rights, adopted and proclaimed 
by General Assembly resolution 217A(III) of 10 December 48 [hereinafter 
UDHR]. Article 19 of the UDHR states: ``Everyone has the right to 
freedom of opinion and expression; this right includes freedom to hold 
opinions without interference and to seek, receive and impart 
information and ideas through any media and regardless of frontiers.''
    \36\ PRC Constitution, art. 35. Article 35 of China's Constitution 
states: ``Citizens of the People's Republic of China enjoy freedom of 
speech, of the press, of assembly, of association, of procession and of 
demonstration.''
    \37\ This language is found in Article 19 of the ICCPR. Article 29 
of the UDHR states the following: ``everyone shall be subject only to 
such limitations as are determined by law solely for the purpose of 
securing due recognition and respect for the rights and freedoms of 
others and of meeting the just requirements of morality, public order 
and the general welfare in a democratic society.''
    \38\ Ashley Esarey, ``Speak No Evil, Mass Media Controls in 
Contemporary China,'' Freedom House, February 2006, 3-4.
    \39\ Article 11(2) of the Regulations on the Administration of 
Publishing states that publishing work units must have a sponsoring 
work unit and a managing work unit recognized by the State Council's 
publishing administration agency. The ``sponsoring work unit'' must be 
a government agency of a relatively high level, and the publishing work 
unit must answer to its sponsoring work unit and managing work unit. 
Circular Regarding Issuance of the ``Temporary Provisions on the 
Functions of the Sponsoring Work Unit and the Managing Work Unit for 
Publishing Work Units'' [Guanyu fabu ``Guanyu chuban danwei de zhuban 
danwei he zhuguan danwei zhize de zanxing guiding'' de tongzhi], issued 
29 June 93, arts. 5-6; Regulations on the Administration of Publishing 
[Chuban guanli tiaoli], issued 25 December 01, art. 11(2).
    \40\ Measures for the Administration of Journalist Accreditation 
Cards [Xinwen jizhezheng guanli banfa], issued 10 January 05; Measures 
for the Administration of News Bureaus [Baoshejizhezhan guanli banfa], 
issued 10 January 05; Interim Provisions for the Administration of 
Those Employed as News Reporters and Editors [Guanyu xinwen caibian 
renyuan congye guanli de guiding (shixing)], issued 22 March 05; 
Interim Implementation Rules for the Administration of Those Employed 
as Radio and Television News Reporters and Editors [Guangdianzongju 
yinfa ``guangbo yingshi xinwen caipian renyuan congye guanli de shishi 
fangan (shixing) de tongzhi''], issued 1 April 05. GAPP has used its 
licensing authority to punish journalists for their reporting. In 
September 2006, GAPP revoked the license of Zan Aizong, a journalist 
who was detained for one week in August 2006 after he posted reports on 
foreign Web sites about detentions of Protestants who were protesting 
the destruction of a church in Xiaoshan city, Nanjing province. 
``September 17-21, 2006'' [2006 nian 9 yue 17 ri -- 9 yue 21 ri], 
Mediainchina.org.cn, 27 September 06. In March 2007, police in the city 
of Nanjing reportedly harassed a reporter for the U.S.-based news Web 
site Boxun, accusing him of working for an illegal news outlet and 
failing to have a journalist license. Committee to Protect Journalists 
(Online), ``China Reporter Arrested Following Months of Police 
Harassment,'' 4 June 07.
    \41\ Liebman, ``Watchdog or Demagogue?,'' 18-20.
    \42\ CECC, 2004 Annual Report, 5 October 04, 47; CECC, 2005 Annual 
Report, 56-57.
    \43\ Provisions on the Protection of Secrets in News Publishing. 
For example, in April 2003, two editors at the Xinhua news agency were 
fired for publishing a news report about SARS that had been classified 
as secret. ``Two Chinese Editors Sacked over Confidential SARS 
Document,'' South China Morning Post, 29 April 2003.
    \44\ Committee to Protect Journalists, ``Falling Short,'' 25.
    \45\ See, e.g., CECC, 2004 Annual Report, 48; and Andrew Batson, 
Geoffrey Fowler, and Juying Qin, ``China Magazine Is Pulled,'' Wall 
Street Journal (Online), 9 March 07.
    \46\ CECC, 2004 Annual Report, 47; CECC, 2005 Annual Report, 56-57.
    \47\ ``Hu Jintao Delivers Important Remarks at National Meeting of 
Propaganda Department Directors'' [Hu Jintao zai quanguo xuanchuan 
buzhang huiyi shang fabiao zhongyao jianghua], Xinhua (Online), 12 
January 01.
    \48\ ``Party Uses Journalists, Artists, Academics To Promote 
`Harmonious Society','' CECC China Human Rights and Rule of Law Update, 
December 2006, 10. Following the plenum, top officials such as Li 
Changchun, a Politburo member, and Liu Yunshan, a top Party official 
and Director of the Central Propaganda Department, told journalists 
that their ``foremost duty is to study, publicize, and carry out'' the 
spirit of the sixth plenum and the important statements of President Hu 
to unify the thoughts of the whole party and the whole nation, and to 
be ``loyal to the Party's news work and protect the interests of the 
Party and the people.'' The duty of journalists to be caretakers of the 
Party's ideology is also embodied in formal regulations. See, e.g., the 
Interim Provisions on the Administration of Those Employed as News 
Reporters and Editors issued jointly by the General Administration of 
Press and Publication, the Central Propaganda Department, and the State 
Administration of Radio, Film and Television in 2005, which provides 
that reporters and editors must be ``guided by Marxism, Leninism, Mao 
Zedong Thought, Deng Xiaoping Theory, and the important ideology of the 
`Three Represents', support the leadership of the Chinese Communist 
Party, and support the socialist system'' and ``protect the interest of 
the Party and the government.'' Interim Provisions on the 
Administration of Those Employed as News Reporters and Editors, art. 1. 
One Chinese court has recently held that for purposes of China's 
criminal law, journalists at state-owned newspapers are state 
functionaries. ``Former China Business Times Reporter Meng Huaihu Final 
Sentence of 12 Years for Extortion'' [Zhonghua gongshang shibao jizhe 
Meng Huaihu zhongshen yi shouhui zui panxing 12 nian], Xinhua (Online), 
19 April 07.
    \49\ ``Liu Yunshan: Begin Contruction of a Good Ideological and 
Public Opinion Atmosphere for the 17th Party Congress'' [Liu Yunshan: 
wei shiqi da yingzao lianghao sixiang yulun qifen], Xinhua (Online), 9 
July 07; ``Perform Well News Publishing Work, To Create a Positive 
Cultural Environment for the 17th Party Congress'' [Zuohao xinwen 
chuban gongzuo wei shiqi da zhaokai yingzao lianghao wenhua huanjing], 
Xinhua (Online), 16 July 07; Edward Cody, ``Broadcast Media in China 
Put On Notice,'' Washington Post (Online), 27 February 07; Cary Huang, 
``Party Introduces New Censorship Rule,'' South China Morning Post 
(Online), 16 January 07.
    \50\ ``China To Show Only `Ethically Inspiring TV Series' in Prime 
Time From Next Month,'' People's Daily (Online), 22 January 07.
    \51\ Gordon Fairclough, ``Finally Rescued, China's `Slaves' Detail 
Their Plight,'' Wall Street Journal (Online), 19 June 07; ``1,340 
Rescued from Forced Labor,'' Xinhua (Online), 13 August 07.
    \52\ Cary Huang, ``Magazine Censured for Political `Defiance','' 
South China Morning Post (Online), 30 November 06. After further 
investigation, propaganda officials docked the magazine six points 
under a 12-point punishment system imposed in January 2007 (12 points 
meaning closure of the magazine) and issued a serious internal warning 
to the executive editor. Cary Huang, ``Editor and Magazine Disciplined 
by Party,'' South China Morning Post (Online), 26 April 07.
    \53\ Kristine Kwok, ``Two Newspaper Staff Suspended for `June 4' 
Advert,'' South China Morning Post (Online), 8 June 07.
    \54\ Batson, Fowler, and Qin, ``China Magazine Is Pulled.''
    \55\ CECC, 2006 Annual Report, 102.
    \56\ ``Shanghai's Top Leader Removed Over Scandal Involving Alleged 
Misuse of City Pension Funds,'' Associated Press (Online), 25 September 
06; James T. Areddy, ``China Warns of Broader Corruption Probe,'' Wall 
Street Journal (Online), 27 September 06.
    \57\ ``Media Told To Downplay Demise of Party Boss,'' South China 
Morning Post (Online), 27 September 06.
    \58\ ``Shanghai City Government Press Conferences Come Back Online, 
No Mention of Chen Liangyu'' [Shanghai shi zhengfu xinwen fabuhui 
chongxin dengchang bu ti Chen Liangyu], Boxun (Online), 4 November 06.
    \59\ Keith Bradsher, ``China Tells Little About Illness That Kills 
Pigs, Officials Say,'' New York Times (Online), 8 May 07.
    \60\ Ibid.
    \61\ Richard McGregor, ``750,000 A Year Killed by Chinese 
Pollution,'' Financial Times (Online), 2 July 07. The article also said 
that the World Bank removed a map showing the areas with the most 
deaths because it was too sensitive.
    \62\ Ibid.
    \63\ ``China Denies Requiring WB to Delete Environmental Data from 
Report,'' Xinhua, reprinted in People's Daily (Online), 5 July 07.
    \64\ ``Censors Clamp Down on Food Safety Reports,'' South China 
Morning Post (Online), 31 July 07.
    \65\ For example, in March 2007, State Council Information Office 
(SCIO) Director Cai Wu said that ``leaders should not be afraid of 
reporters.'' ``Cai Wu: Some Leaders Fear Facing Reporters Because They 
Worry They Will Lose Their Official Posts'' [Cai Wu: moxie lingdao pa 
jian jizhe shi danxin diudiao ziji de wushamao], Chinanews.com, 9 March 
07. In January 2007, SCIO's vice-minister, speaking about foreign 
journalists, said that the Chinese government was moving away from its 
practice of ``managing the media'' and was preparing to ``serve'' and 
not shy away from reporters. ``China Gov'ts `Serve Media, Not Manage 
Them,' '' China Daily (Online), 4 January 07.
    \66\ ``Official: Transparency Key to Public Faith,'' China Daily 
(Online), 29 July 07.
    \67\ ``Anhui Requires Journalists To Write `Positive' Reports for 
Promotion,'' CECC China Human Rights and Rule of Law Update, December 
2006, 18-19
    \68\ ``Linking Professional Evaluations to Positive Reporting Is 
Absurd'' [Zhicheng pingding yu zhengmian baodao guagou tai huangtang], 
Southern Metropolitan Daily (Online), 27 October 06.
    \69\ ``Anhui Requires Journalists To Write `Positive' Reports for 
Promotion,'' CECC China Human Rights and Rule of Law Update, December 
2006, 18-19
    \70\ In 2001, when the Chinese government was bidding to host the 
2008 Summer Olympic Games, Wang Wei, then the Secretary-General of the 
Beijing Bid Committee, said that the government would give the news 
media ``complete freedom'' to report on China and that the guarantee 
had been made in China's bid documents. ``Journalists To Write Whatever 
They Like if Beijing Holds 2008 Games,'' China Daily (Online), 12 July 
01.
    \71\ Regulations on Reporting Activities in China by Foreign 
Journalists During the Beijing Olympic Games and the Preparatory Period 
[Beijing auyunhui ji qi choubei qijian waiguo jizhe zai hua caifang 
guiding], issued 1 December 06.
    \72\ The regulations expire one month after Beijing hosts the 13th 
Paralympic Games. The Paralympic Games follow the 2008 Summer Olympics 
Games, which run from August 8 to August 24, 2008. ``Paralympic Games 
Schedules Set,'' China Daily (Online), 22 May 06.
    \73\ In a survey of 163 journalists conducted by the Foreign 
Correspondents Club of China and released in August 2007, 43 percent of 
the respondents said that China's reporting environment had improved, 
although 95 percent said reporting conditions still did not meet what 
they considered to be international standards. Respondents reported 157 
incidents of interference, including 57 instances of intimidation of 
local citizens who spoke with foreign reporters. Foreign Correspondents 
Club of China, ``Foreign Correspondents: China Yet To Fulfill Olympic 
Pledge of Free Media Coverage, Harassment Still Common,'' 1 August 07. 
A report by Human Rights Watch also found that government and state 
security officials, as well as unidentifiable thugs, were harassing, 
intimidating, and detaining foreign journalists, but that some foreign 
reporters also said that the new rules ``significantly widened access 
to sources and topics previously taboo, such as access to certain 
prominent political dissidents and to villages with public health 
emergencies.'' Human Rights Watch (Online), ``Beijing 2008 China's 
Olympian Human Rights Challenges,'' 10 August 07.
    \74\ Foreign Correspondents Club of China, ``China Yet To Fulfill 
Olympic Pledge of Free Media Coverage.''
    \75\ Ibid. In May 2007, a foreign ministry official reportedly 
summoned two foreign journalists to the ministry to reprimand them for 
stories they had written about the TAR. Reporters Without Borders 
(Online), ``Two Foreign Reporters Summoned and Warned About Tibet 
Stories,'' 25 May 07. The new regulations do not contain any exception 
or carve-out for Tibet or any other region of China. Foreign ministry 
officials, however, have indicated orally that existing regulations 
applicable to Tibet, such as special permit requirements, remain in 
effect. In a February 13, 2007, press conference Foreign Ministry 
Spokeswoman Jiang Yu said the following about the new rule's 
applicability to Tibet: ``The new Regulations should be abided by 
generally when foreign journalists conduct reporting activities in 
Tibet and elsewhere. In the meantime, due to restraints in natural 
conditions and reception capabilities, Tibetan local authorities have 
some regulations for foreigners' access there, which should be abided 
by. Please contact the local foreign affairs office for conducting 
reporting activities in Tibet.'' Ministry of Foreign Affairs (Online), 
``Foreign Ministry Spokeswoman Jiang Yu's Regular Press Conference on 
13 February 2007,'' 14 February 07 (English translation); Ministry of 
Foreign Affairs (Online), ``Foreign Ministry Spokeswoman Jiang Yu's 
Regular Press Conference on 13 February 2007'' [2007 nian 2 yue 13 ri 
waijiaobu fayanren Jiang Yu juxing liexing jizhehui], 13 February 07 
(Chinese).
    \76\ Human Rights Watch, ``Beijing 2008 China's Olympian Human 
Rights Challenges.''
    \77\ In March 2007, local officials in Hunan province detained two 
BBC journalists covering a riot, telling them the rules apply only to 
Olympics coverage. Reporters Without Borders (Online), ``Disturbing 
Lapses in Application of New Rules for Foreign Media,'' 22 March 07. 
Foreign ministry and State Council officials have publicly stated that 
the rules cover not only the Olympics but also politics, economy, 
society, and culture in China. ``Journalists Promised Wide Access in 
2008,'' China Daily (Online), 2 December 06; ``Foreign Journalists 
`Welcome in China','' China Daily (Online), 29 December 06. The 
``Service Guide for Overseas Media Coverage of the Beijing Olympic 
Games and the Preparatory Period'' issued by the Beijing Organizing 
Committee for the Games of the XXIX Olympiad state that under the rules 
``[f]oreign journalists can carry out reporting activities not only on 
the Beijing Olympic Games and the preparatory period, but also on 
politics, economy, society, and culture of China.'' Beijing Organizing 
Committee for the Games of the XXIX Olympiad, ``Service Guide for 
Overseas Media Coverage of the Beijing Olympic Games and the 
Preparatory Period,'' 3.
    \78\ Christopher Bodeen, ``China Media Seen as Corrupt, But Experts 
Blame Communist Controls for Skewing System,'' Associated Press 
(Online), 31 January 07.
    \79\ ``Fraudster Who Impersonated People's Daily Deputy Editor-in-
Chief Liu Yonghong Sentenced to Life'' [Maochong renmin ribao fu 
zongbianji zha pian zhe Liu Yonghong bei pan wuqi tuxing], People's 
Daily (Online), 9 May 07.
    \80\ Edward Cody, ``Blackmailing By Journalists in China Seen as 
`Frequent','' Washington Post (Online), 25 January 07; Winny Wang, 
``China To Improve Supervision of Reporters,'' Shanghai Daily (Online), 
9 July 07.
    \81\ The Commission noted in its 2004 Annual Report that the media 
in China often focus on the ethical problems within its own industry. 
CECC, 2004 Annual Report, 48.
    \82\ Notice Regarding Further Improving Standards for Supervision 
of Press Journalist's Stations [Guanyu jin yibu guifan baoshe jizhezhan 
guanli de tongzhi], issued 18 March 07.
    \83\ ``China Targets `False News' Ahead of Party's Congress,'' 
Associated Press (Online), 16 August 07; ``Special National Operation 
Launched To Resolutely Rid News Publishing of the `Four Dangers''' 
[Quanguo kaizhan zhuanxiang xingdong jianjue qingchu xinwen chuban ``si 
hai''], People's Daily (Online), 15 August 07.
    \84\ ``Hu Jintao: Increase the Building and Administration of 
Internet Culture with a Spirit of Innovation'' [Hu Jintao: yi chuangxin 
de jingshen jiqiang wangluo wenhua jianshe he guanli], Xinhua (Online), 
24 January 07; ``Hu Asks Officials To Better Cope With Internet,'' 
Xinhua (Online), 24 January 07.
    \85\ China Internet Network Information Center, 20th Statistical 
Survey on Internet Development in China, 18 July 07.
    \86\ ``Infocom Is `Vital' for China,'' Xinhua (Online), 27 April 
07.
    \87\ China Internet Network Information Center, 11th Statistical 
Survey on Internet Development in China, 15 January 03; China Internet 
Network Information Center, 20th Statistical Survey.
    \88\ ``China's Internet Conundrum,'' Podcast with Tim Wu, CNET 
News.com (Online), 1 June 07.
    \89\ ``Hu Jintao: Increase the Building and Administration of 
Internet Culture with a Spirit of Innovation,'' Xinhua. In his January 
2007 speech, President Hu Jintao also said it was important to 
``strengthen the battlefield position over ideology and public opinion 
on the Internet.''
    \90\ ``Build Up An Online Culture, Solidify Our Position Online'' 
[Jianshe wangluo wenhua gonggu wangshang zhendi], Guangming Daily, 
reprinted in Xinhua (Online), 19 June 07.
    \91\ This language is found in Article 19 of the ICCPR. Article 29 
of the UDHR states the following: ``everyone shall be subject only to 
such limitations as are determined by law solely for the purpose of 
securing due recognition and respect for the rights and freedoms of 
others and of meeting the just requirements of morality, public order 
and the general welfare in a democratic society.''
    \92\ Ariana Eunjung Cha, ``In China, Stern Treatment for Young 
Internet `Addicts','' Washington Post (Online), 22 February 07; ``New 
Measures Come Out: Excessive Senders of Junk Mail To Be Recorded on 
`Black List''' [Xin cuoshi chutai lanfa lese youjian jiang jiru ``hei 
mingdan''], Xinhua (Online), 1 March 06; ``Authorities Crack Down on 
Internet Porn,'' Agence France-Press, reprinted in South China Morning 
Post (Online), 15 August 07; ``China's News Websites Vow To Clean Up 
the Internet,'' Xinhua, reprinted in China Daily (Online), 18 May 07.
    \93\ All commercial Web sites must obtain a government license. 
Measures for the Administration of Internet Information Services 
[Hulianwang xinxi fuwu guanli banfa], issued 20 September 00. All non-
commercial Web site operators must register. Registration 
Administration Measures for Non-Commercial Internet Information 
Services [Fei jingyingxing hulianwang xinxi fuwu bei'an guanli banfa], 
issued 28 January 05. Because the MII's registration system gives the 
government discretion to reject an application based on content (i.e., 
whether the Web site operator intends to post ``news,'' and if so, 
whether it is authorized to do so), it is qualitatively different from 
registration which all Web site operators must undertake with a domain 
registrar, and constitutes a de facto licensing scheme.
    \94\ Peter Ford, ``Why China Shut Down 18,401 Websites,'' Christian 
Science Monitor (Online), 25 September 07; ``MII Reports China's 
Government Has Met its Goals in Private Web Site Crackdown,'' CECC 
Human Rights and Rule of Law Update, September 2005, 5; ``Ministry of 
Information Industry: Web Sites That Fail to Register May Be Shut 
Down,'' CECC Human Rights and Rule of Law Update, June 2005, 3.
    \95\ Ford, ``Why China Shut Down 18,401 Websites.''
    \96\ ``Government Shuts Down Web Site; China Scholars and Activists 
Respond,'' CECC China Human Rights and Rule of Law Update, September 
2006, 12-13; ``Government Agencies Issue New Regulations Restricting 
News Reporting on the Internet,'' CECC China Human Rights and Rule of 
Law Update, November 2005, 4; Provisions on the Administration of 
Internet News Information Services [Hulianwang xinwen xinxi fuwu guanli 
guiding], issued 25 September 05.
    \97\ OpenNet Initiative (Online), ``OpenNet Initiative: Bulletin 
011-Analysis of China's Non-Commercial Web Site Registration 
Regulation,'' 22 February 06. The Opennet Initiative comprises 
researchers at the Citizen Lab at the Munk Centre for International 
Studies, University of Toronto, Berkman Center for Internet & Society 
at Harvard Law School, the Advanced Network Research Group at the 
Cambridge Security Programme, University of Cambridge, and the Oxford 
Internet Institute, Oxford University.
    \98\ ``GAPP Drafts Supervision Regulation, Celebrity Magazines To 
Be Supervised'' [Xinwen chuban zongshu ni qicao guanli tiaoli mingren 
zazhi jiang shou jianguan], Shanghai Youth Daily, reprinted in Xinhua 
(Online), 23 April 07.
    \99\ OpenNet Initiative (Online), ``Internet Filtering in China in 
2004-2005: A Country Study,'' 14 April 05; China Internet Network 
Information Center, 20th Statistical Survey.
    \100\ Steven Schwankert, ``English Wikipedia Unblocked in China,'' 
IDG News Service (Online), 18 June 07; Simon Burns, ``Wikipedia Partly 
Unblocked in China,'' VNUnet (Online), 18 June 07.
    \101\ Juan Carlos Perez, ``Flickr Investigates Blocking of Images 
in China,'' IDG News Service (Online), 11 June 07.
    \102\ ``Clean Up Cyberspace,'' China Daily, reprinted in Xinhua 
(Online), 19 April 07.
    \103\ ``China's Law Enforcement Internet Database Set for 
Completion This Year,'' Xinhua, reprinted in People's Daily (Online), 
28 May 07.
    \104\ Ibid.
    \105\ CECC, 2006 Annual Report, 35.
    \106\ Measures for the Administration of Internet Information 
Services, arts. 14, 15, 16.
    \107\ ``Lawyer Pu Zhiqiang Sees 2 Blogs Closed Within 10 Days'' 
[Lushi Pu Zhiqiang shi tian nei liangge boke bei guan], Radio Free Asia 
(Online), 21 February 07.
    \108\ Regulations on the Administration of Business Sites of 
Internet Access Services [Hulianwang shangwang fuwu yingye changsuo 
guanli tiaoli], issued 29 September 02, arts. 19, 23; China Internet 
Network Information Center, 20th Statistical Survey.
    \109\ Bloggers are never truly anonymous because they can be traced 
back to an IP address. Jason Leow, ``Why China Relaxed Blogger 
Crackdown, Registration Plan Was Dropped In Face of Tech-Industry 
Protests,'' Wall Street Journal (Online), 17 May 07.
    \110\ See, e.g., ``Real Name Registration in Full Bloom, `Lilac' 
Withers and Falls: To Post on Harbin Institute of Technology's BBS 
Requires Information About Full Name and School Department'' 
[Shimingzhi shengkai zidingxiang diaoxie hagongda BBS fatie xuyao 
xingming he yuanxi xinxi], Southern Metropolitan Daily, 13 July 07.
    \111\ Jason Leow, ``China Eases Real-Name Blog Effort,'' Wall 
Street Journal (Online), 23 May 07.
    \112\ The Internet in China-A Tool of Freedom or Suppression?, 
Joint Hearing of the Subcommittee on Africa, Global Human Rights, and 
International Operations, and the Subcommittee on Asia and the Pacific, 
Committee on International Relations, U.S. House of Representatives, 15 
February 06, Testimony of Michael Callahan, Senior Vice President and 
General Counsel, Yahoo! Inc.; ``Congressional Committee to Investigate 
Disparity Between Documents and Hearing Testimony by Yahoo!,'' House 
Foreign Affairs Committee (Online), 3 August 07.
    \113\ Internet Society of China (Online), ``Internet Society of 
China Formally Issues `Blogging Services Self-Discipline Pledge' To 
Promote Orderly Development of Blogging Services'' [Zhongguo hulianwang 
xiehui zhengshi fabu ``boke fuwu zilu gongyue,'' cujin boke fuwu youxu 
fazhan], 21 August 07.
    \114\ Reporters Without Borders (Online), ``Yahoo! and MSN Comment 
on `Self-Disciplinary Pledge','' 28 August 07.
    \115\ PRC Criminal Law, enacted 1 July 79, amended 14 March 97, 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, art. 105.
    \116\ UN Working Group on Arbitrary Detention, Report of the 
Working Group on Arbitrary Detention, Mission to China, Addendum, 29 
December 04, para. 78.
    \117\ ``Authorities Sentence Guo Qizhen to Four Years in Prison for 
Online Essays,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 5-6.
    \118\ ``Shandong Court Sentences Internet Essayist Li Jianping to 
Two Years' Imprisonment,'' CECC Human Rights and Rule of Law Update, 
December 2006, 12-13.
    \119\ ``Well-Known Online Article Writer Zhang Jianhong Sentenced 
for Inciting Subversion of State Power'' [Wangshang zhuanwen da Zhang 
Jianhong shandong dianfu guojia zhengquan an xuanpan], Xinhua, 
reprinted in Phoenix Television (Online), 20 March 07.
    \120\ Independent Chinese Pen Center (Online), ``ICPC Statement 
Regarding Protest of Member Yan Zhengxue's Sentence'' [Duli zhongwen 
bihui guanyu huiyuan Yan Zhengxue bei panxin de kangyi shengming],'' 19 
April 07.
    \121\ ``China Jails Internet Writer for Subversion, Disbars 
Lawyer,'' Reuters (Online), 16 August 07.
    \122\ Independent Chinese Pen Center, ``ICPC Statement Regarding 
Protest of Member Yan Zhengxue's Sentence''; ``Overseas Service Center 
of Chinese Democracy Party Calls for Attention to Case of China 
Democracy Party's Chen Shuqing and Li Hong (Zhang Jianghong)'' 
[Zhongguo minzhu dang haiwai fuwu zhongxin huyu guanzhu Chen Shuqing, 
Li Hong (Zhang Jianhong) zhongguo minzhu dang yi an], Radio Free Asia 
(Online), 19 September 06.
    \123\ Gao Shan, ``Zhejiang China Democracy Party Member Chi Jianwei 
Sentenced to 3 Years in Prison'' [Zhejiang sheng zhongguo minzhu dang 
chengyuan chi jianwei bei pan xing 3 nian tuxing], Radio Free Asia 
(Online), 27 March 07.
    \124\ Chinese Human Rights Defenders (Online), ``Pro-Democracy 
Activist Detained for `Inciting Subversion' Government Must End 
Criminalization of Free Speech,'' 25 August 07.
    \125\ ``Lawyer for Journalists and Cyber-Dissidents Loses 
License,'' Reporters Without Borders (Online), 6 August 07.
    \126\ ``Authorities Arrest and Imprison Writers for Online Essays 
Criticizing Government,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 4-5.
    \127\ Chinese Human Rights Defenders (Online), ``Yang Chunlin 
Accused of `Subversion Against the State Power','' 4 September 07; 
``Refused Meeting With Lawyer, Yang Chunlin's Sister Reveals Police 
Intimidation'' [Ju lushi huijian Yang Chunlin mei jie jingfang konghe], 
Epoch Times, 17 September 07.
    \128\ See, e.g., ``Authorities Sentence Guo Qizhen to Four Years in 
Prison for Online Essays,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 5-6 and ``Shandong Court Sentences Internet 
Essayist Li Jianping to Two Years' Imprisonment,'' CECC Human Rights 
and Rule of Law Update, December 2006, 12-13.
    \129\ China Information Center (Online), ``Administrative Penalty 
Decision for Zhang Jianping'' [Xingzheng chufa jueding shu], 17 April 
07. In punishing Zhang, officials relied on the Measures for the 
Administration of Security Protection of Computer Information Networks 
with International Interconnections, which prohibit individuals from 
using the Internet to look up ``information that incites the subversion 
of state power and the overthrow of the socialist political system.'' 
Measures for the Administration of Security Protection of Computer 
Information Networks with International Interconnections [Jisuanji 
xinxi wangluo guoji lianwang anquan baohu guanli banfa], 11 December 
97. Zhang filed an administrative appeal with the Changzhou PSB. The 
PSB denied the appeal on June 6 and noted that there was evidence that 
Zhang had browsed certain hostile foreign Web sites, and used 
censorship circumvention tactics. ``Changzhou Public Security 
Administrative Reconsideration Decision Calls Tianwang A Hostile 
Foreign Web Site'' [Changzhou gongan xingzheng fuyi cheng tianwang 
jingwai didui wangzhan], 64tianwang.com, 6 June 07.
    \130\ Xiao Qiang, ``China Censors Internet Users With Site Bans, 
Cartoon Cop Spies,'' San Francisco Chronicle (Online), 23 September 07.
    \131\ China Internet Network Information Center, 20th Statistical 
Survey.
    \132\ ``China Eases Off Proposal for Real-Name Registration,'' 
Xinhua (Online), 22 May 07.
    \133\ Access to Information in the People's Republic of China, 
Hearing of the U.S.-China Economic and Security Review Commission, 31 
July 07, Written Statement Submitted by Ashley Esarey, Luce Fellow of 
Asian Studies and Assistant Professor of Comparative Politics, 
Middlebury College.
    \134\ Edward Cody, ``China's Muckrakers for Hire Deliver Exposes 
With Impact,'' Washington Post (Online), 2 May 07; Edward Cody, ``Text 
Messages Giving Voice to Chinese,'' Washington Post (Online), 28 June 
07. Because they post on the Internet, however, such journalists are 
still subject to China's censorship of that medium.
    \135\ Clay Chandler, ``Is China Emerging from a Media Ice Age,'' 
Fortune (Online), 1 June 07.
    \136\ ``500 Mln Cellphone Users Mark China's 20th Anniversary of 
Mobile,'' Xinhua, reprinted in People's Daily (Online), 20 July 07.
    \137\ China Mobile Limited (Online), visited on September 27, 2007.
    \138\ Mitchell Landsberg, ``Chinese Activists Turn to Cellphones,'' 
Los Angeles Times (Online), 1 June 07.
    \139\ Louisa Lim, ``China To Censor Text Message,'' BBC (Online), 2 
July 04. Until recently, pre-paid phones could be purchased 
anonymously. In 2005, in an apparent move to curb fraud and spamming, 
mostly committed via text message, the government began to require real 
name registration of cell phones. ``China Cracking Down on Cell Phone 
Fraud, Spam,'' Reuters (Online), 28 December 05. This was aimed mostly 
at pre-paid phones, which in 2006 represented more than half of all 
mobile phones. It is unclear how widely enforced this requirement is.
    \140\ ``Xiamen Suspends Controversial Chemical Project,'' Xinhua 
(Online), 30 May 07.
    \141\ Ibid.
    \142\ Cody, ``Text Messages Giving Voice to Chinese.''
    \143\ Landsberg, ``Chinese Activists Turn to Cellphones.''
    \144\ Cody, ``Text Messages Giving Voice to Chinese.''
    \145\ ``Xiamen Suspends Controversial Chemical Project,'' Xinhua.
    \146\ Many around China followed the protests in real time through 
written reports and cell phone photos posted on blogs. Some sites were 
blocked but many of the reports had already been forwarded to other 
sites around China before censors could react. Cody, ``Text Messages 
Giving Voice to Chinese.''
    \147\ Zhu Hongjun, ``She Started the Storm Over the Shanxi Illegal 
Brick Kilns'' [Shanxi hei zhuanyao fengbao bei ta dianran], Southern 
Weekend (Online), 12 July 07.
    \148\ Fairclough, ``Finally Rescued, China's `Slaves' Detail Their 
Plight.''
    \149\ ``China's Internet Justice,'' Wall Street Journal (Online), 
21 June 07; Josephine Ma, ``Beijing's Damage Control Moves Behind the 
Scenes,'' South China Morning Post (Online), 10 July 07; Josephine Ma, 
``Top Official Plays Down Scale of Kiln Slavery,'' South China Morning 
Post (Online), 14 August 07.
    \150\ Howard French, ``In China, Fight Over Development Creates a 
Star,'' New York Times (Online), 26 March 07.
    \151\ ``Blogger Also Comes to Report on the `Awesome Nail House''' 
[Boke ye lai baodao ``zui niu dingzi hu''], Southern Metropolitan Daily 
(Online), 30 March 07.
    \152\ Ma, ``Beijing's Damage Control Moves Behind the Scenes''; 
Geoffrey York, ``The Coolest Nail House in History,'' Globe and Mail 
(Online), 29 March 07.
    \153\ ``Draft Xiamen Regulation of Online Forums Abolishes 
Anonymous Comment Function'' [Xiamen ni guiding luntan quxiao niming 
fatie gongneng], Taihai Wang, reprinted in Sina.com, 4 July 07.
    \154\ Regulations on the Administration of Publishing.
    \155\ Although no absolute international standard prescribes what 
constitutes freedom of the press, international human rights standards 
set forth a minimum prerequisite: no legal system can be said to 
respect freedom of the press if it subjects the print media to any 
prior restraint through a licensing scheme. In 2003, the UN Special 
Rapporteur on Freedom of Opinion and Expression, the Organization for 
Security and Cooperation in Europe (OSCE) Representative on Freedom of 
the Media, and the Organization of American States (OAS) Special 
Rapporteur on Freedom of Expression issued a joint declaration saying 
that licensing schemes are unnecessary and subject to abuse. The UN 
Human Rights Committee ruled in March 2000, that a licensing scheme in 
Belarus similar to China's violated Article 19 because the government 
of Belarus had failed to show how the licensing requirements were 
necessary to protect any of the legitimate purposes set forth in 
Article 19. The Commission has recommended in its annual reports that 
China eliminate this prior restraint on publishing.
    \156\ Notice Regarding Prohibiting the Transmission of Harmful 
Information and Further Regulating Publishing Order [Guanyu jinzhi 
zhuanbo youhai xinxi jinyibu guifan chuban zhixu de tongzhi], issued 5 
November 01: ``No one may establish an entity whose primary purpose is 
to transmit news information and engage in other news publishing 
activities without permission from the press and publication 
administration agency.''
    \157\ Circular Regarding Issuance of the ``Temporary Provisions on 
the Functions of the Sponsoring Work Unit and the Managing Work Unit 
for Publishing Work Units'', arts. 5-6; Regulations on the 
Administration of Publishing, art. 11(2).
    \158\ Regulations on the Administration of Publishing, art. 29.
    \159\ Guangdong Press and Publication Administration (Online), 
``Responsible Person at the General Administration of Press and 
Publication Book Office Reports on the Previous Year's National Book 
Publishing Administration Work'' [Zongshu tushusi fuzeren tongbao 
qunian quanguo tushuchuban guanli gongzuo], 24 February 05 (saying that 
authorities should use the opinions provided when screening the 
selection of topics to determine the distribution of book numbers, 
because this ``reduces the risks relating to orientation'').
    \160\ ``Wen Jiabao: Pushing Forward Political Reform, Strengthening 
People's Supervision of the Government'' [Wen Jiabao: tuijin zhengzhi 
tizhi gaige jiaqiang renmin zhengfu de jiandu], China Court Network 
(Online), 16 March 07. Premier Wen also said that more public 
supervision of the government was needed.
    \161\ ``China's TV Watchdog Vows To Fight Corruption in TV Drama 
Censorship,'' Xinhua, reprinted in People's Daily (Online), 21 June 07.
    \162\ The move was intended to improve the quality of talent and 
combat commercially driven ``talent shows,'' but it also increases the 
government's control over artists and entertainers. ``If You Want To Be 
a Music or Movie Star, You'll Need Certification'' [Yao dang gexing 
yingxing xu xian chi zheng shang gang], Beijing News (Online), 19 April 
07.
    \163\ Hebei Administration of Press and Publication (Online), 
``GAPP Director Long Xinmin Comes to Our Province To Inspect Guidance 
Work'' [Guojia xinwen chuban zongshu shuzhang Long Xinmin dao wo sheng 
diaoyan zhidao gongzuo], 15 October 06.
    \164\ ``Party Uses Journalists, Artists, Academics To Promote 
`Harmonious Society','' CECC China Human Rights and Rule of Law Update, 
December 2006, 10.
    \165\ ``Long Xinmin: Publish Large Volume of Outstanding 
Publications To Serve Readers and as Favor to Masses'' [Long Xinmin: 
chuban dapi youxiu chuban wu fuwu duzhe hui ji qunzhong], People's 
Daily (Online), 28 March 07.
    \166\ ``Public Security Organs Capture 590 Million Illegal 
Publications of All Kinds Over Five Years'' [Gongan jiguan 5 nian 
shoujiao gelei feifa chubanwu 5.9 yi jian], Xinhua (Online), 29 March 
07.
    \167\ ``100 Day Anti-Piracy Action: 368 Business Licenses 
Rescinded'' [Fan daoban bairi xingdong: 368 jia danwei jingying xuke 
zheng bei diaoxiao], People's Daily (Online), 17 September 06.
    \168\ Ibid. Li Baozhong, head of GAPP's Market Supervision 
Department, said that ``compared to pornographic publications, the harm 
from these kinds of illegal news and economic publications is even 
greater. Lawbreakers follow their own prerogatives to edit and publish 
these publications, severely deviating from the correct news 
orientation.'' General Administration on Press and Publication 
(Online), ``Illegal Periodical `China New Observer' Investigated and 
Prosecuted'' [Feifa qikan ``zhongguo xin guancha'' bei chachu], 8 May 
07.
    \169\ General Administration on Press and Publication (Online), 
``Nationwide `Sweep Away Pornography, Strike Down Illegal Publications' 
Method: Three Major Points to Implement, Maintaining High Posture'' 
[Quanguo ``saohuang dafei''ban: shishi san da zhongdian baochi gaoya 
taishi], 27 February 07.
    \170\ ``In the First 3 Months of the Year, 36 Million Pieces of 
Illegal Publications of All Kinds Were Confiscated'' [Zhongguo jinnian 
qian 3 ge yue shoujiao gelei feifa chubanwu 3600 duo wan jian], Xinhua 
(Online), 14 April 07.
    \171\ ``Guangzhou College Students Self-Publish Newspaper and 
Magazine: Legality In Question'' [Guangzhou daxuesheng zi ban baozhi 
zazhi hefaxing shou zhiyi], People's Daily (Online), 20 June 07.
    \172\ Ibid.
    \173\ ``Eight Books Banned in Crackdown on Dissent,'' South China 
Morning Post (Online), 19 January 07.
    \174\ ``GAPP Director Clarifies That Regarding Reported Banning of 
`Past Stories of Peking Opera Stars' and Other Books: We Never Banned 
Even One Book'' [Zhongguo xinwen chuban zongshu chengqing ``lingren 
wangshi deng shu bei jin'': women yi ben shu dou mei chajin], 
Zaobao.com, 1 February 07; ``Eight Books Banned in Crackdown On 
Dissent,'' South China Morning Post.
    \175\ ``GAPP: Investigated and Found No Book Ban, Zhang Yihe 
Counters That Officials Don't Understand When To Admit Error'' 
[Chubanzongshu: you chachu wu jin shu Zhang Yihe bochi guanyuan bu dong 
ren cuo], Ming Pao (Online), 9 February 07; ``GAPP Director Clarifies 
That Regarding Reported Banning of `Past Stories of Peking Opera Stars' 
and Other Books: We Never Banned Even One Book,'' Zaobao.com.
    \176\ ``Publishers Confirm Being Punished for Printing 
Controversial Books'' [Chubanshe zhengshi bei fa], Ming Pao (Online), 2 
February 07.
    \177\ This year is the 50th anniversary of the start of the anti-
rightist movement, a purge of intellectuals that followed the Hundred 
Flowers Campaign's brief tolerance of dissent. Propaganda officials 
have reportedly ordered China's media to limit coverage of this topic. 
Vivian Wu, ``Court Reject Author's Plea on Ban,'' South China Morning 
Post, 27 April 07.
    \178\ ``China Keeps Its Critics At Home While Promising Greater 
Freedom for Foreign Media,'' Associated Press (Online), 5 February 07.
    \179\ CECC, 2005 Annual Report, 11 October 05, 62; Reporters 
Without Borders (Online), ``Journalist Faces Possible Life Sentence for 
Posting Tiananmen Document on Website,'' 4 February 05; Keith Bradsher, 
``China Announces Media Crackdown,'' New York Times (Online), 15 August 
07.
    \180\ Yahoo!'s general counsel testified at a congressional hearing 
that in October 2005 Yahoo merged Yahoo! China with Alibaba.com, a 
Chinese company. Yahoo! maintained a large equity stake but no longer 
has day-to-day operation control over Yahoo! China. The Internet in 
China-A Tool of Freedom or Suppression?, Testimony of Michael Callahan.
    \181\ Dui Hua Foundation (Online), ``Police Document Sheds 
Additional Light on Shi Tao Case,'' 25 July 07; ``Regarding Court 
Decisions and Security Bureau Documents for Shi Tao, Wang Xiaoning'' 
[Guanyu Shi Tao, Wang Xiaoning de zhongguo fayuan panjue he anquanju 
wenjian], Boxun (Online), 23 July 07; Reporters Without Borders 
(Online), ``Information Supplied by Yahoo! Helped Journalist Shi Tao 
Get 10 Years in Prison,'' 6 September 05. The Internet in China-A Tool 
of Freedom or Suppression?, Testimony of Michael Callahan; 
``Congressional Committee to Investigate Disparity Between Documents 
and Hearing Testimony by Yahoo!,'' House Foreign Affairs Committee 
(Online), 3 August 07; Stephanie Kirchgaessner and Richard Waters, 
``Yahoo Faces Scrutiny in China Case,'' Financial Times (Online), 7 
August 07. In May 2007, Shi Tao also joined a lawsuit against Yahoo! 
filed with the U.S. District Court for the Northern District of 
California, alleging, among other things, that the company had aided 
and abetted the commission of international human rights violations. 
See Amended Complaint for Tort Damages, Xianing et al v. Yahoo! Inc., 
et al., U.S. District Court Northern District California, Oakland 
Division, 29 May 07.
    \182\ Jim Yardley, ``China Releases Jailed New York Times 
Employee,'' New York Times (Online), 15 September 07.
    \183\ The Beijing High People's Court upheld the sentence in 
December 2006. ``Beijing Court Rejects Zhao Yan's Appeal, Affirms 
Three-Year Sentence,'' CECC Human Rights and Rule of Law Update, 
December 2006, 3-4.
    \184\ Reporters Without Borders, ``Journalist Gao Qinrong Released 
Five Years Early,'' 11 December 06. In August 1999, a court in Shanxi 
province sentenced Gao for accepting bribes, fraud, soliciting 
prostitutes. ``After Anti-Corruption Journalists Speaks the Truth'' 
[Fan fu jizhe jiangle zhenhua yihou], Southern Weekend (Online), 12 
December 02. Gao's reporting exposed a sham irrigation project in 
Yuncheng in 1998. ``Gao Qinrong,'' PEN Canada (Online), December 2006. 
Investigative reports by several Chinese news media found that 
authorities in Yuncheng detained Gao in the absence of reliable 
evidence, started building a criminal case against him only after he 
was detained, and convicted him on the basis of insufficient evidence. 
``After Anti-Corruption Journalists Speaks the Truth'' [Fan fu jizhe 
jiangle zhenhua yihou], Southern Weekend (Online), 12 December 02; ``To 
Only Have Right To Interview Is Not Enough'' [Jin you caifangquan shi 
bugou de], Legal Daily (Online), 14 May 01.
    \185\ Dui Hua Foundation, ``Nine-Month Sentence Reduction Confirmed 
for Xu Zerong,'' 26 September 06.

    Notes to Section II--Freedom of Religion
    \1\ CECC, 2004 Annual Report, 5 October 2004, 34, 36-37.
    \2\ CECC, 2006 Annual Report, 20 September 2006, 93.
    \3\ CECC, 2004 Annual Report, 39; CECC, 2005 Annual Report, 11 
October 05, 49; CECC, 2006 Annual Report, 86-87.
    \4\ See, e.g., CECC, 2005 Annual Report, 52; CECC, 2006 Annual 
Report, 91.
    \5\ See discussion infra and in Section IV, ``Tibet,'' for more 
information on religion-related legislative developments in Tibetan 
areas of China.
    \6\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06. See discussion infra for 
more information on closures of Buddhist and Daoist temples.
    \7\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2007, China (includes 
Tibet, Hong Kong, and Macau), 14 September 07. The International 
Religious Freedom Act mandates that the ``Country of Particular 
Concern'' designation be made for countries that ``engaged in or 
tolerated particularly severe violations of religious freedom,'' and 
sets out possible courses of action, including sanctions, toward these 
countries. See International Religious Freedom Act of 1998, 22 U.S.C. 
6401 et seq., 6442(b)(1)(A), 6442 (c), 6445. In 2006, John V. Hanford 
III, Ambassador at Large for International Religious Freedom, noted 
that the climate for religious freedom had improved in recent decades 
but that ``a number of setback[s]'' have taken place in the past two to 
three years. Bureau of Democracy, Human Rights, and Labor, U.S. 
Department of State, On-the-Record Briefing on the Release of the 
Department of State's Annual Report on International Religious Freedom, 
15 September 06.
    \8\ See, e.g., PRC Constitution, art. 36; Regulation on Religious 
Affairs (RRA) [Zongjiao shiwu tiaoli], issued 30 November 04, art. 2; 
PRC Regional Ethnic Autonomy Law (REAL), enacted 31 May 84, amended 28 
February 01, art. 11.
    \9\ See, e.g., the Universal Declaration of Human Rights (UDHR), 
adopted and proclaimed by General Assembly resolution 217A (III) of 10 
December 48, art. 18.
    \10\ See, e.g., PRC Constitution, art. 36; RRA, art. 3; REAL, art. 
11.
    \11\ Registration requirements to form a religious organization and 
establish a venue for religious activities are found in RRA, art. 6 and 
art. 13-15. See also Measures on the Examination, Approval, and 
Registration of Venues for Religious Activity [Zongjiao huodong 
changsuo sheli shenpi he dengji banfa], issued 21 April 05.
    \12\ See discussion on religious speech, infra, as well as ``Prior 
Restraints on Religious Publishing in China'' in the CECC Virtual 
Academy for more information.
    \13\ See discussions on citizens' freedom to interact with foreign 
co-religionists, infra.
    \14\ See the discussion on children, infra.
    \15\ ``Head of Religious Association: Religious Adherents Not 
Arrested Due to Their Faith,'' CECC Virtual Academy (Online), 26 June 
06.
    \16\ See, e.g., UDHR, art. 18; International Covenant on Civil and 
Political Rights (ICCPR), adopted by General Assembly resolution 2200A 
(XXI) of 16 December 66, entry into force 23 March 76, art. 18; the 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 13(3) (requiring 
States Parties to ``ensure the religious and moral education of . . . 
children in conformity with [the parents'] own convictions''); and the 
Convention on the Rights of the Child (CRC), adopted and opened for 
signature, ratification, and accession by General Assembly resolution 
44/25 of 20 November 89, entry into force 2 September 90, art. 14; 
Declaration on the Elimination of All Forms of Intolerance and of 
Discrimination Based on Religion or Belief, General Assembly resolution 
36/55 of 25 November 81.
    \17\ China is a party to the ICESCR and the CRC, and a signatory to 
the ICCPR. The Chinese government has committed itself to ratifying, 
and thus bringing its laws into conformity with, the ICCPR and 
reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly. As a signatory to the ICCPR, China is required under Article 
18 of the Vienna Convention on the Law of Treaties, to which it is a 
party, ``to refrain from acts which would defeat the object and purpose 
of a treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \18\ See General Comment No. 22 to Article 18 of the ICCPR for an 
official interpretation of freedom of religion as articulated in the 
ICCPR. General Comment No. 22: The Right to Freedom of Thought, 
Conscience, and Religion (Art. 18), 30 July 93, para. 1. This section 
of the Commission's Annual Report primarily uses the expression 
``freedom of religion'' but encompasses within this term reference to 
the more broadly articulated freedom of ``thought, conscience, and 
religion'' (see, e.g., UDHR, art. 18; ICCPR, art. 18).
    \19\ ICCPR, art. 18(1), (2), (4). See also General Comment No. 22, 
para. 1, 2, 4, 6; and CRC, art. 14. See also Declaration on the 
Elimination of All Forms of Intolerance and of Discrimination Based on 
Religion or Belief.
    \20\ For more background on government policy to ``use law to 
strengthen management of religious affairs,'' see, e.g., Ye Xiaowen, 
``Preface,'' in Shuai Feng and Li Jian, Interpretation of the 
Regulation on Religious Affairs [Zongjiao shiwu tiaoli shiyi], 
(Beijing: Beijing Religious Culture Press, 2005), 1-2 (pagination for 
preface); Beatrice Leung, ``China's Religious Freedom Policy: The Art 
of Managing Religious Activity,'' The China Quarterly, no. 184, 894, 
907-911 (2005).
    \21\ Zhang Xunmou, Policy and Law Department of the State 
Administration for Religious Affairs, quoted in Nailene Chou Wiest, 
``Religious Groups Get More Room to Move,'' South China Morning Post 
(Online), 20 October 04.
    \22\ See, e.g., Public Security Bureau Personnel Training Bureau, 
Lectures on Domestic Security Defense Studies [Guonei anquan baoweixue 
jiaocheng] (Beijing: Mass Publishing Company, 2001), 141-142.
    \23\ Wang Zhimin, ``Thoughts on How To Safeguard Social Stability 
and Supply High-Grade Service in the Course of Developing the West'' 
[Dui xibu dakaifa zhong ruhe weihu shehui wending tigong youzhi fuwu de 
sikao], in Police Science Society of China, ed., Collected Essays on 
Public Security Work and Developing the West, (Beijing: Chinese 
People's Public Security University Press, 2002), 254.
    \24\ See, e.g., Ye Xiaowen, ``Give Play to the Positive Role of 
Religion in Pushing Forward Social Harmony,'' Study Times, 25 December 
06 (Open Source Center, 8 January 07). For earlier statements, see, 
e.g., Sun Chengbin and Yin Hongzhu, ``National Work Conference on 
Religious Affairs Held in Beijing, Jiang Zemin Stressed Need to 
Effectively Do a Good Job in Religious Work at the Beginning of This 
Century To Serve the Overall Situation of Reform, Development, and 
Stability,'' Xinhua, 12 December 01 (Open Source Center, 12 December 
01).
    \25\ See, e.g., Ye, ``Give Play to the Positive Role of Religion in 
Pushing Forward Social Harmony;'' ``SARA Director Calls for Continued 
Controls on Religion,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 8.
    \26\ ``SARA Director Calls for Continued Controls on Religion,'' 
CECC China Human Rights and Rule of Law Update, September 2006, 8.
    \27\ For more information, see, e.g., CECC, 2006 Annual Report, 89, 
93.
    \28\ Ye Xiaowen, ``Correctly Understanding and Handling the 
Religious Relationship in the Socialist Society--Studying Comrade Hu 
Jintao's Important Speech at the National United Front Work 
Conference,'' Seeking Truth, 18 August 06 (Open Source Center, 23 
August 06).
    \29\ Wu Jiao, ``Religious Believers Thrice the Official Estimate: 
Poll,'' China Daily, 7 February 07 (Open Source Center, 7 February 07). 
Figures differ greatly. Unofficial estimates indicate a rapid growth in 
numbers in some religious communities. For example, overseas sources 
have estimated that up to 100 million people worship in unregistered 
Protestant churches and that the number continues to grow. Official 
government sources have stated that China has 16 million Protestants 
and 4.5 million Catholics affiliated with the state-controlled Catholic 
church, but State Administration for Religious Affairs director Ye 
Xiaowen also reportedly said that China had 130 million Protestants and 
Catholics as of 2006. For an overview of official and unofficial 
statistics, see U.S. Department of State, International Religious 
Freedom Report--2006, China, and U.S. Department of State, 
International Religious Freedom Report --2007, China.
    \30\ ``Diligently Strengthen the Foundation, Arouse the Passions To 
Serve the Situation--A Scan of Religious Work in 2005'' [Yongxin guben 
qiangji dongqing fuwu daju--2005 zongjiao gongzuo saomiao], China 
Religions 2006 volume 1, reprinted on the State Administration for 
Religious Affairs Web site, 27 January 06.
    \31\ See, e.g., ``SARA Holds First Term of Religious Work Cadre 
Training'' [Guojia zongjiaoju juban diyiqi zongjiao gongzuo ganbu 
peixunban], United Front Work Department (Online), 4 December 06; 
``Suzhou Daily: Our City's Religious Personages Discuss Study and 
Implementation of `Regulation on Religious Affairs''' [Suzhou ribao: 
woshi zongjiaojie renshi zuotan xuexi guanche `zongjiao shiwu tiaoli'], 
Suzhou Daily, reprinted on the Suzhou Ethnic and Religious Affairs 
Bureau Web site, 17 March 07.
    \32\ Measures on the Examination, Approval, and Registration of 
Venues for Religious Activity; Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism [Cangchuan fojiao 
huofo zhuanshi guanli banfa], issued 18 July 07; Measures on 
Establishing Religious Schools [Zongjiao yuanxiao sheli banfa], issued 
1 August 07; Measures for Putting on File the Main Religious Personnel 
of Venues for Religious Activities [Zongjiao huodong changsuo zhuyao 
jiaozhi renzhi bei'an banfa], issued 29 December 06; Measures for 
Putting on File Religious Personnel [Zongjiao jiaozhi renyuan bei'an 
banfa], issued 29 February 06. Measures Regarding Chinese Muslims 
Signing Up To Go Abroad on Pilgrimages (Trial Measures) [Zhongguo 
musilin chuguo chaojin baoming paidui banfa (shixing)], undated 
(estimated date 2006), available on the SARA Web site. See Section IV--
Tibet for an analysis of the Measures on the Management of the 
Reincarnation of Living Buddhas in Tibetan Buddhism.
    \33\ Shuai and Li, Interpretation of the Regulation on Religious 
Affairs. This book is written by drafters of the Regulation on 
Religious Affairs. See p. 6 of the preface. The book includes a preface 
by State Administration for Religious Affairs (SARA) director Ye 
Xiaowen and is advertised on the SARA Web site. A Web search of the 
book's title, limited to Web sites with ``gov.cn'' in the Web address, 
found only three local governments reporting on having received or used 
the text. Web search conducted July 16, 2007. While the text clarifies 
some ambiguous provisions of the Regulation on Religious Affairs, it 
also leaves some ambiguities--such as the question of whether religions 
outside the five belief systems are recognized in practice by the 
central government--unanswered.
    \34\ Between March 1, 2005, when the national RRA entered into 
force, and September 2007, 11 provincial-level areas issued new or 
amended comprehensive regulations on religious affairs and made the 
texts available on legal databases and other Web sites. These 
regulations are: Shanghai Municipality Regulation on Religious Affairs 
[Shanghaishi zongjiao shiwu tiaoli], adopted 30 November 95, amended 21 
April 05; Henan Province Regulation on Religious Affairs [Henansheng 
zongjiao shiwu tiaoli], issued 30 July 05; Zhejiang Province Regulation 
on Religious Affairs [Zhejiangsheng zongjiao shiwu tiaoli], issued 6 
December 97, amended 29 March 06; Shanxi Province Regulation on 
Religious Affairs [Shanxisheng zongjiao shiwu tiaoli], issued 29 July 
05; Anhui Province Regulation on Religious Affairs [Anhuisheng zongjiao 
shiwu tiaoli], issued 15 October 99, amended 29 June 06 and 28 February 
07; Beijing Municipality Regulation on Religious Affairs [Beijingshi 
zongjiao shiwu tiaoli], issued 18 July 02, amended 28 July 06; 
Chongqing Municipality Regulation on Religious Affairs [Chongqingshi 
zongjiao shiwu tiaoli], issued 29 September 06; Hunan Province 
Regulation on Religious Affairs [Hunansheng zongjiao shiwu tiaoli], 
issued 30 September 06; Liaoning Province People's Congress Standing 
Committee Decision on Amending the Liaoning Province Regulation on 
Religious Affairs [Liaoningsheng renmin daibiao dahui changwu 
weiyuanhui guanyu xiugai ``Liaoningsheng zongjiao shiwu tiaoli'' de 
jueding], issued on 28 November 98 as the Liaoning Province Regulation 
on the Management of Religious Affairs, amended and name changed on 1 
December 06; Sichuan Province Regulation on Religious Affairs 
[Sichuansheng zongjiao shiwu tiaoli], issued on 9 May 00 as the Sichuan 
Province Regulation on the Management of Religious Affairs, amended and 
name changed on 30 November 06; and Tibet Autonomous Region 
Implementing Measures for the ``Regulation on Religious Affairs'' 
(Trial Measures) [Zizang zizhiqu shishi ``zongjiao shiwu tiaoli'' banfa 
(shixing)], issued 19 September 06. In addition, the Hebei provincial 
government also amended its 2003 Regulation on Religious Affairs, 
according to a report from the Hebei Province Ethnic and Religious 
Affairs Department Web site, but a public copy appears to be 
unavailable. Hebei Province Ethnic and Religious Affairs Department 
(Online), ``Hebei Province Regulation on Religious Affairs Revised and 
Promulgated'' [``Hebeisheng zongjiao shiwu tiaoli'' xiuding bing 
gongbu], 14 February 07. The Anhui provincial government retained 
inconsistent provisions in its first amendments, in 2006. For an 
analysis of the Anhui amendments and other regulations, see ``Anhui 
Government Amends Provincial Religious Regulation,'' CECC China Human 
Rights and Rule of Law Update, October 2006, 10-11; ``Zhejiang and 
Other Provincial Governments Issue New Religious Regulations,'' CECC 
China Human Rights and Rule of Law Update, June 2006, 9-10; ``Beijing 
Municipality Amends Local Religious Regulation,'' CECC China Human 
Rights and Rule of Law Update, November 2006, 8-9; ``Chongqing 
Municipality and Hunan Province Issue New Religious Regulations,'' CECC 
Virtual Academy (Online), 4 January 07
    \35\ Article 79 of the Legislation Law says that national 
regulations have higher force than local ones, and Articles 64 and 88 
call for amending or canceling local regulations that conflict with 
national legal sources. PRC Legislation Law [Zhonghua renmin gongheguo 
lifafa], adopted 15 March 00. Nonetheless, out-of-date provisions 
remain within local-level legislation. For example, the Guangdong 
Province Regulation on the Administration of Religious Affairs retains 
a provision requiring yearly inspections of venues for religious 
activities in accordance with a national legal measure (banfa) on the 
topic, but subsequent legal developments have voided this legal 
guidance. See Guangdong Province Regulation on the Administration of 
Religious Affairs [Guangdongsheng shiwu guanli tiaoli], adopted 26 May 
00, art. 15. See also ``Beijing Municipality Amends Local Religious 
Regulation,'' CECC China Human Rights and Rule of Law Update, November 
2006, 8-9; and Shuai and Li, Interpretation of the Regulation on 
Religious Affairs, 93. According to this book of interpretations, the 
national RRA annuls an earlier measure requiring yearly inspections. 
This annulment is not explicit within the text of the RRA itself.
    \36\ Hunan Province Regulation on Religious Affairs, art. 48. See 
also ``Chongqing Municipality and Hunan Province Issue New Religious 
Regulations,'' CECC Virtual Academy (Online), 4 January 07.
    \37\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs,'' art. 36-40.
    \38\ See, e.g., ``Zhejiang and Other Provincial Governments Issue 
New Religious Regulations,'' CECC China Human Rights and Rule of Law 
Update, June 2006, 9-10, for a comparison of regulations from four 
provincial-level areas.
    \39\ The central government has referred to the five religions as 
China's main religions, but in practice the state has created a 
regulatory system that institutionalizes only these five religions for 
recognition and legal protection. See, e.g., State Council Information 
Office, White Paper on Freedom of Religious Belief in China, October 
1997 (Online) (stating that the religions citizens ``mainly'' follow 
are Buddhism, Daoism, Islam, Catholicism, and Protestantism). Wording 
from this White Paper is posted as a statement of current policy on the 
Web sites of the United Front Work Department, the agency that oversees 
religious affairs within the Communist Party, and the State 
Administration for Religious Affairs (SARA). Some local regulations on 
religious affairs define religion in China to mean only these five 
categories. See, e.g., Guangdong Province Regulation on the 
Administration of Religious Affairs, art. 3, and Henan Province 
Regulation on Religious Affairs, art. 2. There is some limited 
tolerance outside this framework for some ethnic minority and ``folk'' 
religious practices. See text infra and see also Kim-Kwong Chan and 
Eric R. Carlson, Religious Freedom in China: Policy, Administration, 
and Regulation (Santa Barbara: Institute for the Study of American 
Religion, 2005), 9-10, 15-16. Some local governments have recognized 
the Orthodox church. See the discussion, infra, on Orthodoxy in China. 
Officials told a visiting U.S. delegation in August 2005 that they were 
considering at the national level whether to allow some other religious 
communities, including the Orthodox church, to register to establish 
organizations or religious activity venues, but no decisions in this 
area have been reported. U.S. Commission on International Religious 
Freedom (USCIRF), ``Policy Focus: China,'' 9 November 05, 4. See also 
``A Year After New Regulations, Religious Rights Still Restricted, 
Arrests, Closures, Crackdowns Continue,'' Human Rights Watch (Online), 
1 March 06 (reporting no decision on whether or not to recognize 
additional religions).
    \40\ See, e.g., RRA, art. 6 (requiring religious organizations to 
register in accordance with the Regulations on the Management of the 
Registration of Social Organizations); art. 8 (requiring an application 
to the State Administration for Religious Affairs (SARA) to establish 
an institute for religious learning); art. 13-15 (imposing an 
application procedure to register venues for religious activity); art. 
27 (requiring the appointment of religious personnel to be reported to 
the religious affairs bureau at or above the county level and requiring 
reporting the succession of living Buddhas for approval to governments 
at the level of a city divided into districts or higher, and requiring 
reporting for the record the appointment of Catholic bishops to SARA).
    \41\ These Party-led associations are sometimes also referred to as 
``patriotic religious associations.''
    \42\ For a description of the religious associations in Chinese 
sources, see Shuai and Li, Interpretation of the Regulation on 
Religious Affairs, 4-5.
    \43\ Authorities accused the monk of engaging in improper relations 
with lay practitioners and dismissed him on those alleged grounds. 
``Jiangxi Buddhist Master Accused of Being a Womanizer and Driven Out 
of Temple,'' Sing Tao Jih Pao, 25 August 06 (Open Source Center, 27 
August 06). ``Top Buddhist Officials Join in Persecution of Activist 
Monk,'' Human Rights in China (Online), 23 August 06.
    \44\ Human Rights Watch and Human Rights in China, ``Devastating 
Blows: Religious Repression of Uighurs in Xinjiang,'' April 2005, 49-
53, 55-57 (pagination follows ``text-only'' pdf download of this 
report).
    \45\ Some organizations operate without any registration and are 
tolerated by local authorities. A limited number of organizations have 
registered with local officials without affiliating with a Party-
controlled religious association. U.S. Department of State, 
International Religious Freedom Report--2006, China.
    \46\ See CECC, 2004 Annual Report, Section III(c) Freedom of 
Religion, for more information.
    \47\ Ministry of Public Security (Online), ``Liu Jinguo's Speech at 
Conference on National Work To Investigate and Deal with Rural 
Districts That Have Public Order in Disarray'' [Liu Jianguo zai quanguo 
paicha zhengzhi nongcun zhi'an hunluan diqu huiyi shang de fayan], 6 
July 07. The China Aid Association (CAA) reported detentions in the 
aftermath of the campaign's launch. ``Chinese Government Launched 
Nationwide Campaign against Uncontrolled Religious Activities; Massive 
Arrests Occurred in Inner Mongolia, Liaoning, Xinjiang, Jiangsu, Henan, 
Shandong, and Anhui,'' CAA (Online), 24 August 07.
    \48\ ``Our District's Work on the Administration of Abnormal 
Religious Activities Is Taking on a Desirable Posture'' [Woqu 
feizhengchang zongjiao huodong zhili gongzuo xingcheng lianghao 
taishi], Baoshan Ethnicities and Religion Net (Online), 20 July 07.
    \49\ See, e.g., RRA, art. 4 and White Paper on Freedom of Religious 
Belief in China, for more information on these principles.
    \50\ ``PRC Public Security Minister Zhou Yongkang Urges Crackdown 
on `Hostile Forces,''' Agence France-Presse, 20 March 07 (Open Source 
Center, 20 March 07). Zhou made a similar statement again in September, 
calling for increased security specifically for the 17th Party 
Congress, scheduled for October 2007. Shi Jiangtao, ``Crackdown by 
Police Ahead of Party Congress,'' South China Morning Post (Online), 7 
September 07. After Western media reported that foreign missionaries 
planned to increase their presence during the Olympics, Party-led China 
Christian Council head Cao Shengjie told foreign groups to adhere to 
Chinese rules and not engage in religious activities without invitation 
from the Party-led Protestant church. Kristine Kwok, ``Olympic 
Missionaries Warned To Follow Rules,'' South China Morning Post 
(Online), 29 May 07; ``Thousands Planning to Bring the Gospel to China 
During the Olympic Games,'' AsiaNews (Online), 21 May 07.
    \51\ ``Government Intervenes into a Three-Self Church in Shanxi 
Province, Pastor Evicted,'' CAA (Online), 9 August 06.
    \52\ ``Over 100 Foreign Missionaries Expelled or Forced To Leave by 
Chinese Government Secret Campaign,'' CAA (Online), 10 July 07. For 
additional reporting on this news, see, e.g., Alexa Olesen, ``Christian 
Aid Group Says China Kicking Out Foreign Missionaries Ahead of 2008 
Olympics,'' Associated Press (via Nexis), 10 July 07 (citing a U.S. 
Embassy spokesperson who said her office had ``heard some reports of 
deportations.'')
    \53\ Detailed Implementing Rules for the Provisions on the 
Management of the Religious Activities of Foreigners within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 26 September 00, art. 17.
    \54\ Ministry of Foreign Affairs (Online), ``MFA Spokesperson Liu 
Jianchao Answers Reporters Questions'' [Waijiaobu fayanren Liu Jianchao 
huida jizhe tiwen], 16 March 05.
    \55\ See, e.g., Fujian Province Implementing Measures on the Law on 
the Protection of Minors [Fujiansheng shishi ``Zhonghua renmin 
gongheguo weichengnianren baohufa'' banfa], issued 21 November 94, 
amended 25 October 97, art. 33; Inner Mongolia Autonomous Region (IMAR) 
Implementing Measures on the Management of Venues for Religious 
Activity [Neimenggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 13. While the national regulation 
addressed in the IMAR measures was annulled in 2005, the IMAR measures 
appear to remain in force.
    \56\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \57\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices --2006, China 
(includes Tibet, Hong Kong, and Macau) (Online), 6 March 07.
    \58\ Elisabeth Alles, ``Muslim Religious Education in China,'' 45 
Perspectives Chinoises (January-February 2003) (Online); Will Religion 
Flourish Under China's New Leadership? Staff Roundtable of the 
Congressional-Executive Commission on China, 24 July 03, Testimony of 
Dr. Jacqueline M. Armijo-Hussein, Assistant Professor, Department of 
Religious Studies, Stanford University.
    \59\ See, e.g., Sara L.M. Davis, ``Dance, Or Else: China's 
`Simplifying Project,''' China Rights Forum 2006, No. 4--Ethnic Groups 
in China, 20 December 06.
    \60\ See CECC 2004 Annual Report, 37, for more details on these 
campaigns.
    \61\ Ye Xiaowen, ``Correctly Understanding and Handling the 
Religious Relationship in the Socialist Society--Studying Comrade Hu 
Jintao's Important Speech at the National United Front Work 
Conference.''
    \62\ RRA, art. 34.
    \63\ See, e.g., Guangdong Province Ethnic and Religious Affairs 
Commission (Online), ``Shantou City Religious Circles Launch Compassion 
Activities to Help Haojiang District's Dusheng Village Resume Work 
After Disaster'' [Shantoushi zongjiaojie kaizhan aixin huodong bangzhu 
haojiangqu dushengcun zuohao zaihou huifu gongzuo], 12 June 06; Hebei 
Province Ethnic and Religious Affairs Department (Online), ``Hebei 
Province's Two Catholic Associations Establish the `Hebei Promote-
Virtue Charity Service Center''' [Hebeisheng tianzhujiao lianghui 
chengli ``Hebei jin de gongyi shiye fuwu zhongxin''], 14 July 06.
    \64\ Susan K. McCarthy, ``The Three Represents and the Four Noble 
Truths: Faith-Based Civil Society Organizations in Contemporary 
China,'' Paper submitted for the 2007 annual meeting of the Association 
of Asian Studies, March 22-25, Boston, 9-10. [On File.]
    \65\ See, e.g., ``Muslim Hands Reach Out to Gansu,'' China 
Development Brief (Online), 6 May 05; ``MH in China: 70 Kids Have Cleft 
Lip Correction,'' Muslim Hands Feedback Report 2004 (Online), last 
visited 6 October 07; Correspondence to the CECC, 9 May 06; Elaine 
Chan, ``Beyond Parallel,'' South China Morning Post, 30 September 06.
    \66\ See Section II--Civil Society, infra, for more information.
    \67\ See, e.g., Jay Dautcher, ``Public Health and Social 
Pathologies in Xinjiang,'' in Xinjiang: China's Muslim Borderland, ed. 
S. Frederick Starr (Armonk, New York: M.E. Sharpe, 2004), 285-6.
    \68\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \69\ CECC, 2005 Annual Report, 49.
    \70\ ``Underground Bishop Jia Zhiguo Is Arrested Again,'' Cardinal 
Kung Foundation (Online), 6 June 07 ``Msgr. Jia Zhiguo, Underground 
Bishop Is Freed,'' AsiaNews, reprinted on the CAA Web site, 23 June 07.
    \71\ ``Mgr Julius Jia Zhiguo, Who Wanted To Disseminate the Pope's 
Letter, Is Arrested,'' AsiaNews (Online), 23 August 07.
    \72\ ``Underground Bishop Jia Zhiguo Is Arrested Again,'' Cardinal 
Kung Foundation. See the CECC Political Prisoner Database for more 
information.
    \73\ CECC, 2006 Annual Report, 87.
    \74\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \75\ ``Officials Assault Nuns Over Land Dispute in Shaanxi 
Province,'' CECC China Human Rights and Rule of Law Update, March 2006, 
11; ``Registered Catholics Claim Property in Tianjin,'' CECC China 
Human Rights and Rule of Law Update, March 2006, 11-12; ``Nuns and 
Alleged Assailants Reach Out-of-Court Settlement in Xi'an Beating 
Case,'' CECC China Human Rights and Rule of Law Update, December 2006, 
9.
    \76\ ``Chinese Government Appoints Bishop Without Holy See 
Approval,'' CECC China Human Rights and Rule of Law Update, December 
2006, 5-6. Wang's ordination followed the CPA's ordinations in April 
and May 2006 of other bishops who also lacked Holy See approval.
    \77\ ``Guizhou Scheduled To Hold First Episcopal Ordination Since 
Papal Letter,'' Union of Catholc Asian News (UCAN) (Online), 3 
September 07; ``Vatican Approval for Guiyang Episcopal Ordination Made 
Public,'' AsiaNews (Online), 10 September 07.
    \78\ ``Beijing Ordination Had Papal Approval,'' UCAN (Online), 22 
September 07; ``New Bishop Vows To Lead Catholics Contributing to a 
Harmonious Society,'' UCAN (Online), 21 September 07. Holy See approval 
was not openly made known until after the ordination. Earlier articles 
on Li's nomination differed on whether Li had received approval. 
``China Nominates Bishop, Threatening Vatican Rift,'' Reuters (Online), 
18 July 07. The Vatican has expressed some support for Li, whom outside 
media has suggested is less entrenched in official Chinese Catholic 
institutions than his predecessor, Fu Tieshan. ``The New Bishop of 
Beijing is Elected,'' AsiaNews (Online), 18 July 07. ``Vatican Welcomes 
New China Bishop,'' BBC (Online), 19 July 07. ``Beijing Getting Ready 
for the Ordination of Mgr Li Shan, CCPA Seizes Bishop's Residence,'' 
AsiaNews (Online), 17 September 07. For Chinese reporting on the 
appointment, see ``Li Shan Picked as Bishop of Beijing Diocese'' [Li 
Shan dangxuan tianzhujiao Beijing jiaoqu zhujiao], China Ethnicity News 
(Online), 3 August 07.
    \79\ ``Letter of the Holy Father Pope Benedict XVI to the Bishops, 
Priests, Consecrated Persons and Lay Faithful of the Catholic Church in 
the People's Republic of China,'' Vatican Web site, 27 May 07. Though 
dated May 27, the Holy See released the letter on June 30. ``More on 
Pope's Letter to China Over Religious Freedom, Appointment of 
Bishops,'' Agence France-Presse, 30 June 07 (Open Source Center, 30 
June 07).
    \80\ ``Beijing Removes Papal Letter to Chinese Church from Web,'' 
AsiaNews (Online), 3 July 07.
    \81\ ``Priests Arrested and Put into Solitary Confinement: the 
Governments Answer to the Pope's Letter,'' AsiaNews (Online), 2 August 
07.
    \82\ Yang Yingchun, ``Ismail Tiliwaldi, While Speaking at an 
Autonomous Region-Wide Religion Work Meeting, Calls for Stronger 
Management Over Pilgrimage and the `Two Religions' To Safeguard the 
Masses' Interest,'' Xinjiang Daily, 11 July 07 (Open Source Center, 13 
July 07); ``Autonomous Prefecture's Religion Meeting Stresses 
Strengthening Management of Religion, Safeguarding Social Stability'' 
[Zizhizhou zongjiao huiyi qiangdiao jiaqiang zongjiao guanli weihu 
shehui wending], Changji Evening News, reprinted on the Changji Hui 
Autonomous Prefecture Government Web site, 14 August 07.
    \83\ ``Two Priests Detained in Wenzhou After Arrest on Return from 
Europe,'' UCAN, 3 October 06; ```Underground' Chinese Catholic Priests 
Charged, Likely To Face Trial,'' UCAN (Online), 26 October 06. ``Two 
Underground Priests from Wenzhou Soon To Be Freed,'' AsiaNews, 17 May 
07; ``Two Underground Priests, Arrested After Pilgrimage, Sentenced Six 
Months After Arrest,'' UCAN (Online), 16 May 07. Authorities released 
Shao from prison in May 2007 to obtain medical treatment. ``Jailed 
Wenzhou Priest Released Provisionally for Medical Treatment,'' UCAN, 30 
May 07. Authorities released Jiang in August. ``Second Of Two Jailed 
Wenzhou Priests Released, Diagnosed With Heart Conditions,'' UCAN, 29 
August 07. See the CECC Political Prisoner Database for more 
information. Jiang Surang is also known by the name Jiang Sunian.
    \84\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \85\ Human Rights Watch, ``Devastating Blows,'' 73-74. The report 
cites official data published in 2001.
    \86\ Ibid., 69.
    \87\ ``Teacher and 37 Students Detained for Sudying [sic] Koran in 
China: Rights Group'' Agence France-Presse, 15 August 05 (Open Source 
Center, 15 August 05).
    \88\ ``Three Detained in East Turkistan for `Illegal' Religious 
Text,'' Uyghur Human Rights Project (Online), 3 August 05.
    \89\ See, e.g., ``Xinjiang Government Continues Restrictions on 
Mosque Attendance,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 8. XUAR regulations forbid parents from allowing children 
to engage in religious activities, and mosques have restricted 
children's entry. The U.S. Department of State noted in its 2006 
Country Reports on Human Rights Practices for China, however, that such 
restrictions were not uniformly enforced in practice. U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China.
    \90\ Human Rights Watch, ``Devastating Blows,'' 55-56.
    \91\ USCIRF, ``Policy Focus: China,'' 6.
    \92\ RRA, art. 11, 43.
    \93\ ``Islamic Congress Establishes Hajj Office, Issues New 
Rules,'' CECC Human Rights and Rule of Law Update, June 2006, 12-13.
    \94\ ``Government Increases Controls Over Muslim Pilgrimages,'' 
CECC Human Rights and Rule of Law Update, December 2006, 20; Circular 
of Provisions Regarding Organizing and Carrying Out Secondary 
Pilgrimage Activities [Guanyu zuzhi kaizhan fuchao huodong ruogan 
guiding de tongzhi], August 2006.
    \95\ U.S. Department of State, International Religious Freedom 
Report--2007, China (noting reasons why some Uighur Muslims in 
particular have avoided participating in official trips).
    \96\ Jackie Armijo, ``Islamic Education in China,'' 9 Harvard Asia 
Quarterly, (Winter 2006) (Online).
    \97\ Cheng Lixin, ``Wang Lequan, Speaking at the Feedback Meeting 
of the United Front and Religious Affairs Investigation and Study Team, 
Emphasizes the Need To Strengthen Management of Pilgrimage Activity To 
Safeguard the Masses Interests,'' Xinjiang Daily, 19 June 07 (Open 
Source Center, 25 June 07); ``China Confiscates Muslims' Passports,'' 
Radio Free Asia (Online), 27 June 07; ``Activist: Members of Muslim 
Minority Group in China Forced To Surrender Their Passports,'' 
Associated Press, reprinted in the International Herald Tribune, 20 
July 07.
    \98\ Yang, ``Ismail Tiliwaldi, While Speaking at an Autonomous 
Region-Wide Religion Work Meeting, Calls for Stronger Management Over 
Pilgrimage and the `Two Religions' To Safeguard the Masses' Interest.''
    \99\ ``Over 70,000 Illegal Publications `Smashed to Dust''' [7 wan 
duo ce feifa chubanwu ``fenshensuigu''], Xinjiang Legal Daily (Online), 
6 August 07.
    \100\ ``Xinjiang Government Seizes, Confiscates Political and 
Religious Publications,'' CECC Human Rights and Rule of Law Update, 
July 2006, 7-8.
    \101\ ``Xinjiang Uighur Autonomous Region Destroys 29 Tons of 
Illegal Books'' [Xinjiang weiwuer zizhiqu xiaohui 29 dun feifa tushu], 
Tianshan Net (Online), 16 March 06.
    \102\ Xinjiang Uighur Autonomous Region Implementing Measures of 
the Law on the Protection of Minors [Xinjiang weiwuer zizhiqu shishi 
``Weichengnianren baohufa'' banfa], issued 25 September 93, art. 14. No 
other provincial or national regulation on minors or on religion 
contains this precise provision. Devastating Blows, 58.
    \103\ ``Local Governments in Xinjiang Continue Religious Repression 
During Ramadan,'' CECC Virtual Academy, 12 December 06. Some local 
governments also extended these campaigns to teachers.
    \104\ Kashgar Government (Online), ``Yopurgha County Implements 
`Mandatory Visits System' Among Students in Elementary and Secondary 
Schools,'' [Yuepuhuxian zai zhongxiaoxuesheng zhong shixing 
``bifangzhi''], 11 October 06.
    \105\ This overview paragraph provides a summary of key issues of 
concern. See the text that follows the paragraph for more information, 
including detailed citations.
    \106\ The document says that meetings that are ``purely'' 
gatherings of family members within the home should be placed under 
normal management, and non-family gatherings that are large in scope 
and disruptive should be stopped and participants urged to go to 
approved sites of worship. Gatherings with elements of cult practices 
or foreign infiltration should be dispelled and if necessary subject to 
penalties. ``Our District's Work on the Administration of Abnormal 
Religious Activities Is Taking on a Desirable Posture'' [Woqu 
feizhengchang zongjiao huodong zhili gongzuo xingcheng lianghao 
taishi], Baoshan Ethnicities and Religion Net (Online), 20 July 07.
    \107\ ``Annual Report on Persecution of Chinese House Churches by 
Province from January 2006 to December 2006,'' CAA (Online), January 
2007, 3.
    \108\ CAA noted that while church members are often released after 
interrogation, authorities have held church leaders for longer periods, 
in some cases imposing prison sentences. Ibid.,19.
    \109\ ``Beijing House Church Activist Hua Huiqi and His Mother 
Attacked and Detained by Police,'' CAA (Online), 27 January 07. See the 
CECC Political Prisoner Database for additional information.
    \110\ ``Beijing House Church Activist Hua Huiqi Sentenced for 6 
Months Secretly,'' CAA (Online), 4 June 07; ``House Church Christian 
Activist Hua Huiqi and Mr. Qi Zhiyong Were Removed from Home Before US 
Presidential Visit,'' CAA (Online), 21 November 05; ``Activist's Mother 
`Held Hostage' for Information,'' Human Rights In China (HRIC) 
(Online), 17 August 07; ``Elderly Activist Denied Medical Parole,'' 
HRIC (Online), 13 September 07. See the CECC Political Prisoner 
Database for more information.
    \111\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA, reprinted in Christian News Wire, 3 October 07.
    \112\ See the CECC Political Prisoner Database for more 
information. See also ``UN Petition Submitted for Jailed Ailing Church 
Leader; Medical Parole Appeal Filed by Family Members,'' CAA (Online), 
12 July 06. Gong's accusers say they were tortured into signing 
allegations against Gong. Authorities originally charged Gong with 
using a cult to undermine the implementation of the law, along with 
premeditated assault, and rape, but the cult charges were later 
dropped. Examples of cult activity included carrying out unauthorized 
missionary activities and publishing and distributing a church 
periodical.
    \113\ ``Beijing House Church Activist Liu Fenggang Released,'' CAA 
(Online), 7 February 07.
    \114\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA.
    \115\ White Paper on Freedom of Religious Belief in China.
    \116\ ``Three House Church Buildings in Zhejiang Facing Imminent 
Destruction by Government,'' CAA (Online), 14 July 07.
    \117\ ``Basic People's Court of Xiaoshan District, Hangzhou City, 
Criminal Judgment'' [Hangzhou xiaoshanqu renminfayuan xingshi 
panjueshu], 22 December 06, reprinted on the CAA Web site, 15 January 
07.
    \118\ ``Annual Report on Persecution of Chinese House Churches, '' 
CAA, 3-4.
    \119\ ``Church Property in Gansu Occupied by the Government, 300 
Christians Protest by Sitting Demonstration; 3 Singapore Christians 
Arrested & Released in Xinjiang, 5 Local Believers Still in 
Detention,'' CAA (Online), 31 October 06. Government officials 
threatened to withhold retirement benefits to church members and 
reportedly used violence against the demonstrators. The group 
reportedly reached a compromise with authorities. ``Annual Report on 
Persecution of Chinese House Churches,'' CAA, 19.
    \120\ See the CECC Political Prisoner Database for more information 
about these cases. CAA reported in September 2007 that authorities 
arrested Zhou Heng, a house church leader in the Xinjiang Uighur 
Autonomous Region, on August 31 after he received a shipment of Bibles 
reported to have been donated by an overseas church. Authorities 
accused him of illegally operating a business. ``House Church Leader in 
Xinjiang Formally Arrested for Receiving Bibles and Abused in Jail,'' 
CAA (Online), 5 September 07. In March 2007, CAA reported that 
authorities arrested unregistered church leader Chen Jiaxi in January 
2007 for distributing religious literature, on the grounds he was 
illegally managing a business. CAA reported that Chen was expected to 
stand trial soon but has not reported further information on the case. 
``House Church Leaders Arrested in Liaoning and Anhui Province,'' CAA 
(Online), 31 March 07. In 2006, the CAA reported that authorities 
levied a similar charge on pastor Liu Yuhua after he printed and 
distributed religious literature. ``Multiple Arrests of Protestants 
Occurred in Shandong and Jiangsu; One South Korea Missionary Expelled 
from China; Prominent Chinese Legal Scholar Banned to Go Abroad,'' CAA 
(Online), 16 May 06.
    \121\ ``Renowned Beijing Church Leader Cai Zhuohua Released After 
Three Years Imprisonment for Distributing Bibles; Forced Labor for 
Olympics Products Imposed,'' CAA (Online), 14 September 07.
    \122\ ``Chinese Authorities Release House Church Filmmaker After 
140 Days in Custody,'' CECC Human Rights and Rule of Law Update, 
September 2006, 9; ``Journalist Arrested for Posting Reports About 
Crackdown on Christians,'' Reporters Without Borders (Online), 11 
August 06.
    \123\ ``House Church Members Successfully Fight Detentions For 
Unauthorized Worship,'' CECC Virtual Academy, 19 December 06.
    \124\ The church leaders have since filed lawsuits against the 
government. According to an April report from the China Aid 
Association, Dong Quanyu and Li Huage of Henan province await a 
decision on whether their case will be heard. In April 2007, the 
People's Court of Duolun County, Inner Mongolia Autonomous Region 
accepted Zhi Ruiping's case for an upcoming trial. ``Released Church 
Leaders in Henan and Inner Mongolia File Lawsuit Against Abusers in the 
Government,'' CAA (Online), 18 April 07.
    \125\ See the subsection on ``Government Persecution of Falun 
Gong,'' infra, for more information.
    \126\ ``Thirty-Three Chinese and Three Korea[n] Pastors Released in 
Henan After International Religious Pressure; One Sentenced for 10 Days 
Detention,'' CAA (Online), 7 March 07.
    \127\ ``Confiscated Church Properties in Jiangsu Returned after 
International Pressure,'' CAA (Online), 11 May 07.
    \128\ ``Delegation of Chinese Protestants Attends International 
Mission Conference,'' CECC Human Rights and Rule of Law Update, June 
2005, 6.
    \129\ ``House Church Lawyers Promote Religious Freedom Through the 
Rule of Law,'' CECC Human Rights and Rule of Law Update, July 2006, 3.
    \130\ Yang, ``Ismail Tiliwaldi, While Speaking at an Autonomous 
Region-Wide Religion Work Meeting, Calls for Stronger Management Over 
Pilgrimage and the `Two Religions' To Safeguard the Masses' Interest.'' 
This call was reiterated by local authorities in Changji Hui Autonomous 
Prefecture in August. ``Autonomous Prefecture's Religion Meeting 
Stresses Strengthening Management of Religion, Safeguarding Social 
Stability,'' Changji Evening News.
    \131\ See, e.g., ``Massive Arrest of Chinese and American Christian 
Leaders in Xinjiang,'' CAA (Online), 24 April 07; ``3 Singapore 
Christians Arrested and Released in Xinjiang, 5 Local Believers Still 
in Detention,'' CAA (Online), 31 October 06; ``35 Arrested Christians 
in Xinjiang Released after Interrogation; American Korean Pastor Put 
Under Surveillance in a Hotel,'' CAA (Online), 27 October 06; ``On 
Christmas Day, Christmas Services Stopped in Xinjiang; House Church 
Leaders Arrested; Persecution Against Beaten Christian Businessman 
Intensified,'' CAA (Online), 27 December 05.
    \132\ ``Over 100 Foreign Missionaries Expelled or Forced To Leave 
by Chinese Government Secret Campaign,'' CAA (Online), 10 July 07.
    \133\ ``China Sentences Underground Pastor to 7.5 Years in 
Prison,'' Agence France-Presse (Online), 12 July 06. See the CECC 
Political Prisoner Database for more information.
    \134\ Timothy Chow, ``Chinese House Church Historian Denied ID 
Card,'' Compass Direct News, reprinted on the CAA Web site, 17 February 
06.
    \135\ U.S. Department of State, International Religious Freedom 
Report--2007, China.
    \136\ ``Head of Religious Association: Religious Adherents Not 
Arrested Due to Their Faith,'' CECC Virtual Academy (Online), 26 June 
06; ``Falun Gong Practitioners To Be Punished Under New Administration 
Punishment Law,'' CECC China Human Rights and Rule of Law Update, May 
2006, 6.
    \137\ See the CECC Political Prisoner Database for more 
information.
    \138\ See the CECC Political Prisoner Database for more 
information.
    \139\ See the CECC Political Prisoner Database for more 
information.
    \140\ See China Human Rights Lawyers Concern Group (Online), 
``Demand Immediate Release of Beijing Human Rights Lawyer Gao 
Zhisheng,'' 27 September 07. For more information about Gao's open 
letter, which called on the Congress to take action against the Chinese 
government's human rights abuses, see Human Rights Torch Relay 
(Online), ``Gao Zhisheng's letter to the Senate and the Congress of the 
United States,'' 12 September 07; Bill Gertz, ``Chinese dissident urges 
boycott of Olympics,'' Washington Times (Online), 21 September 07.
    \141\ ``Prominent Beijing Rights Defense Christian Lawyer Li Heping 
Kidnapped and Tortured; Two Beijing Christian Activists Held Under 
House Arrest,'' CAA; ``Amnesty International's Urgent Appeal for 
Beijing Human Rights Lawyer Li Heping, Who Was Abducted and 
Assaulted,'' Amnesty International, reprinted in CAA (Online), 4 
October 07.
    \142\ ``House Church Members Successfully Fight Detentions For 
Unauthorized Worship,'' CECC Virtual Academy, 19 December 06; ``Court 
Officials Refuse Falun Gong Practitioner's Appeal of RTL Sentence,'' 
CECC Virtual Academy, 3 November 06.
    \143\ See the CECC Political Prisoner Database for more 
information.
    \144\ See, e.g., ``Dachang Demolishes Illegal Small Temple 
According to Law'' [Dachang zhen yifa chaichu yichu feifa xiao miao], 
Shanghai Baoshan Ethnicity and Religion Net (Online), 1 September 06; 
Mianyang City Bureau of Ethnic and Religious Affairs (Online), ``Govern 
According to the Law for Good Results, Strength To Demolish `Illegal 
Small Temples' Great,'' [Yifa zhili xiaoguo hao, chai ``feifa xiao 
miao'' lidu da], 08 June 06.
    \145\ See, e.g., ``Investigative Report on the Situation of 
Unregistered Small Temples and Convents'' [Weijing zhengfu dengji de 
xiao miao xiao an qingkuang de diaoyan baogao], Xiaogang Information 
Net (sponsored by the Beilun District People's Government Xiaogang 
Neighborhood Committee Office) (Online), 12 September 06; ``Some 
Reflections on Rural Religious Work in a New Period'' [Xin shiqi nogcun 
zongjiao gongzuo de jidian sikao], Yixing United Front Web Site 
(Online), 13 June 05.
    \146\ State Administration for Religious Affairs (Online), ``Forum 
for Religious Personages Opens in Beijing at Second-year Anniversary of 
the Implementation of the `Regulation on Religious Affairs''' 
[``Zongjiao shiwu tiaoli'' shishi liang zhou nian zongjiaojie renshi 
zuotanhui zai jing zhaokai], 3 March 07.
    \147\ See, e.g., ``China Exclusive: China Supports Buddhism in 
Building Harmonious World,'' Xinhua, 12 April 06 (Open Source Center, 
12 April 06).
    \148\ Jim Yardley, ``In Crackdown, China Shuts Buddhist Site and 
Seizes Catholic Priests,'' New York Times, 19 August 04.
    \149\ U.S. Department of State, International Religious Freedom 
Report--2006, China.
    \150\ Among provincial-level areas, the Heilongjiang Regulation on 
the Management of Religious Affairs and Inner Mongolia Autonomous 
Region Implementing Measures for the Management of Venues for Religious 
Activity recognize the Orthodox Church. Heilongjiang Regulation on the 
Management of Religious Affairs [Heilongjiangsheng zongjiao shiwu 
guanli tiaoli], issued 12 June 97, art. 2; Inner Mongolia Autonomous 
Region Implementing Measures for the Management of Venues for Religious 
Activity [Nei menggu zizhiqu zongjiao huodong changsuo guanli shishi 
banfa], issued 23 January 96, art. 2.
    \151\ For more information see ``Religious Freedom for China's 
Orthodox Christians'' in the CECC 2005 and 2006 Annual Reports.
    \152\ In addition to work in these areas, it also oversees anti-
cult work and addresses ``foreign infiltration.'' The Web site of the 
State Administration for Religious Affairs (SARA) includes a 
description of this office but does not indicate when it was 
established. The curriculum vitae for a SARA staff members notes he was 
made head of this department in December 2004. The Hong Kong newspaper 
Ta Kung Pao reported the establishment of this department in September 
2005. Chan and Carlson write that authorities decided at a January 2004 
conference to establish a SARA department focused on folk beliefs. Chan 
and Carlson, 15-16. State Administration for Religious Affairs 
(Online), ``Fourth Work Department'' [Yewu sisi], last visited 6 
October 07; State Administration for Religious Affairs (Online), ``CV 
of [SARA Official] Jiang Jianyong'' [Jiang Jianyong jianli], last 
viewed 6 October 07. ``Religious Affairs Bureau Establishes Special 
Department To Manage Folk Religions'' [Zongjiaoju she zhuansi guanli 
minjian zongjiao], Ta Kung Pao (Online), 20 September 05.
    \153\ Hunan Province Regulation on Religious Affairs, art. 48. See 
also ``Chongqing Municipality and Hunan Province Issue New Religious 
Regulations,'' CECC Virtual Academy (Online), 4 January 07. Some 
localities outside Hunan province also regulate folk beliefs. See, 
e.g., ``Xiamen Exchanges Experiences on Management of Venues for Folk 
Beliefs'' [Xiamen jiaoliu minjian xinyang huodong changsuo guanli 
jingyan], China Ethnicities News (Online), 6 February 07; ``Yanping 
District, Jian'ou City Standardizes Financial Management of Venues for 
Folk Beliefs,'' [Jian'ou shi yanping qu guifan minjian xinyang changsuo 
caiwu guanli], China Ethnicities News (Online), 13 February 07.
    \154\ ``Chongqing Municipality and Hunan Province Issue New 
Religious Regulations,'' CECC Virtual Academy (Online), 4 January 07.
    \155\ Hunan Provincial Religious Affairs Bureau (Online), ``State 
Administration for Religious Affairs Comes To Hunan To Investigate and 
Research Our Province's Present Conditions for Folk Beliefs and 
Experimental Management Situation'' [Guojia zongjiaoju lai xiang 
diaoyan wo sheng minjian xinyang xianzhuang he shidian guanli 
qingkuang], last viewed 6 October 07 (posted on the Hunan Provincial 
Religious Affairs Bureau Web site in 2007, in apparent reference to 
events in August 2006). See also ``Popular Folk Beliefs and Religion'' 
[Minjian xinyang yu zongjiao], China Religion, September 2004 
(indicating, within an official publication under SARA, some support 
for protecting folk beliefs but also subjecting them to state control).
    \156\ State Administration for Religious Affairs, ``Forum for 
Religious Personages Opens in Beijing at Second-year Anniversary of the 
Implementation of the Regulation on Religious Affairs;'' ``Some 
Reflections on Rural Religious Work in a New Period,'' Yixing United 
Front Web Site; U.S. Department of State, International Religious 
Freedom Report--2006, China. Some activities related to 
``superstitions'' or ``feudal superstitions'' are penalized under the 
Criminal Law and administrative regulations. See, e.g., the PRC 
Criminal Law, enacted 1 July 79, amended 14 March 97, art. 300, and the 
PRC Public Security Administration Punishment Law, enacted 28 August 
05, art. 27(1).

    Notes to Section II--Ethnic Minority Rights
    \1\ The word ``minzu'' refers to populations within China's borders 
that the government does not designate as Han Chinese. Although Chinese 
and outside sources have used such expressions as ``nationality'' and 
``ethnic group'' to translate the word into English, some scholars 
writing in English choose to leave the term in Chinese. See e.g., 
Gardner Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives 
and Uyghur Discontent,'' East-West Center Washington 2004, Policy 
Studies 11, 49 (endnote 4); Jonathan N. Lipman, Familiar Strangers: A 
History of Muslims in Northwest China (Seattle: University of 
Washington Press, 1997), xx-xxv (discussing the notion of minzu).
    The 55 groups designated as minzu are spread across nearly two-
thirds of China's area, mainly along international borders. They speak 
more than 60 languages and include communities such as Koreans, 
Mongols, and Kazaks that have ethnic counterparts in neighboring 
countries. For more information, see the ``Special Focus for 2005: 
China's Minorities and Government Implementation of the Regional Ethnic 
Autonomy Law,'' CECC, 2005 Annual Report, 11 October 05, 13-23.
    \2\ ``Major Figures of the 2000 Population Census,'' National 
Bureau of Statistics of the PRC posted on the Web site of the China 
Population Information and Research Center (Online), 28 March 2001.
    \3\ See generally Regional Ethnic Autonomy Law (REAL), enacted 31 
May 84, amended 28 February 01; PRC Constitution, art. 4. For ethnic 
minority protections within other laws, see, e.g., the PRC Education 
Law, enacted 18 March 95, art. 9, 12; PRC Labor Law, enacted 5 July 94, 
art. 12, 14.
    \4\ See discussion infra for more information on restrictions on 
ethnic minority rights. Regarding international human rights standards, 
see, e.g., the Universal Declaration of Human Rights, adopted and 
proclaimed by General Assembly resolution 217 A (III) of 10 December 
48, art. 2, 7; International Covenant on Civil and Political Rights 
(ICCPR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 2(1), 26, 27; 
International Covenant on Economic, Social, and Cultural Rights 
(ICESCR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 2(2); Convention on 
the Rights of the Child (CRC), adopted and opened for signature, 
ratification, and accession by General Assembly resolution 44/25 of 20 
November 89, entry into force 2 September 90, art. 2(1), 30. See 
generally, International Convention on the Elimination of All Forms of 
Racial Discrimination (CERD), adopted and opened for signature and 
ratification by General Assembly resolution 2106 (XX) of 21 December 
65, entry into force 4 January 69. Article 1(1) of CERD defines racial 
discrimination to mean ``any distinction, exclusion, restriction or 
preference based on race, colour, descent, or national or ethnic origin 
which has the purpose or effect of nullifying or impairing the 
recognition, enjoyment or exercise, on an equal footing, of human 
rights and fundamental freedoms in the political, economic, social, 
cultural or any other field of public life.''
    China is a party to the ICESCR, CRC, and CERD, and a signatory to 
the ICCPR. The Chinese government has committed itself to ratifying, 
and thus bringing its laws into conformity with, the ICCPR and 
reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly. As a signatory to the ICCPR, China is required under Article 
18 of the Vienna Convention on the Law of Treaties, to which it is a 
party, ``to refrain from acts which would defeat the object and purpose 
of a treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \5\ State Council Provisions on Implementing the PRC Regional 
Ethnic Autonomy Law (REAL Implementing Provisions) [Guowuyuan shishi 
``Zhonghua renmin gongheguo minzu quyu zizhifa'' ruogan guiding], 
issued 19 May 05.
    \6\ See, e.g., REAL Implementing Provisions, art. 5, 10-12, 15, 25, 
30, 34.
    \7\ REAL Implementing Provisions, art. 22, 29. Article 22 promotes 
``bilingual education'' in Chinese and ethnic minority languages. The 
article represents a shift from Article 37 of the 1984 REAL, which 
articulates support for education within ethnic minority languages. 
While the REAL promotes language and literature courses in Mandarin 
Chinese, it does not call for ``bilingual education.'' As discussed 
infra, some ``bilingual'' programs have eliminated almost all use of 
ethnic minority languages.
    \8\ REAL, art. 19.
    \9\ ``NPCSC Examines Implementation of Regional Ethnic Autonomy 
Law,'' CECC China Human Rights and Rule of Law Update, August 2006, 6-
7. ``Official Evaluates Regional Ethnic Autonomy in Inner Mongolia,'' 
CECC China Human Rights and Rule of Law Update, September 2006, 16-17.
    \10\ ``Official Evaluates Regional Ethnic Autonomy in Inner 
Mongolia,'' CECC China Human Rights and Rule of Law Update, September 
2006, 16-17.
    \11\ ``Mongolian Internet Forum Closed for Discussing Ethnic 
Problems,'' Southern Mongolian Human Rights Information Center 
(Online), 16 July 07; ``Two Ethnic Minority Web Sites in Inner Mongolia 
Closed,'' CECC China Human Rights and Rule of Law Update, July 2006, 
14; ``Authorities Close Two Mongolian-Language Web Sites for Posting 
`Separatist' Materials,'' CECC China Human Rights and Rule of Law 
Update, November 2005, 13-14.
    \12\ ``Authorities Try Mongol Couple, Assault Son of Imprisoned 
Mongol Activist,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 2. See the CECC Political Prisoner Database for more 
information.
    \13\ ``Mongolian Dissident's Passport Application Denied for 
`Possible Harm to State Security and National Interests,''' Southern 
Mongolian Human Rights Information Center (Online), 8 August 07.
    \14\ ``Authorities Try Mongol Couple, Assault Son of Imprisoned 
Mongol Activist,'' CECC China Human Rights and Rule of Law Update, 
August 2006, 2. See the CECC Political Prisoner Database for more 
information.
    \15\ ``Inner Mongolia Government Promotes Mongolian Language,'' 
CECC China Human Rights and Rule of Law Update, September 2006, 10-11.
    \16\ See, e.g., Human Rights in China, ``China: Minority Exclusion, 
Marginalization and Rising Tensions,'' 2007, 22-24. For information on 
the impact of economic development in the XUAR, see e.g., Sean R. 
Roberts, ``A `Land of Borderlands': Implications of Xinjiang's Trans-
border Interactions'' in Xinjiang: China's Muslim Borderland, ed. S. 
Frederick Starr (Armonk, NY: M.E. Sharpe, 2004), 224-225 and Stanley W. 
Toops, ``The Ecology of Xinjiang: A Focus on Water,'' in Xinjiang: 
China's Muslim Borderland, 270-271. See also Section IV--Tibet for more 
information on development issues in Tibetan areas.
    \17\ State Council General Office Circular on Printing and Issuing 
the 11th 5-Year Program for Ethnic Minority Undertakings [Guowuyuan 
bangongting guanyu yinfa shaoshu minzu shiye `shiyiwu' guihua de 
tongzhi], issued 27 February 07.
    \18\ Zhao Huanxin, ``Priority Plan for Ethnic Minorities,'' China 
Daily, 30 March 07 (Open Source Center, 30 March 07).
    \19\ State Council General Office Circular on Printing and Issuing 
the 11th 5-Year Program for Ethnic Minority Undertakings, item 1(3), 
2(9).
    \20\ Ibid., item 2(11).
    \21\ See ``Rights Violations in Xinjiang'' and ``Religious Freedom 
for China's Muslims,'' CECC, 2005 Annual Report, 21-23 and 51-53 for 
addition information. For information on policies beginning in the 
1990s, see, e.g., Nicolas Becquelin, ``Xinjiang in the Nineties,'' The 
China Journal, No. 44, July 00, 68-70, 86-88; James A. Millward, 
Eurasian Crossroads: A History of Xinjiang (New York: Columbia UP, 
2007), 322-341.
    \22\ For an overview of the campaigns, see Human Rights Watch and 
Human Rights in China, ``Devastating Blows: Religious Repression of 
Uighurs in Xinjiang,'' April 05, 66-69. (Online. Pagination follows 
``text-only'' pdf download of this report.)
    \23\ ``Wang Lequan Stresses at Regional Political and Legal Work 
Conference a Need To Think of Dangers When in Safety, Firmly Seize 
Initiative in Struggling Against the Enemies,'' Xinjiang Daily, 7 
January 07 (Open Source Center, 9 January 07).
    \24\ ``Xinjiang Public Security Offices Destroy `East Turkistan 
Islamic Movement' Terrorist Training Base'' [Xinjiang gong'an jiguan 
daohui ``gongyiyun'' yichu kongbu xunlian yingdi], Tianshan Net 
(Online), 8 January 07.
    \25\ See, e.g., Robert Saiget, ``Questions Linger Over China's 
Terrorist Threat After Deadly Raid,'' Agence France-Presse, reprinted 
in Yahoo news (Online), 10 January 07 (citing scholar Dru Gladney, who 
stated that the government had provided little evidence indicating the 
existence of a terrorist base rather than another criminal, but non-
terrorist, operation); ``Chinese Government's Claims of Uyghur 
Terrorism Still Lack Substance,'' Uyghur American Association (Online), 
9 January 07.
    \26\ In addition to portraying peaceful acts as terrorist threats 
(such as charging writer Nurmemet Yasin with ``inciting splittism'' for 
authoring a short story about a caged pigeon), the government may also 
portray some ordinary criminal activity as terrorist or separatist. 
``Uighurs Face Extreme Security Measures; Official Statements on 
Terrorism Conflict,'' CECC China Human Rights and Rule of Law Update, 
May 2006, 12. For an analysis of Chinese statistics on terrorism and 
separatism, see James Millward, ``Violent Separatism in Xinjiang: A 
Critical Assessment,'' East-West Center Washington 2004, Policy Studies 
6.
    \27\ Wang Lexiang, ``Analysis of Mass Incidents in Xinjiang and 
Suggestions on How To Handle Them,'' Beijing Public Security Research, 
20 July 07 (Open Source Center, 3 September 07).
    \28\ ``Soundly Drive Ahead in the Fight Against Separatism, 
Resolutely Safeguard Xinjiang's Stability'' [Zhashi tuijin fanfenlie 
douzheng jianjue weihu xinjiang wending], Tianshan Net (Online), 7 
August 07.
    \29\ Human Rights Watch, ``Devastating Blows,'' 71-72. The report 
cites official data published in 2001.
    \30\ Ibid., 73-74, citing official data published in 2001.
    \31\ Ibid., 72. Human Rights Watch and Human Rights in China 
estimate this percentage may represent over 1,000 prisoners. The state 
prosecuted 4,500 people nationwide for the crime of endangering state 
security between 1998 and 2004. ``China state security trials `find 99 
pct guilty,''' Reuters (Online), 21 February 06.
    \32\ Human Rights Watch, ``Devastating Blows,'' 69.
    \33\ Schools have reduced minority language use through programs 
the government deems ``bilingual,'' but that place primacy on Mandarin 
Chinese, in some cases at the almost complete exclusion of ethnic 
minority languages. See, e.g., ``Our District Promotes Bilingual 
Education Work, By 2012 Our District Will Realize Every Ethnic Minority 
Language School Teaching All Classes in Mandarin Except for Mother-
Tongue [Language Arts] Class'' [Woqu tuijin shuangyu jiaoxue gongzuo 
dao 2012 nian, woqu jiang shixian ge minyu xuexiao chu muyu wai suoyou 
kecheng dou shiyong hanyu jiaoxue], Chochek News, reprinted in Chochek 
Online, 20 December 06; ``City in Xinjiang Mandates Exclusive Use of 
Mandarin Chinese in Schools,'' CECC China Human Rights and Rule of Law 
Update, September 2006, 9-10; ``Xinjiang Official Describes Plan To 
Expand Use of Mandarin in Minority Schools,'' CECC China Human Rights 
and Rule of Law Update, March 2006, 13. ``Xinjiang Government Promotes 
Mandarin Chinese Use Through Bilingual Education,'' CECC China Human 
Rights and Rule of Law Update, January 2006, 17-18. For a general 
overview of bilingual education in the XUAR, including information on 
how bilingual education in the XUAR has been focused on transitioning 
students away from using their native language in school, see Arienne 
M. Dwyer, ``The Xinjiang Conflict: Uyghur Identity, Language Policy, 
and Political Discourse,'' East-West Center Washington 2005, Policy 
Studies 15, especially pages 38-41. For more information on the recent 
scope of bilingual education, see, e.g., ``Xinjiang Bilingual Education 
Students Increase 50-Fold in 6 Years'' [Xinjiang shuangyu xuesheng liu 
nian zengzhang 50 bei], Xinjiang Economic News, reprinted in Tianshan 
Net, 31 October 06. In 2005 and 2006 the government announced it would 
establish ``bilingual'' preschool education in seven prefectures 
through programs that provide material incentives for students to 
enroll. ``5-Year Investment of 430 Million Yuan To Develop Rural 
Bilingual Preschool Education, Which Our District Will Launch This 
Fall'' [5 nian touru 4.3 yi fazhan nongcun xueqian ``shuangyu'' jiaoyu 
woqu jinnian qiuji qidong xueqian ``shuangyu'' jiaoyu], Xinjiang 
Education News, reprinted on Xinjiang Education Department Web site, 3 
July 06; ``Xinjiang Official Describes Plan To Expand Use of Mandarin 
in Minority Schools,'' CECC Human Rights and Rule of Law Update, March 
2006, 13.
    Chinese law guarantees the freedom of ethnic minorities to use and 
develop their own languages and promotes education in those languages. 
REAL, art. 10, 37. The 2005 REAL Implementing Provisions affirm the 
freedom to use and develop minority languages, but also place emphasis 
on the use of Mandarin by promoting bilingual education and bilingual 
teaching staff. REAL Implementing Provisions, art. 22.
    \34\ See, e.g., ``Artush Starts Mandarin Chinese Strengthening 
Training Class in Shenyang'' [Atushi kaiban fu Shenyang jiaoshi hanyu 
qianghua peixunban], Kizilsu News, reprinted on the Kizilsu Kirghiz 
Autonomous Prefecture Government Web site, 16 August 06; ``China 
Imposes Chinese Language on Uyghur Schools,'' Radio Free Asia (Online), 
16 March 04; ``Uyghur Language Under Attack: The Myth of `Bilingual' 
Education in the People's Republic of China,'' Uyghur Human Rights 
Project, 24 July 07, 7-9. The XUAR government has started a program to 
bring teachers from across the country to teach in XUAR schools. See, 
e.g., ``Xinjiang's First Batch of Specially Appointed Teachers Get Pre-
Job Training'' [Xinjiang shoupi ``tegang jiaoshi'' jieshou gang qian 
peixun], Xinjiang Economic News, reprinted in Tianshan Net, 30 August 
06.
    \35\ ``Civil Servant Recruitment in Xinjiang Favors Han Chinese,'' 
CECC China Human Rights and Rule of Law Update, August 2006, 6. See 
also ``Xinjiang Government Says Ethnic Han Chinese Will Get 500 of 700 
New Civil Service Appointments,'' CECC Virtual Academy, 7 April 05.
    \36\ See, e.g., REAL Implementing Provisions, art. 29; ``Important 
Meaning'' [Zhongyao yiyi], Web site of the State Administration for 
Ethnic Affairs, 13 July 04; ``Some Suggestions of the State Council on 
Continuing To Press Ahead with the Development of the Western Region,'' 
Xinhua, 22 March 04 (Open Source Center, 22 March 04). See also Gardner 
Bovingdon, ``Autonomy in Xinjiang: Han Nationalist Imperatives and 
Uyghur Discontent,'' East-West Center Washington 2004, Policy Studies 
11, 44; Becquelin, ``Xinjiang in the Nineties,'', 74-76; Stanley W. 
Toops, ``The Demography of Xinjiang,'' in Xinjiang: China's Muslim 
Borderland, 247.
    \37\ ``Xinjiang Focuses on Reducing Births in Minority Areas To 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 15-16; ``Xinjiang Reports High Rate of Population 
Increase,'' CECC China Human Rights and Rule of Law Update, March 2006, 
16-17. A 1953 government census found that Han Chinese constituted 6 
percent of the XUAR's population of 4.87 million, while Uighurs made up 
75 percent. The 2000 census listed the Han population at 40.57 percent 
and Uighurs at 45.21 percent of a total population of 18.46 million. 
Demographer Stanley Toops has noted that Han migration since the 1950s 
is responsible for the ``bulk'' of the XUAR's high population growth in 
the past half century. Stanley Toops, ``Demographics and Development in 
Xinjiang after 1949,''East-West Center Washington Working Papers No. 1, 
May 04, 1.
    \38\ See, e.g., ``Money From Our Kids Has Come'' [Zan haizi jiqian 
laile], Tianshan net (Online), 25 June 07; ``160 Rural Women from 
Kashgar Go to Tianjin To Apply Their Labor'' [Xinjiang Kashi 160 ming 
nongcun funu fu Tianjin wugong], Urumqi Evening News reprinted in 
Tianshan Net, 19 March 07.
    \39\ See, e.g., ``Uyghur Girls Forced Into Labor Far From Home By 
Local Chinese Officials,'' Radio Free Asia (Online), 11 July 07. Radio 
Free Asia's Uighur language service also has reported extensively on 
labor transfer programs.
    \40\ ``Xinjiang Government Continues Controversial `Work-Study' 
Program,'' CECC China Human Rights and Rule of Law Update, November 
2006, 11. The central government holds tight control over the economy 
in the resource-rich XUAR. Calla Wiemer, ``The Economy of Xinjiang,'' 
in Xinjiang: China's Muslim Borderland, 163-164.
    \41\ Opinion on Strengthening the Management of Secondary and 
Elementary School Students' Work-Study Service Activities [Guanyu 
jiaqiang zhongxiaoxue qingongjianxue laowu huodong guanli de yijian], 
issued 8 May 06. See ``Xinjiang Government Continues Controversial 
`Work-Study' Program,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 11, for an analysis of this opinion.
    \42\ See the CECC Political Prisoner Database for more information 
about these cases.
    \43\ Kadeer was a businesswoman and civic leader in the XUAR who 
had advocated for attention to ethnic minority rights. Authorities 
detained her in 1999 while she was en route to meet a delegation from 
the U.S. government. Kadeer was convicted at a secret trial and 
sentenced in 2000 to eight years in prison for ``unlawfully supplying 
state secrets or intelligence to entities outside China,'' based on 
newspaper clippings she had sent her husband in the United States. For 
more information, see the CECC Political Prisoner Database.
    \44\ ``Son of Rebiya Kadeer Sentenced to Nine Years in Prison on 
Charges of `Secessionism,''' Uyghur American Association (Online), 17 
April 07. ``Abdurehim'' is an alternate spelling for Ablikim's second 
name.
    \45\ ``Rebiya Kadeer's Sons Receive Prison Sentence, Fines, for 
Alleged Economic Crimes,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 15-16. ``Qahar'' is an alternate spelling for 
``Kahar.''
    \46\ ``Rebiya Kadeer's Children Held in Custody, Beaten,'' CECC 
China Human Rights and Rule of Law Update, June 2006, 2.
    \47\ ``Rebiya Kadeer's Employees Released After Seven-Month 
Detention,'' CECC China Human Rights and Rule of Law Update, February 
2006, 4-5.
    \48\ For information on Celil's case, see, e.g., ``China Sentences 
Canadian Activist to Life in Prison,'' Associated Press reprinted in 
the International Herald Tribune, 19 April 07. ``Canada Protests 
Sentencing of Human-Rights Activist by China,'' Toronto Globe and Mail, 
20 April 07 (Open Source Center, 20 April 07). The XUAR High People's 
Court refused Celil's appeal in July. ``Chinese Court Rejects Appeal of 
Convicted Xinjiang Terrorist,'' Xinhua, reprinted in People's Daily 
(Online), 10 July 07. For more information on other Uighurs deported to 
China or at risk of deportation, see ``Central Asia Summary of Human 
Rights Concerns January 2006-March 2007,'' Amnesty International 
(Online), 2007.

    Notes to Section II--Population Planning
    \1\ CECC, 2006 Annual Report, 20 September 06, 109.
    \2\ The population increased by roughly 300 million from 1980 to 
2005. Statistic cited in Tyrene White, China's Longest Campaign: Birth 
Planning in the People's Republic, 1949-2005 (Ithaca: Cornell UP, 
2006), 263. For official Chinese government information on its 
population planning policies see State Council Information Office, 
White Paper on Population in China, 19 December 00. For information on 
the number of births prevented, see paragraph 7 of the report.
    \3\ Quoted in White, China's Longest Campaign, 238.
    \4\ Central Committee of the CCP and State Council Decision 
Regarding the Comprehensive Strengthening of Population and Family 
Planning Work To Resolve the Population Problem as a Whole [Zhonggong 
zhongyang guowuyuan guanyu quanmian jiaqiang renkou he jihua shengyu 
gongzuo tongchou jiejue renkou wenti de jueding], issued 17 December 
06.
    \5\ Guan Xiaofeng, ``Official: Family Planning Policy To Stay,'' 
China Daily, reprinted on the National Population and Family Planning 
Commission of China Web site, 4 July 07.
    \6\ The circumstances under which women may bear a second child are 
governed by provincial-level regulations. Provincial regulations have 
allowed additional children for ethnic minorities and some rural Han 
Chinese residents and permitted second births where the first child is 
a girl, is disabled, or, in some cases, where both parents are only 
children themselves, among other circumstances. For basic codification 
of the one-child policy, see Population and Family Planning Law of the 
People's Republic of China (Population and Family Planning Law), 
adopted 29 December 01, art. 18. For examples of restrictions in local 
regulations, see, e.g., Henan Province Population and Family Planning 
Regulation [Henansheng renkou yu jihua shengyu tiaoli], adopted 30 
November 02, art. 15, 17, 18; Xinjiang Uighur Autonomous Region (XUAR) 
Regulation on Population and Family Planning [Xinjiang weiwu'er zizhiqu 
renkou yu jihua shengyu tiaoli], art. 15. Article 15 of the Henan 
province regulation ``advocates that a couple give birth to one child, 
strictly controls the birth of a second child, and prohibits the birth 
of a third child.'' Articles 17 and 18 stipulate conditions under which 
couples may apply for approval to have a second child, such as where a 
first child carries a genetic disability. Article 15 of the XUAR 
regulation allows urban Han Chinese couples to have one child, urban 
ethnic minority couples and rural Han Chinese couples to have two, and 
rural ethnic minority couples to have three. See also Gu Baochang et 
al., ``China's Local and National Fertility Policies at the End of the 
Twentieth Century,'' Population and Development Review 33(1), March 
2007, 132-136. Government officials have attempted to downplay controls 
by stating that a strict one-child rule affects less than 36 percent of 
the population. See, e.g., ``Many Free To Have More Than One Child,'' 
Xinhua (Online), 11 July 07.
    \7\ Population and Family Planning Law, art. 41. Each provincial-
level government determines its own fees. Measures for Collection of 
Social Compensation Fees [Shehui fuyangfei zhengshou guanli banfa], 
issued 2 September 02, art. 3, 7. In Beijing, parents who have children 
in violation of the local regulation, including unmarried women who are 
in violation by giving birth to a child, face fines that range from 3 
to 10 times the area's average income. Beijing Measures for Managing 
the Collection of Social Compensation Fees [Beijing shi shehui 
fuyangfei zhengshou guanli banfa], adopted 5 November 02, art. 5. Fees 
are lower in Shandong province, where the fine is set at 30 percent of 
local incomes. Shandong Province Measures for Managing the Collection 
of Birth Control Social Compensation Fees [Shandongsheng jihua shengyu 
shehui fuyangfei zhengshou guanli banfa], issued 1998, art. 4.
    \8\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau) (Online), 6 March 07.
    \9\ Under Article 41 of the Population and Family Planning Law, 
where a citizen does not pay the social compensation fee, ``the 
administrative department for family planning that makes the decision 
on collection of the fees shall, in accordance with law, apply to the 
People's Court for enforcement.'' Population and Family Planning Law, 
art. 41. U.S. Department of State, Country Reports on Human Rights 
Practices--2006; CECC Staff Interview.
    \10\ See, e.g., ``Family Planning Faces Challenge from New Rich,'' 
Xinhua, reprinted in China Daily (Online), 14 December 05. Officials 
have said the government will take measures to discourage wealthier 
citizens from violating restrictions. Alice Yan and Kristine Kwok, 
``One-Child Crackdown Looms for Elite; Officials Consider Stiffer 
Penalties for Rich and Famous Who Flout Family Policy,'' South China 
Morning Post (Online), 1 March 07.
    \11\ ``2,000 Officials Breach `One-Child' Policy in Hunan,'' China 
Daily, reprinted on China Elections and Governance Web site, 9 July 07. 
The Hunan government amended local regulations on population planning 
in September to increase fines for violating the regulations. ``Chinese 
Province Raises Fines on Wealthy Flouters of Family Planning Laws,'' 
Xinhua, 29 September 07 (Open Source Center, 29 September 07).
    \12\ ``Chinese Officials Breaching One-Child Policy Denied 
Promotion,'' Xinhua, 14 September 07 (Open Source Center, 14 September 
07).
    \13\ See, e.g., ``State Population and Family Planning Commission 
Indicates `Encouraging and Rewarding Fewer Births' To Be Carried Out at 
Least 20-30 Years'' [Guojia renkou jishengwei biaoshi ``jiangli 
shaosheng'' zhishao zhixing er san shinian], People's Daily (Online), 
19 October 06; ``Encouragement and Reward Assistance System To Enter 
Implementation Phase'' [Jiangli fuzhu zhidu jiang jinru shishi 
jieduan], People's Daily (Online), 16 October 06. Yang Jie, 
``Autonomous Region Launches Important Reform on General College 
Entrance Examination,'' Xinjiang Daily, 31 May 07 (Open Source Center, 
12 June 07).
    \14\ National Population and Family Planning Commission Circular on 
Printing and Distributing Action Plan for Special Rectification of 
Unlawful Births in Cities and Towns [Guojia renkou jishengwei guanyu 
yinfa chengzhen weifa shengyu zhuanxiang zhili xingdong fang'an de 
tongzhi], issued 24 May 07. For an English translation, see ``China: 
Action Plan To Rectify Unlawful Births in Urban Areas,'' Open Source 
Center, 16 June 07.
    \15\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted and opened for signature, ratification, and 
accession by General Assembly resolution 34/180 of 18 December 79, 
entry into force 3 September 81, art. 2, 3, 16(1)(e).
    \16\ Convention on the Rights of the Child, adopted and opened for 
signature, ratification, and accession by General Assembly resolution 
44/25 of 20 November 89, entry into force 2 September 90, art. 2, 3, 4, 
6, 26. China has submitted a reservation to Article 6: ``[T]he People's 
Republic of China shall fulfil its obligations provided by article 6 of 
the Convention under the prerequisite that the Convention accords with 
the provisions of article 25 concerning family planning of the 
Constitution of the People's Republic of China and in conformity with 
the provisions of article 2 of the Law of Minor Children of the 
People's Republic of China.'' Office of the UN High Commissioner for 
Human Rights, ``Declarations and reservations to the Convention on the 
Rights of the Child'' (Online).
    \17\ International Covenant on Economic, Social, and Cultural 
Rights (ICESCR) adopted by General Assembly resolution 2200 A (XXI) of 
16 December 66, entry into force 3 January 76, art. 10(3).
    \18\ Population and Family Planning Law, art. 39.
    \19\ See, e.g., ``7,000 Forcibly Sterilised in Eastern China,'' 
South China Morning Post (Online), 12 September 05; Joseph Kahn, 
``Advocate for China's Weak Crosses the Powerful,'' New York Times, 20 
July 06. For Chinese reporting on events in Linyi, see, e.g., 
``Officials Fired for Forced Abortions,'' Xinhua (Online), 21 September 
05; ``PRC Official Confirms Irregularities in Shandong Family Planning 
Management,'' Xinhua, 19 September 05 (Open Source Center, 26 September 
05).
    \20\ See the CECC Political Prisoner Database for more information 
on Chen Guangcheng.
    \21\ See, e.g., ``Guangxi Town `Tense' After One-Child Protest Put 
Down,'' South China Morning Post (Online), 22 May 07; Joseph Kahn, 
``Birth Control Measures Prompt Riots in China,'' New York Times 
(Online), 21 May 07; ``Government Uses Iron Fist To Force Sterilization 
of Female Student'' [Zhengfu tiewan bi nusheng jueyu], Ming Pao 
(Online), 22 May 07.
    \22\ See, e.g., Chow Chung-yan, ``One-Child Policy Riots Flare Up--
Anger Over Birth-Control Fines Spreads across Guangxi,'' South China 
Morning Post (Online), 31 May 07; ``10,000 Riot in Guangxi,'' Tung Fang 
Jih Pao, 21 May 07 (Open Source Center, 21 May 07); ``Guangxi Family 
Planning Protests Erupt Again in Rong County,'' Radio Free Asia 
(Online), 29 May 07. In July, state-controlled media reported that two 
men received prisons sentences of one and two years for their 
involvement in the protests. ``China Jails Two Men for Birth-Control 
Riots,'' Reuters (Online), 23 July 07.
    \23\ ``Full-Term Abortion Lawsuit a First for China,'' Caijing 
(Online), 25 July 07.
    \24\ The pressures created by population planning policies, 
combined with entrenched preferences for male children and under-
reporting of female births, have factored into estimates of China's 
unbalanced sex ratio. See White, China's Longest Campaign, 203-207, for 
more information on sex ratios in China and in other countries with 
traditional preferences for boys.
    \25\ ``New Policy Will Offer Cash Instead of Kids,'' China Daily 
(Online), 16 October 06.
    \26\ Decision Regarding the Comprehensive Strengthening of 
Population and Family Planning Work To Resolve the Population Problem 
as a Whole. Article 35 of the 2002 Population and Family Planning Law 
prohibits, but does not penalize, sex-selective abortion. Population 
and Family Planning Law, art. 35.
    \27\ Statistics cited in U.S. Department of State, ``Country 
Reports on Human Rights Practices--2006. There is some variation in 
reporting on the sex ratio. See the CECC, 2006 Annual Report, 230 
(footnote 34) for an overview of estimates during and before 2006.
    \28\ ``Abortion Law Amendment To Be Abolished,'' China Daily, 
reprinted in Xinhua, 26 June 06.
    \29\ Henan Province Regulation on Prohibiting Non-Medically 
Necessary Fetal Sex Determination and Sex-Selective Abortion 
[Henansheng jinzhi feiyixue xuyao tai'er xingbie jianding he xuenze 
xingbie rengong zhongzhi renshen tiaoli], issued 29 September 06. The 
regulation only allows sex determination for cases in which medical 
personnel suspect the existence of a congenital disease. For women who 
have abided by all population planning requirements and are more than 
14 weeks pregnant, abortion is permitted only when a serious hereditary 
disease or severe birth defect is detected; if continuation of 
gestation will damage the health or life of the pregnant woman; or if 
the pregnant woman is divorced or widowed. The regulation does not 
alter the legal framework for abortion prior to 14 weeks of gestation 
or for women whose pregnancy violates population planning requirements. 
The regulation also prohibits the retail sale of abortion-inducing 
drugs, limits manufacturers' ability to distribute such 
pharmaceuticals, and requires a physician to administer these drugs. 
Penalties include fines of up to 2,000 yuan (US$260) for women who have 
abortions in violation of the regulation's parameters, and fines of up 
to 30,000 yuan (US$3,870) and possible revocation of licenses for 
health organizations that do not comply with the new regulation.
    \30\ For an overview of such measures, known as a ``1.5-children 
policy,'' see Gu, ``China's Local and National Fertility Policies at 
the End of the Twentieth Century,'' 133, 138.
    \31\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 12 June 07.
    \32\ ``Xinjiang Focuses on Reducing Births in Minority Areas To 
Curb Population Growth,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 15-16; ``Xinjiang Reports High Rate of Population 
Increase,'' CECC China Human Rights and Rule of Law Update, March 2006, 
16-17. A 1953 government census found that Han Chinese constituted 6 
percent of the XUAR's population of 4.87 million, while Uighurs made up 
75 percent. The 2000 census listed the Han population at 40.57 percent 
and Uighurs at 45.21 percent of a total population of 18.46 million. 
Demographer Stanley Toops has noted that Han migration since the 1950s 
is responsible for the ``bulk'' of the XUAR's high population growth in 
the past half century. Stanley Toops, ``Demographics and Development in 
Xinjiang after 1949,''East-West Center Washington Working Papers No. 1, 
May 04, 1.

    Notes to Section II--Freedom of Residence and Travel
    \1\ For a fieldwork-based case study that discusses the impact of 
the hukou system, including provisions allowing family members of urban 
hukou holders to transfer their status, see Dorothy J. Solinger, ``The 
Sad Story of Zheng Erji Who Landed in the City Through the Favors 
Reform-Era Policies Bestowed But Rewrote the Rules While Suffering 
Wrongs, Once There,'' in Dorothy J. Solinger, ed., Narratives of the 
Chinese Economic Reforms (Lewiston, NY: The Edwin Mellen Press, 2005), 
113-127, esp. 121, 123, 125.
    \2\ See, e.g., Universal Declaration of Human Rights (UDHR), 
adopted and proclaimed by General Assembly resolution 217A (III) of 10 
December 48, art. 2, 13; International Covenant on Civil and Political 
Rights (ICCPR) , adopted by General Assembly resolution 2200A (XXI) of 
16 December 66, entry into force 23 March 76, art. 2(1), 12(1), 12(3), 
26; the International Covenant on Economic, Social, and Cultural Rights 
(ICESCR) adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 3 January 76, art. 2(2). [See Section X, 
``Protection of Internationally Recognized Labor Rights,'' for more 
information on China's obligations to comply with internationally 
recognized labor rights, include provisions relevant to migrant 
workers' status.]
    \3\ China is a party to the ICESCR and a signatory to the ICCPR . 
The Chinese government has committed itself to ratifying, and thus 
bringing its laws into conformity with, the ICCPR and reaffirmed its 
commitment as recently as April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
previously stated on three separate occasions that they are preparing 
for ratification of the ICCPR, including in a September 6, 2005, 
statement by Politburo member and State Councilor Luo Gan at the 22nd 
World Congress on Law, in statements by Chinese Premier Wen Jiabao 
during his May 2005 Europe tour, and in a January 27, 2004, speech by 
Chinese President Hu Jintao before the French National Assembly. As a 
signatory to the ICCPR, China is required under Article 18 of the 
Vienna Convention on the Law of Treaties, to which it is a party, ``to 
refrain from acts which would defeat the object and purpose of a 
treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \4\ UN Committee on Economic, Social and Cultural Rights (CESCR), 
``UN Committee on Economic, Social and Cultural Rights: Concluding 
observations: People's Republic of China (including Hong Kong and 
Macao)'' (Online via UNHCR Refword)13 May 2005. E/C.12/1/Add.107, 
para. 15. This committee is charged with monitoring states' compliance 
with the ICESCR.
    \5\ State Council Notice on Endorsing the Public Security Bureau's 
Opinions on Promoting Reform of the Management System for Residence 
Permits in Small Towns and Cities [Guowuyuan pizhuan gong'anbu guanyu 
tuijin xiaochengzhen huji guanli zhidu gaige yijian de tongzhi], issued 
30 March 01. Under these rules, migrants to small cities or towns may 
keep their land rights in their villages of origin. For more 
information on earlier reforms, see the CECC Topic Paper ``China's 
Household Registration System: Sustained Reform Needed To Protect 
China's Rural Migrants,'' October 2005.
    \6\ See the CECC 2003 Annual Report for more information. CECC, 
2003 Annual Report, 2 October 03, 52.
    \7\ Regulations on Legal Aid [Falu yuanzhu tiaoli], issued 21 July 
03.
    \8\ State Council Office Circular on Improving Work on Management 
and Services for Migrant Workers in Cities [Guowuyuan bangongting 
guanyu zuohao nongmin jincheng wugong jiuye guanli he fuwu gongzuo de 
tongzhi], issued 5 January 03.
    \9\ State Council Circular Transmitting the Opinion of the 
Education and Other Ministries Relating to Further Work on Migrant 
Children's Compulsory Education [Guowuyuan bangongting zhuanfa jiaoyubu 
deng bumen guanyu jin yibu zuohao jincheng wugong jiuye nongmin zinu 
yiwu jiaoyu gongzuo yijian de tongzhi], issued 17 September 03.
    \10\ State Council Office Circular Regarding Work on Improving the 
Employment Situation for Migrants in Urban Areas [Guowuyuan bangongting 
guanyu jin yibu zuo hao gaishan nongmin jincheng jiuye huanjing gongzuo 
de tongzhi], issued 27 December 04.
    \11\ ``Labor Ministry Officials Remove Regulatory Barrier to 
Migrants Seeking Work in Cities,'' CECC Virtual Academy, 4 October 06.
    \12\ Central Party Committee, State Council Opinion on Promoting 
the Construction of a New Socialist Countryside [Zhong-gong zhongyang 
guowuyuan guanyu tuijin shehuizhuyi xin nongcun jianshe de ruogan 
yijian], issued 31 December 05. See also ``Communist Party, State 
Council Set Rural Reform Goals for 2006,'' CECC China Human Rights and 
Rule of Law Update, April 2006, 8.
    \13\ State Council Opinion on Resolving Migrant Worker Problems 
[Guowuyuan guanyu jiejue nongmingong wenti de ruogan yijian], issued 27 
March 2006.
    \14\ PRC Compulsory Education Law, adopted 12 April 86, revised 29 
June 06, art. 12; ``Amended Compulsory Education Law Would Assure 
Migrant Children the Right To Attend School'' [``Yiwu jiaoyufa'' 
xiuding cao'an baozhang liudong renkou zinu shangxue], CCTV (Online), 1 
May 06.
    \15\ Resolution Concerning the Question of Delegate Quotas and 
Elections for the 11th Session of the National People's Congress'' 
[Guanyu shiyi jie quanguo renda daibiao ming'e he xuanju wenti de 
jueding], Guangdong News (Online), 16 March 07. ``NPC's Approval of Key 
Laws Seen as Promotion of Social Justice by Chinese Academics,'' Xinhua 
News reprinted by BBC (Online), 16 March 07. Whether the resolution 
will give migrant workers a greater voice in practice remains unclear. 
In an article from the Xinhua news agency, one migrant worker expressed 
concern over election logistics since most migrant workers lack urban 
residence registrations, making them ineligible to vote in the cities 
where they reside. ``Rural Migrant Workers To Enter China's Top 
Legislature,'' Xinhua (Online), 8 March 2007. In January 2006, the 
Shanghai local people's congress (LPC) for the first time allowed two 
migrant workers from Jiangsu province to attend a session of the 
Shanghai LPC as observers. The China Economic Times, a State Council-
sponsored publication, criticized the Shanghai LPC, however, for not 
allowing the two migrants to serve as full representatives. It noted 
that hukou restrictions bar many migrants from standing for election, 
and that none of the 1,000 LPC delegates attending the session 
represented Shanghai's 4 million migrant workers. ``State Council 
Newspaper Criticizes Lack of Migrant Representation in Shanghai LPC,'' 
CECC China Human Rights and Rule of Law Newsletter, March 2006, 13-14.
    \16\ ``Hukou Reform Submitted To State Council, Legal and Fixed 
Place of Residence as Criteria for Shifting Hukou Registration'' [Huji 
gaige wenjian bao guowuyuan, hefa guding zhusuo cheng qianyi tiaojian], 
Guangdong News (Online), 23 May 97. ``Many Difficulties Remain in Hukou 
Reform, MPS Launches Investigation and Research into Legislating a 
Hukou Law [Huji gaige cun zhuduo nandian gong'anbu qidong hukoufa lifa 
diaoyan],'' Legal Daily (Online), 20 June 07. There has been some 
dispute over the document's submission to the State Council. For 
background see Carl Minzner, ``Hukou Reforms Under Consideration,'' 
Chinese Law and Politics Blog, 4 June 07.
    \17\ The current reforms bear close resemblance to earlier 
proposals put forth by central government officials. Nevertheless, one 
scholar has suggested that the current reforms are more liberal than 
past efforts in that they only demand citizens meet a residence 
requirement, rather than both residence and income requirements, for 
transferring hukou. See Carl Minzner, ``Hukou Reforms Under 
Consideration,'' Chinese Law and Politics Blog, 4 June 07.
    \18\ See Max Tunon, ``Internal Labour Migration in China: Features 
and Response,'' International Labour Organization (Online), April 2006, 
10, 22-23, 35.
    \19\ For more information on local regulations that condition hukou 
transfers on meeting such criteria, see ``China's Household 
Registration System: Sustained Reform Needed To Protect China's Rural 
Migrants,'' 4-5.
    \20\ Only certain types of rental housing qualify. The reforms 
permit other groups of migrants to obtain an urban hukou based on 
economic and educational criteria similarly used in other localities to 
restrict the number of migrants eligible to change their hukou status. 
Chengdu Municipal Party Committee, Chengdu City People's Government 
Opinion Concerning Deepening Residence Registration Reform and 
Reforming and Deepening the Integration of Cities and Towns (Trial) 
[Zhong-gong chengdu shiwei chengdushi renmin zhengfu guanyu shenhua 
huji zhidu gaige gaishen shenru tuijin cheng xiang yitihua de yijian 
(shixing)], issued 20 October 06, art. 2.
    \21\ ``Shenzhen Municipal Authorities Announce Tighter Controls 
Over Migrant Population,'' CECC China Human Rights and Rule of Law 
Update, September 2005, 9-10.
    \22\ ``Shenyang City Government Revokes Reforms to Temporary 
Residence Permit System,'' CECC China Human Rights and Rule of Law 
Update, February 2006, 9-10.
    \23\ ``Beijing Eliminates Regulations on the Management of 
Migrants'' [Beijing feizhi wailai renyuan guanli tiaoli], Beijing News 
(Online), 26 March 05.
    \24\ ``Farmers Who Enter Cities and See a Doctor Can Be 
Reimbursed'' [Nongmin jincheng kanbing ke xiangshou baoxiao], Beijing 
News (Online), 23 August 05.
    \25\ Ma Lie, ``Xi'an District Grants Migrant Farmers Equal 
Treatment,'' China Daily (Online), 1 September 06 (Open Source Center, 
1 September 06).
    \26\ ``Chongqing High People's Court Issues Provisions, Traffic 
Accident Compensation To Be Carried Out According to `Same Life, Same 
Value' [Principle]'' [Chongqing gao yuan chutai guiding, chehuo 
peichang jiang zhixing ``tongming tongjia''], Xinhua (Online), 19 
October 06. A Chongqing court enforced this principle in December 2006 
when it ordered that the parents of a child killed in a traffic 
accident be compensated at the rate for urban hukou holders, despite 
the fact that they were migrant workers with non-Chongqing hukou 
status. ```Same Life, Same Value' Ruling in Chongqing's First Urban-
Rural Resident Car Accident Compensation Case'' [Chongqing shouli 
chengxiang jumin chehuo peichang an `tongming tongjia' panjue], Xinhua 
(Online), 13 December 06. For more information on compensation levels, 
see the CECC 2006 Annual Report, 20 September 06, 117, and ``Lawyer 
Petitions for Constitutional Review of Discriminatory SPC 
Interpretation,'' CECC China Human Rights and Rule of Law Update, June 
2006, 8-9.
    \27\ ``Supreme People's Court To Release Determination on Issue of 
`Same Life, Different Value' [Zui gao fayuan ni chutai xiangguan 
jueding jiejue ``tongming bu tongjia'' wenti], Xinhua (Online), 14 
March 07. In 2003, the SPC issued a judicial interpretation mandating a 
lower rate of compensation for rural hukou holders. ``Supreme People's 
Court's Judicial Interpretation Regarding Compensation Cases for 
Personal Injuries (2003)'' [Zui gao renmin fayuan guanyu shenli renshen 
sunhai peichang anjian shiyong falu ruogan wenti de jieshi], Supreme 
People's Court (Online), 4 December 03, art. 29.
    \28\ State Council Office Circular on Improving Work on Management 
and Services for Migrant Workers in Cities [Guowuyuan bangongting 
guanyu zuohao nongmin jincheng wugong jiuye guanli he fuwu gongzuo de 
tongzhi], issued 5 January 03.
    \29\ ``Number of Temporary Residents Nationwide is 86,730,000, 
Floating Population Needs Establishment of Socialization Management 
Model'' [Quanguo dengji zanzhu renkou 8673 wan ren, liudong renkou ying 
jianli shehuihua guanli moshi], Legal Daily (Online), 26 October 05.
    \30\ Henan Provincial Party Committee and Government Circular on 
``A Program for the Construction of a Peaceful Henan'' [Henan sheng wei 
sheng zhengfu guanyu ``ping'an henan jianshe gangyao'' de tongzhi], PRC 
Central Government (Online), 26 April 06.
    \31\  ICCPR, art. 12. General Comment 27 to this article states, 
``The refusal by a State to issue a passport or prolong its validity 
for a national residing abroad may deprive this person of the right to 
leave the country of residence and to travel elsewhere.'' Human Rights 
Committee, General Comment 27, Freedom of Movement (Art.12), U.N. Doc 
CCPR/C/21/Rev.1/Add.9 (1999), para. 9.
    \32\ PRC Law on Passports, adopted 29 April 06, art. 13(7). For an 
example of a beneficial provision within the law, see, e.g., Article 6, 
which stipulates time limits for officials to approve applications and 
allows applicants to contest rejected applications.
    \33\ Scholars and NGO staff have debated the legal bases 
surrounding the government's recent actions toward Yang. ``Welcome 
Return for Chinese Dissident, Others Not Free To Travel,'' Dui Hua 
(Online), 27 August 07; Donald C. Clarke, ``Yang Jianli and China's 
Passport Law,'' Chinese Law Prof Blog (Online), 28 August 07.
    \34\ ``Yang Jianli's Application for Passport To Go to U.S. Still 
Has Not Been Approved'' [Yang Jianli shenqing huzhao lijing fu mei reng 
wei bei pizhun], Radio Free Asia (Online), 15 June 07.
    \35\ See the CECC Political Prisoner Database for more information 
on Yang's case. Although initially charged with illegal entry, he was 
later charged with espionage for alleged connections with Taiwan.
    \36\ ``Attorney Tang Jingling Brings Administrative Suit Against 
Customs for Taking His Passport and Preventing Him from Leaving the 
Country'' [Tang Jingling lushi dui haiguan kouliu huzhao zuzhi ta 
chuguo tiqi xingzheng susong], Chinese Human Rights Defenders (Online), 
6 December 06.
    \37\ Claudia Blume, ``International PEN Concerned About Writers' 
Freedom of Expression in China,'' Voice of America (Online), 6 February 
07.
    \38\ Anita Chang, ``China Bars Dissident's Wife From Leaving,'' 
Associated Press (Online), 11 June 07. ``Zeng Jinyan and Yao Lifa 
Prevented from Leaving Country To Attend Human Rights Conference in 
Geneva'' [Zeng Jinyan Yao Lifa bei jinzhi chujing dao Rineiwa chuxi 
guoji renquan huiyi], Radio Free Asia (Online), 11 June 07.
    \39\ ``Mongolian Dissident's Passport Application Denied for 
`Possible Harm to State Security and National Interests,''' Southern 
Mongolian Human Rights Information Center (Online), 8 August 07.
    \40\ ``Persecution of Zheng Enchong Must Stop: HRIC,'' Human Rights 
in China (Online), 22 August 07.
    \41\ Maureen Fan, ``Wife of Chinese Activist Detained at Beijing 
Airport, Authorities Forcibly Return Her to Home Village,'' Washington 
Post (Online), 25 August 07.
    \42\ ``CAA Urges Chinese Government To Release Rights Lawyer Gao 
Zhisheng and his Family Members,'' China Aid Association (Online), 27 
September 07. For more information on Gao, see the CECC Political 
Prisoner Database.
    \43\ ``China Confiscates Muslims' Passports,'' Radio Free Asia 
(Online), 28 June 07. See also ``Activist: Members of Muslim Minority 
Group in China Forced To Surrender Their Passports,'' Associated Press, 
reprinted in International Herald Tribune, 20 July 07.
    \44\ Yang Yingchun, ``Ismail Tiliwaldi, While Speaking at an 
Autonomous Region-Wide Religion Work Meeting, Calls for Stronger 
Management Over Pilgrimage and the `Two Religions' To Safeguard the 
Masses' Interest,'' Xinjiang Daily, 11 July 09 (Open Source Center, 13 
July 07).
    \45\ ``China Sentences Underground Pastor to 7.5 Years in Prison,'' 
Agence France Presse (Online), 8 July 06, reprinted on the China Aid 
Association Web site. See the CECC Political Prisoner Database for more 
information.
    \46\ ``Two Priests Detained in Wenzhou After Arrest on Return from 
Europe,'' Union of Catholic Asian News (UCAN), 3 October 06; 
``Underground' Chinese Catholic Priests Charged, Likely To Face 
Trial,'' UCAN (Online), 26 October 06. ``Two Underground Priests From 
Wenzhou Soon To Be Freed,'' AsiaNews, 17 May 07; ``Two Underground 
Priests, Arrested After Pilgrimage, Sentenced Six Months After 
Arrest,'' UCAN (Online), 16 May 07. Authorities released Shao from 
prison in May to obtain medical treatment. ``Jailed Wenzhou Priest 
Released Provisionally For Medical Treatment,'' UCAN, 30 May 07. 
Authorities released Jiang in August. ``Second Of Two Jailed Wenzhou 
Priests Released, Diagnosed With Heart Conditions,'' UCAN, 29 August 
07. See the CECC Political Prisoner Database for more information. 
Jiang Surang is also known by the name Jiang Sunian.
    \47\ Timothy Chow, ``Chinese House Church Historian Denied ID 
Card,'' Compass Direct News (Online), 17 February 06, reprinted on the 
China Aid Association Web site.

    Notes to Section II--Status of Women
    \1\ CECC, 2003 Annual Report, 2 October 03, 47.
    \2\ Ibid., 47-49; CECC, 2004 Annual Report, 5 October 04, 56-57; 
CECC, 2006 Annual Report, 20 September 06, 97-98.
    \3\ CECC, 2004 Annual Report, 55-56; CECC, 2005 Annual Report, 11 
October 05, 67, 69; CECC, 2006 Annual Report, 99.
    \4\ CECC, 2004 Annual Report, 56-58; CECC, 2005 Annual Report, 67-
68; CECC, 2006 Annual Report, 97-99.
    \5\ CECC, 2005 Annual Report, 67; CECC, 2006 Annual Report, 97-98.
    \6\ PRC Constitution, art. 48. Article 48 declares that women are 
equal to men and names women as a ``vulnerable social group'' requiring 
special protection.
    \7\ The State Council Women's Development Program, 2001-2010 
[Zhongguo funu fazhan gangyao, 2001-2010], May 2001.
    \8\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, amended 28 August 05; CECC, 2005 Annual Report, 67-
68.
    \9\ These include Liaoning province (2006), Heilongjiang province 
(2006), Jiangxi province (2006), Hunan province (2006), Shaanxi 
province (2006), Xinjiang province (2006), Wenzhou municipality (2006), 
Shanghai municipality (2007), and Guangdong province (2007), among 
others. See ``Wenzhou City Issues New Domestic Violence Provisions,'' 
CECC China Human Rights and Rule of Law Update, December 2006, 16-17; 
``Regarding the Amended Shanghai Law on the Protection of Women's 
Rights and Interests Implementing Measures,'' People's Daily (Online), 
11 May 07; Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope,'' China Women's News, reprinted in Women Watch--
China (Online), 7 June 07.
    \10\ ``Regarding the Amended Shanghai Law on the Protection of 
Women's Rights and Interests Implementing Measures,'' People's Daily.
    \11\ CECC, 2002-2004 Annual Reports.
    \12\ CECC Staff Interview; ``Wenzhou City Issues New Domestic 
Violence Provisions,'' CECC China Human Rights and Rule of Law Update, 
16-17; ``System of Laws and Policies Protecting Women Take a Step 
Closer Toward Completion'' [Fu bao falu zhengce tixi jinyibu wanshan], 
Legal Daily (Online), 29 January 07; ``Regarding the Amended Shanghai 
Law on the Protection of Women's Rights and Interests Implementing 
Measures,'' People's Daily; Wang Zhuqiong, ``New Move To Stem Domestic 
Violence,'' China Daily (Online), 21 July 07.
    \13\ Committee on the Elimination of Discrimination Against Women, 
Concluding Comments of the Committee on the Elimination of 
Discrimination Against Women, Advanced Unedited Version, Thirty-sixth 
session, 7-25 August 06.
    \14\ PRC Marriage Law, enacted 10 September 80, amended 28 April 
01, art 3; PRC Law on the Protection of Women's Rights and Interests, 
art. 46; ``Same Domestic Violence Accusation, Different Results in 
Shanghai and Baotou Court Cases; Expert Calls for Unified Standard'' 
[Tongshi shou nuesha fu Shanghai Baotou pan butong zhuanjia: tongyi 
biaozhun], Legal Daily (Online), 30 March 06; Human Rights in China 
(Online), ``Implementation of the Convention of the Elimination of All 
Forms of Discrimination Against Women in the People's Republic of 
China, A Parallel NGO Report,'' June 2006.
    \15\ For example, with regards to domestic violence survivors 
bearing the burden in bringing complaints, see the PRC Marriage Law, 
arts. 43, 45.
    \16\ ``Domestic Violence in Spotlight,'' China Daily (Online), 2 
August 07; ``Survey of Young Female Migrant Workers Reveals 70 Percent 
Have Been Sexually Harassed'' [Hunan nianqing nuxing nongmingong 
diaocha 7 cheng dagongmei zaoguo xingsaorao], Xinhua (Online), 15 May 
06.
    \17\ CECC, 2003 Annual Report, 47-48.
    \18\ Ibid., 48.
    \19\ Committee on the Elimination of Discrimination Against Women, 
Concluding Comments of the Committee on the Elimination of 
Discrimination Against Women, 4.
    \20\ CECC, 2006 Annual Report, 99.
    \21\ CECC, 2004 Annual Report, 56.
    \22\ ``Women Contribute to over 40% GDP,'' China News, reprinted in 
All-China Women's Federation (Online), 17 May 07.
    \23\ Guo Aibing, ``More Women Fill Top Posts, but Still Wield 
Little Authority,'' South China Morning Post (Online), 16 May 07; 
``Women Contribute to over 40% GDP,'' China News; ``Minimum Hiring Rate 
for Women Employees Must Be 30%'' [Luyong gongwuyuan nuxingbili bude 
diyu 30%], China Women's News (Online), 15 January 07.
    \24\ ``Chengdu Imposes Gender Quota on Local Government's Leading 
Positions'' [Chengdu guiding quxian si da banxi zhishao ge you yi ming 
nu ganbu], Eastday Net (Online), 7 November 06; Standing Committee of 
Heilongjiang People's Congress, ``Law Guaranteeing Gender Ratio of 
Heilongjiang People's Congress, Implementing Women's Law, Appears'' 
[Renda nu daibiao bili tigao dao 30% funu quanyi baozhang fa shishi 
banfa chutai], 31 October 06; ``Funds for Women's Development Work are 
No Lower than 0.3 yuan Per Person'' [Funu gongzuo jingfei meiren mei 
nian bu diyu 0.3 yuan], China Women's News (Online), 31 October 06.
    \25\ CECC, 2005 Annual Report, 69-70.
    \26\ Specifically, women accounted for 27.8 percent of all reported 
HIV/AIDS cases in 2006, an increase from 19.4 percent in 2000. ``More 
than a Quarter of AIDS Patients in China are Women,'' Xinhua, reprinted 
in Women of China (Online), 5 June 07.
    \27\ ``Report: Unsafe Sex Major Cause of HIV Infection,'' China 
Daily (Online), 20 August 07.
    \28\ CECC, 2003 Annual Report, 49.
    \29\ ``China's Suicide Rate Among World's Highest,'' China Daily 
(Online), 11 September 07; Christopher Allen, ``Traditions Weigh on 
China's Women,'' BBC (Online), 20 June 06; World Health Organization, 
``Suicide Huge but Preventable Public Health Problem,'' 10 September 
04; Maureen Fan, ``In Rural China, a Bitter Way out,'' Washington Post 
(Online), 15 May 07.
    \30\ ``Domestic Violence is the Main Reason Chinese Rural Women 
Commit Suicide'' [Jiating baoli shi daozhi zhongguo nongcun funu zisha 
de zhuyin], Radio Free Asia (Online), 28 November 06; CECC, 2006 Annual 
Report, 99; Fan, ``In Rural China, a Bitter Way out.''
    \31\ Over the period from 1991 to 2004, ``national statistics 
show[ed] an overall decline in maternal mortality from 80 to 48.3 
deaths per 100,000 live births.'' There is a divide between urban and 
rural areas, however, as the maternal mortality rate in small and 
medium cities had declined to 15.3 deaths per 100,000 live births by 
2004, compared to 96 deaths per 100,000 in remote rural areas. The gap 
has widened since 1996. China Development Brief (Online), ``Drop in 
Maternal and Child Mortality Slow and Uneven,'' 18 January 07.
    \32\ Human Rights in China, ``Implementation of the Convention of 
the Elimination of All Forms of Discrimination Against Women in the 
People's Republic of China,'' 15.
    \33\ A 2005 report by China Children's Center reported 99.14 
percent enrollment rates for girls, and 99.16 percent enrollment rates 
for boys. ``Girls and Boys have Basically the Same Rate of Entry into 
School,'' Xinhua (Online), 9 December 06. See also, China Statistical 
Yearbook 2006, Figure 21-5 titled ``Number of New Students Enrollment 
by Level and Type of School.''
    \34\ ``China Still Has 100 Million Illiterate People; Of that, 70% 
are Women'' [Wuguo haiyou wenmang 1 yi duo qizhong nuxing yu qicheng], 
People's Daily (Online), 17 October 06; The State Council Women's 
Development Program, 2001-2010.
    \35\ ``Spring Bud Program Helps 2622 Girls Stay in School over 11 
Years in Ningxia'' [``Chunlei nainai'' jianglijuan: 11 nian zizhu 2622 
ming shixue nutong], Xinhua (Online), 14 November 06; ```Spring Bud 
Program' Helps 1,600,000 Girls Return to School'' [``Chunlei jihua'' 
bang 160 wan nutong chongfan xiaoyuan], China Women's News (Online), 18 
October 06.
    \36\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \37\ Ibid.; ``Women Sue Village Committees for Denying Them Land 
Rights,'' CECC China Human Rights and Rule of Law Update, July 2006, 8.
    \38\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \39\ Ibid.
    \40\ PRC Organic Law of Village Committees, enacted 4 November 98, 
art. 20. Article 20 states that ``no villagers charter of self-
government, rules and regulations for the village, villagers pledges or 
matters decided through discussions by a villagers assembly or by 
representatives of villagers may contravene the Constitution, laws, 
regulations, or State policies, or contain such contents as infringing 
upon villagers rights of the person, their democratic rights or lawful 
property rights.''
    \41\ Xulin and Sun Xiaosu, ``Married-out Women in Guangdong 
Province Gain Hope.''
    \42\ Ibid.
    \43\ Ibid.
    \44\ CECC Staff Interview; Xu Yushan, ``A Preliminary Analysis of 
the Relationship between the Women's Federation and Other Women's 
Organizations'' [Qianxi fulian yu qita funuzuzhi de guanxi], Collection 
of Women's Studies [Funu yanjiu luncong], No. 2, March 2004, 44-48.
    \45\ China Women's University established a legal center for women 
and children in September 2006 that offers free legal services 
primarily to women and children, but also to other ``vulnerable 
groups'' such as the elderly and the disabled. Legal services include 
counseling over the telephone, counseling in person, drafting documents 
on behalf of someone else, mediation, and litigation. ``China Women's 
University Establishes Legal Center for Women and Children'' [Zhonghua 
nuzi xueyuan chengli funu ertong falu fuwu zhongxin], China Women's 
News, reprinted in Women Watch--China (Online), 26 September 06. In 
September 2006, the Beijing Lawyers Association Marriage and Family 
Special Committee held a seminar that focused on legal protections of 
women's land rights, seminars are held to brainstorm questions and 
raise suggestions to the Legislation Department, regarding the land 
rights and interests of women, especially married-out women, divorced 
women, and widows. ``Seminar on Legal Protection of Women's Land 
Rights'' [Tudi yong yi quan falu shiwu wenti yantaohui], Women Watch--
China (Online), 1 October 06.
    \46\ CECC, 2006 Annual Report, 98.
    \47\ Ibid., 98.
    \48\ CECC, 2005 Annual Report, 72.
    \49\ ``Chinese Villages Have Roughly 47 Million `Left Behind 
Women''' [Zhongguo nongcun ``liushou funu'' yue 4700 wan], Radio Free 
Asia (Online), 8 November 06.
    \50\ ``Older Pregnant Woman Unexpectedly Dismissed by Company'' 
[Gaoling bailing huaiyun jing bei gongsi jiegu], New Express, reprinted 
in Women Watch--China (Online), 3 November 06.
    \51\ The survey data was collected from 6,595 questionnaires handed 
out in 416 villages and four cities. ``Female Migrants Suffering at 
Work,'' China Daily, 30 November 06 (Open Source Center, 30 November 
06).
    \52\ Liu Yun and Yao Jian, ``Legal Aid for Female Migrant 
Workers,'' China Women's News, reprinted in Women Watch--China 
(Online), 21 June 07.
    \53\ Ibid.
    \54\ ``Over 60 Million Female Workers Have Maternity Insurance,'' 
Women of China (Online), 21 June 07. The Yunnan Provincial Health 
Bureau launched a project to raise public awareness of HIV/AIDS, with 
the aim of educating 80 percent of its female population. ``Project 
Launched To Protect Women from AIDS,'' China News (Online), 13 July 07. 
Some local governments have established programs to provide loans and 
training to women who have lost their jobs. Liu Yun and Yao Jian, 
``Legal Aid for Female Migrant Workers.''
    \55\ ``Why Can't Women Retire at the Same Age as Men'' [Nuren 
pingsha wuquan yu nanren tongling tuixiu], Southern Weekend (Online), 
13 October 05.
    \56\ ``Why Can't Women Retire at the Same Age as Men,'' Southern 
Weekend; CECC, 2005 Annual Report, 67.
    \57\ ``Hubei Transportation Company: Female Attendants Whose Weight 
Exceeds 60 Kilograms Must Step Down'' [Nu chengwuyuan tizhong chaoguo 
60 gongjin jiang xiagang], Radio Free Asia (Online), 7 October 06.
    \58\ China Gender Equality and Women's Development Report [Zhongguo 
xingbie pingdeng yu funu fazhan baogao], ed. Tan Lin (Beijing: Social 
Sciences Academic Press, 2006), reprinted in China Net (Online).

    Notes to Section II--Human Trafficking
    \1\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Report--China, 12 June 07, 
80.
    \2\ PRC Protection of Minors Law, enacted 4 September 91, amended 
29 December 06.
    \3\ Ibid., art. 41.
    \4\ ``More Forced into Labor, Prostitution,'' China Daily (Online), 
27 July 07.
    \5\ National Bureau of Statistics, China Statistical Yearbook 2006, 
Table 23-11; ``Ministry of Public Security Strengthens the Combating of 
Crimes of Trafficking in Women and Children'' [Zhongguo gongan jiguan 
jiada daji guaimai funu ertong fanzui lidu], Xinhua (Online), 26 July 
07.
    \6\ U.S. Department of State, Trafficking in Persons Report--China, 
80.
    \7\ ``More Forced into Labor, Prostitution,'' China Daily.
    \8\ Experts believe that Chinese law only considers those under the 
age of 14 to be ``minors'' and automatic victims of trafficking, with 
no need for personnel to have them examined for signs of coercion or 
the use of force. CECC Staff Correspondence; ``Ministry of Public 
Security Official: Human Trafficking for the Purposes of Forced Labor 
and Sexual Exploitation Has Increased'' [Gonganbu guanyuan: yi boxue he 
seqing wei mudi de renkou guaimai shangsheng], China Daily, reprinted 
in China Economic Net (Online), 27 July 07. See, for example, the PRC 
Criminal Law, enacted 1 July 79, amended 14 March 97, 25 December 99, 
31 August 01, 29 December 01, 28 December 02, 28 February 05, 29 June 
06, art. 240.
    \9\ UNICEF (Online), ``China: Trafficking of Children and Women,'' 
last visited 4 October 07; ``China To Issue An Anti-Trafficking Plan'' 
[Zhongguo jiang zhiding guojia fan renkou guaimai xingdong jihua], 
Xinhua (Online), 12 July 06.
    \10\ U.S. Department of State, Trafficking in Persons Report--
China, 80.
    \11\ Ibid.
    \12\ CECC Staff Correspondence.
    \13\ UNICEF, ``China: Trafficking of Children and Women;'' ``China 
To Issue An Anti-Trafficking Plan,'' Xinhua; ``Hunan Court Sentences 
Infant Traffickers; New Orphanage Standards Due Soon,'' CECC China 
Human Rights and Rule of Law Update, April 2006, 3-4; ``Social Service 
Organizations Involved in Two Child Trafficking Cases,'' CECC China 
Human Rights and Rule of Law Update, January 2006, 11; Bureau of 
Democracy, Human Rights, and Labor, U.S. Department of State, Country 
Reports on Human Rights Practices--2006, China (includes Tibet, Hong 
Kong, and Macau), 6 March 07, sec. 5.
    \14\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China, sec. 5.
    \15\ ``Social Service Organizations Involved in Two Child 
Trafficking Cases,'' CECC China Human Rights and Rule of Law Update, 
11; ``Hunan Court Sentences Infant Traffickers; New Orphanage Standards 
Due Soon,'' CECC China Human Rights and Rule of Law Update, 3-4; Cindy 
Sui, ``Baby Trafficking in PRC's Rural Areas `Widespread,''' Agence 
France-Presse, 5 February 05 (Open Source Center, 10 February 05).
    \16\ U.S. Department of State, Trafficking in Persons Report--
China, 80.
    \17\ United Nations Office on Drugs and Crime (Online), ``The 
United Nations Convention Against Transnational Organized Crime and Its 
Protocols,'' last viewed 4 October 07; UN Convention Against 
Transnational Organized Crime, adopted by General Assembly resolution 
55/25 of 15 November 2000, entry into force 29 September 03; Protocol 
to Prevent, Suppress and Punish Trafficking in Persons, Especially 
Women and Children (commonly known as Palermo Protocol), adopted by 
General Assembly resolution 55/25 of 15 November 2000, entry into force 
on 25 December 03.
    \18\ Convention on the Elimination of All Forms of Discrimination 
Against Women, adopted by General Assembly resolution 34/180 of 18 
December 79, entry into force 3 September 81, art. 6; Convention on the 
Rights of the Child, adopted by the General Assembly resolution 44/25 
of 20 November 1989, entry into force 2 September 90, art. 35; Human 
Trafficking.org (Online), ``Government of China's Plan of Action To 
Prevent, Protect, Prosecute and Reintegrate,'' last viewed 4 October 
07.
    \19\ PRC Law on the Protection of Women's Rights and Interests, 
enacted 3 April 92, amended 28 August 05, art. 39.
    \20\ ``China To Issue a National Anti-Trafficking Plan of Action,'' 
Xinhua (Online), 12 July 06; ``Panel Set To Target Human Trafficking,'' 
China Daily (Online), 4 September 07.
    \21\ For example, the Ministry of Justice launched a three month 
campaign in 2000 that reportedly resulted in the rescue of some 10,000 
girls. CECC, 2003 Annual Report, 2 October 03, 53. From 2001 to 2003, 
the Ministry of Public Security initiated a series of ``Strike Hard'' 
campaigns that reportedly solved 20,360 cases involving 42,215 victims. 
CECC, 2004 Annual Report, 5 October 04, 137, endnote 527.
    \22\ Murray Scot Tanner, ``State Coercion and the Balance of Awe: 
The 1983-1986 `Stern Blows' Anti-Crime Campaign,'' China Journal, July 
2000.
    \23\ Office to Monitor and Combat Trafficking in Persons, U.S. 
Department of State, Trafficking in Persons Interim Assessment--China, 
19 January 07.
    \24\ Ibid.
    \25\ Ibid.
    \26\ U.S. Department of State, Trafficking in Persons Report--
China, 80; ``Social Service Organizations Involved in Two Child 
Trafficking Cases,'' CECC China Human Rights and Rule of Law Update, 
11. See also, CECC, 2006 Annual Report, 20 September 06, 100.
    \27\ Murray Scot Tanner and Eric Green, ``Principals and Secret 
Agents: Central versus Local Control over Policing and Obstacles to 
`Rule of Law' in China,'' 191 China Quarterly 644, 666 (2007).
    \28\ Ibid.
    \29\ U.S. Department of State, Trafficking in Persons Report--
China, 80; ``Vietnamese Police Arrests Three for Trafficking of 
Children to China,'' Agence France-Presse, 17 July 07 (Open Source 
Center, 17 July 07); ``China, US agree To Enhance Coop on Global 
Issues,'' Xinhua (Online), 10 August 06.
    \30\ ``ILO, China Join To Combat Trafficking in Children and 
Women,'' Xinhua, reprinted in China.org (Online), 12 July 03; 
International Organization for Migration (Online), ``China Profile,'' 
July 2007; U.S. Department of State, Trafficking in Persons Interim 
Assessment--China.
    \31\ U.S. Department of State, Trafficking in Persons Interim 
Assessment--China; U.S. Department of State, Trafficking in Persons 
Report--China, 81.
    \32\ ``Panel Set To Target Human Trafficking,'' China Daily. See 
also, ``Ministry of Public Security Strengthens the Combating of Crimes 
of Trafficking in Women and Children,'' Xinhua.

    Notes to Section II--North Korean Refugees
    \1\ CECC Staff Interviews; Joel Charney, ``Acts of Betrayal: The 
Challenge of Protecting North Koreans in China,'' Refugees 
International, 12 May 05.
    \2\ International Crisis Group, Perilous Journey, Asia Report No. 
122, 26 October 2006, 1.
    \3\ Department of State, 2007 Trafficking in Persons Report.
    \4\ Bureau of Democracy, Human Rights and Labor, U.S. Department of 
State, Country Reports on Human Rights Practices--2006, China (includes 
Tibet, Hong Kong, and Macau), 6 March 6, 07.
    \5\ Kim Young Jin, ``Chinese Security Officer in Yenji Testifies, 
`Increase in Arrests at the End of the Year,''' Daily NK, 1 February 1, 
05.
    \6\ Kim Young Jin, ``China Arrests, Shortly Repatriated to North 
Korea,'' Daily NK, 26 June 07; Donna M. Hughes, ``How Can I Be Sold 
Like This?: The Trafficking of North Korean Women Refugees,'' National 
Review (Online), 19 July 05; International Crisis Group, ``Perilous 
Journeys: The Plight of North Koreans in China and Beyond,'' Asia 
Report No. 122--26 October 06, 6; Ronald Schaefer, ``The Forgotten 
Refugees,'' OhmyNews Web site, 9 October 06.
    \7\ Humanitarian workers assisting refugees have reported that many 
North Korean refugees attempt to reach Mongolia, and as a result China 
is constructing six new prisons in this region. See Charlotte Eager, 
``Korea's Oskar Schindler,'' Daily Mail, 30 June 07. On the 
construction of new facilities on China's North Korean border, see 
Melanie Kirkpatrick, ``Let Them Go: China Should Open its Border to 
North Korean Refugees,'' Wall Street Journal (Online), 15 October 06.
    \8\ Convention Relating to the Status of Refugees, 28 July 51, 
United Nations Conference of Plenipotentiaries on the Status of 
Refugees and Stateless Persons convened under General Assembly 
resolution 429 (V) of 14 December 50, art. 33; China acceded to the 
Convention on September 24, 1982. ``MFA Spokesman Calls North Korean in 
China `Illegal Migrants' and `Not Refugees','' CECC Virtual Academy 
(Online), 3 October 06.
    \9\ ``Foreign Ministry Spokesman Qin Gang's Regular Press 
Conference on 19 June, 2007,'' PRC Ministry of Foreign Affairs Web 
site, 20 June 07.
    \10\ ``Democratic People's Republic of Korea Ministry of State 
Security, People's Republic of China Ministry of Public Security, 
Mutual Cooperation Protocol for the Work of Maintaining National 
Security and Social Order in the Border Area,'' 12 August 1986, 
reprinted on the Rescue the North Korean People Urgent Action Network 
(RENK) Web site. According to James Seymour, RENK obtained and 
translated the document in December 2002. Seymour writes that ``this 
document cannot be authenticated, but it does not seem implausible.'' 
On the 1998 agreement, see also Cho Kye-ch'ang, ``Adds Article on 
Reinforcing Protection of a Special Train with Kim Jung-il on; Scope of 
Illegal Border-Crossing Expanded; Joint Countermeasures Included to 
Prepare Against Armed North Korean Escapees,'' Yonhap (Online), 22 
January 07.
    \11\ James D. Seymour, ``China: Background Paper on the Situation 
of North Koreans in China,'' Writenet, January 2005, 4-6.
    \12\ When China acceded to the Refugee Convention in 1982, it 
committed to honoring all provisions under the Convention and made only 
two reservations, neither of which is related to Article 33 on 
refoulement. Under Articles 26 and 42(2) of the Vienna Convention on 
the Law of Treaties, China's separate bilateral agreement with North 
Korea would not exempt it from compliance with its treaty obligations.
    \13\ Convention Relating to the Status of Refugees, art. 1.
    \14\ The United Nations Special Rapporteur on Human Rights in North 
Korea, ``Question of the Violation of Human Rights and Fundamental 
Freedom in any Part of the World: Situation of Human Rights in the 
Democratic People's Republic of Korea,'' 10 January 05, 13.
    \15\ ``Government Allows North Korean Refugees to Travel Directly 
to the United States,'' CECC Virtual Academy 28 August 06.
    \16\ Human Rights Watch, ``North Korea: Harsher Policies Against 
Border-Crossers,'' March 2007, 7-8; Another source dates this tougher 
policy from 2005. Kwon Jeong Hyun, ``10 Years of Defector Succession'' 
Daily NK, 16 May 07.
    \17\ Human Rights Watch, 4-9.
    \18\ Norma Kang Muico, ``An Absence of Choice: The Sexual 
Exploitation of North Korean Women in China,'' Anti-Slavery 
International, 2005.
    \19\ International Crisis Group, 18, citing David Hawk, ``The 
Hidden Gulag: Exposing North Korea's Prison Camps,'' U.S. Committee for 
Human Rights in Korea, October 2003; Kim Rahn, ``Female Inmates in 
North Face Compulsory Abortion,'' Korea Times, 29 September 06; Michael 
Sheridan, ``On the Death or Freedom Trail with Kim's Starving 
Fugitives,'' Times Online (London), 3 December 06. Kwon Jeong Hyun, 
``10 Years of Defector Succession,'' Daily NK, 16 May 07.
    \20\ Stephen Haggard and Marcus Noland, ``The North Korean Refugee 
Crisis: Human Rights and International Response,'' U.S. Committee for 
Human Rights in North Korea, 2006, 37-40.
    \21\ Haggard and Noland, 38-39.
    \22\ Haggard and Noland, 38; Convention Relating to the Status of 
Refugees, art. 35.
    \23\ Nicholas D. Kristof, ``Escape from North Korea,'' New York 
Times (Online), 4 June 07; ``China Imprisons N. Korean Defector Ring,'' 
Chosun Daily (Online) 28 May 07.
    \24\ ``NK Refugee Supporter Released in China,'' Daily NK, 29 
November 06.
    \25\ The State Council included the regulation on its 2006 
Legislative Plan, and a January 2006 State Council General Office 
circular on the State Council's legislative work plan for the year 
listed the Ministry of Foreign Affairs, the Ministry of Public 
Security, and the Ministry of Civil Affairs as drafting Temporary 
Regulations on the Administration of Refugees. ``Refugees Nearing Dream 
of Citizenship,'' People's Daily (Online), 1 June 07.
    \26\ ``Refugees Nearing Dream of Citizenship'' People's Daily.
    \27\ ``Statement of the Media by United Nations High Commissioner 
for Refugees Antonio Guterres, on Conclusion of his Mission to the 
People's Republic of China,'' United Nations High Commissioner for 
Refugees, 23 March 06.

    Notes to Section II--Health
    \1\ Beijing Municipality Regulations on Mental Health [Beijing shi 
jingshen weisheng tiaoli], issued 8 December 06. According to a 2002 
Human Rights Watch report, while an international delegation visited 
Beijing in 1993 as part of China's bid for the 2000 Olympics, 
individuals with mental illnesses were removed from the streets and 
housed in temporary holding centers. Human Rights Watch (Online), 
``Dangerous Minds, Political Psychiatry in China Today and its Origins 
in the Mao Era,'' August 2002.
    \2\ Beijing Municipality Regulations on Mental Health, art. 31.
    \3\ G.A. Res. 119, U.N. GAOR, 46th Sess., Supp. No. 49, Annex, at 
188-192, U.N. Doc. A/46/49 (1991). The General Assembly approved this 
resolution without a vote on December 17, 1991. The resolution is not 
binding and it is unclear whether China supported it. Beijing's mental 
health regulations, however, include a number of provisions that are 
similar to those found in the Principles, suggesting that officials 
modeled their provisions in part on the Principles.
    \4\ Beijing Municipality Regulations on Mental Health, arts. 27, 
32.
    \5\ ``Progress in AIDS Battle despite Harassment,'' Reuters, 
reprinted in South China Morning Post (Online), 18 July 07.
    \6\ Ibid.
    \7\ The Center for Strategic and International Studies, ``Averting 
a Full-Blown HIV/AIDS Epidemic in China: A Report of the CSIS HIV/AIDS 
Delegation in China, 13-17 January 2003,'' February 2003, 2; United 
Nations Theme Group of HIV/AIDS in China, ``HIV/AIDS: China's Titanic 
Peril-2001 Update of the AIDS Situation and Needs Assessment Report,'' 
June 2002, 7.
    \8\ The Center for Strategic and International Studies, 
``Demography of HIV/AIDS in China: A Report of the Task Force on HIV/
AIDS,'' July 2007, 10.
    \9\ ``Progress in AIDS Battle despite Harassment,'' Reuters.
    \10\ ``China reports leap in new HIV/AIDS cases,'' Reuters 
(Online), 9 September 07.
    \11\ ``New Estimate in China Finds Fewer AIDS Cases,'' New York 
Times (Online), 26 January 06.
    \12\ ``Progress in AIDS Battle despite Harassment,'' Reuters; 
``UNAIDS Chief Sees Signs of Progress in China,'' Reuters, reprinted in 
Yahoo! (Online), 17 July 07.
    \13\ Evelyn Iritani, ``China's AIDS Battle Goes Corporate,'' Los 
Angeles Times (Online), 3 March 07.
    \14\ Ibid.
    \15\ Ibid.
    \16\ Ben Blanchard, ``China Not Investing Enough To Fight AIDS: 
Experts,'' Reuters, 5 April 07. As Thomas Cai, founder of AIDS Care 
China, notes: ``Initial progress was made in Beijing because people in 
the ministries were working with U.N. people and the international 
community. When you get down to the lower level, people still have a 
different mind-set.'' Iritani, ``China's AIDS Battle Goes Corporate.''
    \17\ ``Hundreds of Police Storm `AIDS Village' in China, Arrest 13 
Farmers,'' Agence France-Presse (Online), 3 July 03.
    \18\ Chan Siu-sin, ``Four Residents of Henan AIDS Village 
Obstructed from Petitioning Beijing,'' South China Morning Post 
(Online), 4 July 04.
    \19\ Human Rights Watch, Restrictions on AIDS Activists in China, 
June 2005, 19; International Federation for Human Rights, Alternative 
Report to the Committee on Economic, Social and Cultural Rights: China: 
`At a Critical Stage,' Violations of the Right to Health in the Context 
of the Fight against AIDS, April 2005.
    \20\ ``AIDS Activist Resigns from Civil Society Organization, Cites 
Government Pressure,'' CECC China Human Rights and Rule of Law Update, 
March 2006, 7-8; ``Progress in AIDS Battle despite Harassment,'' 
Reuters.
    \21\ ``Beijing PSB Officials Hold AIDS Activist Wan Yanhai, Cancel 
AIDS Conference,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 8-9.
    \22\ Jim Yardley, ``Detained AIDS Doctor Allowed To Visit U.S. 
Later, China Says,'' New York Times (Online), 17 February 07.
    \23\ Ibid.
    \24\ Minnie Chan, ``Blood Centre Boss Fired, Six Jailed over 
Illegal Sales,'' South China Morning Post (Online), 11 July 07.
    \25\ Shan Juan, ``Blood Collections To Be Videotaped,'' China Daily 
(Online), 11 July 07.
    \26\ Dune Lawrence, ``China's Lack of HIV/AIDS Awareness Undermines 
Control Program,'' Bloomberg (Online), 9 April 07. In addition, an 
UNAIDS report released in March 2006 found that China was only half way 
to meeting its goal under the UN's ``3 by 5'' initiative of providing 
30,000 HIV/AIDS carriers access to anti-HIV/AIDS drugs by the end of 
2005. World Health Organization and UNAIDS, ``Progress on Global Access 
to HIV Antiretroviral Therapy: A Report on 3 by 5 and Beyond,'' 28 
March 06, 72; CECC, 2006 Annual Report, 20 September 06, 111.
    \27\ ``Number of Tibetans with HIV/AIDS Rising'' [Xizang HIV/AIDS 
renshu shangsheng], Radio Free Asia (Online), 17 June 07; Bill 
Savadove, ``140,000 Orphaned by AIDS, Says UNICEF,'' South China 
Morning Post (Online), 9 July 07.
    \28\ Iritani, ``China's AIDS Battle Goes Corporate.''
    \29\ Lawrence, ``China's Lack of HIV/AIDS Awareness Undermines 
Control Program;'' ``Discrimination against HIV Patients Still Rife,'' 
Xinhua, reprinted in China.org (Online), 29 November 06.
    \30\ ``5-Year-old AIDS Patient Denied Surgery by Guangdong 
Hospitals'' [Aizi nantong qiuyi zaoju] Southern Metropolitan Daily 
(Online), 25 June 07; Chinese Human Rights Defenders (Online), 
``Minquan County AIDS Patients Encounter Unfair Treatment at Police 
Station'' [Minquan aizibing ren zaodao paichusuo de bugong daiyu], 5 
July 07.
    \31\ ``Doctors Not Up to Scratch on Hepatitis,'' China Daily 
(Online), 29 September 05; Bonny Ling and Wing Lam, ``Hepatitis B: A 
Catalyst for Anti-Discrimination Reforms?,'' 2 China Rights Forum 67, 
68 (2007).
    \32\ Ministry of Health (Online), ``Ministry of Health Publishes 
`2006-2010 Plan on Hepatitis B Prevention and Control''' [``2006-2010 
nian quanguo yi xing bingduxing ganyan fangzhi guihua'' fabu], 13 
February 06.
    \33\ CECC, 2004 Annual Report, 5 October 04, 65.
    \34\ ``Law To Protect HB Virus Carriers,'' China Daily (Online), 24 
August 04.
    \35\ ``Plaintiff Wins Nominally in the First Hepatitis B 
Discrimination Lawsuit'' [`Yigan qishi diyian' yuangao mingyi shang 
huosheng], Beijing Youth Daily (Online), 3 April 04.
    \36\ PRC Law on the Prevention and Control of Infectious Diseases, 
enacted 29 February 89, amended 28 August 04; CECC, 2004 Annual Report, 
61.
    \37\ Zhang Feng, ``HBV Victims Face Improved Job Chances,'' China 
Daily (Online), 19 January 05; ``Public Opinion Defeats HBV 
Discrimination,'' China Internet Information Center (Online), 23 
September 04.
    \38\ Vivien Cui, ``Hepatitis B Carriers Forced To Suffer in 
Silence,'' South China Morning Post (Online), 5 September 06; 
``Xinjiang Hepatitis Students Fight School Ban,'' Radio Free Asia 
(Online), 20 November 06.
    \39\ ``Doctors Not Up to Scratch on Hepatitis,'' China Daily.
    \40\ China Development Brief (Online), ``Hepatitis Foundation 
Learns from AIDS Activism,'' 16 February 06.
    \41\ Ibid.; ``Xinjiang First Hepatitis B Discrimination Case 
Docketed, Incoming Student Sues Xinjiang Agricultural University 
[Xinjiang shou li yigan qishi an lian xiuxue xinsheng zhuanggao nongye 
daxue],'' City Consumer Morning News (Online), 29 January 06.
    \42\ China Development Brief (Online), ``Hepatitis B Stigma 
Provokes Outcry in Xinjiang,'' 30 October 06; ``Xinjiang First 
Hepatitis B Discrimination Case Docketed, Incoming Student Sues 
Xinjiang Agricultural University,'' City Consumer Morning News.
    \43\ ``December 16, Friday, Plaintiff in First Hepatitis B 
Discrimination Case in Xinjiang Successfully Resumes Student Status'' 
[12 yue 16 ri, xingqiwu, xinjiang yigan qishi di yi dan dangshiren liyi 
shunli bu ban qiquan xueji], Boxun (Online), 18 December 06.
    \44\ China Development Brief, ``Hepatitis B Stigma Provokes Outcry 
in Xinjiang;'' Mure Dickie, ``Parents in Xinjiang Drop Discrimination 
Suit,'' Financial Times (Online), 18 September 07; ``Xinjiang Hepatitis 
Students Fight School Ban,'' Radio Free Asia; ``7 Hepatitis B-Positive 
Chinese Students Sue,'' Associated Press, reprinted in China Daily 
(Online), 23 October 07.
    \45\ Ibid.
    \46\ China Development Brief, ``Hepatitis B Stigma Provokes Outcry 
in Xinjiang;'' ``Xinjiang Hepatitis Students Fight School Ban,'' Radio 
Free Asia.
    \47\ Ibid.
    \48\ Ibid.; Mure Dickie, ``Parents in Xinjiang Drop Discrimination 
Suit;'' ``7 Hepatitis B-Positive Chinese Students Sue,'' Associated 
Press.
    \49\ ``Xinjiang Hepatitis Students Fight School Ban,'' Radio Free 
Asia.
    \50\ ``Survey Shows Half of Chinese Discriminate against People 
with HIV/AIDS'' [Mintiao xianshi duoban zhongguoren paichi 
aizibingren], Voice of America (Online), 14 May 07.
    \51\ Xin Dingding, ``Law To Protect Hepatitis B Carriers' Rights,'' 
China Daily (Online), 14 July 07.
    \52\ Mure Dickie, ``Nokia China Hit with Discrimination Suit,'' 
Financial Times (Online), 13 March 07.
    \53\ ``Nokia Hepatitis B Discrimination Case Will Open in Court on 
August 9, People are Welcome To Attend'' [Nokia yigan qishi an jiang yu 
8 yue 9 ri kaiting, huanying canjia pangting, caifang], Boxun (Online), 
3 August 07; ``Nokia China Faces Lawsuit over Rejection of Hepatitis-B 
Carrier,'' Helsingin Sanomat (Online), 16 August 07.
    \54\ Ibid.; ``August 15 Dongguan Nokia Employment Discrimination 
Case Outcome and Situation Report from the Plaintiff's Lawyer'' [8 yue 
15 ri dongguan nuojiya jiuye qishi anjian shenpan jieguo yiji yu wofang 
lushi jiaoliu qingkuang huibao], Gandan Xiangzhao (Online), 15 August 
07.
    \55\ CECC Staff Search. See also, ``August 15 Dongguan Nokia 
Employment Discrimination Case Outcome and Situation Report from the 
Plaintiff's Lawyer,'' Gandan Xiangzhao.
    \56\ Chinese Human Rights Defenders (Online), ``Government Issues 
New Regulations Protecting the Employment Rights of Hepatitis B 
Carriers'' [Guanfang chuxin gui yaoqiu weihu yigan biaomian kangyuan 
xiedaizhe jiuye quanli], 31 May 07; Bonny Ling and Wing Lam, 
``Hepatitis B: A Catalyst for Anti-Discrimination Reforms?,'' 2 China 
Rights Forum 67, 72-73 (2007).
    \57\ ``New Law Allows Job Seekers To Litigate Against 
Discrimination,'' Xinhua (Online), 30 August 07; Xin Dingding, ``Law To 
Protect Hepatitis B Carriers' Rights.''
    \58\ PRC Employment Promotion Law, enacted 30 August 07, arts. 30, 
62; ``A Call for NGO Colleagues to Pay Attention to the Employment 
Promotion Law Anti-Discrimination Provision that Leaves out 
Discrimination against Carriers of Hepatitis B and HIV'' [Huyu NGO 
tongren guanzhu ``jiuye cujin fa'' fei qishi tiaokuan yilou yigan he 
aizi qishi wenti], Boxun (Online), 2 March 07.
    \59\ ``Legislation for Anti-Discrimination in Employment Urgently 
Needed'' [Fan yigan jiuye qishi ying lifa], China Youth Daily (Online), 
5 February 07; Bonny Ling and Wing Lam, ``Hepatitis B: A Catalyst for 
Anti-Discrimination Reforms?,'' 2 China Rights Forum 67, 71 (2007).
    \60\ Xin Dingding, ``Law To Protect Hepatitis B Carriers' Rights.''
    \61\ ``SARS Whistle-Blower Barred from US Prize Trip,'' Agence 
France-Presse, reprinted in South China Morning Post (Online), 12 July 
07.
    \62\ Emergency Response Regulations for Major Epidemics of Animal 
Diseases [Zhongda dongwu yiqing yingji tiaoli], issued 18 November 05, 
Ch. 3, art. 17.
    \63\ Human Rights in China (Online), ``State Secrets: China's Legal 
Labyrinth,'' June 2007, 180.
    \64\ Regulation of the People's Republic of China on the Public 
Disclosure of Government Information [Zhonghua renmin gongheguo zhengfu 
xinxi gongkai tiaoli], issued 5 April 07, art. 14.
    \65\ Cao Haidong and Fu Jianfeng, ``20 Years of Health Care Reform 
in China'' [Zhongguo yigai 20 nian], Southern Daily (Online), 5 August 
05; Ofra Anson and Shifang Sun, Health Care in Rural China (Ashgate, 
Aldershot, Hants, 2005), 15-17.
    \66\ Yuanli Liu, ``Development of the Rural Health Insurance System 
in China,'' Health Policy and Planning, 19(3), 2004, 160.
    \67\ ``Residents of Chinese Cities Live on Average 12 Years Longer 
than Those in Rural Areas--What Is the Cause?'' [Zhongguo dachengshi 
renjun shouming bi nongcun gao 12 nian--shi he yuanyin?], Xinhua 
(Online), 17 November 05.
    \68\ ``Facts and Figures: Widening Gap between China's Urban, Rural 
Areas,'' People's Daily (Online), 3 March 06.
    \69\ ``Residents of Chinese Cities Live on Average 12 Years Longer 
than Those in Rural Areas-What Is the Cause?,'' Xinhua.
    \70\ ``National Healthcare Needs Gradual Growth,'' China Daily 
(Online), 26 March 07.
    \71\ ``China will Augment Basic Urban Healthcare Insurance,'' 
Xinhua, reprinted in China.org (Online), 25 July 07.
    \72\ ``Premier Wen Sees How Urban Medicare Works,'' Xinhua, 
reprinted in China Daily (Online), 22 July 07.
    \73\ David Blumenthal and William Hsiao, ``Privatization and its 
Discontents--The Evolving Chinese Health Care System,'' 353 New England 
Journal of Medicine 1165, 1169 (2005); CECC, 2006 Annual Report, 109.
    \74\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua, reprinted in China.org (Online), 11 September 06; ``National 
Healthcare Needs Gradual Growth,'' China Daily.
    \75\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua; ``Healthcare Plans in Pipeline,'' China Daily, reprinted in 
China.org (Online), 12 March 07.
    \76\ Duncan Hewitt, ``China Rural Health Worries,'' BBC News 
(Online), 4 July 02.
    \77\ ``China Rebuilding Rural Cooperative Medicare System,'' 
Xinhua, reprinted in Beijing Review (Online), 21 February 07.
    \78\ ``Healthcare Plans in Pipeline,'' China Daily; ``Gov't under 
Pressure To Make Rural Healthcare System Work,'' Xinhua, reprinted in 
China.org (Online), 21 April 07.
    \79\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua; ``Rural Cooperative Healthcare Network Planned [sic],'' Xinhua, 
reprinted in China.org (Online), 8 June 07.
    \80\ ``Half of All Farmers Do Not Seek Care for Illness'' [Zhongguo 
nongmin yiban kanbuqi bing], Beijing News (Online), 6 November 04; 
``Half of All Children Who Die of Illness in the Countryside Had Not 
Received Medical Treatment'' [Wo guo yin bing siwang de nongcun ertong 
reng you yibanwei dedao yiliao], People's Daily (Online), 17 August 05; 
CECC, 2005 Annual Report, 11 October 05, 72.
    \81\ ``Gov't under Pressure To Make Rural Healthcare System Work,'' 
Xinhua.
    \82\ ``China Rebuilding Rural Cooperative Medicare System,'' 
Xinhua.
    \83\ ``Survey: Medical Expenses Account for 11.8% of Family's 
Annual Spending,'' Yahoo!, translated on the Web site of Women of 
China, 26 December 06.
    \84\ ``Doctors Face Growing Risk of Violent Medical Disputes,'' 
Xinhua, reprinted in China.org (Online), 18 April 07.
    \85\ Ibid.
    \86\ ``Rural Cooperative Healthcare Network Planned [sic],'' 
Xinhua.
    \87\ ``Rural Medical System Covers Nearly Half of Farmers,'' 
Xinhua.

    Notes to Section II--Environment
    \1\ Simon Elegant, ``Barely Breathing,'' Time Magazine (Online), 12 
December 06.
    \2\ ``China To Build Wind Farms Offshore,'' China Daily (Online), 
16 May 05.
    \3\ ``Reckless Human Activity Blamed for Frequent Mountain 
Torrents,'' Xinhua (Online), 23 June 05; ``World Research Group on 
Erosion Founded in China,'' People's Daily (Online), 20 October 04.
    \4\ ``Growth Leaves Country High and Dry,'' China Daily (Online), 
28 December 04; Ministry of Water Resources (Online), ``Thirsty 
Countryside Demands Safe Water,'' 23 March 05.
    \5\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005), People's Daily (Online), 5 June 06.
    \6\ ``Analysis: Stability Concerns Drive China's Environmental 
Initiatives,'' Open Source Center, 28 June 06; Ching-Ching Ni, ``China 
Toughens Stance on Environmental Protection,'' Los Angeles Times 
(Online), 22 February 06.
    \7\ Elizabeth C. Economy, The River Runs Black: The Environmental 
Challenge to China's Future (Ithaca, New York: Cornell University 
Press, 2004), 24.
    \8\ Ibid., 25; `` `Mass Incidents' on Rise as Environment 
Deteriorates,'' Xinhua (Online), 5 July 07.
    \9\ State Council Information Office, White Paper on Environmental 
Protection in China (1996-2005); Andrew Baston, ``China Takes on 
Pollution,'' Wall Street Journal, 6 June 06, A8.
    \10\ ``SEPA and the Ministry of Health Will Draw Up Standards of 
Environmental Damage Caused Health,'' Environment Public Information 
Network Center, reprinted in All-China Environment Federation (Online), 
7 October 06.
    \11\ Ching-Ching Ni, ``China Toughens Stance on Environmental 
Protection;'' Deng Weihua, Lin Wei, and Li Zebing, ``A Strange Circle 
of Pollution-Control-the Worse the Pollution, the Wealthier the 
Environmental Protection Bureaus'' [Zhiwu guaiquan: wuran yue zhong 
huanbao bumen yue fu], Legal Daily (Online), 12 July 05; Elizabeth C. 
Economy, The River Runs Black,'' 20-21.
    \12\ `` `Mass Incidents' on Rise as Environment Deteriorates,'' 
Xinhua.
    \13\ Jonathan Watts, ``China Blames Growing Social Unrest on Anger 
over Pollution,'' The Guardian (Online), 6 July 07; `` `Mass Incidents' 
on Rise as Environment Deteriorates,'' Xinhua.
    \14\ CECC, 2006 Annual Report, 20 September 06, 103.
    \15\ Wang Yongchen, ``Nu River News,'' Three Gorges Probe (Online), 
6 March 07.
    \16\ Wang Yongchen, ``Nu River News;'' Jianqiang Liu, ``Fog on the 
Nu River,'' China Dialogue (Online), 28 February 07. In February 2004, 
the government responded to citizen environmental concerns and agreed 
to suspend all 13 proposed hydroelectric dam projects on the Nujiang 
(Nu River) in Yunnan province, pending further review. In 2005, Chinese 
officials reversed this decision after a closed internal review of the 
Environmental Impact Assessment (EIA) report, said that four of the 
proposed dams would be built, and banned further domestic news media 
coverage of the topic. In September 2005, environmental activists 
posted an open letter to the State Council on the Internet, pointing 
out violations of the EIA law and demanding that officials organize a 
public hearing on the dam project. Yunnan provincial authorities 
subsequently released the government's order approving the EIA report, 
after refusing to do so for two years. In April 2006, Chinese activists 
reported signs of survey work near the proposed dams being covered up 
before a visit by a UNESCO-ICUN inspection team to investigate the 
potential impacts of building a dam in the Three Parallel Rivers 
National Park, which is a UNESCO world heritage site. Wang Yongchen, 
``Nu River News;'' CECC, 2006 Annual Report, 107.
    \17\ ``Call for Public Disclosure of Nujiang Hydropower 
Development's EIA Report in Accordance with the Law,'' Three Gorges 
Probe News Service (Online), 6 September 05; Jim Yardley, ``Seeking a 
Public Voice on China's `Angry River,' '' New York Times (Online), 26 
December 05.
    \18\ ``New Rules to Curb `Rampant' Violations of Pollution Laws,'' 
Xinhua (Online), 12 July 07.
    \19\ Experts have noted the significance of high impact litigation, 
in which even if the plaintiffs loses the case, it still may spur 
public officials to act, such as by issuing regulations. CECC Staff 
Interview; Xu Kezhu and Alex Wang, ``Recent Developments at the Center 
for Legal Assistance to Pollution Victims (CLAPV),'' Woodrow Wilson 
Center for International Scholars, 8 China Environment Series 103, 104 
(2006).
    \20\ ``Containing Social Unrest Key to Chinese Officials' Promotion 
Prospects,'' China Elections and Governance Web site (Online), 9 July 
07.
    \21\ Ibid.
    \22\ ``China's Environmental Degradation Creating Social Time-
Bomb,'' China Corporate Social Responsibility (Online), 1 August 07; 
Guobin Yan, ``Of Revolution and Reform: Two Faces of Environmental 
Activism in China,'' presented at the Association for Asian Studies 
Conference, April 2006.
    \23\ CECC Staff Interview.
    \24\ CECC, 2005 Annual Report, 11 October 05, 75.
    \25\ Ibid.
    \26\ The measures allow a limited role for the public in the EIA 
process through attendance at symposiums or public hearings, answering 
questionnaires, and consulting experts. In July 2006, a SEPA official 
announced that public hearings may be held on important, complex, or 
difficult environmental matters. ``Public Can Help Environment,'' China 
Daily (Online), 27 February 06; ``SEPA Chief: Emergency Environmental 
Incidents Can Be Directly Reported to the State Bureau For Letters and 
Calls'' [Huanbao zongju: tufa zhongda huanjing shixiang ke zhi bao 
guojia xinfang ju], People's Daily (Online), 6 July 06; ``SEPA Issues 
New Measures on Environmental Letters and Petitions'' [Huanbao zongju 
fabu shishi xin de huanjing xinfang banfa], Legal Daily (Online), 6 
July 06.
    \27\ Among the blocked projects, 31 were later granted approval 
after they carried out the proper consultation with the public. ``SEPA 
Blocks 12 Industrial Projects for Lack of Public Support,'' Xinhua 
(Online), 8 May 07; Ling Li, ``New Environmental Transparency Rule 
Opens Opportunity for Public Participation,'' China Watch (Online), 3 
May 07.
    \28\ These regulations will become effective on May 1, 2008. 
Workshop on Information Disclosures and Environment in China, World 
Bank, 5 June 07; Ling Li, ``New Environmental Transparency Rule Opens 
Opportunity for Public Participation;'' ``Govt's, Firms Ordered To 
Release Pollution Figures,'' Xinhua (Online), 26 April 07.
    \29\ ``Three Gorges Resettlement Activist Paralyzed After 
Assault,'' CECC China Human Rights and Rule of Law Update, July 2006, 
10-11.
    \30\ ``Officials Conclude Investigation, Increase Surveillance Over 
Activist Fu Xiancai,'' CECC China Human Rights and Rule of Law Update, 
September 2006, 12.
    \31\ Human Rights in China (Online), ``News Update: Hangzhou 
Environmentalist Tan Kai's Trial Granted Continuance,'' 22 June 06; 
``Environmentalist Tan Kai Sentenced to 1.5-Year Term'' [Huanbao renshi 
tan kai bei pan yi nian ban xingqi], Radio Free Asia (Online), 11 
August 06; Chinese Human Rights Defenders (Online), ``Zhejiang 
Environmental Activist Tan Kai Released from Prison'' [Zhejiang huanbao 
renshi tan kai chuyu], 1 May 07.
    \32\ Human Rights in China presented Sun Xiaodi's acceptance 
message for the prestigious Nuclear-Free Future Award in Window Rock, 
Arizona on December 1, 2006. His wife, who stayed in Gansu province 
after Sun departed for Beijing, has continued to receive threats and 
harassment from unknown individuals believed to be hired by local 
officials. Human Rights in China (Online), ``Sun Xiaodi Harassed, Faces 
Financial Hardship,'' 27 March 07; Human Rights in China (Online), 
``Environmental Activist Sun Xiaodi Faces Stepped-up Harassment after 
International Award,'' 2 January 07.
    \33\ ``State Security Bureau in Beijing Orders Sun Xiaodi To Leave 
Beijing'' [Beijing guoan leling sun xiaodi li jing], Radio Free Asia 
(Online), 18 July 07.
    \34\ Minnie Chan, ``Partner Profile: Defenders of Tai Hu,'' South 
China Morning Post, reprinted in Pacific Environment (Online), 29 May 
06.
    \35\ Tracy Quek, ``The Man Who Wants To Save a Lake; Beijing's 
Efforts To Protect the Environment Thwarted by Local Officials' 
Subterfuge in their Drive for Growth,'' Straits Times (Online), 21 
January 2007.
    \36\ Chan, ``Partner Profile: Defenders of Tai Hu.''
    \37\ Ibid.; Quek, ``The Man Who Wants To Save a Lake.''
    \38\ Chan, ``Partner Profile: Defenders of Tai Hu.''
    \39\ Ibid.
    \40\ Ibid.
    \41\ `` `Hero of Taihu' Wu Lihong Detained'' [``Taihu weishi'' wu 
lihong bei daibu], Deutsche Welle (Online), 23 April 07; Andreas 
Landwehr, ``Attempt To Save Polluted Chinese Lake Leads to Arrest,'' 
Deutsche Presse-Agentur (Online), 17 April 07; ``China Detains Green 
Activist Once Hailed Hero,'' Reuters (Online), 23 April 07; Shai Oster, 
``Police Hold Chinese Foe of Polluters,'' Wall Street Journal (Online), 
23 April 07.
    \42\ ``Jiangsu Environmental Activist Wu Lihong Beat Up in Prison'' 
[Jiangsu huanbao renshi wu lihong zai jianyu zhong zao duda], Radio 
Free Asia (Online), 1 June 07; ``Wife of Chinese Environmental Activist 
Wu Lihong Says Husband Tortured,'' Agence France-Presse, 1 June 07 
(Open Source Center, 04 June 07); Wang Xiangwei, ``Editorial: Release 
the Man Who First Raised the Alarm About Tai Lake's Pollution,'' South 
China Morning Post (Online), 4 June 07; ``Extortion Trial for Chinese 
Environmentalist Postponed, Wife and Attorney Say,'' Associated Press, 
reprinted in China Post (Online), 6 June 07.
    \43\ ``Premier Demands Thorough Investigation of Taihu Lake 
Crisis,'' Xinhua (Online), 12 June 07; `` `Mass Incidents' on Rise as 
Environment Deteriorates,'' Xinhua; Chris Buckley, ``China Algae 
Outbreak Sparks Water Panic,'' Reuters (Online), 31 May 07; Christopher 
Bodeen, ``China's Premier Orders Lake Algae Probe,'' Associated Press, 
reprinted in the Washington Post (Online), 12 June 07.
    \44\ Bodeen, ``China's Premier Orders Lake Algae Probe.''
    \45\ Ibid.
    \46\ `` `Eco-warrior' Wu Lihong Charged for Blackmail,'' Xinhua, 
reprinted in People's Daily (Online), 6 June 07.
    \47\ ``Extortion Trial for Chinese Environmentalist Postponed, Wife 
and Attorney Say,'' Associated Press.
    \48\ Benjamin Kang Lim, ``China Jails Environment Activist, Cuts 
Dissident's Term,'' Reuters (Online), 18 August 07.
    \49\ Tracy Quek, ``China Jails `Green' Hero,'' Strait Times, 12 
August 07.
    \50\ Lim, ``China Jails Environment Activist.''
    \51\ For example, in 2002, President Hu Jintao noted that ``the 
masses should play a role in supervising party officials.'' Simon 
Montlake, ``Whistle-blower in China Faces Prison,'' Christian Science 
Monitor (Online), 14 August 07.
    \52\ For example, Zhou Jian, Vice Minister of SEPA, mentioned that 
there is differing information relating to environmental health data. 
Yet, he reiterated the Chinese government's promise to protect people's 
health from pollution. Sun Xiaohua, ``World Bank Environment Report 
`Not Very Reliable,' '' China Elections and Governance Web site 
(Online), 18 July 07.
    \53\ Wang Jiaquan, ``China's Economic Engine Forced To Face 
Environmental Deficit,'' China Watch (Online), 26 July 07.
    \54\ China Council for International Cooperation on Environment and 
Development (CCICED) Task Force on Environmental Governance, 
``Environmental Governance in China,'' presented at the 5th Annual 
General Meeting of the CCICED, 10-12 November 06, 11-12.
    \55\ Ling Li, ``China Postpones Release of Report on `Green' GDP 
Accounting,'' China Watch (Online), 31 July 07; ``China's Environmental 
Degradation Creating Social Time-Bomb,'' China Corporate Social 
Responsibility.
    \56\ Ling Li, ``China Postpones Release of Report on `Green' GDP 
Accounting.''
    \57\ Ibid.
    \58\ Sun Xiaohua, ``World Bank Environment Report `Not Very 
Reliable.' ''
    \59\ ``Beijing Denies Bid To Cover Up World Bank Pollution Data,'' 
South China Morning Post (Online), 9 July 07.
    \60\ Monica Liau, ``Chinese Government Censors World Bank Pollution 
Report,'' China Watch (Online), 11 July 07; Richard McGregorin, 
``Beijing Censored Pollution Report,'' Financial Times (Online), 3 July 
07; Mitchell Landsberg, ``China Cancels Environment Report,'' Los 
Angeles Times (Online), 24 July 07.
    \61\ Sun Xiaohua, ``World Bank Environment Report `Not Very 
Reliable.' ''
    \62\ State Council Information Office (Online), ``The State Council 
Has Handled the Jilin Explosion Incident and Songhua Water Pollution 
Incident'' [Guowuyuan dui jihua baozha shigu ji songhua jiang shuiwuran 
shijian zuo chuli], 24 November 06.
    \63\ ``Branch Office of Jilin Petrochemical Company Fined One 
Million Yuan for Songhua River Incident'' [Jilin shihua fengongsi yin 
songhua jiang shuiwuran bei fakuan 100 wan], Xinhua (Online), 24 
January 07.
    \64\ ``Can SEPA's Maximum Fine Unsettle Enterprises' Low Cost of 
Violating the Law?'' [Huanbao zuida fadan nengfou zhenshe qiye 
dichengben weifa], China Youth Daily (Online), 25 January 07.
    \65\ ``Draft of Revised Water Pollution Prevention Law Already 
Finished'' [Shuiwuran fangzhi fa xiugai caoan yi ni chu], Legal Daily 
(Online), 30 January 07; ``China Solicits Public Opinion on Draft Law 
on Water Pollution,'' Xinhua (Online), 5 September 07.

    Notes to Section III--Civil Society
    \1\ See, e.g., ``Chinese NGOs Wish To Be Helpful to the 
Government,'' Xinhua, reprinted in People's Daily, 7 July 05.
    \2\ Regulation on the Management of the Registration of Social 
Organizations, [Shehui tuanti dengji guanli tiaoli], issued 25 October 
98. art. 3, 6.
    \3\ See, e.g. International Covenant on Civil and Political Rights 
(ICCPR), adopted by General Assembly resolution 2200A (XXI) of 16 
December 66, entry into force 23 March 76, art. 22; China is a 
signatory to the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR 
and reaffirmed its commitment as recently as April 13, 2006, in its 
application for membership in the UN Human Rights Council. China's top 
leaders have previously stated on three separate occasions that they 
are preparing for ratification of the ICCPR, including in a September 
6, 2005, statement by Politburo member and State Councilor Luo Gan at 
the 22nd World Congress on Law, in statements by Chinese Premier Wen 
Jiabao during his May 2005 Europe tour, and in a January 27, 2004, 
speech by Chinese President Hu Jintao before the French National 
Assembly. As a signatory to the ICCPR, China is required under Article 
18 of the Vienna Convention on the Law of Treaties, to which it is a 
party, ``to refrain from acts which would defeat the object and purpose 
of a treaty'' it has signed. Vienna Convention on the Law of Treaties, 
enacted 23 May 69, entry into force 27 January 80, art. 18.
    \4\ See, e.g., ``Minister of Civil Affairs Li Xueju: Foreign NGOs 
Can Legally Register for First Time'' [Minzhengbu buzhang Li Xueju: 
shewai minjian zuzhi shouci nihe fa dengji], People's Daily (Online), 
13 March 07. Guo Xiaojun, ``NGOs May Not Need an Oversight Organization 
in Order To Register'' [NGO zhuce you wang wu xu zhuguan danwei], 
Beijing News (Online), 18 October 04.
    \5\ ``Minister of Civil Affairs Li Xueju: Foreign NGOs Can Legally 
Register for First Time,'' People's Daily. Current regulations provide 
no guidelines for most foreign NGOs to register. Bereft of means to 
legally register as civil society organizations, some foreign NGOs 
decide not to register, others register as for-profit businesses, and 
others partner with a government-organized NGO. See, e.g., ``NGOs 
Defined in China,'' China Corporate Social Responsibility (Online), 11 
October 06. The government announced in January it had started work to 
revise the Temporary Regulations on the Registration and Management of 
Non-Governmental, Non-Commercial Enterprises, and that it had drafted 
implementing measures for the 2004 Regulation on the Management of 
Foundations. ``Director Sun Weilin's Speech at National Video 
Conference on Management of Civil Society Organizations'' [Sun Weilin 
juzhang zai quanguo minjian zuzhi guanli gongzuo shipin hui shang de 
jianghua], Ministry of Civil Affairs (Online), 31 January 07.
    \6\ See, e.g., Guo, ``NGOs May Not Need an Oversight Organization 
in Order To Register;'' ``CPPCC Member Wang Ming Demands Reform of Dual 
Regulatory System for Social Organizations,'' China Law Digest 
(Online), 13 March 07; ``Minister of Civil Affairs Li Xueju: Foreign 
NGOs Can Legally Register for First Time,'' People's Daily.
    \7\ ``Grassroots NGOs Struggle for Legitimacy,'' State 
Environmental Protection Administration (Online), 22 June 07 (referring 
to the retention of the dual oversight system stemming from 
requirements to obtain a sponsorship organization and register with a 
civil affairs bureau).
    \8\ ``Minister of Civil Affairs Li Xueju: Foreign NGOs Can Legally 
Register for First Time,'' People's Daily.
    \9\ Regulations on the Management of Foundations [Jijinhui guanli 
tiaoli], issued 8 March 04, art. 13
    \10\ The figure includes registered social organizations [shehui 
tuanti], nongovernmental noncommercial enterprises [minban feiqiye 
danwei], and foundations [jijinhui], three categories of civil society 
organizations delineated in MOCA's statistical reports. ``2006 
Statistical Report on Civil Affairs Sector Development'' [2006 nian 
minzheng shiye fazhan tongji baogao], Ministry of Civil Affairs 
(Online), 23 May 07.
    \11\ Estimates, which include quasi-governmental organizations, are 
cited in Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, ``Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau),'' 6 March 07. One Chinese 
scholar estimated the total number at 3 million. Zhao Ling and Dong 
Shuhua, ``New Regulations on Social Organizations To Be Issued This 
Year: Civil Society Organizations To Receive Appropriate 
Encouragement'' [Xin shetuan tiaoli nian nei chutai: minjian zuzhi 
jiang huo shidu guli], Southern Weekend (Online), 19 May 05. Chinese 
news sources continued to cite this figure in 2007. See, e.g., 
``Minister of Civil Affairs Li Xueju: Foreign NGOs Can Legally Register 
for First Time,'' People's Daily.
    \12\ One survey of 22 Chinese NGOs revealed 5 unregistered ones 
which ``conducted their activities openly without experiencing any 
explicit control exerted by any government agencies.'' The study noted 
that ``because civil affairs offices had no resources to register all 
prospective NGOs and the Chinese government had a policy to encourage 
voluntary activities as a way to advance the well-being of society, 
civil affairs offices allowed the existence of unregistered NGOs as 
long as these NGOs had not committed any financial misdeeds or posed 
any political threats.'' NGOs in China: Encouraging Action and 
Addressing Public Grievances, Staff Roundtable of the Congressional-
Executive Commission on China, 7 February 05, Written Statement 
submitted by Jiang Ru, Ph.D. in Environmental Management and Planning, 
Stanford University. See also ``Students With Hepatitis B File Lawsuit 
After School Officials Bar Enrollment,'' CECC China Human Rights and 
Rule of Law Update, November 2006, 11-12; Georgina Li, ``Xinjiang AIDs 
NGO Calls for End to `State of Terror' After Closure,'' South China 
Morning Post (Online), 25 October 06.
    \13\ ``Li Qiang: Call To Pay Attention to Harassment of 12 
Grassroots Organizations in Shenzhen'' [Li Qiang: Huyu guanzhu Shenzhen 
shi'er jia caogen tuanti shou dapo shijian], Boxun (Online), 15 
November 06. See also ``ACFTU Measures Promote Migrant Benefits, Also 
Aim To Curb Independent Groups,'' CECC China Human Rights and Rule of 
Law Update, December 2006, 11-12.
    \14\ ``Students With Hepatitis B File Lawsuit After School 
Officials Bar Enrollment,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 11-12. See also ``Xinjiang AIDS Organization 
Snow Lotus is Shut Down'' [Xinjiang aizibing minjian zuzhi xuelianhua 
bei qudi],'' Radio Free Asia (Online), 19 October 06. The Xinjiang 
government formally shut down the group for failing to register, but 
AIDS activist Wan Yanhai noted that many of China's HIV/AIDS 
organizations operate without official registration. Li, ``Xinjiang 
AIDs NGO Calls for End to `State of Terror' After Closure.''
    \15\ Public officials in China consider the CDP to be an illegal 
organization and have used subversion charges to impose lengthy prison 
sentences on numerous CDP activists since the group's founding in 1998 
to promote multi-party politics and a peaceful transformation of 
Chinese politics. Human Rights Watch (Online), ``Nipped in the Bud: The 
Suppression of the China Democracy Party,'' September 00. See also 
``Overseas Service Center of Chinese Democracy Party Calls for 
Attention to Case of China Democracy Party's Chen Shuqing and Li Hong 
(Zhang Jianghong)'' [Zhongguo minzhu dang haiwai fuwu zhongxin huyu 
guanzhu Chen Shuqing, Li Hong (Zhang Jianhong) zhongguo minzhu dang yi 
an], Radio Free Asia (Online), 19 September 06.
    \16\ ``Well-Known Online Article Writer Zhang Jianhong Sentenced 
for Inciting Subversion of State Power'' [Wangshang zhuanwen da Zhang 
Jianhong shandong dianfu guojia zhengquan an xuanpan], Xinhua, 
reprinted in Phoenix Television (Online), 20 March 07. See also the 
CECC Political Prisoner Database for more information.
    \17\ ``China Jails Internet Writer for Subversion, Disbars 
Lawyer,'' Reuters (Online), 16 August 07. See also the CECC Political 
Prisoner Database for more information.
    \18\ ``Pro-Democracy Activist Detained for `Inciting Subversion' 
Government Must End Criminalization of Free Speech,'' Chinese Human 
Rights Defenders (Online), 27 August 07. See also the CECC Political 
Prisoner Database for more information.
    \19\ ``Zhejiang China Democracy Party Member Chi Jianwei Sentenced 
to 3 Years in Prison'' [Zhejiang sheng zhongguo minzhu dang chengyuan 
chi jianwei bei pan xing 3 nian tuxing], Radio Free Asia (Online), 27 
March 07. See also the CECC Political Prisoner Database for more 
information.
    \20\ In 2007 a Zhejiang court sentenced writer and painter Yan 
Zhengxue to three years in prison for inciting subversion for 
publishing essays deemed critical of the government. Procuratorate 
officials had alleged Yan was a secret member of the CDP, but the court 
did not include this as a basis for its sentence. Independent Chinese 
Pen Center, ``ICPC Statement Regarding Protest of Member Yan Zhengxue's 
Sentence'' [Duli zhongwen bihui guanyu huiyuan Yan Zhengxue bei panxin 
de kangyi shengming],'' 19 April 07. See also the CECC Political 
Prisoner Database for more information.
    \21\ See the CECC Political Prisoner Database for more information. 
See also ``Authorities Arrest and Imprison Writers for Online Essays 
Criticizing Government,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 4-5.
    \22\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China. Chinese and western sources have defined the 
term ``nongovernmental organization'' in different ways and have varied 
in their views of the function of such organizations. In the Chinese 
context, government involvement can shape the operation of such groups, 
some of which include so-called government-operated NGOs. As noted in 
the State Department report, registration requirements ``prevented the 
formation of truly autonomous political, human rights, religious, 
spiritual, labor, and other organizations that might challenge 
government authority.''
    \23\ Chen Xiangyang, ``The Current State and Challenges of 
Nongovernmental Organizations in China,'' China Economic Times, 26 May 
05 (Open Source Center 27 May 05). In the spring and summer 2005, after 
uprisings in former Soviet republics, senior Chinese international 
relations experts fanned out to the United States and quizzed U.S. 
specialists on China whether there was a deliberate U.S.-backed plan, 
with U.S. NGOs at the forefront, to shift from a ``War on Terror'' to 
``War for Democracy,'' following on a theme sounded in President George 
Bush's second inaugural address. Some Chinese sources confided in 
Western specialists that they heard Russian President Vladimir Putin 
had urged Hu Jintao to exercise caution toward the role of U.S.-
supported NGOs in Chinese society, lest they promote a revolution from 
below via civil society. CECC Staff Interviews. For a more recent 
article expressing general concerns about Western infiltration, see 
``Be on Guard Against the Western Countries in Their Attempt To Stage 
`Peaceful Evolution' in China,'' Beijing Marxism Research, 5 October 06 
(Open Source Center, 4 January 07). At the same time, an August 2006 
article in Study Times, a Central Party School newspaper, criticized 
the polarization of views regarding foreign NGOs and called for a more 
objective assessment recognizing both the positive contributions of 
such organizations as well as their shortcomings. Zhao Liqing, ``How To 
Assess Foreign NGOs in China'' [Ruhe kandai zai Zhongguo de waiguo 
feizhengfu zuzhi], Study Times, reprinted on the China Elections and 
Governance Web site, 23 August 06.
    \24\ See, e.g., ``China Tightening Control Over NGOs'' [Zhongguo 
jiajin kongzhi feizhengfu zuzhi], Voice of America, reprinted on Boxun, 
31 August 06; ``Investigation Sends Chill Through Activist Group,'' 
Associated Press, printed in the South China Morning Post, 31 August 
06.
    \25\ CECC Staff Interviews. In addition to receiving earlier 
reports of Chinese partners withdrawing from cooperative projects, the 
Commission confirmed in 2007 that the practice has continued.
    \26\ Nick Young, ``Message from the Editor,'' China Development 
Brief (Online), 12 July 07.
    \27\ ``Ministry Mulls Help for Farmers' Groups,'' China Daily 
(Online), 07 July 07. Law on Professional Farmers' Cooperatives 
[Zhonghua renmin gongheguo nongmin zhuanye hezuoshe fa], issued 31 
October 06, art. 13. Details on registration requirements are 
articulated in the Regulation on the Management of the Registration of 
Professional Farmers' Cooperatives [Nongmin zhuanye hezuoshe dengji 
guanli tiaoli], issued 28 May 07. For more information on the law and 
regulation, see Kevin Schwartz, ``The Farmers' Professional Cooperative 
Law (P.R.C.) in Economic, Political, and Legal Context.'' 5 
International Journal of Civil Society Law, July 2007, 39.
    \28\ Law on Professional Farmers' Cooperatives, art. 13.
    \29\ World Bank, East Asia and Pacific Region, ``China--Farmers 
Professional Associations: Review and Policy Recommendations,'' October 
2006, 2-3. Critics of the law have noted that it fails to apply to all 
types of cooperatives and does not promote the formation of rural 
finance cooperatives. ``Ministry Mulls Help for Farmers' Groups,'' 
China Daily.
    \30\ ``Better Regulation of Charities on [the] Way: Official,'' 
China Daily, reprinted in People's Daily (Online), 25 May 07. See also 
``Tax Policy on Charity Widened,'' China Daily (Online), 20 January 07. 
Although Chinese authorities have expressed support for charitable 
activities, critics argue that the government has hindered the growth 
of grassroots charitable organizations. ``Chinese Government Does Not 
Encourage Development of Grassroots Philanthropic Organizations'' 
[Zhongguo zhengfu bu guli caogen cishan jigou de fazhan], Radio Free 
Asia (Online), 31 January 07. In 2006, the Communist Youth League 
Central Committee began a campaign to recruit and train ``registered'' 
volunteers. ``China Developing Law To Recognize and Boost 
Volunteerism,'' Xinhua, reprinted on People's Daily (Online), 06 
December 06. The status of charitable organizations has taken on 
increasing importance as part of a broader effort by the Chinese 
government to encourage volunteer work among the populace. In March 
2005, Premier Wen Jiabao presented the first government report to 
include specific support for charitable activities. ``Policy Incentives 
Urged for Charitable Activities,'' China Daily (Online), 22 November 05 
(Open Source Center, 22 November 05).
    \31\ ``Donations to Charitable Organizations All To Be Exempt from 
Taxation'' [Juanzeng gongyi shetuan junke mianshui], Beijing News 
(Online), 19 January 07; ``Tax Policy on Charity Widened,'' China 
Daily. For text of the policy, see ``Circular of the Ministry of 
Finance and the State Administration of Taxation on the Policies and 
Relevant Management Issues Concerning the Pre-tax Deduction of Public 
Welfare Relief Donations'' [Guanyu gongyi jiujixing juanzeng shui qian 
kouchu zhengce ji xiangguan guanli wenti de tongzhi], issued 19 January 
07. Previous policy only allowed tax deductions for donations made to a 
small group of specified organizations; the new policy extends this to 
all registered nonprofit social welfare organizations and foundations. 
A new Enterprise Income Tax law adopted during the 10th NPC session in 
March 2007 raises the limitation of permitted deductions for corporate 
donations from 3 to 12 percent of annual profit. Enterprise Income Tax 
Law of the People's Republic of China, issued 16 March 07, art. 9. This 
provision replaces the Trial Regulations on Enterprise Income Tax 
[Zhonghua renmin gongheguo qiye suodeshui zanxing tiaoli], issued 13 
December 93, art. 6(4).
    \32\ In the first phase, six NGOs (including the U.S.-headquartered 
Heifer Project International) were selected to facilitate projects in 
villages in Jiangxi province. Wang Zhenghua, ``NGOs Win Bid for Poverty 
Relief,'' China Daily (Online), 22 February 06. Chan Siu-Sin, ``Civil 
Groups Given State Funding for Relief Operations,'' South China Morning 
Post (Online), 20 March 06. The government traditionally has acted 
independently of NGOs in implementing poverty alleviation initiatives, 
which has led to inefficiency due to bureaucratic requirements. 
Corruption among local government officials has also proved problematic 
in the distribution of relief funds. ``Beijing Review: Government 
Changes Needed To Clarify NGOs' Role in China,'' Beijing Review, 31 
March 06 (Open Source Center, 31 March 06).
    \33\ Chang Tianle, ``Shanghai Dances with NGOs,'' China Development 
Brief Newsletter, November 06.

    Notes to Section III--Institutions of Democratic Governance
    \1\ On Tiananmen's impact on leadership politics and political 
reform, see Joseph Fewsmith, China Since Tiananmen: The Politics of 
Transition (Cambridge University Press, 2001), 1-10; Joseph 
Fewsmith,``Hu Jintao's Outbox,'' The Atlantic Council, Conference Paper 
for China and The World Economy Workshop, December 2005; Murray Scot 
Tanner, ``Can China Contain Unrest? Six Questions Seeking One Answer,'' 
Brookings Institution Northeast Asia Commentary (Online), March 2007.
    \2\ CECC, 2006 Annual Report, 20 September 06, 125.
    \3\ David Schlesinger and Brian Rhoads, ``Wen Says Time Not Ripe 
for Direct Polls,'' Reuters (Online), 5 September 06; See also 
``Chinese Premier Rules Out Democratic Reform in Near Future,'' Voice 
of America (Online), 27 February 07.
    \4\ According to a 2001 article by elections expert Jamie Horsley 
of the China Law Center at Yale Law School, as of that year, voters in 
some parts of Fujian province had already participated in their seventh 
round of voting since 1988. Jamie Horsley, ``Village Elections: 
Training Ground for Democratization,'' China Business Review, March-
April 01, reprinted in China Elections and Governance (Online), 4 
November 06.
    \5\ Guan Xiaofeng, ``Progress and Problems Mark Village 
Elections,'' China Daily (Online), 10 July 07 (Open Source Center, 11 
July 07).
    \6\ ``Guangdong Villagers Surround Village Committee, Protest 
Election Rigging and Manipulation,'' Radio Free Asia (in Chinese), 26 
September 07; Law enforcement officials in Zhejiang province, for 
example, reported that in some rural areas, popular anger over vote-
buying, election rigging, and other efforts to subvert the electoral 
system account for more than one-tenth of all cases of rural unrest. 
Zhang Ruoxian, Wang Weiwen, Liu Zhiming, ``Causes and Policy Responses 
to the Problems of Crimes Committed by Rural Residents in the Course of 
Urbanization'' [Chengshihua jincheng zhong shidi nongmin weifa fanzui 
wenti de chengyin yu duice], Zhejiang Court Network (Online), 20 March 
06.
    \7\ Guan, ``Progress and Problems Mark Village Elections.''
    \8\ ``Rural Elections Undermined by Bribery, Manipulation,'' China 
Daily, reprinted in China Elections and Governance (Online), 21 August 
06.
    \9\ ``Bribery Reported in Grass-Roots Elections in Villages,'' 
Xinhua, 9 October 06; ``Inner Mongolia Village Elections See Rampant 
Bribery,'' China Elections and Governance (Online), 10 October 06.
    \10\ ``China Punishes 192 Officials for Electoral Fraud,'' China 
Daily, reprinted in China Elections and Governance (Online), 2 February 
07; See also ``Central Committee Investigates Vote Buying Affair by Li 
Tangtang,'' 21st Century Economic Herald (21 Shiji jingji daobao), 6 
February 07.
    \11\ Lianjiang Li, ``Driven to Protest: China's Rural Unrest,'' 
Current History, 105 (689) September 06, 253.
    \12\ CECC, 2006 Annual Report, 20 September 06, 127-131. For 
evidence that this trend has continued and deepened in 2006-2007, see 
the endorsement of ``concurrent leadership'' in ``Hunan Issues 
`Opinions' on Strengthening Village Cadres Contingent,'' Hunan Daily 
(Online), 25 May 07. Liaoning Daily, 10 January 07 in ``Report on 
Village Democracy in China,'' (Open Source Center, 24 Jan 07); Hebei 
Daily, 17 April 07 in ``Report on Village Democracy in China,'' (Open 
Source Center, 13 April - May 07); Sun Dongwen (Dantu District CCP 
Organization Department Deputy Director), ``Speech Before the Work 
Meeting of the Entire District on Village Party Committee Elections,'' 
[Zai quanqu cundang zuzhi huanjie gongzuo huiyi shang de jianghua], 9 
August 07, Dantu Communist Party Committee Party Building Web site.
    \13\ CECC Staff Interviews.
    \14\ Election and nomination rules for residents committee 
elections are reportedly far more flexible than those for village 
committees, which are in principle governed by more detailed laws. In 
some cities, the process is very restricted and indirect, with only a 
few more candidates than committee seats. Local election committees 
control the identity of candidates, with voters choosing a limited 
number of representatives for their housing blocks who can, in turn, 
vote for the actual committee candidates. More fundamentally, rural 
village committees actually influence provision of important services 
in their area, while an urban community committee ``doesn't control any 
benefits that people value, so they do not value the community 
committee.'' For a brief history of these elections and foreign NGO 
election monitoring activities, see Elizabeth Dugan, ``Urban Elections 
in China,'' China Elections and Governance (Online), 10 January 03.
    \15\ ``Shenzhen To Increase Direct Resident Committee Election 
Proportion to 70 Percent,'' Southern Daily, 15 May 07 (Open Source 
Center, 17 July 07).
    \16\ For a report on such a vote in Beijing, see Sun Yuqing, ``In a 
Rare Vote, Local Residents Support Compensation Plan for Demolition of 
their Homes,'' China Daily (Online), 11 June 07. However, some analysts 
have observed that residents committees work more predominantly in the 
interests of developers, serving as the developer's agent during the 
planning and relocation process. See Pamela N. Phan, Enriching the Land 
or the Political Elite? Lessons from China on Democratization of the 
Urban Renewal Process, 14 Pac. Rim. L. & Pol'y J. 607, 621 (2005); 
Daniel Abramson, Marketization and Institutions in Chinese Inner-City 
Neighborhood Redevelopment: A Commentary on Beijing's Old and 
Dilapidated Housing Renewal by Lu Junhua, 14 Cities 71, 73 (1997).
    \17\ ``China's County, Township, Congress Elections Underway,'' 
Xinhua (Online), 24 October 06.
    \18\ An Hua, ``Voter Appraisals of Representatives to the Beijing 
People's Congress Vary'' [Beijing xuanju renmin daibiao zhong xuanmin 
baobian buyi], Voice of America (Online), 8 November 06.
    \19\ Ibid.
    \20\ For a general report on various instances of harassment, see 
``Local Authorities Interfere With Rights To Vote and Stand For 
Election,'' CECC China Human Rights and Rule of Law Update, December 
2006, 14-15.
    \21\ Ding Xiao, ``Yao Lifa Obstructed in his Independent Candidacy, 
Summoned for Interrogation on the Eve of Election Day'' [Yao Lifa duli 
jingxuan shouzu; toupiaori qianxi zao chuanxun], Voice of America 
(Online), 7 November 06.
    \22\ An Hua, ``Chinese Rights Defender Campaigning To Be People's 
Congress Representative Is Detained'' [Zhongguo jingxuan renda daibiao 
weiquan renshi bei juliu], Voice of America (Online), 7 November 06.
    \23\ Liu Qing, ``Far-Reaching Significance of Independent 
Candidacy'' [Duli canxuan yiyi shenyuan], Human Rights in China 
(Online), September 06.
    \24\ For a detailed list of recent experiments , see Chen Jiaxi, 
``Rural Village Basic-Level Party Organization Elections: Progress and 
Problems,'' [Nongcun jiceng dang zuzhi xuanju gaige: jinzhan yu wenti], 
Beijing Party Building [Beijing Dangjian] (Online), 17 July 07.
    \25\ Chen Jiaxi, ``Rural Village Basic-Level Party Organization 
Elections.''
    \26\ For a detailed example, see Weihai City Communist Party 
Organization Department, ``Opinion on how to do a better job of the 
`two nominations and one election' in the selection of village party 
organization members,'' [Guanyu jinyibu zuohao `liangtui yixuan' 
nongcun dang zuzhi chengyuan de yijian], Organization Department 
Document Number 22 (2007).
    \27\ In Hu Jintao's June 25 ``important speech'' to the Central 
Party School, which official commentators have indicated is likely to 
be a precursor to his 17th Party Congress report, Hu endorsed both 
expanded popular political participation and socialist democracy, as 
well as improved ``inner-Party democracy.'' Hu did not make any 
endorsement of expanded popular participation in Party affairs, 
however. ``Hu Jintao Gives Important Speech at Central Party School,'' 
Xinhua, 25 June 07.
    \28\ Ibid.
    \29\ ``130 Officials Caught in Election Scandals,'' Xinhua, 
reprinted in China Elections and Governance (Online), 21 November 06.
    \30\ ``CPC Promotes Democracy by Open Elections,'' Xinhua, 
reprinted in China Elections and Governance (Online), 17 July 07.
    \31\ Ji Lima, ``A New Light for Democracy within the Party'' 
[Dangnei minzhu xin liangxiang), China Elections and Governance 
(Online), 6 August 07.
    \32\ Zhang Xiaoyan, ``Enhance Inner Party Harmony by Means of 
Inner-Party Democracy,'' Study Times, 8 January 07.
    \33\ ``China Punishes 192 Officials for Electoral Fraud,'' China 
Daily, reprinted in China Elections and Governance (Online), 2 February 
07.
    \34\ Kristine Kwok, ``Four Killing in Row Over Village Election,'' 
South China Morning Post (Online), 26 June 07; ``(In Brief) Village 
Chief Kills Self,'' South China Morning Post, 29 June 07.
    \35\ Ting Shi, ``Party Wants Faster Path to Reform, Says Report,'' 
South China Morning Post (Online), 8 August 07.
    \36\ Michael Huang, ``CCP Regime Maintenance: Pragmatic, But Not 
Necessarily Democratic,'' China This Week, 29 June-6 July 07.

    Notes to Section III--Access to Justice
    \1\ ``Last Year Total Letters and Visits Decreased Over 15 
Percent,'' Radio Free Asia (Online), 28 March 06. Another source 
indicates that ``disorderly petitions'' decreased by 16.9 percent over 
2005. ``Central Discipline Inspection Commission: Disorderly Petitions 
and Improper Petitions Decrease Greatly,'' Radio Free Asia (Online), 11 
July 07. See also, CECC, 2006 Annual Report, 20 September 06, 140.
    \2\ CECC, 2004 Annual Report, 5 October 04, 74.
    \3\ Regulations on Letters and Visits [Xinfang tiaoli], issued 10 
January 05, arts. 6-8, 33-36.
    \4\ For reports on this police incentive system, see ``Ten Major 
Events in Liaoning's 2004 Public Security Work'' [Liaoning gongan 2004 
shi jian da shi], Liaoning Provincial Yearbook 2005(Online); Yao 
Hengbin, ``Deeply Promote Activities for the Construction of Peace, 
Work Hard to Create and Harmonious and Stable Social Environment'' 
[Shenru tuijin pingan jianshe huodong nuli chuangzao heping wending de 
shehui huanjing], Jiangsu Academy of Social Sciences (Online), 27 
January 05; Duan Shouliang, ``Investigation and Reflections on the 
Pudong New District Conflict Mediation System'' [Pudong xinqu jiufen 
jiejue jizhi diaocha yu sikao], Pudong People's Court (Online); Chen 
Shuangquan, ``Reform of Sichuan's Letters and Visits System'' [Sichuan 
sheng xinfang zhidu gaige], 16 November 04; ``Xinfang Becomes Indicator 
of Chinese Official's Political Evaluation'' [Xinfang cheng zhongguo 
guanyuan zhengji zhibiao], Yunnan Provincial Communist Party (Online); 
Human Rights Watch, ``China: Rampant Violence and Intimidation Against 
Petitioners,'' 8 December 05.
    \5\ CECC, 2006 Annual Report, 140.
    \6\ ``Last Year Total Letters and Visits Decreased Over 15 
Percent'' Radio Free Asia. Another source indicates that ``disorderly 
petitions'' decreased by 16.9 percent over 2005. ``Central Discipline 
Inspection Commission: Disorderly Petitions and Improper Petitions 
Decrease Greatly,'' Radio Free Asia.
    \7\ ``The Supreme People's Procuratorate Publishes Regulations 
Strengthening Petition Oversight; Uncertain Cases May Permit Hearings'' 
[Zuigaojian chutai guiding jiaqiang xinfang jiandu; yinan shigu ke 
tingzheng], Jiancha Ribao, 14 May 07.
    \8\ The document is entitled ``CCP Central Committee and State 
Council Promulgate `Opinions on Further Strengthening Petition Handling 
Work for the New Period'.'' See ``Central Government Requests 
Correcting and Restricting Mistaken Methods of Interfering in Petition 
Activities,'' China Court Network (Online), 25 June 07.
    \9\ ``China To Establish National Center To Receive Public 
Complaints,'' Xinhua (Online), 24 June 07.
    \10\ ``Chinese Local Governments Pressure Petitioners,'' Radio Free 
Asia (Online), 30 May, 07.
    \11\ ``New Rules Make Life Tougher on Petitioners, Survey Finds,'' 
China Development Brief, 15 May 07.
    \12\ ``Supreme People's Procuratorate Details New Efforts to 
Prosecute Abuses of Power,'' CECC China Human Rights and Rule of Law 
Update, September 2006, 4.
    \13\ Supreme People's Procuratorate Provisions on the Criteria for 
Filing Derelection of Duty and Rights Infringement Criminal Cases 
[Zuigao renmin jianchayuan guanyu duzhi qinquan fanzui anjian lian 
biaozhun de guiding], issued 26 July 06.
    \14\ Yunling City Communist Party Committee (Online), ``Sichuan's 
Petition System Reform, The Pressure of Political Evaluations Leads to 
the Obstruction of Petitions'' [Sichuan xinfang zhidu gaige zhengyi 
zhong qi hang, zhengji yali daozhi shangfang bei zu], 16 November 04.
    \15\ Irene Wang, ``People's Legal Action on the Rise,'' South China 
Morning Post (Online), 30 March 07; Xie Chuanjiao, ``Citizens Get New 
Support from Supreme Court,'' China Daily, reprinted in China Elections 
and Governance (Online), 29 March 07.
    \16\ ``Being People-Centered and Reconsideration for the People--
The Responsible Person of the State Council Legislative Affairs Office 
Answers Questions on the Regulations on the Implementation of the 
Admninistrative Reconsideration Law,'' Xinhua (Online), 14 June 07; 
Implementing Regulations of the People's Republic of China on the 
Administrative Consideration Law, issued 29 May 07.
    \17\ Xie Chuanjiao, ``Citizens Get New Support from Supreme 
Court.''
    \18\ ``Senior Official Calls for Fair Trial of Lawsuits Against 
Gov't,'' Chinaview.cn, reprinted in China Elections and Governance 
(Online), 27 March 07.
    \19\ Luo Gan, ``Develop and Deepen Education in the Socialist Idea 
of the Rule of Law and Earnestly Strengthen the Ideological and 
Political Building of the Political-Legal Contingent,'' Seeking Truth, 
Number 12, 16 June 06; ``Luo Gan Urges Public Security Officials to 
Apply the Socialist Concept of the Rule of Law,'' Xinhua (Online), 22 
September 06; Human Rights Watch, ``A Great Danger for Lawyers,'' 12 
December 06.

    Notes to Section III--Commercial Rule of Law
    \1\ A complete and up to date compilation of key information on 
China's participation in the World Trade Organization [hereinafter 
WTO], including principal accession documents (Working Party report, 
protocol of accession, General Council decision), schedules, trade 
policy reviews and dispute case documents can be found at the WTO web 
site at www.wto.org.
    \2\ Ibid. See also Office of the United States Trade Representative 
[hereinafter USTR] Web site at www.ustr.gov.
    \3\ USTR (Online), ``WTO Case Challenging Weaknesses in China's 
Legal Regime for Protection and Enforcement of Copyrights and 
Trademarks,'' Trade Delivers, April 2007. See also USTR (Online), 
``United States Files WTO Cases Against China Over Deficiencies in 
China's Intellectual Property Rights Laws and Market Access Barriers to 
Copyright-Based Industries,'' 9 April 07.
    \4\ USTR (Online), ``United States Requests WTO Panel in Challenge 
to China's Prohibited Subsidies,'' 12 July 07. See also USTR (Online), 
``United States Files WTO Case Against China Over Prohibited 
Subsidies,'' 2 February 07.
    \5\ Frances Williams, ``WTO Probes China's Export Subsidy Claims,'' 
Financial Times (Online), 31 August 07.
    \6\ ``China's Implementation of Its World Trade Organization 
Commitments,'' Written Testimony of the U.S.-China Business Council, 28 
September 06, submitted in response to the USTR's Request for Comments 
and Notice of Public Hearing Concerning China's Compliance with WTO 
Commitments. See also testimony and documents in connection with 
Legislation Related to Trade with China, Hearing of the Subcommittee on 
Trade, Committee on Ways and Means, U.S. House of Representatives, 2 
August 07; and testimony and documents in connection with Trade with 
China, Hearing of the Subcommittee on Trade, Committee on Ways and 
Means, U.S. House of Representatives, 15 February 07.
    \7\ For an overview of China's implementation of its WTO 
commitments from a business perspective as of September 28, 2006, see 
``China's Implementation of Its World Trade Organization Commitments,'' 
Written Testimony of the U.S.-China Business Council. See also 
testimony and documents in connection with Legislation Related to Trade 
with China, Subcommittee on Trade; and testimony and documents in 
connection with Trade with China, Subcommittee on Trade. For a summary 
of China's WTO's commitments and U.S. concerns with the structure of 
China's legal regime with regard to IPR from the perspective of the 
USTR, see USTR, ``WTO Case Challenging Weaknesses in China's Legal 
Regime.''
    \8\ Commission Staff Interviews; The American Chamber of Commerce 
in Shanghai disputed reports that it had opposed the draft Labor 
Contract Law. See ``Re: Press Reports Concerning AmCham-China and the 
PRC Draft Labor Contract Law,'' The American Chamber of Commerce in the 
People's Republic of China (Online), 18 June 07 . US-China Business 
Council, ``Comments on the Draft People's Republic of China Law on 
Employment Contracts (Draft of December 24, 2006);'' Sarah Schafer, 
``Now They Speak Out,'' Newsweek International (Online), 28 May 07; 
Andrew Batson and Mei Fong, ``China Toils Over New Labor Law,'' The 
Wall Street Journal (Online), 7 May 2007; ``Undue Influence: 
Corporations Gain Ground in Battle over China's New Labor Law,'' Global 
Labor Strategies, March 2007; ``The Chinese Draft Contract Law--A 
Global Debate,'' CSR Asia, 25 April 2007; ``Behind the Great Wall of 
China: U. S. Corporations Opposing New Rights for Chinese Workers,'' 
Global Labor Strategies (Online), last viewed 7 October 07.
    \9\ Commission Staff Interviews; US-China Business Council, 
``Comments on the Draft People's Republic of China Law on Employment 
Contracts (Draft of December 24, 2006); Batson and Fong, ``China Toils 
Over New Labor Law;'' Sarah Schafer, ``Now They Speak Out;'' ``The 
Chinese Draft Contract Law,'' CSR Asia; ``Behind the Great Wall of 
China,'' Global Labor Strategies; ``Twenty -Seven Democrats Ask Bush to 
Support China's Proposed Labor Law,'' Daily Labor Report, No. 213, 3 
November 2006, A-8.
    \10\ CECC, 2006 Annual Report, 20 September 06, 145-148.
    \11\ CECC, 2004 Annual Report, 5 October 04, 83.
    \12\ USTR, 2007 Special 301 Report, 30 April 07, 2.
    \13\ Andrew C. Mertha, The Politics of Piracy: Intellectual 
Property in Contemporary China (Ithaca, Cornell University Press, 
2005); Intellectual Property Protection as Economic Policy: Will China 
Ever Enforce its IP Laws?, Staff Roundtable of Congressional-Executive 
Commission on China, 16 May 05. See also ``Campaign Targets IPR 
Infringement, Censors Political and Religious Publications,'' CECC 
Virtual Academy (Online), 4 January 07; and Trade with China, 
Subcommittee on Trade, Statement of U.S.-China Business Council.
    \14\ ``China Seizes 58 Million Illegal Publications in Three 
Months,'' People's Daily (Online), 27 November 06; ``Beijing Shops 
Selling Pirated Audio and Video Products Will Be Fined At Least 10,000 
Yuan,'' People's Daily (Online), 24 July 06.
    \15\ ``Campaign Targets IPR Infringement, Censors Political and 
Religious Publications,'' CECC Virtual Academy.
    \16\ ``100 Day Anti-Piracy Action Confiscates Over 33,000,000 
Illegal Publications'' [Fan daoban bairi xingdong shouji feifa chubanwu 
yu 3300 wan jian], Xinhua (Online), 16 September 06.
    \17\ ``100 Day Anti-Piracy Action: 368 Business Licenses 
Rescinded'' [Fan daoban bairi xingdong: 368 jia danwei jingying 
xukezheng bei diaoxiao], Xinhua (Online), 17 September 06.
    \18\ Overall, China's Ministry of Culture reported that in 2006 
Chinese officials had confiscated approximately 110 million illegal 
DVDs and CDs. ``Chinese Watchdog Head Slams Abuse of Copyright 
Disputes,'' People's Daily (Online), 05 September 07.
    \19\ In its 2004 Annual Report, the Commission criticized China for 
its failure to ``make concrete progress [toward better IPR 
enforcement]'' by joining the three World Intellectual Property 
Organizaton (WIPO) treaties, and for the Supreme People's Court's 
refusal to carry out China's commitment to expand the range of IPR 
violations punishable by criminal sanction by lowering the criminal 
enforcement threshold in its laws. CECC, 2004 Annual Report, 88-89. 
These treaties define a wide range of intellectual property rights for 
performers and creators of computer programs, databases, and 
phonograms, and obligate contracting parties to legislate and provide a 
series of legal protections and remedies for these rights holders in 
case of infringement. WIPO Performances and Phonograms Treaty, Dec. 20, 
1996; WIPO Copyright Treaty, Dec. 20, 1996.
    \20\ Interpretation of the Supreme People's Court and the Supreme 
People's Procuratorate on Several Issues of Concrete Application of Law 
in Handling Criminal Cases of Infringing Intellectual Property (II) 
[Zuigao renmin fayuan zuigao renmin jianchayuan guanyu banli qinfan 
zhishichanquan xingshi anjian juti yingyong falu ruogan wenti de 
jieshi], issued 5 April 07; ``Chinese Watchdog Head Slams Abuse of 
Copyright Disputes,'' People's Daily (Online), 5 September 07.
    \21\ USTR, 2007 Special 301 Report, 18-19.
    \22\ Trade with China, Subcommittee on Trade, Statement of U.S.-
China Business Council.
    \23\ ``EU-China Trade Ministerial Meeting 12 June 2007,'' Europa 
(Online), 12 June 07.
    \24\ USTR, 2007 Special 301 Report, 42-52.
    \25\ USTR, 2007 Special 301 Report, 42-43.
    \26\ WTO, ``China--Measures Affecting the Protection and 
Enforcement of Intellectual Property Rights: Request for Consultation 
by the United States,'' WT/DS362/1, 16 April 07 (communication dated 
April 10, 2007 from the delegation of the United States to the 
delegation of China and to the Chairman of the Dispute Settlement 
Body); USTR (Online), ``WTO Case Challenging Weaknesses in China's 
Legal Regime;'' USTR (Online), ``United States Requests WTO Panel in 
Challenge to China's Prohibited Subsidies;'' WTO (Online), ``Dispute 
Settlement: Request of Panel Establishment,'' 31 August 07.
    \27\ WTO, ``China--Measures Affecting the Protection and 
Enforcement of Intellectual Property Rights: Request for Consultation 
by the United States,'' Section I.
    \28\ Ibid., Section II.
    \29\ Ibid., Section III.
    \30\ Ibid., Section IV.
    \31\ USTR (Online), ``United States Requests WTO Panel in Case 
Challenging Deficiencies in China's Intellectual Property Rights 
Laws,'' 13 August 07; WTO, ``Dispute Settlement: Request of Panel 
Establishment.''
    \32\ USTR and U.S Department of Commerce, Subsidies Enforcement 
Annual Report to the Congress, 19-22. USTR, 2006 Report to Congress of 
China's WTO Compliance, 11 December 06, 41-43.
    \33\ Ibid.
    \34\ China's concern over industrial reform, unemployment, and 
worker unrest in steel and other heavy industries in the Northeast are 
discussed in many places, and have been discussed in interviews with 
Commission staff. See also Li Wenxi, ``Development Forges New Glory'' 
[Fazhan zujiu huihuang], Liaoning Public Security Bureau (Online), 5 
November 02. Li was at the time Deputy Communist Party Secretary of 
Liaoning and Chief of the Provincial Public Security Bureau. See also 
Chen Lihua, ``An Analysis of Suddenly Occuring Mass Incidents'' [Dui 
quntixing tufa shijian de lixing fenxi], Research Journal of Party and 
Government Cadres, No. 7, 2002. Chen is an analyst at the Liaoning CCP 
School.
    \35\ Price, et al., ``The China Syndrome'' ; ``Official Comments of 
the American Iron and Steel Institute to the Committee on Ways and 
Means Subcommittee on Trade, Regarding H.R. 1229, `The Non-Market 
Economy Trade Remedy Act of 2007'.''
    \36\ ``Money for Metal: A Detailed Examination of Chinese 
Government Subsidies to its Steel Industry,'' Wiley Rein LLP, July 
2007, 30-31, citing Baosteel Annual Report.
    \37\ Price, et al., ``The China Syndrome,'' 19.
    \38\  Alan H. Price et al., ``The China Syndrome: How Subsidies and 
Government Intervention Created the World's Largest Steel Industry,'' 
Wiley Rein and Fielding LLP (Online), July 2006, 18-22.
    \39\ Ibid., 35-37.
    \40\ ``Money for Metal,'' Wiley Rein LLP, 42.
    \41\ Ibid., 77-78; Price, et al., ``The China Syndrome,'' 19, 53-
55.
    \42\ National Development and Reform Commission, Order of the 
National Development and Reform Commission, No. 35, Policies for 
Development of Iron and Steel Industry, 8 July 05.
    \43\ Ibid.
    \44\ USTR, 2007 National Trade Estimate Report on Foreign Trade 
Barriers, 2 April 07.
    \45\ Price, et al., ``The China Syndrome,'' 18-22.
    \46\ USTR, Docket No. WTO/DS-358, ``WTO Dispute Settlement 
Proceeding Regarding China--Certain Measures Granting Refunds, 
Reductions or Exemptions From Taxes and Other Payments,'' Federal 
Register, February 21, 2007 (Volume 72, Number 34), 7914-7915.
    \47\ Ibid.
    \48\ USTR, ``WTO Dispute Settlement Proceeding Regarding China--
Certain Measures Granting Refunds, Reductions or Exemptions From Taxes 
and Other Payments''; Julia Qin, ``The China Subsidies Case,'' 
International Economic Law and Policy Blog (Online), February 2007.
    \49\ USTR (Online), ``United States Requests WTO Panel in Challenge 
to China's Prohibited Subsidies.'' ; ``WTO Sets up Panel to Investigate 
China Tax Regime,'' Reuters (Online), 31 August 07; ``WTO Accepts U.S., 
Mexico Trade Complaint Against China,'' Agence France-Presse, reprinted 
in Industry Week (Online), 4 September 07.
    \50\ ``WTO Sets up Panel to Investigate China Tax Regime,'' 
Reuters; ``WTO Accepts U.S., Mexico Trade Complaint Against China,'' 
Agence France-Presse.
    \51\ Williams, ``WTO Probes China's Export Subsidy Claims'' ; 
``Politics `Are to Blame' for WTO Probes,'' China Daily (Online), 4 
September 07; Ibid.
    \52\ See for e.g., Canice Chan and Ashley M. Howlett, ``China 
Issues New Regulations Opening The Market For Crude Oil,'' Jones Day 
Commentaries (Online), January 2007.
    \53\ Two licenses will be available under the new licensing system: 
a crude oil sale license (``Sale License'') and a crude oil storage 
license (``Storage License''). See Ibid.
    \54\ China National Petroleum Corporation (``CNPC``), established 
in 1988, replaced China's Ministry of Petroleum.
    \55\ The new regulatory scheme defines three types of licenses: oil 
product wholesale licenses (``OPWL''), oil product storage licenses 
(``OPSL''), and oil product retail licenses (``OPRL'').
    \56\ The Interim Regulation on the Administration of the Oil 
Product Market issued by the Ministry of Commerce in 2004 defined oil 
products more narrowly.
    \57\ Chan and Howlett, ``China Issues New Regulations Opening The 
Market For Oil Products.''
    \58\ Ibid.
    \59\ Angela Wang, ``Foreign Participation In Chinese Banks Under 
New Investment Rules,'' Mondaq (Online), 22 March 07.
    \60\ Invested solely by one foreign bank or together with another 
foreign financial institution(s) and with minimum registered capital 1 
billion yuan (or foreign currency equivalent). See Wang, ``Foreign 
Participation.''
    \61\ Invested by a foreign financial institution(s) together with a 
PRC corporation(s) or enterprise(s) and with minimum registered capital 
1 billion yuan (or foreign currency equivalent). See Wang, ``Foreign 
Participation.''
    \62\ Branch office of a foreign bank with minimum allocation of 200 
million yuan in operational. See Wang, ``Foreign Participation.''
    \63\ Representative office of a foreign bank. No capital 
requirement.
    \64\ The sole shareholder or controlling shareholder of a WFOB and 
the controlling shareholder of a JVB must satisfy the following 
conditions: be a commercial bank; with total assets of no less than 
US$10 billion in the year preceding application; have a representative 
office within the PRC for at least 2 years (in the case of a WFOB); and 
have a representative office within the PRC (in the case of a JVB).
    \65\ Pursuant to Article 29 of the new Regulations, both WFOBs and 
JVBs are allowed to conduct a range of foreign exchange and RMB banking 
business including the taking of RMB deposits from the public; short, 
medium and long term lending; and bank card business.
    \66\ Guidance on Compliance Risk Management for Commercial Banks 
[Shangye yinhang hegui fengxian guanli zhiyin], issued 25 October 06; 
``Guide on Compliance Risk Management for Commercial Banks,'' Lehman, 
Lee & Xu (Online), 17 April 07; ``Summary of Selected New Laws and 
Regulations from October 1, 2006 to November 10, 2006,'' 3 China Law 
Reporter, 20-21 (March 2007).
    \67\ Susan Finder, ``PRC Anti-Money Laundering Law'' China Law 
Update (Online), 3 November 06. See also Peter Wong, ``The New PRC 
Anti-Money Laundering Law and Ancillary Regulations,'' Mondaq (Online), 
26 April 07; and ``China Adopts Anti-Money Laundering Law,'' Xinhua, 
reprinted in China Daily (Online), 31 October 06.
    \68\ People's Bank of China Decree No. 1, Rules for Anti-Money 
Laundering by Financial Institutions, issued 14 November 06. ; People's 
Bank of China Decree No. 1, Rules on Reporting Suspicious Transactions 
for Terrorist Financing by Financial Institutions, issued 11 June 07.
    \69\ National People's Congress (Online), ``Anti-Monopoly Law 
Adopted,'' 31 August 07. See also ``China Adopts Anti-Monopoly Law,'' 
Xinhua, reprinted in China Daily (Online), 30 August 07. See also 
Donald C. Clarke, ``China Passes Antimonoply Law,'' Chinese Law Prof 
Blog (Online), 30 August 07.
    \70\ Factors to be considered are the special nature of the 
contract and the performance of the obligations under the contract by 
the parties (``performance obligation''). According to the Provisions, 
domicile is the key factor in determining performance obligation. See 
David Tang and Bill Zhang, ``China's Supreme Court Broadens Mandatory 
Application of PRC Laws to Foreign-Related Contractual Disputes,'' 
China Watch, Thelen Reid Brown Raysman and Steiner LLP (Online), 13 
August 07.
    \71\ Ibid.
    \72\ Robin Gerofsky Kaptzan, ``A Move Forward in China's 
Implementation of its Unfair Competition Law,'' 3 China Law Reporter, 5 
(March 2007).
    \73\ Under Article 9 of the Interpretation, when making a 
determination of whether allegedly proprietary information satisfies 
the criteria of being ``unknown to the public,'' for example, courts 
are instructed to consider, among other things, whether the size, 
materials and components of the product in question are observable by 
the general public after the a product enters the market; whether 
information about the product appears in print or other mass media; 
whether the product is known to have been on display at exhibitions; 
whether the product or information can be obtained through public 
channels; and the ease with which the product or information may be 
obtained without paying any consideration. See Interpretation of the 
Supreme People's Court on Some Matters about the Application of Law in 
the Trial of Civil Cases Involving Unfair Competition [Zui gao renmin 
fayuan guanyu shenli bu zhengdang jingzheng minshi anjian yingyong falv 
ruogan wenti de jieshi], issued 12 January 07, art. 9.
    \74\ Kaptzan, ``A Move Forward in China's Implementation of its 
Unfair Competition Law,'' provides a useful overview.
    \75\ Ibid. See also Mark Korda, ``Enter the Dragon--China Joins the 
Corporate Insolvency Arena,'' Mondaq (Online), 25 April 07.
    \76\ See ``New Law Ushers in Sweeping Changes to Bankruptcy Regime 
in China,'' Morrison Foerster Legal Updates and News (Online), 
September 2006.
    \77\ Dan Harris, ``China's New Bankruptcy Law -- First Report From 
The Ground,'' China Law Blog (Online), 12 June 07. For further 
analysis, also see e.g., Dan Harris, ``China's New Bankruptcy Law,'' 
China Law Blog (Online), 23 October 06; and Korda, ``Enter the 
Dragon.''
    \78\ Korda, ``Enter The Dragon.''
    \79\ Stephen Nelson, ``The PRC Enterprise Income Tax Law and its 
Impact on Foreign Investments,'' 3 China Law Reporter (May 2007).
    \80\ Ibid.
    \81\ PRC Partnership Enterprise Law, enacted 23 February 97, 
amended 27 August 06; Lily Han, ``The New Partnership Enterprise Law of 
the PRC,'' Lehman, Lee & Xu (Online), 7 December 06; ``Summary of 
Selected New Laws and Regulations from October 1, 2006 to November 10, 
2006,'' 3 China Law Reporter, 17-19 (March 2007).
    \82\ Regulation on Administration of Commercial Franchise, issued 
14 March 07. See also Angela Wang, ``Further Regulations Relaxing 
Commercial Franchising in China,'' Mondaq (Online), 18 July 07 ; and 
Kalley Chan and Zhang Tianhui, ``Commercial Franchise Market Shuffle--
Regulation on Administration of Commercial Franchises,'' King and Wood 
China Bulletin (Online), April 2007.
    \83\ Ibid.
    \84\ Ibid.
    \85\ Terence P. Stewart, et al., ``More Than 50 Year of Trade Rule 
Discrimination on Taxation: How Trade with China Is Affected,'' Trade 
Lawyer's Advisory Group, August 2007, 133-142.
    \86\ ``Tax Rebates for Exports Increase 62.5 billion RMB in the 
First Half of the Year'' [Shangban nian chukou tuishui tongbi zengjia 
625 yi yuan], China Industry News, reprinted in www.steelhome.cn, 18 
July 07.
    \87\ Stewart, et al., ``More Than 50 Year of Trade Rule 
Discrimination on Taxation,'' 146-166.
    \88\ Ibid; See also KPMG China Alert: Tax and Regulatory 
Developments, Issue 30, November 2006.
    \89\ A complete list of the products and their revised export tax 
rebates is contained in Ministry of Finance State Taxation Bureau 
Notice on Adjusting Tax Rebate Rates for Exports for Steel Products 
[Caizheng bu guojia shuiwu zongju guanyu tiaozheng gangcai hanpin 
chukou tuishui lu de tongzhi], issued 9 April 07, effective 15 April 
07; Hunan Loudi Municipality Finance Department (Online), ``Financial 
News'' [Caizheng Xinxi], 30 July 07.
    \90\ ``China To Adjust Export Rebate Policy on 2,831 Commodities,'' 
Xinhua, 20 June 07; Stewart, et al, More Than 50 Year of Trade Rule 
Discrimination on Taxation,'' 141-142.
    \91\ See PRC Constitution, art. 10; PRC Land Management Law, 
enacted 25 June 86, amended 29 December 88, amended 28 August 04, art. 
2.
    \92\ See PRC Property Law, issued 16 March 07, effective 1 October 
07.
    \93\ Dan Harris, ``China's New Property Law, Part I - 
Introduction,'' China Law Blog (Online), 15 May 07.
    \94\ See PRC Constitution, art. 11, clause 2.
    \95\ Article 10 of the new Property Law reads: ``the State applies 
a uniform real property registration system.''
    \96\ The Land Administration Law provides that registration of the 
certificates that prove an individual's rights in the land is required 
to create a property interest. See PRC Land Administration Law, art. 
13.
    \97\ Ibid., art. 22. Article 22 provides ``Real property 
registration fees shall be collected on each piece, and may not be 
collected according to the size, volume or on the basis of certain 
proportion of the value of the real property. The specific charging 
rates shall be jointly determined by the relevant departments under the 
State Council and the pricing administration authority.''
    \98\ Pamela N. Phan, Enriching the Land or the Political Elite? 
Lessons from China on Democratization of the Urban Renewal Process, 14 
Pac. Rim. L. & Pol'y J. 607, 627-629 (2005).
    \99\ Helen H.C. Peng and David Y. Shen, ``Property Law Lays Legal 
Foundation for Protection of Property in China,'' 3 China Law Reporter, 
12 (May 2007). See also Harris, ``China's New Property Law, Part I--
Introduction.''
    \100\ Ibid. Article 73 of the new Property Law, which expressly 
provides that the ``Definite Common Elements'' includes green land, 
road, public area, public facilities and the houses used for the 
property management, reads: ``the roads within the building zone shall 
be commonly owned by the owners, except the public roads of cities or 
towns. The green lands within the building area shall be commonly owned 
by all the owners, except the public green lands of cities or towns or 
those which are expressly ascribed to individuals. The other public 
places, common facilities and houses used for real property services 
within the building zone shall be commonly owned by all the owners.''
    \101\ Ibid. Article 74 of the new Property Law which gives detail 
provisions on the garages and parking place which fall into the 
``Indefinite Common Elements,'' reads: ``The parking places and garages 
that are within the building area and planned for parking cars shall be 
used to satisfy, above all else, the needs of the owners. The ownership 
of the parking places and garages shall be determined by the parties 
involved by way of selling, donation or leasing, etc. The parking 
places occupying the roads or other fields commonly owned by all owners 
shall be commonly owned by all the owners.''
    \102\ Ibid. Section 42 seems to address improper transfers, but 
says little of legal consequence: ``The state engages in special 
protection of agricultural land, severely limits the conversion of 
agricultural land for construction purposes and controls the quantity 
of land used for construction purposes. It is not permissible to seize 
collectively owned land in violation of the limits and procedures 
provided by law.''
    \103\ Helen H.C. Peng and David Y. Shen, ``Property Law Lays Legal 
Foundation for Protection of Property in China,'' 3 China Law Reporter, 
12 (May 2007).
    \104\ Ashley M. Howlett, ``Restrictions for Foreign Investors in 
China's Real Estate Market,'' Jones Day Commentaries (Online), July 
2007.

    Notes to Section III--Impact of Emergencies: Food Safety, Product 
Quality, and Climate Change
    \1\ Ministry of Health (Online), Causes of Food Poisoning in 2006, 
Chinese Health Statistical Digest, 1 June 07. In 2003, the Ministry of 
Health reported that there were 1,481 cases, which affected 29,600 
people, with 262 deaths. Ministry of Health (Online), Causes of Food 
Poisoning and Causes in 2003, Chinese Health Statistical Digest, 21 May 
04.
    \2\ ``Fixing China's Food Safety Issues Will Require a $100 Billion 
Investment, According to New A.T. Kearney Research,'' A.T. Kearney, 26 
June 07; Audra Ang, ``China Calls for More Testing of Exports,'' 
Associated Press (Online), 6 June 07.
    \3\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions in China,'' 29 Asian Perspective 6, 7 
(2005); Drew Thompson, ``China's Food Safety Crisis: A Challenge to 
Global Health Governance,'' 7 China Brief 8, 8 (2007).
    \4\ David Barboza, ``Some Suspect Chemical Mix in Pet Food,'' New 
York Times (Online), 12 April 07.
    \5\ Frank Ahrens, ``FDA Halts Imports of Some Chinese Seafood,'' 
Washington Post (Online), 29 June 07,
    \6\ Yang Yang and Jennifer L. Turner, ``Food Safety in China,'' 
China Environmental Forum, Woodrow Wilson Center for International 
Scholars, 28 July 07.
    \7\ Ibid.
    \8\ Elizabeth C. Economy, ``The Great Leap Backward?,'' Foreign 
Affairs (Online), September/October 2007, 2.
    \9\ Yang Yang and Turner, ``Food Safety in China.''
    \10\ Zhao Huanxin, ``China's Food Safety Beset by Challenges,'' 
China Daily (Online), 11 July 07; Thompson, ``China's Food Safety 
Crisis: A Challenge to Global Health Governance,'' 8.
    \11\ State Council Information Office (Online), White Paper on 
China's Food Quality and Safety, 17 August 07, 1.
    \12\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions,'' 10-13.
    \13\ For example, a 2003 survey by the China Consumers Association 
reports that villagers are most worried about product quality and 
substandard and counterfeit products. Ibid., 21-22.
    \14\ Yan Jiangying, a representative from the SFDA notes that, ``As 
a developing country, China's food and drug supervision work began late 
with weak foundations. Therefore, the situation is not very 
satisfactory.'' Zhao Huanxin, ``China's Food Safety Beset by 
Challenges;'' David Barboza and Walt Bogdanich, ``China Shuts 3 
Companies over Safety of Products,'' New York Times (Online), 21 July 
07; Zhang Pinghui, ``Focus To Be on Harmful Drugs, Chemicals in Feed,'' 
South China Morning Post (Online), 26 July 07.
    \15\ Barboza and Bogdanich, ``China Shuts 3 Companies over Safety 
of Products.''
    \16\ Ibid.; David Barboza, ``Chinese Regulators Find Widespread 
Abuses in Food Industry,'' International Herald Tribune (Online), 27 
June 07.
    \17\ Andrew Martin and Griff Palmer, ``China Not Sole Source of 
Dubious Food,'' New York Times (Online), 13 July 07.
    \18\ CECC Staff Search. See also, Hu Ying, ``China Struggles To 
Digest Food Safety Laws,'' Asia Times (Online), 28 August 07.
    \19\ David Barboza, ``Another Consumer Product Disaster in China: 
Exploding Mobile Phone Batteries,'' International Herald Tribune 
(Online), 6 July 07; Yang Yang and Turner, ``Food Safety in China,''4.
    \20\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions'' 31.
    \21\ For example, see the Zhejiang province Food Safety Information 
Net: http://www.zjfs.gov.cn/; the Shaanxi province Food Safety 
Information Net: http://www.sxfs.gov.cn/; and the Guangzhou city Food 
Safety Information Net: http://www.gzfood.net. Ibid., 31.
    \22\ Zhejiang province, through the provincial- and local-level 
industry and commerce bureaus, established a rural consumer rights 
protection network, including consumer associations and consumer rights 
protection stations. Among administrative villages that lacked an 
association or a station, the industry and commerce bureau would 
cooperate with the township- or county-level government to establish 
consumer rights protection points that designated personnel to mediate 
disputes or complaints that were filed by rural consumers. State 
Administration of Industry and Commerce Government Affairs Information 
(Online), ``Problems with the Rural Consumer Rights Protection Network, 
and Countermeasures'' [Nongcun xiaofei weiquan jiandu wangluo jianshe 
cunzai de wenti ji duice (zhejiang sheng ningbo shi gongshang ju)], 7 
July 06; Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions,'' 34.
    \23\ Zhejiang Rural Citizens Do Not Have To Leave the Village In 
Order to Have Their Rights Safeguarded'' [Zhejiang nongmin weiquan 
buyong chu cun], Zhejiang Business (Online), 15 December 05.
    \24\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions,'' 34.
    \25\ Ibid., 27; Zhao Huanxin, ``China's Food Safety Beset by 
Challenges;'' State Council Information Office, White Paper on China's 
Food Quality and Safety, 4.
    \26\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions,'' 27.
    \27\ Ibid.; Zhao Huanxin, ``China's Food Safety Beset by 
Challenges.''
    \28\ State Council Information Office, White Paper on China's Food 
Quality and Safety, 4.
    \29\ Don Lee and Abigail Goldman, ``Gluten Factory Had a Toxic 
History,'' Los Angeles Times (Online), 9 May 07.
    \30\ ``Premier: Food Safety a Top Priority,'' China Daily (Online), 
26 July 07; ``President Hu Stresses the Importance of Farm Produce 
Safety,'' Xinhua (Online), 25 April 07.
    \31\ ``China To Tighten Control of Antibiotics in Seafood,'' 
Reuters (Online), 25 July 07; ``China Strengthening Food Rules,'' 
Associated Press, reprinted in China Daily (Online), 25 July 07.
    \32\ ``China Strengthening Food Rules,'' Associated Press.
    \33\ ``Amendments to Food Safety Standards Completed,'' China Daily 
(Online), 4 July 07; ``Premier: Food Safety a Top Priority,'' China 
Daily.
    \34\ ``China To Tighten Control of Antibiotics in Seafood,'' 
Reuters.
    \35\ Ibid.
    \36\ The Plan was approved by the State Council in April 2007. 
``China Vows Better Food Safety,'' Wall Street Journal (Online), 7 June 
07; ``China To Fight Unsafe Food and Medicine,'' Reuters, reprinted in 
Toronto Star (Online), 5 June 07; ``Former Head of China's Drug 
Watchdog Executed,'' Xinhua (Online), 10 July 07; ``Amendments to Food 
Safety Standards Completed,'' China Daily.
    \37\ Ibid.; ``China To Tighten Control of Antibiotics in Seafood,'' 
Reuters; Zhao Huanxin, ``China's Food Safety Beset by Challenges.''
    \38\ Beijing municipal government has already made similar 
provisions in local food safety regulations. Waikeung Tam and Dali 
Yang, ``Food Safety and the Development of Regulatory Institutions,'' 
32-33.
    \39\ ``Amendments to Food Safety Standards Completed,'' China 
Daily.
    \40\ State Food and Drug Administration (Online), ``Main 
Responsibilities,'' last visited 27 August 07.
    \41\ General Administration of Quality Supervision, Inspection and 
Quarantine (Online), ``General [sic] Administration of Quality 
Supervision, Inspection and Quarantine of the People's Republic of 
China,'' last visited 27 August 07.
    \42\ PRC Central People's Government (Online), ``Ministry of 
Health,'' last visited 30 August 07; Information Office of the State 
Council, White Paper on China's Food Quality and Safety, 4.
    \43\ Information Office of the State Council, White Paper on 
China's Food Quality and Safety, 3.
    \44\ Ministry of Commerce (Online), ``Main Mandate of the Ministry 
of Commerce,'' last visited 30 August 07.
    \45\ State Council Information Office, White Paper on China's Food 
Quality and Safety, 3-4.
    \46\ Hangzhou Municipal Food Safety Commission (Online), ``Hangzhou 
Municipal Food Safety Commission Public Notice,'' 15 March 05.
    \47\ One of the four ``monitoring links'' set forth in the Decision 
on Further Strengthening Food Safety Supervision, issued by the State 
Council in 2004. State Council Information Office, White Paper on 
China's Food Quality and Safety, 3.
    \48\ The Hangzhou Municipal Culture, Radio, Television, and News 
Publishing Bureau is a combination of three bureaus: the culture 
bureau, the radio and television bureau, and the news publishing 
bureau. Hangzhou Municipal Culture, Radio, Television, and News 
Publishing Bureau (Online), ``Hangzhou Municipal Culture, Radio, 
Television, and News Publishing Bureau General Situation,'' last 
visited 28 August 07.
    \49\ One of the four ``monitoring links'' set forth in the Decision 
on Further Strengthening Food Safety Supervision, issued by the State 
Council in 2004. State Council Information Office, White Paper on 
China's Food Quality and Safety, 4.
    \50\ Ibid., 3.
    \51\ Ibid.
    \52\ ``Key Dates in China Export Scares,'' Wall Street Journal 
(Online), 7 August 07. Toothpaste exported from China containing 
diethylene glycol has been confiscated or banned in the United States, 
Singapore, Panama, the Dominican Republic, South Africa, Australia, 
Nicaragua, Greece, and Poland. The New York Times reports the figure of 
at least 100 deaths from the use of cough medicine containing 
diethlyene glycol in Panama. Jake Hooker, ``Chinese Company Linked to 
Deaths Wasn't Licensed,'' New York Times (Online), 9 May 07.
    \53\ Andrew Batson, ``China's Safety Failures Include Toys Sold at 
Home,'' Wall Street Journal (Online), 2 July 07.
    \54\ Walt Bogdanich, ``F.D.A. Tracked Poisoned Drugs, but Trail 
Went Cold in China,'' New York Times (Online), 19 June 07.
    \55\ A U.S. expert has noted that in the area of packaging 
standards and pricing alone, China has more than 30 laws and 
regulations. ``Can China Restore Its Exports Image?,'' Financial Times 
(Online), 21 August 07.
    \56\ Bogdanich, ``F.D.A. Tracked Poisoned Drugs, but Trail Went 
Cold in China;'' David Barboza, ``China Yields to Inquiry on Pet 
Food,'' New York Times (Online), 24 April 07.
    \57\ For example, a 2003 China Consumers Association survey found 
that villagers are most concerned about product quality and substandard 
and counterfeit goods. Waikeung Tam and Dali Yang, ``Food Safety and 
the Development of Regulatory Institutions,'' 21-22.
    \58\ ``Former Head of China's Drug Watchdog Executed,'' Xinhua; 
Geoff Dyer, ``China Executes Ex-Food Safety Chief,'' Financial Times 
(Online), 10 July 07.
    \59\ Ibid.
    \60\ Josephine Ma, ``Drug Makers Face Higher Standards,'' South 
China Morning Post (Online), 12 July 07.
    \61\ Zhuang Pinghui, ``8.8b To Be Spent on Food and Drug Safety,'' 
South China Morning Post (Online), 8 August 07.
    \62\ Waikeung Tam and Dali Yang, ``Food Safety and the Development 
of Regulatory Institutions,'' 10-13.
    \63\ Ibid.
    \64\ The New York Times reports the figure of at least 100 deaths 
from the use of cough medicine containing diethlyene glycol in Panama. 
Hooker, ``Chinese Company Linked to Deaths Wasn't Licensed;'' ``China 
Says Fatal Drug Outside Scope of Regulators,'' Reuters (Online), 8 May 
07.
    \65\ Ibid.
    \66\ ``Can China Restore Its Exports Image?,'' Financial Times; 
Thompson, ``China's Food Safety Crisis: A Challenge to Global Health 
Governance,'' 9.
    \67\ Ariana Eunung Cha, ``Safety Falters as Chinese Quiet Those Who 
Cry Foul,'' Washington Post (Online), 19 July 07.
    \68\ Ibid.; ``Reposting `Collusion Between Government and 
Pharmaceutical Company' Essay Ruined My Life'' [Zhuanzai 
`guanyaogoujie' wangwen daluan wo de yisheng], Beijing News (Online), 9 
April 07.
    \69\ The essay helped in part to initiate investigations against 
Zheng Xiaoyu, former Commissioner of the SFDA, and Cao Wenzhuang, 
former director of SFDA's drug registration department. Cha, ``Safety 
Falters as Chinese Quiet Those Who Cry Foul.''
    \70\ Ibid.
    \71\ ``Reposting `Collusion Between Government and Pharmaceutical 
Company' Essay Ruined My Life,'' Beijing News.
    \72\ ``[Zhang Zhijian] Who Was Formerly Wrongfully Detained by Law 
Enforcement Officials, Received 24,000 Yuan in Compensation Yesterday'' 
[Ceng bei sifa jiguan cuowu jiya 9 ge duo yue, zuori huo pei 2.4 wan], 
Southern Metropolitan Daily (Online), 21 July 07.
    \73\ Cha, ``Safety Falters as Chinese Quiet Those Who Cry Foul.''
    \74\ Ibid.
    \75\ Ibid.
    \76\ PRC State Compensation Law, enacted 12 May 94, art. 3.
    \77\ The exact language is ``Renlei huodong paifang de wenshi qiti 
daozhi yuelaiyue yanzhong de quanqiu qihou bianhua wenti.'' Ministry of 
Science and Technology (Online), ``MOST, Six Other Agencies Release 
China's Climate Change National Assessment Report'' [Keji bu deng liu 
buwei lianhe fabu ``qihou bianhua guojia pinggu baogao''], 26 December 
06; Ling Li, ``China Releases First National Report on Climate 
Change,'' China Watch (Online), 11 January 07.
    \78\ For example, if China decides to accept classification as a 
developed country, or if there is a diversification in the types of 
commitments that countries can accept that go beyond the developing 
versus developed country framework. Briefing on China, the Economy, and 
Global Warming, Panel hosted by the U.S. House of Representatives 
Committee on Foreign Affairs and National Environmental Trust, 23 July 
07.
    \79\ Ibid.
    \80\ CECC, 2004 Annual Report, 5 October 04, 1; ``China To Enact 
Law on Circular Economy,'' Xinhua (Online), 26 August 07.
    \81\ Briefing on China, the Economy, and Global Warming, Panel 
hosted by the U.S. House of Representatives Committee on Foreign 
Affairs and National Environmental Trust, 23 July 07.
    \82\ John Vidal, ``China Could Overtake US as Biggest Emissions 
Culprit by November,'' The Guardian (Online), 25 April 07.
    \83\ Ibid.
    \84\ Briefing on China, the Economy, and Global Warming.
    \85\ United Nations Framework Convention on Climate Change 
(Online), Status of Ratification, 11 April 07.
    \86\ Briefing on China, the Economy, and Global Warming.
    \87\ National Development and Reform Commission (Online), The 
People's Republic of China National Climate Change Program, June 2007, 
2; Pew Center on Global Climate Change (Online), ``Climate Change 
Mitigation Measures in the People's Republic of China,'' International 
Brief 1, April 2007.
    \88\ Pew Center on Global Climate Change, ``Climate Change 
Mitigation Measures in the People's Republic of China.''
    \89\ Briefing on China, the Economy, and Global Warming.
    \90\ Pew Center on Global Climate Change, ``Climate Change 
Mitigation Measures in the People's Republic of China.''
    \91\ Ting Shi, ``Wen Warns of Grim Environmental Challenge,'' South 
China Morning Post (Online), 10 July 07. China had an increase in 
energy consumption per unit of GDP for the years 2003 to 2005. Briefing 
on China, the Economy, and Global Warming.
    \92\ ``Question Marks over China's Climate Commitment,'' Agence 
France-Presse (Online), 6 May 07; U.S.-Chinese Economic and Security 
Review Commission, China's Energy Consumption and Opportunities for 
U.S.-China Cooperation to Address the Effects of China's Energy Use, 14 
June 07, Testimony of Elizabeth Economy, C.V. Starr Senior Fellow and 
Director, Asia Studies, Council on Foreign Relations.
    \93\ Fu Jing, ``Local Gov'ts `Ignoring' Green Model,'' China Daily 
(Online), 23 July 07.
    \94\ Ling Li, ``China Releases First National Report on Climate 
Change.''
    \95\ National Development and Reform Commission, The People's 
Republic of China National Climate Change Program; Daniel Griffiths, 
``China's Mixed Messages on Climate,'' BBC (Online), 7 May 07; 
``Analysis: PRC Climate Plan Aims To Deflect Criticism Prior to G-8,'' 
Open Source Center (Online), 7 June 07.
    \96\ Joanna I. Lewis, ``China's Climate Change Strategy,'' 7 China 
Brief 10, 11 (2007).
    \97\ Briefing on China, the Economy, and Global Warming.
    \98\ ``S. Korea Increases Monitoring Posts for Yellow Dust in 
China,'' Yonhap News (Online), 5 April 07; ``China Works To Fight 
Desertification in Xinjiang,'' China Daily (Online), 10 July 07.
    \99\ Jeff Goodell, ``Capital Pollution Solution?,'' New York Times 
(Online), 30 July 06.
    \100\ U.S. Environmental Protection Agency (Online), ``Cap and 
Trade Essentials,'' last visited 23 August 07.
    \101\ Goodell, ``Capital Pollution Solution?,'' New York Times; 
``Carbon Markets Create a Muddle,'' Financial Times (Online), 26 April 
07; Michael Gerson, ``Hope on Climate Change? Here's Why,'' Washington 
Post (Online), 15 August 07.
    \102\ U.S. Environmental Protection Agency, ``Cap and Trade 
Essentials.''
    \103\ Ibid.

    Notes to Section IV--Tibet
    \1\ PRC Constitution, art. 36 (``enjoy freedom of religious 
belief''), art. 116 (``enact autonomy regulations and specific 
regulations in the light of the political, economic, and cultural 
characteristics of the nationality or nationalities''), art. 119 
(``independently administer educational, scientific, cultural, public 
health, and physical culture affairs''), art. 121 (``employ the spoken 
and written language or languages in common use''). Regional Ethnic 
Autonomy Law, enacted 31 May 84, amended 28 February 01, art. 11 
(``guarantee the freedom of religious belief''), art. 19 (``enact self-
governing regulations and separate regulations in the light of the 
political, economic, and cultural characteristics''), art. 21 (``use 
the language or languages commonly used in the locality;. . . the 
language of the nationality exercising regional autonomy may be used as 
the main language''), art. 36 (``decide on educational plans''), art. 
37 (``independently develop education for the nationalities''), art. 38 
(``develop literature, art, the press, publishing, radio broadcasting, 
the film industry, television, and other cultural undertakings''). 
Regulation on Religious Affairs, issued 30 November 04, art. 2 
(``Citizens enjoy freedom of religious belief.'').]
    \2\ CECC, 2004 Annual Report, 5 October 04, sec. I. The 2004 
recommendation stressed more specifically the objectives of dialogue: 
``The future of Tibetans and their religion, language, and culture 
depends on fair and equitable decisions about future policies that can 
only be achieved through dialogue. The Dalai Lama is essential to such 
a dialogue. The President and the Congress should continue to urge the 
Chinese government to engage in substantive discussions with the Dalai 
Lama or his representatives.'' CECC, 2005 Annual Report, 11 October 05, 
sec. I. The 2005 recommendation called for direct contact between the 
Dalai Lama and the Chinese leadership: ``To help the parties build on 
visits and dialogue held in 2003, 2004, and 2005, the President and the 
Congress should urge the Chinese government to move the current 
dialogue toward deeper, substantive discussions with the Dalai Lama or 
his representatives, and encourage direct contact between the Dalai 
Lama and the Chinese leadership.''
    \3\ CECC, 2006 Annual Report, 20 September 06, 17-18.
    \4\ H. Con. Res. 196, ``Authorizing the use of the Rotunda and 
grounds of the Capitol for a ceremony to award the Congressional Gold 
Medal to Tenzin Gyatso, the Fourteenth Dalai Lama,'' 4 September 07. 
According to the House Concurrent Resolution, the award ceremony will 
take place in the Capitol Rotunda on October 17, and the Capitol 
grounds will be available for a public event. The Resolution names the 
International Campaign for Tibet as the sponsor of the public event.
    \5\ S. 2784, Fourteenth Dalai Lama Congressional Gold Medal Act, 
The Library of Congress (Online), enacted 27 September 06; 
International Campaign for Tibet (ICT) (Online), ``US Congress Passes 
Bill to Award the Dalai Lama the Congressional Gold Medal: Bill 
Cosponsored by 387 Members of U.S. House and Senate,'' 13 September 06. 
ICT notes that the Fourteenth Dalai Lama Congressional Gold Medal Act 
was introduced as S.2782 by Senators Dianne Feinstein and Craig Thomas, 
and as H.R.4562 by Representatives Ileana Ros-Lehtinen, and Tom Lantos.
    \6\ Steven Marshall and Susette Cooke, Tibet Outside the TAR: 
Control, Exploitation and Assimilation: Development With Chinese 
Characteristics (Washington D.C.: self-published CD-ROM, 1997), Table 
7. The 13 Tibetan autonomous areas include the provincial-level Tibet 
Autonomous Region (TAR), with an area of 1.2 million square kilometers 
(463,320 square miles), as well as 10 Tibetan autonomous prefectures 
(TAP) and two Tibetan autonomous counties (TAC) located in Qinghai, 
Gansu, Sichuan, and Yunnan provinces. Qinghai province: Yushu TAP, 
197,791 square kilometers (76,367 square miles); Guoluo (Golog) TAP, 
78,444 square kilometers (30,287 square miles); Huangnan (Malho) TAP, 
17,901 square kilometers (6,912 square miles); Hainan (Tsolho) TAP, 
41,634 square kilometers (16,075 square miles); Haibei (Tsojang) TAP, 
52,000 square kilometers (20,077 square miles); Haixi (Tsonub) Mongol 
and Tibetan AP, 325,787 square kilometers (125,786 square miles). Gansu 
province: Gannan (Kanlho) TAP, 45,000 square kilometers (17,374 square 
miles); Tianzhu (Pari) TAC, 7,150 square kilometers (2,761 square 
miles). Sichuan province: Ganzi (Kardze) TAP, 153,870 square kilometers 
(59,409 square miles); Aba (Ngaba) Tibetan and Qiang AP, 86,639 square 
kilometers (33,451 square miles); Muli (Mili) TAC, 11,413 square 
kilometers (4,407 square miles). Yunnan province: Diqing (Dechen) TAP, 
23,870 square kilometers (9,216 square miles). The Table provides areas 
in square kilometers; conversion to square miles uses the formula 
provided on the Web site of the U.S. Geological Survey (USGS): one 
square kilometer = 0.3861 square mile. Based on data in the Table, the 
10 TAPs and 2 TACs have a total area of approximately 1.04 million 
square kilometers (402,000 square miles). The TAR and the Tibetan 
autonomous prefectures and counties are contiguous and total 
approximately 2.24 million square kilometers (865,000 square miles). 
Xining city and Haidong prefecture, located in Qinghai province, have a 
total area of 20,919 square kilometers (8,077 square miles) and are not 
Tibetan autonomous areas.
    \7\ Office of the Special Coordinator for Tibetan Issues, U.S. 
Department of State, Report on Tibet Negotiations, 11 July 2007. The 
Report is mandated by Section 611 of the Foreign Relations 
Authorization Act, 2003.
    \8\ Ibid.
    \9\ Ibid.
    \10\ Ibid.
    \11\ Ibid. President Bush raised the issue of dialogue and direct 
discussion between the Dalai Lama and Chinese officials when he met 
President Hu in Washington in April 2006 and at the Asia-Pacific 
Economic Cooperation Forum (APEC) in Vietnam the following November.
    \12\ Ibid.
    \13\ Ibid.
    \14\ Paula Dobriansky was sworn in as Under Secretary of State for 
Global Affairs on May 1, 2001. She was appointed Special Coordinator 
for Tibetan Issues on May 17, 2001. She was appointed CECC Commissioner 
in July 2001.
    \15\ U.S. Department of State, Report on Tibet Negotiations.
    \16\ Ibid.
    \17\ ``Dalai Lama's Envoy: China Talks Deal With Substantive 
Issues, Encounter Obstacle,'' CECC China Human Rights and Rule of Law 
Update, April 2006, 3. The envoys visited China on September 9-27, 
2002; May 25-June 8, 2003; September 12-29, 2004, and February 15-23, 
2006. The fourth round of dialogue took place at the Chinese Embassy in 
Bern, Switzerland on June 30-July 1, 2005.
    \18\ Tibetan Government-in-Exile, ``Statement by Special Envoy of 
His Holiness the Dalai Lama, Lodi Gyari, head of the Tibetan 
delegation, following the sixth round of discussions with the Chinese 
leadership,'' 7 July 07.
    \19\ Word count of main text of Special Envoy statements following 
sessions of dialogue: 2002, 770 words; 2003, 831 words; 2004, 454 
words; 2005, 514 words; 2006, 303 words; 2007, 235 words.
    \20\ International Campaign for Tibet (Online), ``ICT's Mission,'' 
last visited 15 July 07. In addition to serving as the Dalai Lama's 
Special Envoy, Lodi Gyari is the Executive Chairman of the 
International Campaign for Tibet (ICT). International Campaign for 
Tibet (Online), ``ICT's Mission,'' last visited 15 July 07. ICT 
``promotes self-determination for the Tibetan people through 
negotiations between the Chinese government and the Dalai Lama.''
    \21\ Tibetan Government-in-Exile, ``Statement by Special Envoy of 
His Holiness the Dalai Lama, Lodi Gyari, head of the Tibetan 
delegation, following the sixth round of discussions with the Chinese 
leadership,'' 7 July 07.
    \22\ Ibid.
    \23\ Ibid.
    \24\ ``Communist Party Adds Tibetan Affairs Bureau to the United 
Front Work Department,'' CECC China Human Rights and Rule of Law 
Update, October 2006, 8.
    \25\ Ibid.
    \26\ Ibid.
    \27\ Ibid.
    \28\ Tibetan Government-in-Exile (Online), ``Statement by Special 
Envoy Lodi Gyari, Head of the Delegation Sent by His Holiness the Dalai 
Lama to China,'' 11 June 03; Tibetan Government-in-Exile (Online), 
``Statement by Special Envoy Kasur Lodi Gyari, Head of the Delegation 
to China,'' 13 October 04.
    \29\ ``Forum on Tibetan Cultural Preservation Upholds Party 
Development Policy,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 12-13.
    \30\ ``Talks With Chinese Officials in Switzerland Were Concrete 
and Substantive, Says Tibetan Special Envoy,'' CECC China Human Rights 
and Rule of Law Update, August 2005, 2-3.
    \31\ ``Forum on Tibetan Cultural Preservation Upholds Party 
Development Policy,'' CECC China Human Rights and Rule of Law Update, 
November 2006, 12-13.
    \32\ Ibid.
    \33\ The Dalai Lama has made a statement on the anniversary of the 
1959 Lhasa uprising on March 10 of every year that he has lived in 
exile, beginning in 1960.
    \34\ Tibetan Government-in-Exile (Online),''The Statement of His 
Holiness the Dalai Lama on the Forty-Eighth Anniversary of the Tibetan 
National Uprising Day,'' 10 March 2007. PRC Constitution, Preamble. 
Samdhong Rinpoche's remark refers to a statement in the Preamble, ``In 
the struggle to safeguard the unity of the nationalities, it is 
necessary to combat big-nation chauvinism, mainly Han chauvinism, and 
also necessary to combat local-national chauvinism.'' China's system of 
ethnic autonomy is an attempt to resolve the divergent interests of a 
dominant and potentially overbearing ethnic group (Han) and 
nationalistic ethnic minorities (such as Tibetans, Uighurs, and 
Mongols).
    \35\ Testimony of Lodi G. Gyari, Special Envoy of His Holiness the 
Dalai Lama, at the House Foreign Affairs Committee Hearing on the 
Status of Tibet Negotiations, U.S. House of Representatives Committee 
on Foreign Affairs (Online), 13 March 07.
    \36\ Tibetan Government-in-Exile (Online), ``We Are Not Asking for 
`High' or `Low' Degree of Autonomy: Kalon Tripa,'' 12 May 07.
    \37\ Tibetan Government-in-Exile (Online), ``The Middle-Way 
Approach: A Framework for Resolving the Issue of Tibet,'' last visited 
13 July 07. The explanation of the Middle-Way Approach lists eight 
``important components.'' The first three are: (1) Without seeking 
independence for Tibet, the Central Tibetan Administration strives for 
the creation of a political entity comprising the three traditional 
provinces of Tibet; (2) Such an entity should enjoy a status of genuine 
national regional autonomy; (3) This autonomy should be governed by the 
popularly-elected legislature and executive through a democratic 
process.
    \38\ Tibetan Government-in-Exile (Online), ``Tibet at a Glance,'' 
last visited 14 July 07. ``Land Size: 2.5 million square kilometers, 
which includes U-Tsang, Kham and Amdo provinces [the three traditional 
provinces of Tibet]. `Tibet Autonomous Region,' consisting of U-Tsang 
and a small portion of Kham, consists of 1.2 million square 
kilometers.'' A People's Daily Web page states that the area of China 
is 9.6 million square kilometers.
    \39\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7.
    \40\ ``Seeking Unity Through Equality: The Current Status of 
Discussions Between His Holiness the Dalai Lama and the Government of 
the People's Republic of China,'' Prepared Statement of Lodi Gyaltsen 
Gyari, Special Envoy of His Holiness the Dalai Lama, The Brookings 
Institution (Online), 14 November 2006.
    \41\ Question and Answer Session with Lodi Gyaltsen Gyari, Special 
Envoy of His Holiness the Dalai Lama, on the Current State of 
Discussions Between the Dalai Lama and the Government of the People's 
Republic of China, The Brookings Institution (Online), 14 November 
2006.
    \42\ Tibetan Government-in-Exile (Online), ``Statement of His 
Holiness the Dalai Lama on the Forty-Seventh Anniversary of the Tibetan 
National Uprising Day.''
    \43\ Tibetan Government-in-Exile (Online), ``We Are Not Asking for 
`High' or `Low' Degree of Autonomy: Kalon Tripa,'' 12 May 07.
    \44\ International Campaign for Tibet, Tibet at a Glance. The ICT 
Web page describes Tibet as an ``occupied'' country of 2.5 million 
square kilometers (965,000 square miles) with Lhasa as its capital.
    \45\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7. ``Seeking Unity Through Equality,'' 
Prepared Statement of Lodi Gyaltsen Gyari.
    \46\ ``Seeking Unity Through Equality,'' Prepared Statement of Lodi 
Gyaltsen Gyari.
    \47\ ``Dalai Lama's Special Envoy Describes Status of Discussions 
With Chinese Government,'' CECC China Human Rights and Rule of Law 
Update, December 2006, 6-7. Steven Marshall and Susette Cooke, Tibet 
Outside the TAR, Table 7. The total area of the TAR and Tibetan 
autonomous prefectures and counties is approximately 2.24 million 
square kilometers (865,000 square miles). The area that Tibetans claim 
as Tibet, 2.5 million square kilometers, is approximately 965,000 
square miles.
    \48\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003), Table 10-4. The only prefectural-
level areas of Qinghai province that are not a Tibetan autonomous 
prefecture or a Mongol and Tibetan autonomous prefecture are Xining 
municipality and Haidong prefecture. According to official 2000 census 
information, the total population of Xining and Haidong was about 3.24 
million. Of that population, about 224,000 persons (6.9 percent) were 
Tibetans.
    \49\ The territory that Tibetans claim outside the existing Tibetan 
autonomous areas contain parts of autonomous prefectures or counties 
named to reflect ethnic groups including the Hui, Salar, and Tu in 
Qinghai province; the Kazak, Mongol, Yugur, Hui, Dongxiang, and Bao'an 
in Gansu province; the Yi in Sichuan province; the Naxi, Lisu, Nu, Bai, 
and Pumi in Yunnan province; and, according to some maps, the Mongol in 
Xinjiang. Substantial Han Chinese populations are also included, some 
established for centuries.
    \50\ Tabulation on Nationalities of 2000 Population Census of 
China, Table 10-4. According to official data, no county-level area 
outside the existing Tibetan autonomous areas has a Tibetan population 
higher than 25 percent. Three counties outside the existing Tibetan 
autonomous areas have a Tibetan population between 20 and 25 percent: 
Xunhua Salar Autonomous County (24.7 percent), Hualong Hui Autonomous 
County (21.5 percent), and Su'nan Yugur Autonomous County (24.4 
percent) in Gansu province. One county outside the existing Tibetan 
autonomous areas has a Tibetan population between 10 and 20 percent: 
Huangyuan county (10.4 percent) in Qinghai province. Six counties 
outside the existing Tibetan autonomous areas have a Tibetan population 
between 5 and 10 percent: Huangzhong county (8.5 percent), Datong Hui 
Autonomous County (6.6 percent), Ledu county (6.4 percent), and Huzhu 
Tu Autonomous County (6.0 percent) in Qinghai province; and Shimian 
county (9.8 percent) and Baoxian county (8.7 percent) in Sichuan 
province.
    \51\ Ibid. Substantial areas and populations of the territory that 
Tibetans claim outside the existing Tibetan autonomous areas contain 
Tibetan populations of 5 percent or less, including part or all of: 
Xining municipality in Qinghai province; Jiuquan, Zhangye, and Wuwei 
municipalities, and Linxia Hui Autonomous Prefecture in Gansu province; 
Liangshan Yi Autonomous Prefecture in Sichuan province; and Lijiang 
Naxi Autonomous Prefecture and Nujiang Lisu Autonomous Prefecture in 
Yunnan province.
    \52\ ``Seeking Unity Through Equality,'' Prepared Statement of Lodi 
Gyaltsen Gyari.
    \53\ Ibid.
    \54\ Ministry of Foreign Affairs (Online), ``The Tibetan ethnic 
minority,'' 15 November 00. ``In 1929, the Kuomintang government set up 
a commission for Mongolian and Tibetan affairs in Nanjing and 
established Qinghai province. In 1939, Xikang province was set up.'' 
(The article also shows that the Guomindang established Qinghai 
province in 1929. Today, Qinghai is occupied principally by Tibetan 
autonomous prefectures established by the PRC government.) People's 
Daily (Online), ``Panda's Hometown Lures Tourists, Investors With 
Wonders,'' 23 August 01. ``Ya'an boasts a history of over 2,000 years 
and was once the capital of Xikang province which was abolished in 
1955.''
    \55\ International Campaign for Tibet, Tibet at a Glance. A map on 
the Web site shows the Tibetan boundary as a solid line. Portions of 
Qinghai, Gansu, Sichuan, and Yunnan provinces that are inside the Tibet 
boundary are shown as dashed lines. Tibetan Government-in-Exile 
(Online), Map of Tibet, last visited 14 July 07. The relatively 
straight contour between the western and northern tips of the Tibet map 
shows that a portion of Bayinguoleng Mongol Autonomous Prefecture is 
included within Tibet.
    \56\ PRC Constitution, art. 62(12). The National People's Congress 
exercises the function and power to ``approve the establishment of 
provinces, autonomous regions, and municipalities directly under the 
Central Government.'' PRC Constitution, art. 89(15). The State Council 
exercises the function and power to ``approve the geographic division 
of provinces, autonomous regions, and municipalities directly under the 
Central Government, and to approve the establishment and geographic 
division of autonomous prefectures, counties, autonomous counties, and 
cities.''
    \57\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01.
    \58\ REAL, Preamble.
    \59\ Tibetan Government-in-Exile (Online),'' The Statement of His 
Holiness the Dalai Lama on the Forty-Eighth Anniversary of the Tibetan 
National Uprising Day.
    \60\ PRC Constitution, art. 31. ``The state may establish special 
administrative regions when necessary. The systems to be instituted in 
special administrative regions shall be prescribed by law enacted by 
the National People's Congress in the light of the specific 
conditions.''
    \61\ Ibid.
    \62\ Tibetan Government-in-Exile, ``We are not asking for `high' or 
`low' degree of autonomy.''
    \63\ REAL, Preamble.
    \64\ The REAL (amended 28 February 01) and State Council 
Regulations on the Implementation of the REAL (issued 11 May 05) 
promote increased emphasis on economic development, and reinforce the 
government's Great Western Development program. The Regulation on 
Religious Affairs (RRA) (issued 30 November 04) elaborates the state's 
legal control over the publication and dissemination of religious 
literature, the identification of high-ranking reincarnated Tibetan 
Buddhist lamas, state supervision over who teaches and studies 
religious subjects. The TAR Implementing Measures for the Regulation on 
Religious Affairs (issued 19 September 06) are more detailed and 
intrusive than the RRA in establishing control over the function of 
Tibetan Buddhism. The TAR Regulations on the Study, Use, and 
Development of the Tibetan Language (revised May 22, 2002) drop the 
requirement that state government agencies use both Mandarin and 
Tibetan, and instead allow them to decide to use either one.
    \65\ Question and Answer Session with Lodi Gyaltsen Gyari, The 
Brookings Institution. Responding to a question about the ``unification 
of all ethnic Tibetans,'' Gyari said that China accepts that ``the 
Tibetan people are one people,'' so the Tibetans are asking that they 
``be able to live within one single administration.'' Gyari asserted, 
``I am utterly convinced from every point of view, what we ask is 
legitimate, what we ask is according to the Chinese Constitution, 
Chinese laws.'' Tibetan Government-in-Exile, ``We are not asking for 
`high' or `low' degree of autonomy.'' Samdhong Rinpoche told a 
conference, ``Our two desires are that the constitutional provisions of 
national regional autonomy must be implemented . . ., [so that] all 
Tibetans must be administered by a single autonomous self-government. . 
. . We are simply asking for the sincere implementation of the national 
regional autonomy provisions enshrined in the Constitution of the 
People's Republic of China, which is further spelt out in the autonomy 
law.''
    \66\ REAL, art. 12. ``Autonomous areas may be established where one 
or more minority nationalities live in concentrated communities, in the 
light of local conditions such as the relationship among the various 
nationalities and the level of economic development, and with due 
consideration for historical background.''
    \67\ PRC Constitution, art. 62(12), 89(15).
    \68\ Ibid., art. 116. ``People's congresses of national autonomous 
areas have the power to enact autonomy regulations and specific 
regulations in the light of the political, economic and cultural 
characteristics of the nationality or nationalities in the areas 
concerned. . . .'' REAL, art. 19. ``The people's congresses of ethnic 
autonomous areas shall have the power to enact self-governing 
regulations and separate regulations in the light of the political, 
economic, and cultural characteristics of the nationality or 
nationalities in the areas concerned. . . .''
    \69\ PRC Legislation Law, enacted 15 March 00, art. 9. ``In the 
event that no national law has been enacted in respect of a matter 
enumerated in Article 8 hereof, the [NPC] and the Standing Committee 
thereof have the power to make a decision to enable the State Council 
to enact administrative regulations in respect of part of the matters 
concerned for the time being, except where the matter relates to crime 
and criminal sanctions, the deprivation of a citizen's political 
rights, compulsory measure and penalty restricting the personal freedom 
of a citizen, and the judicial system.''
    \70\ Ibid., art. 66.
    \71\ REAL, art. 20. ``If a resolution, decision, order, or 
instruction of a state agency at a higher level does not suit the 
actual conditions in an ethnic autonomous area, an autonomous agency of 
the area may report for the approval of that higher level state agency 
to either implement it with certain alterations or cease implementing 
it altogether. . . .''
    \72\ PRC Legislation Law, art. 66. ``. . . An autonomous decree or 
special decree may vary the provisions of a law or administrative 
regulation, provided that any such variance may not violate the basic 
principles thereof, and no variance is allowed in respect of any 
provision of the Constitution or the Law on Ethnic Area Autonomy and 
provisions of any other law or administrative regulations which are 
dedicated to matters concerning ethnic autonomous areas.''
    \73\ PRC Constitution, art. 31.
    \74\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. ``The situation 
in Tibet is entirely different from that in Hong Kong and Macao. The 
Hong Kong and Macao issue was a product of imperialist aggression 
against China; it was an issue of China's resumption of exercise of its 
sovereignty. Since ancient times Tibet has been an inseparable part of 
Chinese territory, where the Central Government has always exercised 
effective sovereign jurisdiction over the region.'' ``Yedor: On the 
`Middle Way' of the Dalai Lama,'' China Tibet Information Center 
(Online), 18 July 06. ``It is known to all that the ``one country, two 
systems'' refers to the fact that the mainland follows the socialist 
system while Hong Kong and Macao continue to follow the capitalist 
system they had followed before. However, no capitalist system existed 
in Tibetan history; . . .''
    \75\ CECC, Annual Report 2002, 12 October 02, Sec. 1.
    \76\ CECC, Annual Report 2004, 5 October 04, Sec. 1.
    \77\ CECC, Annual Report 2006, 20 September 06, Sec. 1.
    \78\ Zhang Qingli, ``Grasp the Two Major Affairs of Development and 
Stability, Promote the Building of a Harmonious Tibet,'' Seeking Truth, 
16 January 07 (Open Source Center, 18 January 07); Tenzing Sonam, 
``Roadblock on the Middle Path,'' Himal Magazine (Online), December 
2006. ``Why, then, when the Tibetans are officially doing everything 
possible to create what the Kashag's Prime Minister, Samdhong Rinpoche, 
calls a `conducive atmosphere,' are the Chinese stepping up their 
campaign to vilify the Dalai Lama, and denouncing his overtures to find 
accommodation?''
    \79\ ``China Vows to Tighten Security in Tibet,'' Reuters, 
reprinted in Phayul (Online), 21 May 07. TAR Party Secretary Zhang 
Qingli told a group of Party members, ``From beginning to end . . . we 
must deepen patriotic education at temples, comprehensively expose and 
denounce the Dalai Lama clique's political reactionary nature and 
religious hypocrisy;'' ``Tibetan Abbot Forced To Step Down,'' Radio 
Free Asia (Online), 30 May 07. A Tibetan Buddhist abbot in Gande 
county, Guolou Tibetan Autonomous Prefecture, Qinghai province, said 
that officials were stepping up patriotic education in the county. 
Bureau of Democracy, Human Rights, and Labor, U.S. Department of State, 
Country Reports on Human Rights Practices--2006, China (includes Tibet, 
Hong Kong, and Macau), 8 March 06. ``Numerous credible sources reported 
that political education sessions intensified in Lhasa beginning in 
April 2005.''
    \80\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' [hereinafter TAR 2006 Measures], 
issued by the Standing Committee of the Tibet Autonomous Region 
People's Government on September 19, 2006. The TAR 2006 Measures became 
effective on January 1, 2007.
    \81\ Ibid. The Measures contain 56 articles (6,221 Chinese 
characters). Tibet Autonomous Region Temporary Measures on the 
Management of Religious Affairs [hereinafter TAR 1991 Measures], issued 
by the Standing Committee of the Tibet Autonomous Region People's 
Government on December 9, 1991. The measures contain 30 articles (3,355 
Chinese characters).
    \82\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa] [hereinafter MMR], 
issued 13 July 07.
    \83\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, International Religious Freedom Report--2006, China (includes 
Tibet, Hong Kong, and Macau), 15 September 06. ``Although authorities 
permitted many traditional religious practices and public 
manifestations of belief, they promptly and forcibly suppressed any 
activities, which they viewed as vehicles for political dissent. This 
included religious activities that officials perceived as supporting 
the Dalai Lama or Tibetan independence.''
    \84\ CECC Staff Interviews. The Kargyu, Sakya, and Nyingma 
traditions, especially in Tibetan areas outside the TAR, may experience 
less interference from authorities.
    \85\ ``Zhang Qingli becomes new Party chief of Tibet,'' Xinhua 
(Online), 29 May 07; ``Xinjiang Communist Party Official Promoted to 
Acting Secretary of the Tibet Autonomous Region,'' CECC China Human 
Rights and Rule of Law Update, January 2006, 19. The Party Central 
Committee appointed Zhang Qingli to the post of acting TAR Party 
Secretary in November 2005, and Secretary on May 29, 2006. Zhang 
previously served in the Xinjiang Uighur Autonomous Region as Deputy 
Party Secretary and commander of the Xinjiang Production and 
Construction Corps (XPCC).
    \86\ ``TAR Party Secretary Accuses the Dalai Lama of Being a `False 
Religious Leader,' '' CECC China Human Rights and Rule of Law Update, 
September 2006, 14.
    \87\ The Party and government use the term ``Western hostile 
forces'' to include governments, NGOs, advocacy groups, media 
organizations, and individuals who criticize Chinese policies, actions, 
and records with respect to issues such as human rights, and who work 
to encourage or facilitate change in such areas.
    \88\ Zhang Qingli, ``Grasp the Two Major Affairs of Development and 
Stability.''
    \89\ ``China Vows to Tighten Security in Tibet,'' Reuters.
    \90\ ``Monk Dies Following Dispute With Patriotic Education 
Instructors,'' CECC China Human Rights and Rule of Law Update, December 
2005, 10. ``A Reader for Advocating Science and Technology and Doing 
Away With Superstitions'' (translated by International Campaign for 
Tibet in When the Sky Fell to Earth: The New Crackdown on Buddhism in 
Tibet, 2004). The manual asks, ``Why do we conduct patriotic education 
among monks and nuns in the monasteries?,'' and provides the answer: 
``Conducting patriotic education among the monks and nuns in the 
monasteries is an important aspect of strengthening the management of 
religious affairs by the government. . . . Dalai's bloc has never 
stopped penetrating and engaging in splittist activities in our region 
under the support of international antagonistic forces. . . . The monks 
and nuns should be religious professionals who love the country, love 
religion, obey the discipline, and abide by the law.''
    \91\ ``Lhasa Area Monks and Nuns Face a New Round of `Patriotic 
Education','' CECC China Human Rights and Rule of Law Update, November 
2005, 10; Tibetan Centre for Human Rights and Democracy (Online), 
``China Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions,'' 13 October 05.
    \92\ International Campaign for Tibet (Online), ``The Communist 
Party as Living Buddha: The Crisis Facing Tibetan Religion Under 
Chinese Control,'' 26 April 2007, 5. Tibetan Centre for Human Rights 
and Democracy (Online), Annual Report 2006, March 2006, 39, 41-42.
    \93\ ``Tibetan Abbot Forced To Step Down,'' Radio Free Asia. RFA 
reports that officials forced an abbot of a Tibetan Buddhist monastery 
in Gande (Gade) county, Guoluo (Golog) Tibetan Autonomous Prefecture to 
step down in May after he refused to sign a statement denouncing the 
Dalai Lama. An official of the county Religious Affairs Bureau 
allegedly acknowledged that authorities were stepping up patriotic 
education.
    \94\ ``Zhang Qingli Delivers Major Address at Opening of Party 
Conference in Tibet [Xizang quanqu dangyuan lingdao ganbu dahui zhaokai 
Zhang Qingli fabiao zhongyao jianghua],'' Tibet Daily, reprinted in 
Xinhua (Online), 16 May 06; ``TAR Party Secretary Calls for Tighter 
Control of Tibetan Monasteries, Nunneries,'' China Human Rights and 
Rule of Law Update, July 2006, 9.
    \95\ International Campaign for Tibet, ``The Communist Party as 
Living Buddha,'' 37. ICT cites, Xinhua, ``Zhang Qingli: Ensure Tibet's 
Leap-over Style Development and Long Term Order and Security [Zhang 
Qingli: Quebao Xizang kuayueshi fazhan he changzhi jiuan], 18 May 06.
    \96\ RRA, art. 17: ``Venues for religious activities shall set up 
management organizations and practice democratic management. Members of 
the management organizations of venues for religious activities shall 
be selected through democratic consultations and reported as a matter 
of record to the registration management organs for the venues.'' (In a 
Tibetan monastery or nunnery, a DMC is generally made up of monks or 
nuns selected from among themselves. Candidates are sometimes screened 
by local officials, according to some reports.)
    \97\ International Campaign for Tibet, ``The Communist Party as 
Living Buddha,'' 39.
    \98\ Ibid.
    \99\ Tibet Autonomous Region Temporary Measures on the Management 
of Religious Affairs [hereinafter TAR 1991 Measures], issued by the 
Standing Committee of the Tibet Autonomous Region People's Government 
on December 9, 1991, art. 15. ``The Buddhist Association is a mass 
organization of personages from religious circles and religious 
believers, and a bridge for the Party and government to unite and 
educate personages from religious circles and the believing masses. Its 
effectiveness shall be vigorously brought into play under the 
administrative leadership of the government's religious affairs 
department.''
    \100\ Regulation on Religious Affairs (RRA) [Zongjiao shiwu 
tiaoli], issued 30 November 04.
    \101\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \102\ ``Regional National Autonomy Is the Only Road for Tibet's 
Development, Part One,'' Xinhua, 24 April 07 (Open Source Center, 17 
May 07). (Official TAR reports provided the figures of more than 1,700 
monasteries and nunneries and 46,000 monks and nuns as early as 1996.)
    \103\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \104\ Tibet Autonomous Region Implementing Measures for the 
``Regulation on Religious Affairs'' [hereinafter TAR 2006 Measures], 
issued by the Standing Committee of the Tibet Autonomous Region 
People's Government on September 19, 2006. The measures became 
effective on January 1, 2007.
    \105\ RRA, translated on the Web site of China Elections and 
Governance.
    \106\ TAR 2006 Measures. Of the Measures 56 articles: 7 articles 
lay out the ``general principles'' for religious activity; 21 articles 
stipulate responsibilities and regulations for ``religious 
organizations'' (provincial-level, government-controlled Buddhist 
associations) and ``venues for religious activities'' (e.g. monasteries 
and nunneries), as well as on activity by monasteries and nunneries; 17 
articles regulate religious activity by ``religious personnel'' (e.g. 
monks and nuns); 10 articles stipulate punitive measures against 
persons or entities that violate the measures; 1 article repeals the 
1991 Temporary Measures on the Management of Religious Affairs.
    \107\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. ``At present, 
there are over 1,700 venues for Tibetan Buddhist activities, with some 
46,000 resident monks and nuns; four mosques and about 3,000 Muslims; 
and one Catholic church and over 700 believers in the [Tibet Autonomous 
Region].''
    \108\ TAR 1991 Measures, issued by the Standing Committee of the 
Tibet Autonomous Region People's Government on December 9, 1991.
    \109\ TAR 2006 Measures, arts. 36-40.
    \110\ RRA, art. 27.
    \111\ TAR 1991 Measures, art. 23.
    \112\ Ministry of Foreign Affairs (Online), ``Did Tibet Become an 
Independent Country After the Revolution of 1911?,'' 15 November 00. 
``In 1792 the Twenty-Nine Article Imperial Ordinance was issued. It 
stipulated in explicit terms for the reincarnation of the Living 
Buddhas in Tibet as well as the administrative, military, and foreign 
affairs.'' (The edict sought to impose Qing control over religious, 
administrative, military, fiscal, commercial, and foreign affairs. The 
edict demanded that an Amban, the ``Resident Official'' representing 
the imperial court, would have equal status to the Dalai and Panchen 
Lamas, and function as the supervisor of the Tibetan administration.)
    \113\ Although the TAR 2006 Measures are government-issued, the 
measures depend in part on Democratic Management Committees (DMCs) and 
Buddhist associations for effective application. The Party maintains 
regular contact with both organizations, and requires each of them to 
study and implement Party policies on religion.
    \114\ TAR 2006 Measures, art. 36.
    \115\ Ibid., art. 37.
    \116\ Ibid., art. 38.
    \117\ Ibid., art. 39.
    \118\ Ibid., art. 39.
    \119\ The RRA contains no precedent for restriction on travel by 
religious professionals such as Tibetan Buddhist monks and nuns. The 
TAR 1991 Measures contained no restrictions on intra-provincial travel 
by monks and nuns. The Commission does not have on file detailed 
information about local rules or practices that may have exceeded the 
level of restriction provided for by the TAR 1991 Measures or the RRA.
    \120\ TAR 2006 Measures, arts. 41-44.
    \121\ ``Practicing religion'' is distinct from studying religion, 
which is more strictly regulated. Practicing religion may include 
activities such as conducting extended periods of prayer and ritual 
offering, or going on pilgrimage. Monks and nuns sometimes conduct 
extended periods of prayer and offering while living in seclusion, or 
in remote places in a rudimentary shelter.
    \122\ TAR 2006 Measures, art. 41. The requirement to report for the 
record to the local government's religious affairs bureau could provide 
government officials a pretext to discourage, interfere in, or prevent 
monks and nuns from engaging in traditional Buddhist practices, 
especially living in seclusion or in remote places.
    \123\ Ibid., art. 43.
    \124\ TAR 1991 Measures, art. 9.
    \125\ TAR 2006 Measures, arts. 46-55. The articles use the term 
``disqualify,'' not ``expel.'' ``Disqualify'' here means to disqualify 
someone from legally practicing religion as a religious professional. 
Revoking registration as a ``religious professional'' terminates a 
person's legal status as a monk or nun, and the authorization to reside 
at a monastery or nunnery in order to study and practice religion.
    \126\ Ibid., art. 34. The RRA and TAR 1991 Measures do not 
explicitly state such a ban.
    \127\ Ibid., art. 53.
    \128\ Padmasambhava, or Guru Rinpoche, is regarded as one of the 
greatest teachers of Tibetan Buddhism and a central figure in the 
oldest tradition of Tibetan Buddhism, the Nyingma.
    \129\ Gyurme Dorje, Tibet Handbook, (Bath, England: Trade and 
Travel Handbooks, 1996), 235. Samye Monastery was probably constructed 
between 775 and 779, although other historical accounts provide 
different dates.
    \130\ International Campaign for Tibet (Online), ``Demolition of 
Giant Buddha Statue at Tibetan Monastery Confirmed by China,'' 14 June 
07.
    \131\ Tibetan Centre for Human Rights and Democracy (Online), 
``Colossal Guru Rinpoche's Statue Demolished in Tibet: China's New 
Religious Affairs Regulations for `TAR' Entered Into Force,'' 4 June 
07.
    \132\ Ibid.
    \133\ RRA, art. 24, ``No organizations or individuals other than 
religious bodies, monasteries, temples, mosques, and churches may build 
large-size outdoor religious statues.'' TAR 2006 Measures, art. 13, 
``No group or individual outside of religious organizations and venues 
for religious activities may build religious structures such as a 
large-scale open-air religious statue, or mani lhakhang [prayer (wheel) 
temple].'' (The TAR 1991 Measures do not contain a precedent for 
Article 13 of the TAR 2006 Measures.)
    \134\ RRA, art. 44, ``Where, in violation of the provisions of 
these Regulations, anyone builds a large outdoor religious statue, the 
religious affairs department shall order it to discontinue the 
construction and to demolish the statue in a specified time limit; . . 
.'' TAR 2006 Measures, art. 48, ``Where, in violation of provisions in 
Article 13 of these measures, a religious structure such as an outdoor 
religious statue, stupa, or mani lhakhang [prayer (wheel) temple] is 
built without authorization outside of a venue for religious activity, 
the people's government religious affairs department at the county 
level or above orders redress, suspension of construction, and 
demolition within a specified time limit, in accordance with relevant 
laws and regulations.''
    \135\ ``Samye Moves Open-air Statue of Buddha,'' China Tibet 
Information Center (Online), 9 June 07. ``Samye Monastery made bold to 
erect a copper statue of Buddha Padmasambhava in the open air donated 
by a related enterprise's principal, which disobeyed the Law of the 
People's Republic of China on Protection of Cultural Relics and the 
Notice of Illegally Building Open Statue of Buddha jointly issued by 
the State Administration for Religious Affairs of People's Republic of 
China, Ministry of Construction of the People's Republic of China, and 
China National Tourism Administration.''
    \136\ Ibid.
    \137\ International Campaign for Tibet, ``Demolition of Giant 
Buddha Statue at Tibetan Monastery''
    \138\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \139\ Tibet Information Network (TIN), Background Briefing Papers: 
Documents and Statements from Tibet 1996-1997, 1998, 45. A November 4, 
1996, article in the Tibet Daily said that the number of monasteries 
and nunneries in the TAR (1,787) was too high and that the Party 
planned in 1986 that only 229 monasteries would be reopened in the TAR. 
The article said that the number of monks and nuns (46,000 in early 
1996) was high and created a negative impact on social and economic 
development. (The TIN summary of the article did not include any 
reference to a Party statement explicitly calling for a reduction in 
the number of monasteries, nunneries, monks, and nuns.)
    \140\ ``Reincarnation of Tibetan Living Buddhas Must Get Government 
Approval,'' Xinhua, reprinted in People's Daily (Online), 3 August 07.
    \141\ State Administration for Religious Affairs, Measures on the 
Management of the Reincarnation of Living Buddhas in Tibetan Buddhism 
[Zangchuan fojiao huofo zhuanshi guanli banfa] [hereinafter MMR], 
issued 13 July 07.
    \142\ State Council Information Office, ``White Paper on Regional 
Ethnic Autonomy in Tibet,'' Xinhua (Online), 23 May 04. There are 
approximately 1,700 monasteries and nunneries and 46,000 monks and nuns 
in the TAR. CECC Staff Interviews, September 2003. According to a 
Chinese official, there are 655 Tibetan Buddhist monasteries and 
nunneries and approximately 21,000 monks and nuns in Qinghai province. 
An official in Huangnan (Malho) TAP in eastern Qinghai province 
reported that there are 83 monasteries and nunneries, 3,656 monks and 
nuns, and 116 Tibetan Buddhist reincarnations in the prefecture. (Based 
on the Huangnan figures, the ratio of the number of monasteries and 
nunneries in Huangnan to the number of reincarnations is about 1.4 to 
1. The ratio of monks and nuns to reincarnations in Huangnan is 
approximately 32 to 1.) CECC Staff Interview, April 2004. According to 
a Chinese official, in Gansu province there are 276 Tibetan Buddhist 
monasteries and nunneries, approximately 10,000 monks and nuns, and 144 
Tibetan Buddhist reincarnated teachers. (Based on these figures, the 
ratio of the number of monasteries and nunneries in Gansu to the number 
of reincarnations is approximately 1.9 to 1. The ratio of monks and 
nuns to reincarnations in Gansu is approximately 69 to 1.) Web site of 
the Sichuan Province Party Committee Policy Research Office, ``Improve 
Capacity to Resolve Minority Issues, Make Efforts to Build a Harmonious 
Ganzi,'' 10 August 05. There are 515 Tibetan Buddhist monasteries and 
nunneries and 37,916 monks and nuns in Ganzi (Kardze) Tibetan 
Autonomous Prefecture (TAP). (The data in these sources total 3,146 
Tibetan Buddhist monasteries and nunneries and approximately 115,000 
monks and nuns, and do not include monasteries and nunneries in Aba 
(Ngaba) Tibetan and Qiang Autonomous Prefecture and Muli (Mili) Tibetan 
Autonomous County in Sichuan province, and Diqing (Dechen) TAP in 
Yunnan province.)
    \143\ Based on an estimated 3,300 Tibetan monasteries and 
nunneries, and extrapolating an estimate by applying the ratio of 
monasteries to reincarnations in Gansu province (1.9 to 1) and Huangnan 
TAP (1.4 to 1), an estimated total number of reincarnations could be 
more than 1,700 (based on the Gansu ratio) and more than 2,300 (based 
on the Huangnan ratio). The Gansu and Huangnan data samples are 
relatively small, however, and may not provide a reliable estimate. The 
Commission has very little information on the number of reincarnated 
teachers in the TAR; the proportion there may be lower than in some of 
the Tibetan areas of Sichuan and Qinghai provinces.
    \144\ ``Reincarnation of Tibetan Living Buddhas Must Get Government 
Approval,'' Xinhua, reprinted in People's Daily (Online), 3 August 07.
    \145\ MMR, art. 3.
    \146\ Ibid., art. 4.
    \147\ Xining city, the capital of Qinghai province, has four urban 
districts (Chengdong, Chengxi, Chengzhong, and Chengbei), but there are 
no Tibetan Buddhist monasteries within the city districts.
    \148\ The Commission does not have official information on the 
number of reincarnated Tibetan Buddhist teachers at Drepung and Sera 
Monasteries, but each monastery has several according to unofficial 
reports.
    \149\ In comparison to the MMR, only Article 27 of the RRA 
addresses reincarnation (requiring government guidance and compliance 
with ``historical conventions''). Articles 36-40 of the TAR 2006 
Measures address reincarnation, but the measures apply only within the 
TAR and do not apply as many detailed requirements as the MMR. Only 
Article 23 of the TAR 1991 Measures refers to reincarnation (banning 
the involvement of ``foreign forces'' in confirming reincarnations).
    \150\ MMR, arts. 3-4.
    \151\ Ibid., arts. 5-7.
    \152\ Ibid., arts. 4, 7-9
    \153\ Ibid., art. 10.
    \154\ Ibid., art. 12.
    \155\ Ibid., art. 11.
    \156\ ` ``Our Own Come First' in the Reincarnation of Living 
Buddhas,'' Singtao Daily, 23 August 07 (Open Source Center, 13 
September 07). The report does not state the date when the forum took 
place.
    \157\ ` ``Ibid. ``The meeting stressed that the Tibetan areas must 
strictly carry out the Management Measures for the Reincarnation of 
`Living Buddhas' in Tibetan Buddhism, that `our own comes first' in the 
reincarnation of living Buddhas, and that we must be on guard against 
interference by the Dalai Lama clique in exile abroad with the support 
of international hostile forces.''
    \158\ Ibid.
    \159\ The figures for 2004 and 2005, reported by the CECC 2006 
Annual Report based on data available in the PPD as of August 2006, 
have not changed.
    \160\ The Commission's Political Prisoner Database (PPD) is 
available Online at http://ppd.cecc.gov.
    \161\ The CECC 2005 Annual Report referred to the period 2002-2004 
saying, ``About two-thirds of the Tibetan political prisoners detained 
from 2002 onward are in Sichuan province, according to the PPD. Half of 
them are monks.''
    \162\ U.S. Commission on International Religious Freedom, ``Annual 
Report of the Commission on International Religious Freedom,'' 2 May 
07, 123. ``The Chinese government acknowledges that more than 100 
Tibetan Buddhist monks and nuns are being held in prison.'' The report 
does not provide a date for the Chinese statement or provide additional 
detail.
    \163\ Tibetan Centre for Human Rights and Democracy, ``China 
Recommences `Patriotic Education' Campaign in Tibet's Monastic 
Institutions.'' For example, TCHRD reported that as many as eight Sera 
monastery monks reportedly detained the previous July remained 
unidentified. As of September 2007, additional information about the 
outcome of their detentions is not available.
    \164\ Tibetan Centre for Human Rights and Democracy (Online), 
``Human Rights Update, October 2006. For example, TCHRD reported that 
Sera Monastery monk Thubten Samten ``disappeared'' in May 2006 after he 
behaved in a defiant manner to members of a patriotic education work 
team when they warned him not to display prohibited material in his 
room. As of September 2007, information about whether or not police 
detained him is not available.
    \165\ See, for example, International Campaign for Tibet, ``The 
Communist Party as Living Buddha: The Crisis Facing Tibetan Religion 
Under Chinese Control,'' 26 April 2007, 29, 43, 55, 75.
    \166\ U.S. Department of State, International Religious Freedom 
Report 2006, China. ``The Government continued to refuse to allow 
access to Gendun Choekyi Nyima, . . . and his whereabouts were unknown. 
. . . All requests from the international community for access to the 
boy to confirm his well-being have been refused.'' ``UN Committee 
Recommends Independent Expert to Visit Boy Named As Panchen Lama,'' 
CECC Virtual Academy (Online), 26 January 06.
    \167\ UN Commission on Human Rights (Online), ``Summary of Cases 
Transmitted to Governments and Replies Received, 27 March 06, 24-25. 
The Special Rapporteur on Freedom of Religion or Belief sent a request 
to the Chinese government for information about Gedun Choekyi Nyima on 
June 9, 2005. The Chinese government provided a response on September 
7, 2005.
    \168\ ``It Is Both Illegal and Invalid for the Dalai Lama to 
Universally Identify the Reincarnated Soul Boy of the Panchen Lama,'' 
People's Daily, 1 December 95 (Open Source Center, 1 December 95).
    \169\ See CECC Annual Report 2006, Section V(d)--Freedom of 
Religion, for additional information about the Panchen Lama and 
Gyaltsen Norbu.
    \170\ Tibet Information Network, Background Briefing Papers: 
Documents and Statements from Tibet 1996-1997, 1998, 45. A November 4, 
1996, article in the Tibet Daily said that there were 1,787 monasteries 
and nunneries in the TAR, and 46,000 monks and nuns. Tabulation on 
Nationalities of 2000 Population Census of China, Table 10-4. The 
Tibetan population of the TAR was 2,427,168 in 2000. (If the government 
enumeration of monks and nuns is accurate, then 1.9 percent of the TAR 
Tibetan population are Tibetan Buddhist monks and nuns, and 98 percent 
are living in secular society.)
    \171\ The Gelug tradition, established in the late 14th century, is 
the largest of several traditions of Tibetan Buddhism that are 
currently practiced. The Dalai Lama and Panchen Lama are the most 
revered spiritual teachers of the Gelug.
    \172\ CECC Staff Interviews.
    \173\ International Campaign for Tibet (Online), ``Tibetans Banned 
From Marking Traditional Buddhist Anniversary,'' 9 January 07. ``All 
members of the Communist Party, government employees, retired cadres 
and staff, cadres and workers of business and enterprise work units and 
people's collectives, and the broad masses of young students are not 
permitted to participate in or observe celebrations of the Gaden 
Ngachoe Festival.'' (Gaden Ngachoe observes the passing in 1419 of 
Tsongkhapa, the founder of the Gelug tradition of Tibetan Buddhism, of 
which the Dalai Lama and Panchen Lama are the most revered spiritual 
teachers. The observance takes place on the 25th day of the 11th lunar 
month on the Tibetan calendar, December 15 in 2006.)
    \174\ Saga Dawa falls on the 15th day (the full moon) of the 4th 
month of the Tibetan lunar calendar. The day commemorates both the 
enlightenment and passing away of the Buddha. Saga Dawa fell on June 11 
in 2006, and on May 31 in 2007.
    \175\ Tibetan Centre for Human Rights and Democracy (Online), 
``China intensifies prohibition of religious activities in Tibet during 
the holy month of Saka Dawa,'' 19 May 07.
    \176\ CECC Staff Interviews.
    \177\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China. ``Government officials reportedly ordered 
Tibetans working for the government to refrain from going to temples 
during the Saga Dawa festival in May or risk losing their jobs.''
    \178\ ``Dalai Lama's Birthday celebrated by Tibetans across 
Tibet,'' Phayul (Online), 5 July 07.
    \179\ ``Work Report of the Tibet Autonomous Regional Government,'' 
Tibet Daily, 29 January 03 (Open Source Center, 16 June 03). Legchog 
(Lieque), then-Chairman of the TAR government, said, ``We carried out 
the work to confiscate and ban reactionary propaganda materials, 
cracked down on illegal exit to and entry from other countries, and 
checked ``Trunglha Yarsol'' [activities to mark the birthday of the 
Dalai Lama] and other illegal activities.''
    \180\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China. The report refers to the Dalai Lama's birthday 
in July 2006, saying, ``The prohibition on celebrating the Dalai Lama's 
birthday on July 6 continued.''
    \181\ ``Dalai Lama's Birthday celebrated by Tibetans across 
Tibet,'' Phayul.
    \182\ ``Grand Western Development Is a Vivacious Chapter in 
Implementation of `Three Represents','' People's Daily, 20 October 02 
(Open Source Center, 20 October 02). ``Since 1999, Comrade Jiang Zemin 
has frequently presided over meetings to specifically study the issue 
of implementing the strategy of great western development and has 
issued a series of important directives. In early 2000, the State 
Council founded a leading group for the development of the western 
region and presented the strategy of great western development.'' State 
Council, ``Some Opinions of the State Council on Continuing to Press 
Ahead with the Development of the Western Region,'' Xinhua, 22 March 04 
(Open Source Center, 29 March 04). ``Practice provides ample evidence 
that the strategic decision by the CPC Central Committee and the State 
Council to develop the west is entirely correct and that all policy 
measures and key tasks pertaining to the development of the western 
region are entirely consistent with reality.'' (The statement shows 
that the State Council considers implementation of GWD to be a matter 
of policy.)
    \183\ CECC, 2002 Annual Report, 40.
    \184\ ``Qinghai-Tibet Railway Project to Start on June 29,'' Xinhua 
(Online), 17 June 01. Railway construction was scheduled to begin on 
June 29, 2001. Completion would take six years.
    \185\ CECC, 2002 Annual Report, 40.
    \186\ CECC, 2003 Annual Report, 78.
    \187\ Ibid., 81.
    \188\ CECC, 2004 Annual Report, 97.
    \189\ Ibid., 97-98.
    \190\ CECC, 2005 Annual Report, 108
    \191\ Ibid., 109.
    \192\ CECC, 2006 Annual Report, 166.
    \193\ Ibid., 168.
    \194\ CECC, 2002 Annual Report, 41. ``The Commission recommends 
that the Congress appropriate increased funding for NGOs to develop 
programs that improve the health, education, and economic conditions of 
ethnic Tibetans.'' CECC, 2003 Annual Report, 4. ``The Congress should 
increase funding for U.S. nongovernmental organizations (Ngos) to 
develop programs that improve the health, education, and economic 
conditions of ethnic Tibetans living in Tibetan areas of China, and 
create direct, sustainable benefits for Tibetans without encouraging an 
influx of non-Tibetans into these areas.
    \195\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem,'' Seeking Truth, 15 June 00 (Open Source 
Center, 15 June 00). Li Dezhu (Li Dek Su) addresses the social and 
ethnic implications of the program that Jiang Zemin launched in 1999. 
(The campaign is also known as Develop the West, and as Xibu da kaifa.)
    \196\ ``Zhang Qingli Addresses `First Plenum' of Tibet Military 
District Party Committee,'' Tibet Daily, 20 April 07 (Open Source 
Center, 8 May 07).
    \197\ ``Hu Jintao,'' China Tibet Information Center (Online), 
visited 2 August 07.
    \198\ ``Hu Jintao Takes Part in Deliberations by Delegation of 
Tibet Deputies,'' Xinhua, 5 March 07 (Open Source Center), 5 March 07. 
Hu met with TAR delegates including Zhang Qingli and Jampa Phuntsog.
    \199\ PRC Regional Ethnic Autonomy Law [hereinafter REAL], enacted 
31 May 84, amended 28 February 01.
    \200\ See, for example, REAL, amended 28 February 01, arts. 54-72.
    \201\ PRC Constitution, art. 4. ``The people of all nationalities 
have the freedom to use and develop their own spoken and written 
languages, and to preserve or reform their own ways and customs.''
    \202\ REAL, enacted 31 May 84, art. 65.
    \203\ REAL, amended 28 February 01, art. 71.
    \204\ ``Education, Employment Top Concerns for Tibetan Youth,'' 
Radio Free Asia (Online), 13 July 07; ``Tibetans Stage Rare Public 
Protest in Lhasa,'' Radio Free Asia (Online), 8 November 06; Tibetan 
Government-in-Exile, ``Abuse in Job Allocation in Tibet Drives Students 
to Streets,'' 6 December 06. ``Tibetan University Graduates Stage 
Public Protest, Allege Job Discrimination,'' CECC Virtual Academy 
(Online), 15 December 06.
    \205\ REAL, enacted 31 May 84, art. 65.
    \206\ CECC, 2006 Annual Report, 169, citing Ma Rong and Tanzen 
Lhundup, ``Temporary Migrants in Lhasa in 2005,'' Section IV(4.8), 
Table 14. Based on a survey published by Chinese academics Ma Rong and 
Tanzen Lhundup, the rate of illiteracy among Tibetan migrants (32.3 
percent) was almost 10 times higher than for Han migrants (3.3 
percent), and Han migrants were better prepared to secure jobs that 
require skills learned in junior or senior middle school. Of the 
migrants surveyed, Han reached junior or senior middle school at about 
twice the rate of Tibetans: 53.7 percent of Han compared to 26 percent 
of Tibetans reached junior middle school, and 19.4 percent of Han 
compared to 9 percent of Tibetans reached senior middle school.
    \207\ REAL, amended 28 February 01, art. 71.
    \208\ Provisions of the State Council for Implementing the Law on 
Regional Ethnic Autonomy of the People's Republic of China [hereinafter 
REAL Implementing Provisions], issued 11 May 05.
    \209\ ``PRC Western Development Official on 4 Key Aspects of New 
Preferential Policies,'' China Daily, 23 October 00 (Open Source 
Center, 23 October 00). ``Wang Chunzheng, deputy director of the State 
Council's Western Development Office, said the policies focus on four 
key aspects; increasing capital input, improving the investment 
environment, attracting skilled personnel and boosting the development 
of science and technology. This is the first time that China has 
summarized the measures to be carried out in its `Go-West' campaign, . 
. .''
    \210\ REAL Implementing Measures, art. 29. ``The State encourages 
and supports talents of all categories and classes to develop and 
pioneer in ethnic autonomous areas and local government shall offer 
preferential and convenient working and living conditions to them. 
Dependents and children of cadres of Han nationality or ethnic 
minorities who go to work in remote, tough, and frigid ethnic 
autonomous areas shall enjoy special treatment in employment and 
schooling.''
    \211\ REAL, amended 28 February 01, art. 22.
    \212\ Li Dezhu, ``Large-Scale Development of Western China and 
China's Nationality Problem.''
    \213\ ``Law on Western Development in Pipeline,'' China Daily 
(Online), 14 March 06.
    \214\ TAR Regulations on the Study, Use and Development of the 
Tibetan Language [hereinafter TAR Language Regulations], adopted July 
9, 1987, by the Fifth Session of the Fourth TAR People's Congress, and 
amended on May 22, 2002, by the Fifth Session of the Seventh TAR 
People's Congress.
    \215\ TAR Language Regulations, arts. 3-5. Mandarin and Tibetan 
have ``equal effect'' when government agencies at any level in the TAR 
are ``carrying out their duties.'' Government and regional enterprise 
meetings may use either or both of the Tibetan and Mandarin languages. 
Official documents must be issued in both languages. Citizens of ethnic 
minorities are ``assured of the right to use their native language to 
carry out legal proceedings.''
    \216\ State Council Information Office, White Paper on New Progress 
in Human Rights in the Tibet Autonomous Region, February 1998.
    \217\ ``Report on the Outline of The 10th Five-Year Plan for 
National Economic and Social Development by Chinese Premier Zhu Rongji 
at the Opening of the Fourth Session of the Ninth National People's 
Congress at the Great Hall of the People in Beijing,'' China Central 
Television, 5 March 01 (Open Source Center, 5 March 01). Premier Zhu 
said, ``During the Tenth Five-Year Plan period, we need to place 
emphasis on key projects for a good beginning to the program. . . . We 
must focus on a number of major projects of strategic significance, 
such as the transmission of natural gas and electricity from western to 
eastern regions and the planned Qinghai-Tibet Railway.'' State Council 
Office of Western Region Development, ``Implementation Opinions 
Concerning Policies and Measures Pertaining to the Development of the 
Western Region,'' Xinhua, 20 December 01 (Open Source Center, 15 
January 01). ``Resources must be concentrated on the construction of a 
host of major projects that impact the development of the western 
region as a whole, such as the ``West China-East China Gas Pipeline 
Project,'' the ``West China-East China Power Transmission Project,'' 
the Qinghai-Tibet Railway, major state highways, and the proper 
exploitation, conservation, and utilization of water resources.''
    \218\ ``Figures Related to Qinghai-Tibet Railway on its One Year 
Inauguration Anniversary,'' Xinhua (Online), 01 July 07.
    \219\ Tibetan Center for Human Rights and Democracy (Online), 
Annual Report 2006, 02 March 07, 5. ``The railway facilitating a huge 
population influx, including Chinese settlers into Tibet, is bound to 
inevitably change Tibet physically and culturally causing further 
alienation of Tibetan identity.''
    \220\ ``Education, Employment Top Concerns for Tibetan Youth,'' 
Radio Free Asia (Online), 13 July 2007. The report does not refer to 
the Qinghai-Tibet railway or to an increase in the Chinese population. 
It cites the increasing importance of having fluency in Mandarin 
language in order to secure a good job. The other factor necessary for 
finding a job is ``making the right connections.''
    \221\ ``Tibet Official: Tibet Not to be ``Assimilated'' by Han Amid 
Huge Investment,'' Xinhua (Online), 20 June 07. Jampa Phuntsog 
supported his assertion by pointing out, ``The customs and traditional 
festivals also remain unchanged after millions of tourists flock there 
following the central government's large amount investment in the 
region.''
    \222\ ``Figures Related to Qinghai-Tibet Railway on its One Year 
Inauguration Anniversary,'' Xinhua. ``A year after its inauguration, 
the railway has transported 1.5 million passengers into Tibet, nearly 
half of the total tourists arrivals in the region.''
    \223\ ``Tibetan Railway to Transport 4,000 More Tourists Each 
Day,'' China Tibet Information Center (Online), 22 May 06.
    \224\ ``Tibet Expects 6 Million Tourist Arrivals by 2010,'' Xinhua, 
reprinted in People's Daily (Online), 7 June 07. ``The region hosted 
more than 2.5 million tourists last year, including 154,800 from 
overseas.'' ``More Than 1.1 mln Tourists Visit Tibet in First Half 
Year,'' Xinhua (Online), 11 July 07. ``More than 1.1 million tourists 
traveled to Tibet in the first six months of the year, up 86.3 percent 
over the same period last year, according to the local tourism 
authority.''
    \225\ ``Qinghai-Tibet Railway Transports 270,000 Passengers,'' 
Xinhua (Online), 14 September 06. ``About 40 percent of the passengers 
were tourists, 30 percent business people and the rest students, 
transient workers, traders and people visiting relatives in Tibet.''
    \226\ ``Tibet Rail Construction Completed,'' China Daily (Online), 
15 October 05. ``The line is expected to attract tourists, traders and 
ethnic Chinese settlers who currently have to take either expensive 
flights to Lhasa or bone-shaking bus rides.''
    \227\ ``Callers Decry Impact of Tibet Railway,'' Radio Free Asia 
(Online), 31 July 07.
    \228\ Ibid.
    \229\ Tibetan Centre for Human Rights and Democracy (Online), 
``Tibetan People in Lhasa Reel Under Influx of Chinese Migrants,'' 3 
August 07.
    \230\ John K. Fairbank and Roderick MacFarquhar, eds., The 
Cambridge History of China, Vol. 14, (New York: Cambridge University 
Press, 1978), 368: ``Map 7. Railway Construction between 1949 and 
1960.'' The railroads linking Jining, Hohhot, and Baotou in Inner 
Mongolia were built before the PRC was founded.
    \231\ State Council Information Office, ``White Paper on History 
and Development of Xinjiang,'' Xinhua (Online), 26 May 03.
    \232\ Tabulation on Nationalities of 2000 Population Census of 
China, Department of Population, Social, Science and Technology 
Statistics, National Bureau of Statistics, and Department of Economic 
Development, State Ethnic Affairs Commission (Beijing: Ethnic 
Publishing House, September 2003) Table 10-1: total population of the 
Inner Mongolia Autonomous Region (IMAR) was 23,323,347, of whom 
18,465,586 were Han; total population of the Xinjiang Uighur Autonomous 
Region (XUAR) was 18,459,511, of whom 7,489,919 were Han; total 
population of the Tibet Autonomous Region (TAR) was 2,616,329, of whom 
158,570 were Han. Table 10-2: total Mongol population of the IMAR was 
3,995,349. Table 10-5: total Uighur population of the XUAR was 
8,345,622. Table 10-4: total Tibetan population of the TAR was 
2,427,168. In the IMAR, the ratio of Han to Mongol was approximately 
4.6:1; in the XUAR, the ratio of Han to Uighur was approximately 0.9:1; 
in the TAR, the ratio of Han to Tibetan was approximately 0.07:1
    \233\ Human Rights Watch (Online), ` ``No One Has the Liberty to 
Refuse'--Tibetan Herders Forcibly Relocated in Gansu, Qinghai, Sichuan, 
and the Tibet Autonomous Region,'' 11 June 07, 3. A Tibetan herder from 
Maqin (Machen) county, Guoluo (Golog) Tibetan Autonomous Prefecture in 
Qinghai province (November 2004): ``They are destroying our Tibetan 
[herder] communities by not letting us live in our area and thus wiping 
out our livelihood completely, making it difficult for us to survive in 
this world, as we have been [herders] for generations. The Chinese are 
not letting us carry on our occupation and forcing us to live in 
Chinese-built towns, which will leave us with no livestock and we won't 
be able to do any other work. . . .''
    \234\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability, Promote the Building of a Harmonious Tibet,'' Seeking 
Truth, 16 January 07 (Open Source Center, 18 January 07).
    \235\ Human Rights Watch, ``No One Has the Liberty to Refuse,'' 3. 
According to the report, the current program to settle nomadic herders 
began in 2000 and has intensified in some areas since 2003.
    \236\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \237\ Hu Jintao served as the TAR Communist Party Secretary from 
1988-1992.
    \238\ ``Hu Jintao Takes Part in Deliberations by Delegation of 
Tibet Deputies,'' Xinhua, 5 March 07 (Open Source Center), 5 March 07.
    \239\ Zhang Qingli, ``Grasp the Two Major Affairs of Development 
and Stability.''
    \240\ Ibid.
    \241\ Ibid.
    \242\ Human Rights Watch, ``No One Has the Liberty to Refuse,'' 3.
    \243\ Ibid., 27.
    \244\ Ibid., 17-18. ``The [policy] known as `revert pasture to 
grassland' (tuimu huancao), was aimed at reversing degradation in 
pastoral regions by imposing total, temporary, or seasonal bans on 
grazing.''
    \245\ Ibid., 45. ``Tibetan herders had pursued their way of life 
for centuries without causing harm to the grassland; damage emerged 
only after the imposition of policies such as collectivization.''
    \246\ Ibid., 26-38.
    \247\ Ibid. The report provides as examples art. 13 (``the right of 
citizens to own lawfully earned income, savings, houses and other 
lawful property''); art. 41 (``the right to criticize and make 
suggestions,'' ``the right to make to relevant state organs complaints 
and charges against, or exposures of, violation of the law or 
dereliction of duty''); and art. 111 (``committees for people's 
mediation,'' ``mediate civil disputes,'' ``convey residents' opinions 
and demands and make suggestions to the people's government'').
    \248\ Ibid., 57.
    \249\ Ibid., 43.
    \250\ ``More Nomadic Tibetan Herders Settle Down,'' Xinhua 
(Online), 2 September 04; ``Government Campaign to Settle Tibetan 
Nomads Moving Toward Completion,'' CECC China Human Rights and Rule of 
Law Update, November 2005, 8.
    \251\ Hamish McDonald, ``China Anxious To Prove Settled Life is 
Better for Tibetan Nomads,'' Sydney Morning Herald (Online), 5 October 
05; ``Government Campaign to Settle Tibetan Nomads Moving Toward 
Completion,'' CECC China Human Rights and Rule of Law Update, November 
2005, 8.
    \252\ CECC Staff Interviews. The nomad families lived in Gannan 
(Kanlho) TAP and Tianzhu (Pari) Tibetan Autonomous County. ``Government 
Campaign to Settle Tibetan Nomads Moving Toward Completion,'' CECC 
China Human Rights and Rule of Law Update, November 2005, 8.
    \253\ ``Tibet Official Denies Forced Relocation of Herdsmen,'' 
Xinhua (Online), 20 June 07.
    \254\ Ibid.
    \255\ ``Zhang Qingli Addresses `First Plenum' of Tibet Military 
District Party Committee,'' Tibet Daily, 20 April 07 (Open Source 
Center, 8 May 07). ``250,000 Tibetans move into new houses in 2006,'' 
China Tibet Information Center (Online), 16 January 07. ``The ``Housing 
Project'' which has been put into operation since 2006 aims at 
improving locals' living condition and special attention has been put 
into the house renovation, nomads' settle-down and moving because of 
endemic [local health problems].''
    \256\ ``Party Chief Brings Tibet New Homes,'' China Daily, 
reprinted in People's Daily (Online), 15 March 07.
    \257\ Ibid.
    \258\ Tabulation on Nationalities of 2000 Population Census of 
China. Table 1-2 shows 2,427,168 Tibetans in the TAR. Table 1-2c shows 
that 2,058,011 of them are classified as ``rural.''
    \259\ ``250,000 Tibetans move into new houses in 2006,'' China 
Tibet Information Center (Online), 16 January 07. The article states, 
``The ``Housing Project'' mostly reduces the cost of building houses 
for local Tibetans as the subsidy varying from 10,000 yuan to 25,000 
yuan has been offered to locals.''
    \260\ ``Party Chief Brings Tibet New Homes,'' China Daily. ``It 
would cost a rural Tibetan about 60,000 yuan to build a new house with 
a floor space of about 200 square meters. Part of that money could come 
from the autonomous region's government. Farmers can apply to receive 
10,000 yuan; a herdsman can apply for 15,000 yuan; and a resident of a 
poverty-stricken area can seek up to 25,000 yuan.''
    \261\ Human Rights Watch (Online), ``Tibet: China Must End Rural 
Reconstruction Campaign,'' 20 December 06.
    \262\ Ibid. ``The cost of building a new house that meets the 
government's standards is about US$5,000-US$6,000, though the 
government lends households only about US$1,200 for construction 
costs.''
    \263\ ``Tibet Population Tops 2.8 Million,'' Xinhua (Online), 12 
April 07. In the TAR in 2006, ``Farmers and herders posted a per capita 
net annual income of 2,435 yuan, . . .'' ``China's GDP Grows 10.7% in 
2006,'' China Daily, reprinted in Xinhua, 25 January 07. In 2006, 
``Last year, rural residents in China had their per-capita income 
increase by 10.2 percent to 3,587 yuan.'' (Based on these figures, the 
average rural income in the TAR is 68 percent of the national average.)
    \264\ Human Rights Watch, ``Tibet: China Must End Rural 
Reconstruction Campaign.''
    \265\ ``Tibet is Remade by Hand of Chinese Government by Force,'' 
McClatchy Newspapers, 29 July 07, reprinted in Phayul, 30 July 07.
    \266\ Tibetan Centre for Human Rights and Democracy (Online), Human 
Rights Update and Archives, ``The Rural Reconstruction Campaign in 
Tibet Against the Will and Wishes of the Residents,'' April 2007.
    \267\ Ibid.
    \268\ Ibid.
    \269\ See, e.g., the Universal Declaration of Human Rights, adopted 
and proclaimed by General Assembly resolution 217 A (III) of 10 
December 48, arts. 2, 7, 18, 19, 20; International Covenant on Civil 
and Political Rights (ICCPR) adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76, arts. 
2(1), 18, 19, 21, 22, 26, 27; International Covenant on Economic, 
Social, and Cultural Rights (ICESCR) adopted by General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 3 January 
76, art. 2(1, 2).
    \270\ ``China to Monitor Ethnic Relations,'' Xinhua (Online), 29 
March 07. The State Council announced a monitoring mechanism to deal 
with ``emergencies resulting from ethnic issues.'' The mechanism aims 
to ``clamp down on ethnic separatism so as to safeguard ethnic unity, 
social stability, and national security.'' (The report provides an 
update about government efforts to crack down on what it deems to be 
ethno-nationalism.)
    \271\ CECC, 2002 Annual Report, 38.
    \272\ PRC Constitution, art. 54.
    \273\ CECC, 2006 Annual Report, 170-71.
    \274\ PRC Criminal Law, art. 103 (``organize, plot or carry out the 
scheme of splitting the State or undermining unity of the country;'' 
``incites others to split the State or undermine unity of the 
country''). The Commission's Political Prisoner Database does not 
contain official charge information for many Tibetan cases, but 
official Chinese media reports, as well as unofficial reports, 
frequently provide information indicating a charge of splittism.
    \275\ Ibid., art. 102-113.
    \276\ Dui Hua Dialogue, ``Official Responses Reveal Many Sentence 
Adjustments,'' Fall 2006, 6; ``Officials Extend Tibetan's Sentence for 
Shouting Pro-Dalai Lama Slogans in Prison,'' CECC China Human Rights 
and Rule of Law Update, December 2006, 17.
    \277\ ``Chinese Court Has Jailed More Than 20 `Reactionary' 
Tibetans Since 1996,'' Radio Free Asia (Online), 1 September 05; 
``Court Official Acknowledges Imprisoning Tibetans Who Carried Dalai 
Lama Photos Into the TAR,'' CECC China Human Rights and Rule of Law 
Update, October 2005, 4-5.
    \278\ ``Tibetan Jailed for Three Years,'' Radio Free Asia (Online), 
9 March 07. (The RFA report did not provide information about the 
charges against Penpa. Charges arising from possessing material 
pertaining to the Dalai Lama are likely to be based on Article 103 of 
the Criminal Law (inciting splittism).)
    \279\ Ibid. (The RFA report did not provide information about the 
charges against Penpa. Charges arising from possessing material 
pertaining to the Dalai Lama are likely to be based on Article 103 of 
the Criminal Law (inciting splittism).)
    \280\ ``Three Tibetan Women Arrested in Lhasa,'' Phayul (Online), 
15 June 06; ``Chinese Authorities Detain Five Tibetans for Alleged 
Leafleting,'' Radio Free Asia (Online), 16 June 06; ``Tibetan Monk 
Faces Eight Years for Separatism,'' Radio Free Asia (Online), 14 July 
06; ``China Detains Teenage Girl for Writing Pro-Independence 
Leaflets,'' Radio Free Asia (Online), 18 August 06; ``China Detains 
Tibetan Abbot in Sichuan,'' Radio Free Asia (Online), 7 September 06; 
``Another Tibetan Monk Arrested,'' Radio Free Asia (Online), 19 
September 06;; ``Officials Detain Nine Tibetan Residents of Sichuan for 
Links to Leaflets, Posters,'' CECC China Human Rights and Rule of Law 
Update, November 2006, 3-4.
    \281\ ``China Detains Teenage Girl for Writing Pro-Independence 
Leaflets,'' Radio Free Asia.
    \282\ ``Tibetan Monk Faces Eight Years for Separatism,'' Radio Free 
Asia; ``Another Tibetan Monk Arrested,'' Radio Free Asia. Namkha 
Gyaltsen was reportedly held in a detention center in Aba (Ngaba) 
Tibetan and Qiang Autonomous Prefecture in Sichuan province, according 
to RFA, and Lobsang Palden is presumed to be detained in Ganzi TAP.
    \283\ ``China Detains Tibetan Abbot in Sichuan,'' Radio Free Asia.
    \284\ Tibetan Centre for Human Rights and Democracy (Online), 
``Monk Sentenced to Five Years Term for Distributing Political 
Pamphlets,'' 14 November 06.
    \285\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses,'' 
Spring 2007, 7.
    \286\ Tibetan Centre for Human Rights and Democracy (Online), 
``Former Tibetan Political Prisoner Served With 12 Years Prison Term,'' 
24 November 06. According to the TCHRD report, Sonam Gyalpo's family 
appealed his case. No additional information is available about the 
appeal.
    \287\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses.''
    \288\ TibetInfoNet (Online), ``Detentions Before 40th Anniversary 
of TAR,'' 9 September 2005.
    \289\ Ibid. Sonam Gyalpo was sentenced to three years' imprisonment 
in TAR Prison (Drapchi) after he supported a protest march by monks in 
Lhasa on September 27, 1987. He was held without charge for about one 
year in the TAR Police Detention Center (Sitru) after July 1993, when 
he returned to the TAR following an undocumented visit to India. Dui 
Hua Dialogue, ``Summary of Recent Prisoner Responses.'' Dui Hua reports 
that, according to the official Chinese response, Sonam Gyalpo was 
sentenced to three years in prison in January 1989 for 
``counterrevolutionary propaganda and incitement.'' (It is not clear 
whether the three-year sentence began in 1987 or 1989.)
    \290\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses.''
    \291\ Ibid.
    \292\ Tibetan Centre for Human Rights and Democracy (Online), 
``Commentary Manuscript Lands Tibetan Youth Ten Years in Prison,'' 25 
July 06.
    \293\ Ibid.
    \294\ International Campaign for Tibet (Online), ``Tibetan Scholar 
Sentenced to Ten Years in Prison After Writing Book on History and 
Culture,'' 8 August 06.
    \295\ Dui Hua Dialogue, ``Summary of Recent Prisoner Responses,'' 
Spring 2007, 7.
    \296\ International Campaign for Tibet, ``Tibetan Scholar Sentenced 
to Ten Years.'' ICT obtained a copy of the letter.
    \297\ ``Official Information Confirms Sentence for Tibetan Nun Who 
Put Up Posters,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 17.
    \298\ Free Tibet Campaign (Online), ``Four Monks and Nuns Arrested 
for Displaying Dalai Lama Poster,'' 30 January 06; ``Gansu Court 
Sentences Five Tibetan Monks and Nuns for Protest Posters,'' CECC China 
Human Rights and Rule of Law Update, March 2006, 10-11; Radio Free Asia 
(Online), ``China Arrests Tibetan Monks, Nuns for Dalai Lama Poster,'' 
20 December 05; Tibetan Centre for Human Rights and Democracy (Online), 
``Arrest of Tibetan Monks for Postings Calling for Freedom in Tibet,'' 
15 July 05; ``Official Information Confirms Sentence for Tibetan Nun 
Who Put Up Posters,'' CECC China Human Rights and Rule of Law Update, 
December 2006, 17.
    \299\ ``Five Tibetan Monks Jailed in Western China,'' Radio Free 
Asia (Online), 13 February 05; Tibetan Centre for Human Rights and 
Democracy, Human Rights Update February 2005, ``Monks Imprisoned for 
Political Journal,'' April 2005.
    \300\ International Campaign for Tibet (Online), ``Long Sentences 
for Tibetan Political Prisoners for `Splittist' Offences,'' 12 May 06. 
The ICT report contains a link to an ICT translation of the sentencing 
document. ``Lhasa Court Commutes Life Sentence for Children's Home 
Director to 19 Years,'' CECC China Human Rights and Rule of Law Update, 
April 2006, 16. The sentencing document lists evidence against Bangri 
Chogtrul that includes meeting the Dalai Lama, accepting a donation for 
the home from a foundation in India, and a business relationship with a 
Tibetan contractor who lowered a Chinese flag in Lhasa in 1999 and 
tried to blow himself up. Jigme Tenzin Nyima acknowledged meeting the 
Dalai Lama, accepting the contribution, and knowing the contractor, but 
he denied the charges against him and rejected the court's portrayal of 
events.
    \301\ Dui Hua (Online), ``Dui Hua Executive Director Attends 
Trials, Explores Judicial Openness, Clemency Granted to Tibetan Monk, 
Labor Activist,'' 28 February 06.
    \302\ ``The Execution of Lobsang Dondrub and the Case Against 
Tenzin Deleg: The Law, the Courts, and the Debate on Legality,'' Topic 
Paper of the Congressional-Executive Commission on China, February 
2003; Human Rights Watch (Online), Trials of a Tibetan Monk: The Case 
of Tenzin Delek, 9 February 04.
    \303\ Ibid.
    \304\ ``Tibetan Monk Involved in Terrorist Bombing Still in 
Prison,'' Xinhua (Online), 31 December 04.
    \305\ Tibetan Centre for Human Rights and Democracy (Online), ``A 
Tibetan Arrested in Lithang for Political Demonstration,'' 2 August 07.
    \306\ International Campaign for Tibet (Online), ``Security 
Crackdown Feared Following Public Appeal by Tibetan for Return of Dalai 
Lama,'' 2 August 07; ``Scores of Tibetans Detained for Protesting at 
Festival,'' Radio Free Asia (Online), 2 August 07.
    \307\ International Campaign for Tibet (Online), ``Official 
Petition on Dalai Lama May Have Provoked Lithang Action,'' 10 August 
07. According to an ICT source: ``'It seems that most of the local 
population knew about this petition being circulated by officials, and 
it caused an increase in tension and anxiety. People in this area 
revere His Holiness the Dalai Lama, and Runggye Adak's action could 
have been a response to this provocative move by officials. Local 
people may have somehow wanted to demonstrate that this petition is a 
lie, and did not represent the wishes of Tibetans in Lithang.''
    \308\ ``Villager Detained for Inciting Separation,'' Xinhua, 
reprinted in China Daily (Online), 3 August 07.
    \309\ International Campaign for Tibet (Online), ``New Images 
Confirm Dispersal of Tibetans by Armed Police After Lithang Protest: 
Runggye Adak's Relatives Taken Into Custody,'' 24 August 07.
    \310\ Tibetan Centre for Human Rights and Democracy (Online), ``The 
Chinese Authorities Transfer Adruk Lopoe to an Unknown Location, Arrest 
Another Tibetan Nomad,'' 28 August 07; International Campaign for 
Tibet, ``New Images Confirm Dispersal of Tibetans by Armed Police After 
Lithang Protest.'' Tibetan Centre for Human Rights and Democracy 
(Online), ``China Arrest Three Nephews of Ronggye A'drak in Lithang,'' 
22 August 07.
    \311\ Tibetan Centre for Human Rights and Democracy (Online), ``The 
Chinese Authorities Transfer Adruk Lopoe to an Unknown Location, Arrest 
Another Tibetan Nomad,'' 28 August 07.
    \312\ Human Rights in China (Online), ``Tibetan Schoolboys Detained 
as Crackdown Worsens,'' 20 September 07.
    \313\ Ibid. The students allegedly wrote slogans on walls of the 
village police station, and elsewhere in the village.
    \314\ Ibid. According to the report, authorities held the students 
at a village police station from September 7-9 and allowed families to 
access the children.
    \315\ It is commonplace for multiple Tibetans in the same community 
to have identical names. Generally, Tibetan names do not include a 
family name.
    \316\ The number of known cases of current Tibetan political 
detention or imprisonment reported in CECC Annual Reports: 2002 Annual 
Report, 39, ``less than 200,'' based on a 2002 report by the Tibet 
Information Network (TIN); 2003 Annual Report, 79, ``approximately 
150,'' based on a March 2003 TIN report; 2004 Annual Report, 101, ``145 
prisoners,'' based on a February 2004 TIN report; 2005 Annual Report, 
112, ``120 current cases,'' based on CECC Political Prisoner Database 
information current in June 2005; 2006 Annual Report, 171, ``103 known 
cases of current Tibetan political detention or imprisonment,'' based 
on PPD information current in August 2006.
    \317\ Dui Hua Dialogue, ``Official Responses Reveal Many Sentence 
Adjustments.''
    \318\ United Nations Commission on Human Rights, Working Group on 
Arbitrary Detention, Decisions adopted by the Working Group on 
Arbitrary Detention, Decision No. 65/1993, 5 October 94.

    Notes to Section VI--Developments in Hong Kong
    \1\ United States-Hong Kong Policy Act of 1992, Public Law No. 102-
383, enacted 4 April 90; The Basic Law of the Hong Kong Special 
Administrative Region of the People's Republic of China, enacted 4 
April 90; Joint Declaration of the Government of the United Kingdom of 
Great Britain and Northern Ireland and the Government of the People's 
Republic of China on the Question of Hong Kong, adopted 19 December 84.
    \2\ CECC, 2005 Annual Report, 11 October 05, 115-116.
    \3\ CECC, 2004 Annual Report, 5 October 04, 104-6. Decision of the 
Standing Committee of the National People's Congress on Issues Relating 
to the Methods for Selecting the Chief Executive of the Hong Kong 
Special Administrative Region in the Year 2007 and for Forming the 
Legislative Council of the Hong Kong Special Administrative Region in 
the Year 2008, 26 April 2004.
    \4\ The Basic Law of the Hong Kong Special Administrative Region of 
the PRC, arts. 45 and 68.
    \5\ Bureau of East Asian and Pacific Affairs, U.S. Department of 
State, Hong Kong Policy Act Report, 30 June 07.
    \6\ Stephen Lam, Secretary for Constitutional and Mainland Affairs, 
Government of the Hong Kong Special Administrative Region, ``Welcome 
Message,'' reprinted by Constitutional and Mainland Affairs Bureau 
(Online) (last visited October 8, 2007).
    \7\ Ibid.
    \8\ Ibid.
    \9\ Government of the Hong Kong Special Administrative Region 
(Online), Green Paper on Constitutional Development, July 07.
    \10\ Hong Kong Economic and Trade Offices in the United States 
(Online), ``Constitutional Reform Green Paper Unveiled,'' 11 July 07.
    \11\ Scarlett Chiang and Diana Lee, ``Paper spells out options for 
reform,'' The Standard (Online), 12 July 07.
    \12\ Government of the Hong Kong Special Administrative Region 
(Online), ``Government's response to procession: opinions expressed 
during consultation period will form basis for assessment,'' 7 October 
07.
    \13\ Bureau of Democracy, Human Rights, and Labor, U.S. Department 
of State, Country Reports on Human Rights Practices--2006, China 
(includes Tibet, Hong Kong, and Macau), 6 March 07.
    \14\ As the Commission has noted previously, ``A March 2006 report 
by the UN Human Rights Committee, which is responsible for reviewing 
compliance with the International Covenant on Civil and Political 
Rights (ICCPR), expressed concern about the absence of universal 
suffrage in Hong Kong, as well as with the implementation of the 
procedure for interpretation of the Basic Law, a reference, in part, to 
the April 2004 NPCSC decision to prohibit universal suffrage in the 
2007 Chief Executive and 2008 Legislative Council elections. The report 
questioned the HKSAR government's compliance with Article 25 of the 
ICCPR in both situations. Article 25 states that every citizen should 
have the right and the opportunity, without unreasonable restrictions, 
to participate in public affairs, either by himself or through a 
directly elected representative, and to express his political will 
through universal suffrage. The report concluded that, `(a)ll necessary 
measures should be taken whereby the Legislative Council is elected by 
universal and equal suffrage. It should be ensured that all 
interpretations of the Basic Law, including on electoral and public 
affairs issues, are in compliance with the Covenant.' See CECC, 2006 
Annual Report, 20 October 06, 176-177. See also International Covenant 
on Civil and Political Rights, adopted by General Assembly resolution 
2200A (XXI) of 16 December 66, entry into force 23 March 76: See also 
UN Human Rights Committee, Concluding Observations of the Human Rights 
Committee--Hong Kong Special Administrative Region (HKSAR), 30 March 
06; The Sino-British Joint Declaration states that the provisions of 
the ICCPR still remain in force in Hong Kong after the territory's 
reversion to the PRC. See Joint Declaration of the Government of the 
United Kingdom of Great Britain and Northern Ireland and the Government 
of the People's Republic of China on the Question of Hong Kong, Section 
XIII.
    \15\ U.S. Department of State, Country Reports on Human Rights 
Practices--2006, China.

                                 <all>

</pre></body></html>
